<html>
<title> - S. Hrg. 106-962 COLUMBIA RIVER POWER SYSTEM: BIOLOGICAL OPINION AND THE DRAFT BASINWIDE SALMON RECOVERY STRATEGY</title>
<body><pre>[Senate Hearing 106-962]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 106-962

COLUMBIA RIVER POWER SYSTEM: BIOLOGICAL OPINION AND THE DRAFT BASINWIDE 
                        SALMON RECOVERY STRATEGY
=======================================================================

                                HEARINGS

                               BEFORE THE

                 SUBCOMMITTEE ON FISHERIES, WILDLIFE, 
                               AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       SEPTEMBER 13 AND 14, 2000
                      NOVEMBER 20, 2000--BOISE, ID

                               __________

                                   ON

 A REVIEW OF A DRAFT FEDERAL PROPOSAL TO RECOVER SALMON SPECIES ON THE 
                       COLUMBIA AND SNAKE RIVERS



  Printed for the use of the Committee on Environment and Public Works





                       U. S. GOVERNMENT PRINTING OFFICE
71-532                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session

                 ROBERT SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        FRANK R. LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             RON WYDEN, Oregon
ROBERT F. BENNETT, Utah              BOB GRAHAM, Florida
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)





                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 13, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    24
Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     4

                               WITNESSES

Bloch, Eric J. Jr., chairman, Northwest Power Planning Council, 
  Portland, OR, on behalf of Governor Kitzhaber..................    28
    Prepared statement...........................................    79
Boyer, Lionel, chairman, Shoshone-Bannock Tribes, Fort Hall, ID..    17
    Prepared statement...........................................    74
Cassidy, Frank L., Vancouver, WA, on behalf of Governor Locke....    30
    Prepared statement...........................................    82
Cottingham, David, Special Assistant to the Director, Fish and 
  Wildlife Service, Department of the Interior; accompanied by 
  Howard Shaller, Vancouver, WA Office, Fish and Wildlife Service    48
    Prepared statement...........................................    96
Etchart, John, Helena, MT, on behalf of Governor Racicot.........    26
    Prepared statement...........................................    76
Johansen, Judith A., Administrator and Chief Executive Officer, 
  Bonneville Power Administration, Department of Energy, 
  Portland, OR...................................................    47
    Prepared statement...........................................    93
Kempthorne, Hon. Dirk, Governor, State of Idaho..................     8
    Prepared statement...........................................    68
Mogren, Colonel Eric T., Northwestern Division, Army Corps of 
  Engineers, Portland, OR; accompanied by Doug Arndt.............    45
    Prepared statement...........................................    89
Penney, Samuel, chairman, Nez Perce Tribal Executive Committee, 
  Lapwai, ID, representing the Columbia River Intertribal Fish 
  Council........................................................    15
    Prepared statement...........................................    73
Stelle, William Jr., Northwest region regional administrator, 
  National Marine Fisheries Service, Seattle, WA.................    43
    Prepared statement...........................................    86

                          ADDITIONAL MATERIAL

McDonald, J. William, regional director, Pacific Northwest Region 
  Bureau of Reclamation, Department of the Interior, prepared 
  statement......................................................    96
Recommendations of the Governors of Idaho, Montana, Oregon and 
  Washington for the Protection and Restoration of Fish in the 
  Columbia River Basin...........................................    59
                                 ------                                

                           SEPTEMBER 14, 2000
                           OPENING STATEMENTS

Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....    99

                               WITNESSES

Batson, Derrek, Treasurer, Board of Directors, Idaho Salmon and 
  Steelhead Unlimited, Napa, ID..................................   117
    Prepared statement...........................................   175
Bosse, Scott, Idaho Rivers United, Boise, ID.....................   119
    Prepared statement...........................................   176
Bouwes, Nick, Biometrician, Oregon Department of Fish and 
  Wildlife, Portland, OR.........................................   100
    Prepared statement...........................................   147
Bowles, Edward C., Anadromous Fish Manager, Idaho Department of 
  Fish and Game, Boise, ID.......................................   102
    Prepared statement...........................................   153
Kutchins, Keith, Anadromous Fish Biologist, Shoshone-Bannock 
  Tribes, Fisheries Department, Ft. Hall, ID.....................   104
    Prepared statement...........................................   168
Masonis, Robert J., Director, Northwest Regional Conservation 
  Programs, American Rivers, Seattle, WA.........................   121
    Prepared statement...........................................   180
Patton, Sara, Coalition Director, Northwest Energy Coalition, 
  Seattle, WA....................................................   132
    Prepared statement...........................................   181
Semanko, Norman, M., Executive Director and General Counsel, 
  Idaho Water Users, Boise, ID...................................   135
    Prepared statement...........................................   187
Spain, Glen, Northwest Regional Director, Pacific Coast 
  Federation of Fishermen's Association, Inc., Eugene, OR........   137
    Prepared statement...........................................   198
Weber, Earl, C. Fisheries Scientist, Columbia River Inter-Tribal 
  Fish Commission, Portland, OR..................................   106
    Prepared statement...........................................   171

                          ADDITIONAL MATERIAL

Comments by Idaho Water Users on the Draft Biological Opinion for 
  Operation of the Federal Columbia River Power System Including 
  the Juvenile Fish Transportation Program and the Bureau of 
  Reclamation's 31 Projects, Including the Entire Columbus Basin 
  Project I60252.................................................
Federal Caucus, Comments by Idaho Water Users on Conservation of 
  Columbia Basin Fish Draft Basin-wide Salmon Recovery Strategy..   195
Resumes:
    Craig L. Sommers.............................................   249
    David B. Shaw................................................   248
    James J. Anderson............................................   245
    Richard A. Hinrichsen........................................   249
    William J. McNeil............................................   250
Statements:
    Northwest Energy Coalition...................................   184
    Pacific Coast Federation of Fishermen's Associations.........   201
                                 ------                                

                      NOVEMBER 20, 2000--BOISE, ID
                           OPENING STATEMENTS

Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....   253

                               WITNESSES

Anderson, James, Columbia Basin Research, Seattle, WA............   277
    Prepared statement...........................................   319
Arndt, Doug, Chief, Fish Management Division, Army Corps of 
  Engineers, Northwestern Division, North Pacific Region, 
  Portland, OR...................................................   260
    Prepared statement...........................................   318
Barrie, Thayne, owner, Sunset Sports Center, Boise, ID...........   296
    Prepared statement...........................................   341
Benson, Mark J., public affairs director, Idaho Potlatch 
  Corporation, Lewiston, ID......................................   299
    Prepared statement...........................................   346
Corwin, Scott, PNGC Power........................................   301
    Prepared statement...........................................   347
Dreher, Karl, director, Idaho Department of Water Resources, 
  Boise, ID......................................................   280
    Prepared statement...........................................   326
    Report, Chinook Salmon Survival..............................   332
James, Daniel, on behalf of Pacific Northwest Waterways 
  Association....................................................   294
    Prepared statement...........................................   338
Paulsen, Charles, president, Paulson Environment Research, Lake 
  Oswego, OR.....................................................   278
    Prepared statement...........................................   321
Rigby, Richard, program manager, Water Rights in Acquisition, 
  Pacific Northwest Region, Bureau of Reclamation................   263
Schaller, Howard, project leader, Columbia River Fisheries 
  Program, Fish and Wildlife Service, Vancouver, WA..............   260
    Prepared statement...........................................   318
Schiewe, Michael, director, Northwest Fisheries Science Center, 
  Fish Ecology Division, National Marine Fisheries Service, 
  Seattle, WA....................................................   259
    Prepared statement...........................................   317
Smith, Craig, Northwest Food Processors Association, Salem, OR...   297
    Prepared statement...........................................   343
Thurow, Russell, Fisheries Research Scientist, Rocky Mountain 
  Research Station, Boise, ID....................................   283
    Prepared statement...........................................   334

                          ADDITIONAL MATERIAL

Article, Science Shifting on Dam Removals I60339.................
Letter, NMFS Biological Opinion..................................   334
Statements:
    Eames, Matt, senior legislative affairs representative, Idaho 
      Power Company..............................................   359
    Save Our Wild Salmon, Seattle, WA............................   353
    Saving Salmon in the Pacific Northwest.......................   339

 
COLUMBIA RIVER POWER SYSTEM: BIOLOGICAL OPINION AND THE DRAFT BASINWIDE 
                        SALMON RECOVERY STRATEGY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2000

                                       U.S. Senate,
               Committee on Environment and Public Works,  
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m., in 
room 406, Senate Dirksen Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo, Boxer, and Baucus [ex officio].
    Senator Crapo. This hearing will come to order.
    This is the Subcommittee on Fisheries, Wildlife, and Water, 
the hearing to examine the draft biological opinion on the 
Federal Columbia River power system and the Federal Caucus 
draft basinwide salmon recovery strategy.
    I have an opening statement, but Senator Boxer has not only 
an opening statement but some testimony to give in another 
hearing very quickly, and so we are going to go first to 
Senator Boxer and she will open this hearing today with her 
opening statement first.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman, for your 
understanding. It is true that I'm on a panel at the Commerce 
Committee now, so I will go as quickly as I can.
    This is so important. It is wonderful to see the good 
Governor here from Idaho, because I enjoyed so much when he was 
here in the Senate. We were on a couple of committees together, 
as I remember it, and he was always one of the nicest people 
around here, so we welcome him.
    Mr. Chairman, I want to compliment you and your staff for 
working so closely with me and my staff on the witness list so 
that we have balanced views. That's always so important.
    It would be easy to assume that the debate over the Snake 
River salmon is of importance only to the people of the Pacific 
Northwest. While people in Oregon, Washington, and Idaho will 
undoubtedly be the ones directly impacted by the efforts to 
save these fish, the salmon, the issue has larger implications 
that transcend the region and put it on the national radar 
screen.
    At its essence, the debate over Snake River salmon raises 
tough and fundamental questions about whether we, as a nation, 
are serious about two of our most important laws, the 
Endangered Species Act and the Clean Water Act. For me, those 
are basic, important pieces of legislation that I want to see 
strengthened rather than weakened.
    Now, nobody in this room would challenge the assertion that 
we've dramatically altered the natural ecology of the once-
mighty, free-flowing Snake River. The human impacts on the 
river system have left a river with water quality that is in 
extreme violation of the Clean Water Act and a set of salmon 
stocks that are just barely staving off extinction.
    The salmon species in question are of religious and 
spiritual importance to northwest tribes, they are cultural 
icons for the region, and they were once an economic mainstay 
because of the tremendously valuable commercial and sport 
fisheries they sustained. In fact, the decline of these salmon 
stocks has led to restrictions on salmon fishermen from central 
California all the way up to Alaska.
    While there are people who argue that we need not save 
every species from extinction, even opponents of the Endangered 
Species Act would have difficulty arguing that it is in the 
region's interest or our Nation's interest to watch these 
particular fishruns go extinct. In fact, it would be hard to 
find a species more deserving of protection than these salmon. 
If we are not serious about saving them or restoring the water 
quality in the river, it is hard to know under what 
circumstance we would ever be serious about saving a species. 
Yet, for decades we have either avoided the issue or employed 
expensive but unsuccessful recovery tools. The result has been 
that we have had to watch as these fish continue their 
precipitous decline toward extinction.
    I take this issue particularly serious because I view our 
commitment and success in saving the Snake River salmon as a 
good indicator about how we plan to handle the many listed 
salmon stocks in my State.
    Interestingly, many of the major newspapers in my State 
have made this connection and have editorialized in favor of 
removing the four Lower Snake River dams to recover the salmon. 
I know this is extremely contentious.
    Similarly, I have been contacted by many California 
fishermen, conservationists, and sportsmen, who support serious 
efforts to save Snake River salmon because they view it as an 
indicator of how the Federal Government will approach salmon 
recovery in my State.
    Unfortunately, I must say that I am concerned that the 
draft biological opinion that has been produced will do little 
to steer us toward more effective Snake River salmon recovery 
efforts. The opinion appears to rely on recovery strategies 
such as trucking and barging that have already cost millions of 
dollars but have been basically ineffective.
    The opinion avoids the issue of dam removal, which Federal 
scientists have suggested is the clearest and most certain 
route to salmon recovery.
    To me, it would be all right if it went that way if there 
were aggressive alternatives to compensate for not taking down 
the dams. The plan lacks an adequate mechanism for triggering 
emergency recovery actions should the proposed strategies fail.
    I'd like to see a plan that has more specific performance 
standards and timelines for meeting those standards.
    Having said this, I'm not suggesting that this draft 
opinion be jettisoned in lieu of some alternative planning 
effort. The last few decades we have planned for and studied 
these salmon stocks nearly to the point of extinction. It is 
vital that this biological opinion be reworked to present a 
more realistic recovery strategy for Snake River salmon. It is 
also very vital that we keep this effort moving forward and 
produce a good biological opinion in a timely way. The last 
thing we need is to further delay the important decisions that 
must be made.
    We have an obligation to fulfill the mandates of our 
Federal environmental laws, to meet our treaty commitments to 
the Native American tribes, and to preserve these species for 
future generations.
    So, Mr. Chairman, again, it is most unfortunate for me that 
I must leave, but I am leaving this hearing in your great hands 
and will be briefed thoroughly and will try to get back here if 
I can give my testimony quickly.
    Again, welcome to you, Governor, and to all of our fine 
witnesses today.
    Thank you so much, Mr. Chairman.
    Senator Crapo. Thank you, Senator Boxer.
    [The prepared statement of Senator Boxer follows:]
        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California
    Mr. Chairman, I want to thank you for holding this oversight 
hearing to address the important questions surrounding the recovery of 
the listed Snake River salmon runs. The size of our witness list is a 
good indication of just how complex and controversial this issue is. It 
would be easy to assume that the debate over these Snake River salmon 
is of importance only to the people of the Pacific Northwest. While 
people in Oregon, Washington, and Idaho will undoubtedly be the ones 
most directly impacted by efforts to save these fish, the issue has 
larger implications that transcend the region and place it squarely on 
the national radar screen. At its essence, the debate over Snake River 
salmon raises tough and fundamental questions about whether we as a 
nation are serious about two of our most important Federal 
environmental laws--the Endangered Species Act and the Clean Water Act.
    Nobody in this room would challenge the assertion that we have 
dramatically altered the natural ecology of the once mighty, free-
flowing Snake River. The human impacts on the Snake river system have 
left a river with water quality that is in extreme violation of the 
Clean Water Act and a set of salmon stocks that are just barely staving 
off extinction.
    The salmon species in question are of religious and spiritual 
importance to Northwest tribes; they are cultural icons for the region; 
and they were once an economic mainstay because of the tremendously 
valuable commercial and sport fisheries they sustained. In fact, the 
decline of these salmon stocks have led to restrictions on salmon 
fishermen operating from central California all the way up to Alaska.
    While there are people who argue that we need not save every 
species from extinction, even opponents of the Endangered Species Act 
would have difficulty arguing that it is in the region's interest--or 
our nation's interest--to watch these particular fish runs go extinct. 
In fact, it would be hard to find a species more deserving of 
protection than these salmon. If we are not serious about saving these 
salmon or restoring the water quality in this river--it is hard to know 
under what circumstance we would ever be serious about it.
    Yet, for decades we have either avoided the issue or employed 
expensive, but unsuccessful recovery tools. The result has been that we 
have had to watch as these fish continued their precipitous decline 
toward extinction.
    I take this issue particularly serious because I view our 
commitment and success in saving the Snake River salmon as a good 
indicator of how we plan to handle the many listed salmon stocks in my 
State. Interestingly, many of the major papers in my State have made 
this connection and have editorialized in favor of removing the four 
lower Snake River Dams to recover the salmon. Similarly, I have been 
contacted by many California fishermen, conservationists, and sportsmen 
who support serious efforts to save Snake River salmon because they 
view it as an indicator of how the Federal agencies will approach 
salmon recovery in my State.
    Unfortunately, I must say that I am deeply concerned that the draft 
biological opinion that has been produced will do little to steer us 
toward more effective Snake River salmon recovery efforts. The 
biological opinion appears to rely on recovery strategies, such as 
trucking and barging, that have already cost millions of dollars, but 
have proven relatively ineffective. The opinion avoids the issue of dam 
removal--which Federal scientists have suggested is the clearest and 
most certain route to salmon recovery--but offers few really aggressive 
alternatives to compensate. The plan also lacks an adequate mechanism 
for triggering emergency recovery actions should the proposed 
strategies fail. I would like to see a plan that has much more specific 
performance standards and timelines for meeting those standards.
    Having said this, I am not suggesting that this draft biological 
opinion be jettisoned in lieu of some alternative planning effort. For 
the last few decades, we have planned for and studied these salmon 
stocks nearly to the point of extinction. It is vital that this 
biological opinion be reworked to present a more realistic recovery 
strategy for Snake River salmon. It is also vital that we keep this 
effort moving forward and produce a good biological opinion in a timely 
way. The last thing we need is to further delay the important decisions 
that must be made.
    We have an obligation to fulfill the mandates of our Federal 
environmental laws, to meet our treaty commitments to the Native 
American tribes, and to preserve these species for future generations. 
I look forward to hearing from the witnesses how this biological 
opinion might be improved to achieve those goals.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. We do appreciate our good working 
relationship, and I'm sure that we will have plenty of 
opportunities to discuss this issue.
    The Pacific Northwest region of the United States is the 
home to several sub-species of culturally, economically, and 
biologically significant species of anadromous fish--fish that 
spawn in fresh water, migrate to the Pacific Ocean, where they 
reach maturity, and then return to their fresh water birthplace 
to spawn and die, their carcasses enriching the ecosystem that 
feeds the newly hatched young.
    Twelve of these sub-species of salmon and steelhead are 
currently listed for protection under the Endangered Species 
Act. Note that there are also several ESA-listed fish and 
wildlife species in the Pacific Northwest, including bull trout 
and Kootenai River white sturgeon.
    There are certainly many relationships between these 
species and other aquatic and terrestrial species and their 
potential risk for extinction; however, the primary focus of 
this initial hearing must necessarily be on the ESA-listed 
salmon and steelhead.
    Several decades of work by Federal, State, and tribal 
governments and many organizations and individuals have failed 
to stop the steady decline of these fish. These efforts have 
cost taxpayers and electricity ratepayers an estimated $3 
billion, yet the fish have continued to decline to the point 
where they may soon become extinct.
    Extinction of these salmon and steelhead is culturally 
abhorrent to the northwest and illegal under the Endangered 
Species Act and would violate tribal treaties and Federal 
commitments to the fisheries.
    Extinction must be avoided and recovery must happen.
    How to recover these fish is controversial and laden with 
economic impacts, cultural and spiritual emotion, scientific 
intrigue, and courtroom maneuvering as well as publicity 
spinning.
    Let me state very clearly at this point that I do not yet 
see any justification for an aggressive flow augmentation 
program. The evidence to me shows that a flow augmentation 
approach will not save the salmon.
    At the same time, I do not disagree with the draft 
biological opinion's approach, which does not recommend 
removing the dams on the Lower Snake. At this point I see no 
political support for such action, and believe that such a 
recommendation would put the region into economic and political 
gridlock in such a way that would prohibit even further efforts 
to make reasonable steps to save the salmon.
    The National Marine Fisheries Service, the Fish and 
Wildlife Service, and the rest of the Federal action agencies, 
together known as the ``Federal Caucus,'' have produced a draft 
biological opinion and a draft basin-wide salmon recovery 
strategy. These draft documents will soon lead to the 
biological opinion and then to the recovery plan that will 
dictate activities in the Pacific Northwest that seek to 
recover ESA-listed anadromous fish.
    Yesterday, my friend and colleague, Senator Gordon Smith of 
Oregon, held a hearing at which many of the same Federal Caucus 
witnesses that are with us today testified. My understanding is 
that Senator Smith's hearing focused proper attention on 
regional energy and economic issues. Senator Smith makes a very 
good point that needs to be heard and understood throughout the 
region, but most particularly heard by members of the Federal 
Caucus. That message is that the Federal Government must get 
this right and do the things that make sense and work now, 
while we have this window of opportunity.
    Senator Smith and his colleagues on the Water and Power 
Subcommittee have made very positive contributions to steering 
this process in the right direction, and I look forward to 
considerable consultation between the two subcommittees as we 
move forward.
    Very significantly, for the first time in history the four 
Governors in the Pacific Northwest States of Idaho, Montana, 
Washington, and Oregon have jointly released a series of 
recommendations that outline the process the Governors feel 
must be followed to achieve anadromous fish recovery. Getting 
the four Governors together to produce their recommendations, 
given the widely varied constituencies they must each 
represent, is remarkable and encouraging.
    Let me note the openness, the transparency, and the real 
collaboration that characterize the process used by the 
Governors and their staff in preparing their recommendations. 
The four Governors have done a good job in identifying both the 
proper focus on where the real problems are and the real 
balance among the various solutions that are available.
    The Federal Caucus would have done well to have followed 
the same type of process. Instead, I had to file a FOIA request 
to find out what the Federal Caucus was doing, and even then 
faced opposition in full disclosure. Many of the others in the 
region still feel that they do not and have not had an 
opportunity to have real collaborative input into the Federal 
decisionmaking process.
    The Northwest Power planning Council has commenced a series 
of public hearings in the Pacific Northwest to discuss draft 
amendments to its Columbia River Basin Fish and Wildlife 
Program. The Northwest Power Planning Council is an interstate 
compact of the four Pacific Northwest States, charged by the 
Pacific Northwest Power Planning and Conservation Act of 1980 
to protect and enhance fish and wildlife, while assuring the 
Pacific Northwest's electric power supply.
    The Northwest Power Planning Council seeks to develop and 
monitor the implementation of this fish and wildlife program by 
the Bonneville Power Administration, the U.S. Army Corps of 
Engineers, the Bureau of Reclamation, and the Federal Energy 
Regulatory Commission.
    While the Northwest Power Planning Council program deals 
with a wide range of species and habitats, the fact is that the 
primary focus is on the ESA-listed anadromous fish and the 
effects of the hydroelectric system on these fish.
    There are an enormous number of interests throughout the 
Pacific Northwest that must be heard and understood. These 
interests' perspectives must be given a thorough review, and 
their recommendations about how we can recover these wild fish 
must be given equal consideration.
    I trust that all interests want to recover wild salmon and 
steelhead. The debate is about how to best get the job done.
    We are particularly concerned that the cultural and 
economic interests must be satisfactorily considered. Without 
collaboration from the economic interests and without great 
sensitivity to the cultural aspects of this issue, it is highly 
unlikely that any recovery plan will have enough public support 
to be implemented.
    Given these facts, I want everyone in the region to 
understand that this hearing is but the first, and we are now 
scheduling subsequent hearings, including field hearings in the 
Pacific Northwest. I want everyone to be heard by this 
subcommittee.
    The primary purpose of this subcommittee's hearing here is 
to examine the science used to develop the draft BIOP opinion 
and the draft recovery strategy. We will examine in detail the 
processes and assumptions used to develop the science. We will 
look at the implications of the scientific conclusions. The 
proposal's recovery standards, the balance of effort among 
various measures aimed at each of the H's--Habitat, Harvest, 
Hatchery, and Hydrosystems--and the various aspects of the 
computer models used to assemble the draft documents will all 
be examined.
    Let me describe the role of science, as I see it. Science, 
economy, and culture will all be partners in recovering these 
wild anadromous fish. Recovery must first be based in science, 
and we must get the science right.
    We must not fear good, accurate science. Some worry about 
where good, accurate science may lead us, and as a result may 
seek to manipulate scientific processes or mischaracterize 
scientific hypotheses and conclusions.
    Such activity, in my opinion, is a disservice and it can 
only bring further gridlock and more severe penalties to the 
Pacific Northwest. I urge people from all perspectives to 
insist on good science and be willing to recognize it when we 
find it.
    The approach I prefer is to understand the good science and 
then let the people and the policymakers use that science to 
craft a recovery plan that gives the economic and cultural 
partners the trust they need to be advocates and participants 
in recovery.
    The imposition of bad process or bad science will result in 
distrust and retreat into self-interest. Such a tragic path 
backward will have severe penalties for the Pacific Northwest 
and ultimately result in the loss of these incredible fish.
    There is too much at stake to allow our limited resources 
to be applied to false schemes or solutions. We have got to get 
the science right.
    If I understand the direction that we appear to be taking 
now as a result of the Federal Caucus' action, we now have a 
window of time--6 to 8 or 10 years--to evaluate other options 
and take other options and take steps toward solutions that 
will seek to recover the fish before evaluation of dam 
breaching is then brought back to the table for further 
reconsideration. That means we have a short window of time in 
which we must do things right. Otherwise, if we continue to 
spin our wheels or make wrong decisions about how to approach 
recovery, we will, in 5, 6, 8 years be once again facing the 
difficult question of whether the region must breach the dams 
to save the fish.
    I believe that other solutions can work and other solutions 
will work if we can find the right approaches and move ahead 
now. That's one of the main purposes of this hearing is to make 
sure that we take this opportunity that we have to find the 
right path forward so that if and when the time comes that we 
have had experience with proposals that we believe will work, 
we can then give them the kind of evaluative resolution that 
they need.
    We have today a number of panels. I believe that all of the 
witnesses have received instructions, but I want to remind all 
of the witnesses, particularly because we have such a long list 
of witnesses, that we encourage you to follow the lights.
    Each witness has been given the opportunity to submit 
written testimony. That written testimony is a part of the 
record and will be accepted and reviewed carefully by the 
Members and by the staff.
    I have seen a couple but very few witnesses who have been 
able to say in 5 minutes everything they wanted to say in their 
testimony before this subcommittee, and I just encourage you to 
recognize that we need time for give-and-take between the 
Senators and the witnesses, and to limit your verbal remarks to 
the 5-minute limit.
    The green light will be on for 4 minutes. The yellow light 
comes on when 1 minute remains. The red light means that you 
should sum up very quickly your thought at this point and trust 
that anything you didn't get said will either be brought out in 
questions or reviewed in your written testimony. Witnesses will 
also certainly have the opportunity to submit further 
testimony, as we usually keep the record open for a period of 
days to allow things to be supplemented and corrected.
    If any witnesses go over, I don't want you to be offended, 
but I will remind you that you are going a little long and 
encourage you to wrap it up.
    Our first panel today is the Hon. Governor Dirk Kempthorne.
    Governor, we welcome you.
    Governor Kempthorne is not only a good friend and colleague 
of mine, but the former chairman of this subcommittee, and so 
he has a lot of experience not only with the Senate but with 
these issues, as well.
    Governor Kempthorne, we welcome you here today. We 
encourage you to share with us the insight that you have now as 
Governor, having formerly been the Senator for the State of 
Idaho.
    You are free to begin your remarks.

  STATEMENT OF HON. DIRK KEMPTHORNE, GOVERNOR, STATE OF IDAHO

    Governor Kempthorne. Senator Crapo, thank you very much. I 
am honored to serve in this capacity on behalf of the people of 
Idaho, but to join you and to testify before your committee. It 
is a pleasure to see you as well as the staff members that I 
appreciated working with.
    I would also like to acknowledge that Attorney General Al 
Lance of the State of Idaho is with me today.
    Mr. Chairman, I appreciate the opportunity to appear before 
you and to give you Idaho's perspective on one of the most 
complex issues of the day, salmon recovery in the Pacific 
Northwest.
    One week ago today I was at Redfish Lake, 900 river miles 
inland from the Pacific Ocean near Stanley, ID, just over the 
summit from Sun Valley. The lake's name originated from the 
color of the beautiful salmon returning to spawn in their 
birthing waters.
    I was joined by the Idaho Department of Fish and Game, 
legislators, and school children from Filer and Stanley to 
observe and assist the 36 marvelous salmon finish their return 
from the ocean. These wild and hatchery salmon had returned to 
spawn and start the cycle anew.
    It is Idaho's intent that those schoolchildren who were 
with me last week and their children, as well, will grow up to 
see the restoration of the sockeye, as well as all stocks of 
Idaho's salmon. Our commitment to this goal is unquestionable. 
The question before this panel is to what extent the Federal 
agencies will help the States in this effort.
    I have long believed that only through a regional 
collaborative effort will there ever be a real chance for 
recovery of anadromous fish in the Pacific Northwest.
    This past summer, Governor Racicot, Governor Kitzhaber, 
Governor Locke, and I decided that it was time to sit down and 
work together to cross State lines, partisan boundaries between 
two republican Governors and two democrat Governors, and see if 
it was possible for us to reach a consensus on salmon recovery. 
In July I was proud to announce, with the other Governors in 
the region, an unprecedented agreement on the essential 
principles for recovery and recommendations to implement them.
    The agreement recognizes that every State in the region and 
all of the stakeholders impacted by this process must step 
forward and contribute. No one State can recover salmon, alone, 
just as no single State can afford to shoulder a 
disproportionate burden of the process. Only through regional 
cooperation--not dictates by the Federal Government--is there a 
chance to achieve real success.
    The four Governors' strategy involves several key elements 
important to Idaho. First, the Federal agencies should document 
the benefits of flow augmentation and the precise attributes of 
flow that make it beneficial.
    Second, harvest impacts must be reduced on listed wild fish 
in the ocean and Columbia River. Idaho has been blessed with a 
great return of salmon this year--in fact, the most in nearly a 
quarter of a century. Most were hatchery fish and, therefore, 
not counted toward Endangered Species Act listed salmon or for 
salmon recovery.
    Third, the region must implement actions now that can and 
should be done without breaching the four Lower Snake River 
dams.
    Finally, predation of all kinds, including terns and marine 
mammals, must be limited.
    I want to publicly express my appreciation to Governor 
Kitzhaber, Governor Racicot, and Governor Locke for their 
diligence and cooperation in achieving this historic milestone. 
The gentlemen here today to speak on their behalf also played 
key roles.
    This document is a framework for a comprehensive approach 
in dealing with the four H's of salmon recovery--Habitat, 
Harvest, Hydropower, and Hatcheries. Throughout each of these 
areas, it reflects the importance of what I have heard referred 
to as ``the fifth H''--Humans. We recognize that the Columbia 
River Basin is not only an unparalleled natural resource, it is 
also a dynamic economic engine. For both reasons, it is 
critical to the well-being of the four States in the region.
    This agreement is not a recovery plan. We cannot create one 
unilaterally. The salmon are a federally-declared endangered 
species, and, as such, all of Federal laws--the Endangered 
Species Act, the Clean Water Act, and dozens more--govern what 
our States can and cannot do, and our States cannot and should 
not shoulder the full financial costs of recovering these 
endangered species.
    But, while we cannot create a recovery plan, we can create 
something that the Federal Government so far has found 
difficult to do, and that is to create consensus in the Pacific 
Northwest. If the salmon recovery plan is to be one that is 
workable, then I believe it has to meet three tests. It has to 
be supported biologically, it has to be supported economically, 
and it has to be supported politically.
    This agreement meets these three tests, but I remain firm 
that the only way we will see results in the region is if State 
law is respected and the local citizens are brought into the 
process from the beginning. It must respect the principles of 
private property rights, and any additional waters acquired 
through a willing seller/willing buyer basis.
    Idaho is willing to do its part, and so are the other 
States. This document is a testament to our commitment.
    The question now is to what extent the Federal Government 
provides support on a policy level, as well as a financial 
level, to help us achieve this goal. The fact that release of 
the biological opinion on salmon recovery was delayed 
repeatedly underscores the difficulty of the Federal agencies' 
role in this debate to reach consensus.
    As Governor Kitzhaber noted at our press conference in 
July, the Federal Government is spending more than $400 million 
a year on salmon recovery. It has not been well coordinated. It 
has not been focused. It has not had strict accountability 
measures to achieve the defined results.
    So if I had to boil down our advice to the Federal 
Government of the United States of America, I would do it in 
four words: listen to the States. These are the States united 
in the recovery of salmon. We share the same commitment to 
recovering these remarkable species. We have taken the time and 
made the hard choices to reach consensus in the region, and 
we've created this comprehensive road map to recovery. We are 
at the table.
    Idaho is optimistic that the State and regional 
stakeholders are joined together to empower themselves 
throughout this process; however, Idaho remains concerned that 
the All-H paper has failed to give deference to the objectives 
outlines in the four Governors' recommendations.
    At the end of the day, the best solutions are those that 
are owned by the participants rather than those that are 
imposed by Federal edict.
    Mr. Chairman, I would ask consent that the recommendations 
of the four Governors be made part of the public record, and I 
would thank you again for this opportunity to speak to you and 
would note also, Mr. Chairman, that I've made my extended 
comments available for the record.
    Senator Crapo. Without objection, these documents will be 
available and made a part of the record.
    Governor Kempthorne, first of all let me again thank you 
for coming to testify today. I realize 5 minutes is a very 
short period of time to cover a topic such as this. But let me 
just go through a couple of the areas that you raised.
    I note that at the front of your testimony you talked about 
the need to justify flow augmentation, if it can be justified. 
Does the State of Idaho have a position on the flow 
augmentation as a source of remedy in recovery of the salmon?
    Governor Kempthorne. Mr. Chairman, the State of Idaho will 
be making, as part of its findings with regard to the BIOP, a 
detailed analysis of flow augmentation. We do not believe that 
flow augmentation provides the benefit that some in the Federal 
Government suggest that it does.
    We think that there is, in some quarters, the idea that 
flow augmentation is being promoted so that it would divide 
different parties; that if breaching is not possible, then 
let's use flow augmentation. Flow augmentation, therefore, if 
we can reach the point of a painful threshold, would then cause 
some to say, ``We can't provide that much water, let's now turn 
back to breaching,''
    So no, I do not believe that flow augmentation is the key.
    Mr. Chairman, if I may, I find it astounding that, when we 
look at all of these elements that are obstacles to the 
recovery of salmon, if I specifically point out the Caspian 
terns, where there was agreement by the Corps of Engineers, by 
other Federal agencies, that they would relocate these Caspian 
terns, because it is estimated that they are consuming up to 15 
to 25 million smolt before they ever get to the ocean.
    A plan was implemented, and then a lawsuit was filed. Part 
of the lawsuit's justification was pointing to the Fish and 
Wildlife Service that the consumption of these smolt was not 
that significant of an impediment to the return of salmon.
    Mr. Chairman, I am not a biologist, but if a smolt is 
consumed it will never return as a salmon--15 to 25 million.
    So, I believe that those are some of the objectives that we 
ought to be looking at, as opposed to saying to the State of 
Idaho, ``You provide additional water.''
    Senator Crapo. You've identified a dichotomy there that I 
think many of us have lived with in the State of Idaho, in 
particular, but in the Pacific Northwest, in general, and that 
is the conflict that has arisen between the two what I've 
called ``sideboards'' of this issue; namely, flow augmentation, 
or taking water to try to flush the fish past the dams, or dam 
breaching to try to lower the water levels and return to a 
normal river situation.
    You are correct that in the past there has been this 
competition between those two interests, although in the more 
recent past I think there has been some kind of mending of 
fences between those who are on the different sides of those 
issues.
    It seems to me that, as we address this issue, we have to 
remember that there are not just the economic consequences of 
dam breaching that we have to address, but also the economic 
consequences of heavy flow augmentation, and in that context it 
seems to me that, if the science were to show that flow 
augmentation worked, we would have an even more difficult 
dichotomy to deal with, but the science that I have seen seems 
to indicate that the impact of flow augmentation on the speed 
of helping the fish to get to the ocean or in other contexts is 
not significant.
    Is it my understanding that that is the position that the 
State of Idaho is going to take?
    Governor Kempthorne. I concur with you, Mr. Chairman. Our 
Idaho Department of Water Resources will provide extensive 
information about flow augmentation in response to the BIOP.
    Also, Mr. Chairman, I would just point out that, in this 
four-
Governors agreement, we call for the Federal Government to 
provide its scientific justification of flow augmentation, that 
it not simply be assumed n automatic that flow augmentation is 
the solution, because I do not believe that it is, and I 
appreciate that the other Governors have also called for that 
scientific justification.
    When you mentioned the dichotomy, Mr. Chairman, of a number 
of factors, again, I have to thank the other Governors of the 
other three States because this was difficult to achieve 
consensus and, as you indicated, with our different 
constituencies, our different economies, so this is a 
significant document and I hope that the Federal Government 
will seriously look at this as a foundation.
    Senator Crapo. I think it is a very significant document 
and I have the same hope.
    I believe also that one of the things the document does is 
it seeks to achieve what I know that you and I and many others 
have been talking about for some time, and that is to recognize 
not only the science and where we think the science is best 
guiding us, but also, as you indicated, the biology that would 
be the science, I think, and then the economic and the 
political realities that we face in the Pacific Northwest.
    It is going to be very difficult to find a balance between 
those three factors that you identified; however, it is not 
avoidable. It is a necessity.
    It seems to me that, between the remedies of dam breaching 
and river flushing, there are many, many options that we can 
take, and I view the Governors' document, the Governors' 
proposal as an effort to find the most effective path forward 
between those two parameters.
    I was just wondering if you believe that I am--am I viewing 
it in the correct posture there?
    Governor Kempthorne. I believe so, Mr. Chairman, and I 
appreciate your approach to this question.
    When you talked about variety of opportunities and options 
that we may pursue, in my extended comments, which have been 
made part of the record, I have gone through in some detail, so 
I won't be redundant because of the time requirements. I would 
just affirm, Mr. Chairman, one of the points that you made, and 
that is it has been suggested that it would be 8 to 10 years 
before the issue of dam breaching would be back before 
Congress.
    I also will point out that the Corps of Engineers has 
indicated that there's anywhere from 5 to 10 years of silt that 
it has estimated have built up behind the dams.
    If you take the amount of time politically that may be 
necessary to reach the question of breach--and then, of course, 
I think there would be court challenges by a variety of 
groups--if you ever were to see the breach, and then another 5 
to 10 years for the silt to be cleansed through the river 
system, you are talking conservatively 20 years. It would be 
absolutely wrong for elected officials to sit idly by, put all 
of their faith in that solution, and say that for 20 years, 
therefore, there's nothing we can do.
    I don't buy it, and that's why the four Governors have 
stepped forward with what I think is a doable plan. Our 
attitude is to do the doable, do it now, and I think we'll see 
the return of salmon.
    I'm delighted also that this year was the best return of 
the sockeye that we have seen in nearly a quarter of a century.
    Senator Crapo. That's a very good point. If we do the 
doable and what the region and the consensus that can be built 
in the region finally comes to as an understanding of the best 
part of the doable that we can do--in other words, if we find 
the best path and do it--then, whatever the result of it is, we 
will have the benefit of knowing what happened and why, and we 
can then make very well-guided decisions at that point in time.
    You talked a lot in your testimony about collaboration and 
consensus-building. I happen to agree with you that no recovery 
plan on salmon--in fact, I think no major issue that impacts a 
region such as this does--will be resolved unless there can be 
a consensus at the political and economic as well as the 
scientific levels built to move forward, and so I very strongly 
agree with you on that.
    Those in the Federal Caucus already know that I have very 
strong concerns about what I believe to be a lack of 
collaboration on the part of the process that I have seen for 
the last couple of years. We may have some disputes among each 
other about how much collaboration is happening and what really 
collaboration is and should be.
    However, the question I have for you is: what has been your 
experience in working with the Federal Caucus from the State of 
Idaho's perspective?
    Governor Kempthorne. Mr. Chairman, individually there are 
some very dedicated individuals in the Federal Government that 
are working on this issue. My concern and my frustration has 
been the process, not the individuals.
    The fact that we have asked for information, the fact that 
we have asked to be at the table----
    Senator Crapo. Do you believe that the State of Idaho is at 
that table?
    Governor Kempthorne. No. I do not.
    Senator Crapo. Go ahead. I didn't mean to interrupt.
    Governor Kempthorne. I believe that the State of Idaho is 
at the table with the other three States, and the State of 
Idaho has joined in a document that we have now submitted to 
the Federal Government.
    This is a collaborative process, and, again, I have sought 
through different forums, meetings with different members of 
agencies or different members of the Cabinet expressing my 
views, my concerns, but I do not feel that we were invited to 
the Federal table in a collaborative process as they developed 
this BIOP.
    Senator Crapo. Again, I know we are probably restating it, 
but do you think that we can get to a plan that can be 
regionally accepted and effectively implemented unless that 
happens?
    Governor Kempthorne. No, I do not, Mr. Chairman.
    If this were easy, it would have been done years ago, and 
the All-H paper that came out by the Federal Government made it 
very clear there is not a silver bullet, there is not one 
solution. It is a matrix of a variety of options, and it is a 
combination that will be necessary.
    Any time you have that many options with that many people 
involved, you must seek cooperation and collaboration.
    Again, I will point to the fact that I think that for it to 
be successful the participants must feel that they have 
ownership of this. That doesn't mean that it is everything that 
every one of us would like. I fully realize that there will be 
give and take. There will be things in there--the language of 
this is not necessarily as I would have written it. I will tell 
you, Mr. Chairman, that Idaho undertook writing its proposed 
salmon recovery recommendations. I did not release them because 
I knew that if we could achieve this document with the other 
three States, the other three Governors, this carries real 
power, and I think the other Governors felt the same thing. 
They may have been working on their recovery suggestions.
    This is now regional because we are talking about a species 
that is native to this region.
    Senator Crapo. I agree with you, Governor, that the process 
seems to be the biggest part of the problem, as opposed to the 
individuals that are trying to make the process work. I, too, 
have had the same experience. There are a lot of very well-
meaning and good people working on this issue that try to be as 
responsive as they can, given the parameters of their 
responsibilities.
    The concern that I have--one concern that I have, though, 
is that when we talk about collaboration and building consensus 
we may not all hear the same thing when we hear those words. 
What I'm thinking is that often when I make the charge that 
collaboration is not happening, the response that comes back 
is, ``Well, we're keeping people informed.'' Sometimes I 
disagree with whether they are being kept informed. But I 
wanted to explore with you a little bit about what true 
collaboration is.
    As I see it, for people to get the ownership that you talk 
about, they must be true participants in the decisionmaking and 
not simply informed constituents told about what was being done 
or what is going to be done or given regular updates along the 
way.
    Could you elaborate on your concept of just what it really 
means? What kind of collaboration do you believe we need to 
achieve with the Federal Government on this issue?
    Governor Kempthorne. Mr. Chairman, I would use perhaps as 
an example the Safe Drinking Water Act, which, when I was chair 
of this committee, we were successful in getting passed through 
Congress and signed by the President. That was a tough issue.
    It was by sitting down with local, State, Federal 
officials, seeking their input so that they then would testify 
on behalf of the ultimate document that I believe brought about 
the success in that, but they felt that they had a piece of 
that document, ownership, because they had been invited to the 
table. They could point specifically to language that they knew 
was a result of their participation, rather than just being 
handed a document and told, ``This is now what you need to 
support.''
    That is what will work, and it is not political because 
this document represents the work of two democrat and two 
republican Governors. It represents the work of outstanding 
staff by all of those individuals involved.
    So I will add, Mr. Chairman, that yesterday I had a meeting 
with Secretary of Commerce Mineta. Today, I will have a meeting 
with Secretary of Interior Babbitt. So we had good discussions 
about this issue and what we are seeking, and what we have 
provided is, we hope, a foundation.
    Again, the meeting that I had with Mr. Mineta and his staff 
I felt very good about, but I have also sat with a number of 
Federal officials from different agencies, when we have talked 
about certain solutions, only to find that ultimately they 
cannot agree and there can be finger pointing.
    Senator Crapo. Just one other question. You did raise the 
point in your testimony that you felt that where you see the 
Federal plan headed--and we don't know exactly where it will 
get, at this point, but where you see it headed is not 
necessarily where the four Governors have recommended. Could 
you elaborate on that just briefly?
    Governor Kempthorne. Well, there are different elements 
there, Mr. Chairman. I don't want to preclude that, through the 
process of providing information in our input and perspective 
to the Federal agencies, that that BIOP cannot be brought 
around to being much more in line with this document. That was 
part of my discussion yesterday with Secretary Mineta. It will 
be my conversation with Secretary Babbitt. I'd like to see this 
as the foundation, the four Governors' recommendations.
    There are elements of the BIOP that are compatible. There 
are also others that are not.
    To give you a couple specifics, as you have asked, it is 
very important for the irrigators in the State of Idaho that, 
with regard to the Bureau of Reclamation projects, that those 
do not take a secondary role to the Federal Columbia River 
Basin system, so that in the name of the salmon that that water 
then--we lose the rights of it.
    Also, we need to affirm repeatedly, State water rights; 
that if there is additional water that would be asked for, it 
is based strictly upon State water law, which is based upon 
willing seller/willing buyer.
    Also, Mr. Chairman, that, if an agreement is reached, that 
at some point later in the future the Federal Government 
doesn't come and present in the name of the Endangered Species 
Act a recommendation, if not a requirement, that now the other 
language that has been agreed to is null and void because the 
ESA takes precedent over that. There needs to be certainty in 
an agreement.
    Senator Crapo. Thank you, Governor. We could go through a 
lot more, but I know there are other witnesses that need to 
come forward and our time is somewhat limited.
    I, again, appreciate your coming forward. You have been one 
of those who has really fought for reform in a number of areas 
very successfully, and we appreciate your efforts on this 
issue, as well.
    Governor Kempthorne. Well, Mr. Chairman, thank you very 
much. This committee is in outstanding hands with your 
chairmanship.
    Senator Crapo. Well, thank you very much.
    Governor Kempthorne. Thank you.
    Mr. Penney and Mr. Boyer, we appreciate your being here 
with us today. I've already given all the instructions, so 
let's begin. We'll start with you, Mr. Penney.

    STATEMENT OF SAMUEL PENNEY, CHAIRMAN, NEZ PERCE TRIBAL 
  EXECUTIVE COMMITTEE, LAPWAI, ID, REPRESENTING THE COLUMBIA 
                 RIVER INTERTRIBAL FISH COUNCIL

    Mr. Penney. Thank you, Mr. Chairman.
    My name is Sam Penney. I am chairman of the Nez Perce 
Tribal executive committee. I thank you for this opportunity to 
testify here this morning.
    I am pleased to be here today to speak on behalf of the Nez 
Perce Tribe and the Columbia River Intertribal Fish Commission. 
As you know, we received voluminous draft documents from the 
Federal Government on July 27. We are still in the process of 
reviewing these documents, particularly the technical aspects.
    However, I would like to say at the outset that the tribe's 
position supporting dam breaching the Snake River Dams, our 
position supporting this is still the same, and we do support 
an economic investment package to local communities affected by 
breaching these dams remain unchanged.
    We see no new science or information that would indicate 
other actions will be sufficient to recover Snake River chinook 
throughout the range of their current habitat.
    I would like to offer the following observations:
    The Federal proposal fails to rebuild salmon runs to honor 
the tribes' treaty fishing rights. We have repeatedly requested 
the Federal Government to honor its legal and moral obligations 
under our treaties within a meaningful time period that will 
protect our treaty-secured fishing rights.
    We have set forth tribal proposals to this end in our 
spirit of the salmon plan and in hundreds of pages of documents 
to the Federal Government. Instead, the Federal plans are 
singularly focused on museum piece management.
    The Federal proposal fails to comply with the Clean Water 
Act. The U.S. district court recently reaffirmed that the Corps 
of Engineers must comply with federally-approved water quality 
standards for temperature and dissolved gas in the National 
Wildlife Federation v. Corps of Engineers litigation.
    The Federal proposal does not contain actions that will be 
implemented to achieve these standards.
    The Federal proposal is a plan for extinction of the Snake 
River salmon stocks.
    The Federal proposal sanctions the extinction of spring 
chinook index stocks in tributaries of the Salmon River where 
salmon habitat is pristine.
    The Federal proposal fails to recognize that, if the dams 
are not breached, large amounts of additional water from the 
Upper Snake River will be required for flow augmentation to 
provide the survival benefits that juvenile salmon need.
    The Federal proposal's reliance on yet-to-be developed 
performance standards to delay breaching the four Lower Snake 
River dams and to get the hydrosystem out of jeopardy ignores 
the most significant performance standard--the status of the 
fish.
    The risk of extinction for Salmon River stocks has been 
significantly reduced since they were listed under the 
Endangered Species Act over 8 years ago, and the Federal 
proposal does not ensure any improvement for Snake River 
salmon.
    Scientists predict in the course we are currently on that 
spring chinook in the Snake River system will be extinct by the 
year 2017.
    The Federal proposal reliance on offsite mitigation 
measures to delay breaching the four Lower Snake River dams 
also fails to preserve and rebuild salmon runs.
    Based on the Federal proposal, we expect to see continuing 
losses of local salmon populations, particularly in basins of 
the four or more hydro projects, even in the pristine habitat 
that is located within Idaho wilderness areas. Even if offsite 
mitigation measures were appropriate for certain stocks, there 
is no budget or implementation plan for such measures in the 
Federal proposal. Other than seeking to have tribal governments 
further restrict our already voluntary restricted tribal 
harvests, the All-H paper describes no role for tribal 
governments as co-managers in this process.
    By its silence, the Federal documents would appear to deny 
the successes of the tribes in their salmon recovery efforts in 
basins like the Clearwater, Umatilla, Hood, and Yakima systems.
    This is especially frustrating since we held numerous 
meetings with the Federal Government and our detailed tribal 
proposals seemed to have made no impact at all.
    We also oppose the new concept of full mitigation described 
in the hydro BIOP. This is a concept based upon the desires of 
Bonneville and not on either the ESA, the biological needs of 
salmon, or treaty case law. Under this concept, Bonneville's 
mitigation responsibilities are capped by estimating the number 
of fish that would survive if they migrated through a mythical 
Columbia River that is dam free.
    Among other things, the proposal ignores the decades of dam 
impacts that have eroded the salmon populations.
    In conclusion, Mr. Chairman, I would like to say that the 
alarm on the extinction clock has already gone off long ago. 
Neither the salmon nor the tribes nor the people of the 
northwest have time to delay dam breaching of the Lower Snake 
River dams and implementing the major overhaul the U.S. 
operation of the hydrosystem needs.
    I am deeply disappointed the United States has chosen to 
ignore its treaty and trust obligations. We will not be 
deterred from our solemn duties to act on behalf of the salmon 
and our people.
    I would like to end, Mr. Chairman. You know, during the 
discussions and hearings that were held out in the field, many 
people have been adding various H's to the All-H paper, and in 
the hearing at Clarkson, WA, I decided that, on behalf of the 
Nez Perce Tribe, that I would also add an H to this All-H 
paper, and H stands for Honor. We expect the United States to 
honor their treaty commitments to the Indian tribes of this 
Nation.
    What it reminded me of--and I shared this with you 
previously--was something that Chief Joseph said in 1879. When 
he was back here in Washington talking to many dignitaries, and 
the President, as well, he stated at that time in 1879,

    I have heard talk and talk, but nothing is done. Good words 
do not last long until they amount to something. I'm tired of 
talk that comes to nothing. It makes my heart sick when I 
remember all the good words and all the broken promises.

    I would just like to conclude with that, Mr. Chairman, and 
thank you for this opportunity.
    Senator Crapo. Thank you very much, Mr. Penney. Your 
testimony is always very well prepared and thoughtful, and I 
appreciate that.
    Mr. Boyer, please proceed. We welcome you here to the 
committee.

 STATEMENT OF LIONEL BOYER, CHAIRMAN, SHOSHONE-BANNOCK TRIBES, 
                         FORT HALL, ID

    Mr. Boyer. Thank you, Chairman Crapo. We thank you for the 
invitation to make a presentation. We submitted written 
comments and will be submitting more as we go along as time 
permits.
    My name is Lionel Boyer, chairman of the Fort Hall Business 
Tribal Council. In the Fort Bridger Treaty of 1868, the bands 
of Shoshone and Bannock people agreed to have peace with the 
United States, and then our various bands were removed to the 
Fort Hall Indian Reservation in southeastern Idaho. However, 
our treaty preserved our right to hunt, graze, and gather on 
unoccupied lands of the United States, and salmon are a 
significant part of our way of life. The salmon is one of the 
many important resources of our people, as well as the water, 
the animals, the air, and our Mother Earth. We continue to 
utilize these resources of the Columbia River Basin since the 
treaty was signed.
    Today the Shoshone-Bannock Tribes are co-managers of these 
resources within the Columbia River Basin, and we work toward 
improving the habitat and the survival of the salmon.
    The salmon need clean gravel and cool, clear running water 
to spawn and prepare themselves for their journey to the ocean 
through a corridor that will not impede their travel. The draft 
documents fail to honor this natural biological law of the 
creator for the salmon.
    These natural laws of the creator to provide for the 
continued existence of the natural resources on this Mother 
Earth have been violated by means of pursuit of progress 
through man's progress through their divine law of manifest 
destiny.
    The National Marine Fisheries Service is wrong to conclude 
that the greatest opportunities for survival for the listed 
Snake River salmon can be accomplished by the National Marine 
Fisheries Service efforts in the Snake River tributary, because 
they have already been preserved as natural wilderness areas.
    Instead, the National Marine Fisheries Service must 
concentrate its recovery efforts where man has changed the 
natural environment the most. Scientific evidence concludes 
that the migration corridor is the main problem ensuring the 
extinction of the Snake River listed salmon. The National 
Marine Fisheries Service cannot change its responsibilities 
under the 1995 hydrosystem biological opinion that would have 
identified recovery through a natural river corridor in their 
1999 decision.
    The conditions in the Pacific Ocean are of concern to all 
of us. Man's alterations of the environment of this, our Mother 
Earth, may be having profound effects on the ocean conditions.
    The Shoshone-Bannock Tribes applaud the efforts of the 
National Marine Fisheries Service to reduce harvest impacts 
over the past 8 years, including harvest in the ocean; however, 
the National Marine Fisheries Service should not allow any 
mixed stock harvest of listed fish if those same fish cannot 
support a harvest in the tributaries.
    We can no longer manage for genes and need, instead, to 
manage for fish. The National Marine Fisheries Service theories 
on salmon genetics is causing genocide instead of recovery 
because those theories prevent using abundant, available, and 
appropriate donor stocks in areas that need fish.
    The Shoshone-Bannock Tribes humbly request that the 
subcommittee assist us in overcoming the National Marine 
Fisheries Service barriers to the salmon supplementation 
actions that we have been pursuing for over 10 years.
    Of great concern to the Shoshone-Bannock Tribes is the 
failure of the Federal Caucus to consult with the Shoshone-
Bannock Tribes. Despite repeated discussion with Federal 
Caucus, they failed to recognize our position as equal parties 
through the Fort Bridger Treaty and United States v. Oregon.
    The Shoshone-Bannock Tribe believes that the listed Snake 
River salmon and steelhead cannot wait another 8 to 10 years 
before necessary major improvements and actions are taken to 
recover these fish.
    The Shoshone-Bannock Tribes believe that technological 
fixes to the Lower Snake River dams will not allow the listed 
Snake River salmon to survive.
    The Shoshone-Bannock Tribes have been saying this longer 
than any other entity, and thus are learning once again is that 
we have waited too long to fix the river rather than trying in 
vain to fix the dams, and we will continue to have to tell you, 
``We told you so.''
    What was once the world's largest run of salmon is now the 
world's greatest and very expensive environmental recovery 
effort, with no assurance of recovery.
    I leave you with the words of an elder. ``Only when the 
last tree has been cut down, only when the last river has been 
poisoned, only when the last fish has been caught, only then 
will you learn that money cannot be eaten.''
    Thank you, Mr. Chairman and the subcommittee, for hosting 
this hearing and providing us an opportunity to express 
ourselves.
    The Shoshone-Bannock Tribes' technical staff will be 
providing technical testimony tomorrow.
    Senator Crapo. Thank you very much, Mr. Boyer. We 
appreciate your testimony, as well.
    I think that the people of the region share the strong 
feelings that you both have represented here about the salmon 
and the steelhead. My interaction with you and understanding of 
your positions is one of the reasons that I have added the 
concept of the spiritual issues to this whole context of the 
debate that we are having in the Pacific Northwest over how to 
handle the salmon and the steelhead, and that fits right into 
the economic and cultural and political issues that are such a 
difficult but important part of the mix.
    This is probably a good point for me to turn to Senator 
Baucus and see if he wants to make a statement before I begin 
questions.
    Senator Baucus.
    Senator Baucus. Not at this time.
    Senator Crapo. OK.
    Senator Baucus. Not yet ready.
    Senator Crapo. All right. Just tell me when you are and 
we'll make a break for you to do so.
    Senator Baucus. OK.
    Senator Crapo. Then I will begin with a few questions.
    I think the questions I have are really for both of you, so 
I will ask the question and then see if I can get a response 
from both of you.
    The first is, Mr. Penney and Mr. Boyer, did the Federal 
Caucus work with you and your fish biologists in preparing the 
biological opinion or the proposed biological opinion that is 
now before us?
    Mr. Penney. Mr. Chairman, as I understand it, as I 
mentioned in my testimony, the tribe has submitted various 
comments, almost similar to what Governor Kempthorne had 
mentioned on the Governors' proposal, that the tribes have 
submitted numerous documents, and we feel that they have not 
been fully considered or implemented in this process.
    Senator Crapo. Mr. Boyer.
    Mr. Boyer. Mr. Chairman, we feel the same in reference to 
that. We have submitted very many documents. We have spent much 
time in travel in attending a lot of these caucus meetings, 
with no response to our words that we have left with them. It 
is not written in the opinion.
    Senator Crapo. So does this go beyond--you may be saying 
that you had collaboration but that your ideas and your beliefs 
were not represented in the document, and I understand that 
that is what has taken place, from your testimony. Are you also 
saying, though, that you didn't really feel that you had the 
opportunity for collaboration and give-and-take in terms of 
understanding where it was going and being able to respond as 
it progressed and developed?
    Mr. Boyer. Mr. Chairman, our collaboration, as I said, in 
many, many cases our words were not listened to, were not put 
into any documents that would recognize that we have been a 
part of that collaboration.
    I think that the efforts that the tribes--all the tribes, 
it seems to be fruitless in reference to submitting a lot of 
these documents, because we never see the end result written 
into the drafts or the final documents.
    Senator Crapo. Do you ever get an explanation for why it 
isn't accepted or what the rationale is or what has happened in 
terms of moving in other directions, or do you just submit 
documents and then see the final outcome?
    Mr. Boyer. Mr. Chairman, the documents--the response that 
we have from them is, ``We overlooked it,'' or, ``We haven't 
gotten to that.'' You know, it is very, very concerning to us 
that our words, our concerns are not considered within these. 
If they are considered, it is written in a way that is not 
recognized.
    Senator Crapo. Mr. Penney, did you want to add anything?
    Mr. Penney. Mr. Chairman, I think your opening comment and 
I think the words of Governor Kempthorne, as far as the 
coordination, cooperation, collaboration, and even 
consultation--you know, the term ``consultation'' for tribes 
over the years has been somewhat the hard feeling in tribes 
across this Nation, and the Nez Perce Tribe, as well. I think 
there is nothing worse to enter consultations or discussions 
and seeing that your input may not be fully considered in any 
final document.
    As Mr. Boyer had pointed out, we spent a tremendous amount 
of time and energy trying to provide our input, but many times 
it is not seen in the final documents.
    Senator Crapo. Thank you.
    Both of you have testified that you believe the ultimate 
solution must be the breach of the four dams. Am I correct on 
that--the four dams on the Lower Snake?
    Mr. Boyer. Mr. Chairman, yes.
    Senator Crapo. As you know, I have not accepted that 
position at this point, and there is a lot of political 
opposition, as well as economic and cultural opposition to that 
action, which, as I've said earlier, I believe must be taken 
into consideration by the policymakers.
    The question I have is--and maybe I should just elaborate a 
little further. Mr. Boyer, you stated in your testimony, and I 
think Mr. Penney would probably agree with this, because his 
testimony is consistent with it, that as we look at the various 
areas from the ocean to the habitat and all of the different 
H's, you indicated you thought the main problem was with the 
main river channel and the issue of how we get the smolt to the 
ocean safely and in large numbers.
    Am I correct about that, that that's what you perceive to 
be the main challenge here in terms of finding a solution?
    Mr. Boyer. Mr. Chairman, yes.
    Senator Crapo. Would you agree, Mr. Penney?
    Mr. Penney. I think, Mr. Chairman, that is basically 
correct.
    Senator Crapo. Then the question I have is, in recognizing 
that your solution to that would be breaching dams, but also 
recognizing that there is such political, cultural, economic, 
and other opposition to breaching dams that it could result in 
a gridlock that Governor Kempthorne and I discussed during his 
testimony, do you believe there are steps that can be taken 
short of breaching dams that will have significant and positive 
impacts on saving the fish?
    Mr. Penney. Mr. Chairman, on your last question, I would 
just like to make one addition.
    Senator Crapo. Sure.
    Mr. Penney. You know, we're talking about some of the out-
migration of juveniles, but also I think the success of 
recovery is also dependent on the amount of returning adults to 
the tributaries, and I think that also needs to be taken into 
consideration.
    Senator Crapo. Would that also focus, though, on fixing the 
main river channel?
    Mr. Penney. Well, I think, as described, you know, there 
are many concerns, and the Nez Perce Tribe certainly respects 
everyone's opinions that they have.
    Senator Crapo. Yes.
    Mr. Penney. I think that, based on the All-H paper--I don't 
know if we can call it an All-H paper any more. It seems to be 
focusing just on certain areas and delaying the hydro for up to 
10 years. But, you know, there are measures that the tribes 
have proposed over the years, and some of them have to do 
with--I think one of the barriers for recovery has been the--I 
don't know if it is the policy or exactly what it is, a rule--I 
don't believe it is a rule, but even the definition of an ESU--
evolutionary significant unit--under the Endangered Species Act 
I think is part of the reason it is barring recovery. I think 
that is one aspect that needs to be considered, as well.
    Senator Crapo. Thank you.
    Mr. Boyer, are there things short of breaching dams that 
can be done to address the main river channel?
    Mr. Boyer. Mr. Chairman, I think one of the concerns that 
we have is that the four Lower Snake River dams are a--they are 
river-run dams that provide for transportation, but the concern 
that we have is that those reservoirs behind those dams create 
a lot of havoc for the fish as they are going to the ocean, 
primarily because of temperature changes and the flow of the 
waters are not there to guide and direct those fish to go to 
the ocean.
    In the process, as the Governor has stated, a lot of those 
fish disappear in the process, and I think the main concern 
would be the lack of flow plus the change of temperature that 
does eliminate a lot of those smolts that are going to the 
ocean.
    Senator Crapo. Mr. Penney, you made a statement that I want 
to pursue a little bit in your last statement. You said that 
you weren't sure that the All-H approaches all-H's any more, 
and that the focus seems to have been moved away from the hydro 
H to the other H's in the Federal plan that we see developing.
    Could you elaborate a little bit on your thoughts there?
    Mr. Penney. Well, as I understand the document--and I 
haven't fully reviewed every aspect of it, but I understand 
that there are check points, I believe 3, 5, and 8 years under 
the plan, and at any one of those check points, if it appears 
that under some of the processes that take place to that point, 
that they are not succeeding, then it sounds like you go back 
and start over again.
    I think, as far as all the H's, that hydro is simply being 
delayed up to 10 years, and, as I mentioned in my testimony, we 
are on the brink of extinction at this point, and I think 
delaying 5, 10 years is going to be very harmful to the fish of 
the Northwest.
    I would also like to make an additional statement just on 
the other aspects of the Lower Snake River, itself, as far as 
the Clean Water Act.
    You know, we have heard a lot of people talk about the 
other values of the system as far as recreation and those types 
of things, and I truly believe, personally, that, under the 
current path we are on now, that there probably is going to 
come a point that the streams are going to be so polluted that 
you are probably not going to be able to recreate in those 
waters. I am just fearful that there will be some day that you 
won't even be able to swim in those streams.
    Senator Crapo. Well, you have opened an issue where, 
although you and I may not agree entirely on it, I do think 
that you have opened an issue that deserves further 
investigation, and that is this: one of the concerns that I 
see, from what I see with the Federal plans development at this 
point, is that, as you have indicated, there are the four H's 
that everyone is trying to evaluate in terms of how to address, 
and we all recognize, I believe, that there is progress that 
can be made in each of those areas--Harvest, Hatcheries, Hydro, 
and Habitat. I do not think anybody's plan--the Federal plan or 
the Governors' proposal or others--I don't think anybody's plan 
ignores any of the H's entirely, but there are different levels 
of focus on different parts of each of the H's, so to speak, 
and one of the issues that I would like to delve into here a 
little bit is whether the Federal plan is putting the right 
level of focus on the various opportunities that we have in 
each of those areas.
    You have indicated that you believe that there isn't an 
adequate focus on the hydro H, I assume because there is not a 
proposal to breach the dams.
    I have a concern that perhaps there isn't enough focus on 
the hydro H, not because it does not recommend breaching dams, 
but because of some of the other things that I think we could 
do in that area that would be beneficial and would give us the 
best chance to see if we could do something short of breaching 
dams while we have this opportunity to do so.
    In that context, I would ask for both of you to comment. Do 
you believe that, given your belief that the dams should be 
breached--and I understand that that is your major objection--
do you believe that, setting that aside for just a moment, that 
there is still not an adequate focus on the hydro part or the 
main stem part of the river in terms of the Federal plan, Mr. 
Penney?
    Mr. Penney. Mr. Chairman, I think one of my concerns--and I 
am not certain if the position has changed or not, but I think 
previously the Idaho Fish and Game Department had supported 
natural river flow scheme, as well as numerous other scientific 
people, and my concern is that, you know, we have heard mention 
of scientific information, we hear a lot of discussion that we 
need the best biological information, and then there comes a 
question on whose information should we rely on, and I read an 
article this morning that probably was in the Washington Post 
that many people believe that, rather than being based on 
scientific and biological information available, that it is 
becoming more of a political question than anything else.
    That deeply concerns me, but I can assure you that the Nez 
Perce Tribe is committed to doing what is best on behalf of the 
resource.
    Senator Crapo. Thank you.
    Mr. Boyer, do you have any thoughts?
    Mr. Boyer. Mr. Chairman, I agree with what Mr. Penney has 
stated. One of the things that I would like to say is that the 
All-H paper, if there was some way that we could put the 
spirituality of the tribes with the salmon and the natural 
resources as an H, we may be able to understand what we are 
talking about.
    As it is, as you know, we, as Indian people, do have a very 
spiritual connection to all of the resources of this Mother 
Earth, and that has been, as I stated in my statement, has been 
violated through man's progress and hasn't been considered, 
even though the tribes, the first people of this country, have 
made treaties with the United States.
    I guess the spirituality, I guess, we could consider as one 
of the H's, as Mr. Penney stated, honor. Honor those 
agreements, those treaties. The spirituality connection that we 
have with all of these resources, and specifically with the 
salmon, is that that is important to us, and then we, as the 
Shoshone-Bannock Tribes, we were removed from our natural 
gathering places and put into an area where there was none. But 
we continue practicing our spiritual connection with those 
resources. That hasn't been considered. That's what I'm getting 
to. That's why I'm saying the natural rivers should be there. 
That's what the fish need. That's what the country needs. 
That's what the economy needs. It has to be natural.
    Senator Crapo. Thank you, Mr. Boyer. I think both you and 
Mr. Penney are very strong advocates for your positions, and 
your emphasis on the spiritual aspect of this has certainly 
registered with me, and I think that it is registering with the 
people across the Pacific Northwest because, whether one 
approaches it from your cultural background or from the 
cultural background of others, I think there is very little 
dispute about the fact that the salmon and the steelhead are a 
part of our heritage. That goes to our very core and that is 
important for us to make sure that these fish are not allowed 
to go extinct.
    So, although we do have differences, as there are many in 
the region, I do want you to know that I share that core value 
that you have just expressed, and hopefully we will be able to 
find a path forward to solve the problem.
    All right. We thank this panel for coming forward, and we 
excuse you at this time.
    Mr. Penney. Thank you, Mr. Chairman.
    Senator Crapo. Before I call the next panel forward, I 
would like to turn to Senator Baucus.
    Actually, Senator Baucus, I did not give you a chance for 
questions.
    Senator Baucus. That's fine.
    Senator Crapo. If you have questions, you are welcome to 
ask them.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. I appreciate it. Thank you.
    Mr. Chairman, I appreciate your holding this hearing. It is 
very important to ask questions to get to the heart of a lot of 
the problems surrounding recovery of the salmon.
    I would like to make a couple of points with respect to my 
State of Montana, because often in the Pacific Northwest 
environmental issues that Montana is not really, I think, fully 
understood as it could and should be.
    First of all, we don't--it is true we don't have a lot of 
salmon in our State, but I remember not too many years ago I, 
at the end of September, went up to just out west of Glacier 
Park and watched the eagles come down to catch the salmon as 
they were going upstream, and it is quite a sight. It was a 
wonderful sight to behold. But the salmon aren't there any 
more.
    But we in Montana do have a lot of rivers, and, along with 
rivers in Canada, form the headwaters of the Columbia River 
Basin. We also have two reservoirs which are extremely import 
to us, Kukanoosa and Hungry Horse, which are very integral to 
any solutions that would help protect the salmon. These 
reservoirs are important, first, because they provide a lot of 
recreational opportunities, and then the draw-downs of the 
reservoirs are significant and fluctuate a lot, it very 
significantly adversely affects some recreation in our State.
    The reservoirs also provide habitat for bull trout, another 
endangered species or threatened, or at least a species which 
is in some difficulty, and sometimes protecting the salmon is 
in conflict with saving the bull trout, but we have to also 
remember bull trout.
    We are also part of the Bonneville system, at least western 
Montana is part of the Bonneville system. That means anything 
we do in the system has to take a hard look at the degree to 
which it affects power rates, which are clearly important to 
our electrical co-ops. Western Montana homeowners, small 
business, and also large business--we have a very large 
aluminum plant in Columbia Falls, western Montana, that is 
directly affected by power rates. We rely heavily on timber 
harvesting, agricultural, and a substantial part of our grain 
is shipped out of Lewistown down the river.
    So we have a lot of interests in this question, and we 
still clearly want to protect the salmon, but we want to do it 
in a way that is mindful of interests in our State.
    Let me turn briefly to the draft biological opinion. I'm 
studying it, like everybody else, and I know this hearing is 
going to help provide more information.
    First and foremost, I want to be sure that this issue is 
kept in the hands of Federal and State officials--that is 
elected and unelected Federal and State officials and the 
executive and legislative side--rather than the courts. I don't 
want these decisions made by the courts. I know that Judge 
Marsh has overall jurisdiction in this issue and will be 
looking at the draft biological opinion to see how it is 
implemented, and it could well be that some group or another 
might well file an action with Judge Marsh claiming that it is 
inappropriate, that the draft biological opinion is arbitrary, 
it's capricious, it there's not a reasonable likelihood that it 
is going to protect salmon release--to not jeopardize salmon 
habitat.
    So let's make sure that this is bullet proof from the 
judicial attack. That means all of us are going to have to go 
the extra mile to make sure that it does withstand a judicial 
challenge.
    Beyond that, we need balance. Recovering the various salmon 
species, we also need to recover, as I mentioned, bull trout, 
and impacts on water levels and power rates and affected 
industries.
    I look forward to this hearing. I am particularly pleased 
that John Etchart is here representing Montana and the 
Northwest Power Planning Council. John has been around a long 
time. The main point is John knows his stuff. He has been at it 
for a good, long time and he is a good advocate. He's 
thoughtful and he's an expert and he is a straight shooter.
    I apologize that I was not here for Senator Kempthorne's 
statement. Senator Kempthorne, as the chairman of the 
subcommittee well knows, was a very, very strong member of this 
committee. We worked long hours late into the night, sleeves 
rolled up, putting together Endangered Species Act reform. I 
mean, Senator Kempthorne was firmly dedicated, more than any 
other Senator, to try to reform the Endangered Species Act. 
Late nights with Secretary Babbitt in this room, all around 
tables--we passed something an eyelash of getting passed in the 
full Senate. For various reasons, it was held up on the floor.
    Anyway, I know he is doing a great job in Idaho, a strong 
advocate for Idaho and for what is right, generally, and I just 
wish I had been here, Mr. Chairman, to hear his testimony.
    Thank you.
    Senator Crapo. Thank you very much.
    If you have no questions, we will excuse this panel. We 
thank you very much, gentlemen, for coming.
    We now invite up our third panel: Mr. John Etchart from 
Helena, MT, on behalf of Governor Racicot; Mr. Eric Bloch from 
Portland on behalf of Governor Kitzhaber; and Mr. Frank Cassidy 
from Vancouver on behalf of Governor Locke.
    I will again welcome you here. I know that your Governors 
wish they could have been here in person, and you probably do, 
too, but we are glad that you are able to make it and share the 
views of your States on this important issue.
    We will start with you, Mr. Etchart.

 STATEMENT OF JOHN ETCHART, HELENA, MT, ON BEHALF OF GOVERNOR 
                            RACICOT

    Mr. Etchart. Mr. Chairman, thank you very much. Good 
morning, Senator Baucus. Thank you for the opportunity to 
testify. As you know by now, my name is John Etchart. I am here 
on behalf of Governor Racicot of the State of Montana. For the 
past 7 years, a long time, I have represented the Governor on 
the Northwest Power Planning Council.
    I'd say two things parenthetically. First of all, I speak 
in strong affirmation of Governor Kempthorne's remarks this 
morning.
    Second, Senator Baucus, thank you very much for your kind 
remarks.
    I want to start by extending Governor Racicot's regrets for 
being unable to attend today's hearing. If he were here, he 
would start by telling you of his great faith in the Power 
Planning Council and commend Congress for having the foresight 
to create it in the 1980 Northwest Power Act.
    Governor Racicot has great confidence in the Council as the 
institution that will lead the northwest to improved fish and 
wildlife numbers, as well as a continued supply of adequate and 
reliable power.
    The Governor believes that the Council is an extraordinary 
experiment in government, and in his view and mine, its 
operations are an excellent example of States working together 
to solve mutual problems and achieve common goals. The issues 
we face are highly complex and success never comes easily. 
However, there is a tremendous value in the Council as a 
regional body where States are encouraged to develop larger 
perspectives beyond their own borders and made to do their work 
in public and based on science.
    If the Council didn't exist today, considering the 
magnitude of the problems that we have in the Pacific Northwest 
in managing our resources, I would guess that somebody in this 
building would be thinking about how to create it or something 
like it.
    If there is a common theme to my remarks today, it is that 
there continues to be a need for increasing accountability in 
both the policy and budgetary realms in the decisionmaking of 
the Columbia Basin. Congress took a very important step in 
improving accountability in the annual expenditure of 
Bonneville Fish and Wildlife funds in 1996, when it passed an 
amendment sponsored by Senator Gorton, an amendment to the 
Northwest Power Act. This amendment requires that all fish and 
wildlife projects proposed for funding by Bonneville would have 
to be reviewed by an independent group of scientists nominated 
by the National Research Council. This action by Congress has 
resulted in a noticeable increase in confidence that the 
public's money, about $130 million a year, is being spent much 
more wisely.
    It has brought a measure of discipline to the individual 
project sponsors, many of whom are the State, tribal, and 
Federal fish and wildlife agencies, to the Power Planning 
Council, and to Bonneville.
    Since the amendment was enacted, there is a much greater 
appreciation that a continuing pattern of expenditures without 
results can't be tolerated.
    Frankly, Mr. Chairman, in my time as a Council member, the 
1996 amendment has done more to bring order to the fish and 
wildlife recovery process in the Columbia Basin than any other 
single thing.
    There also needs to be a similar degree of accountability 
in budgeting for ESA activities such as those described in the 
draft biological opinion that are financed by Bonneville. 
Unlike the Bonneville funds that pay for fish and wildlife 
projects that implement the Council's fish and wildlife 
program, which was subject to the rigorous scientific and 
public reviews required under the Senate amendment, NMFS's ESA 
activities funded by Bonneville are done so on a unilateral 
basis; that is to say, they are not required to be reviewed by 
anyone, not by Congress, not by our independent scientists, not 
by the Council, the States, the tribes, or the public.
    This shortcoming in the expenditure of Bonneville funds for 
specific ESA activities can easily be addressed by requiring 
NMFS to agree to submit its ratepayer-funded ESA proposals for 
review under the provisions of the Senate amendment.
    Additionally, considering the high level of interest in 
implementation of endangered species activities, Governor 
Racicot recommends that Congress consider requiring NMFS to 
submit annually a specific ESA budget to Congress for its 
review. The budget could include NMFS's proposed expenditures 
using appropriated dollars, as well as its proposed Bonneville-
funded activities that would be submitted to the Council for 
review under provisions of the 1996 amendment.
    This would address the potential conflict of interest that 
currently exists with a regulatory agency, NMFS, funding its 
agenda with non-appropriated dollars provided by Bonneville, 
the agency that it is regulating.
    One last area of concern, Mr. Chairman, deals with the 
Federal agencies' protocol for in-season decisions on the 
operation of the hydrosystem. One can have serious questions as 
to whether there is suitable accountability for these 
operational decisions that can cost into the tens of millions 
of dollars. For example, just last month these operational 
decisions in just 1 week resulted in Bonneville having to 
purchase power in the market at a cost of about $45 million.
    While I won't and can't say that this is an inappropriate 
expenditure, I will say that this decision was made by Federal 
fish managers, ostensibly to improve in-river conditions for 
what I understand was a relatively small number of fish.
    The primary point I am trying to make here is that 
decisions with such profound and costly implications should be 
made on a cooperative basis, in a public forum that seeks the 
views of all parties and interests, especially those of the 
four States, and provides a serious balancing of the costs and 
benefits of the proposed actions.
    Last, Governor Racicot has felt for a long time that the 
region, just as in your exchange with Governor Kempthorne, Mr. 
Chairman, should be given greater authority to develop and 
implement measures to recover fish and wildlife species in the 
Columbia Basin.
    Since the region's electricity ratepayers, not the 
taxpayers, fund most of the recovery activities in the 
Columbia, it is appropriate that the region be given a larger 
role.
    Underscoring this perspective is the fact that 20 years ago 
right now Congress created the Northwest Power Planning Council 
to ensure that the region did have a larger role in just these 
issues.
    A simple amendment to the Northwest Power Act requiring the 
Federal agencies to act in a manner consistent with the 
Council's fish and wildlife program would be a significant and 
positive step toward this goal.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you, Mr. Etchart.
    Mr. Bloch.

 STATEMENT OF ERIC BLOCH, PORTLAND, OR, ON BEHALF OF GOVERNOR 
                           KITZHABER

    Mr. Bloch. Thank you, Mr. Chairman, Senator Baucus. My name 
is Eric Bloch, and I am here today representing Oregon's 
Governor John Kitzhaber. I also represent Oregon on the 
Northwest Power Planning Council, and I currently serve as the 
Council's vice chairman.
    Thank you for the opportunity to testify today on fish and 
wildlife recovery efforts in the Pacific Northwest, and 
specifically on the draft biological opinion issued recently by 
the National Marine Fisheries Service.
    The general approach to recovery articulated in the draft 
biological opinion is commendable. It reflects one of the 
important lessons learned over the past decade--that 
improvements in salmon survival must come through reducing 
mortality caused by hydrosystem operations and habitat 
degradation and harvesting and unscientific hatchery practices, 
all of the so-called ``four Hs.''
    This approach is also reflected in the recommendations for 
protection of Columbia River Basin fish issued in July by the 
Governors of Oregon, Idaho, Montana, and Washington.
    The Governors' recommendations constitute a substantial 
commitment toward the goal of ecosystem restoration, while 
accounting for the importance of maintaining a strong economy 
in the Pacific Northwest.
    The recommendations, while not a scientific recovery plan, 
embodies the judgment of the four Governors that dam bypass, 
while a significant issue, was threatening to eclipse the 
larger debate. What are we prepared to do now to more swiftly 
and surely achieve a healthy Columbia Basin ecosystem with 
healthy and harvestable levels of salmon and steelhead?
    The Governors believed that the best way to move that 
larger debate forward was to throw their support behind a suite 
of actions they believed could and should be done immediately 
to help fish.
    Governor Kitzhaber expects that the Federal agencies will 
review the Governors recommendations as part of the process of 
finalizing the draft biological opinion.
    As I indicated at the outset, Governor Kitzhaber believes 
the overall four-H approach outlined in the draft biological 
opinion is appropriate, but we believe meeting the legal 
mandated under the Endangered Species Act to ensure both 
survival and recovery of the listed salmon and steelhead means 
the biological opinion, as it is finalized, must be 
strengthened so as to reflect the true extinction risk and the 
necessary level of survival improvements, both of which we 
believe are under-estimated in the draft biological opinion.
    Thus, Oregon offers the following specific proposals to 
strengthen the draft biological opinion.
    First, the opinion's recovery strategy in each of the four 
H's must be made more robust by adding on-the-ground actions 
not included in the Federal document and by increasing the 
intensity of some of the actions that are included.
    Regarding hydropower operations, Governor Kitzhaber 
believes that the Federal plan appears to rely too heavily on 
technological fixes and fish barging rather than on improving 
in-river conditions for fish migration.
    I would note that this approach differs from the four 
Governors' recommendations, which assert stronger support for 
hydrosystem configurations and operations that more closely 
resemble natural river processes, recognize fish barging as an 
interim strategy, and call for additional investments to 
improve river conditions so that more fish can migrate in-
river.
    In the area of harvest, we know that we must reduce the 
level of impacts on threatened and endangered stocks, while 
still affording reasonable ceremonial, commercial, and sport 
fishing opportunities.
    We can achieve this reduction by lowering the harvest 
rates, particularly for the fall fisheries that impact Snake 
River fall chinook, but we should also seek reductions through 
license buy-backs and use of more selective gear types, and we 
must create new terminal fishing opportunities off the main 
stem like the successful terminal fishery at Oregon's Young's 
Bay.
    Regarding habitat, we support the Federal Government 
channeling its support to the State, tribal, and regional 
efforts currently underway that will result in improvements to 
salmon-related habitat. We also support, in the area of 
habitat, the provision in the biological opinion that calls for 
creating a mechanism to purchase water and habitat rights on a 
willing seller/willing buyer basis, as well as more and better 
assistance to private parties for such things as riparian 
protection and water conservation.
    For hatcheries, the Federal Government must use the 
biological opinion to marshall its resources and authorities to 
promote the reforms described in the artificial production 
review which the Northwest Power Planning Council produced at 
this Congress' request.
    Finally, as all four of the region's Governors clearly 
stated in their consensus recommendations, the recovery effort 
we face will be costly. To be credible, the recovery plan 
outlined in the draft biological opinion must provide a 
detailed budget and funding strategy. Such a budget and funding 
strategy should include an increased level of appropriated 
funds because, after all, recovering listed salmon, improving 
water quality in the Columbia and Snake Rivers, and honoring 
treaty rights are national obligations.
    We also urge the creation of a new authority for a 
Columbia-Snake River regional salmon recovery plan, as was done 
with the Everglades and the salmon recovery effort known as 
Cal/Fed.
    On these funding issues and all other issues, we look 
forward to working closely with Congress and the Administration 
to ensure that the opportunity to implement a recovery strategy 
that does not require bypass of the four Lower Snake dams is 
not jeopardized by a lack of resources.
    Thank you again, Mr. Chairman, for the opportunity to 
testify.
    Senator Crapo. Thank you, Mr. Bloch.
    Mr. Cassidy.

  STATEMENT OF FRANK L. CASSIDY, VANCOUVER, WA, ON BEHALF OF 
                         GOVERNOR LOCKE

    Mr. Cassidy. Thank you, Mr. Chairman. My name is Frank L. 
Cassidy, Jr., and I am chairman of the Northwest Power Planning 
Council. Today I am also representing the Hon. Gary Locke, 
Governor of the State of Washington, who also apologizes for 
his inability to attend. He would have liked to have been here.
    As you well know, the Power Planning Council is an agency 
of the States of Idaho, Montana, Oregon, and Washington, and, 
as you've heard earlier, under the Northwest Power Act of 1980, 
the Council conducts long-range electrical energy planning and 
analysis and also prepares a program to protect, mitigate, and 
enhance fish and wildlife on the Columbia River Basin that have 
been affected by the hydropower dams.
    That program, the Columbia River Basin fish and wildlife 
program, directs the annual expenditure of about $130 million 
in electricity rate-payer funds for the benefit of all fish and 
wildlife, including threatened and endangered species.
    Currently, as we speak, we are undertaking a major 
amendment of that fish and wildlife program. In the future, it 
will be implemented primarily through locally developed action 
plans that are consistent with basin-wide goals and objectives 
and an underlying foundation of scientific principles.
    With the Snake River dam breaching off the table for at 
least 5 years--and that's our view at the Council presently--
there will be a strong emphasis on improving spawning and 
rearing habitat in our new plan. We will try to change hatchery 
and harvest practices to support rebuilding naturally spawning 
fish populations and work to improve both smolt and adult fish 
passage survival throughout the basin, including at the dams.
    These are the key elements of the Council's fish and 
wildlife program now under amendment, and they are also 
addressed in the fish recovery recommendations issued in July 
by the Governors of Idaho, Montana, Oregon, and Washington.
    I hope the Federal action agencies will carefully review 
the Governors' recommendation finalizing the draft biological 
opinions. As you can see, we support Governor Kempthorne's 
comments about the Governors' document.
    Mr. Chairman, you asked for the points that we would have 
regarding the Federal buy-out. There are important similarities 
between the Council's program and the Federal program proposed 
in the draft 2000 biological opinion.
    No. 1, both rely heavily on offsite habitat improvements, 
those located away from the hydrosystem.
    No. 2, both call for creating performance standards to 
guide habitat restoration and for reforming fish production 
facilities consistent with the recommendations in the Council's 
1999 report to Congress on artificial production, the 
``Hatchery Report.''
    No. 3, the Federal program endorses selected fishing 
techniques and terminal fishing opportunities to reduce impacts 
on listed fish. The Council's program already supports such an 
effort, and, as Eric alluded, we now, as we speak, are creating 
salmon fishing opportunities in Young's Bay in Astoria and 
elsewhere on the lower Columbia.
    No. 4, both programs would be implemented, ours and the 
Federal group, through sub-basin plans, and so there is an 
opportunity for the Council and the Federal agencies to 
collaborate in designing them.
    Today, I would also like to briefly note four areas where 
the Council believes that biological opinions need further 
refinement and are in disagreement with our present fish and 
wildlife draft plan.
    First, the opinions are specific in types of actions that 
are needed to avoid jeopardy, but they are general in 
describing where these actions are needed and in defining 
schedules for accomplishing them. We think the northwest 
citizenry wants certainty and they want facts on how to get 
that recovery problem achieved.
    Second, the Federal documents call for improving stream 
flows, actions regarding water quantity, water quality, and 
fish passage, but again are very short on details.
    Third, our staff determined the proposed dam operations in 
the hydropower biological opinion would boost power generation 
in November, but seriously reduce it in December and January. 
These are 2 months when we believe the power system will be 
stressed and most susceptible to reliability problems, 
therefore we think that's an issue.
    In a related matter, we believe protocol should be 
established, if they are not already, for Bonneville to decide 
when and under what conditions water spills required under the 
biological opinions would be curtailed in order to boost 
hydropower generation. Obviously, if you increase generation 
and reduce spills, you can affect the outbound migration of 
salmon.
    Fourth, the biological opinions designate priority sub-
basins for actions to assist endangered and threatened species 
but do not specify how these actions would be funded.
    We believe it is important for the Administration to 
prepare and submit for Congress' consideration a supplemental 
appropriations request for the fiscal year 2001 for actions 
that address the reasonable and prudent alternatives proposed 
in the draft biological opinions.
    Finally, Mr. Chairman, we look forward to close 
collaboration with the Federal agencies as we work to protect 
and enhance the fish and wildlife of the Columbia River Basin. 
This collaboration between the region and the Federal agencies 
will improve public accountability and scientific credibility 
for all of our efforts.
    I thank you again for the opportunity to speak, and I'm 
pleased to answer any questions.
    Senator Crapo. Thank you very much.
    I thank each of you and want to give credit to your 
respective Governors for their role in the effort to bring 
together this, I think, very significant step toward building 
consensus in the region.
    I'd like to start my questions by reading something from 
the Governors' document. This doesn't have a page. It's on the 
first page of the introduction, at the bottom paragraph. It 
says, ``We are keenly aware of the extent to which breaching 
the four Lower Snake dams has become a polarizing and a 
divisive issue. Regardless of the ultimate fate of the dams, 
the region must be prepared in the near term to recover salmon 
and to meet its larger fish and wildlife restoration 
obligations by acting now in areas of agreement without resort 
to breaching the four dams of the Lower Snake.
    ``In order to succeed, the region must have the necessary 
tools and a clear and comprehensive plan, adequate time, and 
sufficient funding.'' Then it goes on to make recommendations 
in that context.
    The reason I read that is because I think that it very 
clearly sets out the perspective that I think we can use as the 
platform on which we can build consensus in the region.
    The question I have is: given that basis of approaching the 
issue--which, again, I believe is the correct basis--how does 
the proposal by the Governors differ from the proposal that we 
now see in the Federal BIOP that we see developing? I mean, 
what are the--I know you address this a little bit in your 
testimony, but give me the core difference. What is it that is 
different that the Governors are recommending that you don't 
see in the Federal plan?
    Who wants to be first?
    Mr. Cassidy.
    Mr. Cassidy. Yes, Mr. Chairman. I think probably the big 
difference is that the Governors' plan calls for a single 
person to be put in charge by the Federal Government of the 
overall management of the Federal Government's actions by what 
they call the ``action agencies,'' and so all the local 
agencies--either State, county, irrigation districts, 
whatever--can go to one place to get the information they want. 
That seems to be a pending problem we hear about as we go 
around, at least in my State, about how they get one person 
that they can be accountable to and one person they get 
straight answers from, and I think that was a significant 
change.
    Senator Crapo. OK. Mr. Etchart.
    Mr. Etchart. Mr. Chairman, Senator Baucus, there is an 
awful lot of compatibility between the Governors' 
recommendations and the draft BIOP. There are also some 
important differences.
    I think maybe the masthead difference that fits in the 
conversation I've heard this morning is that the Governors want 
these matters decided on a collaborative basis. They want the 
stakeholders in the region, tribes, fish agencies, the States 
to decide these matters on a partnership kind of basis.
    The draft BIOP, by the nature of how the ESA works, is a 
set of unilateral decisions, to use the absolute term, and I 
think that is at odds with what I heard you and Governor 
Kempthorne talking about.
    There are also any number of other questions. I mean, what 
is the budget for this BIOP? Who is going to pay for it? What's 
the basis for the designation of these priority sub-basins? 
Does the ESA really, as the BIOP holds, preempt Congress' 
broader mandate to the region to protect all fish and wildlife? 
There is the power of the purse question that I cited. There 
are energy loss implications that the BIOP holds that you 
wouldn't find in the Governors' recommendations. There is an 
increase in flows contemplated by the BIOP that the Governors' 
recommendations doesn't hold, and on and on.
    Senator Crapo. Thank you.
    Mr. Bloch.
    Mr. Bloch. Yes, Mr. Chairman. As I indicated in my remarks, 
I think a significant difference between the biological opinion 
in its draft form and the Governors' recommendations relates to 
the way it looks at the hydrosystem, itself.
    The Governors are, in their document, expressing a view 
that, even setting the issue of outright removal of some of 
these dams aside, there are ways that we can make the 
hydrosystem more amenable to salmon survival through removal of 
blockages on the main stem--in other words, exploring 
opportunities above some of the dams to move fish there. We're 
moving some of the economically marginal dams on some of the 
tributaries, which is occurring right now. In Oregon we have 
Marmut Dam on the Sandy River, a couple of dams in Washington, 
Condit Dam and potentially Wabatux Dam on the Natchez River are 
being removed.
    These are what you call win/win situations, because the 
owners of the dam, the people who are involved in local 
communities are in support of that, and so it is really a view 
of the hydrosystem and trying to view the main stem not as just 
a passage corridor that can easily be resolved through 
perpetual reliance on fish barging, but really viewing it as a 
habitat and needing to improve the quality of that habitat as a 
means of improving salmon survival.
    Senator Crapo. Thank you.
    I appreciate all of those comments, and each one of them 
kind of fits with some of the concerns that I have had, and 
since you all answered the question, let me kind of answer it, 
myself, and lead to a further discussion.
    One of the concerns that I have seen is that, if you take 
the basic position that we are trying to find a path that will 
help the region avoid the difficult decision to breach dams, 
and if we are now faced with what I think is an 8- to 10-year 
period of time to achieve success in that arena, then how do we 
most successfully do that?
    We've got to focus where the problems are and we've got to 
have meaningful and aggressive solutions in those problem 
areas, and it just seems to me that one of the differences in 
focuses that I'm concerned about, as several of you have 
mentioned, is that there seems to be an increased focus on the 
Federal plan on water in terms of quantity, which brings me 
back to flow augmentation issues, and an increased focus--or a 
decreased focus, if you will, as Mr. Bloch has more 
specifically stated, on the main stem of the river and how we 
are going to be as successful as we can, not in terms of 
breaching, but short of breaching to get the fish successfully 
out to the ocean.
    It seems to me that if we were to spend the next 8 or 10 
years doing things that don't work, then we are essentially 
creating a path toward breaching the dam.
    If we spend the next 8 to 10 years doing the things that 
have the most effective chance of working, then we are creating 
an opportunity to avoid that decision about breaching the dams, 
and that's----
    Senator Baucus. Mr. Chairman, I'd ask you your intention. 
Five bells are ringing.
    Senator Crapo. That means we've got very little time, 
doesn't it.
    Senator Baucus. Yes. We've got to make some decisions here.
    Senator Crapo. Would you like to go vote and then come 
back?
    Senator Baucus. I would like to ask a couple of questions 
of Mr. Etchart, then go vote.
    Senator Crapo. All right. I'll interrupt my statement and 
you may go ahead.
    Senator Baucus. John, just the Montana perspective, just 
comment, please on the draft biological opinion.
    Mr. Etchart. Well, Mr. Chairman and Senator Baucus, there 
are lots of similarities. I think the approach of the National 
Marine Fisheries Service in many ways is compatible with the 
right way that we think it ought to be done.
    There are these exceptions. I mean, the particular 
exception that you mentioned this morning, Montana has these 
two huge reservoirs that contain important biology for the 
State of Montana. The draft biological opinion contemplates 
taking more water from those reservoirs. That implicates not 
only our biology, the bull trout you mentioned; it also affects 
recreation and, as important, it has implications for our 
energy supply, something we haven't talked about here this 
morning, but really deserves at least a passing mention. We've 
had a summer where we've had power in very short supply, really 
an emergency situation, both price emergencies and availability 
emergencies. So it worries us that the draft biological opinion 
is going to take more Montana water.
    Senator Baucus. That's a very good point. I have been on 
the phone just giving it to NMFS on the way they are drawing 
down water from Kukanoosa and Hungry Horse. I just gave them 
the dickens, frankly.
    Senator Crapo. Add Idaho water into that.
    Senator Baucus. Yes. It is a huge problem. I just hope that 
the NMFS folks out here listening to this will take this very 
seriously.
    Senator Crapo. Certainly.
    As you may have noticed, there have been some bells and 
buzzers going off. We are going to have to call a short recess 
here to go vote. I understand we only have one vote, so it 
shouldn't be long.
    I'm going to bring the hearing to a recess and ask your 
forgiveness for us as we take a break here. We'll try to hurry 
and vote and get back as quickly as we can.
    [Break.]
    Senator Crapo. As each of you answered my question, I, too, 
have a concern, and that concern relates to whether what I see 
in the Federal plan indicates a direction that is being taken 
away from this focus or as strong a focus as we need on the 
river system, and, in another context--and Senator Baucus' 
questions were, I think, quite helpful in this regard--a move 
toward more focus on the use of water in more of a flow 
augmentation regime, or a regime that focuses on more land 
management efforts.
    Here's where my concern lies. As I was saying, if we don't 
take this opportunity that we have now in the next 8 to 10 
years to make a difference and to either solve the problem or 
find out that all of the other solutions that we think work are 
really not going to work--I mean, we're going to find out 
something if we try all these things. If we don't do what is 
best, then we'll be sitting here in 8 years debating about 
whether we could have tried something more on the hydrosystem 
or something more in these other contexts.
    At the same time, if we spend the next 8 years 
consolidating Federal regulatory control over water in the 
West, and consolidating Federal regulatory control over land in 
the West, then we will--and then we see that we haven't 
breached the dams and a decision is then pushed to breach the 
dams, what we will have is we will have the worst of all worlds 
in terms of not actually doing what is needed to save the 
salmon. We will have lost significant State sovereignty over 
water. We will have a new water regime in the West that is not 
in the best interest of the people in the West. We will have 
significant impacts on land management decisions that will not 
have solved the problem, and we will be faced with a question 
of breaching the dams.
    That is an outcome that I think would be intolerable.
    Now, everybody acknowledges that we have to focus on all 
four of the H's. I don't dispute that, either. But I do tend to 
think that the most significant successes we will have will be 
in the area of the river system, and what that means is, I 
guess, for scientists and others to help us understand as we 
then try to answer it from a policy perspective.
    But I would like to ask each of you if you would be willing 
to just comment on the perspective I have just put out. Am I 
right? Am I wrong? Or are there things that I'm seeing that 
should be clarified, or whatever? Anybody want to jump in 
first?
    Mr. Cassidy.
    Mr. Cassidy. Sure. Thanks, Mr. Chairman.
    I'd really address this issue more based on Washington 
experience, because that is, of course, where I am from, but I 
think it is, in my view, applicable to the whole region.
    As you say, if breaching is off the table, where then do 
you go to make the waters of the northwest salmon friendly, 
because without question if we don't have water we don't have 
fish. If you have agricultural needs, irrigation commitments--
in my State of Washington a majority of the rivers in the 
Columbia Basin are legally over-appropriated. The legal water 
rights exceed the flow of the river, should all those people 
choose to use it. They don't today, and that's fortunate. Of 
course, the value of the senior water right versus a junior 
water right is tantamount to a property right in the view and 
minds of the people in Washington State.
    So if we take breaching off the table, which we, in our 
plans for the next 5 years, are assuming is going to happen, 
then where do you go for riparian protection, for zone 
protection for the streams, for temperature control, for 
filtration, and for water flow?
    That, to me, is where the real significant challenge comes 
throughout our whole region, as I said, particularly in our 
State.
    We tried to work on water markets in the State of 
Washington, willing buyer/willing seller. We find that this 
problem is enormous in size, but probably has to be solved inch 
by inch because local landowners, particularly in the rural 
areas of Washington State--as, again, I think is true 
throughout the region--really don't have much confidence or 
willingness to work with government, whether it is State or 
Federal or any other level. They just sort of have a way of 
life they have been used to, and now all of a sudden this issue 
is important to them in terms of it is going to have some 
impacts on how their operation operates.
    Certainly the government, whether it is State or Federal, 
has to be prepared to mitigate in the areas where we do have to 
make changes, but minimizing those changes and getting those 
people involved in what we call in Washington a ``bottoms-up'' 
basis instead of a top-down approach is what the real challenge 
is.
    That's where I'm worried that this whole system could break 
down, because once you start getting a bottoms-up approach, 
which is what we're trying to do in Washington--as you probably 
know, we put a fish and forest agreement together with the 
timber industry in Washington State, gave them a 50-year tax 
break on State taxes in exchange for riparian setback zones and 
other significant advantages for salmon. We have tried to take 
that same policy over to the ag industry in eastern Washington, 
and the dairy industry also in western Washington. We haven't 
been as successful, simply because it is a different frame of 
thinking.
    We are close to some significant breakthroughs, but it 
really has to be done an inch at a time. The local people have 
to be involved and do a bottoms-up basis. That, to me, is the 
most difficult challenge.
    If we end up with the Federal Government superimposing this 
issue--let's go back and use the spotted owl as an example--I'm 
very concerned it will not work.
    The 8 years you talk about will go by so fast it's not 
funny. That's hardly two life cycles of the spring chinook.
    But when talking about the main stem river, I also would 
say I can remember in 1976 we were arguing about nitrogen 
supersaturation in the Snake and Columbia Rivers, and it is 
still there today at exceeding levels that damage the fish.
    We also have, I think, ignored this ocean as sort of a 
black hole for a long time, and finally that's starting to come 
into focus. At least in my view as a member of the Council it's 
starting to come into focus.
    Salmon spend 75 to 80 percent of its life in the ocean, and 
I'm not just talking about interception by Canada or Alaska, 
but the whole feeding and available nutrients that allow salmon 
to recover. I think a big part of why we're getting good salmon 
runs back currently deals with the fact that the currents have 
changed and the salmon have been able to survive better.
    So this whole life cycle, whether it is at the time they 
are born or when they go down when they go through the water 
system in the Columbia or when they are in the ocean all has to 
be put together, and then I think you have to have a little 
luck.
    But I do think that there are some significant challenges 
that deal with getting the people aware of what is going on. As 
you get more public awareness, as you've probably noticed, you 
also get more biologists that tend to also think they know the 
best way to run the resource. Trying to manage all that and get 
it sensible has been very difficult.
    But I think when you see the four Governors' document, 
which represents an effort by, as Governor Kempthorne 
mentioned, two democrats, two republicans, diverse political 
views coming together, it is a significant sign that the 
community in the northwest is ready to do something. They are 
ready to step up and make this happen, and I think we can.
    Senator Crapo. Good. Mr. Bloch.
    Mr. Bloch. Yes. Thank you, Mr. Chairman.
    I am personally very heartened by your approach and belief 
that what we are lacking here is a focused effort to look at 
the main stem Columbia, Snake Rivers and do what we can to make 
those areas more suitable habitats.
    This is information that came to us as long ago as 1994 in 
a report that I believe was commissioned at Congress' request 
by a group that was then called the Independent Science Group 
and is now the Independent Science Advisory Board.
    They titled their report, ``Return to the River,'' and it 
was, I assume, a very deliberate naming because what they 
really called for is creating a more normative river or 
allowing for a more normative river to evolve, and they 
recognized that if we can do that, if we can focus our efforts 
on returning to some of the characteristics of a natural river, 
we are going to have more success in rebuilding these salmon 
populations.
    Now, my belief is that a lot of the focus on removing the 
lower dams on the Snake River is born of the belief that if you 
were to remove those dams you would, at least for a stretch of 
the Snake River, recreate a more normative river there.
    Now, if we are not going to remove dams, there may well be 
other ways, other things that we can do that will, in whole and 
part, move toward a more normative river system. I think that's 
where we need to focus our efforts.
    I would call out one for special attention, and that is 
water quality issues. You discuss flow augmentation, and in my 
mind that is mostly concerning itself with water quantity 
issues, but water quality is obviously an important aspect of 
fish health, as well, and there we find the linking up with the 
Clean Water Act.
    I think we need to do a better job of weaving the Clean 
Water Act processes and the ESA processes together, and, 
frankly, do a better job in addressing Clean Water Act issues 
on the main stem.
    Finally, I'd just like to say that we can do all this, but 
I think the effort, if we do focus on main stem improvements 
and improving the quality of the main stem as a habitat, I 
think it is going to remind us of something that Governor 
Kitzhabe said when he spoke to the American Fishery Society of 
Oregon in Eugene last February. What he said was,

    There is no doubt in my mind that we can move ahead with 
salmon recovery without breaching dams. All I am saying to you 
today is that we have to stop deluding ourselves into believing 
that our choices will be easier or cheaper if we just leave the 
dams alone.

    I think what we're going to learn through the course of 
these hearings--and I thank you for this--is that we can embark 
on a course of salmon recovery and leave the dams in for now 
and hopefully for the long term, but we need to recognize that 
we need to commit the effort and the resources to do that, and 
that effort and those resources are going to be substantial.
    Senator Crapo. Thank you.
    Mr. Etchart.
    Mr. Etchart. I can be very brief, Mr. Chairman.
    I agree with your concern that increasing Federal 
consolidation over water and resources in the West is a specter 
to be concerned about.
    Moreover, in my view this is an approach that won't work 
for salmon, can't work for salmon for the very reason I think 
you cited in your initial testimony this morning, that any 
approach that is going to work is going to have to have 
political support as well as strong biologic and economic 
underpinnings.
    Let me just comment very briefly on what I heard my friend 
and colleague Mr. Bloch say. We do want to make the river 
better. I think the Governors made a point of saying as much. 
But the basis for improving river conditions--for requiring 
more spill, for requiring more flow--is a compelling biological 
case that we're getting gains for those increases.
    Senator Crapo. Thank you.
    In your collective answers to the question, a couple of 
other questions have come to my mind, and the first one was 
really raised by your comments, Mr. Cassidy, but I think it was 
implicit in everybody else's response, as well.
    Does the decision to take dam breaching off the table for 
the next 8 to 10 years, or whatever the timeframe is, 
automatically put us in a posture of having to look at more 
water quantity issues, more flow augmentation issues?
    Mr. Etchart. Mr. Chairman, while Mr. Cassidy gathers his 
remarks----
    Senator Crapo. Go ahead.
    Mr. Etchart [continuing]. I'll react to that quickly and 
briefly.
    In my mind, from the State of Montana's perspective, and I 
think from the four Governors' recommendations, even though I'd 
better be careful I don't say what I'm going to say too 
strongly, because I might get quarreled with, but in answer to 
your question I would say not necessarily.
    The Governors say about flow augmentation really a couple 
of things, and about spill, for that matter--that we want the 
Federal Government, whose practice it has been to put these 
measures in place, to tell us, to warrant for us what the 
biological benefits are and what quality of flow is it that 
provides these benefits.
    I think, if a compelling case can be made for flow 
augmentation--which at this point there are lots of arguments 
on both sides, but I would argue there's no need to go 
further--then we should go further. I don't see the need.
    I think, Mr. Chairman, just parenthetically, the Council is 
about to embark on adopting an amendment to our plan. I don't 
know whether there's going to be increased flows in our program 
or not, but I can tell you this: the emphasis is not going to 
be on the hydrosystem, it is going to be on habitat and 
hatchery reform and harvest restrictions and doing what we can 
in the river to make it more passable for migrating salmon, but 
the idea that it necessarily implies more flow I'd say is very 
much an open question.
    Senator Crapo. Mr. Cassidy.
    Mr. Cassidy. Mr. Chairman, I would sort of throw a curve 
ball back at you and say it depends on how you define flow 
augmentation. I've listened to Carl Dryer's (phonetic) 
presentation, which is very meaningful when he says he doesn't 
believe there is credible evidence that flow augmentation, as 
defined in Idaho's ``Sacrifice of Water,'' is a significant 
contributor.
    On the other hand, in my State we look at flow augmentation 
as this inch-by-inch battle. As Eric mentioned, we're talking 
about taking Wabatux Dam out and we pick up 750 CFS in the 
Yakima system. That's critical.
    We have an example in the Umatilla where, I think through 
Federal funding, we have a recycling project where we pump 
water out of the Columbia to feed the irrigators in the lower 
Umatilla, and they gave up water so that we could get in-stream 
flows in the Umatilla and we have fish back there, first time 
in 77 years. Well, that's a flow augmentation contribution, but 
it is sort of an inch-by-inch process.
    In the John Day River, which may be the Northwest's best-
kept secret--no hatcheries, natural runs, and probably the 
longest river in the State of Oregon, certainly--we have push-
up dams throughout the system and over-appropriation on some 
extraction.
    We're trying to work our way through either by acquiring 
habitat, acquiring water. I call that a form of flow 
augmentation, where we're starting to gain on the system, but 
it is an inch-by-inch battle in those battles.
    I think you are more referring to this huge block of water 
that Idaho and Montana have to deal with, and there is one 
bottom line you can't ignore: to get these fish back, we've got 
to make the water salmon friendly, and that does take water. 
How you get there is a myriad of different ways.
    My sense is there is not political support presently for 
any major sacrifice by Idaho or Montana. I think Montana makes 
some adjustments for the system now with regard to the 
integrated rule, curbing the flows that do occur, but it is a 
real battle, at least in Washington State, just fighting it up 
through inch by inch.
    Senator Crapo. I think that's a helpful clarification. 
Thank you.
    Mr. Bloch.
    Mr. Bloch. Thank you, Mr. Chairman.
    The issue of flow augmentation was addressed in the four 
Governors' document, and the consensus that was reached among 
the four Governors on that issue was essentially acquiescence 
to the current flow augmentation program, which I don't think 
any of the Governors felt was likely to go away, at least in 
the short term, and a call to assure that, with the flow 
augmentation--and really it is the same standard we ought to 
apply to all that we do, particularly where it has major 
impacts--let's make sure that it is grounded in good science 
and that it is achieving the intended biological benefit.
    With respect to flow augmentation, Governor Kitzhaber--in 
the prepared remarks you'll see this--we do, at this point, 
believe that there is sufficient scientific basis and benefit 
to the flow augmentation program. We support flow augmentation 
being increased in the Columbia through the purchase of some 
Canadian storage, which the biological opinion looks to 
Bonneville to move forward with those purchases. We support 
that.
    Frankly, the investigation of that Canadian storage was 
referenced in the 1995 biological opinion, so if it is 
available we would certainly support it being purchased.
    There's also a possibility of getting some additional water 
for flow augmentation in the Snake River out of the Wahee 
Reservoir, where currently there is some dead storage there 
owing to the vagaries of the pump system there. If we could 
have some infrastructure changes--and estimates are it would 
run around $50 million--there would be some additional water 
that could come out of that reservoir that could be dedicated 
to the flow augmentation program.
    Senator Crapo. Thank you.
    Another question that came to my mind as you were each 
responding is: the objections to breaching the dams are many, 
but several of the key economic impacts that would be caused by 
breaching the dams are the destruction of the transportation 
system on the river and the elimination of some of the 
irrigation opportunities that are available in the current 
situation.
    It has always been my opinion that, when we talk about 
whether to breach dams or not, that what we're really saying 
is--those who oppose it, in particular, are really saying,

    We do not want to do the damage to the Pacific Northwest 
economically that would occur from eliminating the 
transportation system on the river or eliminating the 
irrigation and the irrigated agriculture that is made possible 
by that.

    Those are two of the key elements, it seems to me. Like I 
say, I'm not trying to minimize the other concerns, but those 
seem to be two of the most significant concerns.
    In that regard, it would seem to me that, even though, with 
the current BIOP direction that we see, saying that the 
decision to breach dams is off the table for a period of time, 
if we were to insist that the plan that is adopted, whatever it 
be, focus on the main stem of the river, we are going to have 
to continue to get reassurances about the transportation system 
and agriculture.
    So the question I have is: going beyond the issue of 
breaching dams to the issue of impacting transportation on the 
river and impacting agriculture on the river, are the kinds of 
things that you've discussed that we can do also consistent 
with maintaining a transportation system, as we now know it, 
and with maintaining irrigated agriculture as we now know it in 
the regions that would be impacted?
    Mr. Cassidy. The irrigation issue--which, of course, as you 
know, the Snake River and the four dams are in my State, so we 
focus on this issue very heavily.
    Senator Crapo. Right.
    Mr. Cassidy. The irrigation could continue in a breached 
fashion. It just would be expensive because you would have a 
normative river instead of the reservoirs, and the present 
irrigation extraction would have to be expanded down to lower 
levels in the canyon as the river went back to normal flow.
    Senator Crapo. What about in the non-breach actions that 
the four Governors might recommend with regard to the main stem 
of the river? Would they impact irrigation? Do you know?
    Mr. Cassidy. In the Lower Snake I do not believe so, but 
I'm not positive.
    Mr. Bloch. It, frankly, depends upon what measure you're 
talking about. Let me illustrate at least my thinking on this 
by talking a little bit about draw-down.
    The sort of dam removal--the concept of removing dams and 
drawing down dams sort of becomes synonymous in some people's 
minds, but at least in my mind it is a different animal.
    One of the options for system reconfiguration that we might 
explore is draw-down. I understand that it has been something 
that has been on the table, been discussed, even been tried on 
a test basis. But we continue to feel that it is something that 
we ought to be examining because it may well prove up that 
doing draw-down at some project to some level in combination 
with other actions is going to get us on the path to recovery.
    Your question is: if we did something like draw-down, for 
example, would that be fully consistent with irrigation and 
transportation? There's really no definitive answer. It might 
be, it might not be, and that's something that we would have to 
examine as part of the process of looking at the draw-down.
    My understanding is that, for example, there are ways to 
draw down John Day that would produce some substantial 
biological benefits that might preclude use of the very deep 
draft barges that are currently in operation but would not 
preclude use of some of the shallow draft barges.
    So, Mr. Chairman, if your question is, if we draw down John 
Day, would we continue to do everything as we did today? Maybe 
not. But would there still be a transportation system intact? I 
think so. But then there's always the question of whether it is 
economically cost effective to utilize it once you've done 
that.
    These are issues that warrant further analysis, both in 
terms of the biological benefits and the economic costs.
    I think Governor Kitzhaber's perspective is simply that 
they ought to be kept on the table, we ought to be examining 
it, we ought to be looking at our options, because if we do 
leave the dams in place we think that the long-term recovery of 
these stocks is going to come by piecing together many 
different activities, and that's why we want to keep as much on 
the table and under analysis as we can.
    Senator Crapo. Mr. Etchart.
    Mr. Etchart. Mr. Chairman, notwithstanding what my friend, 
Mr. Bloch, has said, which I think is true in every regard, I 
think in Governor Racicot's contemplation the recommendations 
we made for the next period wouldn't materially interfere with 
irrigation or transportation.
    Drawing down main stem reservoirs, John Day or whatever, is 
almost as contentious and almost as unsettled from a scientific 
basis as dam breaching. We don't have that in our contemplation 
in the short term.
    Another thing is that that--we haven't said the word 
``power'' again in this----
    Senator Crapo. I was going to go to that next. Go ahead.
    Mr. Etchart. That measure would have power implications. In 
the Lower Snakes, people trivialize the contribution the Lower 
Snakes make. I think you've got people here that are much 
more--Ms. Johansen is here from BPA. People are here that are 
much more qualified than me to talk about it. But they make a 
real contribution, and an even larger contribution to our 
transmission system, reliability and so on. That's another 
factor to be thought about here.
    Senator Crapo. Well, I definitely--in fact, as soon as I 
asked the question I realized I left out perhaps the biggie, 
and that's power. But if you add power into transportation and 
irrigation, then I think you've pretty well got the core 
economic impacts that we maybe were talking about.
    Mr. Bloch. Mr. Chairman, I just wanted to make clear, lest 
I be misinterpreted, I was not in my comments advocating----
    Senator Crapo. Certainly.
    Mr. Bloch [continuing]. Moving forward with any of these 
measures; simply that they ought to continue to be examined and 
part of things we might look at in order to piece together our 
future recovery efforts.
    Senator Crapo. I assumed that all four of the Governors are 
committed to a consensus-based approach, and so you'd have to 
evaluate the likelihood of something that is as contentious as 
dam breaching, developing that kind of support.
    Well, as usual, I could go on forever, but I have another 
panel that I need to get up here, so I would like to thank you 
for your attendance and encourage you to continue providing 
this kind of excellent input.
    Thank you.
    We'll call up our next panel now: Mr. William Stelle, the 
northwest regional administrator, for a while, at least, of the 
National Marine Fisheries Service; Colonel Eric Mogren, Army 
Corps of Engineers from Portland; Ms. Judith Johansen, 
administrator of the BPA; and Mr. David Cottingham, the special 
assistant to the director of the Fish and Wildlife Service.
    We thank you all for your time here and your patience. 
Without anything further, let me go in that order and have you 
present your testimony, and then we'll get into a discussion.
    Thank you. Mr. Stelle.

    STATEMENT OF WILLIAM STELLE, NORTHWEST REGION REGIONAL 
 ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, SEATTLE, WA

    Mr. Stelle. Senator Crapo, thank you. It is a pleasure to 
be before this subcommittee again, and I want to thank you and 
it for its attention to this significant subject.
    Mr. Chairman, the National Marine Fisheries Service is 
engaged in two efforts at present to address salmon recovery 
policy as it applies to the Federal Columbia River hydropower 
system. One is a new draft biological opinion covering the 
operations and configuration of that system under the 
Endangered Species Act. The other is a basin-wide recovery 
strategy which we intend as a conceptual recovery plan for all 
of the listed salmon stocks in the Columbia and Snake Basin.
    These two documents, the draft biological opinion and the 
basin-wide recovery plan, are intended to provide an overall 
framework for the rebuilding of all of the Snake and steelhead 
stocks in the Columbia Basin.
    First, a note on stock status, itself.
    The prognosis for these stocks, as a whole, remains dire. 
They are in bad shape. Some of them are in very bad shape. The 
trends are not good.
    The basic story, stocks throughout the Columbia Basin 
remain in trouble, with the upper Columbia chinook, Snake River 
chinook, and steelhead stocks throughout the basin most at 
risk.
    Yes, we have encouraging returns this year in the basin 
that are very significant, and yes it looks like we've got some 
good early jack counts for next year's returns, as well, so it 
looks to us that significantly ocean conditions may have turned 
around and may have turned around for the next period of time. 
If so, that's great news and it is good for the stocks, but it 
is not a reason to be complacent. One year and two years does 
not a trend make.
    What we are looking for, what we are endeavoring to build 
is a long-term trend to recovery.
    The scope of the new draft biological opinion addresses all 
12 evolutionarily significant units, ESUs, within the Columbia 
Basin. It is an important point because the 1995 biological 
opinion was focused on the four salmon populations in the 
Snake, alone.
    It addresses operation of the security, including flow and 
spill.
    It addresses system configuration issues, including dam 
draw-down, passage improvements at each project, and operation 
of the transportation system through the entirety of the fish 
migration season.
    It proposes performance standards for the hydrosystem, 
itself, based upon survivals and productivity improvements 
needed by each of the salmon populations to avoid extinction 
and achieve a recovery trajectory.
    The National Marine Fisheries Service and the action 
agencies and Fish and Wildlife and EPA have been working 
together in an inter-agency group since the fall of 1999, and I 
would say that the level of effort there, Mr. Chairman, has 
been very significant. A heck of a lot of time and effort by 
many, many people have been invested in this effort.
    The group is composed of senior staff from each agency, and 
on the beginning of this year, in January of this year, we sent 
a letter to each of the Northwest States and the 13 Native 
American tribes inviting them to participate in this process 
with us. Since then, the work group has been meeting regularly, 
both by itself and with the States and tribes to lay the 
groundwork for and develop the key elements of this new draft 
biological opinion.
    Draft materials developed through the Federal work group 
process have been shared with these States and tribes, 
including hydrologic and biological analyses of the effects of 
different flow and spill alternatives, an analysis of the 
potential effects of those same operational alternatives on the 
transmission system, and initial description of the information 
being developed to assist in the evaluation and use of 
performance standards.
    The basin-wide recovery strategy is intended to both 
capture the details of the hydropower system proposals and 
envelop them in a broader, more comprehensive strategy 
involving all the four H's, and it reflects our belief that, in 
order to be successful, a strategy must be comprehensive and 
cannot be limited to hydropower issues, alone.
    The strategy, therefore, recommends a comprehensive basin-
wide program that places a premium on actions that can be 
implemented quickly, that are likely to provide solid and 
predictable results, and that will benefit the broadest range 
of species.
    These include conservation hatchery interventions for the 
weakest stocks, production hatchery reforms across the board in 
conjunction with the Power Planning Council, improvements on 
Federal lands, in-stream flows for dewatered streams, 
elimination of impediments to fish passage in the tributaries, 
continued improvements to passage at the main stem dams, and 
rebuilding productivity of the estuary.
    The strategy is built on biological considerations, but 
also recognizes that there is a limit to the resources 
available for the job and to the authority, Federal agencies.
    It emphasizes Federal support for actions that State and 
local governments are planning or are already undertaking, such 
as the Northwest Power Planning Council's sub-basin planning 
proposal, which we strongly endorse and have worked closely 
with the Council upon.
    In the habitat area, where some actions can take decades to 
show benefits, the program emphasizes those measures that can 
be taken quickly, with longer-term actions to be taken later 
based upon the sub-basin assessments through the Council 
mentioned above.
    It also seeks to establish very strong durable connections 
between the new habitat features of the Council's program and 
related State programs in the same subject area such as water 
quality protections, in-stream flows, and riparian-related 
activities.
    Mr. Chairman, I will close my comments with offering a 
couple of observations on the next steps.
    First, the Federal agencies intend to complete this effort 
by the end of the year, and we are organizing to do so. That 
entails the completion and promulgation of a final biological 
opinion and also continued revisions to the basin-wide strategy 
as ideas continue to evolve.
    Second, we do expect that--I would emphasize that the 
basin-wide strategy and the draft BIOP are draft documents, and 
we expect that they should be changed and they will be changed. 
They are not perfect, as I'm sure comes as no surprise to you, 
a veteran of this subject. But we do believe that they have 
laid out the basic framework of the basic course, and we don't 
expect serious fundamental changes in that course between now 
and final.
    Third--and this is very important, from our perspective--we 
are open and anxious to continue discussions with the 13 
Columbia River tribes and with the four States to flesh out the 
details, to color in the blanks of the program as they now 
stand. We believe that there are substantial opportunities to 
do so, and that, in fact, the area of overlap between the 
framework that we have laid out and that of the Governors is 
significant.
    The opportunity is there for the Northwest to come to terms 
on an agreement, a program that we can put into place and 
implement over the next 5 to 10 years. It is there for us if we 
choose to take it, and I believe, in good faith, that Federal 
agencies, States, and tribes, if we work very hard, we can 
capture that agreement by the end of the year and get on with 
the business of salmon recovery.
    We expect it will require more money--more money at several 
different levels. We will be at that time prepared to describe 
what additional funding may be required and additional 
authorities, Federal authorities, may be required; hence, 
successful implementation of this program, Senator, will 
absolutely require the support, active support, of this 
Congress, as well.
    Finally, let us choose to come together on this framework, 
on this agreement. The alternative is divisiveness and 
increased litigation next year, which I think is an absolutely 
unacceptable outcome for the Pacific Northwest, as a whole.
    We have the opportunity to do the right thing, and we 
believe it is time to seize that opportunity.
    I thank you and I look forward to your questions, sir.
    Senator Crapo. Thank you.
    Colonel Mogren.

 STATEMENT OF COLONEL ERIC MOGREN, NORTHWESTERN DIVISION, ARMY 
  CORPS OF ENGINEERS, PORTLAND, OR; ACCOMPANIED BY DOUG ARNDT

    Colonel Mogren. Thank you, Mr. Chairman. I'm Colonel Eric 
Mogren, deputy division engineer of the Northwestern Division, 
Army Corps of Engineers, and I thank you for this opportunity 
to discuss the status of the National Marine Fisheries Service 
and Fish and Wildlife Service biological opinions on operations 
of the Federal Columbia River power system.
    I'll keep my remarks short, with additional details 
submitted in written remarks for the record.
    As Will mentioned, the overall stocks are in trouble 
throughout the basin. But he also noted that we are seeing 
record returns of adult salmon in the Columbia this year. We 
believe these results are at least partially due to prior 
investments and the many improvements made in the hydropower 
system to date, as well as the efforts throughout the basin by 
tribes, States, and local communities. This represents a huge 
investment at multiple levels, and I would suggest we need not 
be shy about recognizing that we have seen some return on that 
investment.
    Many of these actions were called for in the biological 
opinions under which we are currently operating.
    In the remainder of my remarks I'd like to focus on four 
key points.
    First, is the relationship of the Snake River EIS to the 
biological opinions.
    Second, is the funding implications of the biological 
opinions.
    Third, the results of a recently released General 
Accounting Office report on the Snake River EIS.
    Fourth, a proposed flood control study that is called for 
in the BIOP.
    With regard to the relationship between the biological 
opinions and the EIS, the NMFS draft biological opinion 
reflects the administration intent to pursue aggressive actions 
across all H's, with specified performance standards and 
periodic check-ins.
    If these efforts fail to show sufficient progress toward 
restoration, then other measures, such as dam breaching, may be 
considered. The question of whether to breach the four Lower 
Snake dams has been a focus in regional discussions on salmon 
recovery, even though such an action would have influence on 
only 4 of the 12 listed salmon and steelhead stocks in the 
basin.
    The Corps' Lower Snake River study includes evaluation of 
dam breach, as well as three other major alternatives for the 
four Lower Snake dams. These are to maintain the existing 
system, to maximize transportation of juvenile fish, and make 
major system improvements such as surface bypass.
    The obvious question is whether the measures of the 
biological opinion predetermine the findings of the EIS. I want 
to emphasize that both the biological opinion and the EIS 
depend on the same underlying science. However, under NEPA, the 
Corps is required to consider all relevant factors, including 
comments received during the comment period, before selecting a 
final recommendation.
    We are now processing the nearly 200,000 comments that have 
been received during the public comment period and analyzing 
the substantive issues raised. We expect to have a final 
environmental impact statement in March of next year.
    On the issue of funding, full implementation of the 
measures called for in the BIOPs will be an ambitious program 
requiring substantial increases in appropriations. For example, 
the President's fiscal year 2001 budget, as submitted to 
Congress, calls for $91 million in the Corps fish mitigation 
project. Additional money may be needed to implement the 
measures in the draft BIOPs that were not foreseen when the 
original budget was prepared.
    With regard to the concerns raised in the General 
Accounting Office review of the Lower Snake study, the Corps 
believes that the GAO report substantially validated our EIS 
process within the scope of the areas that were audited. We are 
particularly satisfied with their support of the power 
analysis, which is a substantial component of the overall 
economic analysis.
    GAO did, however, raise two areas of concern which we are 
now addressing. The first is air quality, which also was raised 
by EPA. We are working the air quality and water quality issues 
with EPA to address these technical concerns.
    The other is the transportation analysis. We are 
contracting for further economic review and to respond to the 
issues raised by the GAO through the Independent Economic 
Analysis Board.
    Finally, I would like to address the issue of the flood 
control study called for in the draft BIOP. NMFS continues to 
look for additional flow augmentation to provide flows to 
assist juvenile salmon migration. The draft BIOP requests a 
detailed, system-wide, multi-year flood control study to 
determine if we can provide additional fish flows by reducing 
the amount of flood control storage.
    This would be a major undertaking. If included in the final 
biological opinion, we would first seek appropriate 
congressional approval. Further, we would caution that such a 
study would include a flood damage risk analysis and may lead 
to the need for increases in flood control protection, and 
thereby reduce available flow augmentation for fish.
    A few final thoughts.
    The NMFS biological opinion also calls upon the Corps, the 
Bureau of Reclamation, and the Bonneville Power Administration 
to address actions in harvest, hatchery, and habitat for fish 
restoration as a means of supplementing hydropower operations. 
For example, we are asked to step up efforts in habitat 
restoration in tributaries, mainstem reaches, and in the 
Columbia River estuary. The Corps supports this as part of the 
All-H approach to fish recovery.
    We look to the Congress for continued support of these 
efforts. We will continue to work with you and keep the lines 
of communication open.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer whatever questions you may have.
    Senator Crapo. Thank you, Colonel.
    Ms. Johansen.

 STATEMENT OF JUDITH JOHANSEN, ADMINISTRATOR, BONNEVILLE POWER 
       ADMINISTRATION, DEPARTMENT OF ENERGY, PORTLAND, OR

    Ms. Johansen. Thank you, Mr. Chairman.
    I appreciate the opportunity to address you and the 
subcommittee today, and I applaud your interest and your 
leadership on the recovery of the Columbia Basin salmon and 
steelhead runs.
    Mr. Chairman, we all want a comprehensive, integrated plan 
for fish recovery. We have heard that in the region, we've 
heard that today in your hearing. We need a comprehensive, 
integrated plan that can be implemented, and I believe we are 
getting closer to such a plan.
    I, personally, am encouraged to see the recent 
recommendations of the four Northwest Governors and to receive 
the comments of the tribes during this process. I look forward 
to the Power Planning Council's rulemaking, which is due out 
this fall, and I see a lot of convergence in those areas. The 
onus now obviously is on the Federal agencies and the region to 
work together, as you have indicated, in a collaborative way.
    I certainly concur with your remarks that we must have the 
support of the people in the region in order to come up with an 
implementable plan.
    As we have said before and as Bonneville has indicated in 
terms of its goals, the plan must be scientifically sound; it 
must comply with our statutory treaty and trust obligations; 
and it must have broad regional support. But, moreover, it 
needs to address the many issues that we face in the Columbia 
Basin. It needs to address all the listed stocks and all four 
``H's'' that affect them. If we can do that, then I think we 
will be able to achieve, as a region working together, 
Bonneville's twin goals of recovering the fish and creating the 
certainty necessary for our region to continue to have a strong 
economy.
    Let me just make three brief points about certain aspects 
of this discussion that are important to Bonneville, and 
perhaps of interest to you.
    First of all, for the first time in the Endangered Species 
Act debate we are finally seeing some performance standards. 
While they may not be perfectly defined in the current 
iteration of the draft biological opinion, I am quite heartened 
that we, as a region, are moving toward specific performance 
standards, and I think that's the very type of issue that we 
collaboratively need to focus on in the next several months. So 
the performance standards are a good approach, and I believe we 
need to keep working on those.
    Second, with regard to funding, there is no question that 
Bonneville will be a significant contributor on behalf of 
Northwest rate-payers to the funding of this plan. I want to 
state clearly that Bonneville stands ready to finance its fair 
share of this plan and the rate-payers' portion of that plan, 
as we've set forth in our power rate case.
    Finally, as has been reiterated throughout my comments, it 
is obvious to me and to the other Federal agencies that we need 
to step up the effort to collaborate with the region, including 
working with the delegation, the States, and the tribes to make 
sure that we address the issues of substance and science that 
are key to the underpinnings of a regional plan that meets the 
criteria that you and Governor Kempthorne and others have 
talked about today a plan that is scientifically sound, meets 
the legal requirements, and is, above all, implementable.
    Thank you very much for inviting me today. I look forward 
to your questions.
    Senator Crapo. Thank you.
    Mr. Cottingham.

    STATEMENT OF DAVID COTTINGHAM, SPECIAL ASSISTANT TO THE 
    DIRECTOR, FISH AND WILDLIFE SERVICE, DEPARTMENT OF THE 
INTERIOR; ACCOMPANIED BY HOWARD SHALLER, VANCOUVER, WA OFFICE, 
                   FISH AND WILDLIFE SERVICE

    Mr. Cottingham. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today.
    With me is Dr. Howard Shaller from the Fish and Wildlife 
Service's Vancouver, WA office should we get into any detailed 
questions that we might need him to approach. Thank you.
    The Service has been working with the action agencies and 
National Marine Fisheries Service on the consultations, and we 
are looking primarily at the consultations as regard to 
sturgeon, Kootenai River sturgeon, which is an endangered 
species, and threatened bull trout, which are in the upper 
reaches of the basin, as you know.
    We have been focusing on ways to make sure that the salmon 
plans and the biological opinions that National Marine 
Fisheries Service is doing and the operations of the FCRPS 
throughout the Columbia Basin are consistent, and that we 
minimize the impacts on those species.
    Our draft opinion requests adjustments to the operations 
and ramping rates of Hungry Horse, Libby, and Albeni Falls, and 
we are asking the Corps to continue looking at studies of pool 
elevations at Albeni Falls for Kootenai sturgeon spawning.
    The draft opinion calls for actions at Libby to allow 
increased flows and achieve flow objectives, while meeting the 
dissolved gas problems there.
    I would be remiss, sir, given the dialog that you had with 
the Governor this morning, if I did not mention caspian terns. 
We recognize the problem. We are working with our colleagues in 
the agencies to do something about it. We're doing a status 
review of terns and preparing sea bird management plans. The 
agencies have adopted a goal to eliminate tern nesting on Rice 
Island in 2001, but we need to do that by establishing some 
more appropriate nesting sites throughout the Columbia estuary.
    I know that we have some report language in the 
appropriations bill, and we will be getting some reports to you 
and the rest of Congress in late March of this year.
    With that, sir, I'll conclude my comments and thank you for 
holding the hearing and allowing us to testify.
    Senator Crapo. Thank you very much.
    As Mr. Cottingham indicated, we had asked each of you to 
bring a technical staffer with you, just in case we needed to 
have some questions answered, and I understand you have each 
done so.
    I will tell your staffers that they are welcome to pull a 
chair up with you or be close at hand, just in case they need 
to pitch in. Maybe we won't even get into any questions they 
will be needed on.
    Mr. Stelle, I think I will start out with you. Does that 
surprise you? How many more days have you got?
    Mr. Stelle. I don't know, but I may move up the schedule.
    Senator Crapo. You've heard some of the concerns that I 
have already raised in terms of comments and questions that I 
have discussed with other panelists. One of the concerns that I 
have--and I think what I'll do is just kind of lay out for you 
my perspective on what I see has happened and then ask you to 
comment on it. I've already indicated that I have perceived a 
lack of collaboration with the States and the tribes and other 
interested parties and groups in the region. You've testified 
that, beginning in the fall of 1999, a very intensive effort 
was undertaken to try to communicate and work with these 
groups.
    I'm not sure that what is being done is what I call 
collaboration, but I want to go back even further, because it 
seems to me that before that time, prior to 1998, the path 
model seemed to be what was the model being utilized, or at 
least the focus of a lot of the analysis, and sometime in 
around 1998, as I see it--well, for lack of a better 
description, I think the Federal Caucus basically just went 
underground. I'm giving you my perspective on this. We didn't 
know where things were headed. We couldn't get information. 
When I say ``we,'' I'm talking about me, but I think that I'm 
also reflecting input that I've gotten from the States and the 
tribes and other fisheries managers who didn't know where 
things were going, and the Federal Caucus basically said, 
``We're going to go in our own council and come up with 
something and we'll let you know when we do.''
    I know that that isn't the exact words that were used, but 
that's what I perceived happened.
    Then, in about the fall of 1999, about a year-and-a-half 
later, the Federal Caucus surfaced with its proposal, and at 
that point the CRI model seemed to be the more-favored model, 
or at least the direction proposed by CRI seemed to be the new 
way, and a lot of different conclusions have been reached or 
proposals made, and so forth, based on that apparent new 
direction.
    I'm not here to debate the two models or anything like 
that. I'm just kind of giving you my perspective of what I've 
seen happen.
    It does seem to me, though, that the new direction taken by 
the Federal Caucus has been basically one that significantly 
turned its focus away from the main stem of the river, not that 
it ignores it, because I realize you've got All H's in your 
proposal, but the focus on the main stem seems to have been 
significantly reduced and the focus on things like water 
quantity or water augmentation, habitat, and hatcheries, and so 
forth seems to have been increased.
    Now, whether that's a result of the CRI model gaining more 
dominance than the path model or not, I don't know, but that 
seems to be the new direction taken.
    The concern that I see from that--and now a supposed 
collaborative effort is being undertaken, but, as you probably 
know from my previous comments on this, I don't deem 
collaboration to be telling everybody, ``This is where we're 
headed. Now you can comment on it, and then we'll tell you what 
we think of your comments.''
    You know, I think collaboration is when you truly bring the 
parties that are going to be involved in your collaboration to 
the table and they have a meaningful part of the decisionmaking 
that has to take place.
    When you say you are going to try to finish this by the end 
of this year, that tells me that you basically are going to 
have to have some meetings and then make some decisions and get 
things done in about 3 or 4 months, and I don't see how a 
collaborative process can even work now in that timeframe. 
That's one of the reasons I have been objecting so strongly for 
the last couple of years--that I don't see this happening, and 
until it happens I don't see success coming.
    So my concern is with what I perceive as a lack of 
collaboration to this point, and now an apparent diversion of 
the focus of where we think the real benefits in recovery 
efforts can be achieved.
    I'm concerned that we may take this opportunity that we 
have with the next period of time to try to do something short 
of breaching and squander the opportunity because we haven't 
built consensus, we've diverted into what I think are 
potentially the wrong areas of focus, and we are now facing a 
very critical timeframe of decisionmaking in which we've got to 
start doing things that we believe will work and that people in 
the region believe will work or we are going to be faced with 
these kinds of dilemmas in just a few years down the road.
    I'm sure that you don't entirely agree with my perspective 
there, or my description of it, but I would just like you to 
comment on or respond to that perspective.
    Mr. Stelle. Thank you, Senator.
    Those are thoughtful observations. Let me try to respond in 
a helpful way.
    I think that your basic point about the lack of adequate 
collaborative effort has merit, and I don't think that neither 
NMFS nor the other Federal agencies shy from that point.
    I think we are open to try to explore better ways to work 
with our partners in this salmon recovery effort, our essential 
partners, because they are essential, and develop methods by 
which we can do so successfully.
    What I mean by--``successfully'' is a loaded term, or a big 
term. We need to be able to make decisions. We need to be able 
to make them based on credible scientific foundation. We need 
to be able to defend those decisions, because we will be sued, 
and we should be called upon to defend them. We need to be able 
to implement them in a timely way. We need to be able to do 
that in a way that maximizes the opportunity for agreement with 
the essential parties here for salmon recovery in the Columbia 
Basin.
    I don't think we have any--and I defer in part to my 
colleagues here. I don't think we have any magic machinery that 
we can turn to that will be instant success. All you need to do 
is just add water.
    Senator Crapo. Bad example, but I understand your point.
    Mr. Stelle. Add water and stir.
    But I think what you see is not a reluctance to try. I 
think we have a very genuine desire to try and to succeed, and 
if you have thoughts on how to do it successfully, as the 
Governors or the tribes, we would welcome that.
    But, again, I do have to emphasize the practical end of it, 
too, which is to say the imperative of being able to make 
decisions and do things in a timely way because that is our 
responsibility, as well.
    On the change of focus which you have pressed upon, I think 
you are correct that there is a change of focus. I would 
describe it a little bit differently, though, Senator.
    Senator Crapo. Please do.
    Mr. Stelle. It is not turning away from the hydropower 
corridor or the hydropower issue; it is building beyond them. 
So, as I think of it and believe it, we continue to tackle the 
hydropower issues, both Federal and non-Federal, head on, and 
we continue to propose and explore in this new biological 
opinion for the Federal hydropower system opportunities to 
improve survivals and improve knowledge.
    If we are missing something, we do not intend to miss 
something, and therefore that is why we welcome the comments 
from the States and the tribes to see if, in fact, there are 
things we should be doing through the hydropower corridor that 
we have not proposed and that we will, therefore, propose.
    But yes, we seek to go beyond it, and our view is not a 
hydrocentric view. That is grounded on the fact that the 
salmonid life cycle is complex, as you well know; that the 
risks to salmon recovery occur at each stage of that life 
cycle; and to be successful in salmon recovery we must be 
comprehensive.
    It is also premised on the belief that, given the 
hydropower system, Federal hydropower system as it is currently 
constructed, that the opportunities for substantial, 
significant survival improvements in the hydropower system, 
itself, are growing more limited, and that, therefore, if we 
are seeking very substantial improvements in survivals, we must 
go elsewhere.
    We believe that the opportunities--the most efficient 
opportunities with the biggest bang for the buck steer us, one, 
to the estuary, rebuilding the productivity of the estuary, 
because all of the salmonid populations to varying degrees use 
is--live there, grow there, beef up before they go to their 
ocean journey--and in tributaries because the arithmetic of 
survival opportunities in the tributaries is huge.
    So, sir, we have very intentionally tried to broaden the 
lens on our camera, to broaden the focus, and to develop a 
recovery strategy that has firm commitments in the four H's so 
that next spring, when we're standing before a Federal court, 
we can say, ``Your Honor, this is what we were doing in the 
hydropower corridor. This is the strategy that we're pursuing 
elsewhere. Here is how it all adds up. Here's the big 
picture.''
    Senator Crapo. I understand what you're saying, but, as I 
compare, for example, the Governors' paper with the proposed 
BIOP and what we've seen so far, I see very distinct 
differences in terms of the approach to the hydropower or the 
main stem issues, and in that context it just seems to me that 
NMFS is shifting the focus away from the hydrosystem as a major 
source of mortality and is putting the focus more on these 
other areas that you've just described--estuary and tributary 
habitat.
    But it is my understanding that survival from egg to smolt 
has not declined appreciably since the Snake River salmon 
populations were robust in the 1960's and survival from smolt 
to adult has declined substantially over the same period of 
time.
    Given that fact, I don't think that we can effectively 
conclude that, by shifting our focus into those areas where we 
already have less of a problem is going to give us better 
results, and that's the concern that I am raising.
    Mr. Stelle. A couple of comments, if I may, Senator.
    No. 1, I'm not sure why--we do not necessarily see the 
significant different approach as do you and the Governors 
strategy as it relates to the hydropower system. In fact, to 
the contrary, to be honest. I think we perceive a very 
significant overlap, and because of that overlap a huge 
opportunity for us and the States to come together.
    Senator Crapo. That is encouraging.
    Mr. Stelle. As it relates to hydropower, itself, again, I 
think we see substantial overlap to the strategies. If there 
are things that the Governors believe we should be doing in the 
hydropower corridor that we have not proposed to do, then we 
are all ears.
    Senator Crapo. Would anybody else on the panel like to jump 
into this discussion, or are you going to use prudence?
    [Laughter.]
    [No response.]
    Senator Crapo. OK. I gave you your chance.
    Well, let me just pursue the question of collaboration a 
little bit better. What is your contemplation of what needs to 
take place between now and the end of the year with regard to 
finalizing this biological opinion? What collaboration is going 
to take place?
    Mr. Stelle. Assuming that the other essential parties are 
prepared to put their shoulders to the task, as are we--and I 
do----
    Senator Crapo. Yes. I agree that they will.
    Mr. Stelle [continuing]. I believe that we need to engage 
now, and I mean now, this fall, in a series of discussions with 
the States, individually and collectively, and the treaty 
tribes individually and collectively at both a policy and a 
technical level, one, to ensure that we understand each other 
at the technical level, and understand the technical and 
scientific foundations for the views that may be espoused or 
the recommendations that may be proffered, and then, at the 
policy level, we have an opportunity thus educated to explore 
the terms of agreements or explore the disagreements that may 
be outstanding with the State governments and the tribes.
    This will require a substantial effort, and I think that 
the Federal Caucus is prepared to mount that effort. We see 
there is no choice but to do so.
    At the end of the day, we believe that there are Federal 
laws that will require Federal agencies to make decisions, and 
we are prepared to do so, but we absolutely want to ground 
those decisions on agreements with the States and the tribes to 
the maximum extent possible.
    Senator Crapo. Does that involve--well, let me preface 
this. It seems to me, notwithstanding what you've said today, 
it seems to me from the input that I've received--and I have 
been working on this, as you know, about constantly, but it 
seems to me like the input that I received from tribal and 
State fisheries managers is that there is a significant 
disagreement between their approach to the science and what 
they now see gaining dominance in the Federal Caucus' proposed 
BIOP.
    Now, perhaps that disagreement isn't as broad as I believe 
it is, and I'm not going to try to resolve that issue here 
today, but it seems to me that one way to make certain of that 
is to bring together those fishery scientists and people, 
especially in the short term that we have facing us on a rather 
rapid basis, and get those people back together so that there 
can be the kinds of interaction between the various 
decisionmakers that needs to take place for collaboration to 
truly work.
    Are you prepared to commit to that?
    Mr. Stelle. Yes, Senator, I am. May I offer a couple of 
observations----
    Senator Crapo. Yes.
    Mr. Stelle [continuing]. That I hope are helpful to you?
    Senator Crapo. Certainly.
    Mr. Stelle. First of all, please understand that the 
development of the quantitative modeling work by the National 
Marine Fisheries Service, which is known in shorthand as CRI, 
was not intended to and is not a tool that is exclusive to the 
Columbia Basin, and I have pressed very hard over the last 4 to 
5 years on our science center to develop those better 
quantitative data base pools by which to project, be able to 
project outcomes so that we could use that across the board in 
the West in helping the agency make decisions about what works, 
what may work, and what may not work.
    So the CRI--developing that toolbox that would be commonly 
called the CRI, is not simply a tool for the Columbia Basin at 
all, it will be deployed in decisionmaking on Puget Sound, and 
coast-wide, I hope.
    Having said that, I think that your observation or 
criticism about the CRI being perceived or the NMFS science 
work being perceived by others in the region as isolated, not 
collaborative, or done in relative isolation and not 
sufficiently collaborative, I think there are elements of truth 
in that observation, and the struggle for us--and it is a 
struggle--is to develop the methods by which we undertake 
analyses that we believe are absolutely credible from a science 
perspective and that can stand the legitimate test of peer 
review, because that, at the end of the day, is the touchstone 
of our decisionmaking as a matter of law and as a matter of 
common sense.
    How do we maintain the integrity of that scientific process 
and at the same time open the doors to it so that others have 
the opportunity to critique it, to participate in it, and to 
help us improve it?
    It is not a consensus-based exercise. Something is not 
right from a scientific perspective because everybody agrees. 
Something is right, do it. Something is right from a scientific 
perspective because it measures up through the scientific 
process.
    Senator Crapo. But in a lot of models----
    Mr. Stelle. The challenge for us, Senator, is to pull those 
two things together. Have we done that well enough? No. Are 
there opportunities to continue to improve that? Yes.
    I would also encourage your focus not only on this issue--
this issue is not only an issue between now and December.
    Senator Crapo. Right.
    Mr. Stelle. Now and whenever we complete this planning. 
This is really an implementation measure as much if not more 
than simply a planning measure because the program that we are 
laying out here is a longer-term program, it places a very 
heavy emphasis on escalating our efforts in monitoring and 
research into those areas of the unknown that we need to know 
more about. The implementation of that monitoring and the 
research work is going to be crucial to the success of the 
program.
    How do we do that so that it builds the confidence of the 
region that it is well-grounded? How do we do that so that we 
avoid those scientific squabbles that we should be able to 
avoid? It is an absolutely fair question.
    Senator Crapo. It is a very tough one to answer, but it 
seems to me that--and I agree you don't find good science by 
consensus, you find good science by doing the scientific 
process well and getting the answers objectively verified. But 
it seems to me that as we, in this area as well as many others, 
work with models, a lot of the outcome of the models depends on 
the assumptions on which the models are operated, and I don't 
believe we have consensus yet among scientists as to whether 
these models operate--as to which models are the right ones or 
which improvements need to be made in the models, whether it be 
path or CRI or whatever it may be.
    Again, I do not suppose that I have the ability to tell 
whether one model is better or worse than the other, but what I 
can tell is that, from the input I am getting from other 
scientists outside the Federal Caucus, is that there is concern 
about the direction that is perceived to be being taken by the 
Federal Caucus.
    So, with all respect to what you've said, it sounds to me 
like the National Marine Fisheries Service is pretty much 
committed to the CRI model at this point in time, and that any 
collaboration that may take place will take place within what 
that model says.
    Is that what you're saying?
    Mr. Stelle. Yes, but with an important caveat, and then I'd 
like to turn to Dr. Schiewe----
    Senator Crapo. Sure.
    Mr. Stelle [continuing]. Because this really is in his 
bailiwick.
    We absolutely anticipate that this CRI--we believe the CRI 
work as it now stands is incomplete. The modeling, itself, is 
incomplete. That it absolutely will need to be changed and 
improved, and our scientists are committed to that.
    So it is not a static, done product. It is not a static 
thing. It is not a completed product, so far as finished. It 
will continue to evolve and improve as scientists inside and 
outside have the opportunity to critique it, suggest ways to 
improve it.
    So, again, if the State of Idaho's scientific people have 
observations or suggestions about where its flaws may be and 
how to correct those flaws, I believe that the NMFS scientists 
are open to it. It doesn't necessarily mean that the NMFS 
scientists will agree, but absolutely there should be that 
critical review and exchange of----
    Senator Crapo. You are committed to reconvening the 
scientists in the sense to be sure that they have the chance 
now early to collaborate on these matters?
    Mr. Stelle. Yes.
    Let me turn to Dr. Schiewe on the workshops.
    Senator Crapo. Doctor.
    Mr. Schiewe. Thank you, Senator. My name is Michael 
Schiewe. I am the head of the salmon science program at the 
Northwest Fisheries Science Center.
    Let me first comment on the sort of transition from path to 
CRI. It is our impression that path accomplished a tremendous 
amount of what it had set out to achieve, but got to a certain 
point where the different assumptions used in the models were 
not going to be resolved until we collected new information and 
new data.
    The CRI was an effort to move to a decision support mode 
which relied more on the collection of those data and 
hypothesis testing, rather than continuing modeling in the 
absence of those data.
    The CRI has made a very strong effort and commitment to be 
as open to other scientists as we possibly could. Since July of 
last year we have held six workshops, one of which was convened 
with an environmental group, American Rivers, to look at the 
various aspects of path and CRI, comparing and contrasting the 
ways they use data, what kinds of data would be necessary, the 
importance of future monitoring.
    We are continuing that effort. There is a workshop 
September 19 in Seattle inviting everyone from the region to 
view the most recent results of the CRI and ask for and welcome 
input. There is a workshop in November which will look more at 
the relationships between habitat and productivity, and there 
is a December workshop planned to look at the importance of 
monitoring.
    Because of the uncertainties associated with the various 
actions being proposed, be they main stem, be they habitat, 
hatchery, or harvest, we are committed to making sure that we 
learn from these experiences and that monitoring will be a 
critical part of that process.
    Senator Crapo. All right. Thank you.
    I'm going to shift gears for a minute and just kind of 
clear up a couple of questions--and, again, still for you, Mr. 
Stelle.
    You indicated that at the appropriate time the agencies 
would be making requests for Federal funding support for 
whatever the recovery plan calls for. In that context, as you 
know, in these kinds of situations rumors get started or 
thoughts get promulgated that may or may not have validity, and 
one of the questions that has been raised to my office is 
whether the Federal agencies are contemplating requesting funds 
for preliminary engineering and design work on breaching the 
dam. Is that something that NMFS is considering?
    Mr. Stelle. Yes.
    Senator Crapo. Could you explain that, given the proposal 
in the BIOP to try other options?
    Mr. Stelle. Yes. The overall strategy, Senator, in the 
biological opinion is to keep all options open for the long 
term, and on the issue of Snake River dam draw-down, that 
particular issue, to continue the homework of the technical, 
scientific, and economic homework associated with evaluating 
the pros and cons of implementing the draw-down.
    We believe that homework will take a period of time to 
complete, but the key component of it is the preliminary 
engineering and design work associated with a draw-down.
    Senator Crapo. When you say ``draw-down,'' are you 
distinguishing that from breach?
    Mr. Stelle. No.
    Senator Crapo. OK.
    Mr. Stelle. I meant breach.
    Senator Crapo. Breach. OK.
    Mr. Stelle. We believe that completing that homework is 
warranted on its own merits and also for purposes of ensuring 
that the overall program is as defensible as we can make it.
    Senator Crapo. It has also been reported that the final 
BIOP might include the possibility of breaching within 3 years, 
or at the conclusion of 3 years. Is that correct?
    Mr. Stelle. I can only really speak to the proposal as we 
now have it and to assure the Senator that at this stage that 
proposal is current.
    Senator Crapo. Which is 8 to 10 years, and then re-looking 
at the issue?
    Mr. Stelle. The proposal is a 10-year program, Senator, 
that has a series of--that places a very heavy emphasis on M&E 
work, first of all, and I don't want to ignore that because it 
is hugely important--escalated investments in monitoring and in 
research, particularly in those areas that we are largely 
ignorant, like hatchery risks, like tributary productivity, and 
estuary.
    It calls for a series of reviews. First, it calls for an 
annual planning by the action agencies and the services to 
develop an annual program that we share with the Power Planning 
Council and review, and that has budgetary components to it 
that describes what we collectively intend to do in the 
hydropower arena and in the other arenas.
    At year three it contemplates a retrospective of how we 
have done over the prior preceding 3 years to ask the question: 
Are we making reasonable progress in putting into place and 
doing what we said we were going to do?
    At year five it contemplates a more major program review 
that looks at the biologic--the programmatic information, 
meaning have we done what we said we were going to do, and the 
biological information that is available to us at the time, 
including stock status, to ask the question: do we believe that 
this program, as we now have structured it, is on course with 
the recovery trajectory for these stocks or not? It 
contemplates a series of responses based on the stock status 
and program reviews at that time, a similar major program 
review at year 8, with a 10-year terminus.
    Senator Crapo. So we have a review at year 3, 5, and 8?
    Mr. Stelle. Yes, with the major reviews contemplated at 
year 5 and 8. Why years 5 and 8? Because we believe that is the 
reasonable period of time when we are likely to have learned 
something new based on those measures that we intend to be 
implementing now, and we believe it is also a reasonable period 
of time by which to complete the work on Snake River dam 
issues, including the engineering work and the biological work 
on efficacy.
    Senator Crapo. Well, you can see the question that that 
raises, can't you? You're doing engineering work on breaching 
dams, and then saying that in 5 years we're going to revisit 
the issue of breaching dams.
    Mr. Stelle. Yes.
    Senator Crapo. Some might conclude that this is a plan to 
breach dams in 5 to 10 years, you know, to begin the process at 
that point in time, and that the other scientific activities 
that are taking place, or the other recovery efforts that are 
taking place, are efforts to prepare for dam breaching.
    Mr. Stelle. Senator, if that is a question about is this 
really a secret plan to breach Snake River dams, the answer is 
no, sir. First of all, it is not secret. We've laid out exactly 
what we want to do and why. We believe, again, a very high 
imperative for us--and I hope for you--is that we promulgate a 
plan that is biologically credible and legally defensible, and 
that when we are sued next spring we will succeed in defending 
it.
    We believe if we were to ``take dams off the table,'' that 
that would not be a defensible position, and that the strongest 
and most-defensible position is to keep all options open, to 
pursue the overall course that we have charted here, a part of 
which is to continue, in a responsible and orderly way, doing 
the additional work that has not yet been done on the issue of 
Snake River dam removal, because clearly that would be the 
point of litigation.
    Senator Crapo. But you can assure me, then, that it is the 
sincere attempt of the Federal Caucus to try to achieve 
recovery without breaching dams?
    Mr. Stelle. Absolutely.
    Senator Crapo. Well, let me shift over for a minute to you, 
Judy. Obviously, since NMFS is the lead agency, they're going 
to get the most focus on the questions, but----
    Ms. Johansen. I appreciate that.
    Senator Crapo. In fact, this little beeper may say fewer 
questions than you thought, maybe.
    The northwest appears to be in a position of needing more 
available electricity right now to meet its future demand. Can 
you tell me whether the Department of Energy has studied what 
type of generation would be built to meet that demand and what 
impact that new generation would have on the environment versus 
the full operation of existing hydro facilities to try to meet 
that demand?
    Ms. Johansen. Well, the Department of Energy, per se, 
hasn't done that study, but let me answer in a couple of ways, 
if I could.
    Senator Crapo. Sure.
    Ms. Johansen. The most likely generation resource to fill 
our current need will be natural gas fired combined cycle 
combustion turbines. In fact, Bonneville operates the majority 
of the transmission grid, and when turbine developers want to 
build a project they come to us to ask for transmission 
interconnection. We have seen about 7,000 megawatts of interest 
in natural gas fired plants in our region.
    Senator Crapo. Judy, let me also ask you if you would 
comment on the question--you mentioned in your testimony you 
appreciated the input that I have brought forward with regard 
to the importance of collaboration. Do you see that it is 
possible for us to achieve the kind of collaboration we need in 
the next--well, how many months have we got, 3 or 4 months--to 
be able to get that kind of consensus in the region to move 
forward?
    Ms. Johansen. It is possible if the most senior 
decisionmakers in their respective entities--those being tribes 
and the States and the Federal agencies--are willing to commit 
the time and the level of activity necessary to draw that 
consensus. I don't really see that we have a choice other than 
to try, because the Council will be releasing its rule on the 
Columbia Basin strategy, and the Federal agencies, as Mr. 
Stelle has indicated, need to make decisions in this timeframe. 
I don't think we have any choice but to try to set aside the 
time to do it, but it is going to be an unprecedented effort. 
I'm hopeful and I'm committing the resources of my agency--my 
senior people and myself personally, to making that 
collaboration work, and hopefully others will, as well.
    Senator Crapo. All right. Thank you.
    I am going to have to bring the hearing to a conclusion 
right now because of other pressing matters, but I wanted to 
first apologize to those who didn't get to say everything they 
wanted to say. We will keep the record open if there are other 
items of input that you want to provide.
    I hope that we have at least opened some issues up here 
today that will help us to proceed during the next 3 or 4 
months to really focus our recovery efforts on things that we 
believe are going to have the biggest impact, and I can assure 
you that this is not the last hearing. There are a lot of 
people who wanted to testify today and tomorrow who were not 
even able to be included just because of the timeframe within 
which we had to operate in this first hearing. In fact, we made 
it a 2-day hearing to try to get even more witnesses in.
    To those who were not able to testify, I want to again 
reassure them that that's not because we are not listening to 
their point of view. It's because we just have certain amounts 
of time in which we have to get this process started, and we 
will be holding further hearings.
    For those who did testify, I want you to know that the door 
here is open. This is an issue that the Senators and 
Representatives from the Pacific Northwest, in particular, are 
extremely interested in, as you might guess, and whatever 
happens I'm sure that we're going to be involved in one way or 
another, so it is going to be important that we understand 
where you are headed and why.
    I would simply say to the Federal Caucus that I appreciate 
your answers today and I encourage you in every way possible to 
engage in the most open collaboration that you can with the 
States, tribes, and other interested parties to make certain 
that when something is decided later this year it is something 
that we can hopefully step forward and lock arms with and go 
forward with as a region, rather than end up with more hearings 
and more conflict, because that truly--I think every witness 
here has agreed today that truly would be the most unfortunate 
outcome.
    With that, again, I thank everyone for their attendance, 
and the hearing is adjourned.
    [Whereupon, at 1:20 p.m., the subcommittee was recessed, to 
reconvene at 1 p.m. the following day, Thursday, September 14, 
2000.]
    [Additional statements submitted for the record follow:]
    Recommendations of the Governors of Idaho, Montana, Oregon, and 
 Washington for the Protection and Restoration of Fish in the Columbia 
                              River Basin
                                Preface
    Almost two decades after Congress passed the Northwest Power Act 
and nearly a decade after the first Endangered Species Act (ESA) 
listings of fish in the Columbia River Basin, State and Federal 
agencies and Indian tribes have not agreed on a long-term, 
comprehensive, effective and coordinated approach to protecting and 
restoring fish of the Columbia River Basin, particularly salmon and 
steelhead.
    Individually and collectively, we Governors have the authority to 
contribute to the efforts currently under way to develop an integrated, 
regionwide approach to recovery of ESA-listed aquatic species. We 
hereby set forth our recommendations for key elements of a regional 
approach.
    It is the Federal Government's role to administer the Endangered 
Species Act and to uphold tribal trust responsibilities. But the States 
also have an important role and responsibilities, as do other regional 
entities. Agreement on a regional approach, consisting of specific 
Federal, State and regional plans that protect both our salmon and our 
communities, as well as implementing the other recommendations in the 
attached document, will enable all of us to begin to fulfill our 
respective roles and responsibilities and meet the challenge that lies 
ahead.
    We look forward to the needed collaboration and cooperation among 
State and Federal Governments as we plan for the recovery of ESA-listed 
aquatic species in the Columbia River Basin.
            Sincerely,
                                   Dirk Kempthorne,
                                     Governor of Idaho.

                                   John A. Kitzhaber, M.D.,
                                     Governor of Oregon.

                                   Marc Racicot,
                                     Governor of Montana.

                                   Gary Locke,
                                     Governor of Washington.
                                 ______
                                 
                            i. introduction
    Almost two decades after Congress passed the Northwest Power Act 
and nearly a decade after the first Endangered Species Act (ESA) 
listings of fish in the Columbia River Basin, State and Federal 
agencies and Indian tribes have not agreed on a long-term, 
comprehensive, effective and coordinated approach to protecting and 
restoring fish of the Columbia River Basin, particularly salmon and 
steelhead. Individually and collectively, we Governors have the 
authority to contribute to the efforts currently under way to develop 
an integrated, regionwide approach to fish recovery.
    We acknowledge a broad regional responsibility to protect fish and 
wildlife species. Such an effort is underway through the Northwest 
Power Planning Council's (Council) fish and wildlife program 
amendments. As currently envisioned, the Council's program should be an 
important preventive component because wise management will help the 
region avoid future ESA listings.
    Because of the work of the last 10 years, including research and 
on-the-ground efforts, there is regional support for many key elements 
of fish recovery. In this document, we express our support for these 
elements as the nucleus of a regional approach to the recovery of ESA-
listed aquatic species, particularly salmon and steelhead.
    We want to stress that while we intend the consensus 
recommendations contained in this document to be useful advice and 
guidance to decisionmaking entities such as the National Marine 
Fisheries Service NMFS), U.S. Fish and Wildlife Service, Environmental 
Protection Agency and the Northwest Power Planning Council, our 
recommendations do not constitute a plan that can substitute for the 
procedural and substantive planning requirements of the Endangered 
Species Act, Clean Water Act, Northwest Power Act, or other relevant 
State and Federal laws.
    We are keenly aware of the extent to which breaching the four lower 
Snake River dams has become a polarizing and divisive issue. Regardless 
of the ultimate fate of the dams, the region must be prepared in the 
near term to recover salmon and meet its larger fish and wildlife 
restoration obligations by acting now in areas of agreement without 
resort to breaching the four dams on the lower Snake River. In order to 
succeed, the region must have the necessary tools including a clear and 
comprehensive plan, adequate time, and sufficient funding. Our 
recommendations address some of those necessary tools.
                ii. key elements of a regional approach
    A successful approach to recovery of salmonids and other aquatic 
species must include a clear goal, objectives that describe and measure 
the environmental and biological improvements needed to meet the goal, 
and an aggressive series of explicit strategies and actions designed to 
achieve the goal.
    The approach must address the so called ``Four Hs'' of human 
activities that influence fish and wildlife survival--habitat, 
hydropower, harvest and hatcheries and also account for what we call 
the ``Fifth H''--the impact of these actions on humans. Strategies and 
actions must be biologically sound, economically sensitive, and 
sufficiently flexible to accommodate alternative approaches depending 
on what works best. Finally, the approach must be truly coordinated, in 
the sense that it must account for and successfully integrate salmon 
recovery efforts ongoing at the Federal, regional, State and local 
levels.
    With these features, this approach will have the public support 
needed for effective implementation.
Recommendations
            Goal
    The regional approach must include a clear goal so that, in short, 
the region can understand what constitutes success. Accordingly, the 
goal we suggest is protection and restoration of salmonids and other 
aquatic species to sustainable and harvestable levels meeting the 
requirements of the Endangered Species Act, the Clean Water Act, the 
Northwest Power Act and tribal rights under treaties and executive 
orders while taking into account the need to preserve a sound economy 
in the Pacific Northwest.
            Objectives
    The approach must include objectives geared toward accomplishing 
this goal. Objectives may be qualitative or quantitative. One 
qualitative objective should be a healthy, functioning ecosystem. In 
practical terms, this means that we prefer to benefit salmon through 
strategies and actions that emphasize and build upon natural processes. 
While we recognize this may not always be feasible, we think it is an 
important policy decision that will, in turn, clarify the region's 
choice of strategies and allow us to make most effective use of our 
finite financial resources.
    It is our understanding that, at least in the Federal biological 
opinion and ``All-H Paper'' soon to be issued, quantitative objectives, 
also known as performance standards, will play an important role. The 
creation and use of performance standards will be critical--both in 
terms of allowing the region to move forward with specific strategies 
and actions and in measuring their success in achieving the desired 
environmental and biological improvements. Three criteria can ensure 
that performance standards are used appropriately:
    <bullet> Performance standards must be grounded in the best 
available science. This means the standards must be technically valid 
as a measure of the success of actions taken to achieve salmon 
recovery. To that end, we recommend performance standards be subject to 
scientific peer review.
    <bullet> Performance standards must be reasonably attainable. This 
means the standards must be clearly described, measurable and 
administered by a clearly designated entity with responsibility for 
compliance. This also requires that the actions to achieve the 
standards must be adequately funded in order to assure they can be 
implemented in a timely fashion.
    <bullet> Performance standards must be implemented in a manner that 
coordinates the short-, mid-and long-term actions that are necessary to 
improve overall salmon recovery. Standards focused on near-term 
measures should describe the immediate on-the-ground actions that 
benefit fish. Mid-term standards should describe the success of the on-
the-ground actions, and long-term standards should describe the overall 
success in achieving the desired biological response or improvement. 
Additionally, long-term standards should be crafted, wherever possible, 
in such a way that if improvement is not achieved, the performance 
standard would be useful in identifying the problem.
                          iii. habitat reforms
    In addition to the mainstem areas altered and blocked by dams, many 
key tributaries of the Columbia have inadequate flows for fish, 
impaired water quality, barriers to fish passage, unscreened water 
diversions or degraded riparian habitat. With Snake River and other 
dams in the Federal Columbia River Power System remaining in place, 
systemwide habitat improvements that respect private property rights, 
focused particularly in the tributaries and the estuary, become an even 
more critical component of salmonid and aquatic species recovery.
Recommendations
            Partnerships
    Because much of the habitat is on non-Federal lands, State, tribal 
and local governments, as well as private landowners, must be full 
partners in the recovery effort. To date, the National Marine Fisheries 
Service has not been clear with these entities about the specific 
improvements needed for recovery and has not conducted regular 
discussions about how to address issues of mutual concern. We are 
disturbed by this lack of full partnership in what should be a 
collaborative effort. As one step to achieve greater collaboration, we 
recommend the President designate one official in the region to oversee 
Federal agency fish recovery efforts in the Columbia River Basin and 
serve as the regular point of contact with the States, local and tribal 
governments.
            Water for Fish
    Stream and river reaches throughout the Columbia River Basin have 
flow and water quality problems that impede regional fish recovery 
efforts. The States are setting water quality standards and preparing 
implementation plans in accordance with previously established 
schedules. The States are also reviewing instream flow levels to 
address biological requirements for ESA-listed aquatic species. We are 
concerned, however, that the timelines for these tasks be fully 
consistent with the timeline required for salmon recovery. Therefore, 
we recommend Federal assistance and support be made available to the 
States to better coordinate these timelines and, where necessary, to 
accelerate water quality improvements and to establish instream flows 
that benefit listed aquatic species in the Columbia Basin.
    We support voluntary exchanges to obtain needed water for fish and 
support the development of water markets to effect exchanges among 
willing buyers and sellers. We believe this strategy has potential to 
contribute to fish recovery, and we are committed to support changes in 
State law or policies to facilitate this approach. We also recognize 
existing efforts to conserve water and support further assistance to 
promote conservation.
    Protecting and recovering salmonids and other aquatic species 
requires protecting land on and around fish-bearing streams. Building 
upon successes elsewhere, we endorse creation of salmon sanctuaries 
that protect key aquatic habitats and related uplands through voluntary 
conservation easements, leases, land purchases, and tax-incentive 
donations. The region should attempt to obtain substantial additional 
habitat protections in the locations that promise the greatest benefits 
for fish.
    Finally, given the major responsibilities that will fall upon 
private landowners, voluntary habitat improvement programs need to be 
fully encouraged through the use of a federally funded incentive 
program. Increased riparian fencing is an obvious place to start.
            Local Recovery Plans
    We strongly endorse the concept of local planning for recovery of 
salmonids and other aquatic species. This concept has the advantage of 
bringing together local and tribal governments with local citizens to 
develop and implement local recovery plans. A local focus also helps 
avoid duplication of efforts and ``top-down'' planning. Recovery plans 
developed at the local level, whether through State salmon plans, 
Federal agency actions or through the Council's process, must be 
complementary. The Federal Government has a fundamental obligation to 
assist local efforts in developing fish recovery plans. A premium 
should be placed on implementation of those plans that meet 
requirements of the Endangered Species Act, the Clean Water Act and the 
Northwest Power Act.
    To assist the local planning effort, we recommend that State 
authorities designate priority watersheds for salmon and steelhead and 
that plans for these watersheds be developed by October 1, 2002. Plans 
for all watersheds in the Columbia River Basin should be developed by 
2005.
    We request that by January 1, 2001, the Council provide a report to 
the States detailing how the Council's amended fish and wildlife 
program has addressed the necessary integration of Federal, State and 
regional planning processes. Bonneville funding must be integrated with 
other funding sources for State and Federal recovery initiatives, and 
the Council should address this issue in its report as well.
            Fish Passage
    In the Columbia River Basin, over one-half of the original habitat 
area for salmon and steelhead has been blocked by mainstem and 
tributary dams. The largest losses occurred from the construction of 
the dams within Hells Canyon and by Chief Joseph and Grand Coulee dams 
on the upper Columbia
    For the mainstem Columbia and Snake rivers, we must focus not only 
on currently accessible habitat, but also look for opportunities to 
increase the current level of habitat access with all dams remaining in 
place. A recent study by the Battelle Pacific Northwest National 
Laboratory and the U.S. Geological Survey (USGS) found a substantial 
percentage of the historic mainstem riverine habitat for Snake River 
fall chinook still remains unimpounded upstream of the Hells Canyon 
complex. Although there is still riverine environment where fall 
chinook historically spawned, it may not be capable of supporting fish 
today because of degraded quality. It must be better understood whether 
the present quality of the historic habitat is capable of supporting a 
self-sustaining population of fall chinook above the Hells Canyon 
complex. The feasibility of reproduction, including an evaluation of 
the existing habitat, is being investigated as part of the Federal 
Energy Regulatory Commission (FERC) relicensing process for the Hells 
Canyon complex. While mindful of the challenges involved, options and 
costs should continue to be assessed as part of the relicensing 
process. A similar challenge confronts reintroduction of migrating 
salmonids above Chief Joseph and Grand Coulee dams, particularly above 
Grand Coulee. Nevertheless, we encourage work currently under way to 
assess the possibility.
    Each State commits, by October 1 this year and annually thereafter, 
to provide list of priority fish passage projects to the Council for 
proposed funding. The list could include such things as screening 
diversions and replacing culverts, as well as removal of, or passage 
at, tributary dams, as is being done at Condit, Wapatox and Marmot 
dams.
            Estuary
    The lower Columbia River estuary has come into focus as a vitally 
important component of salmon recovery. The region is fortunate that a 
water quality and fish and wildlife habitat plan has been developed by 
the Lower Columbia River National Estuary Program (NEP). This plan has 
identified actions to inventory those habitats critical for salmon 
health, as well as measures to protect or acquire such habitats. We 
believe that the Federal Government must immediately engage the States, 
tribes and local governments in implementing the NEP plan for the lower 
Columbia River estuary, including creation of the salmon sanctuaries 
referenced above.
            Predation
    The legitimate, but disparate, focus of varying Federal laws, 
including the Endangered Species Act, the Migratory Bird Treaty Act and 
the Marine Mammal Protection Act present management challenges as we 
seek to protect ESA-listed juvenile and adult salmon and steelhead 
that, in turn, are prey for the birds and mammals also protected by 
these laws. We support actions to improve the coordination among these 
laws so that they are not working at cross purposes.
    We recommend that the U.S. Army Corps of Engineers (Corps), NMFS 
and the Fish and Wildlife Service develop a long-term management plan 
to address predation by fish-eating birds and marine mammals. The 
relocation of Caspian terns within the estuary was a good start but is 
not sufficient by itself. The number of Caspian terns, as well as that 
of double-crested cormorants, should be significantly reduced in the 
Columbia River Estuary. The Caspian tern predation rate on juvenile 
salmon and steelhead remains unacceptable, as is the inability of the 
Federal agencies to agree upon a common approach and a lead agency 
status for this effort. We recommend that such an approach be presented 
to the region by the appropriate Federal agencies by the end of the 
year.
    As part of the long-term management strategy for seals and sea 
lions, we recommend congressional approval of NMFS's proposal to 
acquire additional authority to take seals and sea lions that 
persistently impact listed salmonid species.
            The Ocean
    Recent studies and salmon returns suggest that ocean habitat is a 
significant factor influencing salmon survival NMFS should work with 
the region to conduct an intensive study to address the role of the 
ocean in fish recovery, including the relative impact on fish mortality 
due to ocean predation, lack of food sources, temperature problems and 
harvest regimes. In addition, management of fish in freshwater should 
reflect new information about the ocean as it is developed. For 
example, it may be necessary to adjust hatchery production based on a 
better understanding of changes in ocean carrying capacity.
            Interior Columbia Basin
    Fully 50-60 percent of the land area in the Columbia River Basin is 
owned or managed by the Federal Government, including major headwater 
areas so important for fish. We believe modifications to management 
practices on these lands is essential to salmon recovery.
    To assure these needed modifications occur, the interior Columbia 
River Basin needs a balanced strategy that can provide for stable and 
predictable multiple-use management on Federal lands for fish and 
wildlife and other purposes while permitting needed flexibility, 
particularly on private lands. The existence of such a strategy is long 
overdue, and we urge Congress and the Administration to work with the 
region to have the strategy in place by years end.
                    iv. hydroelectric system reforms
    Dams on the Columbia and Snake Rivers provide energy, flood 
control, transportation, recreation and irrigation benefits to the 
people and economy of the Pacific Northwest. At the same time, 
construction and operation of the dams altered the ecosystem in which 
the once-great fish runs of the Columbia River Basin evolved.
Recommendations
            Capital Improvements at Dams
    We acknowledge that the Columbia and Snake River hydropower system 
has been improved for fish passage. Nonetheless, the dams continue to 
adversely affect fish survival. Therefore, we support further 
modifications to the configuration and operation of the hydrosystem 
where appropriate and necessary to benefit fish and so long as the 
modifications do not jeopardize the region's reliable electricity 
supply.
    To benefit salmon migrants, both upstream and downstream, expedited 
schedules should be established to design and install passage 
improvements.
    Priority capital improvements must also include those necessary to 
address water quality issues relating to both temperature and dissolved 
gas. All capital improvements should benefit the fullest range of 
salmonid species and should offer demonstrated biological gains. 
Uncertainty regarding the long-term status of the four lower Snake 
River dams should not preclude making passage improvements at those 
four facilities.
            Transportation of Juvenile Salmon and Steelhead
    Consistent with our preference to emphasize and build upon natural 
processes, we believe strategies and actions should be implemented that 
provide the best possible survival for fish that migrate in the river 
through the reservoirs and past the dams. We recognize that in the 
short term there are survival benefits from continuing to use fish 
transportation as a transitional strategy. However, we believe that 
when ongoing research affirms that survival of listed salmon 
populations would increase from migration in an improved river 
environment, an increasing number of juvenile fish should then be 
allowed to migrate inriver. An immediate evaluation is also necessary 
of survival rates for fish transported by trucks compared to barges. If 
survival is lower in trucks and barging is an available alternative, 
then trucking should be discontinued.
            Spill
    We recognize the need to improve the riverine character of the 
mainstem Columbia and Snake rivers as a means of further improving 
successful salmon migration, spawning and rearing. Spill is important 
in this regard.
    Spill is recognized as a highly effective means of passing juvenile 
salmon downstream, reducing the mortality associated with passage 
through many turbine sets and in most bypass systems. The use of spill 
should be improved--in duration, timing and quantity--at all the 
Federal hydropower projects. Experiments testing spill benefits at 
different levels and times of year should be expanded, and the impacts 
on juvenile fish survival from these alternative spill operations, 
including summer spill, should be carefully monitored and evaluated.
            Flow
    Flow management in the Columbia and Snake mainstems should continue 
as part of the mainstem strategy. Flow augmentation pursuant to State 
law, a key component of flow management, remains controversial. But 
there are ways to reduce the controversy in the future. First, Federal 
agencies must document the benefits of flow augmentation and the 
precise attributes of flow that may make it beneficial. Second, where 
the benefits of flow augmentation have been documented, migrating fish 
should be left in the river to benefit from it. Third, the region 
should review off-river storage for additional water if flow 
augmentation is going to continue to be a key strategy. Fourth, flow 
management should be designed to integrate all water-related statutory 
mandates, including not only the Endangered Species Act but also the 
Clean Water Act, and should consider impacts to non-anadromous listed 
and unlisted species. Fifth, implementation of flow management should 
fully account for actual water conditions so that, for example, if cool 
water is provided for temperature benefits, the benefits are not 
negated by simultaneous releases of warmer water from other sources. 
Sixth, additional water may be available for flow augmentation if flood 
control operations can be prudently altered. The Corps and NMFS should 
work with the region on a study to determine whether flood control rule 
curves can be reconfigured to allow shaping of flows to improve 
survival of migrating salmon and steelhead. Finally, the region should 
explore whether salmon benefits could be achieved through cooperative 
agreements regarding power peaking operations, such as those currently 
in place for the Hanford Reach stocks and listed chum salmon spawning 
below Bonneville Dam.
                           v. harvest reforms
    Salmon fishing has decreased to a level that represents a mere 
fraction of what once occurred. We commit to support a recovery 
approach designed not only to achieve ESA delisting levels but also to 
rebuild the runs to levels that support treaty and non-treaty harvest. 
But we believe rebuilding requires that all harvest may have to be 
reduced in the short term, together with aggressive actions taken to 
address mortality in the other life stages.
    We respect the legal status and cultural importance of Indian 
treaty fishing rights. Changes in harvest management suggested below 
must be developed in partnership with the treaty tribes so they are 
consistent with the ongoing harvest and production litigation under 
U.S. v. Oregon, and also with Federal and State governments to comply 
with the Pacific Salmon Treaty.
Recommendations
            Ocean Harvest
    The United States and Canada have signed a 10-year Pacific Salmon 
Treaty that, for the first time, implements an abundance-based ocean 
harvest regime for chinook and coho salmon. The agreement places 
special emphasis on further restrictions for fisheries that 
incidentally harvest weak stocks, and on getting the required number of 
fish onto the spawning grounds. We agree that this is a critical first 
step in the overall management of Columbia River stocks, and we 
recognize that the increased complexity of the management regimes to 
carry out the intent of the Treaty will require additional funding.
    Given that long-term, biologically-based management for the ocean 
is now in place, other steps can be explored to reduce ocean impacts on 
listed fish through use of more selective fishing techniques and a 
license buyback program that can reduce the current excess fishing 
capacity. Additional opportunities may exist to align viable fisheries 
with the opportunities available through a license buyback program 
given the excess fishing capacity that currently exists.
    Finally, a random-observer program is needed to ensure the 
collection of information necessary for managers and the industry to 
reduce salmon bycatch mortality.
            Columbia/Snake Mainstem Harvest
    We support continuing current levels of tribal ceremonial and 
subsistence harvest. For commercial and non-treaty sport fisheries, we 
recommend that harvest rates, gear and timing in the mainstem fisheries 
be consistent with ensuring survival of the species and providing for 
their eventual recovery when combined with recovery actions in other 
sectors.
    This means that harvest rates must ensure sufficient escapement to 
rebuild declining stocks. With inriver harvest rates ranging up to 31 
percent for one of the listed stocks, we are not convinced that current 
practices are compatible with rapid recovery.
    To achieve these reductions, we support increasing the selectivity 
of mainstem harvesting by exploring further gear, timing and location 
restrictions. The region must initiate research to better understand 
migration timing and movement of individual stocks to develop better 
selective fishing techniques.
    Financial incentives must be broadened beyond selective fisheries 
to include economic incentives to reduce impacts to listed stocks, 
financial assistance for developing ``value-added'' fishery-related 
industries and mitigation of economic impacts to fishing-dependent 
communities.
    Finally, hatchery operations must be modified so that excess fish 
are not being produced for fisheries where they cannot be harvested 
because of the impacts on weak stocks. Harvest goals must be linked to 
fish production goals. We expect State, Federal and tribal fish 
agencies to produce a long-term production and harvest plan that 
protects ESA-listed fish. To that end, we call for a new Columbia River 
Fish Management Plan to be agreed upon in time for the spring 2001 
salmon fishery.
            Terminal Fisheries
    As another important means of achieving the mainstem reductions 
described above, as well as replacing lost mainstem fishing 
opportunities, fisheries should be established in terminal areas below 
Bonneville Dam and in Zone 6, similar to those currently taking place 
in Oregon's Youngs Bay. Commercial harvest opportunities would target 
the hatchery produced stocks returning to terminal areas. Reformed 
hatchery programs, which we address elsewhere in this document, could 
include establishing these terminal fisheries.
            Law Enforcement
    The region's fisheries law enforcement program should be 
strengthened to ensure accountability and to reduce illegal catch. 
Increased law enforcement should be concentrated and coordinated with 
habitat strategies to aid specific watersheds. We recommend this be 
accomplished through appropriate tribal, State and Federal law 
enforcement programs.
            Control Competitor Species
    We recommend changing existing sport fishing restrictions to 
concentrate on species that prey on, and compete with, salmon for food, 
including northern pike minnow. Sport fishing regulation changes also 
should strive to minimize effects of exotic species on native species. 
The region could experience short-term benefits from increased fishing 
opportunities for these competitor species.
                          vi. hatchery reforms
    Since as long ago as the late 1800's, fish hatcheries have been 
seen as a tool to use in rebuilding fish runs decimated by overfishing 
or, in more recent times, as a means of producing large numbers of fish 
to support commercial harvest to mitigate the impact of dams. Yet our 
region's experience demonstrates that past hatchery practices have 
contributed to the decline of naturally spawning fish populations, as 
hatchery stocks increased while the naturally spawning component of the 
runs continued to decline.
    It is time to recognize that hatcheries are used for multiple 
purposes, primarily producing fish for harvest but also for rebuilding 
naturally spawning populations through the technique of supplementation 
and for captive broodstock experiments. Careful thought must be given 
to how these techniques could maximize the efficiency of fish 
production to provide treaty, sport and commercial harvest 
opportunities while also protecting and rebuilding unique fish 
populations and complying with existing laws and legal processes, such 
as the U.S. v. Oregon litigation.
Recommendations
            Implement the Artificial Production Review
    The outline for redirecting artificial production of fish in the 
Columbia River Basin hatchery program is contained in the Council's 
recommendations in its 1999 Artificial Production Review report to 
Congress. We support these recommendations to significantly modify 
hatchery management practices among all federal and State salmon and 
steelhead hatcheries in the region.
    To begin this process of reform, we recommend all hatcheries in the 
Columbia River Basin be reviewed within 3 years to determine the 
facilities' specific purposes and potential future uses in support of 
fish recovery and harvest. The Council should identify priority 
hatcheries that need expedited renew and complete the reviews within 8 
months so that modification of hatchery operations can commence by 
January 1, 2001. Funding for hatchery reforms must be a joint federal, 
State and Bonneville responsibility. We recommend that, regardless of 
the funding source, future hatchery funding decisions take into account 
consistency with Artificial Production Review reforms.
            Develop a Comprehensive Plan for Artificial Production
    Consistent with the Artificial Production Review, the region's fish 
managers and tribes should jointly develop a comprehensive 
supplementation plan that includes aggressive monitoring and 
evaluation. We commit State agencies to work with tribal fish managers 
to develop such a plan. The plan should specify watersheds that can be 
used for supplementation, and also recommend respective tribal, State 
and Federal roles in implementation of the supplementation plan. We 
support the concept that certain watersheds, with local cooperation, 
should be maintained as wild fish refuges as a hedge against 
uncertainty inherent in artificial propagation, as well as a 
``control'' for evaluating conservation hatchery efforts.
    We anticipate this plan would be part of the renegotiated Columbia 
River Fish Management Plan.
            Fish Marking
    To facilitate a robust harvest program for hatchery fish in a way 
that does not impact wild fish, we endorse a program that results in 
the marking of hatchery fish that pose threats to ESA-listed fish, to 
the fullest extent consistent with the Pacific Salmon Treaty. We also 
urge tribal, State and Federal fish managers to put such a program in 
place promptly, as it will be difficult to implement many improved 
harvest techniques until it is possible to identify hatchery-reared 
fish
                    vii. funding and accountability
    Since 1980, the use of ratepayer money to protect and recover fish 
in the Columbia River Basin has been inconsistent. Sometimes there has 
been strong oversight and scientific guidance, and at other times 
little oversight or scientific guidance. While this situation has 
improved in recent years, too often money has been used to fund 
bureaucracies and process as opposed to on-the-ground projects.
    We anticipate that as the region's State, Federal and tribal 
agencies improve their collaboration and focus on meeting the 
obligations of the Endangered Species Act, Clean Water Act, Northwest 
Power Act and tribal rights under treaties and executive orders, it is 
likely that the cost of the effort will increase. As a result, we 
expect decisionmakers to redouble their efforts to ensure that funding 
decisions are informed by independent scientific review, all funding is 
used in an efficient and accountable manner, and funding is prioritized 
for actions that most directly advance the goal of protecting and 
restoring salmonids and other aquatic species to sustainable and 
harvestable levels.
Recommendations
            Funding
    Fish and wildlife programs should be streamlined, and rules should 
be more flexible and goal-oriented We endorse BPA's stated commitment 
to increase the amount of ratepayer dollars to support salmon recovery. 
Congress should similarly increase the amount of Federal 
appropriations, in recognition of the fact that fish and wildlife of 
the Columbia River Basin are national resources and their protection 
satisfies obligations in Federal law, including treaties with Indian 
tribes and Canada, the Endangered Species Act, the Clean Water Act and 
the Northwest Power Act.
    Federal financial assistance, both from Congress and/or BPA, should 
be provided to help fund existing activities designed to improve 
ecosystem health and fish and wildlife health and protection. These 
include State and tribal on-reservation programs to develop total 
maximum daily loads (TMDLs), enhance water quality monitoring, secure 
water and land rights for fish and wildlife benefits, implement the 
Lower Columbia River Estuary Program, undertake other watershed 
restoration activities and, where necessary, establish instream flows.
            Accountability
    We believe the principles and activities in this document will 
protect the Federal Columbia River Power System and also recover and 
rebuild Columbia River Basin fish and wildlife. There will be a 
significant cost, but we expect the power system to pay only its fair 
share. Having said that, nothing jeopardizes the recovery effort, and 
the benefits we receive from the Federal Columbia River Power System, 
more than the perception and the reality of ratepayer funds being 
misspent. The region needs a strong program to ensure a far better 
accounting of the spending than we have received to date.
    The Council should continue to work to ensure the accountability of 
each project it recommends to Bonneville for funding--accountability in 
terms of-meeting program goals and accountability for the expenditure 
of ratepayer money.
    Accountability for meeting goals.--All projects recommended by the 
Council should have explicit quantitative goals, and the projects 
should be rigorously evaluated for their ability to meet these goals.
    Accountability for expenditures.--Expenditures by Bonneville, the 
Council, the Columbia Basin Fish and Wildlife Authority, State agencies 
and project sponsors may make sense individually, but not when 
considered in total. Planning and overhead expenses must be kept to a 
minimum, and project expenditures should focus on activities that 
benefit fish and wildlife.
    Specifically, we recommend that the Council:
    <bullet> Prepare an Annual Accountability Report.--To better 
understand Bonneville's expenditures in a basinwide context, and to 
improve accountability to the ratepaying public, the Council should 
prepare an annual report to clearly document progress toward meeting 
fish and wildlife mitigation goals, and how ratepayer money is being 
spent. A specific breakout should be provided on funding for ESA-listed 
species.
    The report could provide assurance that Bonneville's expenditures 
are directed toward on-the-ground projects rather than redundant or 
excessive planning processes and that funding for research is dearly 
focused and prioritized. By addressing project failures as well as 
successes, the report could show progress--or lack of it--toward goals 
and demonstrate that projects are being effectively monitored and 
evaluated.
    <bullet> Consider Shifting Contract Management.--The Council and 
Bonneville should study the possibility of transferring project 
contracting responsibility from Bonneville to a neutral entity.
    In its unique regional role, the success of Bonneville depends on 
maintaining good relations among a wide range of parties, including 
many of the parties with which it contracts for fish and wildlife 
project implementation. This need for good relationships creates a 
potential conflict with the regional interest in accountable and 
businesslike implementation of fish and wildlife projects, and the 
enforcement of contractual terms. Simply put, there would be an 
inherent efficiency in having a neutral entity responsible for project 
contracting. Transferring contracting authority to a neutral entity 
also would avoid complicated, time-consuming Federal contracting 
procedures.
    This proposal should not be seen as a criticism of Bonneville's 
fish and wildlife staff but as a shift of responsibility that would 
benefit both Bonneville and the fish and wildlife program by increasing 
the efficiency of program management, reducing the potential for 
conflicts of interest and improving public accountability for the 
expenditure of ratepayer dollars. If the shift occurs, a more 
independent oversight of contract management should be structured in a 
way that allows Bonneville to ensure its contracts are properly and 
efficiently carried out.
    <bullet> Establish a Coordinated Information System.--Also under an 
improved accountability initiative, but singled out for special 
attention, is the need to establish a coordinated information system. 
Although the Pacific Northwest is data rich, it is information poor. 
Data is stored in a random and haphazard fashion in some cases, in 
highly organized and computerized fashions in other places, and in 
combinations of these approaches in still other cases. The region needs 
a standardized information system that is capable of providing answers 
to basic questions regarding the documentation of progress toward 
recovery of salmon and other aquatic species. This information needs to 
be provided in a form accessible to everyone as part of the annual 
accountability report. Creating such a system is a task for the 
Council; we ask that it be done by October 1, 2001.
                       viii. the challenge ahead
    The Columbia River Basin is a great natural resource and a dynamic 
economic engine and, for both these reasons, is critical to the well-
being of the four States in the region. The Columbia River Basin's 
hydropower system is part of our legacy in the Northwest, built through 
the foresight of our leaders and the skill and determination of our 
workers, on our waterways and across our landscapes.
    But we also recognize the impact the hydropower system has had on 
our fish and wildlife populations, particularity anadromous fish. We 
have benefited in an economic sense but we have lost a healthy 
ecosystem. We wish to restore that healthy ecosystem as pan of the 
Northwest legacy we leave to our children and their children
    This is a challenge of course, and one we accept. It is the Federal 
Government's role to administer the Endangered Species Act and to 
uphold tribal trust responsibilities. But the States also have an 
important role and responsibilities, as do other regional entities. 
Agreement on a regional approach, consisting of specific federal, State 
and regional plans that protect both our salmon and our communities, 
should be reached and accepted by Federal and State officials in 
consultation with tribal leaders no later than January 1, 2001. 
Reaching such agreement, as well as implementing the other 
recommendations in this document, will enable all of us, together, to 
begin to fulfill our respective roles and responsibilities and meet the 
challenge that lies ahead.
                               __________
      Statement of Hon. Dirk Kempthorne, Governor, State of Idaho
    Mr. Chairman and distinguished members of the subcommittee, I 
appreciate the opportunity to appear before you today and articulate my 
perspective on one of the most complex issues of the day--salmon 
recovery in the Pacific Northwest.
                              introduction
    One week ago today, I was at Redfish Lake 900 river miles inland 
from the Pacific Ocean near Stanley, ID, just over the summit from Sun 
Valley. The name originated from the color of the beautiful salmon 
returning to spawn in their birthing waters. I was joined by the Idaho 
Department of Fish and Game, legislators, and school children from 
Filer and Stanley to observe and assist the 36 (26 natural 10 hatchery) 
marvelous salmon finish their return from the ocean. These wild and 
hatchery salmon had returned to spawn and start the cycle anew.
    It is Idaho's intent and it is my intent and the intent of those 
school children to perpetuate this stock and all stocks of Idaho's 
fabulous salmon. Our commitment is unquestionable. The questionable 
part is whether the Federal agencies are to help or to hinder our 
efforts. Conflicting Federal laws and past haphazard coordination have 
substantially contributed to the decline of our salmon.
                 i. idaho's perspective on the problem
    Prior to the time I took office in January 1999, my administration 
began preparing for the upcoming decisions that have now been released 
for public review and comment by the Federal agencies. We have been 
preparing for a very compelling reason: we stand to lose nothing short 
of everything in the aftermath of the salmon recovery debate and, 
perhaps, ironically, with no recovery of the salmon.
    Let me give you Idaho's common perspective on this issue as perhaps 
articulated by some of our stakeholders in this process.
    The Federal agencies charged with recovering the anadromous fish 
believe that they need Idaho water to help flush the fish out to the 
ocean. Some groups argue that the four Snake River dams, which support 
important transportation and agriculture components in Idaho, should be 
destroyed.
    Meanwhile, some of the fish that leave Idaho in the spring are 
being eaten alive by birds in the estuary before they even have a 
chance to migrate to sea. Once out in the ocean, they might be 
harvested.
    Several years later, if they are lucky, they will return and could 
be eaten by predators at the mouth of the estuary or, further up the 
river, subject to tribal harvest.
    My point of all this is not to point the finger at any single 
component of this problem, but instead describe how from Idaho's 
perspective, sacrificing our State's water and voluntarily improving 
our native habitat may seem like a futile exercise when it is such a 
Herculean effort to get anadromous fish out and back to our State. Our 
State is ground zero in the recovery of these important species.
                   ii. the four governor's agreement
    I would like to briefly describe what we see as our role in 
recovering the species and how we have contributed to this process.
    I have long believed that only through a regional collaborative 
effort will there ever be a real chance for recovery of anadromous fish 
in the Pacific Northwest. In July of this year, I was pleased to join 
the other Governors in the region in an unprecedented agreement on the 
essential principles for recovery and recommendations to implement 
these recommendations.
    The agreement recognizes that every State in the region and all of 
the stakeholders impacted by this process must step forward and 
contribute. No one State can recover salmon alone, just as no single 
State can afford to shoulder a disproportionate burden of the process. 
Only through regional cooperation--not dictates by the Federal 
Government--is there a chance to achieve real success.
    The Four Governors strategy involves several key elements important 
to Idaho.
    First, the Federal agencies should document the benefits of flow 
augmentation and the precise attributes of flow that may make it 
beneficial.
    Second, harvest impacts must be reduced on listed, wild fish in the 
ocean and Columbia River. Idaho has been blessed with a great return of 
salmon this year, in fact, the most in nearly a quarter century. Most 
were hatchery fish and therefore not counted toward Endangered Species 
Act listed salmon or for salmon recovery. We can get hatchery fish 
through the gauntlet of downstream impacts but we don't get the same 
with wild salmon. Why? Because our brood stock is limited in numbers 
and we are breeding the smallest of the salmon because the fishery nets 
only allow the smaller fish to escape upriver to spawn.
    Third, the region must implement actions now that can and should be 
done without breaching the four lower Snake River dams.
    Finally, predation of all kinds, including terns, and marine 
mammals, must be limited.
    I want to publicly express my appreciation to Governor Kitzhaber, 
Governor Racicot, and Governor Locke for their diligence and 
cooperation in achieving this historical milestone. The gentlemen here 
today to speak on their behalf, Eric Bloch, John Etchart and Larry 
Cassidy, also played key roles along with Dr. Tom Karier and Bob 
Nichols from the State of Washington. I also want to acknowledge the 
work of Jim Yost and Michael Bogert of my staff.
    I have enclosed a copy of the Four Governors Recommendation for the 
subcommittee members.
      iii. idaho's perspective and contribution to salmon recovery
    What can be done now and in the near-term to help the fish?
    I believe that any effective program to recover the species must be 
supported by science, politically palatable, and economically feasible. 
My perspective on this problem is slightly different from the 
traditional ``All-H'' approach-Habitat, Harvest, Hatcheries, and 
Hydropower. I start by adding one more H-Humans.
A. Humans
    From my vantage point, much of Idaho's culture and economy are at 
stake in the Biological Opinion and the All-H documents to be discussed 
before in this subcommittee today.
    No singular component of the salmon recovery burden should be borne 
on the backs of any single stakeholder to the process, including the 
States. Let me give you the most recent example of this problem.
    The United States Army Corps of Engineers recently estimated that 
over 640,000 listed salmon and tens of millions of hatchery stock are 
eaten alive at the mouth of the Columbia River estuary during the 
spring migration season. The culprits: the world's largest colony of 
voracious fish-eating Caspian terns who just happen to be nesting on 
federally-created Rice Island at the time the young salmon and 
steelhead are attempting to make their way to sea.
    Idaho participated in a collaborative process involving the States 
and Federal agencies, including the Corps and the United States Fish 
and Wildlife Service. This process resulted in a plan that involved 
providing alternative nesting habitat for these birds, which happen to 
be protected under the Migratory Bird Treaty Act. The plan that was 
developed included a component that included harassing these birds from 
the most critical of areas where the endangered fish are slaughtered by 
the birds.
    Not surprisingly, a group of environmentalists brought a lawsuit 
and claimed that the Corps had failed to comply with the National 
Environmental Policy Act and asked that the harassment strategy be 
halted immediately.
    Their key piece of evidence? Written comments by the Fish and 
Wildlife Service that science had yet to prove that saving 15-25 
million smolts, of which 640,000 are ESA listed smolts, had any proven 
benefit to salmon recovery. A Federal judge bought the argument and 
endangered fish are now being consumed by non-endangered birds with the 
willing assistance of the Fish and Wildlife Service.
    I submit that as a matter of fundamental science, a protected young 
salmon that is eaten alive by a bird is not going to come back to Idaho 
to spawn.
    However, my prospective is a bit more focused. At the same time 
that Fish and Wildlife is telling us that saving 640,000 listed fish 
will do nothing to recover these endangered species, the Federal 
Government is assessing how much Idaho water is needed to seemingly 
make fish migration easier. The answer to this question goes to the 
very life blood of Idaho's agricultural economy in the Upper Snake 
River Basin.
    How can the Federal Government tell Idaho and the world that 
preventing the slaughter of hundreds of thousands of endangered young 
salmon in the Columbia River estuary will have no impact on the 
problem, and then tell us that more water from our State is needed to 
get the fish out to sea? Several weeks ago, I received a report that 
during the height of both the summer migration and irrigation seasons 
in the Lemhi Basin, there didn't seem to be enough water to go around. 
I sent my staff over to talk to the irrigators and see what could be 
done to accommodate both their rights to irrigation water and the needs 
of the fish.
    Their message? Governor, you tell us when the fish need the water 
and we will make it available. They also told us that no one knows or 
cares about these salmon more than those who have been living in that 
basin all of their lives.
    The aftermath of this has been a renewed spirit of cooperation 
between the locals, the State, and the Federal Government. Our 
discussions to resolve this problem represent a model of inter-
governmental relationships, and I am optimistic that we will achieve 
success.
    But I remain firm that the only way we will see results in the 
region is if State law is respected and the locals are brought into the 
process from the beginning.
    I use this example to highlight the contributions from all of the 
stakeholders that must occur in order for there to be any chance of 
progress in salmon recovery. With this, I will quickly move on to our 
perspective on the other H's.
B. Habitat
    My perspective on habitat improvement is that the Endangered 
Species Act, as currently implemented, provides no safe harbors if 
private landowners voluntarily improve conditions for salmon. Through 
Idaho's own initiative, Idaho stakeholders have joined together to 
conserve important habitat. One example is Burgdorf Meadows, where over 
51 percent of critical spawning for summer chinook has been preserved. 
Burgdorf Meadows is a classic example of Idaho stakeholders working 
together to achieve a common goal.
    Stakeholders would voluntarily undertake habitat improvements if 
there were some safeguards in place so that after those improvements 
were implemented, the Federal agencies or private lawsuits would not 
try to take a second bite of the apple or demand that they make 
additional improvements. After assuming a voluntary load, this final 
straw may break the back of even an economically viable camel.
    But I also understand that we can make important additional habitat 
improvement in Idaho. I am committed to identifying things we can do 
immediately, such as diversion screening and water quality improvement, 
in order to make things better for fish in Idaho.
    On the other hand, as we move forward on these things, we expect 
that the region will look seriously at predator control and improvement 
in the estuary conditions.
    Recent studies and salmon returns suggest that ocean habitat is a 
significant factor influencing salmon survival. NMFS should work with 
the region to conduct an intensive study to address the role of the 
ocean in fish recovery, including the relative impact fish of mortality 
due to ocean predation, lack of food sources, temperature problems and 
harvest regimes.
C. Harvest
    Idaho continues to be perplexed that wild fish, listed under the 
Endangered Species Act, can be subjected to a regulated harvest at all. 
Can you imagine the hue and cry if the government suddenly declared a 
``harvest'' season on the grizzly bear?
    I am sensitive to the industries in the Pacific Northwest that 
depend on a yearly salmon harvest, and I am similarly mindful of the 
harvest rights possessed by Native American tribes through treaties 
with our Federal Government.
    Idaho, as with other States in the region, is committed to the 
process of discussing harvest allotment through the United States v. 
Oregon litigation. This is one area where collaboration by all of the 
region is ongoing and should continue.
D. Hatcheries
    The hatchery arena has a symbiotic relationship with harvest 
allocation, and Idaho generally supports scientifically-based hatchery 
programs.
    In the case of captive brood stock hatcheries, this remains a 
program of vital importance to Idaho. This is the program at Redfish 
Lake I referred to earlier.
    As a means of supplementation, the hatcheries in Idaho provide our 
sportsmen an opportunity for a fishing season, and are an excellent 
management tool while we rebuild our wild stocks.
    Hatchery operations must be improved to provide salmon for harvest 
``conservation (mitigation) hatcheries'' as required in the Lower Snake 
River Fish and Wildlife Compensation Plan established when the four 
dams were constructed to mitigate for the losses caused by the dams. 
This was done when the estimated mortality at the dams was about 47 
percent. We have now reduced that mortality to about 25 percent, yet we 
continue to maintain or increase the number of smolts for mitigation.
    We also have supplementation hatcheries that provide additional 
salmon stocks to those streams with wild or natural stocks so that the 
numbers can be increased. The question is which of those wild stock 
areas should be maintained as wild, native, or natural salmon refuges 
without the interference of the supplementation stocks.
    The mitigation stocks are of a high enough number that their 
harvest is causing an impact on wild natural stocks (the listed 
species). All these fish may return from the ocean to the Columbia 
River at about the same time, and it is difficult to only harvest the 
mitigation hatchery stocks and not harvest some of the wild stocks. 
This incidental take of wild stock when we try to harvest mitigation 
stocks is currently excessive.
    Some ways it can be reduced is by using a different method of 
harvest (from nets to lines or fish wheels) or selective fisheries, 
which is fishing only when the mitigation hatchery fish are present or 
to use terminal fisheries (fishing for the mitigation stocks after the 
wild stocks have gone up a tributary to their spawning area). We have 
successfully used larger scale nets that have allowed the smaller 
stocks to continue to migrate while the larger fish are caught. The 
impact to Idaho is that for years our brood stocks were the smaller 
fish and not the biggest healthiest brood stocks.
E. Hydropower
    From my perspective, the debate over dam breaching will continue as 
long as reasonable scientists differ over the data. One fact that is 
not disputed is that breaching the four lower Snake River dams would 
have no benefit to the vast majority of our endangered salmon. Eight to 
twelve listed species would not be affected by breaching, as they 
reside downstream of these dams. Even if the science was clear today--
and it is not--it would take at least a decade of political debate 
right here in Washington before they are removed.
    The costs of dam removal could be as high as $1 billion, and, by 
the Corps' own calculation, it could be several years before the silt 
and debris left behind the dams becomes manageable enough to provide 
any benefit to the fish. I am left with the unsettling impression that 
with such political and scientific controversy ahead in the next 20-25 
years, the game could be lost before it has even started.
    Accordingly, until I have clear evidence that the salmon can expect 
immediate improvement if the dams are removed, Idaho is opposed to 
taking on the risks to our Port of Lewiston and Idaho agricultural 
economy.
    But this perspective does not end the ``to do'' list for the dams. 
During my tenure as your colleague in the U.S. Senate, I was committed 
to investing in dam improvements while the science continues to be 
debated.
    The best and brightest minds in the Federal Government and the 
States should be dedicated to making fish passage at the dams better so 
that the fish receive the benefits of the finest technology our nation 
has to offer.
    I support minimum gap runner turbine technology in order to improve 
the reasonable accommodation that must be made for the regions' 
hydropower needs and the salmon migration. This technology is being 
installed at Bonneville Dam and the preliminary results have indicated 
increased fish survivability.
    Likewise, fish guidance curtain (screen), turbine intake screens, 
fish collectors, adult fish ladders, juvenile fish bypass systems, and 
spillway defectors have suffered from technological neglect and 
installation while the controversy over the existence of the dams has 
raged onward. This must end immediately, because the losers in the 
failure to make capital improvements in these structures are the 
salmon.
    Finally, at the risk of sounding repetitive, I must put on the 
record my position about augmented Snake River flows as a benefit to 
out-migrating juvenile salmon. At my direction, the Idaho Department of 
Water Resources has studied the issue extensively in cooperation with 
the Idaho Department of Fish and Game. They have determined that based 
on the current flow-survival data developed by NMFS, there is no basis 
for NMFS concluding that early or late summer flows from the Upper 
Snake provide significant biological benefits for out-migrating 
juvenile salmon.
    There is not enough water in the Snake River Basin to meet the 
Biological Opinion flow objectives. These flow objectives are 
essentially arbitrary thresholds. The NMFS has for too long been 
absorbed with securing a few extra acre feet from this or that 
reservoir without apparently ever stopping to question whether the 
unending struggle over flow augmentation is really delivering salmon 
recovery.
    For instance, when NMFS briefed the States last spring regarding 
the ``Herculean'' measures contained in the new Biological Opinion, the 
very first measure mentioned was additional flow from the Snake River 
Basin. While the effort to secure this additional water may indeed be 
Herculean, the resulting benefit to the fish is microscopic even under 
the most optimistic assessment of the flow/survival relationship.
    There is an understanding--often acknowledged in private but seldom 
spoken in public--that the upper Snake River Flow augmentation measures 
are really an effort to secure political balance rather than meaningful 
benefits to the fish. The notion is that ``everyone must hurt'' in 
order for a regional plan to be politically viable. Some of the more 
aggressive, or perhaps cynical, participants in the salmon recovery 
debate go further to suggest that draconian levels of flow augmentation 
should be extracted as a kind of punishment for failure to adopt dam 
breaching. Their thinking is that if the pain associated with 
``aggressive'' non-breach measures can be ratcheted up high enough, 
then perhaps the region will opt to take out the four dams on the lower 
Snake River.
    Regardless of whether NMFS subscribes to either of these views, we 
have the distressing sense that NMFS' campaign for more upper Snake 
River flow augmentation represents a grand political gesture rather 
than a clear-eyed examination of the biological benefits, the economic 
costs, and environmental impacts of what is being proposed.
    Idaho's complaints about the lack of disciplined analysis of flow 
augmentation have sometimes been met with the response that ``every 
little bit helps.'' This aphorism is no substitute for the critical 
thinking required for a true salmon recovery plan. The fact is that the 
Federal Caucus is not doing ``every little bit'' it can--nor should it 
if the resulting gains for the fish are meager and the impacts are 
massive. The record is replete with instances in which the Federal 
Government has chosen not to do more for the listed species based on 
non-biological factors.
    For instance, NMFS actually permitted the harvest rate on Snake 
River spring chinook to increase this year relative to recent years 
because of the large number of hatchery fish returning to the river. 
This increase was justified on the basis that additional harvest 
amounted only to a few percent of the overall run. But, this does not 
square with the ``every little bit helps'' principle that underlies 
upper Snake River flow augmentation efforts, which deliver even smaller 
increments of survival. Moreover, NMFS' biological opinions allow 
cumulative harvest rates on Snake River fall chinook in ocean and in-
river fisheries to remain at close to 50 percent. Tern population 
numbers in the Columbia River estuary continue to climb--with 
significant impact to the entire Columbia salmon and steelhead run. 
Yet, NMFS still has not taken decisive action to move these predators 
from the estuary.
    Nonetheless, our State Legislature enacted and I signed a 1-year 
authorization for the Bureau of Reclamation to access 427,000 acre-feet 
of Idaho water for flow augmentation purposes. This good-faith gesture 
should be recognized as my willingness to continue to participate in a 
regional solution.
                             iv. conclusion
    I appreciate the opportunity to present my perspective on these 
important issues today, and I look forward to the challenging work 
ahead for all of us in the region.
    Idaho is optimistic that the State and regional stakeholders will 
join together and empower themselves throughout this process. However, 
Idaho remains concerned that the All-H Paper has failed to give 
deference to the objectives outlined in the Four Governor's 
Recommendations. At the end of the day, the best solutions are those 
that are owned by the participants rather than those that are imposed 
by Federal edict.
    Thank you.
                               __________
Statement of Sam Penney, Chairman, Nez Perce Tribal Executive Committee
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify. I am pleased to be here today to speak on 
behalf of the Nez Perce Tribe and the Columbia River Inter-Tribal Fish 
Commission. As you know, we received voluminous draft documents from 
the Federal Government on July 27. We are still in the process of 
reviewing these documents, particularly their technical aspects. 
However, I would like to say at the outset, that the tribes' position 
supporting breaching the Snake River dams and our position supporting 
an economic investment package to local communities affected by 
breaching these dams remain unchanged. We see no new science or 
information that would indicate other actions will be sufficient to 
recover Snake River chinook throughout the range of their current 
habitat.
    I would like to offer the following observations.
    <bullet> The Federal proposal fails to comply with the Clean Water 
Act. The United States District Court recently reaffirmed that the 
Corps of Engineers must comply with federally-approved water quality 
standards for temperature and dissolved gas in the National Wildlife 
Federation v. Corps of Engineers litigation, yet the Federal proposal 
does not contain actions that will be implemented to achieve these 
standards.
    <bullet> The Federal proposal is a plan for extinction of Snake 
River salmon stocks. The Federal proposal sanctions the extinction of 
spring chinook ``index stocks'' in tributaries of the Salmon River 
where salmon habitat is pristine.
    <bullet> The Federal proposal fails to recognize that if the dams 
are not breached, large amounts of additional water from the Upper 
Snake River will be required for flow augmentation to provide the 
survival benefits that juvenile salmon need.
    <bullet> The Federal proposal's reliance on yet-to-be-developed 
``performance standards'' to delay breaching the four Lower Snake River 
dams and to get the hydrosystem out of jeopardy ignores the most 
significant performance standard--the status of the fish. The risk of 
extinction for Snake River salmon has not been significantly reduced 
since they were listed under the Endangered Species Act over 8 years 
ago and the Federal proposal does not ensure any improvement for Snake 
River salmon. Scientists predict Snake River spring chinook will be 
extinct by 2017.
    <bullet> The Federal proposal's reliance on ``offsite mitigation 
measures'' to delay breaching the four lower Snake River dams and to 
get the hydrosystem out of jeopardy does not preserve and rebuild 
salmon runs. Based on the Federal proposal, we expect to see continuing 
losses of local salmon populations particularly in basins above four or 
more hydro projects, even in areas of pristine habitat that is located 
in Idaho wilderness areas. Even if offsite mitigation measures were 
appropriate for certain stocks, there is no budget or implementation 
plan for such measures in the Federal proposal.
    <bullet> Other than seeking to have tribal governments further 
restrict our already voluntarily restricted tribal fisheries, the All-H 
Paper describes no role for tribal governments as co-managers. By its 
silence, the Federal documents would appear to deny the successes of 
the tribes in their salmon recovery efforts in basins like the 
Clearwater, Umatilla, Hood, and Yakima. This is especially frustrating 
since we held numerous meetings with the Federal Government, and our 
detailed tribal proposals seem to have made no impact at all.
    We oppose the new concept of ``full mitigation'' as described in 
the Hydro BiOp. This is a concept based upon the desires of Bonneville 
and not on either the ESA, the biological needs of salmon, or treaty 
case law. Under this concept, Bonneville's mitigation responsibilities 
are ``capped'' by estimating the number of fish that would survive if 
they migrated through a mythical Columbia River that is dam free. Among 
other things, the proposal ignores the decades of dam impacts that have 
eroded the salmon populations.
    In conclusion, I would like to say that the alarm on the extinction 
clock has gone off long ago. Neither the salmon, nor the Tribes, nor 
the people of the Northwest have the time to delay breaching the four 
lower Snake River dams and implementing the ``major overhaul'' the 
United States' operation of the hydrosystem needs. I am deeply 
disappointed the United States has chosen to ignore its treaty and 
trust obligations. We will not be deterred from our solemn duties to 
act on behalf of the salmon and our people.
                               __________
    Statement of Lionel Q. Boyer, Chairman, Shoshone-Bannock Tribes
    My name is Lionel Q. Boyer, Chairman of the Fort Hall Business 
Council, the governing body of the Shoshone-Bannock Tribes. In 1868 the 
Shoshone and Bannock Tribes agreed to a treaty to have peace with the 
United States under Article Six of the U.S. Constitution (Fort Bridger 
Treaty of 1868, 15 Stat. 673). Our various bands and families were 
relocated to the Fort Hall Indian Reservation in Eastern Idaho during 
the European settlement of the western United States.
    The Fort Hall Indian Reservation is a place where people and 
animals migrated to spend winters. The annual migration of my people to 
secure our subsistence was preserved in the Treaty because we reserved 
the right to hunt, fish and gather on unoccupied lands of the United 
States. Hunting the salmon is a significant part of our way of life. 
The name for the salmon, Agai, has been used to define our people as 
the Agaidika. No one can understate the importance of this resource to 
the Shoshone and Bannock peoples. We have continued to exercise our 
right to hunt salmon in the Columbia River Basin since the Treaty was 
signed. The Shoshone-Bannock Tribes are today co-managers of the 
anadromous fish resource in the Columbia River Basin and have continued 
to work toward improving the habitat and supplementation efforts.
    Salmon need four habitats in which to survive and prosper. (1) They 
need a place to spawn (clean gravel and cold clear, running water), (2) 
a place for their young to rear (woody debris and other nooks and 
crannies, undercut banks, and shade from overhanging vegetation), (3) a 
place rich in food for them to grow into large mature adults (the 
ocean), and (4) a corridor in which they can travel to and from their 
place of origin. The National Marine Fisheries Service has failed to 
honor this simple science of the salmon.
    Man has changed all of these habitats--but each to a different 
degree. The Salmon River, where about half of the entire Columbia Basin 
spring and summer chinook salmon historically came from, is largely in 
good shape. Most of the Salmon River is protected by its rugged 
inaccessibility and its wilderness area status. The National Marine 
Fisheries Service is wrong to conclude that the greatest opportunities 
for survival improvements of listed Snake River salmon may hinge on 
efforts to restore health to the tributaries. Although some tributaries 
in the Salmon River drainage are not as healthy as they should be for 
salmon (for example, the de-waterings and excessive irrigation 
diversions in the Lemhi River), the vast majority of the habitat is 
very healthy for salmon spawning and rearing.
    The Shoshone-Bannock Tribes look forward to working as resource co-
mangers with the Federal and State agencies to correct problems in the 
Salmon River--primarily in tributaries to the Salmon River from the 
Lemhi River upstream to the headwaters of the Salmon River. However, no 
evidence exists that indicates these problems are the major cause of 
the declines in wild fish. The wild fish populations in the Middle Fork 
Salmon River--which is a Wild and Scenic River almost completely within 
the Frank Church Wilderness Area and in almost pristine condition--
continue to decline at least at the same rate as the populations in the 
upper Salmon River. This evidence suggests that the major problems--and 
thus the major areas to concentrate recovery efforts--are outside of 
the Salmon River system.
    The conditions in the Pacific Ocean are a concern to all of us. 
However, very little can be done by humans to protect the salmon during 
their time in the ocean, other than reducing or eliminating harvest. 
The Shoshone-Bannock Tribes applaud the efforts of the National Marine 
Fisheries Service to reduce harvest impacts over the past 8 years. 
However, the position of the Shoshone-Bannock Tribes is that there 
should be no interception fisheries in the ocean and mainstem Columbia 
River while the weak stocks of wild fish are mixed in with more 
numerous runs. Fisheries should instead be conducted in the tributaries 
that have runs which can support harvest.
    The National Marine Fisheries Service is particularly unjust in its 
allocation of the conservation burden when ocean and mainstem Columbia 
River fisheries can harvest listed Snake River salmon and steelhead 
while the Shoshone-Bannock Tribes cannot harvest those very same fish 
once they return to the Salmon River.
    The National Marine Fisheries Service is wrong to conclude that 
there are only two roles for hatcheries. The two roles they state are: 
(1) reform existing hatcheries to prevent negative effects from 
hatchery-origin fish on wild fish; and (2) use hatcheries to conserve 
wild fish. These are good roles for hatcheries. However, the most 
important role for hatcheries is to use them to rebuild wild fish 
populations. The Shoshone-Bannock Tribes call this concrete-to-gravel-
to-gravel management. Scientists call it supplementation. There are 
appropriate ways to use hatchery-origin fish and release them into wild 
areas for those fish to return to rebuild the listed wild populations. 
The NMFS is wrong to use genetics as the overriding factor in impeding 
the Shoshone-Bannock Tribes from pursuing the production actions that 
the Tribes have successfully initiated. Many of the wild areas no 
longer contain any fish, so even if the NMFS is correct with their 
genetics theories, it would be a moot point. We can no longer manage 
for genes, and need instead to manage for fish. The Recovery Strategy 
needs to aggressively pursue supplementation of listed fish with 
available hatchery-origin stocks.
    The wealth of scientific evidence concludes that the migration 
corridor is the primary problem facing the Snake River stocks of listed 
salmon. The Shoshone-Bannock Tribes are very concerned that the 
National Marine Fisheries Service concludes that there have been 
significant improvements to the migration conditions through the 
hydrosystem. The evidence does not support this conclusion. The runs of 
listed salmon and steelhead to the Snake River continue to decline as 
my technical staff will provide testimony on tomorrow. The changes to 
the hydrosystem have failed to reverse the declines in listed salmon 
and steelhead runs in the Snake River. The National Marine Fisheries 
Service greatly underestimates the necessary survival improvements that 
are needed to stop the declines and move toward recovery.
    The Shoshone-Bannock Tribes believe that the listed Snake River 
salmon and steelhead cannot wait another 8 to 10 years before the 
necessary major improvements and actions are taken to recover these 
fish. We are now at a very critical stage of crossing the line to 
extinction. We are extremely disappointed that the 1995 Biological 
Opinion has not been adhered to. That Opinion was a product of the 
National Marine Fisheries Service losing the Idaho v. NMFS lawsuit. 
That Opinion allowed a decision to be made in 1999 to either breach the 
lower Snake River dams or else continue with vain attempts to fix the 
dams with screens, curtains, bypasses and barges. The evidence is very 
clear that the technological attempts have not worked.
    The Shoshone-Bannock Tribes believe that technological fixes to the 
lower Snake River dams will not allow the listed Snake River salmon to 
survive. The 1999 decision should have been to pursue congressional 
authorization to breach those dams. The Recovery Strategy and the new 
Biological Opinion should call for the breaching of the four lower 
Snake River dams now. The Shoshone-Bannock Tribes have been saying this 
longer than any other entity. Thus our warning, once again, is that we 
have waited too long to fix the river rather than trying in vain to fix 
the dams, and we will continue to have to tell you that ``we told you 
so.'' However, these words will still not bring back the salmon.
    Breaching the four Lower Snake River dams eliminates the need to 
use middle and upper Snake River water for salmon flow augmentation. It 
eliminates the need to draw down Dworshak and Brownlee reservoirs, 
which greatly benefits those aquatic resources and the economies that 
depend upon them. The four lower Snake River dams only produce 4.6 
percent of the Pacific Northwest's electrical energy, which can be 
replaced through alternative sources and conservation. The economies 
created by recovered salmon and steelhead runs and alternative 
commodities transportation will greatly exceed the costs to the region 
and the Nation of keeping the dams in place. What was once the world's 
largest run of salmon is now the world's largest environmental recovery 
effort. This effort does not have to fail, nor does it have to result 
in economic catastrophe.
    Of great concern to the Shoshone-Bannock Tribes is the failure of 
the Federal caucus to consult with the Shoshone-Bannock Tribes. The 
resources on the Fort Hall Indian Reservation are compromised by the 
actions of the Federal agencies, yet the Federal agencies have failed 
to address these impacts with the Shoshone-Bannock Tribes. Likewise, 
the Federal agencies have not consulted with the Shoshone-
Bannock Tribes regarding the impacts to the fish resources that the 
Tribes rely upon off reservation. We remain hopeful that they will 
incorporate our comments when we submit them for their final documents. 
However, we are doubtful that they will because we have had many 
discussions with them and yet their conclusions and the words they have 
written in the drafts once again prove that they do not hear us.
    Thank you subcommittee, and Chairman Crapo for hosting this hearing 
and providing us an opportunity to express ourselves. The Shoshone-
Bannock Tribes technical staff, represented by Keith Kutchins, will 
provide testimony tomorrow.
                               __________
 Statement of John Etchart, Representing Hon. Marc Racicot, Governor, 
                            State of Montana
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today. My name is John Etchart, and I am here 
today on behalf of the Governor of Montana, Marc Racicot. For the past 
7 years I have been one of Governor Racicot's appointees to the 
Northwest Power Planning Council.
    As one of the four Pacific Northwest States, Montana has 
participated in the Federal Government's and the region's efforts to 
recover endangered salmon and resident fish in the Columbia River 
Basin. Montana is unique among the four States, however, because it 
does not now, and never did have, anadromous fish within its borders.
    What Montana does have, Mr. Chairman, is water. Our two large 
storage reservoirs, Hungry Horse and Libby, have provided large blocks 
of water during critical times of the year to assist migrating salmon 
and steelhead in the lower portions of the Columbia River. Over 40 
percent of the domestic storage utilized by the Federal Columbia River 
Power System is in Montana. So while we don't enjoy any of the 
economic, cultural and aesthetic benefits attributable to the salmon, 
we contribute in a very substantial way toward their recovery. I'll 
also add that this beneficence has not had the uniform support of the 
citizens of Montana.
    Governor Racicot strongly believes that efforts to recover salmon 
and steelhead are a priority for the Pacific Northwest, including 
Montana, but also believes that the Governors of the four States, in 
conjunction with the Northwest Power Planning Council, should have more 
legal responsibility to develop and implement recovery plans for the 
listed species.
    The capability and the commitment of the Governors was most 
recently illustrated by their recommendations for the protection and 
restoration of fish in the Columbia River Basin released in July. That 
document, which I would like to submit for the hearing record, is a 
comprehensive, no-nonsense package of recommendations that covers all 
the major areas of emphasis, including habitat reform, hatcheries, 
harvest, the hydroelectric system and the recognition that the impact 
on the region's people and our economic way of life comprises an 
important fifth ``H.''
    Mr. Chairman, if you haven't done so already, I urge you to look at 
the Governors' recommendations when you have the opportunity. I think 
you will agree that the Governors were not afraid to take some bold 
stands on some of the thorniest issues we face. The National Marine 
Fisheries Service's draft biological opinion and ``All-H'' paper were 
not prepared with the benefit of the Governors' recommendations. This 
is a serious limitation because the Federal agencies have not included 
the region's input from our policy and political leaders. The 
Governors' input needs to be factored into the Federal agency documents 
before they are finalized. To that end, the Governors recently 
forwarded their work directly to Secretary Mineta.
    Among the many recommendations included in the Governors' package, 
the following 10 common sense proposals are representative of the 
entire document.
    1. The President should designate one official in the region to 
oversee the Federal recovery efforts, and who could serve as a single 
point of contact. There has been a clear lack of effort on the Federal 
agencies' part to collaborate with the States, tribes, local 
governments and landowners in recovery activities. This could be 
substantially corrected if the President were to do this.
    2. The Federal agencies should develop a long-term management plan 
to address predation by fish-eating birds and marine mammals. So far, 
the Federal agencies have been unable to agree upon an approach to this 
problem.
    3. The National Marine Fisheries Service should work with the 
region to conduct an intensive study on the impact of the ocean on fish 
recovery, including the impact of predation, lack of food sources, 
temperature problems and harvest regimes.
    4. The use of spill should be improved--in duration, timing and 
quantity--at all Federal hydroelectric projects. This does not, in my 
view, call for more spill but rather that we gather the scientific 
information needed to better determine how best to balance the 
biological benefits of spilling water with the economic and system 
reliability impacts to the region's electric power system.
    5. Flow augmentation should continue as a key mainstem strategy. 
However, the Federal agencies should document the benefits of flow 
augmentation and the precise attributes of flow that make it 
beneficial.
    6. To reduce harvest impacts on listed fish, more selective fishing 
techniques and a license buyback program that can reduce the current 
excess fishing capacity should be instituted.
    7. Harvest rates must ensure sufficient escapement to rebuild 
declining stocks. With inriver rates ranging up to 31 percent for one 
of the listed stocks, the Governors are not convinced that current 
practices are compatible with rapid recovery. Terminal fisheries should 
be established in appropriate areas.
    8. Harvest goals must be linked to fish production goals. Hatchery 
operations must be modified so that fish are not being produced for 
fisheries where they cannot be harvested because of impacts on weak 
stocks.
    9. Consistent with the Council's Artificial Production Review, the 
region's fish managers and tribes should jointly develop a 
comprehensive supplementation plan that includes aggressive monitoring 
and evaluation.
    10. To facilitate a robust harvest program from hatchery fish in a 
way that does not impact wild fish, the Governors endorse a program 
that results in the marking of hatchery fish that pose threats to ESA-
listed fish, to the fullest extent consistent with the Pacific Salmon 
Treaty.
    Mr. Chairman, this is not to say that these recommendations are 
inconsistent with the draft biological opinion. The more important 
question is whether these recommendations will be pursued by the 
Federal agencies that wield authority under the Endangered Species Act. 
To my knowledge, the Governors' recommendations have not been 
acknowledged, let alone adopted, by the White House or the Federal 
agencies. This is unfortunate, especially when you consider that the 
electricity ratepayers of the Bonneville Power Administration finance 
the majority of salmon recovery measures instituted by the National 
Marine Fisheries Service. So while the region is required to pay for 
the implementation of the recovery measures, the region, historically, 
has had limited influence in determining the nature of those measures.
    This leads me into one of Governor Racicot's primary concerns about 
the draft biological opinion. While the draft does appear to make a 
stronger effort to encourage collaboration with the Power Planning 
Council, the States, tribes, and others in the development of annual 
implementation plans, there is a lack of detail regarding the cost of 
the measures and whose responsibility it is to pay for them. 
Considering that a significant portion of the draft's ``reasonable and 
prudent alternatives'' deals with offsite mitigation measures, Governor 
Racicot presumes that the ratepayers once again will be asked to pay 
the freight.
    What makes this even more troubling is the draft biological 
opinion's designation of ``priority subbasins.'' Several of these high 
priority subbasins never have been emphasized by the Power Planning 
Council. For example, the Methow, Entiat, Cowlitz and Lewis subbasins 
in Washington State would evidently take priority for funding over 
other areas where the Council has historically concentrated significant 
resources and effort over the years.
    When Congress passed the Northwest Power Act in 1980 and created 
the Northwest Power Planning Council, one of the primary 
responsibilities given the Council was to develop a fish and wildlife 
program to protect, mitigate and enhance all fish and wildlife in the 
Columbia River Basin affected by the hydroelectric system. As Montana 
understands the draft biological opinion, Congress' broad direction to 
protect all fish and wildlife in the Basin may take a back seat to 
focusing on ESA-listed stocks only. Such a development could have 
tragic consequences for many other at-risk species in the Basin.
    Unfortunately, Congress does not oversee the implementation of 
Federal policy in the Columbia River Basin through its constitutionally 
derived ``power of the purse.'' As a consequence, the funding of 
endangered species activities in the Columbia is a prime example of 
``backdoor'' spending by a Federal agency, the National Marine 
Fisheries Service. Because Bonneville is a self-financing agency that 
doesn't require annual appropriations for its operations, the National 
Marine Fisheries Service, through its ESA authority, is able to require 
Bonneville to pay for any number of measures in its biological 
opinions, regardless of whether they represent sound science and good 
public policy. Unfortunately, there is currently little opportunity for 
Congress to either approve or disapprove Bonneville's expenditures for 
ESA measures prior to their being made. Governor Racicot believes such 
a procedure on the part of the National Marine Fisheries Service 
circumvents the prerogative of Congress to approve agency budgets, as 
well as the public's right to accountability in the expenditure of 
public resources.
    It is Governor Racicot's recommendation that the Fisheries Service 
be required to submit a specific, annual ESA budget for the Columbia 
River Basin, including activities proposed to be funded by the 
Bonneville ratepayers, to Congress for approval, just like other 
Federal agency activities. Ideally, ESA-specific measures, such as 
``reasonable and prudent alternatives'' identified in the biological 
opinion, because of their national significance, should be financed 
through appropriations, not Bonneville ratepayer funds. This would 
ensure that Bonneville's funds would continue to be directed at the 
historic mission of protecting, mitigating and enhancing all fish and 
wildlife in the Basin affected by the hydrosystem. To the extent 
Bonneville funds are required to pay for measures in the biological 
opinions, Congress should demand the opportunity to review and approve 
them prior to the start of the fiscal year.
    Montana is also concerned that the National Marine Fisheries 
Service's draft 
biological opinion does not include cost estimates for its proposed 
river and flow operations, and we are concerned about the potential 
impacts of these operations on reservoirs and resident fish and 
wildlife in our State. While water released in November primarily for 
the benefit of chum salmon in the lower Columbia River Basin would 
boost hydropower generation in that month, the region would lose 1,000 
megawatts of generation in December and 1,500 megawatts in January as a 
result. This is precisely the time of year when the region faces the 
greatest risk of being unable to generate enough electricity to meet 
demand, according to an analysis done by our staff at the Power 
Planning Council. The cost of buying replacement power, if it is 
available, could be astronomical--as we learned from California's 
experience this past summer.
    The reliability of the region's power system has clearly been 
degraded and for the first time since the 1970's there are increasingly 
frequent energy emergencies. These emergencies are of two types. First, 
as electric loads approach the limit of the region's generation 
capability, wholesale electricity prices become increasingly volatile. 
This summer's market volatility took wholesale electricity prices in 
the region to unprecedented levels of more than $1,000 per megawatt-
hour. This compares with the price of Bonneville's power for public 
agencies in the region of approximately $23 per megawatt-hour. The 
second stage of a power emergency that could result from the current 
situation is curtailment of some loads followed by brownouts or 
blackouts! It is my view that the combination of events that define the 
region's power system reliability has reached a critical state where 
total system collapse could happen if we get an unusually cold and dry 
winter.
    The impending regional power crisis is further exacerbated by the 
conflicting and overlapping authorities of the many Federal, State and 
tribal entities that make decisions concerning fish and wildlife 
requirements, power and flood control operations and marketing. The 
regional power reliability problems have at their root a public policy 
failure that fails to balance the biological and economic effects of 
proposed actions. An example of this occurred recently when Bonneville 
declared an energy emergency at the end of last month. Bonneville 
proposed to increase Federal generation and reduce fish requirements to 
avoid purchasing power from the competitive market at very high prices. 
The Federal agencies would not agree with Bonneville's proposal because 
it caused impacts on fish and recreation. So Bonneville was then forced 
to purchase power at prices in excess of $200 per megawatt-hour.
    Bonneville recently reported to the Council that it spent 
approximately $45 million for purchased power in 1 week! This during a 
week when relatively few fish were in the river. This is an extremely 
large sum, and my point is that there is no Federal, regional or State 
decisionmaking mechanism to insure that an appropriate balance is 
struck between the various interests that have competing demands for 
the water stored in the region's reservoirs. The experience at the end 
of last month highlights the region's inability to decide on the best 
use of ratepayer funds and to establish a reasonable balance between 
the various interests that are all struggling to control the system to 
produce more of what they value most.
    One last and specific example of the difficulty the region has 
finding balance is the impact that Montana must absorb as water is 
drafted in an attempt to improve the survival of juvenile salmon in the 
Lower Columbia River. The Federal storage reservoirs in Montana house a 
productive ecosystem and critical habitat that supports our ESA-
protected bull trout and other resident fish and wildlife. To improve 
on our management of these reservoirs and the benefits they provide, 
the Montana Department of Fish Wildlife and Parks has conducted years 
of research on the impacts of reservoir operations on these species. 
From this research we defined Integrated Rule Curves (IRCs), designed 
to provide water for power generation and salmon flows while preserving 
and protecting Montana's fish and wildlife species. The IRCs recognized 
the need for water downstream of Montana for other fish and other uses. 
However, we had to go to Federal court to secure even the weakest 
recognition by the Federal agencies of the needs of species in Montana, 
and to our consternation we find that the current draft biological 
opinion from NMFS again ignores biological needs of animals in Montana 
by recommending that even more water be taken from Hungry Horse dam.
    On behalf of Governor Racicot, I want to thank you for offering me 
this opportunity to highlight some of the complex and controversial 
public policy questions that face our region. In our view, the present 
operation of the Federal hydropower system makes it nearly impossible 
to organize and direct a regional recovery effort and impossible to 
provide a rational balancing of the many competing multiple purpose 
interests in the Federal dams.
                               __________
  Statement of Eric J. Bloch, Vice Chairman, Northwest Power Planning 
 Council and Representative of Hon. John A. Kitzhaber, Governor, State 
                               of Oregon
    Mr. Chairman, my name is Eric Bloch, and I am representing the 
Honorable John Kitzhaber, Governor of Oregon. I also am one of Governor 
Kitzhaber's two appointees to the Northwest Power Planning Council, and 
currently I am the Council's vice chairman. Thank you for the 
opportunity to testify today on fish and wildlife recovery efforts in 
the Pacific Northwest, and specifically on the draft biological opinion 
issued recently by the National Marine Fisheries Service.
    I would like to begin by commending the general approach to 
recovery articulated in the Federal document, which I believe reflects 
the recognition that improvements in salmon survival must come through 
reducing mortality caused by hydrosystem operations, habitat 
degradation, harvesting and unscientific hatchery operations--the so-
called ``4 Hs''. These key impacts on fish survival also are addressed 
in the recommendations for protection of Columbia River Basin fish, 
issued in July by the Governors of Oregon, Idaho, Montana and 
Washington.
    The Governors' recommendations constituted a substantial and 
meaningful commitment toward ecosystem restoration, while accounting 
for the importance of maintaining a strong economy in the Pacific 
Northwest. The agreement was a clear recognition that, although at this 
time there is not political consensus among the four Northwest 
Governors on the fate of the Lower Snake River Dams, there is still 
much that can be done to restore the Columbia River ecosystem, while 
dam breaching remains a potential future action to be further evaluated 
for its biological benefits, economic impacts, and engineering 
feasibility. So the recommendations reflect agreement among the 
Governors about actions that can be taken immediately to help the fish.
    In the context of today's hearing, these areas of agreement in the 
Governor's document are worth highlighting. For example, the Governors 
called for significant efforts to restore habitat, acquire habitat and 
water conversation from willing sellers, and increase Federal spending 
on incentives for private landowners to improve habitat voluntarily. 
The Governors support the full funding and implementation of the Lower 
Columbia River Basin Estuary Management Plan. They also recommended 
that fish harvest occur at levels commensurate with fish recovery and 
that fundamental changes be made in fish hatchery management and 
operation.
    Finally, the Governors called for capital improvements at dams to 
improve fish passage and survival, consistent with their preference for 
natural river and biological processes.
    Governor Kitzhaber hopes the Federal agencies will review the 
Governors' recommendations as part of the process of finalizing the 
draft biological opinion. In some instances, the Governors' 
recommendations are preferable to, and even more specific than, those 
in the biological opinion.
    As I indicated at the outset, Governor Kitzhaber believes the 
overall ``4-H'' approach outlined in the draft biological opinions is 
commendable.
    But after consideration of scientific analyses such as the State/
Federal/tribal PATH (Plan for Analyzing and Testing Hypotheses) and the 
Northwest Power Planning Council's Ecosystem Diagnosis and Treatment 
model, and a thorough technical review of the Biological Opinion, we 
believe the Biological Opinion generally underestimates the risk of 
extinction faced by salmon and steelhead in the Columbia/Snake basin 
listed as threatened or endangered under the Endangered Species Act 
(ESA). The Biological Opinion also generally underestimates the 
survival improvements needed to meet the ESA's legal requirement of 
insuring survival and recovery of the listed species.
    To meet the legal mandate to insure both survival and recovery, the 
Federal documents must be strengthened to reflect the true extinction 
risk and necessary level of survival improvements. It is worth noting 
in this regard that Governor Kitzhaber believes the Northwest 
Governors' recommendations also must be strengthened so that they, too, 
more accurately reflect the extinction risk and more closely 
approximate the breadth and intensity of effort required for an 
effective basinwide recovery plan.
    Thus, Oregon offers the following specific proposals to strengthen 
the draft Biological Opinion.
    First, on-the-ground actions in each of the four ``H's'' must be 
made more robust by adding actions not included in the Federal 
documents and by increasing the intensity of some of the actions that 
are included.
    Regarding hydropower operations, Governor Kitzhaber believes that 
the Federal proposal appears to rely too heavily on technological fixes 
and fish barging rather than on improving inriver conditions for fish 
migration. As I said earlier, this is in contrast to the four 
Governors' recommendations, which assert stronger support for 
hydrosystem configurations and operations that more closely resemble 
natural river processes, recognize barging as an interim strategy, and 
call for additional investment to improve river conditions so that more 
fish can migrate the river.
    Specifically in the area of hydrosystem reform, we support:
    <bullet> Increasing spill at all projects. Study after study has 
shown spill to be not only the most normative mode of downstream dam 
passage for migrating juvenile salmon, but also the mode with the 
highest survival rates.
    <bullet> Increasing flow augmentation. At a minimum, the Federal 
Government should expeditiously purchase the 2 million acre feet of 
Canadian storage for Columbia River flows. For Snake River flows, the 
Federal Government should make the infrastructure changes at Owyhee 
Reservoir needed to access available storage there.
    <bullet> Continue to plan and, where necessary and appropriate, 
implement system reconfiguration improvements. For the tributaries, 
this mean removal of economically marginal projects, such as is 
occurring with Marmot Dam on the Sandy River in Oregon, Condit Dam on 
the White Salmon River in Washington State, and the Wapotox Dam on 
Washington's Naches River.
    For the mainstem Columbia and Snake River, this means continuing to 
assess drawdown options for John Day and other mainstem dams. It also 
means continuing to assess the biological benefits, economic costs, 
mitigation requirements and engineering feasibility of by-passing 
removal of the four dams on the Lower Snake River. It means timely 
planning and implementation to achieve Clean Water Act compliance at 
all the Federal projects.
    To add to and make more robust existing harvest actions, we support 
decreasing the level of impacts on threatened and endangered stocks, 
while still affording a reasonable sport and commercial fishing 
opportunities to both Indian and non-
Indian fishers. This can be accomplished by lowering the harvest rates, 
particularly for the fall fisheries that impact listed Snake River Fall 
Chinook, license buy-backs, creating terminal fishing opportunities off 
the mainstem areas, and utilizing more selective gear types.
    Regarding habitat, we support the Federal Government channeling its 
support to the existing State, tribal and regional efforts currently 
underway that will result in improvements to salmon-related habitat. A 
principle example is the effort ongoing in Oregon, Washington and Idaho 
to greatly improve water quality in the tributaries and the mainstem.
    We also support, in the area of habitat, establishing a mechanism 
and fund to purchase water and habitat rights on a willing seller/
willing buyer basis, and more ``user-friendly'' assistance to private 
parties to such things as protecting riparian areas and conserving 
water.
    In addition to these new and more robust actions, a second approach 
to making the Biological Opinion stronger is to improve the efficacy of 
the proposed monitoring and evaluation process. This could be 
accomplished by:
    (1) Adjusting the timeframes for assessing compliance with 
established performance standards. The region should, frankly, be given 
less time than 5 years to get the required strategies and actions 
underway--more like 3 years seems appropriate, but should also, in all 
fairness, be given more like 10 years (at least two salmon lifecycles) 
to demonstrate that the regional efforts are producing the desired 
increase in salmon survival.
    (2) Departing from the ``self-critique'' approach to progress 
monitoring. Having agencies monitor and critique their own progress has 
not proved timely or credible in the past, and there is no reason to 
expect it would be any different under the current Biological Opinion. 
Instead, all monitoring and evaluation must be done by an independent 
body, and scientific peer review must be the rule, not the exception.
    (3) Assuring that the consequences of failing to meet established 
objectives are credible and proportional. The Biological Opinion 
enumerates reinitiation of consultation and dam removal as the two 
consequences of failing to meet established performance standards. To 
both motivate action and fully inform the region, the Federal 
Government should enumerate consequences that are more credible and 
proportional. For example, if the region fails to achieve the requisite 
amount of riparian fencing, the consequences should involve taking 
other actions that will address the same temperature and sedimentation 
benefits that the riparian fencing would have otherwise provided.
    Third, the means of collaboration with the region outlined in the 
Federal documents must be made far more explicit. At present, the 
recovery plan outlined in the Federal documents appears to rely upon 
regional collaboration, particularly with the Northwest Power Planning 
Council. But the collaboration exists on far too conceptual a level, 
given the importance of collaboration to achieving a plan that can be 
effectively and expeditiously implemented. Collaboration should occur 
in the following ways:
    (1) Use Existing State and Tribal Salmon Improvement Efforts. The 
States and tribes of the region already have underway strategies and 
actions intended to benefit salmon, many of which are called for in the 
Federal documents. Development of TMDLs, efforts to enhance water 
monitoring capability, and working through local soil and water 
conservation districts and the Oregon Watershed Enhancement Board to 
increase enrollment in the Conservation Reserve Enhancement Program, 
are just three examples. These State and tribal actions have, to some 
extent, been hampered by a lack of support and collaboration from the 
Federal agencies. Providing support for these already-existing 
programs, activities and authorities would accomplish the goal of 
ecosystem health and fish and wildlife protection and recovery in the 
most efficient and effective manner.
    (2) Provide Increased Technical and Financial Assistance to Private 
Citizens. There are private citizens all across this region who have 
been hard at work to restore wild salmon and steelhead to the Columbia 
Basin. Whether landowners changing their farming and ranching practices 
or fishers exploring new opportunities for more selective harvest, all 
need to receive greater assistance and true collaboration from the 
Federal Government. The Federal documents must specify how this needed 
change can be brought about.
    Finally, as all four of the region's Governors clearly stated in 
their consensus recommendations, the recovery effort we face will be 
very costly. Without adequate funding, we will never restore the health 
of the Columbia Basin ecosystem and the salmon runs. To be credible, 
the recovery plan outlined in the Federal documents should provide a 
detailed budget and a funding strategy. Such a budget and funding 
strategy should include the following elements.
    (1) Increase rate payer funding. The Bonneville Power 
Administration, which currently obligates up to $435 million per year 
in expenditures and foregone power system revenues, must provide more 
resources. The BPA Administrator has repeatedly indicated the rates 
being set for the 2002-2006 period give the agency the ability to meet 
this increased fish and wildlife funding obligation.
    (2) Account for all existing fish and wildlife-related Federal 
appropriated funds. Many of the Federal departments and agencies 
currently receive funds that are earmarked for activities that, 
directly or indirectly, relate to restoration of ecosystem health and 
salmon populations in the Columbia Basin. This includes everything from 
NMFS' appropriations for ESA activities, to funds given to the U.S. 
Geological Service to monitor snow pack and run-off. To maximize the 
efficient and effective use of this existing funding, a summary 
accounting should be done.
    (3) Remove barriers to best use of existing Federal appropriated 
funds. Barriers exist because of inter-agency ``turf '' concerns, as 
well as rules that are not ``user friendly''. An example of these 
problems can be seen in the CREP program, administered under the U.S. 
Department of Agriculture. A focussed effort must be made to identify 
and remove these barriers by making the administration of the fish and 
wildlife programs more streamlined, and the rules governing their use 
more flexible and goal oriented.
    (4) Increase the Level of Appropriated Funds. The effort to restore 
the Columbia Basin ecosystem and restore salmon protects a national 
resource in satisfaction of national obligations, such as the 
Endangered Species Act, the Clean Water Act, and Indian treaties. 
Therefore, appropriated funds are both proper and necessary to 
contribute to the regional recovery effort.
    (5) Provide funds, in the short term, through a fiscal year 2001 
Supplemental Appropriations, to be acted upon in early 2001, and the 
fiscal year 2002 Regular Appropriations Bill.
    (6) Pursue new authority for a ``Columbia-Snake River Regional 
Salmon Recovery Program''. As was done with the Everglades and the 
California recovery effort known as Cal/Fed, this mechanism would 
provide for regular appropriations to the Federal agencies involved in 
the recovery effort, as well as direct and pass-through appropriations 
to Oregon, Washington, Idaho, Montana and other regional entities.
    On these funding issues, we look forward to working closely with 
Congress and the Administration to insure that the opportunity to 
implement a recovery strategy that does not require removal of the four 
lower Snake River dams is not jeopardized by a lack of resources.
    In conclusion, let me remind the committee of something that 
Governor Kitzhaber said in a speech he gave in Eugene last February to 
the Oregon chapter of the American Fisheries Society, ``There is no 
doubt in my mind that we can move ahead with salmon recovery without 
breaching the dams. All I am saying to you today is that we have to 
stop deluding ourselves into believing that our choices will be easier 
and cheaper if we just leave the dams alone.'' What we have heard so 
far this morning, and will likely hear over the next 2 days of 
hearings, will generally bear out that prediction.
    But we cannot shrink from this challenge of salmon restoration in 
the Columbia Basin. As Governor Kitzhaber has also noted on a number of 
occasions, unless we restore our degraded Columbia River Basin 
ecosystem, unless we find the way to utilize the bountiful resources of 
the Columbia in a sustainable fashion--sustainable ecologically, 
economically and socially--we will truly be mortgaging our children's 
futures.
    Thank you again, Mr. Chairman for the opportunity to testify today.
                               __________
     Statement of Frank L. Cassidy, Jr., Chairman, Northwest Power 
                            Planning Council
    Mr. Chairman and members of the subcommittee, my name is Frank L. 
Cassidy, Jr., and I am chairman of the Northwest Power Planning 
Council. Today, I also am representing the Honorable Gary Locke, 
Governor of Washington.
    The Power Planning Council is an agency of the States of Idaho, 
Montana, Oregon and Washington. Under the Northwest Power Act of 1980, 
the Council conducts long-range electric energy planning and analysis, 
and also prepares a program to protect, mitigate and enhance fish and 
wildlife of the Columbia River Basin that have been affected by 
hydropower dams.
    The Council's Columbia River Basin Fish and Wildlife program 
directs the annual expenditure of about $130 million in electricity 
ratepayer funds to mitigate the impact of Federal hydropower dams in 
the Columbia River Basin on all fish and wildlife, including threatened 
and endangered species. With Snake River dam breaching off the table 
for at least 5 years, which coincidentally is the Council's statutory 
planning horizon, fish and wildlife recovery efforts in the Columbia 
River Basin will require undertakings and efforts with the dams in 
place. This means a strong emphasis on improving spawning and rearing 
habitat, changing hatchery and harvest practices to support rebuilding 
naturally spawning fish populations, and improving both smolt and adult 
fish passage survival throughout the basin, including at the dams.
    These are key elements of the Council's Columbia River Basin Fish 
and Wildlife Program, which has been in effect since 1982, and they 
also are addressed in the fish recovery recommendations issued in July 
by the Governors of Idaho, Montana, Oregon and Washington. As a matter 
of record, and on behalf of the Power Planning Council, I would like to 
thank the Governors for their valuable contribution to the effort to 
devise regionally acceptable fish recovery plans. I hope the Federal 
action agencies will carefully review the Governors' recommendations in 
finalizing the draft biological opinions.
    The Power Planning Council's Columbia River Basin Fish and Wildlife 
Program is the region's largest single effort to enhance fish and 
wildlife survival. Currently, the Council is amending the program with 
basinwide goals, biological objectives and action strategies, along 
with a scientific foundation of ecological principles. The basinwide 
goals and objectives will guide the Council's program, which will be 
implemented in the future primarily through locally-developed action 
plans.
    More than at any time in the past, the Council's fish and wildlife 
program, which is the region's program, and the Federal recovery 
program for salmon and steelhead (the draft 2000 biological opinions 
and the so-called ``All-H'' paper) appear to be moving in the same 
direction. Both emphasize actions to improve fish spawning and rearing 
habitat, reform hatchery practices and give new direction to harvest 
policy and management. Both also leave the hydrosystem intact for the 
near-term and would direct actions to improve fish passage and survival 
at the dams and in the rivers.
    We are pleased to see a strong role for the Power Planning Council 
in the Federal biological opinions and conceptual recovery plan, and we 
look forward to working with the Federal fish and wildlife agencies to 
improve the scientific credibility and the public accountability of the 
region's fish and wildlife recovery efforts.
    The National Marine Fisheries Service's biological opinion places 
special emphasis on offsite habitat improvements (i.e., mitigating for 
hydrosystem impacts in areas located away from the hydrosystem) and 
calls for creating performance standards to guide habitat restoration. 
Again, this is consistent with the Council's direction in our fish and 
wildlife program, which relies on offsite mitigation as a means of 
addressing the impact of the hydropower system. This work has been 
under way for nearly 20 years through our program, and we welcome the 
Federal agencies' call for additional offsite mitigation to help avoid 
jeopardy and comply with the Endangered Species Act.
    The Federal biological opinions call for reforming fish production 
facilities to minimize harm to fish that spawn in the wild, and also 
for using conservation and supplementation hatcheries to bolster weak 
populations and avoid extinction. The Federal documents recommend 
future fish hatchery policies and reforms be consistent with those 
recommended by the Power Planning Council in our report submitted to 
Congress last year on artificial production. We also intend to 
incorporate those recommendations and policies into our program as the 
basis for our future funding recommendations for artificial production 
facilities in the Columbia River Basin.
    The Federal documents also propose several key reforms in fish 
harvest policies and management. First, the Federal agencies recommend 
selective fishing techniques and terminal fishing opportunities to 
reduce impacts on listed fish. These proposals are consistent with 
activities already funded through the Council's program, including the 
successful Select Area Fisheries Enhancement program that is creating 
commercial salmon fishing opportunities in Youngs Bay near Astoria, 
Oregon, and elsewhere in the lower Columbia River. The Federal agencies 
also propose actions to reduce fish harvest and, as a result, impacts 
on ESA-listed species. Again, these proposals are consistent with 
policy and direction in the Council's program and the draft program 
amendment.
    The Federal action agencies propose to develop these habitat, 
hatchery and harvest actions through 1-year and 5-year implementation 
plans, focusing first on high-priority subbasins where there are listed 
species. We see an opportunity for the Council and the action agencies 
to work together in designing these plans, as the action agencies 
propose to rely on coordination and support from the Council in 
developing the implementation plans. The Council will provide this 
coordination and support through subbasin planning. In our draft fish 
and wildlife program amendment, we propose to implement our program 
primarily at the subbasin level through locally-developed subbasin 
action plans.
    We see a number of opportunities in this cooperative planning 
effort, beyond simply clarifying who will take responsibility for 
actions in the Federal high-priority subbasins. The Council would have 
the opportunity to help frame the Federal action plans, and the Federal 
agencies would be able to participate in regional planning processes 
such as the Council's annual fish and wildlife project-funding review 
and recovery planning being undertaken by the States. This coordination 
would help avoid duplication among the processes and also encourage, 
and perhaps ensure, that the Federal, regional and State plans are 
consistent. For example, the action agencies plan to define their 
initial 5-year implementation plan by Jan. 31, 2001. Using this plan as 
guidance, the Federal agencies plan to participate in regional 
processes, such as the Council's review of projects funded through its 
fish and wildlife program. The agencies plan to complete their initial 
1-year plan by September 1, 2001, about the same time the Council will 
recommend projects to Bonneville to implement the fish and wildlife 
program in fiscal year 2002.
    The Council would, therefore, have the opportunity to ensure that 
its recommendations to Bonneville for project funding take into account 
the direction in the Federal agencies' 5-year and 1-year plans. 
Similarly, by participating in the Council's project review, the action 
agencies would be able to incorporate information from the Council's 
regional process into their implementation plan. Such collaboration by 
the region and the Federal agencies can only help ensure more effective 
efforts to protect, mitigate, enhance, and recover species in the 
Columbia River Basin.
    As with subbasin plans that will implement the Council's program, 
there are benefits to implementing endangered species recovery through 
1-year and 5-year action plans. The plans offer the opportunity to 
identify progress and actions needed to achieve hydrosystem and offsite 
habitat mitigation performance standards. The plans could integrate 
actions affecting hydrosystem operation, configuration, research and 
monitoring and evaluation. The plans could establish priorities to 
guide regional planning and inseason actions, and they also could 
support funding requests.
    We note four areas where the biological opinions need further 
refinement:
    First, the opinions are specific in the types of actions that are 
needed to avoid jeopardy, but they are general in describing where 
these actions are needed and in defining schedules for accomplishing 
them. More specificity is needed about which actions could be provided 
in the subbasin plans developed through the Council's planning process.
    Second, the Federal documents call for improving stream flows--
actions regarding water quantity and quality, and fish passage--but 
again are short on details. These need to be better articulated in the 
final documents.
    Third, cost estimation is incomplete and needs much more detail. As 
I noted earlier, our staff analyzed the river flow operations proposed 
in the biological opinions and concluded they would reduce hydropower 
generation by 87 average megawatts. This would be in addition to 
hydropower operations in the 1995-98 biological opinion, which 
currently reduce hydropower generation by 1,152 average megawatts, at 
an estimated annual cost of $219 million in foregone power revenues and 
replacement power costs, compared to the amount that would be available 
if the system were operated only for power generation.
    While 87 additional megawatts is a small amount of power at a 
relatively small annual cost (about $12 million to $15 million) 
compared to the output of the system and Bonneville's annual revenues, 
the problem we see is that the loss is not uniform through the year 
and, in fact, is quite large in winter months. For example, the 
additional flows that would be required to protect listed chum salmon 
in the lower Columbia River would boost hydropower generation in 
November by about 1,400 megawatts. However, releasing that much water 
in November would take away water from generation in December and 
January--1,000 megawatts in December and 1,500 in January--when we 
believe the power system will be stressed and most susceptible to 
reliability problems. In fact, in our recent study of the reliability 
of the regional power system we concluded the greatest risk--a 24 
percent probability--of being unable to meet demand for electricity is 
in the winter months, particularly in January if there is an extended 
period of cold and dry weather. Thus we are concerned about the 
possibility of losing 1,500 megawatts of generation in January.
    Regardless of whether these or other new hydrosystem operations are 
included in the final biological opinion, the Council's mission under 
the Northwest Power Act to protect, mitigate and enhance fish and 
wildlife while assuring the Northwest an adequate, efficient, 
economical and reliable power supply makes clear our responsibility: to 
identify other sources of power--a combination of renewable resources 
and distributed generation, for example--and energy conservation and 
other means of reducing demand for power, in order to provide equitable 
treatment for fish and wildlife with other purposes of the hydropower 
system.
    Protocols should be established, if they are not already, for 
Bonneville to decide when, and under what conditions, spill required 
under the biological opinion would be curtailed in order to boost 
hydropower generation. Decisions to reduce spill, which could harm 
migrating juvenile anadromous fish, or to continue spilling when demand 
for power is high, need to be based on clear protocols and be clearly 
articulated for the public.
    Fourth, the biological opinions designate priority subbasins for 
actions to assist endangered and threatened species, but do not specify 
how these actions would be funded. Because the Council's fish and 
wildlife program is designed to benefit all fish and wildlife in the 
basin, including listed species, we have been addressing listed species 
through a number of actions in the program for years. A significant 
portion of the approximate $130 million annual budget for the direct 
program over the last 5 years has benefited species of concern under 
the Endangered Species Act. In fact, the 1996 Memorandum of Agreement 
between the Clinton Administration, the Council and Columbia Basin 
Indian tribes, which established Bonneville's fish and wildlife budget 
for the 1996-2002 time period, also set aside about $30 million in 
Bonneville funding to pay for measures that might be required by the 
1995-1998 Biological Opinion. Today, about $2.5 million remains.
    However, we are concerned that Bonneville might be called on to 
fund additional measures in the high-priority subbasins in order to 
comply with the 2000 biological opinions, thus taking funding away from 
efforts to mitigate the impact of the hydropower system on fish and 
wildlife elsewhere in the Columbia River Basin. Two of the high-
priority subbasins are downstream of Bonneville Dam. In the past, the 
Council's program has contained few measures downstream of Bonneville 
Dam, other than in the Willamette River Basin, because the majority of 
hydropower impacts are above Bonneville. For Fiscal Year 2001, the 
Columbia Basin Fish and Wildlife Authority (CBFWA), which represents 
the region's State, Federal and tribal fish and wildlife managers, has 
identified nearly $140 million in projects for funding through the 
Council's program. If the Council were to follow CBFWA's 
recommendations, there would be little if any room in Bonneville's 
budget to finance activities in the biological opinions. For that 
reason, we believe that the Administration should prepare and submit 
for Congress' consideration a supplemental appropriations request for 
Fiscal Year 2001 for actions that address the reasonable and prudent 
alternatives proposed in the draft biological opinions, particularly 
those proposed for lower-Columbia listed species.
    In my testimony, Mr. Chairman, I have pointed out some of the 
similarities between the draft biological opinions and the Council's 
draft amended fish and wildlife program. The draft program amendment 
constitutes a major change in the way we fulfill our mandate under the 
Northwest Power Act to protect, mitigate and enhance fish and wildlife 
of the Columbia River Basin that have been affected by hydropower.
    Unlike past versions of the program, which were criticized by 
independent scientists for consisting primarily of a number of measures 
that called for specific actions without a clear, programwide 
foundation of scientific principles, the new program will express goals 
and objectives for the entire Columbia River Basin based on a 
scientific foundation of ecological principles. Currently, we are 
amending the program with basinwide goals, biological objectives, and 
strategies to achieve the objectives and a scientific foundation. We 
expect to complete this phase of the rulemaking in October. Then we 
will begin developing subbasin action plans for each of the 53 
subbasins of the Columbia, which are arrayed within 11 geographic 
provinces. These plans, which will be developed locally, will be 
consistent with the goals and objectives for the basin--thus, the goals 
and objectives we are developing now will guide the development and 
implementation of the subbasin plans. As I noted earlier, this provides 
an opportunity for the Federal action agencies to participate in 
developing the plans so that the region has a consistent approach to 
species recovery.
    The Council believes this unique program structure, goal-oriented 
and science-based, will result in a more carefully focused, 
scientifically credible and publicly accountable program that will 
direct the region's substantial fish and wildlife investment to the 
places and species where it will do the most good.
    It is an action-focused plan, as are the Federal agency biological 
opinions. In addition to emphasizing locally-developed action plans, 
the Council proposes to create either a trust or a separate fund for 
habitat and water acquisitions in recognition of the habitat-
restoration focus of our program. We also propose to establish criteria 
for ``early action projects''--those with a demonstrated need to move 
more quickly than the normal planning procedures would allow.
    The Council's draft amended fish and wildlife program addresses all 
of the ``Hs'' of impacts on fish and wildlife--habitat, hatcheries, 
harvest and hydropower:
    <bullet> Primarily, it is a habitat-based program, directing 
significant attention to rebuilding healthy, naturally producing fish 
and wildlife populations by protecting and restoring habitats and the 
biological systems within them.
    <bullet> The draft requires that fish hatcheries funded by 
Bonneville operate consistent with reforms recommended to Congress by 
the Council last year, reforms that would shift hatchery production 
away from a primary focus on providing fish for harvest to also 
providing fish to rebuild naturally spawning populations.
    <bullet> The draft amendment will assure that subbasin plans are 
consistent with harvest management practices and will increase 
opportunities for harvest wherever feasible, while at the same time 
avoiding interceptions of threatened and endangered species whenever 
possible.
    <bullet> The draft program amendment focuses on providing 
conditions in the Columbia River Basin hydroelectric system that most 
closely approximate natural physical and biological conditions with the 
dams in place.
    To conclude, Mr. Chairman, the Council is proposing a fundamentally 
new management style for our fish and wildlife program, one that 
focuses on locally-developed action plans with clearly stated goals and 
objectives that are consistent with goals and objectives for the entire 
Columbia River Basin. Our program will articulate a scientific 
foundation for action, and we will continue to submit each project 
proposed for funding through our program to review by a panel of 
independent scientists as required by the Northwest Power Act. We will 
reform hatchery practices for those facilities funded through our 
program, and we will work to integrate harvest into our planning so 
that harvest and hatchery policies and practices do not work at cross 
purposes--raising fish for harvest that cannot be caught because of 
harvest restrictions imposed to protect threatened and endangered 
species. We also will continue to account for ocean conditions in our 
decisionmaking, and we will work to improve data collection and 
management and project monitoring and evaluation so that we, and others 
in the region, can gain a better understanding of what is working, what 
is not working and what might be done to improve our efforts.
    All of these elements are part of a recovery and mitigation effort 
that we look forward to pursuing in collaboration with the Federal 
action agencies through locally-developed action plans. Ultimately, 
this collaboration will improve the public accountability and 
scientific credibility of all our efforts.
    Thank you again, Mr. Chairman, for the opportunity to speak today. 
I would be pleased to answer any questions.
                               __________
  Statement of William Stelle, Jr., Regional Administrator, National 
               Marine Fisheries Service, Northwest Region
                              introduction
    Thank you, Mr. Chairman, and members of the subcommittee. I 
appreciate the opportunity to be here today, and I commend the 
subcommittee for taking the time to examine the complex choices facing 
the Northwest region regarding salmon recovery in the Columbia Basin.
    The National Marine Fisheries Service (NOAA Fisheries) is engaged 
in two efforts at present to address salmon recovery policy as it 
applies for the Federal Columbia River Power System (FCRPS). One is a 
new biological opinion covering operations and configuration of the 
system under the Endangered Species Act (ESA). The other is a Basin-
wide Recovery Strategy, a conceptual recovery plan for all the listed 
salmon stocks in the Columbia and Snake River basins.
    I testified before this panel in April of this year, and my written 
statement at that time described the overall approach being taken by 
NOAA Fisheries in cooperation with affected Federal, State and tribal 
agencies. My testimony today will serve to update you on these efforts.
                              stock status
    NOAA Fisheries scientists continue to update and adjust their 
assessments of the current status of the stocks and the prognosis for 
those stocks over the short and long term. While we fine-tune those 
analyses, the basic story remains the same: Stocks throughout the 
Columbia Basin remain in deep trouble, with the Upper Columbia chinook, 
Snake River chinook and steelhead stocks throughout the Basin most at 
peril.
                         the biological opinion
    Section 7 of the Endangered Species Act requires Federal agencies 
to consult with the Secretary of Commerce to ensure that its actions 
are not likely to jeopardize the continued existence of threatened or 
endangered salmon and steelhead, or their habitats. To inform this 
consultation, the so-called ``action'' agencies must conduct a 
biological assessment (BA) of their prospective actions to determine 
the likely impact of such actions on listed species. The BA forms the 
basis of inter-agency consultation under ESA and the subsequent 
Biological Opinion (BO) rendered by NOAA Fisheries.
    On December 22, 1999, NOAA Fisheries received a BA from Bonneville 
Power Administration, the U.S. Army Corps of Engineers, and the Bureau 
of Reclamation outlining proposed operation and configuration of the 
FCRPS and assessing the likely impacts on listed salmon and other fish 
and wildlife species. We have now developed a new draft BO for the 
system to replace the one completed in 1995.
    The scope of the new draft BO covers the entire FCRPS and all 12 
Evolutionarily Significant Units (ESUs) within the Columbia Basin. It 
addresses operation of the system, including flow and spill. It 
addresses system configuration, including a dam drawdown decision, 
passage improvements at each project and operation of the 
transportation system. It evaluates performance standards for the 
hydrosystem based upon productivity improvements needed by each listed 
ESU to avoid extinction and achieve a recovery trajectory.
    Our jeopardy standard is the same as it was in 1995, but is applied 
to additional at-risk populations.
    NOAA Fisheries and the Action Agencies have been working in an 
inter-agency group since Fall 1999. That group is composed of senior 
staff from each agency. In addition, on January 26, 2000, NOAA 
Fisheries sent a letter to each of the Northwest States and 13 Native 
American tribes inviting them to participate in the consultation 
process. Since then, the work group has been meeting regularly, both by 
itself and with the States and tribes, to lay the groundwork for, and 
develop the key elements of, a new BO covering future operations of the 
FCRPS. Draft materials developed through the Federal work group process 
have been shared with same States and tribes, including hydrologic and 
biological analyses of the effects of certain flow and spill 
alternatives, an analysis of the potential effects of those same 
operations on the transmission system, and an initial description of 
the information being developed to assist in the evaluation and use of 
performance standards.
    There have been numerous work group meetings for interagency 
consultation, and there have also been a number of meetings between the 
work group and the affected States and tribes. These were the meetings 
during which the key technical elements of the biological opinion were 
developed, analyzed, discussed, and refined. In short, this was where 
the real work was done. We have endeavored to make this process as open 
as possible by making technical documents and schedule information 
widely available, and by inviting State and tribal governments to 
participate.
    NOAA Fisheries has submitted the draft BO to the States and tribes 
for technical review and comment. This is not a formal public review 
process. The point of the review by States and tribes with technical 
expertise in this area is to ensure that NOAA Fisheries is including 
and appropriately applying the best available scientific information. 
The Opinion will be revised based on this input.
    We had hoped to release the BO sooner, but there were several 
reasons for the delay we experienced. First and foremost, we wanted to 
be certain our analysis was complete. The biology was a major factor 
informing our decision, and we wanted to make sure it could withstand 
independent review. Second, we applied a new tool in our efforts to 
rebuild salmon and steelhead populations: performance standards. We 
think it is critical that we have an effective tool for setting goals 
and measuring progress. Performance standards have tremendous promise 
in this regard, but the technical challenge in applying them to the 
salmon life cycle is extremely rigorous and time consuming. Finally, 
there were considerable logistical demands associated with conducting 
public hearings on the All-H Paper (which we are now calling the Basin-
wide Recovery Strategy) and consulting with 13 tribes.
                    the basin-wide recovery strategy
    NOAA Fisheries and the other Federal agencies continue their work 
on a comprehensive response to the status of these stocks through the 
development of a Basin-wide Recovery Strategy--a collection of concepts 
that will guide recovery planning for all the stocks in the Basin that 
is often referred to as the ``All H's Paper.'' We released the draft 
Basin-wide Recovery Strategy with the draft biological opinion 
governing the operation of the Columbia River Federal hydropower 
system.
    The Basin-wide Recovery Strategy emphasizes that overhaul of the 
situation in the Columbia Basin must be comprehensive to be effective 
and is not limited to hydropower issues alone. The Basin-wide Recovery 
Strategy therefore recommends a comprehensive basin-wide program that 
places a premium on actions that can be implemented quickly, that are 
likely to provide solid and predictable benefits, and that will benefit 
the broadest range of species. These include conservation hatchery 
interventions, production hatchery reforms, improvements on Federal 
lands, instream flows for de-watered streams, elimination of 
impediments to passage in the tributaries, continued improvements to 
passage at the mainstem dams and rebuilding the productivity of the 
estuary.
    The Basin-wide Recovery Strategy is built on biological 
considerations, but also recognizes there is a limit to the resources 
available for the job and to the authority of Federal agencies. It also 
emphasizes Federal support for actions that State and local governments 
are planning or already undertaking, such as the Northwest Power 
Planning Council's sub-basin planning proposal. In the habitat arena, 
where some actions can take decades to show benefits, the program 
emphasizes those measures that can be taken quickly, with longer term 
actions to be taken later based on sub-basin assessments and plans. It 
also seeks to establish strong connections between the new habitat 
features of the Council's fish program and the related State programs 
in the same subject area, such as water quality protections, instream 
flows and riparian-related activities.
    The Federal agencies also recognize that, even while the region has 
devoted considerable resources to restoring Columbia Basin fish, there 
are limits to those resources. The combination of near-term biological 
risks and resource limitations led the agencies to focus on actions 
that give the greatest ``bang for the buck''--that have predictable 
benefits, that will benefit the greatest number of species. Getting the 
biggest bang for the buck can mean focusing on those life stages where 
improvements will yield the biggest results, or on those actions that 
are more certain to result in improvements in a short timeframe.
    For example, scientific analysis suggests that improving survival 
during the first year of life, when the greatest mortality occurs, will 
give the greatest benefit. This emphasizes, in particular, the value of 
improving freshwater habitat. Scientific analysis also suggests 
improvements in all life stages will have a greater effect on overall 
productivity than focusing improvements on just one life stage. In 
other words, a comprehensive approach to improve survival throughout 
the salmon's life cycle will be a more effective strategy than a 
singular focus on one life stage (or H). In summary, we believe getting 
the biggest bang for the buck means making difficult choices on how 
available resources are allocated, now and into the future, focusing on 
actions that benefit a large number of ESUs. For example, improvements 
in dam passage in the lower Columbia benefit all upriver ESUs, and 
improvements in the estuary benefit all 12 ESUs to varying degrees.
    Federal agencies also considered tribal trust responsibilities in 
developing this package. For some ESUs, such as Snake River fall 
chinook, eliminating harvest would reduce substantially the risk of 
extinction. Dramatically reducing hatchery production basin-wide would 
also benefit all ESUs to some degree, although it is not possible to 
quantify the benefit with precision. The Basin-wide Recovery Strategy 
does not recommend these actions, however, because of the importance of 
maintaining some level of tribal harvest. Instead, we call for a major 
effort to implement a complete overhaul of the hatchery system in the 
Basin to reduce the ongoing risks to the weak wild stocks posed by the 
existing system. The Strategy calls for a major effort to monitor and 
evaluate the success of this overhaul and reduce the uncertainties that 
now abound.
    I would like to take a moment to speak to the general issue of 
uncertainty and the NOAA Fisheries response to it. We must understand 
that we face unavoidable uncertainties as we craft this next phase of 
the recovery effort. Uncertainty pervades our ability to count wild 
fish and estimate the size and trends in the populations because we 
have not distinguished between wild spawners and their hatchery 
counterparts when counting fish in the past. Hence our current 
projections of the size of those populations must be caveated. 
Uncertainty pervades the ability to estimate the scope and degree of 
impacts--both positive and negative--associated with the Columbia Basin 
industrial-scale hatchery system for the simple reason that we have not 
bothered to make a priority to invest in the research to characterize 
those impacts. Uncertainty pervades our ability to estimate the 
existing habitat base and its potential to improve salmon productivity. 
While we have made some progress in understanding the basic ecology of 
freshwater systems, we remain ignorant of the ecology of the estuarine 
or marine environments which are so vital to the long-term health of 
these very salmon populations we are endeavoring to recover.
    We must squarely confront these uncertainties as we work to 
identify the best opportunities to secure survival improvements, 
quantify how much improvement is enough, and assess whether a 
particular menu of actions will likely produce the desired amount. In 
the Basin-wide Recovery Strategy we place a significant emphasis on a 
comprehensive monitoring and evaluation program to generate better 
information about what will work best so that we will be able to make 
adjustments in the days and years to come. This work covers the key 
uncertainties enumerated above, and we commit to its peer review as we 
proceed. In short, uncertainty becomes a call to action and not an 
excuse for inaction or capitulation.
    Much of the regional debate has focused on removal of Snake River 
dams. There is continuing scientific uncertainty about whether 
breaching dams is necessary to achieve recovery and considerable 
uncertainty about whether it will do the job. Only Snake River fish 
benefit from breaching, with no benefit to eight other listed 
populations. Dam removal would require explicit congressional 
authorization, and, once authorized, cannot be implemented on a short 
timeframe. Its high cost may prejudice other actions needed throughout 
the Basin. The option of Snake River drawdown therefore appears to rank 
as a lower priority at this time than other available options because 
of the long time to implement, narrow benefits, biological 
uncertainties and high costs.
    Instead, the current analysis indicates that an aggressive and 
comprehensive approach will provide immediate benefits and lay the 
foundation for salmon and steelhead recovery. We expect to challenge 
hydropower system operators now to meet rigorous survival goals over 
the next 10 years, using continued improvements in flow and spill 
management and structural improvements at dams. Progress would be 
reviewed in 5 years, and system performance would be evaluated against 
performance standards in 5, 8, and 10 years. Dam removal would again be 
addressed if progress toward these goals is inadequate or if called for 
by new scientific information about the Snake River stocks.
    NOAA Fisheries and the Federal agencies are working to develop a 
program that commits the region to implement habitat, harvest and 
hatchery actions to further enhance fish survival beyond that achieved 
with their investments in the hydropower system.
    Such a program would call for a major effort at improving the 
health of the stream systems, the mainstem habitats and the estuary, 
all of which are important building blocks for recovery. The program 
would ground the restoration strategies on a combination of scientific 
assessments through the Council's program and sensible ``early 
actions'' to jump start rebuilding. Putting water back into de-watered 
streams and opening up access to healthy habitat may be a good place 
start.
    Finally, the program would call for the development and 
implementation of an aggressive, unprecedented monitoring and 
evaluation program that will enable the agencies to assess program 
results as well as to resolve critical uncertainties. Further, this 
contemplates rigorous independent peer review of its scientific 
foundation and the implications of the monitoring and evaluation 
activities.
    Mr. Chairman, that concludes my statement. I would welcome the 
opportunity to respond to questions.
                               __________
  Statement of Col. Eric T. Mogren, Department of the Army, U.S. Army 
               Corps of Engineers, Northwestern Division
                              introduction
    Mr. Chairman and members of the subcommittee, I am Colonel Eric 
Mogren, Deputy Division Engineer, Northwestern Division, U.S. Army 
Corps of Engineers. I am testifying on behalf of the Honorable Dr. 
Joseph W. Westphal, Assistant Secretary of the Army for Civil Works. 
Thank you for this opportunity to discuss the status of the National 
Marine Fisheries Service (NMFS) and U.S. Fish and Wildlife Service 
(USFWS) Biological Opinions on operations of the Federal Columbia River 
Power System.
                               background
    The Corps constructed and operates 12 major dams in the Columbia 
River Basin that affect the habitat and migration of anadromous salmon 
and steelhead, Kootenai River white sturgeon, and bull trout--all 
listed under the Endangered Species Act (ESA). The dams are authorized 
under project authorities in the Rivers and Harbors Acts of 1935, 1945, 
1946, 1950, and 1962 for multiple uses including flood control, power 
production, navigation, recreation, fish and wildlife, irrigation and 
municipal and industrial water supply.
    Bonneville, the Dalles, John Day and McNary dams on the lower 
Columbia River and Ice Harbor, Lower Monumental, Little Goose and Lower 
Granite dams on the lower Snake River are in the migratory path of 
several species of salmon and steelhead. Two upstream storage dams 
operated by the Corps--Dworshak in Idaho and Libby in Montana--
contribute to salmon restoration actions through flow augmentation. 
Operations of Dworshak, Libby and Albeni Falls, a multipurpose project 
on the Pend Oreille River in Idaho, also affect white sturgeon and bull 
trout habitat. The twelfth dam is Chief Joseph in the mid-Columbia 
River.
    The Corps Northwestern Division office in Portland and the Walla 
Walla, Portland and Seattle District offices are involved in efforts to 
improve conditions for ESA listed aquatic species throughout the 
Columbia River Basin.
               endangered species act/biological opinions
    Although Columbia River Basin returns of adult salmon and steelhead 
have been the strongest this year in several decades, overall many 
Columbia River Basin fish stocks are in decline. In 1991, NMFS listed 
the Snake River sockeye salmon as endangered under the ESA. In 1992, 
the Snake River spring/summer and fall chinook salmon were listed as 
threatened. USFWS has listed two species of resident fish in the 
basin--Kootenai River white sturgeon in September 1994, and bull trout 
in June 1998. Over the last several years, nine more Columbia and Snake 
River salmon and steelhead stocks have been listed under the ESA, 
bringing the total to 12 listed salmon and steelhead stocks within the 
basin.
    No single factor is solely responsible for the decline of the 
salmon, and it will require efforts across all life cycle influences to 
restore listed stocks. Recovery efforts must address the following four 
life cycle areas, referred to as the All-H's: harvest, habitat, 
hatcheries, and the hydropower system. The Corps' primary role in 
recovery efforts is to implement measures at its dams and reservoirs to 
assist recovery of salmon and steelhead and other listed fish 
populations.
    The salmon, steelhead, bull trout and sturgeon ESA listings 
triggered the requirement for Federal agencies to consult with NMFS and 
USFWS on hydro-system operations and configuration affecting the listed 
species. Formal consultation begins with a Biological Assessment from 
the ``action'' agencies, i.e., the Corps, Bonneville Power 
Administration (BPA) and the Bureau of Reclamation (BoR), and 
culminates in hydropower Biological Opinions from the ESA regulatory 
agencies. The action agencies are currently operating under 1995 
Biological Opinions from NMFS and USFWS and 1998 and 2000 Supplemental 
Biological Opinions to address additional salmon and steelhead species 
listed since 1995. The Opinions contain measures to avoid jeopardizing 
the continued existence of listed salmon, steelhead and white sturgeon 
species and to avoid adversely modifying designated critical habitat.
    The action agencies transmitted a new Biological Assessment to NMFS 
and USFWS in December 1999, because the current Biological Opinions 
were written pending results of long-term studies. The 1999 Biological 
Assessment addresses proposed operation and identifies studies for 
long-term configuration of the Federal Columbia River Power System 
(FCRPS). The Biological Assessment incorporates measures that were put 
into place under the 1995 NMFS and USFWS Biological Opinions, a 1998 
supplemental, a 1999 Biological Assessment on listed bull trout and 
sturgeon, and a 1999 draft Biological Opinion pertaining to listed 
Columbia River chum salmon. Both near- and long-term actions intended 
to improve fish passage are identified.
    Near-term actions include:
    <bullet> Flow augmentation--Release of water from storage or 
headwater reservoirs to meet flow targets in the lower river for salmon 
and steelhead.
    <bullet> Reservoir operations--Operations of headwater projects to 
provide for spawning and recruitment of Kootenai River white sturgeon, 
and minimize rapid fluctuation in both reservoirs and unimpounded river 
reaches for improved bull trout habitat conditions; and release of 
water from Dworshak Dam for temperature control.
    <bullet> Spill measures--Water passed at a dam through a spillway 
rather than being sent through the turbines to guide fish away from the 
turbines, thereby reducing the percentage of turbine-related mortality.
    <bullet> Fish transportation--Juvenile salmon and steelhead 
collected at dam sites on the lower Snake and Columbia rivers and 
placed in specially designed barges to be transported down river and 
released below Bonneville Dam.
    <bullet> Predator control programs--Programs intended to help 
protect juvenile salmon from other species that prey on them, such as 
northern pikeminnow and Caspian terns.
    Long-term actions in the Biological Assessment include:
    <bullet> Lower Snake River survival improvement study--complete 
feasibility level study to analyze alternatives for long-term 
configuration and operation of the lower Snake River dams, including 
breaching.
    <bullet> Water quality--planned and ongoing studies intended to 
improve dissolved gas and temperature conditions.
    <bullet> Passage improvements--continue turbine studies to identify 
operational and structural modifications to make turbine passage less 
harmful to fish; testing of surface collectors; bypass improvements; 
and additional fish transport facilities.
                      status of biological opinion
    Consultations triggered by the 1999 Biological Assessment are 
ongoing with NMFS and USFWS and the three action agencies--the Corps, 
BPA and BoR. We are currently reviewing the draft Biological Opinions 
released July 27, 2000, for 60-day Federal agency, State and Tribal 
review. Consultations are addressing long-term operations and 
configuration of the FCRPS needed to ensure survival of the listed 
stocks throughout the Columbia River Basin. There are still some 
measures to be worked further for the final Biological Opinions; 
however, we believe that we can reach agreement on most major issues 
and overall direction. We anticipate that a series of performance 
measures and standards will allow us to judge the success of our 
efforts. The measures in the Biological Opinion and the All-H Paper 
continue to reflect the need to look beyond the hydrosystem and take 
into account actions in all the life-cycle areas.
    Consultations on the draft NMFS Biological Opinion are addressing 
several major operational and configuration issues, including future 
configuration of four Snake River dams, study of potential flood 
control modifications, and water quality.
    The NMFS July 27, 2000, draft Biological Opinion does not call for 
immediate breach of the Lower Snake River dams. Rather, the draft calls 
for aggressive actions in the FCRPS to be taken over the next 10 years. 
It contains performance measures to be met, with check-ins at certain 
points during the 10-year period. If performance measures are not met, 
or if listed stocks experience dangerous declines, the agencies would 
again consider the question of more drastic measures, such as dam 
breach, within the context of actions for all listed salmon and 
steelhead stocks throughout the basin. The Corps supports this approach 
as long as actions across all H's are considered equally; performance 
standards and milestones are realistic; there is an aggressive 
monitoring and evaluation program to gauge performance; and, if the 
jeopardy standards are not met after the specified period, other hydro 
and non-hydroactions would be considered in a reconsultation process. 
To minimize startup delay in the event of a lower Snake River dam 
breach decision in the future, we continue to work with NMFS on the 
timing and appropriate level of effort for engineering and economic 
mitigation evaluation.
    Current operations of Corps storage reservoirs are conducted to 
provide adequate flood control protection. The draft Biological Opinion 
calls upon the Corps to conduct a detailed, system wide, multi-year 
study of flood control limits to determine whether flexibility exists 
for providing additional fish flows by reducing the amount of flood 
control storage required. We consider this to be a major undertaking, 
and, if included in the final Biological Opinion, we would seek 
appropriate congressional approval to begin this study.
    The NMFS draft Biological Opinion also specifies measures the 
Corps, BoR and BPA could take to preserve and restore habitat in the 
Columbia River estuary, in tributaries, and in mainstem areas to 
further improve the survival and recovery of listed species in critical 
spawning, rearing and estuary stages. We strongly support these actions 
as part of an All-H approach to species restoration. The Opinion also 
continues to support evaluation of surface bypass systems for juvenile 
fish, turbine passage improvements testing, and other advancements in 
fish passage technology.
    The draft USFWS Biological Opinion requests adjustments to the 
operations and ramping rates at Albeni Falls and Libby Dam to balance 
needs of listed resident fish (Kootenai River white sturgeon and bull 
trout). In addition, USFWS is asking the Corps to continue for the next 
6 years a study of alternative pool elevations at Albeni Falls to 
increase Kokanee spawning for bull trout food source. This would affect 
NMFS operations for salmon. The draft USFWS Biological Opinion also 
addresses actions at Libby Dam to allow increased flows to achieve flow 
objectives for sturgeon, while controlling additional total dissolved 
gas. Several operational measures in the draft Biological Opinions 
would require coordination with Canada.
            federal caucus and basin-wide recovery strategy
    Actions for fish in the hydropower system must be considered in the 
broader context of the entire Columbia River Basin, for multiple 
species, and across the salmon life-cycle influences. To provide this 
broader context, a Federal Caucus is developing a basin-wide strategy 
for recovery of Columbia River Basin fish. The Federal Caucus includes 
representatives from NMFS, USFWS, BoR, Bureau of Indian Affairs, Bureau 
of Land Management, the Environmental Protection Agency, BPA, U.S. 
Forest Service, and the Corps.
    In December 1999, the Federal Caucus released a draft ``All-H 
Paper,'' which laid out options for action in the areas of hydropower, 
harvest, hatchery management, and habitat improvements to be integrated 
into a comprehensive strategy for recovery of the listed species. Those 
options were grouped into the following four alternatives in the draft 
All-H Paper for the purpose of stimulating public discussion:
    (A) Dam Removal--breach four lower Snake River dams;
    (B) Harvest Constraints--retain the lower Snake River dams, limit 
salmon harvest, improve habitat, and improve conditions in the 
hydropower system;
    (C) Aggressive Non-Breach--defer decision on breaching lower Snake 
River dams, aggressive actions in other H's; and
    (D) Maximum Protections--breach lower Snake River dams, aggressive 
actions in other H's.
    The All-H Basinwide Strategy is meant to provide a framework for 
recovery actions. It is a common Federal approach to look at all 
aspects of life cycles in a comprehensive manner. This has created a 
context and a common operating concept for Federal agencies to work 
with the States and Tribes, to coordinate and collaborate on technical 
and policy decisions for Columbia Basin fish recovery. The Federal 
agencies have begun a joint consultation with the 13 Columbia River 
tribes framed around the All-H Paper as a basis for constructive 
discussion.
    Following a public comment period and series of public meetings on 
the draft All-H Paper, the Federal Caucus prepared a revised paper 
which was released for public review on July 27 concurrently with the 
draft Biological Opinions. This paper identifies a preferred strategy 
of aggressive actions across all life-cycle H's, with a deferred 
decision on dam breaching.
                        lower snake river study
    The question of whether to breach four lower Snake River dams has 
been a focus in regional discussions concerning recovery of Columbia 
Basin stocks, even though such an action would have direct influence on 
the recovery of only 4 of the listed 12 salmon and steelhead stocks in 
the basin. The Corps of Engineers Lower Snake River Juvenile Salmon 
Migration Feasibility Study includes evaluation of such an action. This 
study was initiated in response to the reasonable and prudent 
alternative in the 1995 and later NMFS Biological Opinions to evaluate 
long-term alternatives for the four lower Snake River dams.
    The primary objective of the lower Snake River study is to develop 
a plan to improve migration conditions for salmon and steelhead in the 
lower Snake River and to contribute to the recovery of these stocks. 
This study addresses the four lower Snake River dams--Ice Harbor, Lower 
Monumental, Little Goose, and Lower Granite. It does not address 
specific actions on dams and reservoirs on the Columbia River, or other 
factors in salmon decline besides operation of these projects. The 
geographical scope is the lower Snake River, from its confluence with 
the Columbia River extending upstream approximately 140 miles to the 
city of Lewiston, ID.
    The study examines the following four major alternatives for the 
lower Snake River dams:
    (1) maintain the existing fish passage system with current and 
planned improvements;
    (2) maximize transportation of juvenile fish;
    (3) make major system improvements such as surface bypass, gas 
abatement measures, and turbine passage improvements; and
    (4) implement permanent natural river drawdown by breaching the 
dams.
    In December 1999, the Corps released a draft Environmental Impact 
Statement (EIS) on these alternatives for public review. In order to 
allow all affected parties in the region to address the issues within 
the broader context of other ongoing regional efforts for Columbia 
River Basin fish, a preferred alternative was not identified in the 
draft EIS. In conjunction with the Federal Caucus, the Corps held 15 
public meetings in February and March 2000 throughout the region 
(Oregon, Idaho, Washington, Montana, and Alaska).
    The Corps continues to progress toward a final EIS. The Corps is 
now processing the considerable volume of comments received and is 
analyzing the substantive issues raised. At this point in the 
evaluation, all four alternatives are still under consideration. The 
measures called for in the draft/final Biological Opinions will be a 
factor in the Corps' choice of a preferred alternative in the final 
EIS. We anticipate that we will have a final EIS with a preferred 
alternative identified in March 2001. If the recommendations in the 
final EIS and Record of Decision include dam breaching, congressional 
authorization and appropriations would be sought.
                                closing
    The successful conclusion of the Biological Opinion consultations 
and the integration of the Biological Opinions and the All-H Paper 
depend upon the continued coordination and cooperation of the Federal 
agencies. We are making good progress. The agencies, of course, have 
different and sometimes conflicting views, but we are all committed to 
restoring the many stocks of listed Columbia River Basin fish. We look 
to the Congress for continued support of these efforts and will 
continue to work with you and keep the lines of communication open.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions.
  Statement of Judith A. Johansen, Administrator and Chief Executive 
  Officer, Bonneville Power Administration, U.S. Department of Energy
    Mr. Chairman, distinguished members of the committee, my name is 
Judi Johansen. I am the administrator and chief executive officer of 
the Bonneville Power Administration (Bonneville). We appreciate this 
opportunity to appear today. We also appreciate your and the 
committee's continued support and attention to Columbia River Basin 
fish and wildlife.
    Bonneville is committed to working with the region on a 
comprehensive plan for recovering Columbia and Snake River salmon, 
steelhead, and resident fish. This is a considerable challenge, a work 
still in progress. It requires agreement on common strategies and 
actions among Federal, State, and tribal governments. It also requires 
concerted effort and partnerships with many different parties in the 
basin, some with differing interests and objectives.
    Important decisions for fish recovery are coming together now. The 
National Marine Fisheries Service (NMFS) and the U.S. Fish and Wildlife 
Service (USFWS) recently issued draft Biological Opinions on long-term 
operation of the Federal Columbia River Power System (FCRPS) to avoid 
jeopardy to listed salmon, steelhead, sturgeon and bull trout. At the 
same time, nine Federal management agencies, including Bonneville, 
released another draft of the Basinwide Salmon Recovery Strategy, a 
document that received extensive public review as the ``All-H Paper'' 
earlier this year. The Basinwide Recovery Strategy describes general 
strategies and specific actions to be taken in habitat, harvest, and 
hatcheries (H's), as well as hydro, in order to recover anadromous and 
resident stocks. This fall, the Northwest Power Planning Council 
(Council) will update its Fish and Wildlife Program, with a major 
emphasis on biological objectives and subbasin planning.
    All of these processes, and others, must come together to lay the 
groundwork for a comprehensive regional plan. If the plan is to be 
successful, action must be taken in all of the H's, across the life 
stages of the listed stocks. Bonneville, in cooperation with the Corps 
of Engineers (Corps) and the Bureau of Reclamation (Reclamation), is 
committed to a strong set of hydropower actions to aid in recovery of 
listed species. We will continue to implement existing measures for the 
FCRPS and will build on these measures with even more aggressive 
hydropower improvements. We also intend to expand our efforts to 
capture certain ``offsite'' recovery benefits, in the form of habitat 
enhancements, hatchery reforms, and support for more selective harvest.
    Today, I would like to cover three points about the upcoming 
decisions on Columbia River Basin salmon recovery. First, I will 
describe the practical measures we intend to implement for Federal 
dams. Second, I want to discuss the importance of performance standards 
as a tool to ensure that the hydropower system and the other H's 
achieve real results. Finally, partnerships among agencies, among 
governments, and with the citizens of the region are key to achieving 
our goals and recovering the fish. This means not only joint planning 
and mutually agreeable solutions, but also appropriate sharing of the 
responsibility for funding and implementation.
                    hydropower improvement measures
    There is some good news about the hydropower system and salmon 
recovery. Our recent efforts to improve fish survival through the 
Federal dams have met with real success. In the 1970's, the survival 
rate through mainstem dams was about 30 percent. But since the 
Council's Fish and Wildlife Program in the early 1980's and major 
investments in fish passage improvements by Federal agencies since 
1993, juvenile salmon survival through the eight dams on the Columbia 
and Snake Rivers has steadily improved.
    Today, according to NMFS data, the juvenile survival rate for Snake 
River stocks is about the same as it was in 1960's--before the four 
Lower Snake River dams were in place--about 40-60 percent (i.e., 
spring/summer chinook and steelhead hydrosystem survival in the 1960's 
was 32 to 56 percent, when four dams were not in place). Four 
additional dams were constructed between 1968 and 1975 with survival 
estimated during the 1970's typically ranging from 10 to 30 percent. 
During the most recent years (1995-1999), spring/summer chinook salmon 
survival ranged from 42 to 59 percent. Survival during this recent 
period is substantially greater than the 1970's and similar or higher 
than levels in the 1960's. The data is from the NMFS White paper on 
passage, April 2000. Comparisons for fall chinook survival cannot be 
made because of limited data for pre- and post-hydrosystem 
construction.
    The Federal agencies' consultation on the draft Biological Opinions 
led to agreements on management actions that were eventually included 
in those draft documents. We used information on biological benefits, 
performance standards, and costs to agree on spill levels for this 
year's fish migration. These were incorporated into proposed agreements 
for future migration seasons in the draft Biological Opinions.
    The Federal hydro operators are proposing to take aggressive steps 
at the Federal dams to further improve the survival of juvenile and 
adult salmon and steelhead through the hydrosystem. These actions will 
build on our successes and put more emphasis on accountability and 
results.
    The measures can be broken down into these categories:
    <bullet> Water management/flows--management of system storage to 
provide a more natural river flow in the spring and summer during fish 
migration. We will implement flood control adjustments in order to 
further minimize risks to resident fish from salmon flows.
    <bullet> Juvenile fish transportation--continued collection and 
transportation of fish downriver in barges to avoid mortality at 
projects and in reservoirs using a ``spread the risk'' approach and 
reduced reliance on trucking for fish transportation.
    <bullet> Improved juvenile fish passage--improved spill management 
and other actions at the projects designed to improve juvenile fish 
survival as they pass the dams. The FCRPS was derated as a result of 
the 1995 NMFS Biological Opinion in order to spill water for fish. The 
spill agreements in the new draft Biological Opinions will not result 
in a significant additional derating.
    <bullet> Adult passage and research--configuration and research 
activities to improve adult passage survival.
    <bullet> Water quality--actions to improve total dissolved gas 
levels and water temperature within the mainstem to improve fish 
condition.
    <bullet> Mainstem habitat--design and implementation of an 
experimental program to improve mainstem habitat.
    <bullet> Predation measures--operations and/or active management of 
salmonid predators in the mainstem.
    <bullet> Sturgeon and bull trout--flow and other measures to 
contribute to recovery of resident fish.
    Running a parallel track to this aggressive strategy--and the other 
habitat, harvest, and hatchery improvements contemplated in the 
Basinwide Recovery Strategy--would be a commitment from the hydropower 
operators to annual and 5-year planning and to rigorous evaluation of 
progress being made toward fish recovery.
    The measures we are currently taking will not, by themselves, be 
enough. Actions must be taken across all the ``H's'' in order for the 
region to meet recovery goals. Recent ocean conditions and adult salmon 
returns are also encouraging. The tally of adult spring chinook at 
Bonneville Dam is the highest since the dam was built in 1938.
    Performance standards will play a pivotal role to assure we are 
achieving real results. They will be used to determine the success of 
our proposed hydropower actions and the success of actions in the other 
H's as well.
                         performance standards
    Bonneville has been a continuing advocate for performance standards 
for salmon recovery. We believe that scientifically sound performance 
standards are the most reliable way to achieve improved survival in 
each salmon life stage. A recovery plan based on achievable performance 
standards will be more durable in the long term. The hydro operators 
worked closely with NMFS and USFWS as well as the Administration on 
performance standards for the FCRPS that were included in the draft 
Biological Opinions.
    Performance standards are scientifically-based, describing the 
contribution needed at each life-history stage in order to achieve 
overall biological goals and objectives for recovering the fish. 
Habitat and hatcheries are important at the egg and smolt-life stage. 
Hydro and harvest come more into play in the juvenile and adult life 
stages. By looking at the contribution from each life-history stage, we 
are also able to assign scientifically-based standards to individual 
H's to achieve.
    Performance standards provide increased flexibility to tradeoff 
among the ``H's,'' which in turn makes the plan more implementable. For 
instance, Bonneville and the other operating agencies can fund habitat 
improvements that would not otherwise occur as ``offsite mitigation''--
to help meet overall performance standards. A performance standard that 
specifies improvements at each dam could equate to the overall survival 
rate projected for breaching the four Lower Snake River dams. This 
would result in survival rates for listed stocks in both the Snake and 
Columbia Rivers that are higher than we have achieved today.
    Performance standards could also serve as the yardstick against 
which we judge whether more aggressive recovery efforts are needed in 
the future. On the other hand, Bonneville believes that, if reasonable 
performance standards are set and achieved in each of the four ``H's,'' 
prospects are good that the stocks could recover without breaching the 
four Lower Snake River dams.
    That said, we must remember that the science still presents us with 
a significant range of uncertainty about which measures will best 
recover the stocks. Performance standards must be based on the best 
scientific judgment, in the face of these huge uncertainties. However, 
in setting standards based on judgments that are to a significant 
extent qualitative, we must be prepared to alter course if further 
research indicates our assumptions are flawed. The performance 
standards incorporated in the draft NMFS Biological Opinion attempt to 
reflect a range of assumptions about some key uncertainties. We look 
forward to continuing to work with NMFS and the region to further 
refine this work.
                     partnerships within the region
    There are many Federal, regional, and tribal government entities 
with a part in upcoming decisions about fish recovery: Federal agencies 
concerned with anadromous fish and those concerned with resident fish, 
Indian tribes, Federal hydro operators, non-Federal dam owners, the 
Council appointed by the four State Governors, and Federal land use 
agencies, to name a few. For a plan to work, it must bring together the 
efforts of all of the government agencies that are working on the 
Endangered Species Act (ESA) with the Council's Fish and Wildlife 
Program amendment process, as well as the tribal planning of the 13 
Columbia River Basin Tribes. It must bring together plans to recover 
all of the 12 listed salmon and steelhead stocks as well as resident 
species in the Columbia River Basin.
    At the Federal level, Bonneville and eight other Federal action 
agencies [the Corps and Reclamation, as well as the NMFS, USFWS, the 
U.S. Forest Service, the Bureau of Land Management, the Bureau of 
Indian Affairs, and the Environmental Protection Agency] have been 
working together to describe a common approach to salmon, steelhead, 
and resident fish recovery in the ``Basinwide Recovery Strategy.'' This 
coordination of Federal actions and proposals is unprecedented in the 
Columbia River Basin.
    Of course, we recognize that Federal efforts alone are not enough. 
The States and the 13 tribes have important stakes in fish recovery, 
too. While Bonneville may be a significant funding source for regional 
salmon recovery, the science shows that hydro is only one of the four 
H's that must be addressed in order to recover the fish. There will be 
a number of other Federal funding components and contributions from 
local and State governments that must be part of a regional plan for 
recovering species. This must be a true and lasting partnership among 
all those with a stake in the region's future.
    An important part of our coordination with the region is 
Bonneville's close working relationship with the Council. Habitat, 
hatchery, and subbasin planning actions are the most promising areas 
for enhanced regional cooperation with the Council's Fish and Wildlife 
Program.
    The Council has proposed to use a subbasin planning approach as a 
framework for its upcoming Fish and Wildlife Program amendment process. 
Bonneville is very supportive of that approach, and we are encouraging 
active links between the habitat approach in the Basinwide Recovery 
Strategy and the Council's Program. Federal agencies and the Council 
staff are currently exploring several ways to make that happen. These 
include:
    (1) common templates for subbasin (tributary) assessments and 
plans;
    (2) common criteria for immediate actions designed to jump start 
recovery while planning is underway;
    (3) common approaches to enhance estuary and mainstream habitat;
    (4) common use of the Ecosystem Diagnosis and Treatment (EDT) 
methodology that the Council has undertaken; and
    (5) common use of independent science reviews.
    Hatchery reforms are also a common interest. The Council's 
Artificial Production Review identified key hatchery actions and 
criteria for reforms that must be coordinated into any regional 
approach to recover the fish.
    The goal of these efforts is to have the Council's program bring 
unified regional direction for our basin-wide habitat and hatchery 
efforts--as well as for our funding priorities. If we are successful in 
coordinating our approaches, any habitat and/or hatchery measures in 
the Biological Opinions which Bonneville funds will be consistent and 
complementary with those that Bonneville funds under the Council's Fish 
and Wildlife Program.
                               conclusion
    Mr. Chairman, Bonneville is committed to action in the hydropower 
system that is needed to recover the fish. Today, I have described some 
of the essential elements for successful fish recovery in the Columbia 
River Basin as we move ahead with Biological Opinions for the 
hydropower system and the Basinwide Recovery Strategy. I want to re-
emphasize that the unprecedented coordination among Federal agencies 
and the strong partnerships we are building with other governments and 
Northwest citizens is fundamental to our success.
    In closing, I would like to highlight the fact that the effort to 
recover endangered salmon and steelhead in the Pacific Northwest is 
different from virtually every other ESA effort in one important 
aspect. It is different because most of it is funded, not by taxpayers, 
but by Bonneville's customers and ratepayers. We take this 
responsibility seriously. As Bonneville has told this subcommittee in 
the past, Bonneville is committed to implement and fund our share of a 
regional fish and wildlife plan. We have positioned ourselves 
financially to perform on that commitment.
    Mr. Chairman, thank you for your attention. I welcome any questions 
you may have about Bonneville's fish recovery measures.
                               __________
Statement of David Cottingham, Special Assistant to the Director, Fish 
            and Wildlife Service, Department of the Interior
    Good morning Mr. Chairman. I am David Cottingham, Special Assistant 
to the Director of the U.S. Fish and Wildlife Service. I appreciate 
this opportunity to present testimony on behalf of the Service 
regarding the status of the biological opinions on the operations of 
the Federal hydropower system of the Columbia River.
    The Service is conducting a consultation on the operations of 
federally-owned hydropower facilities on the Columbia, Snake, 
Clearwater, and Kootenai Rivers in the Columbia River Basin of the 
Pacific Northwest. We are consulting with the following action 
agencies: the U.S. Army Corps of Engineers, the Bonneville Power 
Administration, and the Bureau of Reclamation. At issue are the effects 
of operating the Federal Columbia River Power System (FCRPS) on the 
endangered Kootenai River sturgeon, threatened bull trout, and, to a 
limited degree, the threatened bald eagle.
    The Service received two Biological Assessments from the action 
agencies in June 1999 and in December 1999. Those documents described 
the operations proposed for the Federal hydropower facilities. Since 
that time we have been working closely with the action agencies and the 
National Marine Fisheries Service (NMFS) to complete this consultation. 
Several coordination meetings were held in the spring of 2000 between 
representatives of the action agencies, the Service and NMFS. We shared 
a preliminary draft biological opinion with these agencies in May 2000. 
Comments on the preliminary draft opinion were received in June 2000. 
The draft opinion was released to States and tribes for comment on July 
27, 2000.
    Throughout this process, an emphasis has been placed on discussion 
of key issues, including minimization of adverse effects to sturgeon 
and bull trout from the FCRPS operations in the Upper Columbia River. 
Our draft opinion requests adjustments to the operations and ramping 
rates at Hungry Horse, Libby, and Albeni Falls dams. We are also asking 
the Army Corps of Engineers to continue to study alternative pool 
elevations at Albeni Falls to increase Kootenai River sturgeon spawning 
for bull trout food source. The draft opinion also addresses actions at 
Libby Dam to allow increased flows to achieve flow objectives for 
sturgeon, while controlling additional total dissolved gas.
    The Service has worked closely with NMFS throughout this process to 
ensure that the FCRPS operations to benefit sturgeon and bull trout do 
not conflict with those for salmon or steelhead.
    The current schedule includes receiving comments on the ``All H'' 
paper (hydropower, hatcheries, habitat and harvest issues), and the 
draft opinions of the Service and the NMFS in late September 2000. 
These documents are now available for review by States, tribes, and 
other affected entities. We will then complete the opinion and 
accompanying documents as quickly as possible.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you and members of the committee may have.
                               __________
Statement of J. William McDonald, Regional Director, Pacific Northwest 
        Region Bureau of Reclamation, Department of the Interior
    Mr. Chairman and members of the subcommittee. I am Bill McDonald, 
Regional Director of Reclamation's Pacific Northwest (PN) region. I 
appreciate your invitation to testify concerning the draft biological 
opinions issued in July 2000 by the National Marine Fisheries Service 
(NMFS) and the U.S. Fish and Wildlife Service on the operation of the 
Federal Columbia River Power System (FCRPS) and the Federal Caucus 
Draft Basinwide Salmon Recovery Strategy.
    The Bureau of Reclamation (Reclamation) is responsible for the 
operation of 2 of the 14 Federal hydropower facilities of the FCRPS 
that are the subject of these consultations. Reclamation's FCRPS 
facilities are Hungry Horse Dam and Powerplant in Montana and Grand 
Coulee Dam and Powerplant in Washington. In addition to its two FCRPS 
projects, Reclamation operates and maintains 29 other projects in the 
Columbia River Basin, some of which include power plants and/or provide 
local flood control benefits but which are not operated or coordinated 
as part of the FCRPS. All 31 Reclamation projects are authorized to 
provide water for irrigated agriculture.
    Reclamation is one of the three Federal action agencies that will 
be directly affected by the biological opinions. Reclamation also is 
participating with eight other Federal agencies in the development of 
the Basinwide Salmon Recovery Strategy, a conceptual multispecies 
recovery plan. The scientific underpinnings of the conceptual recovery 
plan provided the basis of NMFS' draft biological opinion on the 
operation of the FCRPS and Reclamation's projects. I will limit my 
remarks to actions Reclamation is called upon to take in the draft 
biological opinions.
    The NMFS draft biological opinion calls upon Reclamation to take 
certain actions as part of a reasonable and prudent alternative (RPA) 
to avoid jeopardy to salmon and steelhead. These actions can generally 
be grouped in three categories:
    (1) modification of FCRPS reservoir operations,
    (2) water acquisitions for instream flow augmentation, and
    (3) offsite mitigation for tributary habitat improvements. The FWS 
draft biological opinion also calls for certain FCRPS reservoir 
operation modifications.
    Proposed actions in the RPA would require Reclamation to change its 
reservoir operations, primarily at Hungry Horse and Grand Coulee. 
Storage from Hungry Horse Reservoir and Lake Roosevelt (which is 
impounded by Grand Coulee Dam) would be utilized as primary sources of 
flow augmentation water to improve conditions for migrating salmon and 
steelhead in the lower reaches of the Columbia River. In particular, 
Lake Roosevelt, as the largest water storage reservoir in the Columbia 
River system, is called upon to provide a significant amount of the 
water for flow augmentation. Storage at Hungry Horse Reservoir would 
also be utilized to increase minimum flows below the dam to improve 
instream conditions for bull trout as called for by the FWS draft 
biological opinion.
    The purpose of the proposed operational modifications in the NMFS 
RPA is to secure seasonal water to help meet flow targets for several 
listed species of migrating adult and juvenile salmon at downstream 
locations on the Columbia River. The operational modifications at 
Hungry Horse and Grand Coulee will change the timing of water storage, 
reservoir drawdown levels, and the scheduling of water releases as 
compared to historic reservoir operations. The scheduling changes will 
require that accommodations be made throughout the system to meet 
demands for power production and flood control; consequently, system-
wide operational modifications are built into the RPA to accommodate 
these needs.
    Although the operational modifications can be accommodated on a 
system-wide basis, there will be localized impacts. Among the impacts 
is a deeper drawdown of Lake Roosevelt surface elevations during July 
and August of low flow years. The RPA also calls for additional drafts 
at Banks Lake (an off-stream storage reservoir that delivers irrigation 
water to the Columbia Basin Project). Reclamation has not yet initiated 
the studies needed to assess the extent of the impacts or to determine 
appropriate mitigation actions.
    The proposed RPA also directs Reclamation to continue flow 
augmentation in the lower Snake River by providing water from its 
storage facilities in the upper Snake River basin by annually providing 
427,000 acre feet of water from its storage facilities in the upper 
Snake River basin from willing sellers consistent with State water law. 
NMFS' 1995 FCRPS Biological Opinion likewise called on Reclamation to 
provide 427,000 acre-feet of water annually from the upper Snake River. 
The water was to be obtained in accordance with State water law and 
from willing sellers. Reclamation has, in fact, provided that water 
every year since 1993 by working with the State of Idaho to release 
augmentation flow water from uncontracted storage space, through leases 
from the State water bank, and through purchased (or buy-back) of 
contracted storage space.
    In addition, the draft NMFS biological opinion proposes that 
Reclamation will undertake ``offsite mitigation'' actions by addressing 
instream habitat issues in 16 of the Columbia Basin's 53 subbasins, 
many of which do not have an authorized Reclamation project. The RPA 
action calls for screening diversions, removing or modifying instream 
barriers to fish migration, and acquiring water for instream flows. 
While Reclamation has successfully provided fish migration benefits in 
the Umatilla and Yakima River basins where we have site-specific 
authority, we need additional authority to construct or fund 
construction of such facilities at non-Reclamation projects on a 
broader scale. We look forward to working with the Congress, the 
Northwest States, Columbia River Basin Indian Tribes, on this and other 
related programs.
    Mr. Chairman, that concludes my testimony.

 
COLUMBIA RIVER POWER SYSTEM: BIOLOGICAL OPINION AND THE DRAFT BASINWIDE 
                        SALMON RECOVERY STRATEGY

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2000

                                       U.S. Senate,
               Committee on Environment and Public Works,  
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to recess, at 1:05 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senator Crapo.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. This hearing will come to order.
    I thank you ladies and gentleman for appearing today for 
the second day of this subcommittee's hearing to examine the 
draft biological opinion and the draft recovery strategy for 
anadromous fish.
    If I could summarize the testimony that we heard yesterday, 
to me it is that these Federal documents are deficient, both in 
terms of the process used to develop them, and the products, 
themselves. The representatives from the Federal Caucus even 
admitted that there were certain deficiencies that they hoped 
to correct before the biological opinion becomes final within 
the next few months.
    As I see it, this draft biological opinion appears to be an 
incremental creeping policy initiative that will not solve the 
problem with the fish, but, instead, will steadily erode State 
and tribal sovereignty. This document must be improved before 
it becomes final, and I urge the Federal Caucus to use the next 
few months wisely to work more collaboratively with the region 
and to get this right.
    Today's witnesses will offer us a detailed examination of 
how these draft documents came about and how they can be 
improved. As I have said, we will have more hearings in the 
future, including field hearings in the Pacific Northwest, 
where we will hear from many more interests and individuals, 
and I intend to include the technical Federal representatives 
at that time for a further, more in-depth discussion of these 
proposals.
    It is very clear that not everyone who wanted to testify 
was able to be here during these 2 days of hearings. We will 
make sure that everyone has an opportunity to be fully heard on 
these issues as we proceed.
    As I did yesterday, I will again remind the witnesses that 
we have a 5-minute rule for the oral testimony presentation, 
and we encourage you to, as strictly as you can, follow that. 
The green light will be on for 4 minutes. The yellow light will 
be on when 1 minute remains. And then the red light means that 
the time has expired and we encourage you to wrap up your 
thought at that point.
    As I usually say at these hearings, it is very likely that 
you won't be finished saying what it is that you wanted to say 
when the red light goes on, and I encourage you to recognize 
that we have your written testimony and it will be carefully 
reviewed and there will be an opportunity for questions and 
answers where you will be able to add more elaboration to 
comments that you may not have been able to make in your oral 
presentation. We encourage you to pay attention to the lights.
    I also often usually say, if you are like me and sometimes 
forget to watch the lights and you start going over too long, 
I'll rap the gavel a little bit just to remind you that it is 
time to wrap up.
    We would like to begin with the first panel. The first 
panel consists of: Mr. Nick Bouwes of the Oregon Department of 
Fish and Wildlife; Mr. Ed Bowles of the Idaho Department of 
Fish and Game; Mr. Keith Kutchins, the Shoshone-Bannock Tribes; 
and Mr. Earl Weber of the Columbia River's Inter-Tribal Fish 
Commission.
    Gentlemen, we welcome you with us today. We will go in the 
order that I announced your names. I guess we'll start over 
here with Mr. Bouwes. Please feel free to proceed.

 STATEMENT OF NICK BOUWES, BIOMETRICIAN, OREGON DEPARTMENT OF 
                FISH AND WILDLIFE, PORTLAND, OR

    Mr. Bouwes. Thank you, Mr. Chairman. My name is Nick 
Bouwes, and I am representing the Oregon Department of Fish and 
Wildlife. I'm a fish population analyst that has worked on the 
regional collaborative process known as PATH, intended to 
provide the scientific support for the operation of the Federal 
Columbia River power system, to be described in NMFS' 1999 
biological opinion.
    As you know, the biological opinion was delayed until this 
year. During this 1-year delay, NMFS has established within 
their agency a new analytical approach, the cumulative risk 
initiative, or CRI.
    My comments today are directed toward the analytical 
components of the draft biological opinion, which now relies 
solely on this new CRI process for listed Snake River stocks.
    The Oregon Department of Fish and Wildlife is concerned 
that the biological opinion underestimates the true risk to 
these stocks. First off, we believe NMFS has set the standard 
too low of what constitutes a risk of extinction. NMFS defines 
extinction of a population as ``one fish returning over a 5-
year period.'' In reality, populations are effectively extinct 
at much greater spawner numbers. As a population becomes small, 
whole hosts of problems occur, such as spawners are unable to 
find a mate or the occurrence of in-breeding, and the 
population enters what is termed an ``extinction vortex.''
    NMFS is fully aware of this threshold and has developed a 
framework that describes the minimum viable salmonid 
population, which they term VSP. If any other alternative 
thresholds evaluated by NMFS were used, risk to these stocks 
would be much greater.
    Also, the draft biological opinion assumes mortality due to 
the dams and reservoirs on migrating juvenile salmon only occur 
in the hydrosystem. It is reasonable to expect that young 
salmon die after the stressful experience of passing through 
eight dams and migrating through eight slow-water reservoirs. 
This stress will decrease their ability to forage efficiently, 
avoid predators, and fight diseases, and to cope with the 
transition from fresh water to salt water.
    This mortality that happens outside the hydrosystem, but 
occurs only because of a fish's experience in the hydrosystem 
is termed ``delayed mortality.'' Direct evidence indicates it 
exists, and indirect evidence suggests that it is substantial. 
The draft biological opinion assumes it does not exist.
    These are just some of the assumptions NMFS has chosen to 
describe an optimistic view of the risk to these stocks. What 
is the result of not adequately capturing the risk to these 
stocks? Well, this means the bar has been set too low, and, 
therefore, mitigation responsibilities to clear that bar or to 
ensure the survival of these stocks is much less than is truly 
needed.
    The result is NMFS' analysis suggests that only a 20- to 
30-percent survival improvement for Snake River spring/summer 
chinook is needed to ensure the survival of these stocks in 24 
years, in contrast to the greater than 280 percent increase 
estimated by PATH, an order of magnitude difference.
    Also, we believe expected survival improvements from NMFS' 
proposed management action, or the RPA, is too optimistic. The 
expected improvement in juvenile survival is optimistic because 
it is based on recent well-above-average run-off years. The 
biological opinion assumes this improvement equates to recent 
improvements in the hydrosystem that will be realized forever.
    The RPA is assumed to reduce adult losses in the river by 
25 percent. This large benefit is not supported by any 
information or analysis.
    Any other survival improvements needed to avoid jeopardy is 
assumed to occur from offsite mitigation that is also not 
supported by data or any analysis of feasible improvements. It 
is simply assumed possible.
    As I think other panel members will testify, it is unlikely 
that these actions will have an immediate impact in the Snake 
River stock.
    The perilous state of ESA stocks is real. Last year, in two 
of the Snake River spring/summer chinook indicators stocks that 
spawn in wilderness areas, zero fish returned. We may have 
already lost Snake River sockeye, and coho have gone extinct in 
the Snake River Basin since efforts have been made to mitigate 
for Snake River dams.
    In our opinion, the draft biological opinion does not use 
the best available scientific information to determine the 
management actions most likely to recover listed stocks. The 
determination of no jeopardy was based only on the most 
optimistic assumptions about the risk to these stock and 
survival improvements expected under the RPA.
    Assumptions were not chosen by the weight of evidence, nor 
in the absence of evidence were they conservative, i.e., they 
don't avoid placing undue risk on listed stocks.
    Finally, we do not believe the biological opinion 
adequately anticipates and has prepared an alternative action 
that can be immediately implemented if, at the end of the 
interim period, the current RPA has failed.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Bouwes.
    Mr. Bowles.

    STATEMENT OF ED BOWLES, ANADROMOUS FISH MANAGER, IDAHO 
             DEPARTMENT OF FISH AND GAME, BOISE, ID

    Mr. Bowles. Thank you, Mr. Chairman. My name is Ed Bowles. 
I am the anadromous fish manager for Idaho Department of Fish 
and Game. I appreciate the opportunity to testify on the draft 
hydrosystem BIOP and recovery strategy. These Federal documents 
will dictate recovery efforts, and thus profoundly affect the 
very existence and future of wild salmon and steelhead in the 
Snake River Basin.
    In my professional judgment, the current Federal approach 
is destined for failure on several fronts.
    First, its characterization of extinction risks and 
conservation opportunities is not scientifically defensible.
    Second, too much of the hydrosystem's conservation burden 
is shifted to other sectors which are unable to shoulder this 
burden.
    Third, specific actions and their feasibility of adding up 
to recovery are not identified.
    Fourth, a check point system is established that basically 
leaves the breach decision up to the whims of nature.
    This is a recipe for failure, with significant ecological, 
social, and economic consequences.
    In the midst of all the debate on Snake River fish, it is 
easy to lose sight of what is not disputed. There is general 
agreement that runs in the 1960's were sustainable and 
relatively stable; that fish declined rapidly following 
completion of the main stem dams; that dams played a 
significant role in this decline; that stocks are still 
imperiled; that smolt transportation and flow augmentation have 
been the centerpiece of efforts to compensate for the dams; and 
that the overall downward trend has not reversed, although 
there have been welcome pauses during favorable environmental 
conditions.
    So the dams were a significant factor in the decline of the 
fish, and management actions have failed to reverse this 
decline. Based on these facts, the obvious conclusion is that 
smolt transportation, flow augmentation, and other measures 
failed to fix the problem.
    To conclude otherwise, there has to be compelling evidence 
that the benefits are real, but other recent factors mask these 
benefits. This is the key science question.
    As detailed in my written testimony, the weight of 
scientific evidence does not indicate the dams have been fixed 
but the benefits masked.
    NMFS has failed to scientifically counter this block of 
evidence, failed to demonstrate the evidence supporting their 
view, nor allowed additional collaborative analysis.
    All the salmon managers in the basin except NMFS believe 
the hydrosystem is still the primary problem and should be the 
focus of recovery efforts.
    In spite of this information, the draft BIOP and recovery 
strategy represents a fundamental shift to a diminished role of 
the main stem hydrosystem and a heightened role of habitat, 
hatcheries, and flow augmentation. Conservation opportunities 
and the other H's cannot make up for the impacts of the main 
stem hydrosystem. The numbers simply do not add up.
    This is not to say that tributary and estuary habitat 
improvement, predator control, selective fisheries and 
conservation hatcheries are not important. In fact, their 
importance increases the closer our fish get to extinction, but 
the conservation burden of those sectors must be kept in 
perspective.
    To be scientifically defensible, the BIOP needs to be 
corrected. The BIOP uses a series of optimistic assumptions, 
resulting in less risk of extinction. This results in 
relatively little survival improvement required to avoid 
jeopardy.
    In spite of these optimistic assumptions, the hydrosystem 
measures in the BIOP just barely avoid jeopardy for some stocks 
and fail to avoid jeopardy for others; thus, the shift to other 
H's to make up the difference. In other words, all the key 
optimistic assumptions have to be true just to get to no 
jeopardy. Even if one is wrong, the house of cards falls. 
Nearly all of theses assumptions are questioned by State, 
tribal, and Fish and Wildlife Service fisheries scientists.
    The weaknesses of the Federal documents can be easily 
corrected, but only through scientific collaboration, which is 
currently lacking. Collaboration will focus the BIOP back on 
the hydrosystem and allow managers to pursue the best possible 
measures within established policy constraints.
    If the breach decision is deferred, the Governors' 
recommendations do a better job of keeping the primary sources 
of discretionary mortality in focus, and embracing a conceptual 
approach to attempt to address these problems prior to 
breaching dams.
    As described by Governor Kempthorne yesterday, these 
actions should include immediate reduction of predators in the 
estuaries, more spill at main stem dams, better bypass systems, 
improved turbine design, more flexible flood control 
operations, and more-
selective fishing techniques.
    We have the bookends fairly well defined for what is 
possible under current dam configurations and operations. When 
environmental conditions favor the fish, the fish can hold 
their own and even rebuild slightly. When nature throws a 
curve, the fish slip rapidly toward extinction. On average, the 
trend is downward.
    We are currently seeing the benefits of high natural runoff
coupled with good ocean conditions. This has provided a welcome 
respite the fish desperately needed. As long as these 
conditions persist, I believe there may be time to pursue truly 
aggressive non-breach alternatives built on the foundation of 
the Governors' recommendations. If environmental conditions 
deteriorate, decision-makers should be ready for emergency 
actions, including reconsideration of the natural river option.
    The draft hydrosystem BIOP and recovery strategy are not 
currently constructive in this effort, but they can be. If the 
scientific errors and omissions are corrected through 
collaboration, the conservation burden refocused on the 
hydrosystem, and truly aggressive actions put in place within 
all the appropriate sectors, then I believe the BIOP and 
recovery strategy can be better set up for success.
    Thank you.
    Senator Crapo. Thank you, Mr. Bowles.
    Mr. Kutchins.

    STATEMENT OF KEITH KUTCHINS, ANADROMOUS FISH BIOLOGIST, 
  SHOSHONE-BANNOCK TRIBES, FISHERIES DEPARTMENT, FT. HALL, ID

    Mr. Kutchins. Good afternoon, Mr. Chairman. My name is 
Keith Kutchins, anadromous fisheries biologist for the 
Shoshone-Bannock Tribes.
    I have reviewed the draft documents and am deeply concerned 
that they fail to rely on the simple scientific facts that are 
evident to a vast array of scientists. The simple science of 
observing salmon Redds and juvenile fish densities show that 
the listed Snake River spring/summer chinook and steelhead 
populations continue on a downward path.
    The Shoshone-Bannock Tribes are very concerned that the 
NMFS concludes there have been improvements to the hydrosystem 
in the past 5 years. Why aren't we seeing any results of those 
improvements in the Salmon River?
    I spend many weeks of each year working in the river. We 
repeatedly invite NMFS staff and decisionmakers to visit the 
headwaters, but they have yet to join us. They are not intimate 
with the waters they are making decisions on.
    The egg-to-smolt survival rates in these headwaters have 
not decreased in the past 25 years; however, the smolt-to-adult 
survival rates have plunged dramatically. Computer models are 
misused when they deny these simple observations.
    The NMFS is wrong when they conclude that the greatest 
opportunities for survival improvements of listed Snake River 
salmon may hinge on efforts to restore the health of the Snake 
River tributaries. I am not denying there are problems in these 
tributaries. For example, we've repeatedly reported dewaterings 
in the Lemhi River and other smaller tributaries as violations 
of the ESA. However, fixing these problems might only be enough 
to stop the declines of listed fish and will not recover the 
runs.
    Ocean conditions have recently improved, but only ocean 
harvest rates are within the immediate control of man.
    Harvest rates that exceed 10 percent on under-escaped runs 
of Snake River fall chinook and steelhead are inconsistent with 
conservation principles applied to other stocks.
    The NMFS is wrong to conclude that the only roles for 
hatcheries are to prevent negative effects on wild fish and to 
conserve wild fish. Yes, these are good roles for hatcheries, 
but another very important role of hatcheries is to recover 
listed fish populations.
    The NMFS is wrong to use genetics as the over-riding factor 
to impeded tribal supplementation actions. The NMFS needs to 
incorporate the use of hatcheries to recover listed populations 
rather than only using hatcheries as a conservation tool to 
prevent extinction.
    This year, many Salmon River spring and summer chinook 
returned to the Rapid River and South Fork Salmon River 
Hatcheries, and sports harvests occurred alongside treaty 
fisheries directly below those hatcheries. Thousands of surplus 
hatchery salmon were trapped at the hatcheries and trucked back 
down multiple times so that the fish could swim through the 
fisheries over and over again in order to increase their 
chances of being caught. The ``biologists'' used the fishermen 
to club these fish, wasting hundreds of thousands of viable and 
valuable eggs. The Shoshone-Bannock Tribes objected to this 
recycling and proposed that these surplus fish instead be 
transplanted into other Salmon River areas to spawn.
    However, the NMFS determined that these surplus Salmon 
River fish were genetically unfit to be used in other Salmon 
River areas. The NMFS theories on salmon genetics prevent using 
abundant, available, and appropriate donor brood stocks from 
being used to recover listed fish.
    I have already provided some detail in my written testimony 
that explains our concerns about the new and seemingly ever-
changing science that the NMFS is now using for the 
hydrosystem.
    The settlement of the Idaho v. NMFS lawsuit established a 
robust scientific process called PATH in order to continue the 
efforts to resolve uncertainties that remained in 1995. 
Yesterday, we heard that PATH was recently replaced because the 
uncertainties in the PATH assumptions are not going to be 
resolved.
    The CRI is even less robust and more uncertain than the 
PATH, plus, the CRI is not a product of a legal settlement. The 
newly proposed BIOP does not define what we are measuring in 
order to determine in 5, 8, or 10 years if there has been a 
change in the jeopardy or how we will determine if the 
reasonable and prudent alternative is succeeding in recovering 
the listed fish.
    The new BIOP and recovery strategies call for breaching the 
four lower Snake River dams and should also recommend an 
immediate moratorium on any non-breaching capital investments 
of those four dams, because those expenditures will end up 
being wasted.
    The Shoshone-Bannock Tribes stated this many years and 
several hundreds of millions dollars ago. Those dollars have 
failed to reverse the decline of the listed Snake River fish.
    We hear that barging smolts results in 97 percent survival 
through the hydrosystem. This estimate does not include the 
potentially high delayed mortality rates. There has yet to be a 
transportation to in-river survival benefit ratio test that 
compares transportation to in-river survival. The tests have 
only compared transportation to in-reservoir and through-dams 
survival, which greatly underestimates a truly in-river 
survival rate.
    The Shoshone-Bannock Tribes believe in ecosystem-based 
approaches to salmon recovery in the Columbia River Basin. What 
is done for one native species should not hurt another native 
species.
    In summary, the PATH concluded that the benefits from 
breaching the four lower Snake River dams are more certain than 
non-breaching alternatives. The NMFS has boldly rejected that 
science and concludes there is significant uncertainty with 
breaching the four lower Snake River dams.
    I do not believe that this change is adaptive management, 
but instead reflects a serious flaw in the scientific process. 
My suspensions are piqued because of repeated NMFS opinions and 
actions that do what is politically feasible rather than doing 
what the fish need. To the best of my knowledge, the NMFS does 
not have any mandate to do what is politically feasible. With 
all due respect, it is my understanding that doing what is 
politically feasible is a congressional duty.
    Thank you, Chairman Crapo and the subcommittee, for letting 
us testify.
    Senator Crapo. Thank you, Mr. Kutchins.
    Mr. Weber.

 STATEMENT OF EARL WEBER, FISHERIES SCIENTIST, COLUMBIA RIVER 
           INTER-TRIBAL FISH COMMISSION, PORTLAND, OR

    Mr. Weber. Thank you, Mr. Chairman.
    My name is Earl Weber. I am a fisheries scientist with the 
Columbia River Inter-Tribal Fish Commission. I was the lead 
scientists for the tribes on PATH until it was recently 
mothballed.
    I want to start by sharing my concerns, particularly from 
the analytical point of view, with the NMFS process, but I 
don't want to dwell on model outputs because it has been our 
experience that the CRI model would behave similar to the PATH 
model given similar input assumptions.
    I want to discuss today, particularly, what I consider the 
two fundamental assumptions that are the mainstays of the 
current BIOP. One is that transportation is mitigating for or 
is capable of mitigating for the hydropower losses, and the 
second one is that substantial increases in the other H's are 
possible.
    Let me begin with transportation. There is no dispute that 
transported fish are surviving at levels well below that needed 
to sustain survival. I have blown up here a graphic from my 
testimony that shows that survival of transported wild spring/
summer chinook salmon from Lower Granite Dam back to Lower 
Granite Dam--it's called smolt-to-adult returns. The graphic 
shows different kinds of tagging types, and also shows a 2- to 
6-percent goal established by PATH. Notice that the survival 
rarely, if ever, meets the lowest part of the goal. The solid 
circles going along the right side of the axis, kind of 
bouncing along the X axis, are from PIT tag data.
    For those 9 years, the latest 9 years for which we have PIT 
tag data, the fish survived, on average, at less than a half a 
percent. In other words, they would need a fourfold increase to 
meet the lower survival goal. That is approximately an 
eightfold increase needed to reach the recovery goal.
    Now, we in PATH allowed for the fact that there could be 
some alternative explanation masking what would otherwise be a 
successful transportation program. That's not a problem. The 
problem is that, to date, in the past 5 years, no one has been 
able to describe a biological mechanism that would explain why 
Snake River fish collapsed while down-river stocks continued to 
maintain healthy runs.
    NMFS will point to genetic differences or ocean cycles. 
First of all, the genetic differences are slight, and I think 
they depend on whether you are a ``splitter'' or a ``lumper'' 
or whether you could say there's genetic differences at all. 
But, more importantly, genetic differences do not kill the 
fish. What kills fish is starvation, predation, or disease.
    I think it is important to note that both the Snake River 
stocks and the downriver controls occupy the same ocean areas, 
roughly from northern California to the Gulf of Alaska. There 
they feed on basically upwelling gyres that bring nutrient-rich 
water to the surface and provide a food base. These fish, both 
stocks, up-river and downriver stocks, or substocks, have been 
doing this since they speciated approximately 12 million years 
ago.
    I believe it is unrealistic to assume that suddenly in the 
1960's and 1970's, as the dams were built, that the Snake River 
stock suddenly became unable to find food, whereas the 
downriver stocks continued to be able to.
    It is equally unlikely that after 12 million years the 
Snake River stocks encountered some kind of previously 
unencountered predator and the lower river stocks did not.
    A third, disease, is likely. In fact, NMFS published a 
report in 1989 linking the decrease in survival with injury and 
stress due to collection transportation and BKD--bacterial 
kidney disease--which is ever present.
    If NMFS now thinks that there is a more robust hypothesis, 
they should share it.
    I don't mean to say that there are no such things as ocean 
cycles, but if there were ocean cycles that are causing these 
declines, it should be simple for scientists to look back in 
the record and see if we've experienced these declines in the 
past. We hav looked at that, and they haven't.
    With regard to the other H's, let me briefly say that there 
is certainly room for improvement in habitat in the Snake River 
Basin, but there is also pristine habitat in Marsh Creek and 
Sulfur Creek, both of which have had zero returns in recent 
years.
    There are no hatcheries in four of the seven Snake River 
indicator stocks, including Marsh Creek and Sulfur Creek. 
Obviously, poor hatchery management is not the cause of the 
declines.
    Harvest rates are very low. I think everyone is in 
agreement that harvest will not recover these stocks.
    Just by way of a brief conclusion, I think that it is safe 
to say that we in PATH would not have come to the conclusions 
we came to without some pretty hard evidence, and I think that 
there is also very good reasons why the ISG called their 
report, ``Return to the River.''
    Finally, there is good reasons why the Idaho chapter of the 
American Fisheries Society, the Oregon chapter of the American 
Fisheries Society, as well as the western division of the 
American Fisheries Society, have all passed resolutions calling 
for breaching.
    With that, I will thank you and look forward to any 
questions you have.
    Senator Crapo. Thank you very much, Mr. Weber.
    Mr. Bowles, since you are from Idaho, I guess you get 
either the benefit or the burden of the first rounds of 
questions. I'm going to start with you.
    Could you tell me whether there has been collaboration 
between your agency and the Federal Caucus agencies in the 
development of this biological opinion?
    Mr. Bowles. Mr. Chairman, they initially started out with 
what I consider a good model for collaboration after the IDFG 
v. NMFS decisions in the early 1990's, but since PATH was 
discontinued and we have a new analysis coming out that 
provides the main basis for the scientific foundation of these 
documents--it's called CRI--there has been very little 
scientific collaboration, and those efforts that we have taken 
to try to influence that analysis and provide our input have 
been not well received and not really a forum to do that.
    So the State of Idaho has tried on several occasions, both 
formally and informally, to have scientific meetings and 
others, and we really appreciate that effort, but they haven't 
provided much fruitage, because what we have right now is a 
situation where you have information put out on the web or 
reports put out or other things like that that we are there to 
comment on, but we aren't an integral part, us or the other 
State and tribal salmon managers, aren't a part of actually 
developing the methodologies and analyzing the results. We are 
basically there to critique, and that's not a healthy forum for 
collaborative analysis. It doesn't provide ownership and it 
doesn't make use of all of our collective expertise. Quite 
frankly, it runs risk then of institutional bias because we 
don't have the safety protections of a number of us all working 
together.
    Senator Crapo. Yesterday the Federal agencies--or NMFS, I 
believe it was--testified that since the fall of 1999 that they 
had a true collaborative process and effort underway. I would 
like to ask you sort of a bifurcated question, and I am going 
to ask each of the other members of the panel this same type of 
question, so please be thinking about this.
    It seems to me, if I recall correctly, that the fall of 
1999 is basically when they surfaced again at having scrapped 
the PATH model and developed the CRI model, and basically in 
secret, as I see it. I know that wasn't entirely in secret, but 
with very little collaboration.
    So the question I have for you is: am I right on my 
timeframes? From about somewhere in 1998 through about the fall 
of 1999, what was the situation like in terms of collaboration?
    Mr. Bowles. Prior to, as you characterize it, Mr. Chairman, 
as the resurfacing, there was no collaboration or any contact, 
so to speak, that I am aware of, but after that time then the 
collaboration was, I guess, NMFS' definition of collaboration, 
which is put the results on a web page and hold workshops of 
your results and let people see that and critique it, but not 
provide any opportunity to work together on both methodologies 
and analyses, which provide the foundation of the results.
    So you end up from the outside looking in trying to 
influence a process that has already, quite frankly, been 
largely completed. In my mind, that is not collaboration.
    Senator Crapo. Thank you.
    I just want to start with you, Mr. Bouwes, and then I'll 
just get to each of the other witnesses. I would like you to 
respond to the same issue. Do you feel that there has been 
collaboration between your agency or your interests and the 
Federal Caucus on the development of this draft biological 
opinion? What is your opinion of whatever collaborative efforts 
you are experiencing?
    Mr. Bouwes. I guess the way I would define collaboration is 
that we're all full and equal partners in evaluating the 
factors responsible for the decline of these stocks, and then 
evaluating the alternative management actions that would 
recover these stocks.
    That was what PATH was intended to be, so in that sense 
PATH was used in--we were a collaborator in PATH with National 
Marine Fisheries Service. However, with the cumulative risk 
initiative, using my definition of collaboration, I do not 
believe that we were considered partners, full and equal 
partners in that process.
    The initial process was developed and then they had a 
workshop in the fall of 1999, but it took about 8 months to get 
to that period.
    We were allowed to come to this workshop, but I remember I 
asked a question at this workshop and the response was, ``Well, 
we're not here to answer questions.'' To me, that's really not 
a definition of collaboration.
    We have tried to point out the deficiencies in their model. 
We have taken a very hard look at their model. To my knowledge, 
they've only incorporated a couple of minor fixes to their 
model, but the main problems that we have to the model have not 
been incorporated, so I would not consider that a 
collaborative--that we were in collaboration with National 
Marine Fisheries Service on the cumulative risk initiative. 
That's the only process for Snake River stocks that has been 
used in the biological opinion.
    Senator Crapo. Thank you.
    Mr. Kutchins.
    Mr. Kutchins. Yes. Thank you, Mr. Chairman.
    It appears that perhaps collaboration is synonymous with 
consultation. From the tribal perspective, tribes have been 
asking for consultation. Consultation means it's not just 
notification, but it is a genuine effort where you work 
together at the technical level to come to agreement on 
whatever you are doing, and that way your policy decisionmakers 
have good, solid information upon which to make their 
decisions. They will know where there is agreement and where 
there is disagreement.
    I completely agree with what other panelists have said. 
NMFS' definition of collaboration appears to be notification. 
As a matter of fact, somewhere around July 1999 when the PATH 
made their last report and it was more or less rejected by 
NMFS, and then in the Fall of 1999, the Columbia Basin Fish and 
Wildlife Authority worked together--that's all 13 tribes, four 
States, and two Feds--to do what we called the CAT. It was a 
Collaborative Analytical Team. I was on that work group.
    We kind of saw where something was happening to PATH, it's 
being rejected. I was under a lot of angst because I kind of 
thought PATH was almost like a court order from the Idaho v. 
NMFS lawsuit.
    In this CAT we tried to come up with a process, anyway, so 
that we could all collaboratively work together toward a new 
analytical tool. There's more listings. There's 12 species 
instead of 4. It's a bigger picture than just the Snake River, 
so maybe the PATH wasn't enough. But, even the CAT then went 
and just disappeared.
    Basically, to be blunt, it seemed like it was wrestled away 
from us by the NMFS and their science group, and along comes 
CRI, and we are all trying to scramble to catch up and get on 
their website and find out what it was, so there was no 
collaboration in terms of us all working together to develop 
this tool.
    Senator Crapo. Thank you.
    Mr. Weber.
    Mr. Weber. Thank you. I guess my view on this would be that 
PATH was continuing to operate until early this year. In July 
1999, NMFS had a workshop where they introduced their CRI 
initiative, which had been underway by different members of 
NMFS--different from the ones that were involved in the PATH 
process.
    Senator Crapo. OK.
    Mr. Weber. There were perhaps a half dozen NMFS scientists 
from time to time involved in the PATH process.
    What the Science Center did was hire individuals from 
outside of the basin to do a fairly simple model. They wanted a 
simple model and, frankly, they got a simple model. The problem 
is that it is somewhat inadequate. I think that would show up 
had some peer review been built into the process.
    Unfortunately, when they--I won't say they unplugged PATH. 
It wasn't quite that sudden. But when they put the brakes on 
PATH and eventually defunded it, they didn't just take funding 
away from State and tribal scientists, they also took funding 
away from the facilitator that we had had for 5 years, they 
took funding away from three technical advisors that had been 
instrumental in the process and, in fact, had developed the 
PATH model. They took funding away from the Scientific Review 
Panel that was very familiar with all the documents that had 
been written by PATH over the years--a fairly substantial 
amount. It doesn't look like much when it is on a CD, but there 
was a stack of papers perhaps a foot high.
    These folks were all very familiar with that process, and 
they disappeared along with us, with the State and tribal 
scientists. What we were left with is, as my colleagues have 
mentioned, kind of a situation where we were on the outside 
with our noses pressed to the window, and on paper, at least, 
given an opportunity to comment, but, in fact, most of our 
comments, and, in fact, even when we have reconstructed their 
model to show how we think it should be, how it would best 
incorporate best available data, our comments have been largely 
ignored.
    So I think that is the situation we have now.
    Senator Crapo. Thank you.
    From your testimony and the testimony that we heard 
yesterday from others, as well as from input that has been 
provided to me consistently over the last couple of years, it 
continues to me to seem to be very evident that there was no 
real collaboration going on and that, frankly, most of the 
other fisheries scientists who had been a part of the process 
up until approximately 1998 were out of the process.
    What I have been hearing is not only did the opportunity 
for this hands-on collaboration not take place, but, as you 
just said, Mr. Weber, and others, and others yesterday even 
more strongly, even when input was provided in some context, 
over the website or in other contexts, it doesn't appear to 
have been considered or to have had any effect, and no one 
knows for sure whether it was considered and rejected or not 
considered or what, because it is just difficult to know how we 
got to this point because it has been such a closed process.
    That being the case, now that the proposed biological 
opinion or the draft biological opinion is out, I now hear 
repeatedly, as has been testified to by every member on this 
panel, that this draft biological opinion is seriously flawed, 
both in terms of process and the product delivered.
    Ed, I'm going to direct a question to you related to this. 
If there is any good news, it is that the draft biological 
opinion isn't yet final, and yesterday National Marine 
Fisheries Service very directly said that they were willing to 
use the next 3\1/2\ months or whatever time they had to 
seriously and meaningfully engage in collaboration and try to 
fix what these flaws that have been perceived are.
    They also said, however, that they were going to stick with 
their science unless their science was rejected or somehow 
shown to be not adequate. So I'm not sure exactly what it was 
that they're saying the ultimate outcome is going to be here in 
terms of willingness to address differences in the approaches 
considered.
    But, Ed, the question I have for you--and I may ask the 
others to briefly respond to this, as well--is, we've got 3\1/
2\ months, essentially, given the timeframe that NMFS has 
talked about. Assuming that NMFS follows through on its 
commitment yesterday to meaningfully and aggressively engage in 
collaboration to try to address perceived flaws in the 
biological opinion, what would you recommend that could be done 
in the next few months that would make the biological opinion 
more scientifically defensible and, therefore, more legally 
defensible?
    Mr. Bowles. Mr. Chairman, that's a very good question, and 
that's right kind of at the nugget of the issue, because I 
think all of us here share a desire to have a good biological 
opinion, one that is sound biologically and that is progressive 
from a management standpoint.
    The first piece of that is to get it right. I don't think 
any of us--and I am not saying that that automatically means 
NMFS has to embrace my science. That's not what collaboration 
is. We first have to get back to the table to work out the 
differences that have come up through joint analysis, as well 
as peer review, to help us on some of the things that we can't 
agree on, independent sort of look.
    This doesn't take long, because you can take a look at the 
evidence that is already available, look at that evidence and 
look at the weight of that evidence in the context of the 
decisions being made, and that sort of analysis does not 
require a long time. It just requires us getting our heads 
together.
    In my mind, in order for the BIOP to be scientifically 
defensible--and I put this in my written testimony--there are 
some steps to be taken, scientific steps that have to be taken.
    You first have to have good, solid grounding on what is 
extinction risk and what are the jeopardy standards. Then you 
have to go in--and I've outlined this in my written comments--
you have to determine the amount of improvements that are 
necessary, survival improvements, in order to avoid extinction 
and meet the jeopardy standard. Then you have to determine what 
the fish mortality is among those life stages and what--this is 
a key piece of this--then you have to determine, of that 
mortality, what portion of that is discretionary. In other 
words, what is above and beyond the natural baseline that you 
can't do anything about. What is manageable?
    Then, once you do that, you can go back in and assess what 
actions can address this and set up a program to evaluate it 
and give you feedback so you can adapt.
    On almost all of those steps, I feel NMFS got part of it 
wrong. I think we can collectively help them get it right. I 
think the basis to get it right is already in the models and 
the analysis. You know, the CRI and other things I think, if 
corrected, can get it right.
    So I don't have any problems with working with them as 
aggressively as we can for 3\1/2\ months, get the science 
right, and then proceed with the management actions.
    Senator Crapo. Thank you. Does anybody else on the panel 
want to supplement that?
    Mr. Kutchins. With all due respect, Mr. Chairman, yes, I'm 
concerned that we don't have 3\1/2\ months. The comment period 
on this draft is in 2 weeks.
    I understand that under ESA there is no requirement of NMFS 
to even offer the thing up for comment. I'm glad they did that. 
But we might need some help if what NMFS was saying yesterday--
if they want that feedback in 2 weeks, yes, we can give it to 
them, but we can't do collaboration. We can't all get together 
and just sit down and meet. That will take a couple weeks or a 
month to do.
    So if we can get that 3\1/2\ months, I bet we can do it.
    Senator Crapo. Mr. Kutchins, I appreciate that, and before 
I go to Mr. Weber and Mr. Bouwes I would indicate that you may 
be aware that, from virtually the outset of when it appeared to 
me that the Federal Caucus decided to go behind closed doors 
and come up with its recovery plan, I have objected, and I have 
objected primarily on the basis that they had ended the 
collaborative process and that they were going to come out with 
exactly what we now face, and so I agree with you. Timeframes 
here--I think 3\1/2\ months is pretty short in terms of getting 
this done. If NMFS limits it to a 2-week comment period and 
then just proceeds behind closed doors again, I think that 
would be a very, very fatal flaw in terms of the process of how 
we are going to get this resolved.
    I can assure you that I--and I think many others here in 
Congress--will seek to be sure that NMFS' commitment to us 
yesterday is to work fully and aggressively and sincerely in a 
collaborative process to the point where the finalization is 
achieved.
    Mr. Weber, did you have anything to add?
    Mr. Weber. Yes, Mr. Chairman.
    I agree that the time remaining, if they want to stick to 
their schedule, is really almost too brief.
    I would say that there are really two fundamental concerns 
right now with NMFS being able to complete their task.
    First of all, I don't think they have the proper tool. 
Without getting too technical, they have an exponential model 
without any kind of what is called ``density dependence.'' In 
other words, the population goes up like a sky rocket. We've 
referred to it as the ``fruit fly model.'' There are people 
within NMFS that refer to it as the ``neo-Malthusian model.'' 
It isn't very realistic, and it doesn't leave them very much 
time to develop a new model.
    Just as an aside, within Inter-Tribe we are seeking funding 
to do a feasibility analysis with the existing PATH model, and 
I know that the people that can run the model and that 
developed the model are available. I would like to see them 
called back in to play, honestly.
    The second problem, however, is even bigger, and that is 
that they have not defined what the actions are. Asking us to 
model something is one thing, but they haven't said what the 
actions that we are to model should be, and that, I think, is 
possibly even a bigger concern.
    They've said that we are going to do certain things in the 
hydrosystem, and I think, again, as Dr. Bouwes and others have 
stated, those are all optimistic assumptions.
    Senator Crapo. Thank you.
    Mr. Bouwes.
    Mr. Bouwes. Yes. I'd like to address something I think that 
was brought up by Mr. Stelle yesterday. If we are promoting 
collaboration, that that means we have to keep in mind that 
that doesn't necessarily mean that there is consensus and that, 
you know, Stelle was giving us a warning about that. I think 
what he meant by this is that NMFS has the ultimate 
responsibility to determine what the most prudent alternative 
is, so they are supporting what they believe are the most 
reasonable assumptions.
    I think NMFS felt they did not have the authority over 
PATH, and thus consensus was achieved in PATH that was 
contradictory to NMFS' conclusions.
    I think there is a big misconception about PATH that it was 
a consensus process. I don't believe it was a consensus 
process. I believe, I think, since the States and tribes 
support the collaborative process of PATH, that NMFS is 
concluding that the States and tribes were asking for consensus 
with NMFS to make a decision, and that's not going to be 
possible.
    While PATH was not about consensus, it was an approach that 
incorporated alternative assumptions, and it gave you a range 
of answers with those alternative assumptions.
    The approach NMFS is taking--which, if this is their 
definition of having NMFS approval is that it is not an 
approach of favored hypotheses, where NMFS has determined which 
are the most appropriate hypotheses.
    What that has led to is they've looked at a range of 
hypotheses, and then they went across the board and said, 
``We're going to favor the most optimistic assumption of these 
hypotheses.''
    We don't believe that's a very risk-averse approach to 
managing these stocks.
    The conservation burden should not be placed on the fish. 
We should be erring on the side of the resource that we're 
trying to manage.
    In our detailed comments on the biological opinion, Oregon 
Department of Fish and Wildlife's detailed comments, we talk 
about these assumptions and what alternative assumptions could 
be used in their analysis that would basically address the 
optimism of the assumption, and so we do have alternative 
assumptions here that are described, and I think--well, 
truthfully, I think if we just accept some of those alternative 
assumptions it is going to greatly change the NMFS conclusions.
    We believe that these assumptions should be discussed in 
collaboration with the States and tribes.
    Senator Crapo. Thank you.
    Mr. Kutchins, you alluded to my next question in your 
testimony, and so I am going to direct this question to you. It 
is my understanding that Judge Marsh found in the Idaho Fish 
and Game v. NMFS litigation that he wanted the Federal agencies 
to collaborate with the States and tribes. I think that was 
part of the court's order, and I think you alluded to at least 
what you perceived the court to be directing happen there.
    Could you tell me whether you believe that that 
collaboration has occurred? I'm asking this in the context of 
whether the current collaboration is going to be satisfactory 
on a legal basis.
    Mr. Kutchins. It is my guess, when the judge sent everybody 
back to the drawing board and said, ``Work together''--and this 
is a judge that, in particular, wants people to work together--
that I believe, as was stated by the other panelists here, in 
the first 5 years, 4 or 5 years of that, through this PATH 
process that was--I think I'd call that collaboration. It was a 
pretty thorough and exhaustive enclosure of State, tribal, 
Federal, and even other interested parties all working 
together.
    I wasn't part of it. I used to observe them working when I 
was working down in Portland.
    So perhaps up until the Summer of 1999, when PATH started 
to get mothballed, it was collaboration.
    What intrigues me even more is kind of what happened to the 
1995 biological opinion in its entirety, not just PATH 
collaboration, but the entire opinion, what happened to the 
1999 decision, what happened to a variety of other RPAs that 
were called for in that opinion that were never implemented.
    With all due respect, you might be just touching the tip of 
an iceberg there.
    We were very flabbergasted and frustrated when we found out 
there would be no 1999 decision; that, instead, it would be a 
new biological opinion. From looking at the draft new BIOP, it 
appears that the 1999 decision is to continue kind of the 
status quo, at least in the hydrosystem, and there is not a 
conclusion of whether to do that or to breach dams, for 
example, that we were anticipating to come in the 1999 
decision.
    Senator Crapo. Thank you.
    I just had another couple of questions, and, as usual, we 
are running short on time, so I'll try to be brief here.
    It seems to me that the Governors' recommendations 
contemplate a careful transition from barging as many smolts as 
possible to having more of those fish migrate out-river when 
possible, and the Federal action agencies appear to be 
steadfastly refusing to move in this direction and to 
acknowledge this essential consensus among the Governors.
    The question I have--and anybody can feel free to pitch in. 
I guess I'd ask you to try to be as succinct as you can. Is 
there any new and emerging evidence--or are we relying 
basically on what we've talked about already--that suggests 
that the Federal action agencies should listen more closely to 
the Governors with regard to this issue?
    Mr. Weber.
    Mr. Weber. Mr. Chairman, I think that there is some 
evidence that barging is really not providing very much of a 
benefit, but I think everyone would agree that, as a general 
rule, there is a slight advantage to barging, and so I think we 
need to be a little bit cautious here before we call an end to 
barging and consider that some kind of solution.
    The problem with barging, in my view, is not that it is 
doing any particular harm relative to in-river fish; it is that 
it is not providing very much benefit.
    The way that it has been justified in the past is through a 
transport benefit ratio, which you may have heard of, where 
they measure the survival. Basically, that's where those data 
come from.
    Then they measure the survival of in-river fish and compare 
that with transported fish. As transported fish do better they 
say, ``Aha, that's good.'' But the fact is the in-river fish 
are surviving, in general, no better and probably a little bit 
worse.
    So I think that if we are going to try that approach, it is 
going to take massive amounts of water, and we're not talking 
about half a--I've done some simulations. Even 4 million acre-
feet, which is probably all you can get, is not going to make a 
huge difference.
    There is a benefit, and I would certainly support flow 
augmentation in the absence of breaching, but the idea that we 
are going to get there through additional flows and additional 
spills probably isn't very realistic.
    As others have mentioned, we're talking about an increase 
of perhaps threefold, at least threefold, to get to survival 
and recovery, and I don't see that happening through either 
flow augmentation or even a very generous spill program.
    Senator Crapo. Any others want to comment on that?
    Mr. Bouwes. Yes, I'd like to comment on that.
    Senator Crapo. Mr. Bouwes.
    Mr. Bouwes. Mr. Chairman, like Earl said, there does appear 
to be a slight benefit for transportation, but if you look at 
it more closely it depends on the route of passage that a fish 
takes over the dam.
    If a fish spends more time going over the spillway or, 
since we don't really know if they are going over the spillway 
or going through the turbines, simply if we know that they are 
not detected--i.e., they're not going in the bypass system--
they seem to do a lot better compared to fish that go through 
the bypass system.
    We think that this is due to the propensity to have higher 
survival of going through the spillway, and if we look at those 
kind of comparisons then we see that there is probably a better 
benefit to migrating in-river, going through the spillways, and 
we believe in a spread-the-risk approach, where we don't try to 
transport all the fish we can get our hands on, but try the 
spillway approach and then perhaps transport half the fish that 
were transported and send the rest over the spillway and see if 
we can gain any improvement that way.
    Senator Crapo. Thank you.
    Mr. Bowles.
    Mr. Bowles. I'll try to keep this brief.
    I think the key here on the transportation issue is yes, 
there is both existing and emerging data that indicates the 
perceived benefits of smolt transportation as head and 
shoulders above keeping the fish in the river is seriously 
questioned, and some new information, just preliminary coming 
out now in the 1997 and 1998 smolt-to-adult survival rates 
really don't show that benefit much at all, and also show a 
higher delayed mortality of those transported fish than what 
NMFS has earlier projected, but that's preliminary information 
and we need to collaboratively take a look at it, but there is 
emerging information that seriously questions the effectiveness 
of transportation.
    To me that certainly doesn't mean just pull the plug on 
transportation and leave all the fish in the river. What it 
means is that you put your efforts into trying to recreate, as 
best you can, within policy constraints, those sorts of natural 
processes in the river that the fish need and don't try to 
circumvent the river. While you're doing that, while you're 
trying to make the river a little more friendly, you don't put 
all your eggs in one basket.
    Depending on the river conditions, if it is drought sort of 
scenario, obviously you are probably going to want to err on 
the side of more fish in the barges. If it is good water 
average or better and you're able to make a friendly river 
environment, then you're going to err on the side of in-river. 
But certainly don't maximize barging at the expense of in-river 
conditions.
    Senator Crapo. Thank you.
    Mr. Kutchins.
    Mr. Kutchins. Real quickly, if the fish are doing better in 
barges, think about what that tells us about the condition of 
this so-called ``river.''
    Senator Crapo. Thank you very much.
    I do have other questions, but we are also running short on 
time, so you guys are going to be off the hook at this point.
    I want to thank you very much for your preparation and 
attendance here today and for your attention to these issues 
and assure you that your input has been heard, and that 
hopefully we will be able to create an opportunity in the next 
3\1/2\ months, if not more, to have true collaboration.
    Again, thank you very much. This panel is excused.
    We will call up our next panel. This would be: Mr. Derrek 
Batson of the Idaho Salmon and Steelhead Unlimited; Mr. Scott 
Bosse of Idaho Rivers United; and Mr. Rob Masonis of the 
Northwest Regional Conservation Programs for American Rivers.
    Gentlemen, I appreciate your coming today. I know you were 
here for the instructions, so try to focus on these lights as 
well as on your testimony.
    Why don't we go ahead and begin in the order which I 
stated. Mr. Batson, you may go first. Thank you.

  STATEMENT OF DERREK BATSON, TREASURER, BOARD OF DIRECTORS, 
         IDAHO SALMON AND STEELHEAD UNLIMITED, NAPA, ID

    Mr. Batson. Thank you, Mr. Chairman.
    Chairman Crapo and Senators of the committee, my name is 
Derrek Batson. I am an officer of Idaho Steelhead and Salmon 
Unlimited, or ISSU. I reside in Napa, ID.
    First, let me say that any time I get east of Senator 
Crapo's home town of Idaho Falls my knees begin to shake and I 
feel a little bit overwhelmed; however, it is such a great 
honor to be part of this important process, I've convinced 
myself I'll be just fine.
    Senator Crapo. You will.
    Mr. Batson. ISSU was formed in 1984 by a diverse group of 
businessmen, guides, conservationists, sports fishermen, and 
concerned citizens from throughout the Columbia River region to 
restore, protect, and preserve the region's steelhead and 
salmon resources. So, as you can imagine, ISSU is no stranger 
to this issue or process.
    We know why you, Senator Crapo, and other northwestern 
Senators care about salmon restoration, because salmon are in 
your back yard. But why should the rest of you or your 
constituents care? One reason is because protecting and 
restoring what were once the world's largest runs of salmon and 
steelhead, this icon of the northwest, is the right thing to 
do. But another reason, and one which we believe is important 
to your constituents, is that most of the rest of the Nation 
view our area as their national playground. Our wilderness 
areas, white water rivers, and massive expanses of Federal 
lands are intriguing to them, and they come to our State by the 
thousands to recreate in these areas.
    In Idaho today, tourism is the No. 2 industry. It is 
surpassed only by agriculture. A limited steelhead fishery on 
hatchery-reared steelhead generates over $92 million annually 
for our State. We have not had a general salmon season since 
1978, only 3 years after completion of the lower Snake River 
dams, but it is estimated that it would equal or exceed the 
steelhead fishing economy.
    So, as you can see, we wear the title of ``National 
Playground'' proudly, and restoring salmon needs to be a key 
part of it.
    When your constituents come to Idaho, they deserve to be 
able to enjoy this northwest icon.
    Briefly, allow me to highlight where the Federal BIOP fails 
the salmon. For the Federal Caucus to separate the mainstream 
Columbia and Snake Rivers with their hydropower obstructions 
from habitat is a misnomer. Habitat is habitat, whether it is 
the Frank Church River of No Return Wilderness or the Dam Choke 
Reservoirs and the main stream Columbia and Snake Rivers. For 
the BIOP to focus on the freshwater habitat in the Snake River 
tributaries while ignoring the Federal dams and reservoir is a 
prescription for failure.
    Idaho's wilderness salmon bedrooms are as pristine today as 
they were 100 years ago, yet no salmon return. While salmon in 
the middle fork of the Salmon River, the south fork of the 
Salmon River, and most other tributaries pass no irrigation 
diversions, yet the National Marine Fisheries Service wants to 
focus on screening irrigation diversions.
    Granted, it is probably politically non-controversial, but 
it does nothing to recover wild salmon in these wilderness 
areas.
    The BIOP caps and in some cases reduces fishing when 
fishing today is a mere fraction of what it was before the dams 
were built in the lower Snake River. This is the fallacy of the 
BIOP. It attacks land users and fishermen. Loggers, miners, 
ranchers, farmers, and fishermen are all victims of Federal 
dams, but the BIOP continues to punish these victims.
    Land use industries sacrificed much to set aside the Frank 
Church River of No Return Wilderness and the Selway Bitterroot 
Wilderness to protect salmon and steelhead. Combined, these two 
wilderness areas comprise the single largest continuous 
wilderness in the lower 48 States. Fishermen have not kept wild 
Snake River spring chinook salmon in the Columbia River or 
Snake River since 1978 or wild summer chinook since the late 
1960's. Yet, every wild stock is listed by the ESA.
    To do more of the same while ignoring the No. 1 salmon 
killer--the Federal dams in the lower Snake River--quite 
frankly, this is inconceivable.
    Allow me to give you a quick example of the half-
heartedness of the BIOP. Specific performance standards draft 
BIOP 9-7 through 9-15, agencies are required to meet three 
overall types of performance standards. First, programmatic. 
Did the agencies implement the required measures? Did they 
complete the required analyses? And did they acquire the 
funding necessary to implement and complete these measures?
    Second is biological, population growth rates, and, 
finally, physical--spawner counts, riparian health, and water 
quality.
    There are only consequences for failure to meet the 
biological standard.
    Here is our take of this. First, the National Marine 
Fisheries Service has yet to define the physical programmatic 
standards. This is a major omission at the very heart of the 
BIOP.
    Second, current biological performance standards is based 
on assumptions and data that do not adequately represent 
population growth rates for Snake River salmon and does not 
include other biological factors--for instance, population 
distribution necessary for their recovery.
    Third, specific consequences for failing to meet any of the 
three types of standards should be incorporated into the BIOP. 
It is important to emphasize here performance standards are the 
means by which the National Marine Fisheries Service proposed 
to make this plan work to restore salmon; yet, in the draft 
document the performance standards are incomplete, are missing 
all three types of standards, and there are no consequences for 
failing to achieve two of the three types of standards.
    The Save Our Wild Salmon Coalition has done an outline of 
the draft recovery plan. I have included it in the material 
package you now have. I hope you will take time to review it in 
its entirety.
    In closing, let me assure you that ISSU has no agenda just 
to breach dams. Our agenda is to restore a viable, anadromous 
resource to the Columbia region, even if it means breaching the 
lower Snake River dams. We will accept any plan that will 
assure recovery of salmon to harvestable, sustainable levels. 
To date we have not seen one that can do that without breaching 
the lower Snake River dams, nor do we believe we ever will.
    Thank you for allowing this time before you. I will answer 
any questions you have.
    Senator Crapo. Thank you, Mr. Batson.
    Mr. Bosse.

        STATEMENT OF SCOTT BOSSE, IDAHO RIVERS UNITED, 
                           BOISE, ID

    Mr. Bosse. Thank you, Mr. Chairman. I sincerely appreciate 
your invite to testify today.
    My name is Scott Bosse and I am a fisheries biologist for 
Idaho Rivers United. We are a river conservation group based in 
Boise that has 2,000 members from Idaho and across the 
Northwest. We have been working very hard on this issue for the 
better part of a decade, ever since our founding.
    I would like to address three fatal flaws that we see in 
the biological opinion in the Administration's draft basinwide 
salmon recovery strategy, formerly known as the All-H paper, 
and what I will hope to redefine is a three-H paper that 
outlines recovery measures in two H's.
    The first is the premise that because there are now 12 ESA-
listed stocks of salmon and steelhead in the Columbia Basin 
that any and all recovery measures must address all of these 
stocks at once. In other words, the idea is that the premise 
that we should have a one-size-fits-all salmon recovery 
strategy in order to get the most bang for the buck. I think we 
all heard Mr. Stelle say that yesterday and many times in the 
past.
    This goes against one of the most important things that 
biologists know about salmon, and that is that each individual 
stock is uniquely adapted to the river that produced it. That 
is precisely why the Endangered Species Act protects salmon at 
the stock level and not at the broader species level.
    Saying we should not take out the lower Snake River dams 
because that would only help 4 out of 12 listed stocks is much 
like saying we should not do anything to improve air quality in 
Boise because that will do nothing to improve air quality in 
Houston or Phoenix. It is simply another excuse for inaction.
    The fact is that the four listed stocks in the Snake River 
Basin face a very different set of hurdles than the stocks in 
the Columbia River. While most tributary habitat in the 
Columbia River has been severely degraded by logging, mining, 
grazing, urbanization, and agricultural development, the Snake 
River stocks have available to them nearly 4,000 miles of prime 
spawning and rearing habitat.
    Approximately one-third of this habitat is protected within 
federally designated wilderness areas or wild and scenic river 
corridors. This habitat is theoretically capable of producing 
millions of wild smolt that would result in the return of 
hundreds of thousands of wild adult salmon.
    The Administration contends there are four H's that must be 
addressed in order to develop a comprehensive basinwide 
recovery strategy. In reality, there are only three: habitat, 
harvest, and hatcheries.
    As Derrek said and as others have said here, hydro does not 
deserve its own H. Hydro is habitat. Hydroelectric dams in the 
lower Snake and Columbia Rivers have drastically altered the 
465-mile-long migration corridor habitat that Snake River 
salmon rely on in order to deliver them to the estuary when 
they were smolts and bring them back to their spawning grounds 
when they are adults. The dams have transformed what was once a 
cold, swift-flowing river into what is now a chain of warm, 
slack-water reservoirs which salmon are not genetically 
equipped to survive in.
    Hydroelectric dams have also inundated 140 miles of main 
stem spawning and rearing habitat for Snake River fall chinook. 
By largely ignoring the hydro H and trying to make up for it in 
the other H's, the draft BIOP essentially writes off this 
stock. This shortcoming is especially problematic because it is 
fall chinook that are most sought after by tribal harvesters 
who have treaty rights that this Administration and Congress 
has pledged to uphold.
    The second major point I wanted to address is the draft 
BIOP's strong focus on habitat restoration in up-river 
tributaries and the Columbia River estuary in lieu of the major 
overhaul in the hydro H that Judge Marsh called for in the 
Idaho v. NMFS case in 1994.
    Mr. George Frampton, Acting Chair of the White House 
Council on Environmental Quality, has estimated that 
expenditures on these two items, alone, will total additional 
hundreds of millions of dollars above and beyond what is 
already being spent on Columbia Basin salmon recovery.
    A fair question then is: what will this money buy in the 
3,700 miles of prime salmon spawning and rearing habitat that 
lies nearly empty of salmon in central Idaho and northeast 
Oregon?
    What will it buy in the Middle Fork Salmon River drainage, 
the largest wild salmon refuge left in the Columbia Basin, 
where there are no hatcheries and the habitat is in better 
condition than it was 30 years ago and where the spring/summer 
Chinook that return to spawn face a combined harvest rate of 
less than 10 percent, more on the order of less than 5 percent?
    What will a plan that does virtually nothing to overhaul 
the hydro H do for these salmon stocks that are almost wholly 
affected by the dams?
    NMFS scientists justify their focus on tributary habitat 
restoration by saying the best opportunity to increase 
population growth rates is in the salmon's first year of life, 
but the science shows Snake River salmon have experienced no 
significant decrease in egg-to-smolt survival since the 
construction of the lower Snake dams 30 years ago.
    The science also shows that Snake River salmon declines 
have been similar in pristine streams and equally in badly 
degraded streams, in streams of high natural fertility, and in 
streams of low natural fertility.
    The bottom line is NMFS has fundamentally misdiagnosed the 
most critical problem facing 4 out of the 12 listed Columbia 
River stocks by largely ignoring the hydro H and trying to pin 
the problem on first year survival. The facts clearly do not 
support this assumption.
    Finally, I want to point out that the remedies prescribed 
in the draft biological opinion are not time sensitive for at 
least two out of the four listed Snake River stocks, those 
being spring/summer chinook and sockeye. That is, restoring 
spawning and rearing habitat, even if that was the most 
critical factor affecting these stocks, would undoubtedly take 
decades to bear fruit, when extinction models show some of 
these stocks have only until 2017 before they functionally go 
extinct.
    The fact remains that the only recovery measure that is 
likely to restore spring and summer chinook within a timeframe 
that will beat the extinction clock is breaching the four lower 
Snake dams.
    Speaking at a July 27 press conference in Portland, Mr. 
George Frampton was quoted as saying, ``We know dam breaching 
is the single most effective thing we can do for these Snake 
River stocks and that it may be necessary.'' I believe that, in 
addition to being the most effective thing we can do, dam 
breaching is also the only major thing we can do to actually 
recover Snake River stocks before the extinction clock runs 
out.
    Until the Administration's draft recovery plan acknowledges 
that basic fact, it is a recovery plan for just 8 out of the 12 
listed stocks, and a rather weak one, at that.
    Senator Crapo. Thank you, Mr. Bosse.
    Mr. Masonis.

    STATEMENT OF ROB MASONIS, DIRECTOR, NORTHWEST REGIONAL 
            CONSERVATION PROGRAMS, AMERICAN RIVERS, 
                          SEATTLE, WA

    Mr. Masonis. Good afternoon, Mr. Chairman.
    Thank you for inviting me to testify before you today 
regarding the Administration's draft plan to save Columbia and 
Snake River salmon.
    My name is Robert Masonis, and I am the northwest 
conservation director for American Rivers, a national river 
conservation group of over 30,000 members. I am also the 
chairman of the board of the Save Our Wild Salmon Coalition, 
which is a coalition of over 50 commercial fishing 
associations, sport fishing groups, fishing-
related businesses, and conservation organizations from across 
the Northwest.
    Let me start by stating that we believe the general 
framework set forth in the draft biological opinion represents 
a workable, logical approach to addressing this extremely 
complex issue. While we support this general framework of 
action and adaptive management, we believe that the draft 
biological opinion is severely lacking in several critical 
respects, including the adequacy of the specific remedial 
actions and the implementation timeline.
    I will explain these concerns in more detail in a moment.
    I would also like to acknowledge the efforts of the 
National Marine Fisheries Service scientists who have worked 
over the last year on the cumulative risk initiative. They have 
made significant contributions to our understanding of the 
current tenuous State of Columbia and Snake River salmon and 
steelhead. Their work has shown that many of the listed stocks 
are at a high risk of extinction in the short term and that we 
must move forward with aggressive, effective actions if we are 
to get these stocks on the road to recovery before it is too 
late.
    But the draft biological opinion suffers from several deep 
flaws that must be remedied if it is to pass scientific and 
legal muster.
    First, the draft biological opinion largely ignores the 
extensive sound analysis of the team of Federal, State, and 
tribe scientists known as PATH. There are other witnesses who 
have testified here today who are better equipped to address 
the crucial differences between CRI and PATH and the failure of 
the draft biological opinion to adequately address PATH 
findings, so I will not cover that same ground here. But it is 
abundantly clear to us that, during the last year, the National 
Marine Fisheries Service has largely taken the science in-house 
and failed to adequately consult with the other Federal, State, 
and tribe scientists, including those who are part of PATH.
    Consequently, in several critical areas NMFS has 
substituted its own scientific judgments for those of the PATH 
scientists without analysis, demonstrating that the PATH 
findings and judgments were flawed.
    Second, the aggressive, non-breach recovery actions the 
Administration has touted as a cornerstone of the draft 
biological opinion are, in fact, not there. Instead, the 
document sets forth laudable objectives, promises tough 
performance standards, and then sets forth a list of actions 
that consist mostly of studies, investigations, pilot projects, 
and planning processes. Remarkably, the hydropower system 
measures are essentially the same as those set forth in the 
1995 biological opinion, with no hard flow requirements and a 
continued reliance on fish barging, a practice which has been 
roundly and deservedly criticized by the region's scientific 
community.
    For example, proposed measures include a 2-year study by 
the Bureau of Reclamation to determine the extent of 
unauthorized water use in the basin, and a 5-year draft 
feasibility analysis of potential changes in existing flood 
control operations to aid salmon. These purportedly 
``aggressive'' actions will not save one fish in the near term, 
and may not ever.
    Our point is not that these steps are not worthy of 
pursuit. They are. But they are not measures that will boost 
listed stocks. Such actions would include requiring adequate 
flows in all tributaries containing spawning habitat, or 
requiring sufficient flow augmentation to provide for the 
migratory needs of salmon and steelhead. The final biological 
opinion must require implementation of such actions in a timely 
manner dictated by the needs of salmon and steelhead.
    Third, the draft biological opinion fails to define 
recovery levels for the listed stocks. Of course, the adequacy 
of the proposed actions cannot be determined without first 
determining what is necessary to achieve recovery, as required 
by the ESA. It also bears emphasis that it is recovery that the 
region's four Governors have defined as the goal, not merely 
avoiding extinction. This fact is routinely ignored in the 
debate.
    The final biological opinion should rectify this major flaw 
by setting forth an aggressive schedule for defining recovery 
goals for each of the listed stocks, and then adjusting the 
biological opinion, as needed, to achieve those goals.
    Fourth, the draft biological opinion fails to provide for 
timely implementation of lower Snake River dam bypass should 
other recovery actions either not be implemented or prove 
inadequate. The current time line puts off a decision on 
bypassing the lower Snake River dams for at least 8 years, and 
implementation would be closer to 15 years out. That is 
inconsistent with the needs of Snake River salmon and 
steelhead.
    The cumulative risk initiative--this is NMFS' process--
projects that Snake River spring/summer chinook and fall 
chinook populations will be half the size they are today in 
less than 5 and 10 years, respectively, if current trends hold.
    There is no dispute that bypassing the four lower Snake 
River dams is the single best recovery action for Snake River 
stock, and it must, therefore, be available if and when the 
fish need it. To make that possible, the final biological 
opinion must contain a firm commitment to completing all 
preparatory work for dam removal no later than 2005, and a 
requirement that the action agencies seek authorization from 
Congress at that point if Snake River stocks are not firmly on 
the path to recovery. To do otherwise would be to ignore the 
best scientific evidence and greatly increase the risk of 
extinction for Snake River stocks.
    In closing, American Rivers and the Save Our Wild Salmon 
Coalition are committed to working with the National Marine 
Fisheries Service and other Federal agencies to remedy the 
deficiencies in the draft biological opinion. The necessary 
changes do not require new analysis or modeling, but rather can 
be made based on available information developed by PATH, CRI, 
and other credible sources, and should be completed no later 
than the end of the year. There is absolutely no excuse for 
further delay. Columbia Basin salmon and steelhead need strong, 
effective recovery measures now if we are to realize our 
collective goal of recovering healthy, harvestable stocks.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Masonis.
    Recognizing that you would not necessarily be representing 
States or tribes or whatever in the collaborative 
decisionmaking process, I would like to ask each of you--and 
you have each, to some extent, already touched on it, but I'd 
like to ask you more specifically what your perception is with 
regard to whether the Federal Caucus--in particular, NMFS--has 
been conducting true collaboration with the region and the 
various interests with which it is required to collaborate in 
the region over the last couple of years.
    Mr. Batson.
    Mr. Batson. Well, I'm no scientist. Like I said, I'm a 
simple fisherman that has a real study of the issue. It appears 
to me that what happened is that when the PATH project was 
brought about there was collaboration, and as this PATH, to 
steal a phrase, headed toward breaching as the option, then the 
National Marine Fisheries Service bolted. As it got closer to 
the way to an end--you know, when the Oregon Fish and Game and 
the tribal authorities are saying, ``Well, it looks like that's 
where we're headed,'' it appears to me that the NMFS people 
bolted and then go through this very, very long process of 
trying to study the thing to death.
    I believe that there is true collaboration, and they really 
got in on it. I believe the message they are going to have to 
hit and down the road they are going to have to look at 
breaching, and it appears to me they took that off the table 10 
years down the road when, as Mr. Masonis touched on, we need to 
start acting now.
    This is a four-H paper. I'm going to add my own H, and 
that's Hope. I hope very soon we get action and not words. I 
believe that, just in my perception, that is kind of what has 
happened.
    Senator Crapo. Thank you.
    Mr. Bosse.
    Mr. Bosse. Mr. Chairman, I think the fact that State and 
tribal and independent scientists often call me at my office to 
see what NMFS is up to speaks for itself.
    Senator Crapo. That would be very telling.
    Mr. Bosse. It is awfully disturbing, because for many, many 
months--for many years, as a matter of fact--we were told by 
virtually everyone in the basin that PATH would be the most 
rigorous scientific modeling effort ever undertaken anywhere, 
just wait to see what the science says. We've heard that at 
every level. All of a sudden the science said something and it 
disappeared. It's almost like there was a coup.
    Nothing very big was made of it, and it is very, very 
disappointing to me, because, after observing that PATH process 
very closely I was very impressed by it. It was rigorously peer 
reviewed by virtually everyone, including industry, including 
the Corps of Engineers, the National Marine Fisheries Service, 
virtually every party involved in this debate. It fulfilled 
Judge Marsh's order and the spirit of his order in 1995, and it 
is very disappointing that it has not happened today.
    Senator Crapo. Thank you.
    Mr. Masonis.
    Mr. Masonis. Thank you, Mr. Chairman.
    We recognized this problem, American Rivers did, last 
winter, and, consequently, I called up the National Marine 
Fisheries Service scientists working on CRI and asked them if 
they would join us in co-sponsoring a workshop that was held on 
March 29, 2000 to deal directly with this issue, which is that 
we have the PATH scientists, the States, the tribal fish and 
wildlife scientists who, at that point, had, you know, halfway 
into the CRI process, essentially had no real input and 
obviously had divergent views on some critical issues.
    So we did convene that workshop, and a number of the 
scientists came up to me afterward and remarked that they 
thought it was the best one that had taken place to date 
because there was actually some interaction.
    Unfortunately, I don't think we saw, subsequent to that 
particular workshop, much progress in terms of opening up the 
CRI analysis and modeling effort to input, as the previous 
panel testified to.
    So I don't think there is any doubt that there is a 
significant problem, has been a significant problem with 
collaboration, meaningful collaboration, in the CRI process.
    However, I do want to also emphasize that this is not an 
indictment of CRI, per se. I think there is some good work that 
has happened in that forum. But the work is not adequate, and 
there are some critical flaws, and the only way for those to be 
remedied in the next couple of months is to do what you have 
proposed, Mr. Chairman, which is that these folks get together 
and hammer them out.
    Senator Crapo. Thank you.
    In the context of what needs to be done in the next couple 
of months, could each of you also give me your definition of 
``collaboration''? What is it? I'm going to ask another follow-
on question with regard to the requirements of the litigation, 
what Judge Marsh had required, and whether we are going to 
achieve that. But what is it that needs to happen in terms of 
the next 3\1/2\ months?
    Mr. Batson.
    Mr. Batson. There, again, my observation is that this 
polarization of these two scientific entities as the National 
Marine Fisheries Service and the State agencies, if it takes 
locking them in a room for a while and getting some hard 
answers out of it--I mean, maybe that's not how things are done 
in Washington. I don't know. But it would seem to me they need 
to sit around and ask the hard questions.
    As I said, time is critical. That's the sad thing about 
this. Without it, it may not do any good. So, like I said, I 
guess my suggestion would be lock them in a room and throw away 
the key.
    Senator Crapo. All right.
    Mr. Bosse.
    Mr. Bosse. I would agree with some things that were said 
earlier, that obviously the National Marine Fisheries Service 
needs to hammer out these differences with the States and the 
tribes in a very sincere fashion and answer the very serious 
doubts that the States and tribes have about that CRI model.
    I would also say that it would be constructive to have the 
Independent Scientific Advisory Board take a look at this CRI 
science and take a look at the draft biological opinion that 
has been released by the National Marine Fisheries Service, not 
redo the science, not create a new model, but answer some very 
key questions that the States have, that the tribes have, and 
that we as a conservation and fishing group community have. I 
think that would be very constructive. They've conducted that 
similar role in the past.
    I also think that your idea of having some regional 
hearings in the Northwest would be a very good one, and I would 
like to see the people that helped design those models and the 
people that wrote that draft biological opinion answer these 
questions.
    Senator Crapo. I think that's a very good idea. In fact, 
we've already concluded, I think, that we need to get a forum, 
probably in the Northwest if not here, where the technical 
experts can really get at it. We had hoped to maybe try to get 
at that yesterday, but it just didn't work out yesterday in 
terms of where the direction of the hearing went with regard to 
things. But that's a good suggestion.
    Mr. Masonis.
    Mr. Masonis. Mr. Chairman, to be very specific about this, 
in answer to your question, I think that next week this 
collaboration needs to begin in earnest, and there needs to be 
a very large block of time and resources committed to working 
through, on a face-to-face basis, these issues. These are not 
issues that are going to be resolved at more CRI workshops, a 
couple of them between now and the end of the year, nor is it 
going to be resolved by allowing the States, tribes, and 
Federal Fish and Wildlife Service scientists to submit 
comments.
    This is going to be hard work. It is going to be 
contentious. It needs to be done, and it is going to require a 
significant commitment of time and it should start now.
    Senator Crapo. Thank you.
    As a followup--and I won't ask all three of you to answer, 
I'll just give you each an opportunity if you choose to--well, 
let me ask one other quick followup.
    Mr. Bosse, as I was thinking about what you said--and 
actually all three of you--are you telling me that the CRI has 
not yet been peer reviewed?
    Mr. Bosse. To my knowledge, the very serious questions that 
have been asked by the States and the tribes and others have 
not been adequately answered nor have they been verified by an 
independent scientific body. That's correct.
    Senator Crapo. Anybody disagree with that?
    Mr. Masonis. Mr. Chairman, no. I would just add that the 
approach I think that CRI has taken, because this is an 
initiative that started only a year ago, is that they are--the 
scientists are producing work that they are submitting for peer 
review for journal entry, but the process, as a whole, as far 
as I know--and I may be wrong--has not been peer reviewed.
    Senator Crapo. I'll just make an editorial comment at this 
point. It just strikes me as a little surprising that we are 
going to have a draft biological opinion that appears to be 
based on something that hasn't even yet been per reviewed, and 
that's another way of getting at what we've all been saying 
here today, is that I think we now have a really short fuse to 
get some major things done.
    I assume that all three of you were here yesterday or 
listened yesterday and heard the testimony of Mr. Stelle. In 
one of the questions I asked him with regard to CRI, or with 
regard to the commitment for collaboration and where we could 
head on that, my recollection of what he said in part was that, 
with regard to the science, that NMFS was very willing to 
engage in a collaborative process and listen to concerns and so 
forth, but I heard a proviso there that said, ``However, we 
have our science models and our science models have to be 
followed, or somehow proven to need reformation or change in 
order to be then followed.''
    But what I heard him saying was he was raising a strong 
proviso that, you know, science has to guide you, but also that 
the science that was going to guide was the current science 
that was being utilized for the draft biological opinion.
    First, I would ask if you got the same impression. If so, 
what does that tell us in terms of what we need to achieve 
between now and the end of the year?
    Does anybody want to pitch in on that?
    Mr. Masonis. Mr. Chairman, I'll jump in here.
    What caught my ear was his insistence that the 
collaboration be successful, which begged the question in my 
mind of what does that mean.
    It cannot mean to accept the National Marine Fisheries 
Service's assumptions in all of its models with their flaws. 
That is hardly a collaboration. There needs to be a willingness 
to make adjustments based upon the collective expertise of the 
scientists in the region, which is what PATH was designed to 
provide.
    So I don't think we are going to be able to make much 
progress on these really difficult issues if the ground rules 
are such that you can kind of tweak it around the edges but, 
you know, ultimately the judgments and assumptions being used 
by the National Marine Fisheries Service scientists will win.
    Senator Crapo. Thank you.
    Anybody else on that?
    Mr. Bosse. I would add that both American Rivers and Idaho 
Rivers United and the Save Our Wild Salmon Coalition have 
already sent a letter to the National Marine Fisheries Service 
asking for independent peer review by the Independent 
Scientific Advisory Board. I think that would be a very 
constructive step.
    But I must say the joke amongst State, tribal, and 
independent scientists right now is that the best available 
science is no longer available. I think that says something 
about almost an ideological insistence that their model is the 
only model, and that perception needs to change in a hurry.
    Senator Crapo. I agree. I see that as a potentially very 
big hurdle.
    Let me get to the question I had on the court case. In 
terms of the whole dynamic that we've just finished discussing, 
what does all of this mean with regard to Judge Marsh's order 
in Idaho Fish and Game v. NMFS with regard to the required 
collaboration? If you don't feel like you are in a position to 
evaluate legal issues, I understand. I just am curious about 
what your perspective might be on that if you do have one.
    Mr. Masonis. Mr. Chairman.
    Senator Crapo. Mr. Masonis.
    Mr. Masonis. I will try to address that.
    I think that Judge Marsh's concern in requesting that 
collaboration is that the decision be informed by the best 
available science. That is the crux of this issue, which is: is 
the best available science informing this decision?
    The fact that there has not been, in the last year or so, 
effective collaboration in which these very significant issues 
have been resolved brings that into question. But ultimately, 
you know, that is what the judge is going to be looking for if 
this biological opinion appears before the court.
    Senator Crapo. Thank you.
    I want to shift gears here for just a moment. We've been 
talking a lot about whether there is the right science and 
procedure behind the actions of the National Marine Fisheries 
Service. I want to shift gears and talk a little bit about the 
ultimate policy decision that has to be made in terms of the 
guidance here.
    Mr. Kutchins in his testimony said that he thought that 
NMFS may be doing what properly is a role of Congress, which is 
going beyond the actual science and actually looking at how the 
policy decision has to be made.
    In my opening statement yesterday I pointed out that I 
believe that we've got to have the best available science, but 
we also can't ignore the fact that we have economics and 
cultural and spiritual and other values to be measured here, 
and that ultimately there will have to be a balance achieved in 
this context.
    I am also aware that where I personally have come down in 
terms of how I see that balance coming out is not where any of 
the three of you have come down with regard to it.
    So we still have this arena beyond the science debate of 
where do we go with policy. The question I would like to ask 
you is: I recognize that each of you, if you were able to make 
the policy decision, would breach the dams. I assume you 
recognize that I have opposed that step. Assuming for the 
moment that we are going to deal for the next 8 to 10 years 
with a scenario in which we are not breaching the dams but that 
the current broad guidance or broad approach of the biological 
opinion in that context is followed, are there things that we 
can do short of breaching the dams that do focus on the 
hydrosystem and do focus on the main stem issues, where the 
smolt-to-adult survival issues are so critical, that can help?
    What I'm seeking here, as a policymaker, is just guidance 
on what you feel we can do in these arenas, if there are 
options where we can take action.
    Mr. Batson.
    Mr. Batson. Initially, Mr. Masonis touched on it, that if 
you don't--they need action now. I suppose that would be the 
biggest part. There are so many other parts of this that need 
to go into place. If you study this for another 5 years without 
doing anything, that certainly can't help the fish. Those are 
great decisions.
    Second, you know, maybe there will come a point down the 
road where the science is refutable and maybe you'll change--
you know, political will might change. I understand that it is 
not there now.
    But, you know, I understand that there's families, there's 
people on this river system whose lives would be changed if 
these dams are ever breached, and there is, as far as I know, 
no committee or policy looking for some sort of mitigation down 
the road. I'm not saying it has to happen. I'm just saying, as 
slow as things seem to move, we might as well get started now 
looking for some sort of economic mitigation down the road.
    We talked yesterday a little bit that Senator Slade Gorton 
seems to be really adamantly opposed to this, even to the point 
of trying to attach riders to delay things even more, and that 
just seems to me that none of that is helpful. I mean, maybe 
not breach the dams today. You know, I understand that it is 
going to take a political will to make that happen.
    But, like I said, this is my first time to Washington, and 
I see how things kind of move here. You need to get started 
now.
    Senator Crapo. Thank you.
    Mr. Bosse.
    Mr. Bosse. Thank you, Mr. Chairman.
    I agree wholeheartedly with you that there are many things 
we can do right now to conserve these salmon, and I choose the 
word ``conserve'' very carefully because there is a very big 
difference between conserving these stocks and recovering these 
stocks.
    I think the science does show that we can get some very 
minor incremental benefits, but certainly do all we can to keep 
what we have by taking certain measures.
    I gave a briefing paper to Governor Kempthorne just last 
week while at Redfish Lake releasing some sockeye outlining 
some of the things that we shared support of.
    I think the general concept of restoring normative river 
conditions is something that all of the science has shown we 
must do, and that means a true spread-the-risk strategy where 
we don't put 85.3 percent of all the fish in barges and trucks, 
like we did this year, under a purported spread-the-risk 
policy.
    Senator Crapo. Which the Governors have generally moved 
toward.
    Mr. Bosse. Absolutely. In the State of Idaho, certainly 
from Governor Batt to Governor Kempthorne, and also with the 
other three Governors in the region.
    I think the reason we are transporting all these fish, if 
you look at this year, is that we have some of the worst 
migration conditions in the lower Snake River that we've ever 
recorded. We achieved flow targets that the National Marine 
Fisheries Service set in its last biological opinion 20 out of 
144 days this year. We're not just missing flow targets 
frequently, we're missing them by so much it's not even funny. 
If the target is 50 yards away, the arrow is landing 3 feet 
away from the person that's firing the arrow.
    We can also put irrigation screens on diversions that 
remain unscreened. In Idaho, for instance, in the Lemhi River, 
the Pasimari River, the Upper Salmon River, there are many 
unscreened irrigation diversions.
    We can reduce predators in the lower Columbia River 
estuary. We can reform hatchery operations so that wild fish 
are not as negatively impacted as they currently are. We can 
increase in-stream flows in places like the Lemhi River in 
Idaho where the very few and very expensive fish that return to 
spawn are looking at 11 CFS of water in the Lemhi River.
    So there are a lot of things we can proceed with now, but 
for long-term recovery versus conservation some time we have to 
address the bigger issue and, of course, that's where we may 
differ right now. I hope we're on the same side of the debate 
the next time I come to Washington.
    Senator Crapo. Well, thank you. We will continue to engage 
in that debate, I'm sure.
    Mr. Masonis.
    Mr. Masonis. Mr. Chairman, if I understood your question, 
you were referring specifically to the main stem and the 
hydrosystem and what we can do short of breaching.
    Senator Crapo. Yes, but feel free to be flexible on just 
what we best need to do.
    Mr. Masonis. Well, I think Mr. Bosse touched on a number of 
the issues that encompass not only the main stem but also the 
tributaries.
    As far as the main stem Snake River goes, a true spread-
the-risk approach, which would reduce barging, as the Governors 
have stated they would like to see, involves other actions, 
necessary complementary actions. As Mr. Bowles testified on the 
last panel, there are river conditions that exist now because 
of inadequate flows that make the river a rather lethal 
migratory corridor.
    In order to change that, that means we are going to have to 
significantly increase flows and we are going to have to spill 
more water. Those things are all inter-connected--barging, 
spill, flow augmentation--so those things need to be given very 
serious consideration.
    The other thing I want to point out is with regard to fall 
chinook, which Mr. Bosse addressed earlier. The fall chinook 
are main stem spawners. They need the Snake River. Right now 
the only stretch of fall chinook spawning habitat in the Snake 
River is below Hell's Canyon Dam. A Bonneville Power 
Administration funded study that was recently conducted by the 
U.S. Geological Survey and Patel that looks at main stem 
spawning habitat concludes that the only way to recover fall 
chinook is to increase available main stem spawning habitat. 
That habitat is buried beneath the four lower Snake River dams, 
and the upstream habitat is blocked by Hell's Canyon. There are 
two fundamental choices there.
    It is interesting to note that the existing small stretch 
of spawning habitat below Hell's Canyon Dam, when they run it 
through their models, shows that zero spawners would use that 
habitat. That shows you how resilient these fish are that they 
are able to take advantage of something that naturally they 
would ignore in their spawning migration, but it also shows you 
how dire the need is to make very significant changes so we 
have a normative river in the Snake River.
    Senator Crapo. Thank you very much.
    I just have one more question, and, like usual, we are 
running short on time here.
    You heard yesterday a lot of talk about the need to build 
consensus. Frankly, I think that the Governors' effort is the 
best thing we've seen so far in terms of finding a path forward 
to get to consensus on the issue.
    In that context, Governor Kempthorne said yesterday--and he 
said it much better than I will rephrase it, but he said that 
he didn't think that we could implement any effective salmon 
strategy if we don't have at least a basic consensus in the 
region to move forward on that strategy.
    I agree with that. Said another way, the best science 
available might say to do X, but if X is going to be so 
economically or culturally or in other ways divisive to the 
political community that resides in the Pacific Northwest, I'm 
not sure that it is achievable.
    Mr. Batson and Mr. Bosse and you, Mr. Masonis, have all 
indicated that perhaps that political dynamic can change as 
information becomes available and options become expanded, or 
as we try other things and see how they work, and so forth. I 
think everybody needs to be flexible in terms of evaluating 
where we have to head on this.
    But in that context, I'd just like your brief observations 
on what you believe the proper role of consensus is in the 
region.
    Mr. Batson. I believe that it is not this Federal Caucus 
versus the four Governors' plan. I think that is very divisive. 
I think that as people read this, the more information they 
have, if you bring out the facts, I believe that people will 
make their own decisions.
    I read a poll done by Boise State University that 40 
percent of the people favored breaching, 40 percent were 
opposed, and 20 percent were undecided. That's real no one side 
really trying to lead the other. I just think that's people 
discovering the issue and making up their minds.
    When they see the NMFS plan say one thing and the 
Governors' plan kind of says another, I believe that that 
throws a real divisive curve into this process of educating 
people on this issue.
    Senator Crapo. Thank you.
    Mr. Bosse.
    Mr. Bosse. Mr. Chairman, yesterday I made a visit to 
Representative Nethercutt's office, and, as you well know, 
those four lower Snake dams are in Representative Nethercutt's 
District.
    Senator Crapo. Right.
    Mr. Bosse. He is very opposed to removing them.
    I met with his staffer, and the tendency in this debate has 
been to argue the science and argue the science, and everyone, 
even who is not a scientist, likes to be an armchair biologist. 
When we do that, I find that we get nowhere. So what I tried to 
do yesterday is I tried to change the conversation to, ``What 
economic impacts make some of your constituents opposed to 
removing these dams?'' Once we started talking about those very 
real and legitimate concerns, we had a productive conversation, 
because everyone has said in the region, everyone has said in 
the hearings, every politician, from Senator Gorton to you name 
it has said we want to save salmon. We all know that. The 
problem lies in the economic impacts of these various recovery 
measures.
    I think that the framework that the Administration has laid 
out in its draft biological opinion is workable. I think one of 
the positive things about it is it is adaptive management. It 
relies on trying some of the easier--politically easier and 
economically easier--alternatives first, and then, if they do 
not work, and we are sincere about restoring these fish, then 
we address dam removal. But it is a wise and prudent 
recommendation of theirs that we begin the economic transition 
and engineering studies now, and it serves no one to attach a 
rider onto an appropriations bill that precludes that from 
happening. That is not bargaining in good faith.
    Senator Crapo. Thank you.
    Mr. Masonis.
    Mr. Masonis. Mr. Chairman, I think that there is obviously 
a need for consensus to have action on this important issue to 
northwesterners, and really to the Nation, but what we cannot 
do--and I agree largely with Mr. Bosse on this--we cannot try 
to seek a consensus on the science, because we never will. 
Truly, a consensus where everybody agrees to everything is not 
going to happen.
    What we need to do is act on the best available science, 
and the best available science should set the sideboards for 
that debate as to what management actions to take.
    With that as guidance, I think we need to look at the 
individual management actions, and I'm going to stress the same 
thing that Mr. Bosse stressed, which is looking at the economic 
impacts associated with dam removal and making a sincere effort 
to develop transition and mitigation plans to deal with that.
    Our opinion at this time--and it hasn't changed over the 
years--is that the best available science says remove the Snake 
River dams if you are going to save these fish.
    The region needs to embrace that challenge, the economic 
challenge, and embark on a course that is constructive. 
Unfortunately, to date the debate has been so polarized, and 
because of the lack of clarity on the scientific issues we have 
not been able, despite our best efforts, to launch that 
constructive dialog, and we're looking for leadership to help 
us do that.
    Senator Crapo. Thank you, Mr. Masonis.
    I thank the entire panel. These issues are so critical and 
so intriguing that we could continue this for hours, but we 
have one more panel that needs to get up here, and so I will 
excuse you at this time.
    Again, we appreciate your input. We will continue to work 
on this.
    We'll call up our next panel now, which consists of: Ms. 
Sara Patton, who is the coalition director for the Northwest 
Energy Coalition from Seattle; Mr. Norm Semanko, the executive 
director and general counsel for Idaho Water Users; and Mr. 
Glen Spain, the Northwest regional director of the Pacific 
Coast Federation of Fishermen's Associations.
    We welcome all of you here with us today. Thank you for 
your patience. You are the last panel, but that doesn't mean 
that your input is any less needed or important than others. 
Again, I thank you. I guess you get the benefit of having 
listened to what everybody else had to say and got asked, so 
maybe you'll have a bit of an opportunity to be more prepared.
    I would like to, without any further ado, just begin in the 
order that you were introduced.
    Ms. Patton, you are welcome to proceed.

STATEMENT OF SARA PATTON, COALITION DIRECTOR, NORTHWEST ENERGY 
                     COALITION, SEATTLE, WA

    Ms. Patton. Thank you.
    First, I want to thank you, Senator Crapo, for asking us to 
testify and allowing us to testify on this issue that is of 
such importance to the people and the economy and the 
environment of the northwest.
    Senator Crapo. You're welcome.
    Ms. Patton. My name is Sara Patton, and I am the coalition 
director of the Northwest Energy Coalition. The Northwest 
Energy Coalition endorsed bypassing the four lower Snake dams 
in order to restore salmon and replacing the power from those 
dams with clean energy in November 1998.
    I want to talk a little bit about who the Northwest Energy 
Coalition is before going into the reasoning behind that 
endorsement.
    The Northwest Energy Coalition is an alliance of nearly 100 
member organizations in Idaho, Washington, Oregon, and Montana. 
It includes utilities, and those utilities include Emerald 
People's Utility District and Seattle City Light, both of whose 
governing boards have endorsed taking out the four lower Snake 
dams, replacing the power with clean energy, and mitigating the 
economic impacts on the communities affected.
    Our other members--lots of public interest groups spanning 
a broad spectrum, including environmental groups, good 
government groups, low-income groups, consumer groups. We even 
have a couple communities of faith and one sports fishing 
member group. We also have energy efficiency businesses and 
renewable energy developers.
    This is a diverse membership but it is united around a 
desire for a clean and affordable energy future for the 
Northwest.
    So the first question that the Energy Coalition faced in 
dealing with whether to endorse taking out the four lower Snake 
dams was the first one that you have been dealing with today. 
Does the science demand bypass in order to restore these 
magnificent fish? The Coalition board was convinced, indeed, 
that the science does demand that.
    The second question was: can we replace the power with 
clean, affordable energy from conservation and clean renewable 
resources. There are many members of the coalition which care 
just as much about water and air and climate change as they do 
about salmon, and they are not willing to tradeoff restoration 
of salmon for the pollution of air and the global climate 
change, so this is a very important question.
    The third question was, of course, mitigation for the 
affected communities, and the Coalition was convinced that you 
can do that, you can mitigate. It is worthwhile. It is 
affordable. We should be going forward with finding out what 
those measures are and how much they cost.
    But, going back to the question of clean and affordable 
energy to replace the power from these dams, we looked at it. 
We worked with the Natural Resources Defense Council, and I 
included in my testimony at least the preface, brought along a 
copy of ``Going with the Flow: Replacing Energy from Four Snake 
River Dams,'' and that study answers in the affirmative, yes, 
we can replace power. We can replace the power with clean 
energy and conservation renewables, and that power will cost no 
more than it would cost to replace the power from the market.
    In addition, we will still in the Northwest have power 
which is below market cost, as we are lucky to have today.
    That combination of measures is about 82 percent energy 
conservation and 18 percent renewables.
    I'm not going to go into the details of exactly how much it 
costs and where it comes from and where the conservatisms are 
in that study. Those are in my written testimony.
    I will say that we are looking at strong work going forward 
on conservation and renewables. Right now we've got about 350 
megawatts of wind generation being developed in the Northwest 
and about 60 megawatts of geothermal. That's good news.
    I also want to talk a little bit about timing. We have an 
energy crisis right now in the Northwest and on the west coast, 
and so this is a pretty important question with regard to power 
and taking out dams which provide power.
    I am going to say that the very earliest possible time that 
we could be looking at taking out the dams is 5 years. I think 
other people would tell me I'm crazy for making it that short a 
period of time. But, regardless, I'm saying 5 years because 5 
years is plenty of time to be able to produce the kind of power 
that we need to replace the power from the dams, and I want to 
tell you about some of the things that are going forward right 
now in order to do that.
    On the conservation side, utilities like Seattle City Light 
and Emerald and others are working hard to actually put into 
place, deliver the energy conservation that is available. 
Seattle City Light has been delivering six average megawatts a 
year of energy conservation. It is planning to go to 12, to 
double its effort.
    For example, BPA is working through its conservation and 
renewables discount and its conservation augmentation to do 
that, and Oregon and Montana both have some strong commitments 
to investment in energy conservation through their deregulation 
legislation.
    I've talked a little bit earlier about the geothermal and 
wind that is going forward.
    The other thing that is going forward at a very remarkable 
clip is the development of gas-fired combustion turbines.
    There is a new rush to gas. There are over 10,000 megawatts 
cited or proposed in the region right now, and about 3,000 are 
expected within the next 1 to 5 years. The 270 megawatt plant, 
Rathrum Plant, is one of those ones that is expected to be 
available fairly quickly.
    We will be working to push for the first priority to be 
given to energy conservation and to renewables. We will also be 
working to look for mitigation opportunities for the gas 
combustion turbines that are bound to come in.
    The conclusion I think is that there are plenty of 
resources being developed by the energy community right now, so 
that by the time we come to a dam decision the issue of whether 
there is enough energy will just not be an issue.
    I do want to say just a little bit more about the current 
electricity market problems.
    We were appalled that BVA reduced spill three times at 
least this summer--in California, for the wildfires in Montana 
taking out the coal strip lines, and for our own regional 
energy problems.
    It is pretty clear that the power suppliers in the 
Northwest and in California have been asleep at the wheel for 
at least 5 years, and the fish paid the price, and that was 
wrong.
    We are mending that now, but there are a lot of difficult 
months ahead. I think this is important for two reasons. One is 
that the cost pressures that California saw during this crisis 
are going to light the fire, re-ignite the fires that will 
cause them to consider once again pushing to move BPA from at-
cost prices to market prices, and they'll use that. We can 
certainly see that that's one more reason that we need to avoid 
salmon extinction, which is another cost that would go on to 
taxpayers and would give more fuel to that fire to take away 
one of the big economic drivers of our region.
    The other thing I wanted to mention about that is that the 
biological opinion--it is important to have a strong, clear 
biological opinion for the power managers in the region. 
They've got enough uncertainty to deal with, and we need one 
that will guide them and they'll know when and if they need to 
replace the power in the four lower Snake dams.
    With that, I will be happy to answer questions.
    Senator Crapo. Thank you.
    Mr. Semanko.

   STATEMENT OF NORM SEMANKO, EXECUTIVE DIRECTOR AND GENERAL 
             COUNSEL, IDAHO WATER USERS, BOISE, ID

    Mr. Semanko. Mr. Chairman, my name is Norm Semanko and I 
serve as executive director and general counsel for the Idaho 
Water Users Association. The association was formed in 1938 and 
represents about 300 canal companies, irrigation districts, 
public and municipal water suppliers, individuals, and agri-
businesses. We are also affiliated with the National Water 
Resources Association, which I serve as the board member from 
Idaho and also as their Federal Affairs Committee chairman. We 
do appreciate the opportunity to testify today.
    We understand the focus of this hearing to be two-fold. One 
is an examination of the science upon which Federal officials 
are relaying in writing their salmon recovery documents, and, 
No. 2, a determination of the extent to which the Federal 
Caucus has collaborated with States, tribes, and others in 
drafting these documents.
    I will address both issues.
    Idaho water users necessarily focus their attention on a 
specific set of issues pertaining to flow augmentation from the 
upper Snake River Basin. While the 12 species of salmon and 
steelhead that are listed under the ESA exist only downstream, 
as you well know, Mr. Chairman, of the upper Snake River, our 
part of the State has been called upon to contribute almost 
half a million-acre feet of water each year toward flow 
augmentation during the migration season of the salmon, 
particularly in the summer months.
    NMFS continues to call upon Idaho to supply this and 
additional water from U.S. Bureau of Reclamation reservoirs in 
the draft biological opinion. This is water taken directly from 
reservoirs which Idaho irrigators and other water users have 
relied upon and used for most of the past century.
    Mr. Chairman, the science is in on this issue, and it shows 
that it is a failed experiment. The augmentation using water 
from the upper Snake River Basin does not work. NMFS' continued 
reliance upon flow augmentation is without adequate scientific 
support and needs to be discarded from future salmon recovery 
discussions.
    In a recent white paper on flow augmentation, the Federal 
Government's own scientists--distinguish that from their 
policymakers--their own scientists have indicated that flow 
augmentation really doesn't work. Additional research on the 
topic by others, including the State of Idaho and our own 
scientists and researchers yields the same result. The 
information has been well documented and provided on several 
occasions to NMFS and other Federal agencies. Many examples can 
be provided to demonstrate how futile the flow augmentation 
experiment has been.
    Most astounding perhaps is the simple hydrologic fact that 
adding even increased amounts of flow to the lower Snake River 
would only increase the velocity of the water by \1/10\ of 1 
mile per hour at Lower Granite Dam.
    For this vain effort, we are spending taxpayer dollars and 
putting our economy and way of life at risk. It is only a 
matter of drought years coming, and we will feel the pain of 
providing this water.
    To date, this information has been ignored by the political 
decisionmakers in the Clinton Administration who find it more 
expedient to continue this failed program than to discontinue 
it.
    Idaho water users have participated in this experiment for 
the past 10 years, waiting for proof that flow augmentation 
works. Mr. Chairman, we are still waiting.
    To their credit, the Governors of the four Northwest States 
recently called upon NMFS to document the alleged benefits of 
flow augmentation. Draft amendments to the Northwest Power 
Planning Council's fish and wildlife program call for the same 
documentation, including a determination of the precise 
attributes of flow augmentation that provide any meaningful 
benefit to the listed species.
    We are proud of Idaho Governor Kempthorne's leadership 
role, the statement that he made yesterday, and in taking this 
important step, the first important step toward debunking the 
myth that flow augmentation using Idaho water can somehow save 
the fish. We know it cannot, and I have not heard anything 
different today.
    Flows from the upper Snake have slightly increased over the 
past 85 years, especially during the critical months, despite 
irrigation development in southern Idaho and the construction 
of the upper Snake project. The simple reason for this is that 
we store the water in the winter and early spring and we 
release it in the summer, and it doesn't take a lot of 
intelligence to figure out that there is more water in the 
river because of that, even though we are depleting some of the 
flows to provide irrigation.
    The scientific documentation for these conclusions is 
summarized in figures one through six, which are included in my 
prepared statement.
    It is worth noting here, Mr. Chairman, that the flows at 
Lower Granite have been about 31,000 CFS, on the average, over 
the last 84 years. NMFS has set flow targets between 50 and 
55,000 CFS at Lower Granite. It makes absolutely no sense.
    There is no scientific foundation for the conclusions in 
the draft BIOP regarding flow augmentation. It does not provide 
any benefits.
    We have provided one more chart that we'd like you to look 
at, and that's No. 7, figure seven of my prepared testimony, 
and it shows the minuscule contribution--the little black bumps 
at the bottom of the last page in my prepared testimony--the 
minuscule contribution of the upper Snake flow augmentation 
when compared to the entire flow of the Columbia Basin, the 
Columbia River.
    NMFS has said that flow augmentation helps from the upper 
Snake for the lower Snake, for the lower Columbia, and for the 
estuary, and you can see from that chart, alone, that that has 
no basis in fact.
    Mr. Chairman, by presenting this information I hope we have 
given you some idea of the degree to which the science used by 
the Federal agencies fails to support the conclusions regarding 
flow augmentation in the draft salmon recovery documents. We'd 
appreciate anything that you could do to bring this information 
to the light of the Federal agencies.
    On the other topic, Mr. Chairman, from our perspective the 
Federal agencies involved in salmon recovery, particularly 
NMFS, have failed to collaborate with interest groups such as 
ours in drafting these important documents. We have taken very 
seriously the task of reviewing this information and providing 
data to NMFS. We have taken virtually every opportunity to 
provide written detailed comments to NMFS on draft documents 
and analyses. To date, our concerns have been ignored. In some 
cases, as with our comments on the draft All-H paper, they have 
not been acknowledged at all.
    If the goal, Mr. Chairman, is to develop a regional plan by 
consensus, the Federal agencies have failed miserably. Anything 
that this subcommittee can do to correct this situation would 
be greatly appreciated.
    I do want to caution you, Mr. Chairman, though that this 
type of collaborative process needs to include everyone in the 
region. If that is done by having all of the interest groups, 
the States, and the tribes at the same table, that's great. If 
it happens with the four Governors through the process that 
they have initiated, that works, too. But we need to do 
something to get a true regional consensus. NMFS is not doing 
it for us.
    Thank you again for the opportunity to testify. I do look 
forward to the future hearings that will be held on this. I've 
talked to a number of other interest groups in the region. They 
have looked forward to that opportunity and they have a lot to 
say, as we do, about not only economics but also the science 
that has gone into the decisions that NMFS is making.
    Thank you.
    Senator Crapo. Thank you, Mr. Semanko.
    Mr. Spain.

 STATEMENT OF GLEN SPAIN, NORTHWEST REGIONAL DIRECTOR, PACIFIC 
 COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS, INC., EUGENE, OR

    Mr. Spain. Thank you, Mr. Chairman.
    Since I am the last speaker and I'm kind of low on the food 
chain, I'm going to cut to the quick here.
    We're commercial fishermen. We're family food providers. We 
harvest the bounty of the sea and the bounty that comes from 
our rivers. That bounty in the Columbia has steadily decreased 
over the last 40 years, and the final nail in that coffin, I am 
afraid, was the construction of the four lower Snake dams.
    There is a huge, huge cost of doing nothing. That cost has 
been borne by lower river communities, it has been borne by 
rate-payers, it has been borne by taxpayers. In mitigation 
measures, alone, it is well in excess of $4 billion, with no 
end in sight, to keep doing the same wrong things over and 
over. They obviously have not worked or we would not have 
virtually every stock in most of our basin listed under the 
Endangered Species Act. But it has also seriously impacted 
coastal communities and lower river communities.
    We represent commercial fishermen, not only in the Columbia 
River but as far south as San Diego and as far north as Alaska. 
We are the west coast's largest organization of commercial 
fishermen.
    These stocks, when they get to the estuary, they swim north 
and they swim south. They are the limiting factor now and have 
been for over 15, 20 years in several major fisheries. Although 
there are a lot of hatchery fish out there, we can't catch them 
because we cannot impact beyond certain caps these weakest 
stocks from the Columbia River.
    The Columbia River declines have also been the major 
precipitating factor in the international crisis with Canada 
that has been temporarily resolved. We have obligations under 
international law to Canada to continue free passage of fish 
from the Columbia, but there first have to be fish from the 
Columbia to get there.
    We cannot continue trying to replace wild fish with 
hatchery fish. Hatchery fish need the same river, the same 
habitat, which is seriously degraded all the way from the 
watersheds at the top in your State and beyond, on down to the 
estuary.
    We have serious problems throughout the system, and it has 
impacted our people enormously. I think we need to appreciate 
that.
    However, that means that an investment in recovery can 
bring back into the economy as much as $500 million a year 
every year in lost economic benefits that are now gone from the 
economy. This includes roughly $100 million from the Idaho 
economy, primarily steelhead fishing, and roughly 5,000 jobs in 
the Idaho economy that were fishing dependent that are not 
there or that will soon disappear.
    This is also an offsetting benefit for making the 
investment in a good plan that works.
    Now, our organization's interest is in restoring these 
runs. I have struggled, as you have struggled, to try to grasp 
the science, to try to deal with the policy issues, to try to 
find any way we can save these fish short of the breaching of 
the Snake River dams. We remain very skeptical that we can 
offset the 88 percent mortalities in the dams, as the draft 
BIOP already indicates, in the Snake River with the remaining 
12 percent from other sources, but we are willing to give it a 
try. We have always been willing to give it a try.
    My view, frankly, of the BIOP is the framework is there, 
but it is just a skeleton. We need to put some meat on it 
before it is going to get up and walk.
    We are going to have to have some specific details as to 
what gets done, who gets to do it, how much it is going to 
cost, and when it has to be done by. Specifically, there are 
some systemic flaws in the BIOP that need to be corrected, and 
quickly. One is lack of specific performance standards. We 
don't know what the goal is. Until we know what the goal really 
is in terms of runs, numbers of fish, restoration goals over 
time, we have a difficult task ahead of us ascertaining whether 
we're even meeting those goals.
    We need detailed measures on how to reach those goals. 
Right now there is a lot of good language there, but it is very 
general and vague. The Administration admits this. It is a 
draft. But once you've got the goals, once you've got the 
measures to reach the goals, then you have to cost it out and 
see who is going to pay for it and how much it is going to 
cost.
    We do not have that necessary detail in here. In fact, my 
understanding is that the Office of Management and Budget was 
asked for those numbers and they threw up their hands saying, 
``This is too vague. We cannot put price tags on any of these 
measures unless the measures are actually specific.''
    We also need check-ins much more frequently. We'll know 
within 3 years whether Congress, which is the prime performance 
standard here, is going to fully fund these measures.
    If Congress does not do that, or if people start cherry 
picking, as I understand is what is contemplated with various 
riders--block this, take this, whatever--the whole tapestry 
here is going to unravel pretty quickly.
    I am much more afraid of that than that we do these various 
measures and in terms of the cost, because the alternative are 
far worse. This is the only game in town right now. This 
framework has to be made workable or we have chaos in the 
region.
    As you are well aware, the whole Federal hydropower system 
in the region is right on the verge of serious chaos in the 
courts, chaos among various interest groups. There will be 
renewed calls for divesting the government of BPA altogether. 
We may have Treasury payment failures. All of these are at risk 
right now until we have a plan.
    As to the consensus, I think we have the beginnings of a 
consensus. We have about 90 percent convergence between the 
BIOP's framework and the Governors' framework. I think we can 
go that extra 10 percent pretty readily, but again we have to 
do the details.
    Finally, we have to we have some decision points. We cannot 
avoid making decisions. The cost of doing nothing is mounting 
as we speak. The economic dislocation in agriculture, in 
transportation, in power, in fishing, in down-river fishing 
communities, to fishing communities from central California, 
and all the way up to Alaska is mounting. We have these 
problems that we have to prevail against, and the only way we 
can do it is with the best available science.
    In terms of one of the suggestions, I am astonished, as you 
are, that the CRI, the guts of this whole plan, has never been 
peer reviewed. I'm astonished that the agencies have not taken 
advantage of the Independent Science Review Board that is 
already there, created by legislation with recognition of the 
need for better science. At least they should be asked to peer 
review, and I would ask you, as chairman of this committee, to 
require them or request them to peer review the CRI and its 
fundamental assumptions because, as you know, it is garbage in/
garbage out. You can have the best model in the world, but if 
your assumptions are flawed you get nowhere and you get no 
results.
    My Papa always used to warn us, ``Never spend more money 
doing the same wrong thing over and over if you can avoid it. 
Sit down and think it through first and try to do it better.'' 
I think we can do it better, and I think we really must do it 
better, not only for your people and your constituency but for 
my people and my constituency--who, by the way, are more than 
happy to work hand-in-hand with your committee, with upper 
river irrigators and interest groups, to work through 
mitigation, if necessary, and to work through alternatives if 
possible.
    I certainly pledge to you our efforts, as a coast-wide 
fishing organization, to work on those issues with you 
personally and with committee members.
    I want to emphasize one other thing, and that is that there 
are four elephants in this room. We are addressing but one. The 
other three are the Clean Water Act; tribal treaty obligations, 
which the courts, including the Supreme Court, take very 
seriously; and the Northwest Power Planning Act. Those we have 
to address in other forums, perhaps, but we must keep in mind 
that we have to address all four or we are going to have a lot 
of broken china in the room.
    Thank you.
    Senator Crapo. Thank you very much.
    To the entire panel, I appreciate your comments, just as we 
have each of the other panels.
    Ms. Patton, let me start with you. I appreciate the 
supplemental information you provided, as well, from the 
``Going with the Flow'' document, which I will review 
carefully, but I want to ask you a couple of questions in that 
context.
    If I understand your testimony right, it is that, from your 
analysis and the study that you have provided, that the energy 
losses from decommissioning the dams could be replaced. Is that 
accurate?
    Ms. Patton. Absolutely.
    Senator Crapo. At below cost prices?
    Ms. Patton. At below market cost prices.
    Senator Crapo. At below market cost prices.
    Ms. Patton. Yes.
    Senator Crapo. In that analysis, is that primarily relying 
on gas-generated electricity, or--I know you listed a number of 
other options there, but my understanding in the past has been 
that the economics weren't there for them to be really viable 
replacement alternatives. Are those becoming economically 
viable as replacement alternatives, or is it really the gas-
generated electricity that is the focus?
    Ms. Patton. This study was looking specifically at 
comparing a conservation and renewables package to a market 
package. The market package--I had the numbers in there, but it 
was primarily over 80 percent gas-powered combustion turbines, 
and the remainder I expected to come from coal. That was the 
package that BPA put together as the part of the draw-down 
regional economic workshop part of the EIS.
    Senator Crapo. OK.
    Ms. Patton. BPA put together that package using their 
models and said that was what the market would supply if BPA 
went out and went to the market for that power.
    So we were using that as our definition of market and 
looking to find out if we could find a combination of 
conservation and renewables that would meet that requirement 
and be at or below that cost, and we did.
    Senator Crapo. That is in this document?
    Ms. Patton. It's in this document. In fact, what has 
happened of late is that the cost of gas-powered combustion 
turbines has started to climb pretty precipitously with the 
increase in the cost of gas, the doubling of gas prices, and 
we're not totally real concerned about the pipeline 
capabilities and what we're looking at there, which means that 
you start adding costs. Right now the market price that the 
Power Council has used for--the Power Council did a new 
conservation potential assessment for the city of Seattle, and 
they are also putting together a new marginal value coming out 
of their regional technical forum work, and they are using a 
market value of about $0.04 to $0.041 a kilowatt hour, which is 
much higher than the one we used for this.
    What the effect of that is, is that if you have a higher 
marginal value more conservation measures become cost 
effective.
    Senator Crapo. Right.
    Ms. Patton. So you have a larger resource than we were 
looking at that's cost effective.
    Senator Crapo. Review briefly with me those conservation 
measures, just to refresh my memory.
    Ms. Patton. Well, they are the ones that everybody is 
familiar with--putting insulation in your attic and getting a 
more efficient washer/dryer, those kinds of things that we all 
use in our everyday houses.
    Senator Crapo. Right.
    Ms. Patton. But, in fact, a lot of this potential comes 
from commercial and industrial conservation, things like having 
more-
efficient heating, ventilation, and air conditioning in 
commercial buildings, more-efficient lighting. Lighting is a 
huge energy use in commercial, and there are lots of ways to 
improve that to make it more efficient.
    In industry there is an enormous amount of potential, from 
better motors, more-efficient motors, and more-efficient heat 
processes, and also from the same things that you find in 
commercial, the same lighting and heating and ventilation and 
the air conditioning, and a lot of that potential comes there--
a lot of it is very inexpensive, and a lot of it is less than 
$0.02 a kilowatt hour.
    In fact, the potential assessment that the Power Council 
did for Seattle City Light service territory found--and they 
continue to do conservation, one of the few utilities that 
stuck with it through thick and thin.
    Senator Crapo. Right.
    Ms. Patton. Yet, still in the future the Power Council 
analysis said there was between 180 and 240 megawatts of 
conservation at $0.02 a kilowatt hour or below that was 
achievable in the Seattle area.
    If we had a new regional conservation potential assessment, 
I think we'd find that these numbers are very conservative in 
terms of what is cost effective.
    Senator Crapo. If you are looking at $0.04, then it even--
--
    Ms. Patton. Yes.
    Senator Crapo [continuing]. Becomes more reasonable.
    Ms. Patton. Absolutely.
    Mr. Spain. Mr. Chairman, could I offer a real-life example?
    Senator Crapo. Go ahead.
    Mr. Spain. The utility district in Eugene, OR, where I live 
invested a few years ago in a Wyoming wind farm. I get 100 
percent of my power from that wind farm. My rates went up about 
40 percent over standard rates, but I also used a BPA-funded 
conservation program to insulate the house, put in double-pane 
windows, things that are required under modern construction 
anyway but weren't 40 years ago. My house leaked a lot. Now my 
power costs are 30 percent below the average for my neighbors.
    Senator Crapo. Even though you may be paying a higher rate?
    Mr. Spain. I'm paying a higher rate, but conserved over 50 
percent of the overall kilowatt hours because of the 
conservation program, 80 percent funded by BPA several years 
ago. That funding program has disappeared. Most conservation 
efforts are no longer funded by BPA or through utilities 
because BPA doesn't make that money available.
    Ms. Patton. But luckily we are starting to again.
    Mr. Spain. That is a serious, serious problem.
    Senator Crapo. So you have an example right here at the 
table, Ms. Patton, of what you are talking about.
    Ms. Patton. There are many examples, and great examples 
from industry and business.
    Senator Crapo. I don't know if it is in your testimony or 
in the document that you provided, but do you have information 
that shows the current economic cost of, say, solar power or 
wind power as opposed to gas production or hydro production or 
the like? Do you have something that compares the cost of all 
those? I realize that changes.
    Ms. Patton. I cited some of those numbers in the testimony. 
I was just getting from a friend at Enron an analysis of gas 
combustion turbines that said if you are under 250 megawatts it 
is about $0.037 a kilowatt hour; if you are over, you can get 
as low, they think, as $0.031 a kilowatt hour. That's bus bar. 
That's not yet delivered.
    Senator Crapo. Right.
    Ms. Patton. So there are still some more things to add on 
to that.
    Right now there is a big planned wind project called the 
State Line Project. It is 200 megawatts on the Washington side 
of the river and 100 on the Oregon side of the river. It is an 
expansion of the current VanSickle project. That's by FPL. They 
are expecting to come in in the mid $0.03 range on that wind 
because it is a big economies of scale.
    The average for wind is between--and I've got this. I want 
to make sure that I get--the price range for wind has been from 
$0.04 to $0.06. We're hoping to see that go down with the 
economies of scale, obviously.
    For geothermal, from $0.045 to $0.07, so we're getting 
close. Depending on what happens with natural gas, if it keeps 
going up----
    Senator Crapo. Then you could see some opportunity there 
for economic sense to make these shifts.
    Ms. Patton. Right, as well as if we find that we're willing 
to make the serious investments that we need to make in 
mitigation, CO2 mitigation, in order to make those gas plants 
safe for our whole globe.
    Senator Crapo. All right. Thank you.
    Mr. Semanko, I'm going to save you for last, since you're 
from Idaho. I'm going to go to Mr. Spain next.
    Mr. Spain, as I listened to your testimony, you answered 
most of my questions as you proceeded, but I want to make sure 
that I clarify what I understand you to be saying with regard 
to the BIOP.
    I understand the defects that you identified and listed, 
and I think those are similar to many that have been raised, 
but, in fact, in the latter part of your written testimony you 
indicated that a number of political leaders have stated that 
they believe that all other feasible measures throughout the 
whole system should be tried before resorting to 
decommissioning the dams, and that both politically and 
administratively that makes sense.
    So you agree then with the idea that we've got to see if 
some of these other things will work before we take the major 
step of decommissioning dams?
    Mr. Spain. I do, but there are a couple of caveats here.
    We have spent well over $4 billion trying to do things 
there to help fish and wildlife, and all the easy things have 
been done. Technical fixes to the dams, many of them have been 
done. Some have been tried and they failed. We have some 
concerns about what more can be done there.
    We can certainly do a lot more for down-river habitat and 
estuary habitat, particularly. Will Stelle's and NMFS' 
assessments--and I agree with these assessments--are that we've 
lost roughly 90 percent of the salmon productivity in the lower 
estuary below Bonneville. We could do much better there.
    There are clearly areas where tributaries need some 
cleanup. There are some screens problems. As you know, Senator 
Wyden and others have a bill to provide money for screens in, 
unfortunately, way too many unscreened diversions in the 
Columbia and elsewhere.
    We can do all of those things. The question that remains 
is, since each of those will give us a little increment and we 
are dealing within that 12 percent mortality for the Snake 
River runs, whereas the Snake River dams, according to the 
BIOP's own numbers, provide up to an 88 percent mortality, can 
we piece together enough benefit to offset the problems and--
the chart was up there--bring that up above 2 percent survival. 
The 2 percent is replacement. To get to recovery you need to 
get much higher than that. To prevent it getting worse you need 
to get to 2 percent. Right now we have been on the order of \1/
2\ of 1 percent, or less, for years.
    I think we can try a lot of things. As you point out, even 
if the decision were made today to breach the Snake River dams, 
it would take years to do it. Until that happens, there is a 
lot we can do. In addition, the BIOP, I think rightly, 
addresses the fact that there are eight listed runs that have 
nothing to do with the Snake River. They are Columbia River 
main stem runs.
    In order to address the needs of those other fish, we still 
have to do work in the estuaries, and we can get some bang for 
the buck for the Snake River out of that, too, so it makes 
sense to do the stuff that we can do aggressively, do it right, 
do it based on the best available science, do it efficiently, 
and do it as quickly as possible to try to get that benefit, 
and monitor the results, hoping that we can avoid the much-
more-difficult, much-more-divisive, as you point out, problems 
around breaching of the Snake River dams.
    Senator Crapo. Do you agree generally with the testimony 
that we've heard from a number of the other witnesses in these 
2 days of hearings that the focus of the BIOP right now may be 
a little too much in those other areas and not enough on the 
main hydrosystem?
    Mr. Spain. I think that is likely right. When we are 
barging in excess of 80 percent of the smolts, as happened this 
year, we can't continue doing that and say we're doing a 
spread-the-risk strategy. We can't continue doing that without 
looking at other ways and other alternatives, particularly 
since we know there is an immense, unquantified but large 
delayed mortality from those programs.
    We also know that it is a lot more expensive than leaving 
the fish in the river to begin with to take them out of the 
river, put them on a truck, drive the truck to a barge, take 
the barge down-river, and off-load them. That's all Federal 
money. If we leave them in the river to begin with, we don't 
have to do that.
    Senator Crapo. All right. Thank you.
    Mr. Semanko, you indicated in your testimony that flows 
have generally increased in the Snake River over the last 85 
years, and largely that's due--I assume you mean during the 
summer and fall--spring, summer, and fall timeframe?
    Mr. Semanko. Mr. Chairman, the period that we look at most 
critically is the 75-day period, the summer migration that NMFS 
requires that those flow targets be met.
    Senator Crapo. OK. So you're talking about the very--that's 
what I wanted to get at--you're talking about the timeframe 
which is when the fish are in the river?
    Mr. Semanko. That's true, although if you look at the 
records for the entire year as an average, that holds true for 
the entire year, as well.
    Senator Crapo. OK.
    Mr. Semanko. It goes down slightly in the spring, up 
slightly in the summer, and overall for the year it is up 
slightly.
    Senator Crapo. All right. I assume you've provided that 
information to NMFS?
    Mr. Semanko. We have, and in much more detail than we've 
provided it to you, and we'll be providing the subcommittee 
with a copy of the comments that we are submitting to NMFS 
again on this topic.
    Senator Crapo. Good. I do find fascinating the charts you 
provided. I'm looking here at figure seven, which is the one 
that you referred to at the end of your testimony. I wish 
everybody could see this. It's a little small, but it basically 
shows the flows in the entire Columbia River and--let's see, 
the Columbia River at the mouth and the Snake River at Hell's 
Canyon; is that correct?
    Mr. Semanko. Yes, and then the flow augmentation that is 
provided.
    Senator Crapo. So that shows the total flow, and then it 
shows what part of that flow is provided by the flow 
augmentation that is being asked from Idaho's up-river 
irrigators and others, water users. The chart is dramatic. It 
shows that it's just a little blip on the screen, basically, in 
terms of the magnitude of the water that is flowing in that 
river, which explains why those additional flows don't do much 
to increase speed of travel in the river.
    Now, I assume you provided this graph also to NMFS?
    Mr. Semanko. We have.
    Ms. Patton. What did they tell you?
    Mr. Semanko. They don't really have a response to it. The 
response to date has been that it provides some--Will Stelle's 
answer is the best answer I can give you, that it provides some 
incremental benefit, and if you start using the rationale that, 
well, this doesn't really help, and you apply that to every 
measure that they are trying to implement around the region, 
all of a sudden the biological opinion from 1995 falls apart, 
and we can't proceed that way. That's the best answer he gives. 
He doesn't really or they don't really address the data that 
we've provided them.
    Senator Crapo. Have you had an opportunity to collaborate 
with them--in other words, to sit down--my definition would be, 
in your case, to sit down at a table with them with your 
scientists and these charts and this information and to get 
their scientists and their analyses and to see if you could 
find some common understanding as to what the science is 
showing?
    Mr. Semanko. Mr. Chairman, the short answer to that is, 
``no'', We've made great efforts to try to meet with folks in 
the Federal agencies. We have been able to meet on occasion 
with people at the Bureau of Reclamation, the regional office 
in Boise, but getting past that, getting our information to 
NMFS and sitting down with them and discussing it is another 
matter altogether, and we have not been successful in having 
that occur.
    Senator Crapo. You've listened to the testimony over the 
last couple of days, haven't you?
    Mr. Semanko. Yes.
    Senator Crapo. Do you agree that during the next--I assume 
you agree that during the next 3\1/2\ months we have an 
important collaborative effort to undertake.
    Mr. Semanko. I agree, Mr. Chairman. I, myself, wonder if 
the massive type of collaboration that we're talking about can 
happen in 3\1/2\ months, or perhaps whether the four Governors' 
mechanism that's out there wouldn't provide a better vehicle.
    As we talked about several years ago on the other side of 
the Hill at another hearing, there have been other instances 
where Governors have been given authority to act in ESA 
matters, and the one that comes to mind is when Fish and 
Wildlife Service signed a cooperative agreement with the three 
Governors in upper Colorado Basin and said,

    You folks go ahead and figure out a way to solve this 
problem, and as long as it is within some broad parameters 
we're not going to give away our authority under the ESA but 
we're going to let you go ahead and run with the ball.

    If we had that kind of model in the Pacific Northwest to 
allow the four Governors to not only to come up with a plan 
that they hope someone is going to read, but to actually say, 
``Here's what the four Governors agree to, and as long as it is 
within some broad parameters scientifically we're going to run 
with that,'' I think that's something that we could achieve.
    We've begun that process, I think, thanks to Governor 
Kempthorne's leadership, but we are not quite there yet. We've 
just begun to develop a skeleton, I think.
    Senator Crapo. Thank you. You also testified that a number 
of other interest groups were very anxious to provide their 
input, and I want to again state that I am aware of that and 
wish we had a third day that we could do this right now, but we 
will be holding further hearings and that input will be 
provided.
    As I say, you've listened to the last couple of days 
comments on the science issues. Do you have an objective or a 
perspective on the science being utilized by NMFS right now 
versus the science that had been seemingly in the collaborative 
process that was existing before?
    Mr. Semanko. You know, Mr. Chairman, I'm not a biologist or 
a scientist. What I will tell you, though, is that I attend a 
lot of the meetings where these things are discussed, and you 
do owe it to yourself and to the subcommittee to hear from some 
other people. PATH is not, from what I understand, the be-all 
and the end-all of the science. There are a lot of other models 
and science that's out there that you need to listen to.
    I know the discussion about the so-called ``d-factor'' and 
delayed mortality is the key factor. It's an assumption. I 
understand whether you assume it one way or the other dictates 
whether the conclusion from any of the models is to breach or 
not to breach, and I can't tell you which one of those is 
right. All I can tell you is that there are other people in the 
region who have feelings about that, and you should hear from 
them.
    Senator Crapo. I appreciate that input, and we will hear 
from them.
    Mr. Semanko. Mr. Chairman, I might mention that, when you 
first announced these hearings, you mentioned that you would 
have several hearings, so nobody has ever questioned that. We 
fully believe that this is going to be a long and contentious 
process. It has been going on for a number of years, and it is 
not going to get solved in one hearing.
    I also wanted to mention, since I am qualified to answer 
legal questions, that this question about Judge Marsh's opinion 
in 
Department of Fish and Game v. NMFS, I was able to attend the 
hearings that Judge Marsh had in American Rivers v. NMFS in 
1995 and 1996, and he commented that, under the Endangered 
Species Act, as has been alluded to here today, there is no 
requirement for the Federal agencies to, in essence, come to an 
agreement with Federal or with State and tribal or other 
entities. He did, though, say that in his previous opinion he 
had said it is not reasonable for NMFS to proceed without 
considering--and in the case of Idaho Fish and Game v. NMFS 
they were not considering the input from the State and tribal 
biologists.
    So I think that that pushed the region toward having a 
collaborative process, but the sad fact is that ESA does not 
require NMFS to come outside of that black box at that point. 
If anything, they've done more than they are probably required 
to up until the last year or so when they've gone back behind 
closed doors.
    Senator Crapo. I think you've identified one of the 
concerns that I have with the overall Endangered Species Act 
process in that there is no formal requirement for 
collaboration, yet on issues, particularly issues such as 
significant as this and as large as this, I think the political 
reality is if we don't have collaboration that we'll simply 
have gridlock. That's one of the things I think we have been 
experiencing in the Pacific Northwest for years now.
    I appreciate once again all of you on the panel coming 
forward today and your effort and concern on these issues. 
Please continue to keep us informed, and we will continue to go 
out and take testimony and hear from all perspectives until we 
have it fully evaluated, and hopefully provide the kind of 
oversight that Congress can, as this process proceeds, to 
encourage the Federal agencies to proceed in a way that will 
help us move toward a consensus-based path for recovery.
    Once again, I thank everybody for coming. This hearing is 
adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Statement of Nicolaas Bouwes, Biometrician, Oregon Department of Fish 
                              and Wildlife
                               background
    Current management of the hydrosystem is guided by a Biological 
Opinion on 1994-1998 operation of the Federal Columbia River Power 
System and its supplement for listed steelhead (1995 Biological 
Opinion). The 1995 Biological Opinion contains specific measures for 
operating and improving the configuration of the hydrosystem in the 
near term. However, it deferred decisions about the long-term future 
operation and configuration of the hydrosystem until late 1999, when it 
anticipated the completion of a formal and deliberate assessment of 
three general alternatives. The decision about the long-term future 
state of the hydrosystem was deferred until 1999 because of significant 
uncertainties associated with the projected likelihood of survival and 
recovery of listed fish under each option.
    This assessment, referred to as the Plan for Analyzing and Testing 
Hypotheses (PATH) was shaped by Federal District Court orders arising 
from a challenge of the legal adequacy of the Biological Opinion on the 
1993 operation of the Federal Columbia River Power System (1993 
Biological Opinion) by the Idaho Department of Fish and Game and the 
State of Oregon, joined by four treaty Indian tribes. They argued the 
chosen jeopardy standard and the consideration of the reasonable and 
prudent alternatives (RPAs) to avoid jeopardy were arbitrary and 
capricious and otherwise not in accordance with the purposes of the 
Endangered Species Act (ESA). The District Court agreed and set aside 
and remanded the 1993 Biological Opinion and records of decision to the 
Federal defendants with instructions that they review and reconsider 
them. Rather than reconsider the challenged 1993 Biological Opinion, 
the Federal defendants opted to reconsider the newly issued 1995 
Biological Opinion. The following District Court orders guided their 
efforts:
    1. NMFS must consider relevant facts and articulate a rational 
connection between the facts found and the choices made. These choices 
included the choice of a standard, for which the District Court 
expressly rejected any attempt to impose bright-line definitions of 
survival and recovery. Instead, the District Court stated that, with 
respect to listed Snake River salmon, survival and recovery are 
virtually indistinguishable.
    2. NMFS must conduct a reasoned evaluation of all available 
information. The District Court found that NMFS arbitrarily and 
capriciously discounted low range assumptions without well-reasoned 
analysis and without considering the full range of risk assumptions. 
This was particularly problematic given the enhanced risk associated 
with the small size of listed Snake River salmon populations.
    3. NMFS must substantively consider significant information and 
data from well-qualified scientists such as the fisheries biologists 
from the States and tribes. The District Court directed NMFS to provide 
analysis and reasoned evaluation of submissions by such qualified 
scientists, with any rejection of such submissions thoroughly 
explained.
    4. NMFS must provide sufficient reasoned analysis of its 
consideration of alternatives and measures [for operation of the 
hydrosystem] to permit judicial review.
    In response to the District Court's findings, NMFS agreed in a 
Joint Statement of the Parties, filed with the Federal Report of 
Compliance, to several coordinating principles. Three of these 
principles are particularly germane to the purpose of PATH and led to 
its development.
    1. NMFS, for development of its hydrosystem biological opinion 
concerning the listed salmon, will use a regional analytical work 
group, including State agencies and the Columbia River Inter-Tribal 
Fish Commission, to provide technical analysis of biological parameters 
affected by fish passage through the hydrosystem and impacts on other 
portions of their life cycle.
    2. The Federal action agencies or NMFS will provide State agencies, 
tribal governments, and others as they deem appropriate, with a 
reasonable opportunity to provide new scientific and technical 
information on a draft biological opinion(s).
    3. Federal power system operators, the U.S. Fish and Wildlife 
Service (FWS) and NMFS will provide State agencies and tribal 
governments and others with an opportunity to meet to discuss the 
analysis of the expected effects of proposed actions in biological 
assessment(s) and biological opinion(s) before final decisions are 
made. In this regard, the Federal action agencies, FWS and NMFS will 
make available to State agencies and tribal governments and others 
documents containing data, analysis, and other information upon which 
the biological assessment and biological opinion rely.
    The PATH process was developed through a collaborative process and 
adopted by NMFS in 1995 to provide a biological framework for decisions 
concerning the listed Snake River salmon and steelhead, and most PATH 
analyses were completed in 1998. The PATH forum is an inclusive, 
regional analytical work group\1\ developed to provide technical 
analyses of biological parameters affected by fish passage through the 
hydrosystem and impacts on other portions of their life cycle. The PATH 
analyses evaluated factors responsible for the decline of ESA listed 
Snake River salmon and steelhead (retrospective analysis), and 
described a range of possible responses to alternative management 
actions (prospective analysis). The range of population responses to 
each management action described the ability and uncertainty in meeting 
the 1995 ESA jeopardy standards developed by the Biological 
Requirements Work Group (BRWG). In a memorandum from Randall Peterman, 
a world-renowned fisheries biologist reviewing the PATH process, to the 
NMFS chaired Implementation Team, stated ``it is fair to say that the 
PATH process, is the most comprehensive analysis of alternative 
hypotheses and management options that I have ever seen, heard about, 
or read about.''
---------------------------------------------------------------------------
    \1\ PATH participation was broadly represented by as many as 25 
scientists from State, tribal, Federal, and private institutions 
including NMFS, U.S. Fish and Wildlife Service, U.S. Geological Survey, 
U.S. Army Corps of Engineers, U.S. Forest Service, Bonneville Power 
Administration, Columbia River Inter-Tribal Fisheries Commission, Idaho 
Department of Fish and Game, Washington Department of Fish and 
Wildlife, Oregon Department of Fish and Wildlife, Columbia Basin fish 
and Wildlife Authority, University of Washington, and other private 
firms.
---------------------------------------------------------------------------
    The PATH retrospective analysis concluded that the most likely 
factor responsible for the decline of Snake River spring/summer chinook 
was the development and operation of the lower Snake River hydrosystem. 
PATH found that the management action most likely to improve Snake 
River salmon survival enough to meet the jeopardy standards over the 
greatest range of hypotheses, was breaching of four lower Snake River 
dams. The improved hydrosystem operations and increased transportation 
options did not meet the jeopardy standards over the majority of 
hypotheses evaluated.
    In 1999, NMFS announced their intention to delay the 1999 
Biological Opinion to 2000. NMFS also announced the beginning of their 
new analytical process, the Cumulative Risk Initiative (CRI). In the 
Lower Snake River draft Environmental Impact Statement, NMFS stated in 
their Anadromous Fish Appendix, that ``The CRI approach cannot replace 
PATH's detailed examination of modifications of transport or fish 
passage systems, and is not intended to do so.'' Instead, NMFS has 
stated that they elected to move away from the PATH process to the 
NMFS' CRI process because they needed a tool flexible enough to 
evaluate the impacts of hydro, habitat, hatcheries, and harvest on all 
listed stocks. We agree that these additional analyses are necessary; 
however, the established PATH process could have addressed these needs 
if the Implementation Team, who assigned PATH their analytical tasks, 
had deemed them necessary. In addition, PATH made considerable progress 
in investigating the improvements that might be expected from habitat 
restoration, alternative harvest reductions, and estuary mortality 
reduction in much greater detail than has been attempted by CRI. In the 
draft Biological Opinion, NMFS' has ignored the PATH findings and has 
relied on the CRI for the Snake River listed stocks and the 
Quantitative Analysis (QAR) for the mid-Columbia listed stocks. The CRI 
only evaluated ``modifications of transport, or fish passage systems'' 
and harvest for the Snake River listed stocks. Therefore, CRI is not 
used for the purposes NMFS has given to abandon PATH, but only to 
``replace PATH's detailed examination.'' The draft Biological Opinion 
should include a description of why the PATH process and their findings 
that were meant to provide the analytical basis for the 1999 (2000) 
Biological Opinion were abandoned in exchange for what NMFS admits is a 
less ``detailed examination''.
                 review of the draft biological opinion
    A great deal of effort has been made by Oregon Department of Fish 
and Wildlife to understand the 700 pages of draft Biological Opinion 
that describes the analytical approaches and rationale developed for 
the future operation of the FCRPS to ensure the survival and recovery 
of the 12 listed ESU salmon and steelhead. This review occurred over 
the last 6 weeks, and in general we are concerned that the conservation 
burden of the Federal hydropower system has not been adequately defined 
and has been inappropriately assigned to harvest, hatcheries, and 
habitat programs. The States and tribes should not shoulder the 
mitigation responsibility of the Federal hydropower system, nor should 
the responsibility be shifted from the mainstem to the tributaries and 
estuary without a full accounting of what limits the ability of the 
hydropower system to meet its mitigation responsibility. The following 
comments highlight shortcoming of the draft Biological Opinion that has 
led us to this conclusion.
    In general, the BiOp:
    1. Overestimates probabilities of survival and recovery for listed 
salmon and steelhead
    2. underestimates survival improvements necessary to ensure the 
survival and recovery of listed salmon and steelhead
    3. overestimates or, for some measures, does not estimate 
improvements to survival resulting from implementation of the 
Reasonable and Prudent Alternative (RPA)
    4. describes an RPA for operation of the Federal hydropower system 
that does not significantly change the status quo
    5. does not adequately explain whether the success of the RPA can 
be confidently described by proposed performance standards and measures 
after 5-8 years
    6. does not anticipate and have ready an alternative RPA, if the 
proposed RPA does not produce survival improvements necessary to ensure 
the survival and recovery of listed salmon and steelhead.
    Specifically:
    1. The BiOp overestimates the probability of survival and recovery 
for listed salmon and steelhead because analyses are based on 
optimistic assumptions.
    (a) Optimistic assumptions.--The BiOp evaluates jeopardy using only 
those assumptions that present an optimistic view of the status of 
listed salmon and steelhead. Assumptions used in the BiOp are not based 
on the weight of evidence. Nor, in the absence of evidence, are they 
conservative, i.e. they do not avoid placing undue risk on the listed 
species.
    (b) Extinction threshold.--The BiOp evaluates jeopardy using the 
probability of an absolute extinction of 1 fish/brood. In reality, 
populations are at significant risk of extinction well before abundance 
declines to 1 fish/brood. The National Marine Fisheries Service (NMFS) 
points this out in their description of Viable Salmonid Populations 
(McElhany et al. 2000). The Biological Requirements Work Group (BRWG) 
that NMFS formed to set threshold population levels for survival and 
recovery of listed salmon and steelhead also points this out. Using an 
absolute extinction of 1 fish/brood as the survival threshold under-
estimates the probability of real extinction for the listed species.
    (c)Definition of high risk.--The BiOp evaluates jeopardy by 
defining high risk as a 5 percent probability of extinction in 24 and 
100 years. This is inconsistent with the definition of high risk 
previously described by NMFS in the Anadromous Fish Appendix of the US 
Army Corps of Engineers' Environmental Impact Statement for juvenile 
fish passage improvements at Federal projects in the lower Snake River. 
In the Appendix, NMFS defines high risk as a 1-percent probability of 
extinction in 100 years. Relaxing the definition of high-risk under-
estimates the probability of real extinction for the listed species.
    (d) Base time period.--The BiOp evaluates jeopardy using a base 
time period that only includes stock status information for the years 
after the Federal hydropower system was constructed. The evaluation 
also uses stock status projections (returns that have not occurred) 
through 2004 in an attempt to reflect affects of recent good ocean 
conditions. By not including years before construction of the 
hydropower system, and by including stock status projections for future 
years, the BiOp under-estimates the decline in population abundance 
coinciding with construction of the hydropower system, and also over-
estimates the probability of survival and recovery.
    (e) Population summary statistic.--The BiOp evaluates jeopardy 
using a metric for population growth that assumes a linear decline in 
population levels. Evidence suggests that declines in population levels 
are non-linear (Oosterhout 2000). In failing to correct for a non-
linear decline, the approach over-estimates the probability of survival 
and recovery.
    (f) Hatchery effectiveness.--The BiOp evaluates jeopardy based on 
the assumption that hatchery effectiveness is low. Evidence suggests 
that hatchery spring and summer chinook that spawn in the wild in the 
Snake River may be as effective as wild spawners. Assuming hatchery 
effectiveness is low over-estimates the productivity of listed stocks, 
and consequently, over-estimates the probability of survival and 
recovery.
    (g) Density dependence.--The BiOp evaluates jeopardy based on the 
assumption that there is no density dependence, i.e. that populations 
can grow exponentially without limit. This assumption may be reasonable 
at low population levels, but not at population levels that approach 
recovery. Assuming no density dependence over-estimates productivity, 
and consequently, the probability of recovery.
    2. The BiOp underestimates the survival improvements necessary to 
ensure the survival and recovery of listed salmon and steelhead.
    (a) Necessary survival improvements.--Because the BiOp bases its 
evaluation of jeopardy on optimistic assumptions that over-estimate the 
probability of survival and recovery, estimates of the necessary 
survival improvements are too low. Consequently, the BiOp concludes 
that to meet the 24-year survival standard, necessary survival 
improvements for Snake River spring and summer chinook are less than 30 
percent over the life-cycle. This is an order of magnitude less than 
estimates of over 740 percent by Peters and Marmorek (2000) and of 280 
to 850 percent, based on smolt-to-adult ratios needed to meet the 24-
year survival standard used in the 1995 Biological Opinion.
    (b) Delayed mortality.--The BiOp evaluates jeopardy, for some 
stocks, using a ``full mitigation'' standard that is equivalent to 
survival through a natural river. This full mitigation standard was 
calculated based on the assumption that there is no delayed mortality 
of fish traveling through or transported around the Federal hydropower 
system. This assumption is not consistent with the direct evidence that 
delayed mortality exists and the indirect evidence that delayed 
mortality is substantial (NMFS 2000, Bouwes 1999, Schaller et al. 1999, 
Marmorek and Peters-SRP 1999, Marmorek and Peters 1998, Marmorek et al. 
1996). Assuming no delayed mortality under-estimates mortality related 
to the Federal hydropower system, and consequently significantly lowers 
the full mitigation standard. This, in turn, underestimates the 
survival improvement needed to meet the standard.
    3. The BiOp overestimates, or for some measures, does not estimate 
improvements to survival resulting from implementation of the 
Reasonable and Prudent Alternative (RPA).
    (a) Improvements in survival of juvenile salmon and steelhead.--The 
BiOp evaluates jeopardy based on the assumption that estimated 
improvements in survival of juvenile salmon and steelhead are primarily 
the result of the measures implemented under the 1995 Biological 
Opinion, and included as part of the proposed action. These 
improvements could be a result of using data from recent high flow 
conditions or an artifact of using different models to describe the 
base conditions.
    (b) Improvements in survival of adult salmon and steelhead.--The 
BiOp evaluates jeopardy based on the assumption that the RPA reduces 
losses of adult salmon and steelhead caused by the Federal hydropower 
system by 25 percent. No data or analyses are presented to support this 
assumption.
    (c) Hydropower system responsibility.--The BiOp does not adequately 
explain why certain assumptions were used, and not used, to determine 
the level of impact attributable to the Federal hydropower system. The 
BiOp relies on assumptions that require the least amount of hydropower 
system improvements by selecting ``best case'' scenarios.
    (d) Survival improvements from harvest, habitat and hatchery 
measures.--The BiOp evaluates jeopardy based on the assumption that 
``the greatest opportunity for 
survival improvements may lie outside the scope of the hydropower 
corridor''. This assumption is based on misleading ``numeric 
experiments'' rather than analyses of feasible management actions. No 
data or analysis is presented to support the conclusion that necessary 
survival improvements can be achieved from harvest, habitat and 
hatchery measures. Nor is there an assessment of risks of extinction 
and associated uncertainties under these measures.
    (1) Harvest rates.--The BiOp appropriately concludes that for wild 
Snake River spring and summer chinook, further harvest restrictions 
will not produce significant survival improvements and sets the overall 
fishery impact standard at the spring season 2000 level of 6-9 percent, 
which is a similar impact rate to the level of 
6-10 percent set by NMFS and captured in United States v. Oregon 
Management Agreements, 1996-99. It inappropriately indicates the 
majority (if not all) the spring and summer chinook impacts could be 
allocated to the Treaty Indian tribes because of Federal trust 
responsibility and the Federal view that tribal harvest has a priority 
legal standard over non-tribal harvest. The parties to United States v. 
Oregon negotiate Treaty Indian and non-Indian harvest sharing. A non-
Indian impact level of 1-3 percent is considered the minimum to conduct 
non-Indian selective fisheries on abundant Willamette and Cowlitz 
hatchery-stock spring chinook.
    (2) Harvest measures benefits.--The BiOp implies benefits from 
harvest restrictions on listed stocks other than Snake River spring and 
summer chinook, but fails to point out those restrictions must remain 
in place for decades, and that some require agreement with Canada.
    (3) Selective fisheries.--The BiOp does not clearly explain that 
while much focus of selective fisheries will be toward hatchery origin 
fish, selective fishery opportunities are available for healthy wild 
stocks (e.g., Mid-Columbia sockeye and upriver bright fall chinook 
salmon).
    (4) Fishery effort reduction program.--The BiOP does not clearly 
explain whether buyouts of commercial fishing licenses and permits are 
voluntary.
    (5) Hatcheries.--The BiOp suggests changes to artificial production 
programs, but only qualitatively assesses how changes will affect 
listed salmon and steelhead. In addition, the assessment erroneously 
attributes potential survival improvements to monitoring and evaluation 
of artificial production programs.
    (6) Habitat.--The BiOp does not describe specific measures for 
habitat protection and restoration in subbasins, nor does it include 
measures to increase mainstem spawning habitat for fall chinook in 
impounded reaches. It also does not explain how necessary survival 
improvements for Snake River spring and summer chinook will be 
achieved, given that it concludes that habitat measures offer little 
potential improvement and assigns Snake River subbasins a low priority.
    (e) Feasibility of timely implementation.--The BiOp evaluates 
jeopardy based on the assumption that harvest, hatchery and habitat 
measures are timely implemented and produce near-term survival 
improvements. However, it neither evaluates the feasibility and risks 
of implementing any of these measures, nor offers a ``game plan'' to 
ensure timely implementation. Survival improvements from habitat 
measures likely would not be realized for decades.
    4. The BiOp describes an RPA for operation of the Federal 
hydropower system that does not significantly change the status quo. 
The BiOp does not acknowledge that many measures in the 1995 Biological 
Opinion were not implemented as intended, or at all, for various 
anticipated and unanticipated reasons. As a result, the BiOp does not 
assess the likelihood that individual measures in the proposed RPA will 
be fully implemented.
    (a) Flow.--The BiOp does not designate meeting flow needs of listed 
salmon and steelhead as at least an equal priority with other uses of 
the water (e.g., power generation). It does not aggressively seek, nor 
does it describe steps to acquire additional volumes of water necessary 
to meet flow targets.
    (b) Transportation.--The BiOp does not acknowledge the considerable 
uncertainty in the potential benefits of transportation. As a result, 
it does not adequately spread the risk between transporting listed 
salmon and steelhead and leaving them to migrate in river by limiting 
the percentage of fish transported to no more than 50 percent.
    (c) Spill.--The BiOp reduces spill at The Dalles Dam from 64 
percent to 40 percent, despite the fact that no statistically 
significant results exist that indicate the need for the change.
    5. The BiOp does not adequately explain whether the success of the 
RPA can be confidently described by proposed performance standards and 
measures after 5-8 years.
    (a) Population summary statistic.--(<greek-l>)Although it is 
appropriate to use a life-cycle summary statistic such as <greek-l> as 
a performance measure, using <greek-l> alone may not incorporate 
variability. The BiOp does not clearly explain whether and how it 
incorporates variability in its measurement of performance. The BiOp 
also does not clearly explain whether the time series used to estimate 
<greek-l> is the 1980 to newest years or just the newest years.
    (b) Performance measures.--The BiOp does not clearly explain 
whether it will use consistent methods to compare performance before 
and after implementation of the RPA.
    (c) Evaluation of uncertainty and error.--The BiOp does not 
evaluate the feasibility of resolving uncertainty, or assess whether 
the analytical approach will be able to reject the null hypothesis that 
the RPA results in no survival improvement over current measures. It 
does not describe feasible experimental design options to manage 
uncertainty and error.
    (d) Experimental management.--The BiOp does not clearly state 
whether it embraces approaches that evaluate the value of what we can 
learn from efforts to ensure the survival and recovery of listed salmon 
and steelhead.
    6. The BiOp does not anticipate and have ready an alternative RPA, 
if the proposed RPA does not produce survival improvements necessary to 
ensure the survival and recovery of listed salmon and steelhead. The 
midpoint evaluation is not aggressive enough to avoid jeopardy given 
the unstated and likely great uncertainty of the RPA and the high 
probability of extinction.
    (a) The BiOp does not adequately assess the likelihood of recovery 
under an alternative RPA (e.g. dam-breaching) after 5 to 8 years, if 
the proposed RPA does not significantly improve survival 
(<greek-l>>0.95). If survival does not improve or continues to decline 
over the time period, extinction of certain populations may be 
unavoidable under any action.
    (b) The BiOp does not assess the lead time needed to implement an 
alternative RPA, nor does it describe what needs to be done in the 
interim to ensure timely implementation. It does not describe steps 
that must be taken now to satisfy NEPA requirements, get congressional 
authorization, complete mitigation planning etc, and have an 
alternative RPA ready to go, if needed. These steps could take 5-8 
years after their initiation to complete.
    (c) The BiOp cites significant uncertainty in survival improvements 
from dam breaching as a basis for deferring its consideration until 
some point in the future. However, the biological decision analysis 
completed as part of the Plan for Analyzing and Testing Hypotheses 
(PATH) project concluded that the benefits from dam breaching were more 
certain than non-breaching alternatives. The BiOp does not describe 
decision criteria it would use or the approach it would take to resolve 
conflicting assumptions, especially with respect to delayed mortality, 
and reduce uncertainties associated with the proposed RPA or an 
alternative RPA.
    (d) The BiOp cites the fact that only Ecologically Significant 
Units (ESUs) in the Snake River benefit from dam breaching as a basis 
for deferring its consideration until some point in the future. 
However, a number of measures in the proposed RPA only affect certain 
ESUs. The BiOp does not describe why this criterion is valid for one 
potential measure and not others. Problems with Snake River ESUs are 
not less significant because other salmon populations have subsequently 
been listed as threatened or endangered.
                               conclusion
    The perilous state of these ESA listed stocks is real; last year in 
two of the Snake River spring/summer chinook indicator stocks that 
spawn in pristine wilderness areas, zero fish returned. We may have 
already lost Snake River sockeye, and coho have gone extinct in the 
Snake River basin since efforts have been made to mitigate for the 
FCRPS. In the opinion of the ODFW, based on our assessment of the 
current data and analyses, the draft Biological Opinion does not use 
the best available scientific information to determine the management 
actions most likely to recover Snake River ESA listed stocks.
    The problems highlighted above underestimate the true risks to 
these stocks and thus, underestimate the survival improvement needed to 
avoid jeopardy. We also believe that the analyses used in the draft 
Biological Opinion do not identify factors most likely responsible for 
the decline in salmon and steelhead and, therefore, prescribe 
management actions that may not provide the greatest survival 
improvement to listed stocks. Specifically, the draft Biological 
Opinion shifts responsibility of hydrosystem mitigation away from the 
mainstem and onto habitat restoration, hatcheries, and harvest 
reductions. The benefits expected to occur from the RPA's offsite 
mitigation and the aggressive hydrosystem operations are subjective and 
unsupported. We believe these benefits are overestimated, particularly 
for the Snake River spring/summer chinook where harvest is already 
extremely low, are located in good to pristine habitat and thus been 
assigned the lowest priority for habitat improvements, and have no 
hatcheries in 6 of the 7 indicator stocks. The aggressive hydrosystem 
improvements under the RPA provide only a slight increase of the flow 
targets defined in the 1995 Biological Opinion, which often have not 
been met in the last 5 years. In fact, the draft Biological Opinion 
actually decreases flow targets for Columbia River chum. In addition, 
we do not believe that the described methods to assess the success of 
the RPA can convincingly determine if the RPA has achieved its goals, 
over the 5-8 year interim period. Finally, we do not believe the draft 
Biological Opinion adequately anticipates and has prepared an 
alternative RPA that can be immediately implemented if at the end of 
this interim period the current RPA has failed.
                               __________
Statement of Edward C. Bowles, Anadromous Fish Manager, State of Idaho, 
                      Department of Fish and Game
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify on the National Marine Fisheries Service (NMFS) 
Draft Biological Opinion (2000 BiOp) for operation of the Federal 
Columbia River Power System (FCRPS) and the Federal Caucus Draft 
Basinwide Salmon Recovery Strategy (Recovery Strategy). These documents 
will shape the region's focus for recovery efforts and thus profoundly 
effect the very existence and future of wild salmon and steelhead in 
the Snake River Basin.
    Your leadership on this issue, Mr. Chairman, is both refreshing and 
vital. I had the pleasure of testifying a couple times to your 
subcommittee in the House of Representatives, and found your approach 
thoughtful, open-minded and solution oriented. Your knowledge and first 
hand experience with the fish are unprecedented in Congress and reflect 
highly on your commitment to solve this decades-old tragedy. I think 
you would agree that there is something about personally watching wild 
salmon spawn or wrestling with a hatchery salmon on the end of your 
fishing line that helps make salmon recovery real and tangible.
    The intent of this testimony is not to advocate specific management 
actions, but to help ensure the best possible science provides the 
analytical basis of the draft 2000 BiOp and Recovery Strategy. The 
selection of recovery actions is a policy decision made in the context 
of biological and non-biological considerations. The role of the Idaho 
Department of Fish and Game (IDFG) is to help strengthen the scientific 
foundation from which various management alternatives are considered, 
and assess these alternatives from a biological and scientific basis. A 
strong scientific foundation for conservation decisions is a goal 
common to both the State of Idaho and the Federal Caucus.
    My professional judgment is that the draft 2000 BiOp and Recovery 
Strategy are doomed for failure on several fronts. For ecological, 
political and economic reasons, it is imperative that the 2000 BiOp and 
Recovery Strategy are set up for success, not failure. If the desire is 
to address all significant sources of ``discretionary \1\'' mortality 
(short of using breach and additional Idaho water) to see if fish 
recovery can be secured without breach, then the 2000 BiOp and Recovery 
Strategy should focus on: (1) the primary sources of discretionary 
mortality, and (2) implement aggressive actions to address this 
mortality. I am concerned that the draft 2000 BiOp and Recovery 
Strategy fail on both counts; the hydrosystem is no longer the focus 
and the proposed actions lack substance. This will waste significant 
time and resources on actions that cannot provide recovery because the 
actions do not address the primary sources of discretionary mortality. 
I believe this failure will eventually result in more draconian actions 
than may be necessary for success. This is a recipe for failure, with 
significant ecological, social and economic consequences.
---------------------------------------------------------------------------
    \1\ Discretionary mortality is the mortality beyond the natural 
baseline that can potentially be managed. Most discretionary mortality 
is anthropogenic, although some factors, such as avian and pinniped 
predation, are also partially linked to natural ecosystem processes.
---------------------------------------------------------------------------
    NMFS' estimates of expected improvement provided by Reasonable and 
Prudent Actions (RPA) identified in the draft 2000 BiOp accentuate my 
concern that the 2000 BiOp is set up for failure. The draft 2000 BiOp 
concludes current FCRPS operations constitute jeopardy, and then 
identifies a RPA to avoid jeopardy. Surprisingly, the RPA measures 
associated with juvenile spring/summer chinook migration through the 
hydrosystem are only expected to improve survival by 1-2 percent over 
current operations (2000 BiOp, pages 6-76 and 9-161, Tables 6.3-2 and 
9.7-6). NMFS then speculates on hoped for benefits in adult migration, 
habitat and hatcheries to make up the difference to get to no jeopardy. 
It is disappointing and perplexing that NMFS concentrates so little 
effort to improve survival associated with juvenile migration, when all 
other salmon managers \2\ in the Basin, and regional societies of 
professional fisheries scientists \3\, are in agreement that this is 
the primary factor limiting the survival and recovery of listed Snake 
River salmon and steelhead. It is also disappointing and perplexing 
that NMFS stakes such high hopes on improvements in adult migration, 
habitat and hatcheries, when available data indicates these benefits 
are unlikely to be biologically feasible. NMFS has not assessed 
feasibility, and all other salmon managers in the Basin are in 
agreement that these areas of discretionary mortality are less 
significant than hydrosystem impacts on juveniles, and cannot add up to 
recovery.
---------------------------------------------------------------------------
    \2\ The Salmon Managers are the state, tribal and Federal entities 
with statutory authority and responsibility for managing salmon and 
steelhead in the Columbia River Basin. These include Idaho Department 
of Fish and Game, Oregon Department of Fish and Wildlife, Washington 
Department of fish and Wildlife; Shoshone-Bannock, Nez Perce, Yakama, 
Warm Springs, and Umatilla tribes, United States Fish and Wildlife 
Service and National Marine Fisheries Service.
    \3\ Resolutions by the Idaho and Oregon chapters of the American 
Fisheries Society and the Western Division of the American Fisheries 
Society all identify the FCRPS as the primary factor limiting recovery 
of listed Snake River salmon and steelhead.
---------------------------------------------------------------------------
    If the decision to breach lower Snake River dams is deferred, I 
believe the Four Governors' Plan \4\ does a better job of keeping the 
primary sources of discretionary mortality in focus and embracing a 
conceptual approach to attempt to address these problems prior to 
breaching dams. Although there is no scientific basis for concluding 
Snake River salmon and steelhead are likely to recover with non-breach 
alternatives, interim actions focused on the primary sources of 
discretionary mortality can certainly benefit the fish. Available 
scientific analyses indicate these actions will help moderate 
extinction risk, will increase the frequency of rebuilding 
opportunities, and will increase the frequency of harvestable hatchery 
surpluses compared to current operations, even though they are unlikely 
to provide the magnitude of survival benefits required to secure 
recovery.
---------------------------------------------------------------------------
    \4\ Recommendations of the Governors of Idaho, Montana, Oregon and 
Washington for the Protection and Restoration of Fish in the Columbia 
River Basin, July 2000.
---------------------------------------------------------------------------
    In general, the structure of the draft 2000 BiOp and Recovery 
Strategy is 
adequate to frame the scientific information. The problem is that the 
underlying scientific information used in the documents has several 
fundamental errors and omissions. These errors and omissions alter the 
conclusions, accentuate uncertainty beyond the limits of scientific 
objectivity, and result in a misleading depiction of the fundamental 
choices that face the region if salmon recovery is to succeed. The 
technical information currently available is adequate to produce a 
biologically sound and scientifically defensible 2000 BiOp and Recovery 
Strategy. If the errors and omissions are corrected, we believe the 
documents can accurately represent the biological component of recovery 
options, which policymakers can consider along with important social 
and economic information in determining recovery actions.
    The remainder of my comments will identify the procedural and 
technical aspects of the draft 2000 BiOp and Recovery Strategy that 
heighten the risk of failure and identify changes necessary to promote 
success.
                             collaboration
    The draft 2000 BiOp and Recovery Strategy are Federal products 
developed without true collaboration with State and tribal fisheries 
scientists. Many of the State and tribal technical concerns could have 
been addressed during development of these documents if NMFS would have 
allowed collaboration on its Cumulative Risk Initiative (CRI) \5\. The 
CRI analyses provide much of the scientific basis for the draft 2000 
BiOp and Recovery Strategy. The CRI analyses are also the primary 
source of the scientific errors and omissions in these Federal 
documents, which result in misleading conclusions. Although the 
ramifications of these errors and omissions are significant, they can 
be easily corrected for the final Federal documents if scientific 
collaboration is allowed.
---------------------------------------------------------------------------
    \5\ The CRI is an analytical process established by NMFS in 1999 
and comprised on NMFS scientists. The primary purpose of CRI is to 
analyze extinction risks and conservation opportunities for listed 
salmon and steelhead in the Columbia River Basin.
---------------------------------------------------------------------------
    Collaboration means working jointly on scientific issues to develop 
methodologies and analyses that embrace the full expertise of 
appropriate State, tribal, Federal and independent scientists. True 
collaboration promotes defensible science through peer review, promotes 
broader acceptance and ownership of methodologies and results through 
active participation, and reduces the risk of institutional bias. 
Collaboration does not undermine the statutory authorities and 
responsibilities each participant brings to the process. Science 
developed collaboratively can provide a common foundation from which 
differing authorities and responsibilities can proceed accordingly.
    Recovery decisions facing the region are important and 
controversial. Sound science must lay the foundation for these 
decisions. Broad ownership of this science through collaboration is a 
vital step in developing recovery actions that will withstand judicial 
challenge and garner regional support. NMFS embraced true collaboration 
in PATH \6\, and has set up collaborative teams to develop recovery 
standards and plans for other listed salmon and steelhead ESUs in the 
Basin. It is disappointing and perplexing that NMFS chose to take a 
unilateral, non-collaborative approach in the Snake River Basin after 
PATH was discontinued. Inadequate time for collaboration is not a 
worthy excuse. PATH was a 5-year collaborative effort. Time was short 
only after PATH was abandoned.
---------------------------------------------------------------------------
    \6\ The Plan For Analyzing the Testing Hypotheses (PATH) is a 
collaborative analytical process established by NMFS in 1995 and 
comprised of State, tribal, Federal, and non-governmental scientists. 
The purpose of PATH is to help sort out conflicting scientific 
hypotheses regarding Snake River salmon and steelhead recovery issues, 
particularly in the context of management alternatives associated with 
the FCRPS.
---------------------------------------------------------------------------
    Regrettably, NMFS' track record for embracing collaboration with 
their State and tribal peers is dismal for Snake River science issues 
once PATH was discontinued. The current process is coordination, not 
collaboration. NMFS develops their methodologies and conducts their 
analyses unilaterally, then posts their information on a web page for 
comment, or holds a ``workshop'' to discuss their information. The 
States and tribes have spent considerable time and resources trying to 
insert their concerns and analyses into this process, but have little 
to show for their efforts \7\. When corrections have been made, it 
often seems adjustments are made in other standards or analyses to 
compensate so general conclusions remain the same. For example, NMFS 
made some necessary corrections to the rate of population growth that 
accelerated projected declines, but then NMFS arbitrarily lowered the 
survival standard, resulting in little change to extinction risk and 
the amount of improvement needed to avoid jeopardy. We have been 
encouraged by attempts of some NMFS scientists to establish more 
collaboration with our scientists, but opportunities remain sparse. 
Without collaboration on the draft 2000 BiOp or Recovery Strategy, the 
States and tribes are forced to try to correct errors and omissions 
through the formal and brief comment period. To add to this difficulty, 
new analyses by NMFS relating to the 2000 BiOp have come out in the 
middle of this comment period (Toole 2000).
---------------------------------------------------------------------------
    \7\ For example, Attachments A and B of IDFG comments on NMFS' A-
Fish Appendix describe some concerns and NMFS' response (IDFG 2000b).
---------------------------------------------------------------------------
    Scientific collaboration with State and tribal fisheries scientists 
was a key element of Judge Marsh's decision in IDFG v. NMFS \8\, and a 
key provision in the 1995 and 1998 biological opinions for FCRPS 
operations (NMFS 1995; NMFS 1998). To NMFS' credit, PATH was created to 
meet these mandates and represents a truly collaborative scientific 
approach to sorting out the science associated with the long-term 
recovery decision for Snake River salmon and steelhead specified in the 
1995 and 1998 FCRPS BiOps. NMFS and other Federal Caucus members were 
key participants in PATH.
---------------------------------------------------------------------------
    \8\ Idaho Department of Fish and Game v. National Marine Fisheries 
Service, 850 F. Supp. 886 (D. Or. 1994).
---------------------------------------------------------------------------
    As PATH conclusions began to clarify the science, NMFS suddenly and 
unilaterally began an alternative scientific process called CRI. 
Although the CRI analyses are non-collaborative, preliminary, and not 
fully analyzed or peer reviewed, CRI results became equal, if not 
greater, partners with PATH in defining the science in the Anadromous 
Fish Appendix of the Corps' Draft Environmental Impact Statement and 
the Federal Caucus' All-H Paper. This pattern continues in the latest 
draft 2000 BiOp and Recovery Strategy, which marginalize PATH results 
even further.
    Although the PATH and CRI analyses reach similar conclusions on 
several key points, there are also several key differences. These 
differences accentuate the need for continuing a truly collaborative 
process to help identify and frame the differences and help promote a 
convergence of the science where possible. Accentuating the 
differences, without an honest attempt to resolve the differences 
through scientific collaboration, is a disservice to the decision 
process established in the 1995 and 1998 FCRPS BiOps.
    I do not want to leave the impression that CRI is not constructive 
toward resolving conservation and recovery issues. The intent and 
general framework of CRI is to estimate extinction risks and identify 
and allocate opportunities for conservation. This is necessary for 
recovery discussions and decisions. Some of the CRI focus is in areas 
PATH did not focus, and thus brings new information for consideration. 
Other areas overlap, and provide an opportunity to corroborate results 
from the different scientific approaches. But for this effort to be 
constructive, the CRI analyses must be based on the best available 
information and incorporate State, tribal and independent expertise in 
helping resolve scientific disputes and uncertainties. We are confident 
that if NMFS and the Federal Caucus embrace this approach, PATH and CRI 
can be complementary rather than adversarial. If NMFS maintains an 
autonomous approach to CRI, the opportunity to clarify the science for 
recovery decisions will be lost and regional ``ownership'' diminished.
    It is important that recovery decisions are not delayed 
unnecessarily while the science is sorted out once again. We believe 
most of our concerns regarding possible errors and omissions in the CRI 
analyses can be addressed quite easily and quickly through 
collaboration. We are committed to working collectively with NMFS 
scientists to move this process forward.
                         scientific objectivity
    In IDFG v. NMFS, Judge Marsh was critical of ``arbitrary and 
capricious'' decisionmaking by NMFS in the 1993 FCRPS BiOp. Given this 
litigation history, it is perplexing why NMFS tended to select the most 
optimistic (i.e., least conservative) assumptions regarding extinction 
risk, lack of hydrosystem impacts, and the benefits of improving 
habitat and hatcheries in the draft 2000 BiOp and Recovery Strategy. At 
best, this approach appears inconsistent with the ESA requirement to be 
risk-averse in the face of scientific uncertainty when protecting 
listed species. At worst, this approach is poor stewardship when non-
conservative assumptions are accentuated and conservative assumptions 
ignored, in spite of scientific evidence to the contrary.
    For example, NMFS usually selected non-conservative assumptions for 
factors affecting the amount of survival improvements needed to avoid 
jeopardy. NMFS selected the optimistic assumption that small, 
threatened populations face no threat of an extinction vortex, in spite 
of theoretical and empirical evidence to the contrary (Dennis 1991; 
BRWG 1994; Botsford 1997). NMFS also selected optimistic assumptions 
for their extinction and survival standard, recovery standard, FCRPS 
hydrosystem performance standard, definition of high risk, hatchery 
effectiveness, years for time series, and effect of fish density on 
population growth rates (Table 1).
    NMFS also typically selected optimistic assumptions for factors 
affecting the amount of survival improvements attributed to existing 
and proposed measures in the 2000 BiOp. For example, NMFS selected the 
most optimistic assumptions to attribute hydrosystem improvements for 
any survival improvements of juvenile migrants since the 1995 BiOp, 
rather than balance this assumption with the possibility that model 
differences or high natural flow and spill from good water years could 
also account for these increases. In contrast, NMFS selected 
pessimistic assumptions regarding the effectiveness of breach on fish 
survival. NMFS assumed there is no delayed mortality associated with 
juveniles migrating inriver through the FCRPS, in spite of a wealth of 
information to the contrary (Marmorek et al. 1996; IDFG 1998, 1999, 
2000a, 2000b; Marmorek and Peters 1998; SRP 1998; Bouwes et al. 1999; 
Congleton et al. 1999; Schaller et al. 1999; NMFS 2000a) and no NMFS 
data or analyses confirming their assumption.
    The effect of NMFS accentuating non-conservative assumptions, 
regardless of scientific information questioning these assumptions, 
results in several fundamental errors in the Draft 2000 BiOp and 
Recovery Strategy: (1) underestimation of the actual extinction risk 
and overestimation of the probability of survival and recovery; (2) 
underestimation of the survival improvements necessary to avoid 
jeopardy and ensure survival and recovery of listed Snake River salmon 
and steelhead; and (3) overestimation of the ability of 2000 BiOp 
measures to provide necessary survival improvements.
    The collaborative decision analysis approach adopted by PATH 
incorporated the full spectrum of assumptions, uncertainties and weight 
of evidence in order to more objectively characterize risks and 
conservation opportunities (Marmorek and Peter 1998; Marmorek et al. 
1998; Peters et al. 1999).
    The 2000 BiOp and Recovery Strategy should present a more objective 
characterization of PATH results and uncertainty as a decision-analysis 
tool, across the full range of scientific debate and uncertainty, 
without bias toward assumptions promoted by NMFS scientists. There is 
much evidence in PATH, the draft Anadromous Fish Appendix and the ESA 
record as a whole that the hydrosystem is a source of both direct and 
delayed mortality of transported and in-river juvenile migrants. NMFS 
presents an unbalanced view of sources of extra mortality, emphasizing 
uncertainty for one of the listed populations (spring/summer chinook). 
All Snake River anadromous salmonids are threatened or endangered or 
extinct (coho), and have hydropower impacts in common. Alternative, 
non-hydro explanations of extra mortality posited by NMFS in the 
Federal documents should explain recruitment patterns for the entire 
suite of Snake River anadromous salmonids, but they do not.
    IDFG disagrees with NMFS decision to disregard the PATH Weight of 
Evidence process and the Scientific Review Panel weighted analysis. 
Full disclosure of the weight of scientific evidence for key 
alternative hypotheses, across species lines, should be presented in 
the final 2000 BiOp and Recovery Strategy.
                       objective risk assessment
    Risk assessment is critical to ESA decisionmaking processes. There 
will always be ecological and scientific uncertainty. The key to 
objective risk assessment is determining how to best meet the 
biological needs of the fish in the face of these uncertainties. There 
should be a clear recognition that lack of a decision, or delay, is 
actually a conscious decision that the uncertainties are too great to 
act on, and that the listed populations can survive the delay and still 
retain enough inherent productivity and diversity to remain poised for 
recovery. To moderate the risk, this approach should be coupled with 
aggressive actions in all possible areas that can be agreed on, 
recognizing the greatest uncertainty may actually be whether there will 
be any fish left to save once all the questions are answered.
    In my professional opinion, the amount of time available for 
decisionmakers to continue trying to sort out recovery options is 
largely dependent on the weather and the ocean. Available data indicate 
Snake River spring/summer chinook salmon can maintain current 
population levels, or even rebuild somewhat, when there are above 
average runoff conditions (e.g., high natural flow and uncontrolled 
spill) coupled with average or better ocean conditions (e.g., cool 
temperature and strong coastal upwelling) (Figures 1, 2 and 3). The 
same data indicate Snake River salmon can decline precipitously when 
runoff or ocean conditions are poor. The overall trend for salmon 
across the range of environmental conditions is downward. These 
environmental factors appear to influence adult returns and survival 
rates far more than any suite of management actions taken in recent 
years.
    Improved adult returns this year and projected for next year are 
largely the result of good runoff and ocean conditions. As long as 
these environmental conditions remain above average, Snake River salmon 
populations will likely persist or even rebuild slightly; allowing 
society some additional time to debate and experiment with management 
options. Conversely, if these environmental conditions do not remain 
above average (or potentially good runoff conditions are dampened by 
FCRPS operations \9\), then Snake River salmon populations will likely 
decline; making any additional delay risky for conservation and 
recovery of these fish. Dr. Petrosky, the lead fisheries scientist from 
IDFG on this issue, characterized NMFS' approach to salmon recovery 
thus: ``If we can always average above average, things should average 
out OK.'' Regrettably, that is not the way nature works, therefore this 
is not a risk-averse approach to species conservation.
---------------------------------------------------------------------------
    \9\ In 1999 and 2000, above average and average snowpack should 
have provided good spring runoff conditions, but inflexible FCRPS flood 
control operations coupled with cool or hot spring weather resulted in 
reduced flow and spill at critical times during the spring migration 
period (see TMT minutes).
---------------------------------------------------------------------------
    If additional aggressive actions to address the mainstem FCRPS are 
delayed, I recommend linking this decision to prevailing environmental 
conditions, particularly snowpack, runoff, mainstem water temperature 
and ocean temperature and upwelling. If these conditions deteriorate 
from what was observed for juveniles migrating during 1997-1999, then 
the FCRPS configuration decision should be revisited immediately and 
additional emergency actions taken in other sectors until FCRPS 
reconfiguration is authorized and implemented. These emergency actions 
should focus on actions with immediate and direct benefits to the fish, 
such as removing avian piscivores from the estuary, reducing pinniped 
predation, altering flood control operations to help maintain high 
springtime flows, increased mainstem spill, and additional harvest 
constraints.
    It will be both regrettable and scientifically unprofessional if 
recent and future changes in fish survival and abundance are credited 
to management actions without first factoring out the influence of 
natural runoff and ocean conditions. For example, if new management 
actions are implemented which are actually beneficial, but 
environmental conditions deteriorate relative to the baseline, then it 
may appear these factors are not beneficial when in fact they may have 
eased the impact of these deteriorated environmental conditions. 
Conversely, if management actions are credited for an upswing in 
survival and abundance, which are actually the result of improved 
environmental conditions, then a false sense of security can result in 
further delay and elevated risk when environmental conditions 
deteriorate.
    The history of debate on Snake River salmon recovery actually 
demonstrates this risk. Snake River salmon and steelhead declined 
precipitously in the late 1970's and ESA listing was avoided in 1980 
when the Northwest Power Planning Act ushered in a new period of 
management planning and action. Good outmigration conditions in 1982-84 
from high natural flow and spill at mainstem dams apparently resulted 
in an upturn in salmon survival and adult returns in the mid 1980's 
(Figure 1). At the time, this upturn was often equated with management 
actions (e.g., Raymond 1988). Environmental conditions shifted in the 
late 1980's and early 1990's, demonstrating that Snake River salmon and 
steelhead had not actually turned the corner toward recovery from the 
management actions. We are at risk of repeating this error again. 
Environmental conditions were once again above average during the late 
1990's, resulting in an upturn in fish survival and abundance at the 
turn of the century. The draft 2000 BiOp credits much of this upturn to 
actions implemented with the 1995 and 1998 BiOps (Draft 2000 BiOp, 
pages 6-75 and 6-76, Tables 6.3-1 and 6.3-2). Fish survival during the 
next 5, 8 and 10 years will be used to determine if the 2000 BiOp is 
successful, or if the breach alternative needs to be implemented to 
meet minimum needs of the fish. It is vital that the relative influence 
of environmental factors, such as above or below average natural runoff 
and ocean conditions, are factored out in the decision process. If 
decisions whether or not to breach are simply made based on annual 
population growth rates over a set number of years, then decisionmakers 
are basically playing breach roulette with the weather.
    Another important aspect of risk assessment is determining the 
biological consequences of being wrong. This assessment requires 
determining which actions are likely to have the most positive 
biological response even if decisions are made based on false 
assumptions. This assessment helps determine the most risk-averse 
alternatives.
    IDFG believes objective risk assessment in the final 2000 BiOp and 
Recovery Strategy will demonstrate:
    <bullet> Snake River ESUs are imperiled, particularly at the 
population level; providing recovery requires a substantial improvement 
(e.g., three-fold) in overall life cycle survival;
    <bullet> the most risk-averse actions, for all species and runs 
(recognizing the full range of scientific debate and uncertainty) must 
address direct and delayed effects of the FCRPS, coupled with immediate 
actions regarding harvest, predation, early ocean and estuary survival 
and degraded tributary habitat; and
    <bullet> resolution of uncertainty adequate to change these 
conclusions is unlikely to be gained through an additional 5 or 10 
years of research.
    The importance of the 2000 BiOp and Recovery Strategy to long-term 
recovery decisions accentuates the need for objective risk assessment. 
This is why a more collaborative approach should be embraced prior to 
completion of the 2000 BiOp, Recovery Strategy and Corps Lower Snake 
River Feasibility Study/EIS.
  scientific approach for assessing jeopardy and conservation actions
    There are several important scientific steps that must be taken to 
determine biologically defensible recovery strategies:
    (1) determine extinction risk and survival and recovery standards 
for jeopardy,
    (2) determine the amount of survival improvements needed to avoid 
extinction and meet survival and recovery standards,
    (3) determine fish mortality and allocate among life stages,
    (4) determine the amount of discretionary mortality above the 
natural baseline,
    (5) assess management opportunities to address this discretionary 
mortality,
    (6) select a suite of management actions that are likely to provide 
the necessary survival improvements, and
    (7) develop an aggressive monitoring and evaluation plan to assess 
effectiveness within the context of environmental variability.
    None of these steps can be avoided.
    As mentioned earlier, the general structure of the draft 2000 BiOp 
and Recovery Strategy is adequate to frame the necessary scientific 
information. The problem is that the scientific information used in 
these steps has several fundamental errors and omissions, and some 
steps, such as determination of discretionary mortality and ability of 
management actions to address this mortality (i.e., biological 
feasibility), were not included in the NMFS analysis.
    IDFG is currently preparing formal comments on the draft 2000 BiOp 
and Recovery Strategy, which will hopefully be submitted as part of the 
official State of Idaho comments. These comments are due September 25, 
2000. IDFG has commented extensively in the past on the Federal 
scientific analyses used in the draft 2000 BiOp and Recovery Strategy 
(IDFG 1999, 2000a, 2000b). We only provide a brief synopsis of these 
concerns in this document and request the subcommittee refer to our 
prior documents, as well as the comments we will be completing this 
month, for more detailed discussion.
Step 1: Determine extinction risk and survival and recovery standards 
        for jeopardy.
    NMFS used optimistic assumptions to evaluate extinction risk and 
lowered the standards used for jeopardy relative to the 1995 and 1998 
FCRPS BiOps. The effect of these errors is underestimation of actual 
extinction risk and reduction in the amount of survival improvements 
necessary to avoid jeopardy. To correct these errors, NMFS must include 
a more objective range of assumptions regarding extinction threshold, 
depensation, definition of high risk, hatchery effectiveness and 
density dependence.
    NMFS should also adhere to the survival and recovery standards 
developed collaboratively as a result of IDFG v. NMFS (BRWG 1994; 
Marmorek et al. 1998) and the jeopardy standards established in the 
1995 and 1998 FCRPS BiOps (NMFS 1995, 1998). NMFS apparently has 
shifted from a focus on recovery, to simply trying to avoid absolute 
extinction. The 2000 BiOp should develop a clear ``crosswalk'' linking 
the earlier jeopardy standard developed collaboratively to the standard 
currently proposed by NMFS. IDFG believed the standard developed for 
the 1995 BiOp was not conservative enough to protect Idaho's wild 
salmon populations, and objects to any attempts to ``lower the bar'' 
even farther.
    For example, NMFS defined a ``moderate to high probability of 
recovery'' as only a 50:50 chance that the standard would be achieved 
within 48 years (NMFS 1995; 2000b). The IDFG v. NMFS collaborative 
process recommended 24 and 48 year recovery standards (BRWG 1994), but 
NMFS selected a standard for only the 48-year period (NMFS 1995). NMFS 
now states: ``It may be unrealistic to expect populations to return to 
recovery abundance levels within this time period [48 years],'' and 
therefore introduced a 100 year standard (draft 2000 BiOp, page 1-12).
Step 2: Determine the amount of survival improvements needed to avoid 
        extinction and meet survival and recovery standards.
    The problems identified in Step 1 carry over into Step 2. NMFS' use 
of optimistic assumptions regarding extinction risk, lowering of the 
jeopardy standard, and assumption that populations can grow 
exponentially result in the perception of less difference between the 
current productivity of the fish and the productivity necessary to 
avoid extinction and provide recovery. This narrowing of the gap by 
NMFS is not scientifically supportable.
    Thus the draft 2000 BiOp concludes that approximately a 30 percent 
improvement in lifecycle survival of Snake River spring/summer chinook 
is necessary to meet the 24-year jeopardy standard. Because the CRI 
approach includes such optimistic assumptions (Table 1), it is not 
surprising that this estimate is far lower than estimates for recovery 
that include less optimistic assumptions (IDFG 2000a, 2000b; Peters and 
Marmorek 2000). These assessments indicate a 170 percent or more 
improvement in lifecycle survival is needed for recovery of Snake River 
spring/summer chinook.
Step 3: Determine fish mortality and allocate among life stages.
    The CRI analysis used in the draft 2000 BiOp and Recovery Strategy 
does address one concern expressed by other Salmon Managers regarding 
allocation of overall lifecycle mortality of Snake River spring/summer 
chinook salmon (IDFG 2000a, 2000b; STUFA 2000). CRI now uses 
empirically derived estimates of smolt-to-adult survival to solve for 
egg-to-smolt survival, similar to the approach recommended by the 
Salmon Managers. Mortality allocation issues related to delayed 
hydrosystem mortality (smolt-to-adult) were not resolved in the CRI 
analysis.
Step 4: Determine the amount of discretionary mortality above the 
        natural baseline.
    NMFS failed to determine the amount of discretionary mortality for 
each life stage above the natural baseline. This step is crucial to 
developing recovery strategies because it allows decisionmakers to 
focus actions on the primary limiting factors that can be managed. The 
majority of mortality in the lifecycle of salmon and steelhead is 
natural mortality that has little chance of being improved by man. 
Effective recovery strategies will focus on the discretionary mortality 
beyond this natural baseline, which is usually the result of 
anthropogenic factors.
    Available data indicate relatively little discretionary mortality 
of Snake River salmon and steelhead during the egg-to-smolt stage, and 
relatively large discretionary mortality during the smolt-to-adult 
stage. Potential survival improvements from addressing the 
discretionary mortality in the egg-to-smolt stage (i.e., spawning and 
rearing habitat) range from 0-34 percent for seven indicator 
populations (median 6 percent) (Marmorek et al. 1998; IDFG 2000a). 
Estimated potential survival improvements from addressing discretionary 
mortality during the smolt-to-adult stage is over 200 percent, based on 
survival trends of comparable upriver and downriver stocks (Figures 3 
and 4) (Marmorek and Peters 1998; IDFG 2000a, 2000b; STUFA 2000).
    The draft 2000 BiOp and Recovery Strategy imply much of this 
mortality in the smolt-to-adult life stage is not discretionary because 
smolt transportation has largely fixed the dams and NMFS assumes no 
delayed mortality of fish migrating inriver. NMFS assumes the extra 
mortality must be associated with non-discretionary ocean conditions, 
discretionary estuary conditions (e.g., estuary habitat and predators), 
and delayed effects of discretionary conditions during the egg-to-smolt 
stage (e.g., hatcheries and spawning and rearing habitat). Although the 
potential sources of discretionary mortality in the estuary (e.g., 
avian and pinniped predators) should be addressed, NMFS' assessment is 
not based on the weight of scientific evidence.
    NMFS concurs that the level of delayed or ``extra'' mortality 
associated with the fishes' hydrosystem experience is pivotal to 
survival and recovery decisions for the Snake River ESUs (NMFS 1995, 
1998, 1999, 2000b). Given the importance of this issue, NMFS should 
have devoted much of the draft 2000 BiOp and Recovery Strategy to an 
objective and thorough assessment of the weight of scientific evidence 
supporting or not supporting this source of mortality. Regrettably, 
NMFS failed to take this approach and instead accentuated uncertainty 
and recommended more study.
    The final 2000 BiOp and Recovery Strategy should include full 
disclosure of compelling scientific evidence for substantial delayed 
effects of the hydrosystem experience. This evidence includes:
    <bullet> continued downward trend of adult returns and survival for 
all species and runs of wild Snake River salmon and steelhead since 
completion of the FCRPS;
    <bullet> an average 65 percent additional mortality (and thus 
potential 200 percent survival improvement) for upriver spring/summer 
chinook stocks relative to their downriver counterparts since 
completion of the FCRPS, and synchronous common-year effect of 
mortality factors experienced by both upriver and downriver stocks 
(e.g., additional lower Columbia River dams, estuary and early ocean 
conditions, disease (except as related to smolt transportation), 
harvest, hatcheries (except as related to smolt transportation), lower 
river and estuary predators, and climate);
    <bullet> less disparity between survival of comparable upriver and 
downriver indicator stocks when outmigration conditions are more 
favorable (e.g., high natural runoff and spill);
    <bullet> elevated post-Bonneville mortality of transported fish 
relative to uncollected inriver juvenile migrants;
    <bullet> elevated post-Bonneville mortality of transported fish 
relative to inriver migrants based on current collection and 
transportation operations (`D'-value less than 0.74);
    <bullet> transport and control ratios (T:C) that do not demonstrate 
a transport benefit relative to ``true'' inriver migrants passing dams 
via the spillway or turbines;
    <bullet> contrasting reservoir-reach and smolt-to-adult survival 
patterns based on a number of collections (i.e., PIT tag detections) at 
dams;
    <bullet> different survival of fish relative to transport location; 
and,
    <bullet> the preponderance of scientific evidence demonstrating 
adverse direct and indirect consequences of exposing plant and animal 
species to anthropogenic factors completely outside of their 
evolutionary history.
    The above points are discussed in more detail in prior IDFG 
comments (IDFG 2000a, 2000b).
    The final 2000 BiOp and Recovery Strategy should also explicitly 
incorporate previous assessments of the weight of scientific evidence 
associated with various models and assumptions relating to FCRPS and 
non-FCRPS sources of mortality (IDFG 1998, 1999, 2000; Marmorek and 
Peters 1998; SRP 1998). NMFS' disregard for the PATH weight of evidence 
analyses (Marmorek and Peters 1998; SRP 1998) is particularly 
discouraging.
    The draft 2000 BiOp and Recovery Strategy also fail to provide a 
thorough and objective assessment of the weight of scientific evidence 
indicating other factors, not related to the hydrosystem, are primarily 
responsible for masking benefits of smolt transportation and other 
FCRPS measures, particularly within the context of the evidence 
described above. This line of reasoning and weight of evidence must be 
able to rationally address the full biological picture observed in the 
region.
    The draft 2000 BiOp and Recovery Strategy should clearly describe 
the assumptions that must be true in order to conclude that current 
operations (e.g., smolt transportation, flow augmentation, spill, etc.) 
have successfully compensated for the adverse effects of the FCRPS. 
NMFS should then describe the weight of scientific evidence and theory 
for and against these assumptions.
    For smolt transportation to provide survival benefits to offset the 
FCRPS related direct and delayed mortality, the following assumptions 
must be true: (1) ``extra'' mortality apparent for upriver stocks (for 
all species and runs) originated about the same time the FCRPS was 
completed, but is not related to the dams; (2) this extra mortality 
occurs in the estuary and ocean but is selective for Snake River fish 
(while excluding downriver stocks) and is not related to delayed 
effects of the dams or smolt collection and transport; (3) upriver 
stocks (including Snake River) go to ``worse'' spots in the ocean than 
downriver stocks (particularly after poor outmigration conditions 
evidenced by low mainstem flow and spill), but this behavior began only 
after completion of the FSRPS and is unrelated to the hydrosystem 
experience; (4) upriver stocks do not go to ``worse'' spots in the 
ocean when outmigration conditions are associated with high natural 
runoff and spill; (5) if ocean conditions are not the cause of 
``extra'' mortality, then elevated disease and/or poorer genetics and 
less productive freshwater habitat accounts for this mortality, but it 
is not expressed until fish arrive at the estuary or ocean, is not 
related to the hydrosystem experience, and is apparent only in upriver 
stocks; and (6) extra or delayed mortality of Snake River stocks is not 
substantially higher for fish transported than those that migrated in-
river and the delayed mortality of both groups is unrelated to the 
hydrosystem experience.
    The weight of scientific evidence supporting this narrow set of 
assumptions is low (IDFG 1998, 1999, 2000; Marmorek and Peters 1998; 
SRP 1998). If NMFS chooses to accentuate this narrow set of 
assumptions, it must explain in detail why other assumptions were 
treated with less weight. NMFS must also convey the consequences of 
falsely accepting this narrow set of assumptions in alternative 
management options.
    It is important to reiterate that the non-hydrosystem ``masking'' 
hypothesis requires two things to be true: high `D'-value (i.e., very 
little difference in post-Bonneville mortality between inriver and 
transported fish) and little to no delayed mortality of inriver and 
transported smolts associated with their hydrosystem experience (e.g., 
cumulative stress and strain of collection, sorting, holding, loading, 
barging and releasing transported smolts; and cumulative stress and 
strain of delay, bioenergetic demand, disorientation, pressure changes, 
dissolved gas, etc. of passing through eight dams and reservoirs for 
in-river migrants). The draft 2000 BiOp and Recovery Strategy do not 
discuss the likelihood of both these points being true, within the 
context of the evidence described above.
    The draft 2000 BiOp and Recovery Strategy should also clearly 
describe the management implications if `D' is not high or ``extra'' 
mortality is hydrosystem related, and the management implications if 
`D' and ``extra'' mortality are moderate. These assessments are 
critical to an objective risk analysis.
Step 5: Assess management opportunities to address this discretionary 
        mortality.
    If the 2000 BiOp and Recovery Strategy correct the errors and 
omissions outlined in steps 1 through 4, the documents will focus 
management actions on addressing the direct and delayed effects of the 
mainstem FCRPS, complemented with appropriate actions addressing 
freshwater and estuary habitat, predators, harvest and hatcheries.
    It is apparent in the draft 2000 BiOp and Recovery Strategy that 
NMFS is trying to shift the focus off the hydrosystem as a major source 
of mortality (i.e., it has been fixed) and putting the focus on 
tributary and estuary habitat. This approach is not scientifically 
defensible and is unlikely to secure the survival and recovery of Snake 
River salmon and steelhead. In an attempt to rationalize this approach, 
the 2000 BiOp and Recovery Strategy overestimates, or in some measures 
does not estimate, survival improvements expected from the Reasonable 
and Prudent Alternative (RPA).
    <bullet> NMFS makes the optimistic assumption that any improvements 
in survival since the 1995 BiOp are a result of BiOp measures, rather 
than improvements from higher natural flows.
    <bullet> NMFS makes an assumption that the RPA will reduce FCRPS 
mortality of adults by 25 percent (which is estimated to improve 
survival by 7 percent), although no data or analyses are provided to 
support this claim.
    <bullet> NMFS selects optimistic assumptions (e.g., minimal delayed 
mortality) regarding the level of impact attributable to the FCRPS, 
reducing the hydrosystem burden for conservation and recovery.
    <bullet> NMFS shifts the conservation burden to habitat, harvest 
and hatcheries without a biological justification for this shift, or an 
equitable assessment of appropriate conservation burdens. NMFS makes 
this shift based on hypothetical ``numeric experiments'' that focus on 
total mortality in each life stage, rather than the discretionary 
mortality above the natural baseline. NMFS also failed to assess the 
biological feasibility of these actions, the feasibility of 
implementing these actions quickly, and the feasibility of near-term 
survival improvements once the actions are implemented. For example, 
the draft 2000 BiOp and Recovery Strategy present an ambiguous message 
regarding spawning and rearing habitat in the Snake River basin. On one 
hand, NMFS shifts a primary focus for recovery to freshwater spawning 
and rearing habitat, but on the other hand assigns Snake River 
watersheds a lower priority for habitat measures because habitat 
measures offer little potential for improvement. The documents also 
fail to identify specific measures for implementation and a rational 
basis for assigning expected benefits.
    Because NMFS inappropriately shifts the conservation burden away 
from the FCRPS, the draft 2000 BiOp RPA for hydrosystem actions does 
not significantly change from current operations. The RPA basically has 
the same spill, flow and transportation actions identified in the 1995 
and 1998 FCRPS BiOps. As a representative of the Technical Management 
Team for the State of Idaho, I can attest that there were numerous 
times during the past 5 years that even these provisions were not met.
Step 6: Select a suite of management actions that are likely to provide 
        the necessary survival improvements.
    Selection of management actions to address discretionary mortality 
is a policy decision based on biological and non-biological factors. 
However, these actions must be based on sound science and address 
enough of the primary sources of mortality to meet survival and 
recovery standards. The draft 2000 BiOp and Recovery Strategy fail to 
identify specific management actions or thoroughly assess the expected 
contribution of these actions toward necessary survival improvements.
    The draft 2000 BiOp concludes that a 30 percent increase in 
survival estimated from FCRPS improvements of the RPA result in no-
jeopardy to Snake River spring/summer chinook, even though not all 
stocks meet the standard without additional survival improvements. It 
is not surprising that the CRI analysis indicates some stocks meet the 
standards because of the numerous optimistic assumptions incorporated 
into the analysis (Table 1). In contrast, PATH estimated recovery would 
require approximately a 170 percent increase in survival rates for 
Snake River spring/summer chinook (Peters and Marmorek 2000).
    Our analyses indicate it is highly unlikely for non-breach 
alternatives alone to provide the necessary survival improvements 
required for survival and recovery of Snake River salmon and steelhead. 
Regrettably, the numbers just do not add up. Given the current 
unacceptability of the natural river option, it is important to 
implement an aggressive suite of alternative management actions across 
the lifecycle of the fish, but focused on the mainstem FCRPS. This is 
important to not only test whether there are viable alternatives to 
breach, but also to protect and enhance salmon and steelhead as much as 
possible during the interim. Without these focused and aggressive 
actions, the 2000 BiOp and Recovery Strategy are more likely to fail 
because the conservation burden has been shifted to Hs that are 
incapable of providing the necessary survival improvements.
    Through their annual migration plans and involvement in the 
Regional Forum, NPPC program, and Four Governors Plan, IDFG and the 
State of Idaho have identified several actions that would more 
aggressively address significant sources of direct and delayed 
discretionary mortality than the existing RPA.
    <bullet> Take immediate actions to improve survival and reduce 
stress associated with migration through the FCRPS. These actions 
should focus on improving inriver migration conditions, and spreading 
the risk among transported and inriver migrants depending on annual 
river conditions.
    Improve reservoir passage.--Shift flood control and reservoir 
operations to ensure flows in the lower Snake River do not drop below 
100 kcfs during the spring migration period. Investigate alternatives 
to increase water velocity in the lower Snake (e.g., wing dams, 
artificial velocity gradients, natural migration channel, etc.).
    Improve dam passage.--Implement 24-hour spill to the maximum 
allowable levels during the spring migration period. Begin research to 
assess full spill for summer migrants. Alter dams to reduce total 
dissolved gas. Reduce predators in the forebay and tailrace of the 
dams. Install Minimum Gap Runner turbines. Reduce adult fallback and 
passage duration (e.g., better attraction flows, more ladders, etc.). 
Improve fish bypass system at Lower Granite Dam modeled after the 
Little Goose Dam bypass system. Investigate and install surface bypass 
systems at lower Columbia River dams.
    <bullet> Immediate reduction of avian and pinniped piscivores in 
the Columbia River estuary to mid-1980's levels. These predator 
populations are currently robust, whereas salmon and steelhead 
populations are imperiled. Once fish populations increase, an 
ecologically appropriate balance of fish, birds and pinnipeds can be 
managed in the estuary.
    <bullet> Develop and implement selective fisheries to reduce the 
take of listed fish while maintaining or increasing access to non-
listed or hatchery fisheries.
    <bullet> Implement more aggressive local watershed initiatives to 
improve tributary connectivity, flow, water temperature, sediment and 
nutrient inputs, barrier removal, riparian conditions, and additional 
irrigation screening and consolidation. Experiment with fertilization 
of selected spawning and rearing tributaries to assess potential 
improvement in fish survival and condition. Restore Columbia River 
estuary habitat and ecosystem functions.
    Available scientific analyses indicate these actions will help 
moderate extinction risk, will increase the frequency of rebuilding 
opportunities, and will increase the frequency of harvestable hatchery 
surpluses compared to current operations, even though they are unlikely 
to provide the magnitude of survival benefits required to secure 
recovery. If environmental conditions (e.g., annual snowpack, ocean 
temperature, coastal upwelling) deteriorate during this interim period, 
then more aggressive actions than those described above should be 
immediately considered, including the natural river option.
Step 7: Develop an aggressive monitoring and evaluation plan to assess 
        effectiveness within the context of environmental variability.
    The draft 2000 BiOp and Recovery Strategy do not identify an 
adequate monitoring and evaluation program to assess the effectiveness 
of management actions within 5, 8 and 10 years. It is not 
scientifically feasible to implement new actions, particularly focused 
on habitat improvement, and expect to evaluate the effect of these 
actions on population growth rates within one decade. Thus, many of the 
performance standards and measures in the 2000 BiOp and Recovery 
Strategy are relatively meaningless in the context of the breach 
decision.
    Instead, the primary factors that will likely determine whether or 
not population growth rates are adequate during the next few years are 
the weather and ocean conditions. If snowpack and ocean conditions are 
favorable during the evaluation period, population growth rates may 
meet the standard. If these environmental conditions deteriorate, then 
it is unlikely population growth rates will meet the standard. Thus, it 
is very important that performance standards and measures capture the 
relative influence of these environmental variables.
    IDFG is concerned that the draft 2000 BiOp and Recovery Strategy 
represents a fundamental shift away from an emphasis on recovery to an 
emphasis on simply avoiding extinction. Recovery standards and 
performance measures must all point toward the goal of sustainable and 
naturally diverse fish runs with inherent productivities adequate to 
meet the biological needs of the fish and provide societal benefits. 
Performance measures are the means of tracking progress toward recovery 
standards, and should be nested within a hierarchy to ensure a clear 
delineation toward recovery. For example, the Primary measure of 
success should be based on adult returns and overall life cycle 
survival (adult-to-adult) for naturally spawning indicator populations 
representing the diverse stock structure of the Snake River basin; 
Secondary measurements of success should include relative survival 
among upriver and downriver indicator stocks, smolt-to-adult survival, 
and egg-to-smolt survival; Tertiary measurements could include 
partitioning survival more finely within life stages (e.g., survival 
through the migration corridor) and achieving a desired condition for 
key ecosystem attributes, such as water quality, quantity and velocity, 
riparian health, predatory impacts, fish health and condition, etc. It 
is important that this hierarchical context remains clear, so that 
tertiary or secondary measurements do not become an ``end unto 
themselves'' but rather a means to our primary measures of success.
                            literature cited
    Botsford, L.W. 1997. Depensation, performance standards and 
probabilities of extinction for Columbia River spring/summer chinook 
salmon. Draft in D.R. Marmorek and C.N. Peters (eds. 1998. Plan for 
Analyzing and Testing Hypotheses (PATH)): Retrospective and prospective 
analyses of spring/summer chinook reviewed in FY97. Compiled and edited 
by ESSA Technologies, Vancouver, B.C.
    Bouwes, N., H. Schaller, P. Budy, C. Petrosky, R. Kiefer, P. 
Wilson, O. Langness, E. Weber, E. Tinus. 1999. An analysis of 
differential delayed mortality experienced by stream-type chinook 
salmon of the Snake River. A response by State, tribal, and USFWS 
technical staff to the `D' analyses and discussion in the Anadromous 
Fish Appendix to the U.S. Army Corps of Engineer' Lower Snake River 
Juvenile Salmonid Migration Feasibility Study. October 4, 1999. 
Submitted to NMFS for ESA record.
    BRWG (Biological Requirements Work Group). 1989. Analytical Methods 
for Determining Requirements of Listed Snake River Salmon Relative to 
Survival and Recovery. Progress Report of the Biological Requirements 
Work Group, October 13, 1994. IDFG et al. v. NMFS et al.
    Congleton, J.L., T. Welker and L. Haley. 1999. Evaluation of the 
effects of multiple dam passage on physiological condition of migrating 
juvenile salmon. In Idaho Cooperative Fish and Wildlife Research Unit 
Annual Report, October 1, 1998 September 30, 1999. University of Idaho, 
Moscow, Idaho.
    Dennis, B. 1989. Allee effects: population growth, critical 
density, and the chance of extinction. Natural Resource Modeling 3:481-
538.
    IDFG 1998. Idaho's anadromous fish stocks: their status and 
recovery options. Report to the Director, May 1, 1998. Idaho Department 
of Fish and Game, Boise, Idaho.
    IDFG 1999. Comments on the National Marine Fisheries Service's ``An 
Assessment of Lower Snake River Hydrosystem Alternatives on Survival 
and Recovery of Snake River Salmonids'' (Draft Anadromous Fish 
Appendix). August 30, 1999. Idaho Department of Fish and Game, Boise, 
Idaho.
    IDFG 2000a. Technical Comments on the Scientific Analyses Used for 
the Federal Caucus Draft All-H Paper. March 17, 2000. Idaho Department 
of Fish and Game, Boise, Idaho.
    IDFG 2000b. Technical Comments on NMFS' Draft Anadromous Fish 
Appendix. April 29, 2000. Idaho Department of Fish and Game, Boise, 
Idaho.
    Marmorek, D.R. and Peters, C. (eds.). 1998. Plan for Analyzing and 
Testing Hypotheses (PATH): Weight of Evidence Report. ESSA 
Technologies, Ltd. 1765 West 8th Avenue, Suite 300. Vancouver BC, V6J 
5C6. 116 pp. + Appendices.
    Marmorek, D.R., C.N. Peters and I. Parnell. 1998. Plan for 
Analyzing and Testing Hypotheses (PATH): Final Report for Fiscal Year 
1998. ESSA Technologies, Ltd. 1765 West 8th Avenue, Suite 300. 
Vancouver BC, V6J 5C6. 263 pp.
    NMFS 1995. Reinitiation of consultation on 1994-1998 operation of 
the Federal Columbia River power system and juvenile transportation 
program in 1995 and future years. Biological Opinion. National Marine 
Fisheries Service. Seattle, Washington.
    NMFS 1998. Operation of the Federal Columbia River power system 
including smolt monitoring program and the juvenile fish transportation 
program: a supplement to the biological opinion signed on March 2, 
1995, for the same projects. National Marine Fisheries Service, 
Seattle, Washington.
    NMFS 1999. Draft lower Snake River juvenile salmon migration 
feasibility report/environmental impact statement, Appendix A, 
anadromous fish. Produced by National Marine Fisheries Service for U.S. 
Army Corps of Engineers, Walla Walla, Washington.
    NMFS 2000a. NMFS White Papers: (1) salmonid travel time and 
survival related to flow in the Columbia River basin; (2) summary of 
research related to transportation of juvenile anadromous salmonids 
around Snake and Columbia River dams; (3) passage of juvenile and adult 
salmonids past Columbia and Snake River dams; (4) predation on 
salmonids relative to the Federal Columbia River power system. March 
2000
    NMFS 2000b. Draft Biological Opinion on Operation of the Federal 
Columbia River power system including the juvenile fish transportation 
program and the Bureau of Reclamation's 31 project, including the 
entire Columbia Basin Project. July 27, 2000 (draft). National Marine 
Fisheries Service, Seattle, Washington.
    Peters, C.N., D.R. Marmorek and I. Parnell. 1999. PATH Decision 
Analysis Report for Snake River Fall Chinook, September 1999. ESSA 
Technologies, Ltd. 1765 West 8th Avenue, Suite 300. Vancouver BC, V6J 
5C6. 332 pp.
    Peters, C.N., and D.R. Marmorek. 2000. PATH Preliminary Evaluation 
of the Learning Opportunities and Biological Consequences of Monitoring 
and Experimental Management Actions. April 11, 2000. ESSA Technologies, 
Ltd. 1765 West 8th Avenue, Suite 300. Vancouver BC, V6J 5C6. 154 pp.
    Raymond, H.A. 1988. Effects of hydroelectric development and 
fisheries enhancement on spring and summer chinook salmon and steelhead 
in the Columbia River Basin. N. Am. J. Fish. Manage. 8:1-24.
    Schaller, H.A., C.E. Petrosky and O.P. Langness. 1999b. Contrasting 
patterns of productivity and survival rates for stream-type chinook 
salmon (Oncorynchus tshawytscha) populations of the Snake and Columbia 
rivers. Can. J. Fish. Aquat. Sci. 56:1031-1045.
    SRP (Scientific Review Panel). 1998. Conclusions and 
Recommendations from the PATH Weight of Evidence Workshop. September 8-
10, 1998. Vancouver, BC Canada. PATH Scientific Review Panel (S. 
Carpenter, J. Collie, S. Saila, C. Walters). Edited by C. Peters, D. 
Marmorek, R. Gregory, T. Eppel. ESSA Technologies, Ltd. 1765 West 8th 
Avenue, Suite 300. Vancouver BC, V6J 5C6. 32 pp.
    STUFA (State and Tribal and U.S. Fisheries Agencies). 2000. A 
technical review of the National Marine Fisheries Service Leslie matrix 
model of Snake River spring and summer chinook populations. April 28, 
2000. Submitted to NMFS for ESA Record.
    Toole, C. 2000. Email memorandum to L. Krasnow and 9 others, 
September 5, 2000. Subject: [Fwd: New AppB posted]
[GRAPHIC] [TIFF OMITTED] T1532.001

[GRAPHIC] [TIFF OMITTED] T1532.002

[GRAPHIC] [TIFF OMITTED] T1532.003

[GRAPHIC] [TIFF OMITTED] T1532.004

[GRAPHIC] [TIFF OMITTED] T1532.005

                               __________
 Statement of Keith Kutchins, Anadromous Fisheries Biologist, Shoshone-
                  Bannock Tribes, Fisheries Department
    My name is Keith Kutchins, Anadromous Fisheries Biologist for the 
Shoshone-Bannock Tribes. I deal primarily with anadromous fish harvest, 
production and hydrosystem issues and assist in subbasin planning. 
Since 1991 I have been the Shoshone-Bannock Tribes' representative on 
the harvest and production technical committees of United States v. 
Oregon, and I am intimately involved with a plethora of other processes 
including the planning and implementation activities of the Northwest 
Power Planning Council, Columbia Basin Fish and Wildlife Authority, 
Endangered Species Act consultations with the National Marine Fisheries 
Service and U.S. Fish and Wildlife Service, and fisheries co-management 
activities with the State agencies and Columbia Basin tribes. I have 
worked on anadromous fish management issues in the Columbia River Basin 
for over 12 years.
    The Shoshone-Bannock Tribes are today co-managers of the anadromous 
fish resource in the Columbia River Basin and have continued to work 
toward improving the habitat and supplementation efforts. The Shoshone-
Bannock Tribes are also leaders in pursuing equitable allocation of 
conservation-based harvest.
    I have reviewed the Draft Hydrosystem Biological Opinions by the 
National Marine Fisheries Service and U.S. Fish and Wildlife Service on 
the Operation of the Federal Columbia River Power System and the 
Federal Caucus Draft Basin-wide Salmon Recovery Strategy and am deeply 
concerned about the failure of these documents to rely on the simple 
scientific facts that are so evident to the vast array of scientists 
that work in the Snake River system. The Shoshone-Bannock Tribes have 
repeatedly invited the National Marine Fisheries Service staff and 
decisionmakers to visit us in the headwaters of the Columbia River, 
particularly in the Salmon River system. Unfortunately, few have made 
this trip to the headwaters.
    The vast majority of the habitat in the Salmon River system is in 
very good health for the salmon life stages that occur there. The 
Salmon River was once the spawning and rearing habitat of at least 50 
percent of the entire Columbia River runs of spring and summer chinook 
salmon. The Clearwater and Salmon rivers are the exclusive homes of the 
large Group-B (two-ocean) steelhead. Much of the Salmon River is 
comprised of relatively pristine habitat--clean, clear, cold un-dammed 
flowing waters with vast arrays of in-stream habitat such as woody 
debris, large pool-to-riffle ratios, undercut banks and rich riparian 
areas that shade the water. This is superb habitat for salmon and 
steelhead.
    However, it does not take much observation to reveal that all this 
wonderful habitat is relatively devoid of anadromous fish. The spawning 
beds have very few or no adult salmon and steelhead spawning on them. 
Annually we count the salmon redds, or spawning nests, as an indication 
of population abundance. These counts have occurred consistently since 
1957 in Idaho in order to follow the trends of abundance. The trend is 
unmistakably on a consistent downward path, even since the listings of 
these fish under the Federal Endangered Species Act in 1992.
    We also snorkel the rivers in order to estimate the abundance of 
juvenile fish that have been produced in the Salmon River. This 
sampling has also been conducted in such a way as to confidently 
compare abundance from year to year. The trend of juvenile fish 
abundance is also on a consistently downward path. Just 10 years ago 
most of the Salmon River tributaries had juvenile salmon densities that 
were from 10 to 20 percent of the carrying capacity. Now, just one 
decade later, the Salmon River tributaries contain only 5 percent of 
the juvenile salmon needed to fill the habitat.
    Computer models and fancy statistics are worthless compared to the 
facts that simple observations have revealed to anyone who has watched 
the Salmon River for a period of time. The simplest statistics, such as 
the trends in redd counts and juvenile densities since the late 1970's 
do not lie. However, the National Marine Fisheries Service appears to 
ignore these simple statistics. The National Marine Fisheries Service 
is plain wrong when they conclude that the greatest opportunities for 
survival improvements of listed Snake River salmon may hinge on efforts 
to restore health to the tributaries.
    Although the habitat in the Salmon River is mostly in excellent 
health, there are problem areas. The Lemhi and Pahsimeroi rivers and 
the East Fork Salmon River have vast arrays of irrigation diversions. 
Although the majority of these diversions are screened to bypass 
migrating juvenile salmon back into the river, the sheer number of 
diversions delay the outmigration to the point where the salmon misses 
its window of opportunity to speed to the ocean, and these delays do 
result in mortality. There are at least five major mines that pose 
significant threats in the form of acid rock drainage and cyanide 
spills and seeps, and a myriad of other small mines that add additional 
sedimentation and water quality problems. Many smaller tributaries to 
the Salmon River, and even the Lemhi River itself are so heavily used 
for irrigation that they are literally de-watered.
    The Shoshone-Bannock Tribes look forward to continuing work as 
resource co-mangers with the Federal and State agencies and local 
individuals and governments to correct problems in the Salmon River 
primarily in tributaries to the Salmon River from the Lemhi River 
upstream to the headwaters of the Salmon River. The Shoshone-Bannock 
Tribes have been proactive participants in these efforts, through the 
Lemhi River Model Watershed, through actions of the Tribes' Salmon 
Corps, and through the Tribes' habitat enhancement projects funded by 
the Bonneville Power Administration. We have documented many cases 
where localized habitat problems have been corrected, to the benefit of 
the anadromous and resident fish resources.
    However, the Shoshone-Bannock Tribes are thoroughly convinced that 
these improvements are not nearly enough to even stop the declines of 
the listed anadromous fish, let alone recover them. Our best evidence 
of this fact exists in the Middle Fork Salmon River, the largest salmon 
producing tributary of the Salmon River system. The listed fish 
populations in the Middle Fork Salmon River--which is a Wild and Scenic 
River that lies almost completely within the Frank Church Wilderness 
Area and is almost totally in pristine condition-continue to decline at 
least at the same rate as the populations in the upper Salmon River. 
This evidence suggests that the major problems--and thus the major 
areas to concentrate recovery efforts--are outside of the Salmon River 
system.
    During the early and middle 1990's the conditions in the Pacific 
Ocean were not good for Columbia River salmon populations. The impacts 
of oceanic conditions become greater as salmon populations decrease, as 
do the impacts created by all habitat conditions. The critical, or 
threshold importance of learning more about how ocean conditions affect 
salmon survival and recovery is doubtful. Although it is of interest to 
further study the trends of oceanic conditions and their effects on 
Columbia Basin salmon, very little can be done by humans to protect the 
salmon during their time in the ocean, other than reducing or 
eliminating mixed-stock harvest. The Shoshone-Bannock Tribes applaud 
the efforts of the National Marine Fisheries Service to reduce harvest 
impacts on listed Snake River fall chinook over the past 8 years. 
However, the impacts of 30 percent harvest rates on the fall chinook 
and listed Group-B steelhead are still too high. The National Marine 
Fisheries Service needs to more aggressively pursue continuity between 
conservation-based harvest rates of Columbia Basin spring and summer 
chinook salmon (approximately 10 and 5 percent, respectively) and the 
30 percent harvest rates for fall chinook and steelhead.
    The position of the Shoshone-Bannock Tribes is that there should be 
no interception fisheries in the ocean and mainstem Columbia River 
while the weak stocks of listed fish are mixed in with more numerous 
runs. Fisheries should instead be conducted in the tributaries with 
runs that can support harvest. Selective harvest works best when the 
fishing area is used as the tool for selectivity, rather than different 
gears. Selective gears require the catch and then the release of the 
listed fish, which still results in mortality of the listed fish.
    The National Marine Fisheries Service is particularly unjust in its 
allocation of the conservation burden when they allow ocean and 
mainstem Columbia River fisheries to harvest listed Snake River salmon 
and steelhead while at the same time the NMFS states that there is no 
mechanism under their administration of the Endangered Species Act for 
Shoshone-Bannock Tribal harvest of those very same fish once the fish 
are in the Salmon River. The National Marine Fisheries Service is 
arbitrary when they claim that harvesting listed fish is incidental 
when the population of fish being harvested is comprised of less than 
50 percent listed fish. They are also arbitrary, and capricious when 
they further claim that harvesting listed fish is direct take when the 
population of fish being harvested is comprised of greater than 50 
percent listed fish.
    The National Marine Fisheries Service is wrong to conclude that 
that there are only two roles for hatcheries. The two roles they state 
are: (1) reform existing hatcheries to prevent negative effects from 
hatchery-origin fish on wild fish; and (2) use hatcheries to conserve 
wild fish. These are good roles for hatcheries. However, the most 
important role for hatcheries is to use them to rebuild wild fish 
populations. The Shoshone-Bannock Tribes call this concrete-to-gravel-
to-gravel management. Scientists call it supplementation. There are 
appropriate ways to use hatchery-origin fish and release them into wild 
areas for those fish to return to rebuild the listed wild populations. 
The NMFS is wrong to use genetics as the overriding factor in impeding 
the Shoshone-Bannock Tribes from pursuing the production actions that 
the Tribes have successfully initiated. Many of the wild areas no 
longer contain any fish, so even if the NMFS is correct with their 
genetics theories, it would be a moot point. We can no longer manage 
for genes, and need instead to manage for fish. The Recovery Strategy 
needs to aggressively pursue supplementation of listed fish with 
available hatchery-origin stocks.
    The National Marine Fisheries Service needs to incorporate the use 
of hatcheries to rebuild listed populations, rather than only use 
hatcheries as a conservation tool to prevent extinction. The year 2000 
is a good example. Largely as a result of very high spring runoff in 
1997, the returns of spring and summer chinook to some of the Salmon 
River hatcheries were excellent during the summer of 2000. So many 
spring and summer chinook salmon returned to the Rapid River and South 
Fork Salmon River hatcheries that sportsman harvest occurred alongside 
treaty fisheries in the rivers directly below those hatcheries. There 
were so many hatchery salmon that the hatcheries trucked the fish back 
down below the fisheries for the fish to swim through and have another 
chance at being harvested after they had already returned to the 
hatchery weirs.
    The Shoshone-Bannock Tribes firmly believe that these ``surplus'' 
fish should have also transplanted into adjacent areas that are devoid 
of listed, naturally producing salmon. For example, surplus adult 
salmon and their offspring that returned to the Rapid River hatchery 
should have been transplanted to the Yankee Fork Salmon River, upper 
Salmon River and Pahsimeroi River. These target areas have received 
outplantings from the Rapid River stock in the 1980's, and some of 
those actions returned fish at 2 to 6 percent smolt-to-adult survival 
rates. During the middle 1980's, one million smolts from the Rapid 
River Hatchery were released each of 2 years to the Pahsimeroi River, 
and those releases returned 4,000 to 6,000 adult salmon 2 and 3 years 
later. Unfortunately, that practice was ended when it was decided that 
the Rapid River stock was the wrong stock (spring chinook) to use in 
the Pahsimeroi River (theoretically, summer chinook), even though the 
performance of those outplantings suggest otherwise. This year, only 
about 350 adult salmon returned to the Pahsimeroi Hatchery.
    Likewise, the ``surplus'' chinook salmon adults that returned to 
the South Fork Salmon River this year should have been transplanted to 
Johnson Creek (a tributary of the South Fork Salmon River), and to the 
Pahsimeroi River. However, the National Marine Fisheries Service 
determined that the South Fork Salmon River has five distinctly 
different stocks of chinook salmon that cannot be intermixed. In 
essence, the National Marine Fisheries Service theories on salmon 
genetics are preventing recovery because those theories prevent using 
abundant, available, and appropriate donor stocks from being used in 
areas that need fish.
    The Shoshone-Bannock Tribes humbly request that the subcommittee 
further investigate the policies and positions of the National Marine 
Fisheries Service with regard to salmon supplementation. A very 
powerful recovery tool is being ignored due to potentially esoteric 
genetic theories. With great respect, we further request that the 
subcommittee assists the Shoshone-Bannock Tribes in securing the salmon 
supplementation actions that we have been pursuing for over 10 years, 
to at least allow us to also test our theories.
    The Shoshone-Bannock Tribes are also very concerned that the 
National Marine Fisheries Service concludes that there have been 
significant improvements to the migration conditions through the 
hydrosystem in the past 5 years. The evidence based on simple 
observations of wild salmon abundance in the Salmon River system does 
not support this conclusion. Redd counts and juvenile densities 
continue to decline, as I have stated earlier.
    The National Marine Fisheries Service greatly underestimates the 
necessary survival improvements that are needed to stop the declines 
and move toward recovery. The 1995 hydrosystem Biological Opinion 
concluded that the smolt-to-adult survival needs to improve from 280 to 
850 percent in order to meet the 24-year survival standard. The current 
draft Biological Opinion concludes that survival improvements need to 
only be 30 percent for Snake River spring and summer chinook salmon.
    The National Marine Fisheries Service underestimates the risk of 
extinction when they use an absolute extinction risk threshold of one 
fish per brood. It is wrong for the National Marine Fisheries Service 
to use a one fish per brood extinction risk threshold for evaluation of 
the hydrosystem, when they use a threshold population level of from 150 
to 300 fish per brood for determining allowable tributary harvest 
levels. The National Marine Fisheries Service further underestimates 
the probability of real extinction for the listed species by relaxing 
the definition of high-risk from a 1-percent probability of extinction 
in 100 years (A-Fish Appendix to the U.S. Army Corps of Engineers Draft 
Environmental Impact Statement on the Lower Snake River Juvenile Salmon 
Migration Feasibility Study) to a 5 percent probability in 24 to 100 
years.
    These are but a few of the many concerns that we have about the 
ever-changing science used by the National Marine Fisheries Service in 
the draft Biological Opinion and Recovery Strategy. It appears that the 
National Marine Fisheries Service picked an analysis method in order to 
meet the desired end. They do not use the same jeopardy, survival and 
recovery standards in these drafts as they did in the A-Fish Appendix 
and in the 1995 Biological Opinion. They do not even use consistent 
standards between different sections (different ``H's'') of these 
drafts. The science that was agreed to as a result of the Idaho v. NMFS 
lawsuit appears to no longer apply. That lawsuit resulted in a 1995 
jeopardy opinion for the hydrosystem, and established a robust 
scientific process (the Plan for Analyzing and Testing Hypotheses, or 
PATH) to continue the efforts to resolve critical scientific 
uncertainties that remained. The PATH concluded that the benefits from 
breaching the four lower Snake River dams were more certain than non-
breaching alternatives. The National Marine Fisheries Service has 
boldly rejected that science and has replaced it with a new and 
different science that concludes that there is significant uncertainty 
with breaching the lower Snake River dams.
    The Shoshone-Bannock Tribes are extremely disappointed that the 
1995 Biological Opinion has not been adhered to. That Opinion allowed a 
decision to be made in 1999 to either breach the lower Snake River dams 
or else continue with attempts to fix the dams with screens, curtains, 
bypasses and barges. The Shoshone-Bannock Tribes believe that 
technological fixes to the lower Snake River dams will not even allow 
the listed Snake River salmon to survive, let alone recover. The 1999 
decision should have been made based on readily available scientific 
information, and it should have been to pursue congressional 
authorization to breach those dams, as the Shoshone-Bannock Tribes have 
long been advocating. The Recovery Strategy and the new Biological 
Opinion should call for the breaching of the four lower Snake River 
dams now. The Recovery Strategy and the new Biological Opinion should 
call for an immediate moratorium on any expenditures on those four dams 
that will be rendered a wasted investment when the dams are breached.
    The bottom line is that the draft Biological Opinion does not state 
how it will be able to reject the null hypothesis that the Reasonable 
and Prudent Alternative results in no survival improvement over 
existing conditions. In other words, the Draft Biological Opinion does 
not define what we are measuring for in order to determine, 5, 8, or 10 
years from now, if there has been a change in the jeopardy of the 
future existence of the listed fish. It does not tell us how, in 5, 8, 
or 10 years, we will determine if the Reasonable and Prudent 
Alternative has succeeded in the listed fish survival or recovery. The 
Shoshone-Bannock Tribes now see that the implementation of the 1995 
Biological Opinion was a trap--a trap that somehow allows the science 
to change in the eleventh hour with no consultation with the tribes.
    The Shoshone-Bannock Tribes are adamant that the new Biological 
Opinion must incorporate the conclusions of the PATH reports, adhere to 
the 1995 Biological Opinion, and call for the immediate breaching of 
the four lower Snake River dams. If the National Marine Fisheries 
Service can prove, using the best available science, that breaching the 
dams will result in greater uncertainty than the non-breach 
alternatives, then the new Biological Opinion must provide clear 
decision criteria that will be used in less than 3 years to determine 
the success or failure of the proposed Reasonable and Prudent 
Alternative. The new Biological Opinion must also provide a clear 
alternate Reasonable and Prudent Alternative that calls for immediate 
pursuit of breaching the four lower Snake River dams if the criteria 
concludes that the proposed RPA results in failure of survival for the 
listed Snake River fish.
    Thank you subcommittee, and Chairman Crapo for hosting this hearing 
and providing the Shoshone-Bannock Tribes with an opportunity to 
express their concerns.
                               __________
Statement of Earl C. Weber, Senior Fisheries Scientist, Columbia River 
            Inter-Tribal Fish Commission on Salmon Recovery
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to present you with my scientific perspective on salmon 
restoration in the Columbia River basin. My name is Earl Weber. I am a 
Senior Fisheries Scientist on staff at the Columbia River Inter-Tribal 
Fish Commission. The Commission was formed in 1977 by resolution of the 
Nez Perce Tribe, the Confederated Tribes of the Umatilla Indian 
Reservation, the Confederated Tribes of the Warm Springs Reservation of 
Oregon, and the Confederated Tribes and Bands of the Yakama Nation. The 
Commission allows for coordination amongst the four tribes and provides 
technical assistance to ensure that the resolution of outstanding 
treaty fishing rights issues guarantees the continuation and 
restoration of the tribes' fisheries into perpetuity.
                            1. introduction
    On behalf of the tribes, I am providing this testimony as a 
Fisheries Scientist involved in the Plan for Analyzing and Testing 
Hypotheses (PATH). Several years ago the National Marine Fisheries 
Service (NMFS) initiated the PATH process as a means of evaluating 
potential management actions aimed at restoring Snake River stocks. 
PATH has employed a decision analysis framework that takes 
uncertainties with respect to these potential management actions into 
account. More importantly, PATH held rigorous, formal scientific 
debates that included a weight of evidence approach for evaluating 
scientific evidence, including the potential for salmon recovery 
through actions other than additional management actions or 
modifications of the hydroelectric power system.
    In its Draft Biological Opinion (BIOP) on the Operation of the 
Federal Columbia River Power System, released July 27, 2000, the NMFS 
acknowledges the high risk of extinction for ESA-listed salmon stocks 
in the Snake River. NMFS also acknowledges that breaching the earthern 
portions of the four dams on the lower Snake River provides the best 
opportunity for recovering these listed stocks. However, rather than 
recommending breaching, NMFS postpones breaching these dams in favor of 
other actions. These proposed actions largely consist of unspecified 
efforts to improve survival in non-hydropower system areas and a 
continued reliance on the transportation system to mitigate for 
hydropower system losses.
    In taking this stance, NMFS has ignored available technical 
information developed by the PATH and other technical experts. Nor has 
NMFS attempted to analyze and arrange information in a way that 
illuminates a path between the proposed actions and recovery for all 
listed stocks of salmon. First, NMFS has taken only selected, 
optimistic pieces of information from the total amount available 
through the PATH process. Second, NMFS has failed to look at the 
information from the standpoint of the feasibility of management 
actions to recover all listed Snake River salmon stocks.
                              2. testimony
    My testimony focuses on two general areas that have been the focus 
of PATH in recent years. First, my testimony will provide evidence that 
transportation is not mitigating for hydropower system losses and that 
other factors are not responsible for hampering what might otherwise be 
a successful transportation program. Second, my testimony will show why 
it is unlikely that recovery will be achieved by improving survival in 
non-hydropower system arenas.
2.1. Transportation
    The BIOP tacitly assumes that transportation is mitigating for 
hydropower system losses. In making their case for the continued 
transportation of juvenile salmon in barges, NMFS first omits important 
information useful for evaluating transportation and, second, tacitly 
supports the hypothesis that transportation is working but that other 
factors are masking its success. Neither of these assumptions is 
supported by scientific evidence. In fact, available scientific 
evidence shows transportation to be a failed management tool for the 
recovery of salmon stocks.
2.2. Transportation--does it work?
    Historically, transportation was evaluated by comparing the 
survival of transported fish with that of non-transported fish. Two 
groups of fish were marked and one group was placed in the barge or 
truck (transport group) and the other group was released back into the 
river as a ``control.'' The survival rate of each of the two groups of 
fish was calculated when they returned to the river as adults. The 
ratio of their survival rates was then calculated. If the Transport-to-
Control-Ratio (TCR) was greater than 1:1, transportation was deemed 
successful.
    However, in a review of the juvenile transportation program, Mundy 
et al. (1994) found the TCRs were ``moot'' if the survival of the 
transported fish was not high enough to insure survival of the stock in 
the long term. Typically, the Smolt-to-Adult survival of the 
transported fish stocks was much less than 1 percent. PATH concurred 
and established a survival goal for spring/summer chinook of from two 
to 6 percent, based on the past survival of Snake River chinook and 
recent estimates from a downriver index stock , Warm Springs spring 
chinook (Toole et al 1996). The following graphic shows the Smolt-to 
Adult-Return (SAR) of transported wild Snake River spring/summer 
chinook.
[GRAPHIC] [TIFF OMITTED] T1532.006

    Note that in recent years (1988-1997) SARs were measured with 
highly accurate Passive Interrogation Transponder (PIT) tags. During 
this period the average survival rate was less than 0.5 percent, far 
less than the minimum goal of 2 percent and an order of magnitude less 
than the 4-percent which is approximately the level needed for 
recovery. The survival goals and the survival information developed by 
a panel of interagency agency and trial technical experts (PATH), 
including NMFS staff, was omitted from the BIOP.
    Interestingly, the recent PIT tag data also shows that 
transportation may not be affording even a relative advantage over 
smolts (juvenile fish) migrating down river through the turbines of the 
dams. For example, Kiefer (in prep) found that juvenile Snake River 
spring chinook that migrated to the ocean through the hydrosystem 
without being handled or bypassed returned at rates above those of 
transported fish in two of 3 years for which data are available.
    Low SARs are consistent with other studies of Snake River Spring/
summer chinook. Deriso et al. (1996) and Schaller et al. (1999) 
analyzed adult (recruit per spawner) data and found that the 
differential mortality between seven Snake River spring chinook stocks 
and six downriver control stocks averaged approximately 0.17 per 
project, which equates to a mortality of over 80 percent for eight 
projects. Because this level of mortality was far in excess of that 
indicated by passage models, a statistic, D, was formulated to quantify 
the level of differential mortality due to collection and 
transportation relative to the delayed mortality experienced by fish 
migrating inriver.
    Like their predecessors, the Transport-to-Control Ratios, D values 
are not in and of themselves important. While D values close to one are 
better than D values close to zero, NMFS asserts that high values of D 
indicate differential mortality is due to something other than problems 
with the transportation program. D values are important in an 
analytical sense only if it can be assumed that differential mortality 
has nothing to do with the hydropower system. Therefore, it is 
incumbent on NMFS to explain the source of extra mortality. To date, 
NMFS has referred to genetic differences between Snake River spring 
chinook and their downstream control stocks. But genetic differences 
are not by themselves agents of mortality and must be at least 
conceptually linked to one or more biological mechanisms. These would 
include starvation, predation or disease.
    It is unrealistic to believe that some stocks of the highly 
migratory chinook would suddenly find themselves unable to locate prey 
in the North Pacific. The trophic structure of the eastern North 
Pacific Ocean is based on large scale wind driven upwelling events that 
produce large, temporary gyres. These gyres bring cold, nutrient rich 
water to the surface where food chains forms. Gyres repeatedly form and 
dissipate throughout the range of spring/summer chinook, which extends 
from Northern California to the Gulf of Alaska. Because both the Snake 
River chinook and their downriver (control) counterparts occur within 
this range, it seems unlikely that the Snake River chinook would become 
unable to locate prey while the downriver stocks continue to feed 
successfully. Likewise, it is difficult to believe that Snake River 
fish would begin to encounter a previously unencountered predator while 
the downriver fish proceed unmolested.
    Although some have emphasized the importance of ocean cycles, the 
fact that all Snake River salmon stocks obviously haven't collapsed 
every sixty years, or on any other potential cycle, indicates that a 
climatic cycle is not to blame. Instead, this hypothesis would seem to 
require that a new and unexplained oceanic phenomenon would have to 
have come into play coincidentally with the construction of the last 
four dams. It is important to note that during PATH's Weight Of 
Evidence process, the Scientific Review Panel assigned very low weights 
(ranging from a 1 percent to a 20 percent likelihood) to the Regime 
Shift Hypothesis as shown in the following table:

 
------------------------------------------------------------------------
              Reviewer                Carpenter  Collie   Saila  Walters
------------------------------------------------------------------------
Weight..............................      0.01      0.1    0.15      0.2
------------------------------------------------------------------------

    Overall, these were the lowest weights assigned by the SRP for any 
hypothesis. NMFS ignored the Scientific Review Panel and the Weight Of 
Evidence process in the BIOP.
    Conversely, disease appears to be a likely contender for the 
differential mortality. In fact, NMFS described a scenario over a 
decade ago wherein a combination of stress and injury sustained during 
bypass, collection and transportation, causes the ubiquitous but 
generally asymptomatic Bacterial Kidney Disease (BKD) to flourish 
(Williams 1989). This phenomenon is well known among fish pathologists 
(see for example Warren 1991). BKD takes several months to run its 
course and thus mortality would not occur until the early ocean life 
stage, the stage at which differential mortality is thought to occur. 
If NMFS now believes this hypothesis to be untrue, they should provide 
a more plausible explanation.
    To summarize, D values, like Transport-to-Control Ratios (TCRs), 
are relative measures used to relate the survival of transported fish 
to that of inriver fish. There is no logical reason to believe that 
high D values exonerate transportation. High values of D are only 
important in a quantitative sense if one assumes that differential 
mortality is unrelated to stress and injury in the hydropower system. 
The only plausible hypothesis for delayed mortality is linked directly 
to the hydrosystem. If NMFS wishes to provide a more plausible 
scientific hypothesis for extra mortality, they need to provide a 
biological mechanism whereby, 12 to 13 million years after speciation, 
and concurrent with the development of the hydropower system, the Snake 
River spring chinook stocks underwent severe declines that the 
downriver control stocks did not experience.
              3. potential for recovery through other h's
    The major thrust of the BIOP is that salmon restoration may be 
possible entirely through improvement in areas other than the 
hydropower system (i.e., through additional restrictive management 
actions in habitat, hatcheries and harvest.). This assumption is 
contradicted by available technical information.
3.1. Habitat
    While good habitat is important, one must remember that there are 
wilderness areas in the Snake Basin yet there are still dwindling 
spring chinook populations. For example, Sulfur Creek and Marsh Creek 
are in prime habitat areas. But in 1994 and 1999, no fish returned to 
Sulphur Creek and in 1995 and 1999 no fish returned to Marsh Creek. It 
is, therefore, unrealistic to assume that habitat improvement alone 
will recover spring chinook stocks. Likewise, there are no identifiable 
opportunities for recovering the Snake River sockeye stock through 
habitat manipulation.
    The greatest ``habitat'' problem for fall chinook is the severe 
reduction of spawning habitat caused by the Hell's Canyon dam complex 
that blocked upstream migrations, and the lower Snake River dams that 
encroached on their remaining spawning area downstream of Hell's 
Canyon. NMFS acknowledges that the removal of the four lower Snake 
River dams will increase spawning and rearing habitat up to 77 percent, 
with the potential to add 5,000 spawners.
    Note also that some of the more important habitat problems are 
found within the hydropower system. These include nitrogen gas super 
saturation, elevated water temperatures and the substantial reductions 
in water velocities that occur in reservoirs. These water quality 
issues affect all Snake River salmonids and other anadromous and 
resident fish.
3.2. Harvest
    With spring chinook harvest rates in the range of seven to 9 
percent, opportunities for recovery through harvest reductions are 
almost nonexistent. Harvest rates for Snake River summer chinook and 
sockeye stocks are lower than those for the Snake River spring chinook 
stock. At least temporarily, improvements in escapements through 
harvest reductions are possible for fall chinook and, to a lesser 
extent, steelhead, but that will not benefit spring/summer chinook or 
sockeye.
3.3. Hatcheries
    This approach has several potential facets. Hypothetically, high 
densities of hatchery fish could negatively impact Snake River wild 
stocks. But four of the seven Snake River spring/summer indicator 
stocks, including the aforementioned Sulphur and Marsh Creek stocks, 
have no hatchery programs. For these and many other stocks a reduction 
or elimination of hatchery fish is impossible.
    A second hypothesis suggests that hatchery fish, particularly the 
larger steelhead, may stress spring/summer chinook in the unnatural 
bypass/collection systems and barges. This further stress, mixed with 
injury and disease transmission (Williams 1989), appears to be the most 
likely reason for the low survival of transported spring chinook. 
However, recent data show that even when steelhead are absent or 
present in low densities, survival rates (SARs) for chinook are often 
zero and always less than 1 percent (Peters and Marmorek 2000; Appendix 
D). One could reasonably question the wisdom of dismantling a 
moderately successful program (hatchery steelhead) in what would appear 
at the outset to be a fruitless attempt to raise transportation 
survival to the 2 to 6 percent range.
                             4. conclusion
    Mr. Chairman, that concludes my testimony. I am prepared to answer 
your questions, or those of other committee members, now. I am also 
available to answer any written questions that you wish to provide to 
me for the benefit of the record.
                          5. literature cited
    Peters, C.N. and D.R. Marmorek. (compls./eds.) 2000. PATH: 
Preliminary evaluation of the learning opportunities and biological 
consequences of monitoring and experimental actions. Prepared by ESSA 
Technologies Ltd., Vancouver, BC, 150 pp.
    Toole, C., A. Giorgi, E. Weber and W. McConnaha. 1996. Hydro 
decision pathway and review of existing information. In: Marmorek, D. 
(ed). 1996. Plan for Analyzing and Testing Hypotheses (PATH): Final 
Report on Retrospective analyses for fiscal year 1996. Prepared by ESSA 
Technologies Ltd., Vancouver, BC.
    Schaller, H.A., C.E. Petrosky and O.P. Langness. 1999. Contrasting 
patterns of productivity and survival rates for stream-type chinook 
salmon (Oncorhynchus tshawytscha) populations of the Snake and Columbia 
Rivers. Can. J. Fish. Aquat. Sci. 56: 1031-1045.
    Warren, J.W. 1991. Diseases of hatchery fish. U.S. Fish and 
Wildlife Service, Pacific Region Publication. 90 pp.
                               __________
    Statement of Derrek Batson, Idaho Steelhead and Salmon Unlimited
    Chairman Crapo, and Senators of the committee, my name is Derrek 
Batson. I am an officer of Idaho Steelhead and Salmon Unlimited--or 
ISSU--and reside in Nampa, Idaho.
    First, let me say that anytime I get east of Senator Crapo's 
hometown of Idaho Falls my knees begin to shake and I feel a little bit 
over whelmed. However it is such a great honor to be part of this 
important process and I have convinced myself I will be just fine.
    ISSU was formed in 1984 by a diverse group of businessmen, guides, 
conservationists, sport fishermen and concerned citizens from 
throughout the Columbia River region to restore, protect, and preserve 
the region's steelhead and salmon resources. So as you can imagine ISSU 
is no stranger to this issue or the process.
    We know why Senator Crapo and other Northwestern senators care 
about salmon restoration--because salmon are in their back yard. But 
why should the rest of you or your constituents care? One reason is 
because protecting and restoring what were once the worlds largest runs 
of salmon and steelhead--and this icon of the northwest--it's the only 
thing to do. But another reason, and one which we believe is as 
important to your constituents is that most of the rest of the Nation 
view our area as their national playground. Our wilderness areas, white 
water rivers, and massive expanses of Federal lands are intriguing to 
them and they come to our State by the thousands to recreate in these 
areas. In Idaho today tourism is the No. 2 industry. It is surpassed 
only by agriculture. A limited steelhead fishery on hatchery-reared 
steelhead generates over $92 million annually for our State. We have 
not had a general salmon season since 1978--only 3 years after 
completion of the Lower Snake River Dams--but it is estimated that it 
would equal or exceed the steelhead fishing economy. So, as you can see 
we will wear the title of national play ground proudly and restoring 
salmon needs to be a key part of it. When your constituents come to 
Idaho they deserve to be able to enjoy this northwest icon.
    Briefly allow me to highlight where the Federal BiOp fails the 
salmon.
    For the Federal Caucus to separate the mainstem Columbia and Snake 
Rivers--with their hydropower obstructions--from habitat is a misnomer 
Habitat is habitat--whether it is in the Frank Church River of No 
Return Wilderness or the dam-choked reservoirs in the Mainstem Columbia 
and Snake Rivers. For the BiOp to focus on the fresh water habitat in 
Snake River tributaries while ignoring the Federal dams and reservoirs 
is a prescription for failure. Idaho's wilderness salmon bedrooms are 
as pristine today as they were a hundred years ago, yet no salmon 
return. Wild salmon in the Middle Fork Salmon River, South Fork Salmon 
River and most-other Idaho tributaries pass no irrigation diversions, 
yet NMFS wants to focus on screening irrigation diversions. Granted 
it's probably politically non-controversial, but it does nothing to 
recover wild salmon in these wilderness areas. The BiOp caps--and in 
some cases reduces fishing--when fishing today is a mere fraction of 
what it was before the dams were built in the lower Snake River. This 
is the fallacy of the BiOp. It attacks land users and fishermen. 
Loggers, miners. ranchers, farmers and fishermen are all victims of the 
Federal dams, yet the BiOp continues to punish these victims. Land-use 
industries sacrificed much to set aside the Frank Church River of No 
Return Wilderness and the Selway Bitterroot Wilderness to protect 
salmon and steelhead. Combined these two wilderness areas comprise the 
single largest contiguous wilderness in the lower forty-eight States. 
Fishermen have not kept wild Snake River spring chinook salmon in the 
Columbia or Snake River since 1978--or wild summer chinook since the 
late 1960's. Yet every wild stock is listed by the ESA. To do more of 
the same while ignoring the No. 1 salmon killer--the Federal dams in 
the Lower Snake River--quite frankly this is inconceivable.
    Allow me to give you an example of the half-heartedness of the 
BiOp. Specific Performance Standards; Draft BiOp 9-7 to 9-15--Agencies 
are required to meet three overall types of performance standards: 
programmatic (e.g., did the agencies implement the required measures, 
did they complete the required analysis, and did they acquire funding 
necessary to implement and complete these measures and analysis) 
biological; (i.e. population growth rates), and finally physical; (e.g. 
spawner counts, riparian health, water quality). There are only 
consequences for failure to meet the biological standard.
    Here is our take of this--First NMFS has yet to define the physical 
and programmatic standards--this is a major omission at the very heart 
of the BiOp. Second, the current biological performance standard is 
based on assumptions and data that do not adequately represent 
population growth rates for Snake River salmon and it does not include 
other biological factors (for instance, population distribution 
necessary for recovery). Third, specific consequences for failing to 
meet any of the three types of standards should be incorporated into 
the BiOp.
    It is important to emphasize here: performance standards are the 
means by which NMFS proposes to make this plan work to restore salmon. 
Yet in the draft document the performance standards are incomplete or 
missing all three types of standards and there are no consequences for 
failing to achieve two of the three types of standards.
    The Save Our Wild Salmon Coalition has done an outline of the draft 
recovery plan. I have included it in the material package you now have. 
I hope you will take time to review it in its entirety.
    In closing let me assure you that ISSU has no agenda to just breach 
dams. Our agenda is to restore a viable anadromous resource to the 
Columbia Region even if it means breaching the lower Snake River dams. 
We will accept any plan that will assure recovery of salmon to 
harvestable, sustainable levels. To date we have not seen one that can 
do that without breaching the lower Snake River dams, nor do we believe 
we ever will.
    Thank you for allowing me this time before you, and I will try to 
answer your questions.
                               __________
             Statement of Scott Bosse, Idaho Rivers United
    I would like to thank Sen. Crapo and the distinguished members of 
the subcommittee for inviting me to testify today. My name is Scott 
Bosse. I am a fisheries biologist with Idaho Rivers United, a river 
conservation group of nearly two thousand members from Idaho and across 
the Pacific Northwest that has been working on Columbia basin salmon 
recovery since our founding a decade ago.
    I would like to address three major points in my testimony on the 
Administration's draft biological opinion and the Draft Basin-wide 
Salmon Recovery Strategy, formerly know as the All-H paper.
    The first is the premise that because there are now 12 ESA-listed 
stocks of salmon and steelhead in the Columbia basin, any and all 
recovery measures must target all of these stocks at once. In other 
words, the idea is that we should pursue a ``one-size-fits-all'' salmon 
recovery strategy in order to get the most ``bang for the buck.'' This 
goes against one of the most important things biologists know about 
salmon; that each individual stock is uniquely adapted to the river 
that produced it. That is precisely why the Endangered Species Act 
protects salmon at the stock level, and not at the broader species 
level.
    Saying we should not take out the four lower Snake River dams 
because it would only help four out of the 12 listed stocks is akin to 
saying we should not cleanup the air in Boise because that does nothing 
to improve air quality in Houston or Phoenix. It is simply another 
excuse for inaction.
    The fact is that the four listed stocks in the Snake River basin 
face a very different set of hurdles than the eight listed stocks in 
the Columbia River. While most tributary habitat in the Columbia River 
has been severely degraded by logging, mining, grazing, urbanization, 
and agricultural development, the Snake River stocks still have 
available to them nearly four thousand miles of prime spawning and 
rearing habitat. Approximately one-third of this habitat is located 
within federally designated wilderness areas or Wild and Scenic River 
corridors. This virtually pristine habitat theoretically is capable of 
producing millions of wild smolts that should translate into several 
hundred thousand wild returning adult salmon.
    The administration contends there are four Hs that must be 
addressed in order to develop a truly comprehensive basin-wide recovery 
strategy. In reality, there are only three: Habitat, Harvest, and 
Hatcheries. The notion that Hydro deserves its own H is false. It does 
not. Hydro is habitat. Hydroelectric dams on the lower Snake and 
Columbia Rivers have drastically altered the 465 mile-long migration 
corridor habitat that Snake River salmon rely on to in order to deliver 
them to the estuary when they are smolts and back to their spawning 
grounds when they are adults. The dams have transformed what once was a 
cold, swift-flowing river into what is now a chain of warm, slackwater 
reservoirs in which salmon are not genetically equipped to survive.
    Hydroelectric dams also have inundated 140 miles of mainstem 
spawning and rearing habitat for Snake River fall chinook salmon. By 
largely ignoring the Hydro H and trying to make up for it in the other 
three H's, the draft bi-op essentially writes off this stock. This 
shortcoming is especially problematic because it is fall chinook that 
are most sought after by tribal harvesters who have treaty rights that 
this administration has pledged to uphold.
    The second major point I want to address is the draft biological 
opinion's strong focus on habitat restoration in upriver tributaries 
and the Columbia River estuary in lieu of the major overhaul in the 
Hydro H that Judge Marsh called for in 1994 (Idaho Department of Fish 
and Game v. NMFS). Mr. George Frampton, Acting Chair of the White House 
Council on Environmental Quality, has estimated that expenditures on 
these items alone will cost taxpayers and ratepayers hundreds of 
millions of dollars a year above and beyond what is already being 
spent.
    A fair question, then, is what will this money buy in the 3,700 
miles of prime spawning and rearing habitat that lies nearly empty of 
salmon in Idaho and northeast Oregon? What will it buy in the Middle 
Fork Salmon River--drainage the largest wild salmon refuge left in the 
Columbia basin--where the habitat cannot be improved upon, where there 
are no hatcheries, and where the spring/summer chinook that return to 
spawn face a combined harvest rate of less than 5 percent? What will a 
plan that does virtually nothing to overhaul the Hydro H do for these 
salmon stocks that are almost wholly affected by the dams?
    NMFS scientists justify their focus on tributary habitat 
restoration by saying the best opportunity to increase population 
growth rates is in the salmon's first year of life. But the science 
shows Snake River salmon have experienced no significant decrease in 
egg-to-smolt survival since the construction of the lower Snake River 
dams. The science also shows that Snake River salmon declines have been 
similar in pristine and badly degraded streams; in streams with high 
natural fertility and those with low natural fertility.
    The bottom line is NMFS has fundamentally misdiagnosed the most 
critical problem facing 4 out of the 12 listed Columbia basin salmon 
stocks by largely ignoring the Hydro H and trying to pin the problem on 
first year survival. The facts clearly do not support this assumption.
    Finally, I want to point out that the remedies prescribed in the 
draft biological opinion are not time-sensitive for at least two of the 
four listed Snake River stocks (spring/summer chinook and sockeye). 
That is, restoring spawning and rearing habitat--even if it was the 
most critical factor affecting Snake River stocks--would undoubtedly 
take decades to produce the desired effect, when extinction models show 
some of these very same stocks are on a trajectory to go functionally 
extinct by 2017. The fact remains that the only recovery measure that 
is likely to restore spring and summer chinook within a timeframe that 
will beat the extinction clock is breaching the four lower Snake River 
dams.
    Speaking at a July 27 press conference in Portland, Mr. Frampton 
was quoted as saying, ``We know dam breaching is the single most 
effective thing we can do for these (Snake River) stocks and that it 
may be necessary.'' I believe that in addition to being the single most 
effective thing we can do, dam breaching is also the only major thing 
we can do to actually recover Snake River stocks before the extinction 
clock runs out. Until the administration's draft recovery plan 
acknowledges that basic fact, it is a recovery plan for just 8 of the 
12 listed stocks, and a weak one at that.
[GRAPHIC] [TIFF OMITTED] T1532.007

     Statement of Robert J. Masonis, Director, Northwest Regional 
                 Conservation Programs, American Rivers
    Good afternoon Mr. Chairman and other distinguished members of the 
subcommittee. Thank you for inviting me to testify before you today 
regarding the Administration's draft plan to save Columbia and Snake 
River salmon. I am the Director of Northwest Conservation Programs for 
American Rivers, a national river conservation organization, and Board 
Chair of the Save Our Wild Salmon Coalition, a coalition of over 50 
commercial fishing associations, sport-fishing groups, fishing-related 
businesses and conservation organizations from across the Northwest. 
American Rivers and the Save Our Wild Salmon Coalition have been active 
for many years in the effort to recover salmon and steelhead in the 
Columbia and Snake Rivers.
    The recent release of the National Marine Fisheries Services' draft 
Biological Opinion was an important milestone in the region's effort to 
develop a recovery plan for the listed salmon in the Snake and Columbia 
River Basins. The challenge now is to improve the draft and finalize it 
on schedule by the end of 2000. One issue that is clearly not disputed 
among scientists is that the time to act is now if we are to recover 
salmon and steelhead in the Columbia Basin; further delay is 
unacceptable.
    Let me start by stating that we believe the general framework set 
forth in the draft Biological Opinion represents a workable, logical 
approach to addressing this extremely complex issue. While we support 
this general framework of action and adaptive management, we believe 
that the draft Biological Opinion is severely lacking in several 
critical respects, including the adequacy of the specific remedial 
actions and the implementation timeline. I will explain these concerns 
in more detail in a moment.
    I would also like to acknowledge the efforts of the National Marine 
Fisheries Service scientists who have worked hard over the last year on 
the Cumulative Risk Initiative. They have made significant 
contributions to our understanding of the current, tenuous State of 
Columbia and Snake River salmon. Their work has shown that many of the 
listed stocks are at high risk of extinction in the short term, and 
that we must move forward with aggressive, effective actions if we are 
to get these stocks on the road to recovery before it is too late.
    But the draft Biological Opinion suffers from several deep flaws 
that must be remedied if it is to pass scientific and legal muster.
    First, the draft Biological Opinion largely ignores the extensive, 
sound analysis of the team of Federal, State, and tribe scientists 
known as PATH. There are other witnesses, including PATH 
representatives, who are better equipped to address the crucial 
differences between CRI and PATH, and the failure of the draft 
Biological Opinion to adequately address the PATH findings, so I will 
not cover that same ground here. But it is abundantly clear to us that 
during the last year the National Marine Fisheries Service has largely 
taken the science ``in house'' and failed to adequately consult with 
the other Federal, State, and tribal scientists, including those who 
were part of PATH. Consequently, in several critical areas NMFS has 
substituted its own scientific judgments for those of the PATH 
scientists without analysis demonstrating that the PATH findings and 
judgments are flawed.
    Second, the aggressive, non-breach recovery actions the 
Administration has touted as the cornerstone of the draft Biological 
Opinion are, in fact, not there. Instead, the document sets forth 
laudable objectives, promises tough performance standards (to be 
developed at a later date), and then sets forth a list of actions that 
consist mostly of studies, investigations, pilot projects, and planning 
processes. Remarkably, the hydropower system measures are essentially 
the same as those set forth in the 1995 Biological Opinion, with no 
hard flow requirements and a continued reliance on fish barging, a 
practice which has been roundly and deservedly criticized by the 
region's scientific community.
    For example, proposed measures include: a 2-year study by the 
Bureau of Reclamation to determine the extent of unauthorized water use 
in the basin, and a 5-year draft feasibility analysis of potential 
changes in existing flood control operations to aid salmon. These 
purportedly ``aggressive'' actions will not save one fish in the near 
term, and may not ever.
    Our point is not that these steps are not worthy of pursuit, they 
are, but they are not measures that will boost listed stocks in the 
short and long term. Such actions would include requiring adequate 
flows in all tributaries containing spawning habitat or requiring 
sufficient flow augmentation to provide for the migratory needs of 
salmon and steelhead. The final Biological Opinion must require 
implementation of such actions in a timely manner dictated by the needs 
of salmon.
    Third, the draft Biological Opinion fails to define ``recovery'' 
levels for the listed stocks. Of course, the adequacy of the proposed 
actions cannot be determined without first determining what is 
necessary to achieve ``recovery,'' as required by the ESA. It also 
bears emphasis that it is ``recovery'' that the region's four Governors 
have defined as the goal, not merely avoiding extinction. The final 
Biological Opinion should rectify this major flaw by setting forth an 
aggressive schedule for defining recovery goals for each of the listed 
stocks and then adjusting the Biological Opinion as needed to achieve 
those goals.
    Fourth, the draft Biological Opinion fails to provide for timely 
implementation of lower Snake River dam bypass should other recovery 
actions either not be implemented or prove inadequate. The current 
timeline puts off a decision on bypassing the lower Snake River dams 
for at least 8 years, and implementation would be closer to 15 years 
out. That is inconsistent with the needs of Snake River salmon. The 
Cumulative Risk Initiative projects that Snake River spring/summer 
Chinook and fall Chinook populations will be half the size they are 
today in less than 5 and 10 years, respectively, if current trends 
hold.
    There is no dispute that bypassing the lower Snake River dams is 
the single best recovery action for Snake River stocks, and it must 
therefore be available if and when the fish need it. To make that 
possible, the final Biological Opinion must contain a firm commitment 
to completing all preparatory work for dam removal no later than 2005, 
and a requirement that the action agencies must seek immediate 
authorization from Congress in 2005 to bypass the dams if Snake River 
stocks are not firmly on the path to recovery. To do otherwise would be 
to ignore the best available science and greatly increase the risk of 
extinction for Snake River stocks.
    In closing, American Rivers and the Save Our Wild Salmon Coalition 
are committed to working with the National Marine Fisheries Service and 
the other Federal agencies to remedy the deficiencies in the draft 
Biological Opinion before the final is issued. The necessary changes do 
not require new analysis or modeling, but rather can be made based on 
available information developed by PATH, CRI, and other credible 
sources and should be completed no later than the end of the year. 
There is absolutely no excuse for further delay. Columbia Basin salmon 
and steelhead need strong, effective measures now if we are to realize 
our collective goal of recovering healthy, harvestable stocks.
    Thank you.
                               __________
   Statement of Sara Patton, Coalition Director, NW Energy Coalition
    My name is Sara Patton and I am the Coalition Director of the NW 
Energy Coalition. First I want to thank Senator Crapo and Senator Boxer 
for holding these hearings and for allowing me to testify on this issue 
of paramount importance for the people, the economy and the environment 
of the Northwest. In November 1998, the NW Energy Coalition endorsed 
bypassing the four Lower Snake River dams to restore endangered salmon 
and steelhead on the Snake River and to replace the power from the dams 
with energy efficiency and clean renewable energy resources.
    Second I want to describe the NW Energy Coalition to give you an 
idea of the breadth of our membership. The Energy Coalition has almost 
100 member organizations including utilities like Snohomish County PUD 
and Portland General Electric, environmental groups like the Sierra 
Club and the Idaho Conservation League, consumer protection groups, 
low-income weatherization groups, good government groups, energy 
efficiency businesses and renewable resource developers. The Coalition 
has 10-member organizations in Idaho who span most of the Coalition's 
range from Idaho Rivers United to the League of Women Voters of Idaho 
to the South Central Idaho Community Action Agency to Idaho Citizens 
Network.
    The Coalition's diverse member organizations do not share all of 
each other's goals and agendas. They are united in working for a clean 
and affordable energy future. When the Coalition Board debated 
endorsing bypassing the dams, the first question was, of course, 
whether the science calls for dam removal. Once the Board was convinced 
that the best scientific analysis shows that dam bypass is necessary to 
save these magnificent fish, they turned to the second and equally 
important question: whether there was enough clean and affordable 
energy to replace the power the four dams produce. The Coalition Board 
insisted that the replacement power strategies must result in no net 
increase in carbon dioxide emissions. The Northwest must not trade fish 
and wildlife restoration for air emissions, which cause local air 
pollution and global climate change.
    My testimony will focus on the answer to that question and on the 
relationship of dam bypass to the current energy supply problems in the 
Northwest, California and the Southwest. The third question was how to 
mitigate any dislocation or other difficulties that dam bypass might 
cause to dam dependent communities and businesses. I will not talk 
about the third question except to say that the Coalition Board was 
convinced that there are reasonable and affordable ways to mitigate 
that transition and the Board strongly supports funding for that 
mitigation.
    The question of whether there is enough clean and affordable energy 
to replace the power from the four Lower Snake River dams was answered 
in the affirmative by a study entitled Going with the Flow: Replacing 
Energy from Four Snake River Dams. The Energy Coalition worked on the 
study with the primary authors from the Natural Resource Defense 
Council. I have appended the Preface and Executive Summary of this 
report to my testimony and cite you to the Natural Resources Defense 
Council web page for more detail (www.nrdc.org).
    Going with the Flow finds that the power from the dams can be 
replaced with energy conservation and clean renewable energy at a cost 
which is equivalent to market purchases primarily from natural gas 
plants. Please note that the market price forecast on which Going with 
the Flow relied was a medium range forecast done in 1999. The recent 
very high market prices, overall electricity market volatility and 
avoided pollution make the conservation and renewable energy strategy 
both the most environmentally responsible and the most cost-effective 
power replacement option. The rate impact for residential customers of 
utilities which buy power from BPA for this clean energy replacement 
strategy would be about $1-3 per month.
    Going with the Flow finds that the total power production of the 
four dams is approximately 1136 average megawatts or about 10 percent 
of the Bonneville Power Administration's power and about 5 percent of 
the region's power. If the dams are not removed, additional required 
flow augmentation would reduce the power by 196 average megawatts for a 
total impact of approximately 940 average megawatts. The region can 
replace that power with an affordable combination of clean resources: 
82 percent energy conservation and 18 percent renewable energy from 
wind and solar generation. New gas combustion turbines are forecasted 
to produce electricity at 3.1 cents to 3.7 cents per kilowatt-hour. 
Three quarters of the energy conservation comes in at 2 cents per 
kilowatt-hour or less. The rest is under 3 cents per kWh.
    Going with the Flow relied on the Northwest Power Planning 
Council's (NPPC) most recent regional conservation potential 
assessment. The 1998 Fourth NPPC Power Plan finds 1535 average 
megawatts of cost effective conservation in the region, 515 of which 
will probably be captured by utility acquisition programs and market 
response. The remaining 1020 average megawatts are all under 3 cents 
per kWh, but most (835 average megawatts) are under 2 cents per kWh.
    This low price is important to remember since the analysis cuts off 
its consideration of cost-effective conservation measures at the 
marginal or avoided price of energy. Since the last Northwest Power 
Planning Council analysis was completed, the marginal price of energy, 
based on the price of new natural gas plants and the cost of the gas to 
run them, has gone up dramatically. A new analysis done by the NPPC and 
its Regional Technical Forum uses an avoided cost of almost 4 cents per 
kWh to analyze conservation potential.
    Another recent Northwest Power Planning Council study analyzed the 
conservation potential for Seattle City Light. Seattle has had one of 
the most consistent and effective energy conservation programs in 
region and in the Nation for the last 20 years. Even with this 
aggressive harvest of energy conservation, the NPPC found between 180 
and 260 average megawatts of energy savings available in Seattle over 
the next 20 years at a cost of 2 cents per kWh and below. Seattle has 
an average electricity load of about 1100 MW. Seattle is now making 
plans to double its rate of conservation acquisition in order to reap 
that resource at a value of $310 to $420 million to its service 
territory.
    I want to return to the 1998 Northwest Power Planning Council 
analysis on which Going with the Flow relied. There are several reasons 
why that potential estimate was conservative at the time it was 
completed. First the analysis showed that if the region valued carbon 
emissions at between $10 and $40 per ton, another 130 to 350 average 
megawatts of energy conservation would be cost-effective. Second the 
analysis included no efficiency improvement estimates for aluminum 
smelters and other BPA direct service customers. More recent analysis 
shows a cost effective potential of between 300 and 400 average 
megawatts from aluminum in the Northwest. Third the potential for 
efficiency savings in the commercial and non-aluminum industrial sector 
was underestimated in the NPPC 1998 analysis. Data from the region's 
utilities with solid experience in delivering conservation in these 
sectors showed an additional 400 average megawatts of achievable 
conservation potential not included in the 1998 analysis.
    In summary the cost-effective conservation potential derived from 
the 1998 Northwest Power Planning Council's Fourth Power Plan shows 
more than enough affordable conservation to replace 82 percent of the 
power from the four Lower Snake River dams. When one takes the 
conservatisms of the analysis at the time it was conducted into account 
(no carbon value, no estimate for increased aluminum efficiency, and 
underestimate of commercial and non-aluminum industrial conservation) 
along with the new information (higher marginal value of energy and new 
Seattle conservation potential forecast), it is exceedingly clear that 
there is plenty of cost-effective energy conservation available in the 
region to replace the power from these four dams.
    The Going with the Flow estimate that 18 percent of the power from 
the four dams can be replaced with clean renewable energy generation 
may also be an underestimate. The Northwest has tens of thousands of 
megawatts of wind power potential. Currently over 350 megawatts of wind 
energy are proposed or being developed in Oregon and Washington alone. 
Smaller scale projects are underway or planned in Idaho and Montana. 
Idaho Power has expressed interest in purchasing the output of a small 
wind project near Rupert, Idaho. The price range for wind power is 4 to 
6 cents per kWh. The region has about 2000 megawatts of developable 
geothermal potential. Currently over 60 megawatts are being developed 
in Oregon and northern California with power bound for the Northwest. 
The price range is 4.5-7 cents per kWh.
    The Renewable Northwest Project estimates that the region could 
acquire 420 average megawatts over 10 years at a net cost of 
approximately $10-14 million per year over the financial life of the 
plants assuming 30 average megawatt projects. An additional 50 average 
megawatts of small scale distributed renewable energy technologies, 
such as solar water heaters, micro-wind turbines and photovoltaic 
systems for remote locations can be cost-effectively developed.
    The soonest the dams can be bypassed with the speediest imaginable 
decision, funding and implementation process is 5 years. Five years is 
plenty of time in which to develop the resources to meet the need to 
replace the power from the dams. The draft Biological Opinion gives the 
region even more time to prepare for power replacement. And right now 
the region is embarked on intensive resource development to meet an 
immediate power deficit. The conservation resource is being developed 
by utilities like Seattle City Light, by the Bonneville Power 
Administration through its Conservation and Renewables Rate Discount 
and its Conservation Augmentation acquisition program and through new 
requirements in the Montana and Oregon utility restructuring statutes 
for investment in energy conservation and renewable energy. As noted 
above wind and geothermal power is being developed at a quickening 
pace.
    At the same time the region is getting ready to develop major new 
gas fired generation. In the four States almost 10,000 megawatts of gas 
combustion turbines have been sited or proposed. In Idaho, 500 MW have 
been sited or proposed, and 270 MW from the Rathdrum project are 
expected to come on line within 1 year. In Oregon, more than 1,800 
megawatts are sited or proposed, and 1,300 of those are expected to 
come on line within 3 years. Montana has a proposal for a 500 megawatt 
plant in Butte. Washington has over 7,000 megawatts sited or proposed 
with between 1600 and 2800 likely to be built in the next five to 10 
years. Indeed, some State agency energy experts are wondering if 
Washington's position on the transmission and pipeline grids combined 
with its less stringent siting and emissions regulations may be setting 
it up to become an energy farm for California and the Southwest.
    The NW Energy Coalition will be working to ensure that cost-
effective conservation and renewables are first on regional energy 
resource priority lists. The Coalition will also push for strong 
emissions regulation and for full mitigation of carbon dioxide and 
other green house gases from the new natural gas plants. We hope this 
mitigation and the continuing good news in the development of wind, 
geothermal, solar, fuel cells and other clean renewable resources will 
make the region's dependence on natural gas as short and clean as 
possible. None-the-less, we definitely expect significant increases in 
gas generation in the near term.
    The intense investment in gas, wind and geothermal plants and in 
conservation is most likely to produce at least a sufficiency of power 
to replace the contribution of the four Lower Snake dams. I have been 
working in electricity in the Northwest for over 20 years, and my 
educated guess is that the region will be in a power surplus in 5 years 
and the issue of power replacement will not be important in the 
implementation of dam bypass.
    I do not mean to discount the difficulties regional electricity 
suppliers are facing at the moment. The NW Energy Coalition was 
appalled when the Bonneville Power Administration reduced spill to aid 
juvenile migration not once but several times this spring and summer in 
order to meet power shortages in California and in the region. BPA 
reduced spill at Bonneville Dam and at the Dalles below the minimums of 
the current Biological Opinion because the region and California energy 
suppliers have been asleep at the wheel. They relied on a new and 
volatile wholesale market to provide power at low prices for more than 
5 years. Northwest power suppliers could have taken a lesson from the 
Northeast and the Midwest which have already felt the wrath of the 
semi-deregulated market, but they ignored that warning. When the market 
spiked as markets will, it was the fish that were sacrificed to this 
human failure.
    I will end by saying a few words about the relationship of the 
draft Biological Opinion to the current energy crisis. Regional energy 
suppliers need all the certainty they can get in their increasingly 
uncertain world. The draft Biological Opinion needs significant 
improvements, but its framework of certain timetables with certain 
criteria and certain consequences for failure to meet those criteria 
provides the kind of certainty the power suppliers need to help them 
manage the new dance of market prices and resource development. They 
will know in time, with time to spare, when and if they will need to 
replace the power from the four Lower Snake River dams. Significant 
changes need to be made in the specific timetables, criteria and 
consequences but the draft Biological Opinion provides a framework that 
can accommodate those changes.
    Thank you once again for the opportunity to speak to the 
subcommittee and to answer questions if you have any.
                               __________
                    Statement of NW Energy Coalition
                                preface
    After we conducted our analysis, the Army Corps of Engineers 
analyzed the impacts on electricity users of removing darns and 
replacing their energy through the market, as part of the environmental 
studies for a Snake River salmon recovery plan. Its findings on carbon 
impacts are virtually identical to ours. Its findings on the costs of 
market-based energy replacement differ, probably due to differences in 
two kinds of assumptions. First, our base case includes more spill and 
flow than provided in current hydropower operations, on the premise 
that such changes would be necessary to avoid salmon extinction if the 
dams remain in place. The Army Corps used the status quo as its base 
case. Second, in all our scenarios, we assume expenditures would be 
made in the near future to bring Federal dams into compliance with the 
Clean Water Act. Removing dams eliminates those costs for the retired 
dams. The Army Corps did not consider Clean Water Act costs in its base 
case.
    Since we completed our analysis, changes have occurred in the 
energy landscape, two of which have relevance to our conclusions. 
First, oil and gasoline prices have jumped to record highs, offering a 
reminder of the volatility of fossil fuel prices. The conservation and 
renewable resources in our zero-carbon strategy for replacing energy 
from the lower Snake dams offer insurance against that kind of 
volatility. Our analysis indicates that when future energy prices are 
high, conservation and renewables would be a particularly good deal for 
the region. This market signal will stimulate investments, but barriers 
will remain that prevent all cost-effective clean energy opportunities 
from being fully captured. Without a commitment by government agencies 
and utilities, many of those resources are likely to be left untapped.
    Second, the Northwest now faces a situation in which the market may 
not motivate the investments needed to provide sufficient energy for 
the region's growing needs in the coming years. An analysis by the 
Northwest Power Planning Council (Council) suggests that this shortfall 
can be addressed in an orderly fashion through a combination of market-
driven and market-intervention approaches. Potential options include 
using real-time energy pricing that creates an economic signal to 
increase supply or reduce demand, using contracts or markets to reduce 
loads, and implementing conservation measures.
    The Council believes that some market intervention would likely be 
needed to avoid unplanned disruptions of service, in part because the 
independent developers who now build power plants face considerable 
uncertainty about their ability to recover their costs and make a 
profit during this unstable period of restructuring in the electricity 
industry. If market intervention will be necessary even for energy 
development that relies on market forces, it should not be viewed as an 
insurmountable barrier to a clean energy strategy for replacing the 
generation from the lower Snake dams.
    If the Bonneville Power Administration chooses to pursue energy 
efficiency beyond its current conservation efforts as part of a 
strategy for reducing the potential shortfall, as we believe it should, 
fewer opportunities for conservation would be available to replace 
energy from the Snake dams than would otherwise be the case. However, 
additional sources of cost-effective conservation would be available, 
beyond those our study identifies for replacement of energy from the 
dams, to help fill that gap. As we went to press, for example, the 
Council was estimating significant conservation potential in the 
aluminum industry that we did not include in our analysis. Our study 
omits energy efficiency opportunities before 2001, some of which would 
still be available later. We have also been conservative in our 
estimate of industrial conservation potential and achievable renewable 
energy. And any supply shortage might help push energy prices higher, 
further increasing the amount of, and the incentives to pursue, cost-
effective conservation and renewables.
    One thing is certain:-the energy landscape will continue to change. 
Recent shifts underscore that conservation and renewable energy 
resources are not only superior environmentally, but are also a low-
risk, versatile, and economically smart means of meeting the region's 
expanding energy needs,.including the need to replace energy from the 
lower Snake dams.
                           executive summary
    Federal agencies are considering partial removal of four Federal 
dams on the lower Snake River as a centerpiece of a plan to rebuild 
endangered salmon and steelhead runs and restore a free-flowing reach 
of the Columbia's biggest tributary. The Columbia and Snake Rivers once 
formed the most productive salmon watershed in the world. Today, the 
Snake River's four major salmon and steelhead runs are threatened with 
extinction. Independent scientists have determined that a plan 
involving partial removal of the four dams is the best way to restore 
these runs to healthy, fishable levels.
    Together, the dams produce about 1,136 average megawatts (aMW) of 
electricity, enough to supply almost 5 percent of the region's annual 
energy needs. Removing the earthen portions of the dams (about a third 
of their width) would allow the river to flow freely around the 
remaining concrete but render them unable to produce power.
    Although deadly for fish, the dams produce electricity without 
generating carbon dioxide (carbon), a main cause of global warming. The 
Northwest Electric Power Planning and Conservation Act identifies 
energy conservation and non-hydropower renewables as priority resources 
to meet the region's electricity needs. Yet without a conscious effort 
to replace electricity from the dams through conservation and clean 
renewable resources, removing dams would result in construction of new 
natural-gas-fired power plants and/or increased production from 
existing coal- and gas-fired generators. Greater reliance on fossil 
fuel plants would increase emissions of carbon, nitrogen oxides and 
mercury from electricity production in the West.
    This report analyzes the costs and carbon-emission consequences of 
removing the four lower Snake River dams--and replacing their energy--
to restore salmon. It finds that replacing energy without increasing 
carbon dioxide and other emissions is affordable for residential 
electricity users. Our analysis shows the following:
    <bullet> Clean energy replacement is a good deal. If future energy 
prices are in the medium range of projected levels, replacing power 
produced by the dams with clean, pollution-free alternatives would cost 
no more than replacing it with fossil fuel sources. If future prices 
are high, clean energy would be cheaper than market energy options. 
Market intervention would be needed to promote energy conservation and 
renewable energy resources.
    <bullet> The Bonneville Power Administration (BPA) system will 
continue to provide benefits to Northwest customers if dams are removed 
to restore salmon. The cost of removing the dams and replacing their 
power with clean energy would increase residential electric bills by 
just $1 to $3 per month, assuming monthly electricity use of 1,000 
kilowatt hours. BPA, which markets electricity produced by Federal 
hydropower dams to Northwest utilities, would still have some of the 
lowest electricity rates in the nation, even after paying to remove the 
dams and replace their energy from clean sources.
    We examined the following scenarios under low, medium, and high 
projections for future market energy prices over a 20-year period 
(2001-2021):
    Base case: increased flow and spill to help salmon relative to 
today's operations, with the Snake River dams still in place. Measures 
in our base case would decrease current Federal hydropower generation 
by 196 aMW. Our base case and other scenarios also assume that 
additional efforts would be made, relative to the status quo, to bring 
the dams into compliance with the Clean Water Act.
    Market-driven power replacement: partial removal of the four lower 
Snake dams, with market forces directing energy replacement. Removing 
the four dams would decrease hydropower generation by 940 aMW compared 
with the base case. The market would replace the power from the dams by 
causing some power plants in the western grid to run harder, and by 
accelerating construction of new combined-cycle gas-fired power plants. 
Using the AURORA electricity price forecasting model, we identified 
which plants would increase or decrease their operations (and 
associated carbon emissions) to replace lost energy and estimated by 
how much. We also used AURORA to estimate when new generation would be 
built and calculate its carbon emissions.
    Allowing the market to replace 940 aMW from the dams would result 
in a net increase in carbon emissions of 0.7 percent between 2001 and 
2021 across the Western System Coordinating Council territory, which 
encompasses the western United States and Canadian electrical grid 
(Table 3, column 7). Eighty-seven percent of the replacement generation 
would come from natural gas, and 13 percent from coal (Table 3, column 
8). We estimate the market replacement case would increase Northwest 
residential electricity bills by less than $2 per month.
    Zero-carbon strategy: partial removal of the four dams with an 
energy replacement strategy designed to produce no net increase in 
carbon dioxide emissions and other pollutants. Power from all four dams 
could be replaced affordably with energy conservation measures and 
renewable energy investments that would not occur without government or 
other direct intervention. Substantial cost-effective conservation 
opportunities (costing less than the market price of power and/or the 
cost of new power plant construction) exist, but are not being pursued. 
A classic example is energy-efficient buildings, which save money over 
their lifetimes in the form of lower energy bills, but cost more to 
build initially. Because builders have incentives to minimize 
construction costs rather than life-cycle costs, this conservation 
opportunity will be lost unless special incentives or building 
efficiency standards are in place.
    The analysis shows that a package of low- and high-cost 
conservation, wind generation, and a very small amount of solar power 
could offset the carbon-emission impacts of removing dams. Because of 
timing issues--not all alternatives can be in place by 2004 to 2006, 
when dams would be removed in our scenarios--the amount of clean energy 
needed to ensure no net carbon increase would be greater than the 
amount of hydropower it would replace. Thus, our zero-carbon strategy 
would replace 940 aMW of hydrogeneration with 1,091 aMW of new clean 
resources. About 75 percent of that energy would come from low-cost 
conservation measures; most of the rest would come from non-hydropower 
renewables.
    In the medium market price case, a clean energy replacement 
strategy would cost no more than allowing the market to replace lost 
generation with natural gas and coal (Table 3, column 6). When future 
energy prices are high, replacement with clean energy would actually be 
cheaper than the market-driven alternative. Only if future energy 
prices are low would the zero-carbon strategy be more expensive than 
the market case. And the clean energy strategy offers unique advantages 
over energy replacement through gas and coal generation, including 
global climate benefits, freedom from nitrogen oxides and mercury 
pollution, and insurance against the volatility of fossil fuel prices.
    Compared to the base case, removing the four dams and replacing 
their energy from clean sources would add between $1 and $3 to the 
monthly electric bill of a residential customer fully dependent on BPA. 
Most residential customers would see a smaller rise because they are 
served by utilities that rely on BPA for only part of their electricity 
supply. If future energy prices are in the medium or high projected 
ranges, our analysis indicates that BPA energy prices would still be 
competitive, and the agency would continue to provide substantial 
benefits to its customers relative to the cost of buying power on the 
market. BPA will have cash-flow problems in individual years, but can 
solve those problems through advance planning. In all three energy 
price cases BPA would have generation costs among the lowest of any 
power marketer in the nation.
Recommendations
    1. The Clinton Administration should base its salmon recovery 
decision on the weight of the scientific evidence, which supports 
partially removing the four lower Snake dams as a recovery measure. It 
should develop a plan to mitigate the impacts of removing dams and 
assist affected communities in making a smooth economic transition.
    2. BPA is currently developing a resource-acquisition plan to 
address its existing power shortfall. With assistance from the 
Northwest Power Planning Council, BPA should expand that plan to 
include targets for acquiring conservation and renewables capable of 
replacing the energy generated by the Snake dams with no net increase 
in carbon emissions. The plan should extend beyond the current 5-year 
rate period to 2011. It should include:
    <bullet> investing in all cost-effective conservation measures;
    <bullet> investing in and/or acquiring new environmentally 
responsible non- hydropower renewable resources;
    <bullet> developing partnerships with organizations and 
institutions that can leverage increased investments in new non-
hydropower renewable energy resources.
    3. BPA should develop and pursue a plan to avoid cash-flow problems 
in individual years due to removing dams and replacing their energy, 
using a reserve fund, borrowing mechanisms, revenue-spreading rate 
mechanisms, or combinations of those tools.
                               __________
Statement of Norman M. Semanko, Executive Director and General Counsel, 
                  Idaho Water Users Association, Inc.
    Mr. Chairman, my name is Norm Semanko and I serve as the Executive 
Director and General Counsel for the Idaho Water Users Association. The 
Idaho Water Users Association was formed in 1938 and represents about 
300 canal companies, irrigation districts, water districts, agri-
business and professional organizations, municipal and public water 
suppliers, and others. We appreciate the opportunity to testify before 
you today and thank you for the invitation.
    We understand the focus of this hearing to be two-fold: (1) an 
examination of the science upon which Federal officials are relying in 
writing draft salmon recovery documents for the Pacific Northwest; and 
(2) a determination of the extent to which the Federal Caucus of 
agencies has collaborated with States, tribes and interest groups while 
writing these draft documents. I will address each of these broad 
issues.
    1. The Science Reveals that Flow Augmentation is a Failed 
Experiment.--Idaho water users necessarily focus their attention on the 
specific set of issues pertaining to flow augmentation from the Upper 
Snake River in Idaho. While the 12 species of salmon and steelhead that 
are listed under the Endangered Species Act exist only downstream of 
the Upper Snake River, our part of the State has been required to 
contribute almost half a million acre-feet of water each year toward 
flow augmentation during the migration season of the salmon. The 
National Marine Fisheries Service continues to call upon Idaho to 
supply this--and additional water--from U.S. Bureau of Reclamation 
reservoirs in the draft Biological Opinion released on July 27, 2000. 
This is water taken directly from reservoirs which Idaho irrigators and 
other water users have used and relied upon for most of the past 
century.
    Mr. Chairman, the science is in on this issue and it clearly 
demonstrates that flow augmentation using water from the Upper Snake 
River Basin is a failed experiment. The National Marine Fisheries 
Service's continued reliance upon flow augmentation is without adequate 
scientific support and needs to be discarded from future Pacific 
Northwest salmon recovery efforts.
    In a recent ``white paper'' on flow augmentation, the Federal 
Government's own scientists have indicated that flow augmentation does 
not work. Additional research on the topic by others, including the 
State of Idaho and our own scientists and researchers, yields the same 
results. This information has been well documented and provided on 
several occasions to the National Marines Fisheries Service and other 
Federal agencies involved in salmon recovery. Many examples can be 
provided to demonstrate how futile the flow augmentation experiment has 
been. Most astounding, perhaps, is the hydrologic fact that adding even 
increased amounts of flow augmentation to the lower Snake River would 
only increase the velocity of the water by one-tenth of one-mile per 
hour. For this vain effort, we are spending taxpayer dollars and 
putting our economy and way-of-life at risk. To date, this information 
has been ignored by political decisionmakers in the Clinton 
Administration who find it more expedient to continue this failed 
program than to discontinue it.
    Idaho water users have participated in this experiment for the past 
10 years, waiting for proof that flow augmentation using Idaho's 
precious water would provide some meaningful benefit to the salmon. We 
are still waiting.
    To their credit, the Governors of the four Northwest States 
recently called upon the National Marine Fisheries Service to document 
the alleged benefits of flow augmentation. Draft amendments to the 
Northwest Power Planning Council's Fish and Wildlife Program call for 
the same documentation, including a determination of the precise 
attributes of flow augmentation that provide any meaningful benefit to 
the listed species. We are proud of Idaho Governor Kempthorne's 
leadership role in taking this first important step toward debunking 
the myth that flow augmentation using Idaho irrigation water can 
somehow save the fish. We know that it cannot.
    Mr. Chairman, we will be providing detailed comments to the 
National Marines Fisheries Service regarding both the draft Biological 
Opinion and the draft Basinwide Salmon Recovery Strategy. We plan to 
provide a copy of those comments to your subcommittee. In preparing 
those comments, we have been able to draw the following conclusions 
based on the science that currently exists:
    1. Flow alteration from the Upper Snake River Bureau of Reclamation 
projects, and operation and maintenance of these projects, has not 
caused jeopardy to the listed species or resulted in any direct or 
incidental take of the species;
    2. Unnecessary and repetitive consultations have been held 
regarding the Upper Snake River projects;
    3. The flow-survival hypothesis used in the draft Biological 
Opinion is unfounded;
    4. The flow targets which have been set in the Lower Snake and 
Columbia Rivers are unreasonable, unfounded and, in most cases, 
unachievable;
    5. Flow augmentation using Idaho water has not aided in 
conservation or recovery of the listed species and may actually be 
harming the fish;
    6. Continuation of the flow augmentation program at current or 
increased levels threatens to dry up hundreds of thousands of acres of 
Idaho farmland and cost thousands of agricultural jobs; and
    7. Other measures exist which, if adopted and implemented, would 
provide a more certain benefit for the listed species.
    A few of these points deserve additional discussion and 
illustration.
    Flows from the Upper Snake River have slightly increased over the 
past 85 years, especially during the critical summer months, despite 
irrigation development in southern Idaho and the construction of the 
Upper Snake Bureau of Reclamation projects. The scientific 
documentation for these conclusions is summarized in Figures 1 through 
6, which are included in my prepared statement. This development and 
construction occurred long before the populations of the listed species 
declined to endangered or threatened levels. Thus, development in the 
Upper Snake did not alter flows resulting in jeopardy to the listed 
species or adverse effects on their habitat.
    There is no scientific foundation for conclusions in the Draft BiOp 
that Upper Snake flow augmentation will provide biological benefits for 
the listed species. The purported flow survival relationship for fall 
chinook above Lower Granite is unfounded and there is evidence that 
flow augmentation from the Upper Snake BOR projects is actually 
detrimental to the fish, particularly because of the temperature of the 
water provided from the Upper Snake River. Likewise, there are no 
demonstrated benefits from flow augmentation through the hydropower 
system, in the estuary, or in the ocean plume for any of the listed 
species. The relatively miniscule contribution that flow augmentation 
makes toward the overall flow of the Snake and Columbia Rivers is 
documented in Figure 7 of my prepared statement.
    Flow augmentation from the Upper Snake has previously been an 
interim or experimental measure aimed at mitigating the jeopardy and 
incidental take caused by the FRCPS. There is no basis for the new 
conclusion in the Draft BiOp that the Upper Snake BOR projects cause 
jeopardy, with or without providing 427 kaf of flow augmentation. 
Likewise, there is no basis for the implication in the Draft BiOp that 
the Upper Snake BOR projects incidentally take listed species.
    Because operation of the Upper Snake BOR projects does not cause 
jeopardy, there is no basis for the reasonable and prudent alternatives 
(RPAs) for these projects identified in the Draft BiOp. Specifically, 
the flow targets established for the mainstem are unreasonable and 
unfounded. Flow augmentation using 427 kaf of more water is unnecessary 
and illegal, especially with respect to the use of powerhead space to 
firm supplies. The requirement for the BOR to consult on uncontracted 
space does not fully comport with Federal and State law and the 
proposed consultations are too narrow. Pursuit of increased water 
conservation and reduction of so-called unauthorized uses in the Upper 
Snake will not increase streamflow. Finally, additional water should 
not be sought from the Upper Snake. The additional water is not needed, 
and a State law mechanism for providing that water downstream is 
unlikely.
    In its own consultations, the U.S. Fish and Wildlife Service 
recognized that the Upper Snake River projects were recently consulted 
on, culminating in a biological opinion during 1999. Since nothing has 
change in the Bureau or Reclamation's operations, the Fish and Wildlife 
Service determined that additional consultation on the Upper Snake 
projects is not required. As a result, the Upper Snake projects are not 
included in the Service's draft 2000 biological opinion. Given the time 
and effort put into the previous consultation, this is the only 
approach that makes practical and legal sense. For reasons inexplicable 
to us, the National Marine Fisheries Service has not followed the U.S. 
Fish and Wildlife Service's lead. Although the NMFS BiOp on the Upper 
Snake projects was completed just last December, the agency chose to 
include a reexamination of the projects in the 2000 BiOp, despite the 
fact that there has been no change in the proposed operations. This 
repetitive consultation is uncalled for.
    Harvest reforms can provide significant benefit to the listed 
species, especially Snake River fall chinook. The RPAs listed for 
harvest in the Draft BiOp should be revised to require these reforms.
    In summary, the Idaho Water Users Association opposes the inclusion 
of flow augmentation using 427,000 acre-feet or more water from the 
Upper Snake River as an RPA. There is no basis for these measures and 
the Draft BiOp should be revised to eliminate Upper Snake River flow 
augmentation because these BOR projects do not jeopardize the listed 
species or adversely modify their habitat. Moreover, flow augmentation 
does not provide significant biological or physical benefits to the 
listed species.
    Mr. Chairman, by presenting this information, I hope that we have 
given you some idea of the degree to which the science used by the 
Federal agencies fails to support the conclusions regarding flow 
augmentation in the draft salmon recovery documents. We would 
appreciate anything that you and the subcommittee can do to bring this 
matter to the attention of the Federal agencies.
    2. The Federal Caucus has Failed to Meaningfully Collaborate on its 
Draft Salmon Recovery Documents.--From our perspective, the Federal 
agencies involved in salmon recovery--particularly the National Marine 
Fisheries Service--have failed to collaborate with interest groups such 
as ours in drafting these important documents. In fact, we have taken 
virtually every opportunity to provide detailed, written comments to 
NMFS on draft documents and analyses. To date, our concerns have been 
ignored. In some cases, they have not been acknowledged at all.
    Mr. Chairman, if the goal is to develop a regional plan by 
consensus, the Federal agencies have failed miserably. Anything that 
this subcommittee can do to correct this situation would be greatly 
appreciated.
    Thank you again for the opportunity to testify today. I am glad to 
answer any questions or provide any additional information to the 
subcommittee.
[GRAPHIC] [TIFF OMITTED] T1532.008

[GRAPHIC] [TIFF OMITTED] T1532.009

[GRAPHIC] [TIFF OMITTED] T1532.010

[GRAPHIC] [TIFF OMITTED] T1532.011

[GRAPHIC] [TIFF OMITTED] T1532.012

                                                September 25, 2000.
Federal Caucus,
  C/O Jenifer Miller,
BPA-P-6,
905 NE 11th Avenue,
Portland, OR.

Re: July 27, 2000 Draft Basin-Wide Salmon Recovery Strategy

    Dear Ms. Miller: Enclosed are comments on the draft Basin-Wide 
Salmon Recovery Strategy submitted on behalf of a large number of Idaho 
water users. We encourage the Federal Caucus to remove flow 
augmentation from the Upper Snake River in southern Idaho from its 
recovery strategy. Flow augmentation from southern Idaho was begun as 
an interim experimental measure that has not been shown to be an 
effective use of water resources or money for salmon recovery.
    We appreciate this opportunity to provide comments to the Federal 
Caucus on the draft Basin-Wide Salmon Recovery Strategy.
            Respectfully submitted by,
                                           John K. Simpson,
                                        Roshon, Robertson & Tucker.

                                         Norman M. Semanko,
                              Executive Director & General Counsel.
                                 ______
                                 
   Federal Caucus--Comments by Idaho Water Users on Conservation of 
     Columbia Basin Fish Draft Basin-wide Salmon Recovery Strategy
    These comments are submitted on behalf of the Committee of Nine and 
the Idaho Water Users Association (hereinafter ``Idaho water users''). 
The Committee of Nine is the official advisory committee for Water 
District 1, the largest water district in the State of Idaho. Water 
District 1 is responsible for the distribution of water among 
appropriators within the water district from the natural flow of the 
Snake River and storage from U.S. Bureau of Reclamation reservoirs on 
the Snake River above Milner Dam. The Committee of Nine is also a 
designated rental pool committee that has facilitated the rental of 
stored water to the Bureau of Reclamation to provide water for flow 
augmentation pursuant to the 1995 Biological Opinion. The Idaho Water 
Users Association was formed in 1938 and represents about 300 canal 
companies, irrigation districts, water districts, agri-business and 
professional organizations, municipal and public water suppliers, and 
others. These comments have been prepared with the assistance of the 
scientists, biologists, and engineers who have been retained to address 
Snake River ESA issues.\1\
---------------------------------------------------------------------------
    \1\ Contributors include: Dr. James J. Anderson, School of 
Fisheries, University of Washington; Craig L. Sommers and David B. 
Shaw, ERO Resources Corporation; Dr. Richard A. Hinrichsen, Hinrichsen 
Environmental Services; Dr. William J. McNeil, retired professor of 
fisheries, Oregon State University. These individuals also contributed 
to comments by the Idaho water users on the draft White Paper on flow 
(10/29/99), the draft All-H Paper (3/16/00) and the draft Feasibility 
Report/Environmental Impact Statement (3/31/00). Resumes of the 
contributors are provided in Attachment 3.
---------------------------------------------------------------------------
                          synopsis of comments
    Idaho water users support salmon recovery. Idaho water users are, 
however, becoming increasingly frustrated by the lack of response to 
legitimate scientific concerns raised in their numerous comments to 
draft salmon recovery documents and proposals.
    This Draft Basin-Wide Salmon Recovery Strategy (Draft Strategy) 
once again demands release of water from the Upper Snake River \2\ for 
flow augmentation in the name of salmon recovery, yet the benefit of 
flow augmentation has never been documented. Further, even though flow 
targets and flow augmentation were required by the 1995 Biological 
Opinion and are the first items under Improving Water Management in 
this draft, the Research, Monitoring and Evaluation portion of this 
draft does not even mention how the alleged benefit of flow targets and 
flow augmentation will be monitored or evaluated.
---------------------------------------------------------------------------
    \2\ Throughout these comments, the Upper Snake River means the 
portion of the basin above Brownlee Reservoir.
---------------------------------------------------------------------------
    Development of water resources in the Upper Snake River basin did 
not cause the decline of fish populations and has not resulted in the 
destruction or adverse modification of critical habitat. Reducing Upper 
Snake River water uses to provide flow augmentation will not reverse 
the fish population decline, recover the populations, or mitigate the 
adverse modification of critical habitat caused by activities in the 
lower Snake and Columbia Rivers. Continued calls for ever-increasing 
amounts of water from southern Idaho ignore the fact that there is no 
significant biological benefit from an option that has enormous 
economic and social costs.
    In the March 16, 2000 comments to the Draft All-H Paper, Idaho 
water users agreed with the overall scope and purpose of the paper. 
However, Idaho water users did not then and do not now agree with the 
inclusion of existing or additional levels of flow augmentation in the 
conceptual recovery plan. The concerns of the Idaho water users, the 
same water users who provide much of the storage water to the Bureau of 
Reclamation for flow augmentation, were not even acknowledged in the 
Public Comments in the new draft report. Upper Snake River flow 
augmentation is not a necessary or viable component of a conceptual 
recovery plan because it fails to meet the goals and objectives spelled 
out in the All-H Paper and it does not reflect and balance the 
realities of the region, i.e.:
    <bullet> Flow augmentation does not provide significant biological 
or physical benefits;
    <bullet> Flow augmentation has high economic cost and impact; and
    <bullet> Flow augmentation must overcome huge political and legal 
hurdles.
    The Upper Snake River basin has supplied over 3.5 million acre-feet 
(MAF) of water for flow augmentation over the past 10 years. Another 15 
MAF have been provided from Brownlee and Dworshak Reservoirs. In spite 
of the enormous volume of water that has been released for flow 
augmentation, there is no evidence that this added water has 
contributed to the survival of Snake River spring and summer chinook, 
steelhead, or sockeye populations or will promote their recovery. 
Studies of fall chinook survival above Lower Granite Reservoir show a 
relationship to migration timing, temperature, turbidity, flow, and 
travel time (in that order), but the relationship between flow and 
adult survival is not statistically or biologically significant.
    The existing level of flow augmentation from the Upper Snake River 
(427,000 AF/yr) should be discontinued since it provides no significant 
benefit to listed.species or their habitat and impacts will occur on 
water users and local resources in dry years. Likewise, an aggressive 
program of additional flow augmentation, such as Hydropower Option 2 
(taking up to another 1 MAF out of the Upper Snake River), will bring 
renewed opposition from Idaho water users. Such a program will have 
devastating impacts on southern Idaho by drying up more than 600,000 
acres of productive farmland, costing over $430 M per year, causing 
thousands of lost jobs, and severely impacting local fisheries, 
wildlife habitat, recreation, and the cultural and historical resources 
of the Upper Snake River (USBR, 1999).
    In summary, Upper Snake River flow augmentation should be 
eliminated from consideration as part of this recovery plan. Idaho 
water users conceded to a trial period during which any benefit of 
Upper Snake River flow augmentation could be demonstrated. The trial 
period has ended and no recovery benefit has been demonstrated.
    Our comments on the Draft Biological Opinion issued by NMFS are 
attached to these comments. The attachment is incorporated by this 
reference as though set forth in full herein.
                            general comments
    The Idaho water users reiterate their comments of March 16, 2000. 
The primary concern of the Idaho water users expressed in the March 16 
comments and today is the continued call for augmentation water from 
the Upper Snake River to attempt to meet flow targets at Lower Granite 
Dam. Idaho water users initially agreed to the flow augmentation 
experiment conditioned upon the development of data to show the effects 
of augmentation on survival of the listed species. However, the data 
that has been developed does not support the continuation of flow 
augmentation from the Upper Snake River.
    The attached comments of the Idaho water users on the Draft 
Biological Opinion issued by NMFS present additional data and analysis 
to support discontinuing flow augmentation from the Upper Snake River. 
The available data does not show the mean annual discharge from the 
Upper Snake River has decreased over time, even with the development of 
Bureau of Reclamation projects in that portion of the basin. Neither 
does available data show augmented flow from the Upper Snake River will 
lead to recovery of the listed species. Finally, changes to the 
hydrograph of the Columbia River at the estuary are primarily the 
result of operation of the FCRPS on the mainstem of the Columbia and 
the magnitude of those changes is such that trying to ``normalize'' the 
hydrograph with Upper Snake River flow augmentation is simply futile.
                    conceptual recovery plan, goals
    Idaho water users generally agree with the need for a conceptual 
recovery plan to address the recovery of listed species impacted by the 
FCRPS \3\. It is not apparent, however, what role the Draft Basin-Wide 
Salmon Recovery Strategy will have nor how the goals will be pursued 
since the Implementation chapter has not been provided.
---------------------------------------------------------------------------
    \3\ FCRPS in this document refers to the Federal Columbia River 
Power System and does not include the Bureau of Reclamation facilities 
upstream from Lower Granite Dam.
---------------------------------------------------------------------------
    The Program Goals are different in the Executive Summary (p. 4) and 
in the body of the report (p. 38). Specifically, in the body of the 
report, one of the goals states:

          Balance the Needs of Other Species. Ensure that salmon and 
        steelhead conservation measures are balanced with the needs of 
        other native fish and wildlife species.

    Idaho water users agree with this goal but in the Executive Summary 
the following language has been added at the end after ``species'': 
``and do not unduly impact upriver interests. `` It is not clear, due 
to the differences in the goal at different locations, which goal will 
be followed. As ``upriver interests,'' the Idaho water users, of 
course, do not want to be ``unduly impacted.'' In fact, the Idaho water 
users should not be impacted at all because their activities have not 
caused the species to be listed and there is no evidence that Upper 
Snake River flow augmentation has resulted in demonstrable benefits to 
the listed species.
    The Idaho water users also believe the goal to ``Minimize Adverse 
Effects on Humans'' is critically important. The water users believe a 
balance must and can be achieved that will recover the species but not 
destroy the social and economic structure of the region.
                          hydropower option 2
    The Federal Caucus recommends Hydropower Option 2 for Snake River 
Operational Measures, which includes additional water for temperature 
control and flow augmentation. As thoroughly discussed in the attached 
comments to the NMFS Draft Bi-Op, augmentation water from the Upper 
Snake River has not been shown to be beneficial for recovery of the 
listed species. Flow augmentation from the Upper Snake River may, in 
fact, increase downstream water temperatures that could be detrimental 
to listed species.
    As stated repeatedly in these and prior comments, the Idaho water 
users do not believe the science supports taking additional Upper Snake 
River water for flow augmentation or temperature control.
                  research, monitoring and evaluation
    Although the Idaho water users strenuously oppose the use of water 
from the Upper Snake River for flow augmentation, if any amount of this 
augmentation is continued, it must be monitored and evaluated. The 
research, monitoring and evaluation portion of the Draft Strategy omits 
any attempt to quantify benefits from flow augmentation. Even though 
the first measure identified in the hydropower element of the strategy 
is ``water management . . . to meet salmon flow objectives, (Vol. 2, p. 
71) the section on proposed monitoring and evaluation is silent on 
determining the benefit of the flow objectives to the listed species 
survival and recovery.
    The Draft Strategy states ``. . . we will continue following 
cohorts through their down-river migration to early ocean juvenile 
stages . . .'' (Vol. 2, p. 95) but does not give any indication of a 
planned measurement of flow augmentation benefits. The benefits of the 
flow objectives on the listed species must be evaluated, yet the Draft 
Strategy simply proposes to determine if the flow objectives have been 
implemented. Implementing actions without assessing their consequences 
not only ignores the requirement to apply the best available science to 
recover the species but also is irresponsible.
                            public comments
    The Idaho water users submitted extensive written comments on the 
draft All-H paper as noted above. Those comments are more broadly based 
than captured by Issues 02-006, 02-013, 08-001, and 10-005 in the Draft 
Strategy. Research conducted for the water users cannot find any 
scientific basis for the Lower Granite flow targets, the impetus for 
flow augmentation from the Upper Snake River. In fact, analysis of 
available data shows water from the Upper Snake River may adversely 
impact temperatures at Lower Granite Dam and that discharge from the 
Upper Snake River has not diminished over time.
    The issue of Lower Granite flow targets and Upper Snake River flow 
augmentation is a critical issue with the Idaho water users, those same 
water users that have made water available for rent by the Bureau of 
Reclamation to provide flow augmentation under the current Bi-Op. The 
full range of legitimate questions raised by the Idaho water users in 
their March 16, 2000 comments must be addressed and the flow targets 
must be justified for there to be a basis for any further flow 
augmentation experimentation.
                               __________
   Statement of Glen Spain, Pacific Coast Federation of Fishermen's 
                          Associations (PCFFA)
    My name is Glen Spain. I am the Northwest Regional Director of the 
Pacific Coast Federation of Fishermen's Associations (PCFFA), the west 
coast's largest organization of commercial fishermen and fishing 
families, which represents the interests of thousands of small and mid-
sized family owned commercial fishing operations working in ports from 
San Diego to Alaska. We are also America's oldest industry. Our members 
provide this country with one of its most important and highest quality 
food resources as well as a major source of exports. Our efforts 
provide tens of thousands of jobs in coastal communities supported by 
the bounty of the sea. PCFFA is a federation of 25 different port and 
small to mid-sized vessel owners' organizations coastwide, representing 
a combined vessel asset investment in excess of $1 billion.\1\
---------------------------------------------------------------------------
    \1\ A list of PCFFA member organizations is included as Attachment 
A.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify on this very important 
issue of salmon restoration in the Columbia Basin--a subject that means 
life or death to many west coast fishing-dependent communities. The 
mainstay of our industry has always been Pacific salmon--until recent 
salmon declines, particularly in the Columbia, have made that 
impossible. Decades of serious declines in salmon runs from the 
Columbia, once the most productive salmon river system in the world, 
have dramatically affected the commercial fishing-dependent economies 
of California, Oregon, Washington and Alaska as well as devastated the 
recreational fishing economy of Idaho. The current Biological Opinion 
(BiOp) under consideration by this committee is the latest and most 
important effort to reverse those declines and help restore our 
industry.
    Fishermen are family food providers, but in order to be able to 
produce high quality seafood and maintain tens of thousands of jobs in 
coastal communities, we must have something to catch! Most of our 
people are now, or have been, salmon fishermen. However, every year for 
decades now there have been fewer and fewer fish coming out of damaged 
west coast watersheds. Widespread habitat loss and the destruction 
wrought by the multitude of west coast dams, many no longer cost 
effective or even needed, has now pushed many once abundant wild salmon 
runs to such low numbers that NMFS has had to put 25 separate and 
distinct runs of Pacific salmon and steelhead on the Federal Endangered 
Species list.\2\ Twelve of those listed runs--among them runs 
historically among the most important to the existence of a west coast 
commercial salmon fishing industry--are now in the Columbia Basin.
---------------------------------------------------------------------------
    \2\ For the current status of salmonid listing decisions on the 
west coast, see the National Marine Fisheries Service web site: http://
www.nwr.noaa.gov/1salmon/salmesa/pubs/1pg300.pdf For online maps of the 
many many ESUs now listed see: http://www.nwr.noaa.gov/1salmon/salmesa/
mapswitc.htm. For general information on the listings, see: http://
www.nwr.noaa.gov/1salmon/salmesa/specprof.htm.
---------------------------------------------------------------------------
columbia river declines have devastated the west coast fishing industry
    Once the most productive salmon-producing river system in the 
world, wild salmon runs in the Columbia Basin are now at less than 2 
percent of their historical run size. As we speak, nearly every salmon 
run in the Columbia River has been listed under the Endangered Species 
Act. However, the current depressed status quo does not come cheaply. 
Salmon mean business. Fewer salmon mean fewer jobs, less cash-flow and 
fewer tax dollars to every coastal and many inland communities. Salmon 
declines have cost money--a lot of money--in the form of lost economic 
opportunities, shrinking tax bases and lost jobs.
    In fact, the mismanagement of the Columbia and Snake River Federal 
Hydropower System that has plunged these runs toward extinction has 
cost the regional economy at least 25,000 fishing-dependent family wage 
jobs, and drained more than $500 million/annually from the west coast 
economy in the form of lost economic opportunities.\3\ At least a fifth 
of these losses 5,000 jobs and $100 million/year are directly 
attributable to declines in the Snake River which in turn are clearly 
linked to high salmon mortalities caused by the lower Snake River dams 
(Ice Harbor, Lower Monumental, Little Goose and Lower Granite Dams), a 
system of four dams completed in 1975. Once booming downriver fishing 
ports such as the Port of Astoria are now in serious economic decline. 
In recent years, since Snake River chinook and sockeye can migrate 
widely both north and south, the Pacific Fisheries Management Council 
(PFMC) has had to impose salmon fishing restrictions to avoid their 
accidental bycatch all the way to Central California and well up into 
Southeast Alaska at a cost to these ports of many tens of millions of 
dollars annually in lost harvest opportunities.\4\ Columbia River 
stocks are thus `key stocks' in the whole west coast salmon fishery 
management. In other words, even though there may be millions of 
healthy wild and hatchery-produced fish out there in the ocean, our 
people are foreclosed from catching them for fear of even accidentally 
impacting these weakest (and now ESA listed) stocks. The Columbia 
salmon are also the key to meeting the U.S. allocation commitments to 
the Pacific Salmon Treaty with Canada, and past Columbia declines lead 
directly to the Treaty's collapse in years past.
---------------------------------------------------------------------------
    \3\ Economic figures on salmon losses from the Cost of Doing 
Nothing: The Economic Burden of Salmon Declines in the Columbia River 
Basin (October, 1996), Institute for Fisheries Resources, available 
from IFR at P.O. Box 11170, Eugene, OR 97440-3370.
    \4\ Ocean and Columbia estuary salmon season closures have also 
been independent of the ESA, and are required under `weak stock 
management' principles by the Magnuson Act. Major coastal salmon 
closures started almost two decades before even the first salmon ESA 
listing as necessary conservation measures to protect weak stocks that 
are in serious decline. Thus even without the ESA, many portions of our 
coastal fisheries would remain closed simply because there are too few 
fish surviving their in river migration through the dams.
---------------------------------------------------------------------------
    The positive side of all this is that the economic return on your 
investment in Columbia and Snake River salmon restoration efforts, if 
done properly, will be very large. And I want to emphasize that salmon 
restoration efforts in the Columbia are an investment, not a cost. If 
properly done, much of the $500 million/year now lost to the regional 
economy because of salmon declines could be recaptured in perpetuity as 
part of a sustainable west coast fishing industry. Our priority--as a 
major economic interest in the Columbia Basin as well as in the coastal 
economies of California and Alaska--is in restoring the salmon, and in 
so doing restoring the lower river and coast economies that depends 
upon those salmon. If the best available science says that this means 
that some of the Lower Snake River dams must be decommissioned, then we 
support those measures and will work with upper river users to mitigate 
and manage these changes. However, if Columbia River salmon recovery 
can truly be accomplished without decommissioning the lower Snake River 
dams, obviously this would be far better as well as far more 
politically feasible.
 importance of completing the columbia river biological opinion (biop)
    In general, we support the Administration's current BiOp approach: 
``Let's really try whatever we can do right now to offset and mitigate 
for losses in the dams, including major efforts to improve flow and 
restore critical estuary and tributary habitat, and carefully monitor 
the results to see if we can achieve recovery short of decommissioning 
Snake River dams.'' In other words, this BiOp sets up a test of the 
easiest to achieve options first. We believe that this is by and large 
a sound and rational strategy.
    However, if that effort does not work, other necessary measures 
must then be taken, up to and including selective dam decommissioning 
in the Snake River. In the meantime, on the possibility that these non-
dam measures may not work, we must also plan for that alternative just 
as a matter of insurance. Otherwise we are committing all our eggs to a 
single basket which may not hold them. If the BiOp Plan fails, and we 
do not make what would then be the only other possible decision, the 
only other alternative would be to plunge the whole Northwest 
hydrosystem, and the whole region, into political and economic chaos.
    The importance of completing this Biological Opinion on the 
operation of the Columbia River Power System (now out for public 
comment) as soon as possible cannot be overstated. The whole Columbia 
Federal hydrosystem teeters on the verge of chaos. The States have 
shown themselves incapable of coming to any lasting consensus on the 
management of the system (through the Northwest Power Planning Council 
or otherwise) and the Federal Government is now faced with serious and 
pervasive ESA conflicts, Clean Water Act conflicts, and potential 
litigation by Treaty Tribes for the abrogation of their treaties.\5\ 
Postponing decisions will not make them cheaper, it will make them much 
more difficult to achieve and therefore much more expensive.
---------------------------------------------------------------------------
    \5\ Tribal Treaty claims would be liabilities directly by the U.S. 
Treasury, affecting taxpayers in every state. Minimum damages for 
abrogation of those treaties have been estimated at $10 billion, and 
such cases are routinely upheld in the U.S. Supreme Court.
---------------------------------------------------------------------------
    In addition there are continuing calls for the Federal Government 
to divest itself entirely of the Bonneville Power Administration (BPA) 
by taxpayer watchdog groups and congressional budget hawks outraged by 
the massive and pervasive Federal subsidies that are now propping up 
the system, and those arguments will only be proven correct if BPA and 
the region continue to be unable to solve these problems. These 
problems are not getting any easier either as time goes by.
              the biological opinion framework is workable
    Though it has serious flaws (as outlined below), and the BiOp is 
clearly a first draft, the overall framework of the Biological Opinion 
is, we believe, the correct one. In fact, there are twelve (12) major 
salmonid ESU's within the basin with declines that must be reversed, 
only four (4) of which are in the Snake River. Though most of the 
controversy has revolved around the Snake River, obviously breaching 
the Snake River dams alone will do little to help the other eight (8) 
runs. The BiOp recognizes that something more needs to be done to 
benefit all the runs.
    Many of the measures (such as increased flow augmentation and 
estuary habitat protection and restoration) are clearly going to 
benefit not only the most seriously depressed runs in the Snake River, 
but all the other runs as well. Many of these measures are necessary to 
salmon restoration. What remains to be seen is whether these measures, 
alone, will be sufficient for actual recovery, and if so for which of 
the twelve (12) listed runs? In order to ascertain whether these 
measures work, the BiOp requires: (1) specific performance standards 
and specific measures to be taken; (2) a clear and ongoing monitoring 
mechanism to see whether performance standards are in fact being met 
and take appropriate actions if they are not. The BiOp clearly is 
designed to provide both, though details are so far sketchy.
    However, in addition, there are consequences for inability to meet 
performance standards. This includes the failure of Congress to fund 
the required measures. This BiOp is the only scientifically and legally 
viable plan available to avoid the necessity of decommissioning the 
lower Snake River dams. Without congressional support particularly full 
funding so that all its measures can be implemented in a timely way 
this Biological Opinion will fail, and Snake River dam decommissioning 
will then be left as the only available option. Failing to act would 
plunge the region into political and economic chaos. The status quo is 
not working, so doing nothing is also not an option.
    However, this Plan must be taken and funded as a whole. The BiOp is 
like a fine tapestry removing the warp from the woof will yield nothing 
but an unconnected pile of threads. Efforts by certain Members of 
Congress to `cherry pick' what provisions of the whole plan they wish 
to implement will inevitably crash the plan.
       the flaws in the biological opinion that need to be fixed
    That said, there are still a number of serious systemic flaws in 
the Biological Opinion that need to be fixed if it is to constitute a 
valid recovery effort. These flaws include:
    (1) Lack of Specific Performance Standards.--The agencies 
admittedly are still developing both biological and implementation 
performance standards by which to assess whether the plan is working or 
not. Obviously there must be ascertainable recovery targets in the 
BiOp. Many of these performance standards still need to be worked out, 
and the lack of any detail on most of those standards is a serious 
problem in the current Draft. The Administration admits this problem 
and is attempting to develop specific performance standards at this 
time.
    (2) Lack of Detailed Measures.--Again, lack of detail in terms of 
what specific measures will be required makes it difficult to assess 
precisely what actions will be done under the BiOp, who is going to 
perform them or to weigh their likely effectiveness. Again, these 
details must be filled in before the BiOp constitutes a legitimate 
recovery pathway.
    (3) Lack of Cost Estimates of Measures.--Obviously, if it cannot be 
ascertained what the recovery targets are nor what specific measures 
must be undertaken to achieve them, then it becomes impossible to 
estimate either the costs of the measures or their economic impacts on 
other industrial sectors such as ours. It also becomes impossible to 
accurately weigh those costs against the known costs of Snake dam 
decommissioning, or against the enormous ongoing costs to the economy 
of the current failed status quo. Clearly we need to know as soon as 
feasible just how much these non-breach options will cumulatively cost 
as the alternative.
    (4) Check-ins Too Infrequent or Too Late.--Currently the BiOp 
contains only year five (5) and year eight (8) check-ins to see how the 
plan is being implemented and whether it is effective. These check-ins 
need to be annually, with a major `decision-point' check-in at year 
three (3). By year three (3), we will know whether the required 
recovery measures are being scheduled and funded by Congress. By year 
three (3) we will know pretty well whether the Plan is going to even be 
implemented. There will also likely have to be occasional changes to 
the BiOp as we implement adaptive monitoring. Long check-in timeframes 
work directly against flexibility and efficient implementation and will 
likely cost us all a lot more in the long run. Annual report cards 
avoid this problem.
    (5) Lack of `Hard-wired' Decision Points.--At some point, if this 
Plan fails, there will have to be some very serious decisions made. 
This Plan is, frankly, the best and likely the only option for recovery 
short of decommissioning at least some dams (those in the lower four 
Snake River). Biological or political failure of this `in-lieu of 
breaching' strategy would leave no choices remaining but to 
decommission some or all of the Snake River dams. This should be 
acknowledged up front. The laws of nature are very unyielding, and the 
options available are becoming increasingly limited not by policy 
considerations, but by basic rules of hydrology, biology and physics.
                     it's time to put up or shut up
    The Northwest ratepayers and Federal taxpayers have already 
expended more than $4 billion on Columbia River salmon recovery 
efforts, relying for three decades very heavily on artificial salmon 
collection and barging and trucking programs which were never 
thoroughly tested and which clearly have not worked. The BiOp also 
relies much too heavily on those failed programs, but also includes 
habitat and estuary restoration, hatchery reforms and fish passage 
modifications that are all long overdue, and likely will benefit not 
only the Snake River runs but all twelve (12) listed subspecies. While 
we (as do most scientists) remain highly skeptical about whether all 
the measures in the BiOp combined will, in and of themselves, be enough 
to offset the up to 88 percent mortality inflicted by the whole gamut 
of dams culminating in the Snake River dams, we believe there is good 
logic in giving it the best possible try to see if we can achieve 
recovery.
    A number of political leaders have stated that they believe that 
all other feasible measures throughout the whole system should be tried 
before resorting to decommissioning Snake River dams. Both politically 
and administratively this makes sense. However, we believe the time is 
now here for opponents of dam decommissioning generally to `put up or 
shut up.' The Biological Opinion now on the table is their only viable 
alternative to dam decommissioning.
    Legally the BiOp is a `jeopardy' finding, subject to an integrated 
set of mandatory mitigation and recovery measures which, if 
implemented, may overcome jeopardy. Any effort by Members of Congress 
to `cherry pick' only the elements they like or to eliminate funding 
for options they may not like (through the appropriations process or 
otherwise) creates the huge risk that the BiOp as a whole will fail. 
Failure would inevitably lead once again into chaos, a huge potential 
Treasury liability and probable takeover of the whole system by the 
Courts. Personally I do not consider that kind of chaos a viable 
alternative.
    This is why we are greatly concerned about various efforts by some 
of these same Members of Congress to impose riders and other budget 
limitations that would defund major portions of this overall Plan. The 
most important implementation element of this restoration Plan is 
Congress itself. If Congress does not fully fund its part, the BiOp's 
Plan will most surely fail.
    The BiOp is a single tapestry, and it will not hold together 
legally or politically unless all its required treads are woven 
together and funded in a timely fashion. Plunging the region into 
widespread chaos, and plunging our own major industry into further 
economic disaster, are not `plans' and cannot be considered viable 
political or economic options.
                               __________
 Statement of the Pacific Coast Federation of Fishermen's Associations
    The Pacific Coast Federation of Fishermen's Associations (PCFFA) is 
the United States west coast's largest organization of commercial 
fishermen and is a non-governmental, non-profit corporation organized 
in 1976. As a federation, its membership is composed of 25 U.S. west 
coast commercial fishermen's port associations and vessel owner's 
associations spread from San Diego, California to northern Alaska. 
Fishermen belonging to PCFFA member organizations engage in a variety 
of fisheries, including those for salmon, crab, pink shrimp, albacore, 
rockfish, shark, halibut, swordfish, sea cucumber, sea urchin, squid 
and herring.
    PCFFA provides its member associations with a full time staff to 
address fisheries education, communications, habitat protection, and 
legislation. PCFFA represents its member associations at the local, 
State, regional and national levels on all fisheries issues before many 
commissions, councils and legislatures throughout the Pacific region, 
and before the U.S. Congress. PCFFA also has fishermen's health care 
programs for fishermen belonging to its member associations. PCFFA is 
involved in fisheries enhancement and publishes print and electronic 
newsletters to alert the fishing industry to current issues that should 
concern it.
    Since the health of our industry depends on healthy marine and 
anadromous fishery resources, much of PCFFA's efforts are directed at 
habitat protection. This includes issues dealing with water quality and 
quantity, wetlands protection, offshore oil pollution, ocean dumping, 
water pollution and maintaining the healthy watersheds and estuaries 
which are the nursery grounds for the many species upon which our 
industry depends. Our Internet web site is: http://www.pond.net/
<difference>pcffa
    This site contains Internet links to our member groups, other 
fisheries organizations and many other useful resources for commercial 
fishermen throughout the world. It also links to our sister 
organization, the Institute for Fisheries Resources, which is dedicated 
to ocean and anadromous resource protection throughout the Pacific.
                                 ______
                                 
                              ATTACHMENT A
 The Members and Board of Directors of the Pacific Coast Federation of 
                        Fishermen's Associations
    The Board of Directors of PCFFA is composed of 25 major commercial 
fisheries organizations on the U.S. west coast from San Diego to 
Alaska. Each group is represented on our Board by that group's 
President, Executive Director or designated Representative. The current 
Board membership is as follows:

Commercial Fishermen of Santa Barbara, Inc.
Commercial Fishermen's Organization of Morro Bay
Crab Boat Owners' Association
Del Norte Fishermen's Marketing Association
Fishermen's Marketing Association of Bodega Bay
Salmon Trollers' Marketing Association
Half Moon Bay Fisherman's Marketing Association
Humboldt Fishermen's Marketing Association
Moss Landing Commercial Fishermen's Association
Port San Luis Commercial Fishermen's Association
Santa Cruz Fishermen's Marketing Association
Golden State Trollers Association
Small Boat Commercial Salmon Fishermen's Association
Trinidad Bay Fishermen's Marketing Association
Southern California Trawlers Association
Golden Gate Fishermen's Association
Salmon for All
Federation of Independent Seafood Harvesters (FISH)
United Fishermen of Alaska
Ventura Commercial Fishermen's Association
Central California Longline Association
Washington Trollers Association
Western Fishboat Owners' Association
Monterey Fishermen's Marketing Association
Shelter Cove Commercial Fishermen's Association
    PCFFA is by far the largest and most politically active 
organization of commercial fishermen on the U.S. west coast, and is 
active on all local, regional and national issues affecting our 
fisheries.
[GRAPHIC] [TIFF OMITTED] T1532.013

                               Appendix 1
   Comments By Idaho Water Users on The Draft Biological Opinion for 
          Operation of the Federal Columbia River Power System
    These comments are submitted on behalf of the Committee of Nine and 
the Idaho Water Users Association (``Idaho water users'') and are 
directed to the Draft Biological Opinion dated July 27, 2000 for 
Operation of the Federal Columbia River Power System Including the 
Juvenile Fish Transportation Program and the Bureau of Reclamation's 31 
Projects, Including the entire Columbia Basin Project issued by 
National Marine Fisheries Service, Northwest Region (``Draft BiOp'').
    The Committee of Nine is the official advisory committee for Water 
District 1, the largest water district in the State of Idaho. Water 
District 1 is responsible for the distribution of water among 
appropriators within the water district from the natural flow of the 
Snake River and storage from U.S. Bureau of Reclamation (``BOR'') 
reservoirs on the Snake River above Milner Dam. The Committee of Nine 
is also a designated rental pool committee that has facilitated the 
rental of stored water to the BOR to provide water for flow 
augmentation pursuant to the 1995 Biological Opinion. The Idaho Water 
Users Association was formed in 1938 and represents about 300 canal 
companies. irrigation districts. water districts. agri-business and 
professional organizations, municipal and public water suppliers, and 
others. These comments have been prepared with the assistance of the 
scientists. biologists, and engineers who have been retained to address 
Upper Snake River issues involving the Endangered Species Act 
(``ESA'').\1\
---------------------------------------------------------------------------
    \1\ Contributors include: Dr. James J. Anderson, School of 
Fisheries, University of Washington: Craig L. Sommers and David B. 
Shaw, ERO Resources Corporation: Dr. Richard A. Hinrichsen. Hinrichsen 
Environmental Services: Dr. William J. McNeil, retired professor of 
fisheries, Oregon State University. These individuals also contributed 
to comments by the Idaho water users on the draft White Paper on flow 
(10/29/99), the draft All-H Paper (3/16/00) and the draft Feasibility 
Report/Environmental Impact Statement (3/31/00). Resumes of the 
contributors are provided in Attachment 3.
---------------------------------------------------------------------------
                          summary of comments
    The Draft BiOp raises numerous issues. However, the Idaho water 
users have focused their comments on the specific set of issues 
pertaining to flow augmentation from the Upper Snake River.\2\
---------------------------------------------------------------------------
    \2\ Throughout these comments, the Upper Snake River (``Upper 
Snake'') means the portion of the basin above Brownlee Reservoir.
---------------------------------------------------------------------------
    As an overriding issue, there is no need for consultation on the 
Upper Snake BOR projects. The contractual obligations and operation of 
these projects have not changed significantly since prior to the 
passage of the ESA in 1973. Moreover, there have been no changes since 
the last BiOp on these projects issued in December 1999.
    The Draft BiOp violates the ESA by failing to identify the actions 
of specific projects that cause jeopardy to the listed species or 
adversely affect their habitat. The 43 projects encompassed by the 
Draft BiOp are not all interrelated or interdependent. At the very 
least, the Upper Snake BOR projects must be treated individually or 
collectively in the BiOp or in a separate consultation.
    Flows from the Upper Snake River have slightly increased over the 
past 89 years, especially during the critical summer months, even with 
irrigation development in southern Idaho and the construction of the 
Upper Snake Bureau of Reclamation projects.\3\ This development and 
construction occurred long before the populations of the listed species 
declined to endangered or threatened levels. Thus, water development in 
the Upper Snake in general, and the Upper Snake BOR projects in 
particular, did not alter flows so as to cause jeopardy to the listed 
species or adverse effects on their habitat.
---------------------------------------------------------------------------
    \3\ In fact. increased summer flows are the result of return flows 
from Upper Snake irrigation.
---------------------------------------------------------------------------
    There is no scientific foundation for conclusions in the Draft BiOp 
that Upper Snake flow augmentation will provide biological benefits for 
the listed species. The purported flow/survival relationship for fall 
chinook above Lower Granite is unfounded and there is evidence that 
flow augmentation from the Upper Snake BOR projects is actually 
detrimental to the listed species. Likewise, there are no demonstrated 
benefits from Upper Snake flow augmentation through the hydropower 
system, in the estuary, or in the ocean plume for any of the listed 
species.
    Flow augmentation from the Upper Snake has previously been an 
interim or experimental measure aimed at mitigating the jeopardy and 
incidental take caused by the Federal Columbia River Power System 
(FRCPS). There is no basis for the new conclusion in the Draft BiOp 
that the Upper Snake BOR projects cause jeopardy, with or without 
providing 427 kaf of flow augmentation. Likewise, there is no basis for 
the implication in the Draft BiOp that the Upper Snake BOR projects 
incidentally take listed species. Also, there is no explanation of how 
NMFS could conclude in December 1999 that the proposed operations of 
the Upper Snake BOR projects do not jeopardize the listed species, and 
then conclude 6 months later with no new data that the Upper Snake 
projects do contribute to the jeopardy of the species.
    Because operation of the Upper Snake BOR projects does not cause 
jeopardy, there is no basis for the reasonable and prudent alternatives 
(RPAs) for these projects identified in the Draft BiOp. Specifically, 
the flow targets established for the mainstem are unreasonable and 
unfounded. Flow augmentation using 427 kaf or more water is unnecessary 
and illegal, especially with respect to the use of powerhead space 
which is contrary to State and Federal laws. The requirement for the 
BOR to consult on use of uncontracted space does not fully comport with 
Federal and State law and the proposed consultations are too narrow. 
Likewise, the description of ``unauthorized'' uses does not comport 
with Reclamation law. Pursuit of increased water conservation and 
reduction of so-called unauthorized uses in the Upper Snake will not 
increase streamflow. Additional water should not be sought from the 
Upper Snake. The additional water is not needed and a State law 
mechanism for providing that water downstream is unlikely. Finally, 
there is inadequate consideration of resident fish and wildlife needs 
and other impacts in continuation or expansion of Upper Snake flow 
augmentation. It is not reasonable and prudent to potentially harm 
resident species and their habitat when there is no significant benefit 
to the listed species from the RPAs. Moreover because there is no 
jeopardy from the Upper Snake BOR projects, NMFS must comply with NEPA 
in taking actions with respect to these projects.
    The biological, hydro, and physical performance standards set forth 
in the Draft BiOp are flawed. Various standards under these categories 
are unrealistic, not clearly defined, immeasurable, ineffective, or 
even detrimental to the listed species.
    Harvest reforms can provide significant benefit to the listed 
species, especially Snake River fall chinook. The RPAs listed for 
harvest in the Draft BiOp should be revised to require these reforms.
    The Magnuson-Stevens Act recommendations for the listed species are 
premature because Essential Fish Habitat has not been designated for 
these fish. Moreover, the scope of those recommendations is not clear; 
and to the extent that they apply to the Upper Snake BOR projects, they 
suffer from the same defects described for the Section 7 consultation.
    To reiterate a central point of these comments, the Idaho water 
users oppose the inclusion of flow augmentation using 427,000 acre-feet 
or more water from the Upper Snake River as an RPA. The Draft BiOp 
should be revised to eliminate Upper Snake River flow augmentation 
because these BOR projects do not jeopardize the listed species or 
adversely modify their habitat. Moreover, flow augmentation provides no 
significant biological or physical benefits to the listed species, and 
indeed may be harmful.
                  biop scope and objectives are flawed
    From the outset, the Draft BiOp is on the wrong track with respect 
to BOR projects in the Upper Snake River basin. First, there is no duty 
for the BOR to consult with NMFS on the operation of the Upper Snake 
BOR projects because the contractual obligations and operation of those 
projects have not changed since enactment of the ESA listing of the 
species, or publication of the last BiOp on these projects. Second, 
assuming there is a duty to consult. the proper scope of the 
consultation is to ensure that specific BOR actions on particular Upper 
Snake projects will not jeopardize the continued existence of listed 
species or adversely modify their habitat. Rather than being lumped 
together with FCRPS projects and other BOR projects, the Upper Snake 
BOR projects should be evaluated separately given their unique 
circumstances. The Upper Snake BOR projects are not interrelated or 
interdependent' with the FCRPS or other Columbia River basin BOR 
projects (50 CFR 402.02). Third, there is no basis for a jeopardy 
opinion on the Upper Snake BOR projects. As a result, the RPAs for the 
Upper Snake projects are actually mitigation measures for the listed 
species. Thus, as discussed further below, the Draft BiOp violates the 
ESA with respect to the Upper Snake BOR projects.
    The Upper Snake BOR projects have been operated and contractually 
obligated to provide irrigation water, and incidentally to provide 
power, flood control, recreation, fish and wildlife benefits, since 
their inception in the early 1900's. No significant changes in those 
operations and contracts have occurred since the final components were 
constructed in the 1940's and 1950's, long before the enactment of the 
ESA in 1973 or listing of the species in the 1990's. Thus, there are no 
new Federal ``actions'' in need of consultation with NMFS. Moreover, 
there is no need to have reinitiated consultation when there have been 
no operational or contractual changes since the 1999 BiOp on these same 
Upper Snake BOR projects was completed in December 1999 (see discussion 
below under Proposed Action).
    There is no requirement for consultation on the Upper Snake BOR 
projects with respect to the listed species involved in the Draft BiOp 
because there is no discretionary ``action'' that is subject to 
consultation. ``Action'' is defined as ``all activities or programs of 
any kind authorized, funded or carried out, in whole or in part, by 
Federal agencies  . . .'' and include but are not limited to ``(a) 
actions intended to conserve listed species or their habitat; (b) the 
promulgation of regulations; (c) the granting of licenses, contracts . 
. .; (d) actions directly or indirectly causing modifications to the 
land, water. or air.'' 50 C.F.R. Sec. 402.02. The ESA only requires 
action agencies to consult or confer with FWS/NFMS when there is 
discretionary Federal involvement or control over the ``action.'' The 
storage and delivery of water under the Upper Snake BOR projects is 
governed by permanent contracts, not discretionary actions. For 
example, Attachment 2 contains an excerpt from the contract between the 
BOR and the Twin Falls Canal Company, a representative contract in the 
Upper Snake. This is a permanent contract that provides among other 
things that ``It is the purpose of the United States and the water 
users . . . to have the reservoir system so operated as to effect the 
greatest practicable conservation of water'' under the water rights 
created by the 1923 contract (see Articles 6 and 14(a)). Thus, there is 
no ``discretionary Federal involvement or control over the action'' 
and, therefore, there is no duty to consult. Moreover, as discussed at 
length below, because operation of the Upper Snake BOR projects does 
not affect listed species or critical habitat, there is no duty to 
consult.
    At most, the BOR should only engage in informal consultation with 
respect to the Upper Snake projects with respect to discretionary 
actions, if any exist. Again, given that the result of the informal 
consultation should be that any such actions are not likely to 
adversely affect the listed species or critical habitat, the 
consultation process should be terminated at that point.
    Of course, the BOR previously sought consultation on the Upper 
Snake projects, which led to the 1999 BiOp. However, since there has 
been no new discretionary action, and there is no new information, 
there is no reason to reinitiate consultation.
    As set forth at the outset of the Draft BiOp, the ``Biological 
Opinion does not attempt to apportion the relative contribution of the 
FCRPS and BOR projects to the current status of the ESUs'' (p. 1-1).\4\ 
Rather, all 43 projects are combined in the Draft BiOp because they 
have ``hydrologic effects on the flows in the mainstems of the Columbia 
and Snake rivers'' (p. 1-1). This approach ignores the practical and 
legal differences among these projects. The FCRPS and main stem 
Columbia River BOR projects are relatively recent, enormous, 
interrelated projects operating within or near critical habitat for the 
listed salmon and steelhead. In contrast, the Upper Snake BOR projects 
are relatively small, were in existence long before the decline of the 
listed species to critical levels, are located far outside of critical 
habitat (and in many cases outside of historical habitat), and have had 
no significant impact on historical downstream flows.
---------------------------------------------------------------------------
    \4\ In these comments, page references refer to the Draft BiOp 
unless otherwise noted.
---------------------------------------------------------------------------
    By failing to separately consult on specific actions or at least 
analyze, understand, and apportion the relative effect of the projects 
on the species or their critical habitat, the Draft BiOp fails to 
conform to Section 7(b)(3)(A) of the Endangered Species Act (ESA). That 
section requires: ``. . . a written statement setting forth . . . a 
summary of the information on which the opinion is based, detailing how 
the agency action affects the species or its critical habitat'' 
(emphasis supplied). The Draft BiOp recognizes that these are separate, 
unrelated actions being consulted upon. Yet, as discussed thoroughly 
below, the Draft BiOp does not and cannot provide details on how BOR 
construction and operation of the Upper Snake projects affect the 
listed species or their habitat.
    The Draft BiOp notes that consultation between BOR and NMFS 
occurred pursuant to Section 7(a)(2) of the ESA. Unfortunately, the 
Draft BiOp extends beyond the purpose of the consultation. Section 
7(a)(2) consultation is to ensure that actions which are authorized, 
funded, or carried out by the BOR are not likely to jeopardize the 
continued existence of any endangered species or threatened species or 
result in the destruction or adverse modification of the critical 
habitat of such species. Section 7(b)(3)(A) directs the Secretary to 
provide to BOR a written statement setting forth the Secretary's 
opinion, and a summary of the information on which the opinion is 
based, detailing how the agency action affects the species or its 
critical habitat. If jeopardy or adverse modification is found, the 
Secretary is required to suggest those reasonable and prudent 
alternatives that he believes would not violate Section 7(a)(2). As 
discussed below, jeopardy to listed species or adverse modification has 
never previously been determined by the Secretary for the Upper Snake 
BOR projects. Indeed, just the opposite is true.
    In summary, the Draft BiOp should be revised to eliminate the Upper 
Snake BOR projects. If included in the Draft BiOp, the effects of the 
Upper Snake BOR projects on the listed species and their habitat should 
be specifically addressed, or separate analyses should be conducted on 
these projects. In any event a jeopardy opinion is not legally or 
factually warranted for any of the Upper Snake BOR projects.
                            proposed action
    It is useful to summarize the historical circumstances leading to 
the proposed action with respect to the Upper Snake BOR projects in 
order to provide perspective on the jeopardy opinion and RPAs included 
in the Draft BiOp.
    Flow augmentation from the Upper Snake River was originally 
requested as an experiment'' or an ``interim'' measure. The Northwest 
Power Planning Council (``NPPC'') suggested flow augmentation as an 
``experiment'' to test the hypothesis that there is a ``relationship 
between spring and summer flow, velocity and fish survival'' in an 
adaptive management framework (NPPC, 1994. p. 5-13). In support of the 
1995 BiOp on the FCRPS. NMFS called for ``interim target flows''--and 
thus, flow augmentation--on the basis of the NPPC program and a finding 
that ``. . . a general relationship of increasing survival of Columbia 
River basin salmon and steelhead with increasing flow is reasonable'' 
(NMFS, 1995, pp. 1, 2). In essence, in the 1995 and 1998 BiOps, the 427 
kaf of Upper Snake flow augmentation was included as part of an 
interim, experimental mitigation package for the jeopardy caused by 
FCRPS operations or its take of listed species. Despite the lack of 
scientific evidence or legal basis for flow augmentation, Idaho water 
users acquiesced in the experimental program and helped pass State 
legislation to authorize the use of water for flow augmentation. 
Several years of research were conducted to assess the effects of flow 
on the survival of listed species. As discussed below and in Attachment 
1, no significant benefit from Upper Snake River flow augmentation is 
evident from the research. Thus, the basis for the NMFS interim flow 
augmentation no longer exists.
    More recently, the 1999 BiOp on the Upper Snake BOR projects, 
finalized on December 9, 1999 (about 7 months before the Draft BiOp), 
did not find jeopardy from operation of these projects. The 427 kaf 
augmentation was included in that BiOp as a continuation of an interim 
measure required by the 1995 and 1998 BiOps on the FRCPS. In the 
current consultation, the agencies once again propose to continue the 
actions undertaken as a result of the 1995, 1998, and 1999 BiOps, i.e., 
to continue to provide 427 kaf of flow augmentation from the Upper 
Snake.\5\
---------------------------------------------------------------------------
    \5\ The proposed actions involving the Upper Snake BOR projects 
also include using powerhead space in the reservoirs to firm the water 
supply, a proposal that the Idaho water users consider to be illegal 
and thus invalid.
---------------------------------------------------------------------------
    In the Draft BiOp RPAs, NMFS includes additional measures to firm 
the 427 kaf of flow augmentation and seeks additional water to provide 
even more flow. That decision was made despite the fact that flow 
augmentation has previously been recognized by NMFS only as an interim 
measure. and not a permanent means for recovering salmon: ``the species 
biological requirements in the migrators; corridor are likely to be met 
over the long term only if there are major structural modifications to 
the FCRPS that result in significant survival improvements'' (1999 
BiOp, p. II-3). As an interim and experimental measure, Idaho water 
users have continued to expect that flow augmentation using water from 
the Upper Snake River basin would be eliminated as part of the long-
term decision encompassed in this Draft BiOp, particularly in light of 
the lack of any scientific support for flow augmentation from Idaho.
                 historical and hydrological background
    In order to provide context for the rest of our comments, some 
background is useful. The history of irrigation development and the BOR 
projects in southern Idaho, listed species declines, and hydrology of 
the Upper Snake River basin are provided below.
History of Upper Snake BOR Projects
    The Reclamation Service began studies in most western states and 
territories for possible projects shortly after the Reclamation Act was 
passed in June 1902. In Idaho, those surveys led to two early 
irrigation ventures involving the Snake River watershed. These 
undertakings are the Minidoka Project, which was initially authorized 
in 1904; and the Boise Project, which was initially authorized in 1905. 
Although several other BOR projects exist in the Upper Snake basin 
(Michaud Flats, Little Wood River, Mann Creek, and Owyhee), the 
Minidoka and Boise Projects are the largest.
    Minidoka Project lands extend discontinuously from the town of 
Ashton in eastern Idaho along the Snake River approximately 300 miles 
downstream to the town of Bliss in south-central Idaho. The project 
includes: Minidoka Dam (also known as Lake Walcott) on the Snake River 
near Rupert, Idaho (completed in 1906); Jackson Lake Dam on the Snake 
River near Wilson, Wyoming (completed in 1911); American Falls Dam on 
the Snake River near American Falls, Idaho (completed in 1927); Island 
Park Dam on Henry's Fork, a tributary of the Snake, near Saint Anthony, 
Idaho (completed in 1938); Grassy Lake Dam on Grassy Creek in Wyoming 
(completed in 1939): and Palisades Dam on the South Fork of the Snake 
River (completed in 1957).
    Known as the Payette-Boise Project prior to 1911, the Boise Project 
was built in two parts the first being the Arrowrock Division, and the 
second being the Payette Division--The Arrowrock Division, which serves 
lands situated between the Boise and Snake Rivers, was authorized on 
March 27, 1905 and includes: the Boise River Diversion Dam on the Boise 
River near the city of Boise (completed in 1908); Lake Lowell (also 
known as Deer Flat Reservoir) storing Boise River water offstream near 
Nampa, Idaho (three dams completed between 1908 and 1911): Arrowrock 
Dam on the Boise River near the City of Boise (completed in 1915); and 
Anderson Ranch Darn on the South Fork of the Boise River (completed in 
1947).
    The Payette Division of the Boise Project consists of Deadwood 
Darn, Black Canyon Darn, and Cascade Darn. The Payette Division serves 
lands between the Payette and Boise Rivers and areas north of the 
Payette River in the Emmett Irrigation District. Authorized on October 
19, 1998, the Division includes: Black Canyon Darn on the Payette River 
near the town of Emmett (completed in 1924), Deadwood Dam on the 
Deadwood River, a tributary of the South Fork of the Payette River 
(completed in 1931); and Cascade Dam on the North Fork of the Payette 
River near the city of Cascade (completed in 1948).
    In section 6.2.5, the Draft BiOp appears to greatly overstate the 
impact of Upper Snake BOR projects by attributing 3.8 MAF of depletion 
to those projects (p. 6-29) because these projects are only part of the 
development of water resources that has become the backbone of Idaho's 
economy. Beginning in 1836 on land inhabited by the Nez Perce Indians 
irrigation expanded to encompass about 1.5 million acres in 1909, 
largely from private irrigation developments that relied on the natural 
flow of streams (Arrington, 1986; 1910 Census). Another 500,000 acres 
was developed largely as a result of storage facilities constructed by 
the United States in the first half of the 20th century. About 1 
million acres is the result of irrigation by wells. most of which have 
been drilled since the 1950's (IWRB, 1996). Surface and ground water 
sources in the Snake River basin in Idaho now irrigate over 3 million 
acres (IWRB. 1996).
History of Listed Species Decline
    As described in the Draft BiOp, the listed species have gone 
through two general periods of population decline (pp. 4-1 et seq). The 
first period of decline was the late 1800s and early 1900s, primarily 
as a result of high harvest levels (p. 5-8). The second period of 
decline generally occurred after the 1960's as the result of a number 
of factors including additional major dams on the Columbia and lower 
Snake Rivers, and continuing changes in habitat, hatchery effects, and 
ocean conditions (pp. 5-3 et seq). As shown in Figure 1, this second 
decline resulted in the low population levels. which resulted in the 
listings under the ESA. It is important to note that the listed 
salmonid populations were self-sustaining long after water development 
of the Upper Snake was complete.
[GRAPHIC] [TIFF OMITTED] T1532.014

Hydrology of the Upper Snake River
    Total annual outflow from Idaho into the Columbia River system is 
about 70 million acre feet (MAF), or roughly one-third of the total 
flow of the Columbia River (IWRB, 1996). About one-half of this flow is 
provided by northern Idaho tributaries and one-half is from the Snake 
River. Average annual flow of the Snake River as it leaves the State at 
Lewiston is about 36 MAF (Id). Roughly one-third of this amount comes 
from the Upper Snake River above Hells Canyon and about one-half is 
contributed by the Salmon and Clearwater River basins (Id.). The 
remainder is contributed from smaller tributaries in Oregon. 
Washington, and Idaho.
    Stream flow records do not extend back to the beginning of 
irrigation in the mid-1800's. However, records for stream flow in the 
Upper Snake River basin do exist from about 1910 on. As noted in the 
previous section, the construction of reservoirs and development of 
irrigation on about 1.5 million acres has occurred since 1910. However, 
the historical record reflects a slight increase in flow despite 
development in southern Idaho. Again, it must be recalled that the 
Upper Snake BOR projects are only part of the irrigation development in 
Idaho.
    Figure 2 shows the actual mean annual flow for the Snake River at 
the Weiser gage, located just above Brownlee Reservoir, for the period 
1911 through 1999. As can be seen from the trend line plotted on the 
graph, average annual flows have increased slightly over the past 89 
years despite water development in the Upper Snake River basin. Figure 
3 shows the actual mean summer flow for July 1 through August 31 for 
the period 1911 through 1999 without flow augmentation. This period was 
selected to match the time during which flow often falls short of NMFS' 
targets and the season for which there has been concern over juvenile 
fall chinook migration. Again, the trend line plotted on the graph 
shows that the measured flows of the Snake River at Weiser have 
increased over the past 89 years during the summer period. As discussed 
in the next section, analysis of the minimum flow for the flow target 
periods 4/3 through 6/20 and 6/21 through 8/31 show the same pattern of 
slightly increasing minimum flows for the period from 1911 through 
1999.
    The tremendous variation in flows can also be seen in Figures 2 and 
3. At Weiser, mean annual flows vary by over 350 percent and summer 
flows vary by over 300 percent. These fluctuations are primarily the 
result of natural variations in climate. The 427 kaf of Upper Snake 
flow augmentation (about 3.5 percent of the average annual flow) is 
dwarfed by this huge natural flow variation at Weiser. Upper Snake flow 
augmentation can do little to offset the variability of natural flows 
below Hells Canyon.
    Similarly, the historical hydrology at Lower Granite Dam does not 
reflect decreasing flows. Figures 4 and 5 show the same trend of 
increasing mean annual and summer (July 1 through August 31) flows at 
Lower Granite for the period 1911 through 1999 as shown for the Snake 
River at Weiser.\6\
---------------------------------------------------------------------------
    \6\ Flow augmentation provided in recent years has been subtracted 
from gage data before plotting the mean flows on Figures 3 and 5.
---------------------------------------------------------------------------
    The fact that the quantity and timing of Snake River flow has not 
changed significantly is not new. In 1995, the National Research 
Council concluded:

          Because there has not been a major shift in the Snake River 
        hydrograph, it is doubtful a priori that the declines in Snake 
        River salmon stocks are due to or reversible by changes in the 
        seasonality of the flow regime of the Snake River alone (NRC, 
        1995 at 193).

    Despite these facts, which have been repeatedly pointed out to 
NMFS,\7\ the Draft BiOp asserts that the Upper Snake BOR depletions 
``are a major impediment to meeting NMFS' flow objectives'' (p. 6-28). 
Failure to take these facts into account or respond to them is 
arbitrary and capricious on the part of NMFS.
---------------------------------------------------------------------------
    \7\ See Idaho water users comments on the draft White Paper and 
draft All-H paper.
[GRAPHIC] [TIFF OMITTED] T1532.015

[GRAPHIC] [TIFF OMITTED] T1532.016

    flow alteration from the upper snake river bor projects has not 
                            caused jeopardy
    In Section 6.2.5.2.3 of the Draft BiOp, NMFS asserts that 
``[o]peration and configuration of BOR's irrigation projects could 
affect salmon survival . . . [indirectly through] changes in flow 
timing due to reservoir storage management activities, and streamflow 
depletion from water withdrawals'' (p. 6-27, emphasis supplied). In 
fact, as discussed in the previous section, the Upper Snake BOR 
irrigation projects operated for decades prior to the precipitous 
decline of listed species populations in the 1970's and 1980's, which 
led to their listing and thus, the projects had no role in the 
subsequent decline of the listed species. Even with operation of these 
projects, the average flow of the Snake River at Lower Granite has 
remained relatively constant through the years and the flow has 
actually increased during the critical summer months because of 
irrigation return flows from the BOR operations and other upstream 
irrigation. Moreover, much of the water diverted from the streams by 
water users in southern Idaho is done pursuant to State water rights 
for natural flow. These diversions are not subject to BOR operation and 
control. Finally, as discussed in the next major section of these 
comments involving the biological effect of the Upper Snake BOR 
projects, the relatively minimal flow alteration from these projects 
has no significant effect on salmonid migration and survival.
    As illustrated in Figure 2, the mean annual flow of the Snake River 
at Weiser has not changed significantly since flow records became 
available in 1911. Likewise. the variation of flow between years has 
not changed significantly. Figure 2 is constructed of measured data and 
is not based on theoretical calculations or assumptions. This time-
series analysis is not provided to suggest that Upper Snake irrigation 
development and BOR storage projects do not consume water or have not 
affected downstream flow. Rather, these flow records demonstrate that 
there is no factual support for the premise that flow alterations from 
the Upper Snake have jeopardized or will jeopardize the listed species.
    Figure 6 contains the same mean annual flow data used to prepare 
Figure 2 and, in addition, shows the development of irrigated acreage 
in Idaho and the development of Upper Snake BOR water storage.\8\ 
Figure 6 shows that irrigated acreage significantly increased and most 
of the BOR storage development occurred after flow measurement records 
for the Snake River at Weiser began. Figure 6 also shows both irrigated 
acreage and BOR storage increasing throughout the period but without a 
significant change in the mean annual flow of the Snake River at 
Weiser.
---------------------------------------------------------------------------
    \8\ The BOR storage represents all reservoirs above Brownlee. The 
irrigated acreage is taken from Census Reports and include all 
irrigated acres in Idaho (United States Census Office, 1902-1997). The 
Census Reports do not separate the number of irrigated acres by river 
basin within a state. The irrigated acreage reported for Idaho includes 
acreage outside of the Snake River basin upstream from Weiser including 
the Bear and Salmon River drainages. Similarly, the reported irrigated 
acreage does not include acres irrigated from the Snake River basin 
above Weiser located in Wyoming, Nevada and Oregon. The differences in 
the chart from actual acreage irrigated from the Snake River basin 
upstream from Weiser is believed to be minimal since most of the 
irrigated acreage in Idaho is irrigated from the Snake River basin 
upstream from Weiser and most of the acreage irrigated from the Snake 
River basin above Weiser is in Idaho.
---------------------------------------------------------------------------
    By the early 1920's, about 2.5 million acres were irrigated in 
Idaho, yet the BOR had only about 1.5 MAF of storage capacity in the 
Upper Snake River basin. Many of the irrigated acres were developed 
with private water rights and without benefit of BOR stored water. The 
lack of storage for full water supplies is shown, in part, by the 
decrease in the number of irrigated acres during the drought years of 
the late 1920's and the early 1930's. As BOR storage became available, 
many irrigators relied upon the stored water to supplement their 
private water rights in order to have a full water supply.
    Table 6.2-1 and Table 6.2-2 in the Draft BiOp show relatively large 
estimates of the amounts of water consumed by Upper Snake BOR projects 
and reductions of flow at Lower Granite Dam (pp. 6-29, 6-30). 
Regardless of those estimated depletions, Figure 6 shows conclusively 
that both the number of irrigated acres and the amount of BOR storage 
have increased during the period of record for the Snake River gage at 
Weiser, which shows a slight increase in the mean annual flow.
    This analysis of historical acreage in comparison to flows is 
similar to the analysis by Dreher and the results are consistent with 
those found by Dreher (Dreher, 1998, pp. 5-7). Dreher's analysis has 
been criticized by DeHart (1998) on several bases. The comparison of 
the development of irrigated acreage and BOR storage over time counters 
the criticism that the major impacts of Idaho irrigation development 
were in place prior to the period of analysis. In fact, much of the 
development, particularly the Upper Snake BOR projects, has taken place 
during the period of record. DeHart also suggests that the recent low 
flows are lower than the historical low flows, and that this change in 
low flows is masked by an analysis that relies solely on mean annual 
flow amounts. Figure 7 contains two curves, one for the minimum mean 
daily flow of the Snake River at Weiser for April 3 through June 20, 
and one for the minimum mean daily flow of the Snake River at Weiser 
for June 21 through August 31.\9\ The two curves represent the minimum 
flow for each year during the respective periods. Trend lines are added 
to the curves and show the minimum mean daily flow for both periods has 
increased, on average, over the period of record.
---------------------------------------------------------------------------
    \9\ Augmentation flow was removed from the records for the recent 
years before the minimum values were selected and plotted.
---------------------------------------------------------------------------
    The depletion analysis in Tables 6.2.1 and 6.2.2 is in error 
because it ignores how the Upper Snake BOR projects actually operate. 
Water is stored in the project reservoirs during the winter and spring 
(except during major flood control operations when low flows are not an 
issue) and then released for irrigation purposes during the summer, 
primarily to supplement natural flow water rights. Thus, any reduction 
of flow actually occurs during seasons when the flow targets at Lower 
Granite are typically met (spring) or do not exist (winter). The Draft 
BiOp's assumption that crop water consumption estimates in a particular 
month are directly related to the downstream flow depletion for that 
month is not accurate given the time lag between storage and release of 
the water.
    NMFS apparently relies upon the erroneous estimates in Table 6.2-1 
and Table 6.2-2 to conclude the Upper Snake BOR projects cause jeopardy 
for the listed species, yet the measured flow of the Snake River at 
Weiser shows that no change has occurred following much of the 
irrigation development and nearly all of the BOR storage construction 
in the Upper Snake River basin. Although the listed species were in 
decline due to over harvest by the early 1900's, there is no evidence 
to suggest that the populations were limited by either habitat or 
passage conditions caused by flow alteration from the Upper Snake. 
Habitat and passage conditions resulting from Upper Snake flows were 
the same in the first half of the 20th century as they are today.
    Of course, the listed species no longer reach the Snake River at 
Weiser because they have been excluded from the Upper Snake River basin 
since the 1950's due to construction of the Hells Canyon complex. Thus, 
there is no direct effect on the listed species due to irrigation in 
southern Idaho or operation of the Upper Snake BOR projects. Because 
the flow conditions of the Snake River at Weiser have not materially 
changed, and because the population of the listed species has not been 
limited by habitat or passage constraints imposed by irrigation or BOR 
storage in the Upper Snake River basin, there is no basis to find 
jeopardy due to indirect effects. In other words, changes in Idaho 
water use did not cause and cannot cure the decline of listed fish 
populations.
[GRAPHIC] [TIFF OMITTED] T1532.017

[GRAPHIC] [TIFF OMITTED] T1532.018

    the flow-survival hypothesis used in the draft biop is unfounded
    Even if the Upper Snake BOR projects altered the downstream flow, 
the biological effect of those changes is insignificant to the listed 
species and their habitat. The Draft BiOp hypothesizes a variety of 
mechanisms by which historical flow alterations have negatively 
impacted listed fish and their habitat and by which future flow 
augmentation can provide benefits. These mechanisms include changes in 
velocity, turbidity, temperature, and conditions in the estuary or 
ocean plume (pp. 
6-23 to 6-41). There is no reliable evidence that changes in Upper 
Snake River water use have had or will have a significant effect on 
these variables or on the bottom line--survival of the listed species.
    The Draft BiOp analysis and conclusions related to the flow/
survival relationship for listed species rely extensively on the March 
2000 White Paper entitled ``Salmonid travel time and survival related 
to flow management in the Columbia River Basin'' (``White Paper''; 
NMFS, 2000a) (pp. 2-3, 2-10, 6-34). Further evaluation of the 
assertions in the White Paper, and replies to NMFS responses to 
comments on the draft White Paper are contained in Attachment 1.
Flow and Velocity
    The Draft BiOp suggests that downstream migration of juvenile 
salmon could be improved by using flow augmentation to increase the 
rate of flow through the reservoirs along the lower Snake and Columbia 
Rivers to speed up migration (pp. 6-34 to 6-36). However, there are no 
quantitative analyses of the velocity changes achievable with flow 
augmentation, objectives for velocity changes, or analyses of the 
biological benefits of incremental changes in velocity.
    The Draft BiOp begins to recognize that Upper Snake flow 
augmentation is futile to mitigate the velocity reductions resulting 
from dams on the lower Snake River (p. 6-36). For example, adding 1 MAF 
annually to existing flows results in less than \1/10\th of 1 mile per 
hour increase in velocity through the lower Snake River reservoirs 
(Dreher, 1998, p. 12). Stated another way, more than 160 MAF (over 4 
times the existing flow) would be required to restore pre-dam 
velocities that exceeded 2.5 mph (Id.). Clearly, any possible level of 
flow augmentation from the Upper Snake River would have an 
insignificant effect on water velocity through the lower Snake River 
(Id.).
Flow and Turbidity
    The Draft BiOp also suggests that downstream migration of juvenile 
salmon could be improved by increasing the downstream turbidity using 
flow augmentation 
(p. 6-36). Again, there are no quantitative analyses of the turbidity 
changes achievable with flow augmentation, objectives for turbidity 
changes, or analyses of the biological benefits of incremental changes 
in turbidity. Moreover, there is no reconciliation of the calls for 
increased turbidity in the Draft BiOp with the reductions in sediment 
load required by the Clean Water Act.
    Significant increases in turbidity are not likely as a result of 
Upper Snake flow augmentation. Most instances of increased turbidity in 
the lower Snake River are the result of high tributary inflows due to 
storm events or snowmelt.
Flow and Temperature
    Flow augmentation is also suggested as a means to improve water 
temperature in the lower Snake River (p. 6-36). Cold water has been 
released from Dworshak Reservoir in the Clearwater Basin to lower 
temperatures in the river for the benefit of salmon (NMFS, 1999, pp. 
29-30). However, warm water released from the Upper Snake River 
counteracts the cooling effect of releases from Dworshak Reservoir, 
especially during low flow years when temperatures are generally the 
highest (Corps, 1995, p. 4-61). Once more, the Draft BiOp contains no 
quantitative analyses of the temperature changes achievable with flow 
augmentation, objectives for temperature changes, or analyses of the 
biological benefits of incremental changes in temperature.
    To illustrate the problem of augmenting with warm Snake River 
water, the effect of the existing flow augmentation on the temperature 
downstream of Brownlee can be estimated.\10\ First, it can be 
demonstrated that the temperature (<greek-THC>) in the Snake River 
below Hells Canyon (at River Mile 180) \11\ is essentially determined 
by the sum of the flow-weighted (F) temperatures of the Snake, Imnaha 
and Salmon rivers according to the formula:
---------------------------------------------------------------------------
    \10\ Additional information on the flow/temperature relationships 
described in the following paragraphs will be provided in a paper 
authored by James J. Anderson and posted on the Columbia River Basin 
Research website (http://www.cqs.washington.edu/library.html) as soon 
as it is final.
    \11\ River Mile 180 (RM 180) is below the confluence of Snake, 
Imnaha and Salmon rivers, about 75 miles upstream from Lower Granite 
Dam (RM 106).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 8 shows the regression of predicted and observed 
temperatures at RM 180. The equation predicts the observed temperatures 
quite well (R<SUP>2</SUP> = 0.9989, slope = 1.0, intercept = (-) 0.17). 
Figure 9 shows that flow and temperature are not correlated just 
downstream of Hells Canyon Dam at RM 246. Figure 10 shows that river 
temperature at Anatone and air temperature at Lewiston are linearly 
related. These three relationships demonstrate that Upper Snake flow 
augmentation does not significantly affect the temperature of the Snake 
River entering Lower Granite Reservoir.
[GRAPHIC] [TIFF OMITTED] T1532.020

[GRAPHIC] [TIFF OMITTED] T1532.021

    The effects of Upper Snake flow augmentation on downstream 
temperature at RM 180 can be calculated by changing Snake River flows 
(F<INF>Snake</INF>) to reflect different levels of flow augmentation. 
Figure 11 illustrates the difference in river temperatures at RM 180 
with the additional 427 kaf. Note that Snake River flow augmentation 
has a small effect on the river temperature and that the augmentation 
typically causes river temperature to increase relative to the 
predicted temperature without augmentation. This graphically 
illustrates the problem with the assumption that flow augmentation is 
uniformly good for fish. In fact, the model indicates that Snake River 
temperatures would be reduced if Snake River flows were held constant. 
This is illustrated in Figure 12, which shows the predicted difference 
in river temperature caused by existing flow augmentation relative to 
temperatures with a constant Hells Canyon flow of 5000 cfs.
[GRAPHIC] [TIFF OMITTED] T1532.022

    A study of the limnology of Brownlee reservoir supports the 
detrimental effect of summer flow augmentation from the Upper Snake 
under some conditions (Ebel and Koski, 1968). The study found that the 
reservoir stratifies in the summer with the epilimnion (warm upper 
layer) extending down to or below the outlet works in July, August and 
September during the period of study (Id., Fig. 2). The study also 
evaluated the effect of the reservoir on Snake River flows above and 
below the Hells Canyon dams. Relative to Snake River inflows to 
Brownlee, temperature was higher and dissolved oxygen levels were lower 
below Oxbow from mid-summer through fall (Id., Fig. 20). Thus, Upper 
Snake flow augmentation during times such as these would exacerbate the 
impact of water releases that are of poorer quality than inflows and 
which can be detrimental to fish.
Estuary/Plume Effects
    Flow augmentation also is being hypothesized as a way to change the 
timing of the arrival of smolts at the estuary to pre-dam conditions 
(p. 6-34). The suggested use of flow is perplexing for two reasons. 
First, about 80 to 90 percent of Snake River chinook and steelhead 
passing through the estuary arrive through transportation. 
Transportation shortens the hydrosystem passage by two weeks for spring 
chinook and a month or more for fall chinook, resulting in estuary 
arrival times similar to the pre-dam conditions. Under the existing 
hydrosystem operation, only 10 to 20 percent of migrating fish travel 
in-river. At most, flow augmentation may only change the arrival time 
of the remaining 10 to 20 percent of in-river migrating fish by a few 
hours for spring chinook and a few dams for fall chinook, although we 
do not concede that such reductions will occur (see discussion below). 
Unless it can be demonstrated that these small changes in arrival 
timing will occur and will benefit the survival of listed fish, 
attempting to use flow augmentation to speed arrival timing at the 
estuary for a small proportion of the fish is a gross misuse of water 
resources.
    In a further attempt to find some basis for flow augmentation, the 
Draft BiOp suggests that higher flows might improve conditions in the 
estuary and provide survival benefits to juvenile salmonids migrating 
through the estuary or the Columbia River plume (p. 6-24. 6-34). As 
discussed above under Hydrology of the Upper Snake River, the volume 
and pattern of flow in the Snake River upstream from Lower Granite 
Reservoir has not changed significantly over the past 89 years. Thus, 
any changes that may have occurred in the Columbia River estuary or 
plume are not the result of upstream development on the Snake River. 
Further, the Upper Snake flows required to make significant changes in 
the estuary or plume are so large that any attempt to use Snake River 
augmentation water for that purpose is futile.
    Table 1 compares minimum and maximum monthly discharges of the 
Columbia River at Beaver Army Terminal near Quincy, Oregon with the 
monthly discharge of the Snake River at Weiser during the same month. 
The Beaver Army Terminal gage is located at river mile 53.8 within the 
area of the river affected by tidal flow. Even though the gage record 
is short--12 years of records, some partial, from 1968 through 1999--it 
serves to show the wide variation in annual flow of the Columbia River. 
The variation in monthly flow from high to low years (18.5 MAF in June) 
is more than the entire average annual flow of the Snake River at 
Weiser (13.3 MAF).
    Table 1 illustrates that the flow of the Columbia River at the 
beginning of the estuary is at least 10 times greater than the flow of 
the Snake River at Weiser under both high and low flow conditions. It 
is impossible to try to restore the lower Columbia to pre-development 
conditions using augmentation from a source that provides less than 10 
percent of the flow during the spring and summer.

Table 1.--Minimum and maximum monthly discharge of the Columbia River compared to Upper Snake River discharge in
                                                   that month
----------------------------------------------------------------------------------------------------------------
                                                  Minimum Flow (MAF)                  Maximum Flow (MAF)
                                         -----------------------------------------------------------------------
                  Month                                  Lower       Upper                   Lower       Upper
                                             Year      Columbia      Snake       Year      Columbia      Snake
                                                         River       River                   River       River
----------------------------------------------------------------------------------------------------------------
April...................................       1992        11.7         0.5        1969        24.2         2.3
May.....................................       1968        13.0         0.7        1997        31.2         2.5
June....................................       1992        12.1         0.3        1997        30.6         2.9
July....................................       1992         8.6         0.4        1997        17.2         1.1
August..................................       1994         6.6         0.5        1999        13.7         0.8
----------------------------------------------------------------------------------------------------------------

    Another way to consider the futility of using flow augmentation 
from the Upper Snake River to cause changes far downstream is to 
compare the period of record average flow of the Columbia River at 
Beaver Army Terminal for July, a relatively low flow month during the 
period of flow objectives, to recent levels of Upper Snake River flow 
augmentation. The average monthly flow of the Columbia River for July 
at this location is 14.1 MAF for the period of record at the Beaver 
Army Terminal gage. If the entire 427,000 acre-feet of Upper Snake 
River flow augmentation were released in July (contrary to past 
practice), it would be only 3 percent of the average monthly July flow 
of the Columbia River at Beaver Army Terminal. Figure 13 shows Upper 
Snake River flow augmentation from 1995-1999 in relation to the flow of 
the Columbia River at the mouth.
    Simply put, augmenting flows to significantly change the estuary or 
plume would be fruitless and a waste of water resources. Moreover, this 
rationale for additional water is premature given the research plan in 
the RPAs to study whether there is any benefit from additional flows 
(p. 9-133 et seq).
[GRAPHIC] [TIFF OMITTED] T1532.023

The Flow/Survival Relationship
    There is no clear scientific basis for the mainstem flow targets 
and the requirements for flow management to meet those targets. Flow 
management involves augmentation or reshaping the volume of water 
flowing out of the Columbia/Snake River system over the season. 
Although there may be a weak flow/survival relationship between years, 
flows and survival have no relationship in the hydrosystem within a 
season. The relationship between fall chinook survival and flow above 
Lower Granite Dam cited in the Draft BiOp is statistically unfounded. 
Relationships noted in the BiOp relating flow or travel time to smolt-
to-adult returns (SARs) are all compromised by the increasing number of 
dams over time, changing ocean conditions and changes in the 
hydrosystem.
    The Draft BiOp gives a false impression that there is conclusive 
support for flow targets and misrepresents the NMFS flow analysis. For 
example, the Draft BiOp concludes that flow is strongly correlated with 
survival:

          To summarize, there are several studies which indicate a 
        relationship exists between river conditions when juveniles 
        out-migrated and the rate at which adults returned from those 
        juvenile year classes. Years of higher river flow produced 
        higher rates of adult returns than low water years. (p. 6-35).
          Research conducted since 1995 suggest[s] that the spring flow 
        objectives in the Action Agencies proposed action for the Snake 
        and Columbia rivers are reasonable. (p. 6-36).

    Yet, the White Paper is considerably more cautious about any 
effects of flow on smolt travel time and survival:

          Correlation does not necessarily imply causation (Sokal and 
        Rohlf 1981), and higher SARs associated with higher flows does 
        not necessarily indicate that SARs can be increased by adding 
        more flow to the river. (White Paper, p. 52)
          Thus, a relationship between adult returns and river flow 
        might be the result of other factors correlated with river 
        flow. (Id.)
          In all cases where studies were updated to remove years 
        before the hydropower system was completed and include more 
        recent data, the newly obtained relationships were weaker than 
        the previously published ones. In some cases, the newly 
        analyzed data set did not contain the full range of water 
        travel time or flows as in previous studies. (Id.)

    The last quote correctly notes that the hydrosystem has changed 
significantly with the addition of more dams over time. Moreover, the 
Draft BiOp and the White Paper fail to address the fact that the system 
has continued to change with improvements in smolt passage facilities 
and transportation. In addition, changes in ocean conditions greatly 
complicate the evaluation of hydrosystem survival.\12\
---------------------------------------------------------------------------
    \12\ A growing body of scientific evidence indicates that the 
northern Pacific Ocean was in a warm cycle from the mid-1970's to the 
mid-1990's. These warm conditions adversely affected salmon production 
in the Pacific Northwest. Current evidence indicates the northern 
Pacific Ocean is now cooling and salmon production is increasing (Hare 
and Mantua, 1999, p. 1; JISAO/SMA Climate Impacts Group, 1999. p. 14; 
Taylor, 1997 and 1999; Casillas, 1999; Espenson, 2000). As a result, 
management improvements over the past two decades may have been offset 
by poor ocean conditions. We may not know what is really working and 
what is not working. Kevin Friedland states the resulting issue 
succinctly: ``Management policy that is predicated on Freshwater 
production trends and political trends and ignores decadal scale trends 
in ocean productivity is doomed to Failure'' (Fried land, 1999).
---------------------------------------------------------------------------
    The Draft BiOp focuses on Upper Snake summer flow augmentation to 
directly benefit juvenile Snake River fall chinook and provide 
qualitative benefits to other runs as well (p. 6-36). However, NMFS 
acknowledges that: (1) ``relationships between flow and survival and 
between travel time and survival through impounded sections of the 
lower Snake River'' are neither strong nor consistent; and (2) a causal 
relationship between flow and smolt-to-adult returns (SAR) is not 
supported by recent data and analyses (White Paper, pp. 17, 22, 52). 
These issues are discussed further below.
    As noted above, the Draft BiOp relies extensively on the White 
Paper on flow/survival, which we further address in Attachment 1.
Yearling Migrants (Spring/Summer Chinook and Steelhead)

    In its White Paper, NMFS asserts:

          A strong and consistent relationship exists between flow and 
        travel time. Increasing flow decreases travel time. Thus, 
        although no relationship appears to exist within seasons 
        between flow and yearling migrant survival through the 
        impounded sections of the Snake River, by reducing travel 
        times, higher flows may provide survival benefits in other 
        portions of the salmonid life cycle and in free-flowing 
        sections of the river both upstream and downstream from the 
        hydropower system. Snake River basin fish evolved under 
        conditions where the travel time of smolts through the lower 
        Snake and Columbia Rivers was much shorter than presently 
        exists. Thus, higher flows, while decreasing travel time, may 
        also improve conditions in the estuary and provide survival 
        benefits to juvenile salmonids migrating through the estuary or 
        the Columbia River plume. By reducing the length of time the 
        smolts are exposed to stressors in the reservoirs, higher flows 
        also likely improve smolt condition upon arrival in the estuary 
        (White Paper, p. 22, emphasis added).

    This speculative description of the possible benefits of decreased 
travel time from flow management in the face of weak and inconsistent 
data is evidence that there is no rational basis for flow augmentation 
and that inclusion of such augmentation from the Upper Snake is 
arbitrary without supported careful analysis from the scientific 
evidence in the record. Careful analysis of the mechanisms, 
uncertainties, and quantification of these speculative indirect impacts 
is conspicuously absent. Moreover, survival is the issue, not travel 
time.
    NMFS reports a strong association between travel time and flow and 
concludes that travel time is a function of flow (White Paper, pp. 12-
17, 22). However, the correlation appears to be invalid due to a 
collinear relationship between flow and time of year (photoperiod).\13\ 
Flows measured by the U.S. Army Corps of Engineers at Lower Granite Dam 
at 15-day intervals in 1995 and 1996 are given in Table 2. As seen in 
the table, there is a consistent increase in flow over time during the 
downstream migration of smolts. Both flow and photoperiod increased 
synchronously over the period of study. Thus, conclusions concerning 
flow as the variable controlling travel time are highly speculative.
---------------------------------------------------------------------------
    \13\ Collinear means that the predictor variables (e.g., 
temperature, flow, travel time, and time of year) are highly correlated 
with each other. Thus, any correlation of the variables to the 
dependent variable (salmon survival) is confounded by the other 
variables.
---------------------------------------------------------------------------
    An analysis of tagged juvenile hatchery chinook based on smolt 
migration through Lower Granite Reservoir from 1987 through 1995 
concludes that photoperiod provides a better basis to predict travel 
time than flow, and that travel time can be predicted by flow only 
because the relationship between flow and time is collinear.\14\
---------------------------------------------------------------------------
    \14\ See Attachment B in the comments submitted by the Idaho water 
users on the draft White Paper submitted to NMFS on October 29, 1999.

                   Table 2.--Flow at Lower Granite Dam
------------------------------------------------------------------------
                     Date                           1995         1996
------------------------------------------------------------------------
April 1.......................................      46 kcfs      81 kcfs
April 15......................................      78 kcfs     132 kcfs
April 30......................................      84 kcfs      98 kcfs
May 15........................................      96 kcfs     139 kcfs
May 30........................................     111 kcfs     156 kcfs
June 14.......................................     120 kcfs     170 kcfs
------------------------------------------------------------------------

    NMFS and other agencies should further evaluate potential collinear 
effects among variables before arriving at firm conclusions for 
yearling migrants. As discussed below for sub-yearling migrants (fall 
chinook), confounding effects probably exist from collinearity between 
flow and other environmental variables such as water temperature and 
turbidity. In addition, the relationship of survival to other 
independent variables such as the physiological State of the juveniles, 
size of the juveniles, predation, competition, and ocean conditions 
should be explored.
    Quantitative estimates demonstrate that flow augmentation is 
ineffective even at maximum possible levels. Year to year, a small 
relationship between flow and SAR is evident in some stocks. However, 
the resulting benefits to the listed species are likewise small when 
considered in terms of actual range of flow increases that can be 
achieved with flow augmentation. Moreover, the correlation of survival 
with annual flows is not likely to equate to significant changes in 
survival from flow augmentation within a season. Nevertheless, 
consistent results reflecting minimal potential benefits from annual 
flow changes emerge from several analyses.
    For example, the theoretical effect of flow augmentation on Snake 
River spring/summer chinook and steelhead SARs can be estimated through 
relationships of flow, water travel time (WTT), and SAR. Flow 
augmentation of 427 kaf from the Upper Snake decreases WTT between 
Lower Granite and Bonneville by one-half day (Dreher, 1998, p. 12). 
Based on the correlation of SAR to WTT in Table 15 of the White Paper, 
this would only result in a change in SAR of about 0.04 for both 
steelhead and spring/summer chinook.
    In other examples, augmentation from the Upper Snake River of 1 MAF 
could provide an 8 kcfs increase in flow over a 2-month season.\15\ A 
recent study determined that an 8 kcfs flow change might result in a 
change in SAR from 0.010 to 0.011 for four fall chinook stocks 
(Anderson et al., 2000). Similarly, using a mean flow of 150 kcfs in 
the mainstem Columbia River and the data in the White Paper, an 8 kcfs 
increase might equate to a change in SAR for Upper Columbia wild 
steelhead of 0.0155 to 0.0164. Only in the NMFS analysis for Marsh 
Creek spring chinook is there any discernable correlation of year-to-
year flow to survival (NMFS 2000a). For that stock, the slope of the 
regression was relatively large with a change in the spawner-recruit 
ratio from 1.0 to 1.4 using an 8 kcfs increase on a 75 kcfs base. 
However, with respect to this one possible exception, if the Marsh 
Creek relationship were causative and widespread, the strength of the 
correlation would be evident in tremendous and obvious success from the 
past flow augmentation program. Instead, the continued decline of the 
stocks during the flow augmentation program is more in accordance with 
an insignificant or null effect of flow augmentation on adult survival.
---------------------------------------------------------------------------
    \15\ Of course, flow augmentation with 427 kaf can only provide 
about 27 days of a flow increase of 8 kcfs and a corresponding decrease 
in potential SAR changes.
---------------------------------------------------------------------------
Sub-Yearling Migrants (Fall Chinook)
    A review of available data and recent research supporting and 
defending flow augmentation for fall chinook leads to the conclusion 
that Upper Snake River flow augmentation provides no significant 
benefit to survival of the listed species for the following reasons:
    1. Flow augmentation should be the focus of analysis, not natural 
variations in flow. Upper Snake River flow augmentation provides no 
beneficial changes in important environmental variables such as date of 
migration. temperature and turbidity.
    2. Flow is a poor predictor of survival and the effect of flow on 
survival cannot be reliably estimated. Other environmental variables 
such as time of migration, water temperature, and turbidity are more 
strongly correlated with survival.
    3. Survival is also more likely related to other independent 
variables such as the physiological state of the juveniles, size of the 
juveniles, predation, competition, and other factors.\16\
---------------------------------------------------------------------------
    \16\ See our October 29, 1999 comments on the draft White Paper and 
literature cited therein.
---------------------------------------------------------------------------
    4. There is no statistically significant relationship between flow 
and spawner-
recruit data for fall chinook over brood years 1964-1994.
Recent Studies Above Lower Granite Reservoir
    There are serious flaws in recent biological research that is being 
used to support and defend flow augmentation to benefit ESA-listed 
anadromous fish runs. The published results of this research raise 
serious concerns about the methods being used in these studies and the 
conclusions drawn from the results. These concerns include the 
confounding effects from correlation between flow and other 
environmental variables such as photoperiod, water temperature, and 
turbidity. In other words, changes in survival appear to be in response 
to variables other than flow. Flows naturally decrease during the 
migration period for juvenile fall chinook. As discussed below, other 
variables also change during this same period, which can lead to 
spurious correlations of flow to survival (Anderson, et al., 2000).
    The Draft BiOp assumes without comment that flow augmentation is 
beneficial under all conditions. The analysis by Anderson Hinrichsen 
and Van Holmes (Anderson et al., 2000) demonstrates that flow 
augmentation with warm water is detrimental to salmon smolts. This 
mistake reflects the ad hoc manner in which the science on flow was 
incorporated into the Draft BiOp. The White Paper, in a cursory 
analysis, determined that Hells Canyon flow is correlated with survival 
as are the other environmental variables such as temperature and 
turbidity. The Draft BiOp assumes that flow augmentation would then be 
beneficial to fall chinook smolts irrespective of any causative 
linkage. An extensive analysis of the fall chinook data by Anderson et 
al. (2000) concluded otherwise; that Hells Canyon flow augmentation is 
detrimental to fall chinook.
    Anderson et al. statistically demonstrated that during the season, 
migration timing and temperature are better predictors of survival than 
flow (later timing and higher temperatures reduce survival).\17\ In 
fact, multiple correlation rejects seasonal flow as a predictor of 
survival. This means that within-season flow changes, such as through 
flow augmentation, are even less likely to be significantly correlated 
with survival than between-season changes. Anderson et al. further 
demonstrated that the correlation between flow and water temperature 
for Snake River flow augmentation can reverse from natural conditions 
so that flow augmentation increases Snake River temperature. Because 
temperature is likely to be a causative factor in the survival pattern 
(higher temperature increases predation), when augmentation increases 
temperature, it decreases survival. In other words, summer flow 
augmentation with warm, clear water from Brownlee decreases survival 
for Snake River fall chinook (Anderson et al., 2000, p. 58).
---------------------------------------------------------------------------
    \17\ The occurrence of higher flow also correlates with the 
occurrence of lower temperature and earlier migration (earlier release 
of fish). While temperature and migration timing correlate with 
survival, flow and travel time do not. However, since all of the 
variables change in synchrony, each factor individually correlates with 
survival.
---------------------------------------------------------------------------
    The cursory analysis of flow in the White paper and the ad hoc 
application of the results in the Draft BiOp results in a flow 
augmentation strategy that is not only ineffective, but in this case, 
is detrimental to fish. In fact, while the Draft BiOp seeks to increase 
Upper Snake River flow augmentation, the science suggests that in fact 
this augmentation should be eliminated.
SAR v. Flow
    Anderson et al. (2000) evaluated spawner-recruit data for several 
index stocks of fall chinook for various brood year data sets extending 
back to the 1960's. No statistically significant relationship between 
natural variations in flow and recruits per spawner was found. Although 
not statistically reliable, a small positive relationship exists. 
However, even if additional data proves the relationship to be valid, 
the effect would not be biologically significant because the benefits 
of flow would be slight. Moreover, as discussed in the previous 
section, it must be emphasized that it is not clear that flow is the 
operative variable, and it is not apparent that flow augmentation 
provides any of the benefits of a naturally high-flow year.
    Smolt-to-adult returns (SAR) or survival encompasses life stages 
between juvenile seaward migration and adult spawning. The high 
mortality during various life stages contributes to low SARs. For 
example, optimistic survival levels for fall (ocean-type) chinook are: 
spawning to juvenile migrant (<nearly-eq>0.115), juvenile migration 
(<nearly-eq>.610), marine feeding (<nearly-eq>.015), adult migration 
(<nearly-eq>.600), and pre-spawning (<nearly-eq>.950).\18\ Total life 
cycle survival contributing to SAR can be approximated by multiplying 
the survival fractions, i.e., 
SAR<nearly-eq>0.115<greek-e>0.610<greek-e>0.015<greek-e>0.600<greek-e>0.
950<nearly-eq>0.0006. Thus, survival for juvenile migration 
(<nearly-eq>0.610) represents less than 1 percent of the total SAR. A 
similar example for spring/summer Snake River chinook also shows that 
the SAR for juvenile migrants (<nearly-eq>0.60) is a tiny fraction of 
total SAR (<nearly-eq>0.00014) (BPA et al., 1999, pp. 4-9--4-11). Thus, 
there is little prospect for associating SAR with environmental 
variables such as flow.
---------------------------------------------------------------------------
    \18\ See Attachment 4 to the Idaho water users comments on the 
draft All-H Paper, which can be found at http://www.nwppc.org/
recommend/recommend.htm.
---------------------------------------------------------------------------
    Finally, the Draft BiOp does not evaluate the effects of Upper 
Snake flow augmentation on the listed species. The analysis in the 
Draft BiOp uses the SIMPAS smolt passage model to assess the impacts of 
hydrosystem operations on smolts. However, because this model has no 
flow-survival component, the Draft BiOp cannot evaluate the impacts of 
flow management. Rather than quantitatively address the relative 
benefits of flow, if any, the Draft BiOp chose to rely on qualitative 
assertions.
                            jeopardy opinion
    This is the first BiOp in which NMFS has concluded that the 
operation of the Upper Snake BOR projects is likely to jeopardize the 
continued existence of these listed species or adversely affect their 
critical habitat (pp. 8-2 et seq). None of the previous BiOps contain 
such an opinion or conclusion--including the 1999 BiOp addressing the 
Upper Snake BOR projects that was released just 7 months prior to this 
Draft BiOp. No relevant new data or analysis is provided on the 
specific effect of these projects on the listed species or their 
habitat. Thus, the jeopardy opinion on operation of the Upper Snake BOR 
projects has no basis. The only logical explanation, and one that is 
suggested in the analysis, is that the conclusion derives from the 
decision to simultaneously consult on all 43 projects--some of which 
have been previously determined to cause jeopardy (FCRPS projects) and 
others which have only been part of a mitigation or recovery strategy 
(including the Upper Snake BOR projects).
    It is deeply disturbing that the Draft BiOp concludes that the 
Upper Snake BOR projects cause jeopardy while providing the 427 kaf of 
flow augmentation called for in previous BiOps. There is no evidence 
that the historical operation of the projects would cause jeopardy, let 
alone when operated to provide flow augmentation water. Indeed, the 
original reason for providing 427 kaf was to mitigate jeopardy caused 
by the FRCPS. Yet, now NMFS concludes in the Draft BiOp that operating 
the Upper Snake BOR projects to provide flow augmentation will 
jeopardize the species.
    If NMFS is now concluding that the Upper Snake BOR projects cause 
jeopardy, then that conclusion appears to be based solely on the 
depletion analysis in the Draft BiOp (pp. 6-27 to 6-30). The implied 
logic is that these projects significantly deplete the downstream flow 
during the migration/flow target season and that those depletions 
adversely affect the survival of the listed species or their habitat. 
As discussed in the previous sections, the hydrological and biological 
underpinnings of the flow alteration hypothesis for jeopardy caused by 
the Upper Snake BOR projects are not sound. There has been virtually no 
change in the volume of historical outflow from the Upper Snake, flows 
increased during the critical summer period, and there is no scientific 
basis for the conclusion that Upper Snake flow augmentation from BOR 
projects will benefit the listed species or their habitats.
    In fact, the Draft BiOp itself questions the logic of the depletion 
analysis. Although asserting that ``flow depletions caused by BOR-based 
irrigation activities are a major impediment to meeting NMFS' flow 
targets the text goes on to recognize the BiOp analysis as speculative 
(p. 6-28). After acknowledging that water law would allow other 
appropriators to take much of the supply made available by altering BOR 
operations, the Draft BiOp concludes ``therefore, although the 
following analysis attributes substantial streamflow depletion effects 
to BOR project operations it is not clear that BOR could, with any 
reasonable degree of certainty, avoid these effects'' (Id.). A jeopardy 
opinion without certainty and based on speculation fails to meet, by 
definition, the standard of reliance on the best scientific data 
available required by Section 7(a)(2) of the ESA. Moreover, such an 
opinion has no rationale basis, and is arbitrary.
            upper snake reasonable and prudent alternatives
    The Draft BiOp lists six RPAs that apply to the Upper Snake BOR 
projects: pursue flow targets; provide 427 kaf of flow augmentation 
using powerhead space if necessary; consult on uncontracted space; 
improve water conservation; address unauthorized uses; and negotiate 
for additional water (pp. 9-35 to 9-54). Each of these RPAs is 
addressed below.
    As a general matter, Idaho water users oppose continued Upper Snake 
River flow augmentation because there is no evidence that the release 
of an enormous volume of water over the past 14 years has contributed 
to the survival of Snake River spring and summer chinook, steelhead, or 
sockeye populations, or any other listed species.\19\ Development of 
water resources in the Upper Snake River basin did not cause the 
decline of fish populations and has not resulted in the destruction or 
adverse modification of critical habitat. Continuing to reduce Upper 
Snake River water uses to provide flow augmentation will not reverse 
the fish population decline, recover the populations, or mitigate the 
adverse modification of critical habitat caused by activities in the 
lower Snake and Columbia Rivers.
---------------------------------------------------------------------------
    \19\ From 1986 through 1999. flow augmentation from Idaho has 
involved 3.4 MAF from the Upper Snake, 2.3 MAF from Brownlee, and 13.5 
MAF from Dworshak for a total of 19.2 MAF from Idaho.
---------------------------------------------------------------------------
    As discussed above, there is no legal or factual basis that the 
Upper Snake BOR projects cause jeopardy to the listed species or 
adversely affect their habitat. As such, there is no basis for 
justifying these actions for the Upper Snake BOR projects as reasonable 
and prudent alternatives to their very existence and operation. At 
most, these actions should be characterized as offsite measures 
intended to mitigate the incidental take caused by FRCPS operations.
       lower granite flow targets are unreasonable and unfounded
    Table 3 contains the NMFS' flow objectives in the Draft BiOp for 
the Snake River at Lower Granite Dam (p. 9-40). These flow objectives 
are the same as those set forth in the NMFS' 1995 and 1998 BiOps on 
operation of the FCRPS.

    Table 3.--NMFS flow objectives, Snake River at Lower Granite Dam
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Spring (4/3-6/20).........................  85-100<dagger> kcfs
Summer (6/21-8/31)........................  50-55<dagger> kcfs
------------------------------------------------------------------------
<dagger> Varies based on water volume forecasts.

    The basis of the flow targets in the 1995 and 1998 BiOps is set 
forth in a 1995 report by NMFS (NMFS, 1995). The White Paper supplants 
the 1995 report as the hydrological and biological basis for 
continuation of the identical flow targets in the Draft BiOp.
    As discussed below, the flow targets at Lower Granite Dam are 
unreasonable because they cannot be reliably met and do not reflect the 
wide natural variation in flows. Those flow targets are unfounded given 
that flows remain similar to or are better than historical conditions 
and there is no biological basis for the flow objectives.
    The RPA for flow augmentation from the Upper Snake is largely 
driven by the desire to meet the flow targets at Lower Granite Dam and 
farther downstream (p. 9-39). However, these seasonal flow targets 
identify flows that cannot be achieved on a reasonable or frequent 
basis. For example, under the Draft BiOp analysis, the flow targets are 
never met in August and would only be met 8 percent of the time if all 
Upper Snake BOR projects did not deplete any flows.\20\ Flow targets 
that can be met seldom, if ever, are unreasonable by definition. 
Indeed, the goals of increasing spring and summer flows while limiting 
winter/spring drawdown and increasing the probability of reservoir 
refill are mutually exclusive and hydraulically impossible.
---------------------------------------------------------------------------
    \20\ As discussed elsewhere in these comments, the impact of Upper 
Snake BOR project depletions are overestimated and any flow benefits 
are speculative. Moreover, if the BOR projects did not deplete flows. 
senior irrigators would be able to do so under State water law.
---------------------------------------------------------------------------
    As described earlier in these comments, flow objectives are not 
necessary at Lower Granite because current flows are approximately 
equal to historical flows in both amount and timing. This is 
particularly true during the summer when irrigation return flows have 
increased the amount of water leaving the Upper Snake. Indeed, the 1999 
BiOp on the Upper Snake BOR projects recognizes that average 
streamflows at Lower Granite in August are virtually identical under 
natural flow conditions and content conditions (1999 BiOp, p. 27). 
Given that the average flow in August at Lower Granite has always been 
around 31 kcfs, there is no basis for NMFS' current flow target of 50 
to 55 kcfs and the BOR should not be required to provide water from the 
Upper Snake basin to meet this unrealistic, and unjustified, objective.
    Another perspective on the unreasonable level of the flow targets 
is evident from the fact that enormous volumes of flow augmentation 
from southern Idaho would have been needed to meet those targets, 
especially in dry years--over 10 MAF would have been needed in 1977 and 
1992, or nearly the total storage capacity of the largest 80 reservoirs 
in the Snake River basin (Dreher 1998, p. 13).
    Furthermore, the flow targets are also unreasonable in light of the 
enormous natural variation in runoff. A range of 5 to 15 kcfs in the 
low to high ends of the flow targets does not properly reflect that the 
range of Snake River flows at Weiser varies 350 percent from year to 
year (1999 BiOp, p. 25; see also Figures 2 and 6 in these comments).
    Most importantly, the flow targets have no clear biological basis. 
As discussed in previous sections of these comments, there is no 
relationship between survival and flows through the hydrosystem within 
a season. Above Lower Granite, the purported relationship between fall 
chinook survival and flow is statistically unfounded. Indeed, Upper 
Snake flow augmentation is detrimental to fall chinook survival. 
Relationships noted in the Draft BiOp relating flow or travel time to 
higher smolt-to-adult returns (SARs) are not valid with respect to 
Upper Snake flow augmentation.
Flow Augmentation Using 427 kaf or More, and the Use of Powerhead 
        Space, is Unnecessary and Illegal
    As thoroughly discussed in the comments above, there is no 
scientific evidence that flow augmentation from the Upper Snake will 
provide significant hydrological or biological benefits to the listed 
species and their habitat. Thus, flow augmentation from the Upper Snake 
BOR projects is unnecessary. Furthermore, the Draft BiOp's RPA for the 
Upper Snake BOR projects ignores several aspects of Reclamation law and 
Idaho water law.
    NMFS instructs the BOR to annually provide 427 kaf irrespective of 
the authorized purposes of the BOR projects involved (p. 9-48). A prime 
example is the requirement to use powerhead water to provide flows 
during drought (p. 9-49).
    Each of the projects in the Upper Snake River basin was built 
pursuant to specific Congressional project authorizations. The 
authorized purposes of the projects are dictated by those Congressional 
authorizations. The primary authorized purpose in each case is to 
supply irrigation water. Only some of these projects are authorized to 
serve fish and wildlife purposes as a secondary priority. A discussion 
of the authorized purposes for each Upper Snake BOR project should be 
contained in the final BiOp and the Action listed at the bottom of page 
9-48 should be revised to read ``. . . pursuant to State and Federal 
law. . . .''
    One of the authorized purposes of the Minidoka and Palisades 
Projects is power production. Contrary to this authorized purpose, NMFS 
requires the BOR to use water released from powerhead space in the 
event that the 427 kaf cannot be acquired by other means (p. 9-49). 
There are legal constraints that prohibit this use. In the Upper Snake 
projects that have a power component, the development of power was 
necessary for the irrigation of the lands under the reclamation project 
and the power generated by the reclamation project is reserved for use 
on that project. In 43 USC Sec. 522, Congress has clearly provided that 
neither surplus power or power privileges will be used so as to impair 
the efficiency of the irrigation project. The cost of power is based 
upon the cost of production. Powerhead space is used to provide 
hydraulic head for the generation of power. Without this hydraulic 
head, the efficiency of generating power is reduced or generating units 
will not operate properly and must be shut down. In turn, the increased 
costs for power directly affect the efficiency of the irrigation 
project by increasing costs.
    On the other hand, if this proposed use is based upon the premise 
that the powerhead water is ``surplus,'' 43 USC Sec. 521 provides that 
the BOR must obtain the approval of the spaceholders in the storage 
facility for release of that water. This section of the code further 
provides that such water shall not be released for other uses if the 
delivery of such water is detrimental to the water service of the 
irrigation project. When powerhead space is released, carryover storage 
is reduced and the potential for refill is affected. No approval by the 
spaceholders has been obtained by the BOR. In fact, the BOR has been 
placed on notice that such use is unauthorized and the water users may 
be damaged by such unlawful use.
    In addition, the storage and distribution of water in each of the 
Upper Snake BOR projects is controlled by a State water right issued by 
the State of Idaho for such uses, as required by the Reclamation Act of 
1902. The BOR does not have discretion to use the storage and 
distribution facilities without regard to State law. In terms of 
powerhead space, the State water right for the projects does not allow 
for release and refill of the space. In addition, Idaho Code Section 
42-1763B, which provides State law authority for the BOR to make salmon 
water releases, does not include powerhead water.
    Under Section 7 of the ESA, the BOR is only required to take those 
actions that are within the agency's authorities to accomplish (16 
U.S.C. Sec. 1536(a)(1)). The ESA does not create new authority or 
repeal existing authorities. The BiOp must set forth the authority 
under State and Federal law, if any, for the BOR to release powerhead 
water. In the absence of such authority, this element of the RPAs for 
the Upper Snake must be deleted.
Consultation on Uncontracted Space
    The Draft BiOp requires the BOR to consult with NMFS before 
entering into any agreement with respect to uncontracted space in order 
to identify potential additional supplies for salmon water (p. 9-50). 
However, as discussed in the previous section, any change in the use of 
this space must be consistent with Reclamation law and State water law. 
Due consideration should also be given to the environmental, economic 
and social impacts of such changes.
    NMFS sets forth a policy of ``zero net impact [from any BOR 
commitment to a new contract or contract amendment to increase the 
authorized use of water] on the ability to meet the seasonal flow 
objectives established in this Biological Opinion'' (p. 9-51). Given 
the unrealistic summer flow target at Lower Granite (50 to 55 kcfs), 
this virtually guarantees that there will be no further development 
with water from Bureau reservoirs.
    As discussed previously in these comments, the correlation between 
irrigated acreage and flows from the Upper Snake is weak to non-
existent and does not justify NMFS' policy in this area. For example, 
the 1999 BiOp notes that the number of irrigated acres in Idaho has 
decreased by 215,000 (6.2 percent) since 1978 and the amount of land 
receiving water from Bureau projects has decreased by 26,000 acres or 
about 1.6 percent (1999 BiOp, p. VII-1). However, there has been no 
significant increase in flows and the fish populations have not 
rebounded. Moreover, these changes should be factored into the ``zero 
impact policy.'' At a minimum, ail existing water uses from Upper Snake 
BOR projects should be allowed to continue and Idaho should be allowed 
to return to the 1978 level of irrigated acreage.
    In terms of environmental, economic, and social impacts from 
changes in the use of uncontracted space, the BOR should be required to 
request assistance from the U.S. Fish and Wildlife Service, the Idaho 
Department of Fish and Game, and the State of Idaho to evaluate the 
impacts from any changes in uncontracted space. Uncontracted space in 
reservoirs above Hells Canyon is currently used for a variety of non-
irrigation purposes (e.g. conservation pools, mitigation, reservoir 
evaporation and streamflow maintenance). NMFS should not attempt to 
force reallocation from existing needs to flow augmentation.
    We request that the provision for consultation on uncontracted 
space be modified to clarify that any BOR action with respect to 
uncontracted space should be consistent with State and Federal law and 
that consultation be expanded to include all affected agencies and 
stakeholders.
Upper Snake Conservation Will Not Increase Streamflow
    The Draft BiOp identifies water conservation through improved 
irrigation efficiency as a reasonable and prudent alternative to 
increase the water available for instream flows (p. 9-51). However, on 
an annual basis, the flow from the Upper Snake River would not be 
significantly increased by changes in irrigation efficiency because 
water losses from irrigation inefficiency already return to the river 
above Hells Canyon (Reclamation, 1999, pp. 3-4). Moreover, increased 
efficiency is likely to reduce return flows during the summer months--a 
time when the Draft BiOp indicates that additional flows are needed. 
Also, as alluded to in the Draft BiOp, in most cases, the ``conserved 
water'' would be used by the next junior water user downstream and the 
water would not become available for flow augmentation. There is no 
mechanism in Idaho law to ``protect such water from diminishment'' 
because these junior water rights are valid rights. As a result of 
these undisputed facts, there is no basis for this Upper Snake RPA and 
it should be deleted from the BiOp.
Addressing Unauthorized Uses
    NMFS asks the BOR to investigate the unauthorized diversion and use 
of BOR-supplied water (p. 9-51). NMFS foresees that the BOR will need 
to take a contract action that will result in an additional opportunity 
to consult under Section 7. However, many of these occurrences may not 
be contract violations over which the Bureau may have authority, and 
may be a valid exercise of State water rights. The distribution of 
water is controlled by State law, as clearly set forth in Section 8 of 
the Reclamation Act. Only the State of Idaho has authority to commence 
enforcement actions for the unauthorized use of water. Again, this RPA 
should be eliminated from the BiOp as clearly being beyond the scope of 
the BOR's existing authority.
    In any event, such action is unlikely to yield additional water for 
downstream use for the same reason as water conservation--the water 
will simply accrue to the benefit of a junior water right holder.
Negotiation for Additional Water
    The Draft BiOp calls for negotiations to increase the supplies of 
water available for flow augmentation from willing sellers and lessors 
(p. 9-53). However, the interim and experimental use of Upper Snake 
flow augmentation should be ceased, not expanded. As thoroughly 
discussed above, flow augmentation from the Upper Snake BOR projects 
does not provide significant biological or physical benefits to the 
listed species or their habitat. Adding more water will not provide 
benefits.
    Correctly, the RPA acknowledges that such additional supplies need 
to be obtained through State law mechanisms. Renewal of State authority 
for large blocks of flow augmentation is highly unlikely; even if it 
occurred, there may not be water available ever year. Any attempt to 
force water to be released from the Upper Snake River basin 
involuntarily will be vigorously opposed.
Resident Fish and Wildlife, Economic, and Other Impacts
    In evaluating the Upper Snake RPAs identified in the Draft BiOp, 
there is no evidence that NMFS considered resident fish and wildlife 
species, economics or other local impacts in the Upper Snake basin 
resulting from the alternatives NMFS that asserts are both ``reasonable 
and prudent.'' Without evaluating these impacts, there is no assurance 
that flow augmentation is either reasonable or prudent. Flow 
augmentation from the Upper Snake lowers reservoir levels, changes 
stream flow conditions, impacts other endangered species, and affects 
water quality both in the reservoirs and downstream. Moreover the BOR 
has identified numerous socioeconomic impacts associated with efforts 
to acquire water for flow augmentation, including direct costs to 
agriculture. hydropower, recreation and municipal uses, secondary 
economic impacts, and changes in social well being (U.S. Bureau of 
Reclamation, 1999). The proposal for flow augmentation is a major 
Federal action significantly affecting the quality of the environment 
and a NEPA analysis on the impacts of these Upper Snake mitigation 
actions is required before these measures can be demanded by NMFS. The 
scope of the NEPA analysis must include impacts of the alternatives 
(including a ``no action'' alternative) on resident fish and wildlife 
populations, recreation, power generation at the Upper Snake BOR 
projects water quality, and socioeconomic.
                         performance standards
    A number of the performance standards set forth in the Draft BiOp 
are flawed. These hydro, biological, and physical standards are the 
measures with which NMFS will assess progress toward survival and 
recovery of the species and will adjust, if necessary, its RPAs over 
the next decade.
    The FCRPS hydro standard for juvenile passage (Table 9.2-2 of the 
Draft BiOp) is based on the combined survival in fish transport, in-
river passage, and any delayed mortality of the transported fish. An 
adult standard is also given in Table 9.2-2. In addition to the 
hydrosystem survivals, minimum additional improvements in life cycle 
survival are identified to meet the jeopardy standard after achieving 
the aggressive hydro survival levels (Table 9.2-3). These hydro 
performance standards are not clearly defined and are unlikely to be 
measurable within the 5- to 10-year timeframes for re-evaluation.
    The biological performance standards based on population growth and 
survival are unreachable under realistic levels of population growth. 
Three biological standards are identified but they are not connected so 
all three must be achieved individually.
    Physical performance standards are described as target levels for 
items such as flow and water quality. The physical performance 
standards are unconnected to population performance or survival, are 
likely to be ineffective, and may be detrimental to fish. Because the 
physical standards are established in terms of targets, there is no 
mechanism to assess their effectiveness or optimize their use. These 
issues are discussed in the following sections.
Hydro Performance Standards
    A number of problems make the hydro standards unusable. The 
hydrosystem measure is a ``total system survival'' standard including 
transportation, in-river survival, and delayed mortality. The NMFS-
derived total system survival uses a mixture of NMFS and PATH formulas. 
The overall approach would be clearer if NMFS had simply used the PATH 
formulation for system survival and transportation percentages. Also, 
the NMFS approach only provides approximations because it assumes that 
fish are only transported from Lower Granite. A more critical issue is 
that the estimation of the differential delayed mortality (``D'' 
value), extra mortality, and system survival are problematic. NFMS used 
average values from the passage models developed in PATH, and ad hoc 
and unsupported passage estimates to estimate these factors. These 
problems are critical because these factors determine whether fish are 
recovering as a result of various actions or if the recovery is a 
result of natural changes in ocean conditions.
    Using average results from the two passage models used in PATH 
produces unclear results. First, the conclusions from the two passage 
models are mutually exclusive. Using the FLUSH model, mortality is high 
in the hydrosystem and there is no trend in extra mortality. Using the 
CRiSP passage model, the extra mortality occurs concomitant with the 
Snake River dams and the shift in ocean conditions. Furthermore, NMFS' 
PIT-tag survival studies discredit the FLUSH model. If NMFS chooses to 
ignore these important facts in its use of PATH results, it must 
reanalyze the data using a single model that is supported by the PIT-
tag data. A second alternative is to apply its own SIMPAS model and re-
evaluate the differential delayed mortality or extra mortality. In 
either case, SMFS' approach of ignoring its own data and averaging 
fundamentally different models cannot be supported.
    NFMS does not describe its methods to evaluate how extra mortality 
and total system survival change over the next 5 to 10 years. The Draft 
BiOp states:

          That is, if conditions during the two periods are similar, 
        then some factoring may be necessary to ensure that the 
        progress evaluation is truly assessing progress of actions 
        undertaken and there results are not masked by ambient 
        conditions (e.g. environmental or hydrologic). (page 9-11 of 
        the Draft BiOp)

    However, the factors of extra mortality and delayed mortality are 
inextricably bound to environmental and hydrologic factors. It appears 
that NMFS does not detail a method for assessing progress because it 
has not addressed the complexities of the issues. Furthermore, 
averaging results from PATH is an imprudent approach that does not 
resolve the complexities of fish recovery.
    Total system survival includes a factor for differential delayed 
mortality (``D''), which depends on the D factor developed in PATH to 
quantify the level of extra mortality experienced by transported fish 
relative to fish passing in-river. The value of D estimated by NMFS is 
0.63 with a confidence interval spanning from negative numbers to 
greater than 2 (NMFS 2000b). The aggressive RPA will yield a total 
system survival that is within a few percent of the current ``total 
system survival.'' For example, from the NMFS BiOp spreadsheets, the 
base period system survival from 1980 through 1991 is 47 percent, the 
current period (1994-1999) is 56.0 percent, and the aggressive 
hydrosystem actions project a system survival of 56.7 percent (NMFS 
2000c). Given that the range in D confidence intervals is 100 percent, 
the 0.6 percent difference between current and a target survival is 
insignificant. How will NMFS use such a measure to assess hydrosystem 
performance?
    The D value is a highly-calculated and theoretical term with an 
unknown ecological foundation. It could reflect additional stress that 
fish experience in transportation or it could be just the opposite, 
where both weak and strong fish survive transportation and the weak 
fish naturally die after transportation. In contrast, the weak fish 
could be culled prior to their arrival in the estuary during in-river 
passage. Thus, the level of D can be interpreted as a problem with 
transportation or it may reflect the natural distribution of weak and 
strong fish in the population. The hydro standard, which is a trigger 
and criteria for assessing dam removal and other actions, tacitly 
assumes that D reflects a problem in the transportation system. This 
uncertainty in mechanisms associated with D creates a serious problem 
with using total system survival as a performance measure. Simply put, 
it is unclear whether the measure reflects natural or anthropogenic 
factors but the change in the D value is being used as a measure of the 
success or failure of the anthropogenic factors.
    Another problem with the hydro standards lies in the SIMPAS model 
being used to evaluate the effect of hydro actions. The stated purpose 
of the model is to assess passage through various routes based on 
empirical data. However, this simplistic model ignores the effects of 
year-to-year and seasonal variations in supersaturation, temperature, 
and flow on fish passage and survival. Thus, the SIMPAS model cannot 
assess the impacts of water quality and flow measures on smolt 
survival.
Biological Performance Standards
    The biological standards are unattainable and immeasurable. Also, 
it is unclear how the multitude of survival standards will be used in 
the decisionmaking process.
    The biological standards are based on the percent improvement in 
population expressed as ``lambda.'' The underlying mathematical and 
ecological basis of the approach, the estimation of the parameter 
values in the models, and the use of a limited historical dataset to 
extrapolate long-term performance of the stocks are problematic. The 
technical difficulties are evident in the scientific debate on how to 
formulate lambda. The CRI group has presented various techniques for 
formulating lambda, has made a number of errors in the development of 
the values, and has been remiss in providing confidence estimates with 
the estimated numbers. In lieu of stating the confidence interval of 
lambda, the BiOp gives best- and worst-case estimates of the 
improvement in lambda that are required to meet the standards. The 
resulting range of estimates is problematic for several reasons. At one 
end of the range (the worst-case where large population growth is 
needed to achieve recovery), the estimates equate to some stocks 
increasing to levels approaching the entire Columbia/Snake River 
population (Hinrichsen, personal communication). On the other end of 
the range, the best-case estimates indicate that no improvements are 
required to meet all standards. However, even in the best-case 
conditions, the Draft BiOp would still require that the hydro and 
physical performance standards be met.
    Projections of lambda over a century are misleading and 
inappropriate. To estimate lambda, NMFS only used data after 1980 while 
the PATH analysis used the data series back to the 1950's. The 
interpretation of the PATH analysis became highly controversial because 
the analysis could not separate the effects of long-term changes in 
ocean productivity from the effects of the Snake River dams. In an 
attempt to avoid this controversy, NMFS ignored data prior to the 
construction of the Snake River dams. However, this strategy has 
serious consequences. The brood years 1980 through 1994 (the last full 
brood year in the NMFS analysis) experienced some of the warmest North 
Pacific conditions, which resulted in some of the lowest productivities 
for all Northwest salmon. This analysis tacitly assumes that the 15 
years of historically poor ocean conditions between 1980 and 1994 will 
characterize the next 100 years. In reality, the NMFS projections 
represent the worst-case conditions. In addition, the lambda analysis 
treats temporal changes in productivity by assuming changes are random 
and not cyclic; therefore, it consistently underweights recent 
improvements in productivity, whether they are from natural causes or 
the result of recovery actions.
    The wide range and large variance of lambda estimates indicate that 
it will be difficult to reliably estimate changes in lambda for 
progress evaluations in 2005 and 2008. Due to the major problems in the 
formulation and measurement of the biological standards in the Draft 
BiOp, those standards must be revised.
Physical Performance Standards
    The physical standards are inefficient and, in some cases such as 
with the flow targets, they are unrealistic and unfounded. The physical 
standards (including flow targets, tributary habitat, sediment input, 
and water quality) are disconnected from each other as well as other 
performance standards. Therefore, success from natural processes or 
other actions that lead to recovery will not be considered in the 
physical standards. For example, under the structure of the physical 
standards, water resources will be wasted trying to meet flow targets 
if other RPAs or changes in ocean conditions result in sufficient 
improvement in survival of the listed species.
    As discussed elsewhere in these comments, the flow targets. 
especially at Lower Granite. are unrealistic given that they cannot be 
reliably met. In addition there is no scientific basis for those 
targets.
 additional harvest restrictions are a more effective way to conserve 
                              fall chinook
    It is hard to think of a more perverse policy than to allow the 
harvest of substantial numbers of listed fish, particularly as they 
come up river to spawn. The Idaho water users are not aware of any 
other species listed under the ESA where regular harvest within the 
boundaries of the United States is allowed. Adults that are killed on 
their way upstream have survived the life stages with the two largest 
components of mortality--incubation/rearing and ocean feeding--only to 
be taken a short time before spawning. The Draft BiOp suggests that 
there is potential to improve survival of the listed species by further 
reductions in harvest (p. 9-115). Idaho water users strongly support 
aggressive harvest strategies, options, and actions, especially with 
respect to fall chinook. Minimizing harvest is extremely cost effective 
relative to the enormous investments and tremendous uncertainties 
associated with the hydropower (flow augmentation or breaching), 
habitat, and hatchery options.
    With respect to fisheries, Idaho water users strongly support 
pursuit of harvest reform through the use of selective fisheries, 
alternative methods and gear, and increasing harvest in terminal areas 
(p. 9-116). We believe that these alternatives can provide Tribal 
fishing opportunities while still reducing the impact of harvest on 
listed species.
    A substantial number of listed species continue to be harvested in 
the ocean and the main stem Snake and Columbia Rivers. In-river harvest 
rates for Snake River spring/summer chinook have ranged from 3 to 8 
percent in recent years (Marmorek et al., 1998, p. 14). Snake River 
fall chinook are subjected to heavy fishing pressure (NRC, 1995, p. 82; 
Marmorek et al., 1999, p. 15). Table 4 shows combined ocean and river 
harvest rates of up to 75 percent for fall chinook (Peters et al., 
1999, p. 71; see also NRC, 1995, pp. 81, 82).
    Reducing harvest rates will improve the probability of recovery by 
100 percent or more (Peters et al., 1999, pp. 197, 198).

                                  Table 4.--Fall Chinook Exploitation (Harvest)
----------------------------------------------------------------------------------------------------------------
                                                       Mainstem             Ocean Exploitation Rate by Age
                                                     (Columbia and  --------------------------------------------
                                                     Snake Rivers)
                                                  ------------------
                     Run Year                        Exploitation
                                                         Rate           2        3        4        5        6
                                                  ------------------
                                                     Jack    Adult
----------------------------------------------------------------------------------------------------------------
1986.............................................   0.055    0.469    0.015    0.106    0.170    0.169    0.303
1987.............................................   0.037    0.560    0.037    0.156    0.140    0.159    0.169
1988.............................................   0.046    0.524    0.027    0.060    0.288    0.172    0.159
1989.............................................   0.026    0.432    0.038    0.151    0.233    0.227    0.172
1990.............................................   0.028    0.452    0.042    0.059    0.271    0.252    0.227
1991.............................................   0.044    0.276    0.026    0.051    0.138    0.212    0.252
1992.............................................   0.051    0.166    0.020    0.095    0.242    0.204    0.212
1993.............................................   0.050    0.254    0.006    0.079    0.244    0.204    0.204
1994.............................................   0.033    0.155    0.015    0.014    0.229    0.204    0.204
1995.............................................   0.025    0.115    0.016    0.047    0.074    0.169    0.204
1996.............................................   0.039    0.171             0.046    0.000    0.158    0.169
                                                  --------------------------------------------------------------
  Mean...........................................   0.039    0.325    0.024    0.079    0.184    0.194    0.207
  Min............................................   0.025    0.115    0.006    0.014    0.000    0.158    0.159
  Max............................................   0.055    0.560    0.042    0.156    0.288    0.252    0.303
----------------------------------------------------------------------------------------------------------------

    The goals for improving hydrosystem survival are small and, as 
discussed previously in these comments, it is impossible to measure any 
incremental change that may be related to Upper Snake flow 
augmentation. However, the effect of harvest reduction can be clearly 
identified and the harvest reduction equivalent to the potential 
benefits of flow can be shown to be small and insignificant. To 
demonstrate the equivalence between small harvest reductions and large 
flow increases, we apply the approach developed by Norris (1995, 2000). 
Norris used the Pacific Salmon Commission Chinook Model to define 
equivalent harvest reduction policies for endangered Snake River fall 
chinook salmon. Because the stocks are harvested in a gauntlet of 
mixed-stock fisheries from Alaska to Oregon. the overall exploitation 
rate on Snake River fall chinook can be reduced by a variety of means, 
each of which has different economic consequences for the fisheries. 
Eight general types of policy alternatives were considered by Norris. 
Four policy options reduce harvest in specific geographic regions: the 
Alaska. British Columbia, or Washington and Oregon ocean fisheries. or 
the Columbia River fishery. Two policies reduce harvests in all regions 
in equal or scaled amounts; and two reduce harvests only in U.S. waters 
by equal or scaled amounts. Scaled policies reduce regional harvests in 
proportion to estimated regional catches of Snake River fall chinook 
during the period 1979 through 1993. Policies were deemed equivalent 
when the overall adult equivalent exploitation rate on the indicator 
stock (Lyon's Ferry Hatchery) was reduced by the same percentage. 
Equivalent policies were shown to be independent of assumptions about 
stock productivity.
    Table 5 illustrates the tradeoffs between harvest and downstream 
survival by showing all possible solutions to reaching a specific 
escapement goal. In the Norris study, the goal was defined as 3,000 
Snake River fall chinook spawners in year 2017. The model illustrates 
the change in harvest reduction to achieve the goal. For example, 
improving downstream survival 36 percent, reducing harvest by 60 
percent, and improving upstream survival to 90 percent is equivalent to 
improving downstream survival by 360 percent, reducing harvest by 30 
percent, and making no improvements in upstream survival.

 Table 5.--Downstream survival rates for various harvest rate reductions and prespawning survival rates required
   to achieve 3,000 spawners in year 2017. For example, if harvest rates are reduced by 30 percent, downstream
 survival rates would have to equal 0.582 (if prespawning survival is 0.6) or 0.364 (if prespawning survival is
                                                      0.9)
----------------------------------------------------------------------------------------------------------------
                                   Prespawn Survival   Prespawn Survival   Prespawn Survival   Prespawn Survival
    Percent Harvest Reduction            = 0.6               = 0.7               = 0.8               = 0.9
----------------------------------------------------------------------------------------------------------------
0...............................              1.034               0.870               0.745               0.650
10..............................              0.847               0.712               0.609               0.531
20..............................              0.699               0.587               0.503               0.438
30..............................              0.582               0.489               0.418               0.364
40..............................              0.488               0.410               0.350               0.305
50..............................              0.412               0.346               0.295               0.257
60..............................              0.350               0.294               0.251               0.218
70..............................              0.299               0.251               0.214               0.186
80..............................              0.257               0.215               0.184               0.160
90..............................              0.222               0.186               0.159               0.138
----------------------------------------------------------------------------------------------------------------

    The relative benefits of flow augmentation and harvest reduction 
can be evaluated using Table 5 and the estimates of life cycle survival 
improvements with flow augmentation. Although not statistically 
significant. a correlation of Snake River fall chinook SAR with year-
to-year flow estimated that 0.5 MAF of Upper Snake flow augmentation 
would change survival by 1.6 percent (Anderson et al, 2000). In other 
words, total system survival would increase from 24.4 to 24.8 percent 
using the estimate for Snake River fall chinook in the Draft BiOp (NMFS 
2000d). Using Table 5, and assuming the lowest pre-spawning survival of 
60 percent (which requires the largest change in harvest) the goal of 
3000 spawners can be achieved by reducing harvest 82.6 percent with 
flow augmentation or by reducing harvest by 83.7 percent without 
augmentation. The average ocean and river harvest rate during the 
period used in the Norris analysis are 36 percent and 50 percent. Thus, 
the harvest rates to meet the 3000 fish goal with flow augmentation are 
6.4 percent for ocean harvest and 8.9 percent for river harvest. 
Without the 0.5 MAF of Upper Snake flow augmentation, the rates are 6.0 
percent and 8.3 percent.
    Under these worst-case conditions (optimistic estimates of the 
effect of flow augmentation on survival and pessimistic estimates on 
the number of spawners), a further change in harvest rate of 0.5 
percent is equivalent to the effect of the Upper Snake River flow 
augmentation. It is important to note these calculations assume that a 
flow survival correlation between year-to-year flows will become 
statistically significant and if so, the same increases in survival can 
be achieved using flow augmentation within a year. It also assumes that 
the statistically insignificant flow survival relationship is strictly 
due to the water flowing down the river when the fish are migrating. In 
actuality, many environmental factors are correlated with seasonal flow 
including ocean productivity and the over wintering conditions of the 
fish prior to their migration. Therefore, the actual harvest reduction 
needed to achieve the theoretical effect of flow augmentation is likely 
to be less than \1/2\ of 1 percent.
    Harvest reforms can provide significant benefit to the listed 
species, especially Snake River fall chinook. The RPAs listed for 
harvest in the Draft BiOp should be revised to require these reforms.
      incidental ``take'' does not occur from upper snake projects
    Operation of the Upper Snake BOR projects does not ``take'' listed 
salmon or steelhead. Without stating it directly, the Draft BiOp 
implies that operation and maintenance of these projects results in a 
``take'' of listed Snake River salmon and steelhead. This is inherent 
in the ``Incidental Take Statement'' contained in the Draft BiOp (pp. 
10-1 et seq). We strenuously oppose any conclusion that infers that 
Upper Snake BOR project operations result in a ``take'' under the ESA 
and therefore need to be authorized by NMFS.
    Snake River salmon and steelhead habitat and the migratory corridor 
to the ocean are located far downstream of the Upper Snake BOR 
projects. These species have never existed above Milner Dam. The 
``take'' that has occurred has been the result of downstream factors, 
as indicated in previous consultations on the Federal Columbia River 
Power System (``FCRPS''). The 1995 and 1998 Incidental Take Statements 
were for the FCRPS, not the Upper Snake BOR projects. In an attempt to 
mitigate the downstream impacts and pursue recovery of listed species, 
NMFS has required the BOR to provide 427 KAF from the Upper Snake River 
basin.
    Given this relationship, NMFS properly concluded in the 1999 BiOp 
that the BOR's continued operation and maintenance of the Upper Snake 
projects will not jeopardize the continued existence of the species. It 
must be made equally clear that continued operation and maintenance of 
these projects will not result in any ``take'' of the listed species. 
This is a basic flaw in the Draft BiOp, which must be addressed.
     magnuson-stevens act recommendations are premature and flawed
    Essential Fish Habitat (EFH) has not been designated for any of the 
listed species involved in the BiOp. Although EFH has been proposed for 
salmon and steelhead, the Secretary of Commerce has not yet acted. 
Thus. the analysis and recommendations on salmon habitat are premature.
    The Magnuson-Stevens Act (``MSA'') recommendations suffer from even 
greater deficiencies than the rest of the BiOp. First, the scope of the 
analysis is not clear. There is confusion as to whether the MSA 
recommendations are directed solely to FCRPS projects, or to the FCRPS 
and 29 additional BOR projects (compare Sections 12.2.1 and 12.3.1, pp. 
12-5, 12-8). The rest of these comments assume that the Upper Snake BOR 
projects are included within the scope of the recommendations.
    The Draft BiOp contains a litany of impacts from reservoir 
operations including changed streamflow conditions affecting turbidity 
and sediment transport, estuary conditions, seasonal flows, and the 
extent and characteristics of the Columbia River plume (pp. 12-8 
through 12-11). Allegedly, these changes have led to migration delays, 
changes in water quality, new predator-prey dynamics, habitat impacts, 
and alteration of the distribution, abundance and diversity of 
organisms (Id.). Such broad statements require identification of the 
specific project creating those changes and the factual basis for such 
conclusions pertaining to that project. Like similar statements in the 
rest of the Draft BiOp, these conclusions cannot be substantiated with 
established facts as to the Upper Snake BOR projects. Without specific 
reference to particular projects and substantiation of the facts for 
those projects, such broad generalizations should be deleted from the 
BiOp.
    The EFH conservation recommendations adopt the RPAs in Section 9 of 
the Draft BiOp. For the reasons discussed under the section of these 
comments on Upper Snake Reasonable and Prudent Alternatives, those 
recommendations are flawed and should be eliminated in the BiOp.
                               references
    Anderson, J.J, R.A. Hinrichsen and C. Van Holmes. 2000. Effects of 
Flow Augmentation on Snake River Fall Chinook Attachment 3 to 
Evaluation of flow Augmentation proposals on the Snake River above 
Lower Granite Dam.
    Arrington, Leonard J. 1986. Irrigation in the Snake River Valley. A 
Historical Overview. Idaho Yesterdays, Spring/Summer 1986, pp. 3-11.
    Bonneville Power Administration, U.S. Bureau of Reclamation, and 
U.S. Army Corps of Engineers. 1999. Multi-Species Biological Assessment 
of the Federal Columbia River Power System. Submitted to the National 
Marine Fisheries Service and U.S. Fish and Wildlife Service, December 
21, 1999.
    DeHart, Michele, 1998. Memo from Michele DeHart, Fish Passage 
Center, to FPAC RE: Review--``Competing for the Mighty Columbia River--
Past, Present and Future: The Role of Interstate Allocation'' by Karl 
J. Dreher.
    Dreher, Karl J. 1998. Competing for the Mighty Columbia River--
Past, Present and Future: The Role of Interstate Allocation. Idaho 
Department of Water Resources, Boise, Idaho. April 30--May 1, 1998.
    Ebel, Wesley J and Charles H. Koski, 1968. Physical and Chemical 
Limnology of Brownlee Reservoir, 1962-64. Fishery Bulletin: Vol. 67, 
No. 2, pp. 295-335. December 1968.
    Hinrichsen, Richard A. 2000. Personal communication. September 
2000.
    Idaho Water Resource Board. 1996. Idaho State Water Plan. December 
1996 (Ratif1ed by the Idaho Legislature March 1997). Boise, Idaho.
    Marmorek, D.R. et al. (eds.). 1998. PATH Final Report for Fiscal 
Year 1998. ESSA Technologies Ltd., Vancouver, BC.
    National Marine Fisheries Service (NMFS). 1995. ``Basis for Flow 
Objectives for Operation of the Federal Columbia River Power System.'' 
Seattle, WA.
    National Marine Fisheries Service (NMFS). 1999. An Assessment of 
Lower Snake River Hydrosystem Alternatives on Survival and Recovery of 
Snake River Salmonids, Appendix to the U.S. Army Corps of Engineers' 
Lower Snake River Juvenile Salmonid Migration Feasibility Study. April 
14, 1999.
    National Marine Fisheries Service (NMFS). 2000a. White Paper: 
Salmonid Travel Time and Survival Related to Flow in the Columbia River 
Basin. Northwest Fisheries Science Center, Seattle, Washington. March 
2000.
    National Marine Fisheries Service (NMFS). 2000b. Summary of 
research related to transportation of juvenile anadromous salmonids 
around Snake and Columbia river dams. Northwest Fisheries Science 
Center, National Marine Fisheries Service Seattle, Washington. April 
2000.
    National Marine Fisheries Service (NMFS). 2000c. Excel 97 
spreadsheets with details of the species-level analyses described in 
sections 6.3., 9.7.2, and 9.7.3.2. <http:
//www.nwr.noaa.gov/I salmon/salmesa/fedrec.htm>.
    National Marine Fisheries Service (NMFS). 2000d. Biological 
Opinion. Appendix C. August 30 Draft. <http://www.nwr.noaa.gov/1hydrop/
hydroweb/docs/2000/appendc.pdf>.
    Norris J. G. 2000. Defining Equivalent Harvest Reduction Policies 
for Endangered Salmon Stocks. Sustainable Fisheries Management: Pacific 
Salmon. Editor Knudsen et al.
    Norris. J. G. 1995. A Simple Spreadsheet Model for Evaluating 
Recovery Strategies for Snake River Fall Chinook Salmon Fisheries 
Research Institute. University of Washington, Seattle, WA http://
www.cbr.washington.edu/papers/global.pdf)
    Northwest Fisheries Science Center. 2000. White Paper: Salmonid 
Travel Time and Survival Related to Flow Management in the Columbia 
River Basin. Seattle Washington. March 2000.
    NPPC (Northwest Power Planning Council). 1994. ``Columbia River 
Basin Fish and Wildlife Program.'' Portland, OR.
    NRC (National Research Council). 1995. Upstream: Salmon and Society 
in the Pacific Northwest. Committee on Protection and Management of 
Pacific Northwest Anadromous Salmonids, Board on Environmental Studies 
and Toxicology, Commission on Life Sciences.
    Peters, C.N. et al. 1999. PATH Decision Analysis Report for Snake 
River Fall Chinook. ESSA Technologies Ltd., Vancouver, BC.
    U.S. Army Corps of Engineers. 1995. Columbia River System Operation 
Review Final Environmental Impact Statement. North Pacific Division.
    U.S. Bureau of Reclamation. 1999. Snake River Flow Augmentation 
Impact Analysis Appendix. Lower Snake River Juvenile Salmon Migration 
Feasibility Study and Environmental Impact Statement. February 1999.
    U.S. Bureau of Reclamation. 1999. Biological Opinion: Bureau of 
Reclamation Operations and Maintenance of its Projects in the Snake 
River Basin Above Lower Granite Dam: A Supplement to the Biological 
Opinions Signed on March 2, 1995, and May 14, 1998. Endangered Species 
Act Section 7 Consultation conducted by National Marine Fisheries 
Service, Northwest Region. December 9, 1999.
    U.S. Census. 1910. Census of Agriculture, Part II, Crops and 
Irrigation. U.S. Census Office.
                                 ______
                                 
        Attachment 1: Comments on Flow White Paper and Reply to 
                             NMFS Responses
    In many instances, the revised White Paper \21\ is substantially 
improved over the September 1999 draft. Some of the discontinuity 
between the analysis of the data and the conclusions has been 
eliminated and many of the uncertainties in the relationship of flow to 
survival have been clarified. However, the Idaho water users still take 
issue with a number of items in the White Paper and disagree with some 
of the NMFS responses to our comments on the draft. Moreover, the 
discontinuity that previously existed within the White Paper now exists 
between the Draft BiOp and the White Paper, i.e., the Draft BiOp makes 
much stronger assertions of ``fact'' than does the White Paper, yet the 
Draft BiOp purports to rely on the White Paper's analysis.
---------------------------------------------------------------------------
    \21\ White Paper: Salmonid Travel Time and Survival Related to Flow 
Management in the Columbia River Basin, Northwest Fisheries Science 
Center, Seattle, Washington, March 2000.
---------------------------------------------------------------------------
    One general comment is worth noting at the outset. We have made a 
concerted effort to direct our comments on the White Paper and the 
Draft BiOp only to flow augmentation from the Upper Snake River. The 
reciprocal is not true. The White Paper and Draft BiOp generally lump 
flow augmentation from all sources into the same analysis. Upper Snake 
flow augmentation must be considered separately from Dworshak's cool 
water releases and separately from the enormous volumes of water 
available from mainstem Columbia River reservoirs.
    Many of our issues are addressed in the body of our comments on the 
Drati BiOp and will not be repeated here. Other comments on the final 
White Paper remain the same as those on the draft and are simply 
referenced here. The following comments follow the order of the items 
in the White Paper.
                              introduction
    We appreciate the recognition that ``storage regulation changes are 
less pronounced in the lower Snake River than in the Columbia River'' 
(p. 1).\22\ We also agree that Snake River fall chinook ``are 
particularly susceptible to changes in the thermal regime and they 
spawn and rear in the mainstem'' (p. 2). However, juvenile migrant 
mortality is also sensitive to temperature (Anderson et al, 2000).
---------------------------------------------------------------------------
    \22\ In this attachment, page references refer to the White Paper 
unless otherwise noted.
---------------------------------------------------------------------------
    The discussion of how the dams are operated to attempt to meet the 
seasonal flow objectives is not applicable to flow augmentation from 
Idaho. The reservoirs in Idaho are drafted in the late spring and 
summer, not ``primarily through limiting winter drafting and rates of 
reservoir refill.'' Particularly for the Upper Snake reservoirs, water 
used for flow augmentation has typically been stored to meet authorized 
purposes and would be used elsewhere if not released for flow 
augmentation--it is not simply a matter of adjusting the rate of 
outflow.
             physical properties of water affected by flow
    In our comments on the draft White Paper, we made a number of 
comments concerning the need for additional hydrological background and 
analysis in the White Paper. The response was as follows:
    Our Original Comments (excerpts selected by NMFS): ``Flows from the 
upper Snake Basin are virtually the same as they were 85 years ago.'' 
IWUA p. 3 ``. . . the flow quantity [from] the Snake River has not 
changed significantly over the past 85 years. Thus any changes [to] the 
estuary or . . . plume are not the result of upstream development on 
the Snake River. Further, the [Snake River] flows required to make 
significant changes in the estuary . . . are large . . .'' IWUA p. 4 
``The White Paper should be substantially revised to incorporate a 
comprehensive review and discussion of the hydrology of the Snake and 
Columbia Rivers. Particular emphasis should be placed on the Snake 
River system where populations of the listed species of most concern 
are located.''
    NMFS Response: We concur that a better understanding of hydrology 
would be helpful. We did expand Table 1 to indicate how flows have 
changed over time in the Snake and upper Columbia Rivers. However, 
hydrology is not the focus of this paper. The focus is on studies that 
measure the reaction of salmonid populations to variable environmental 
conditions. We also need to dispel the notion that the Snake River 
stocks are of most concern. Eight other salmonid ESUs are listed as 
endangered or threatened in the Columbia River Basin. Upper Columbia 
stocks are worse off than Snake stocks (excluding Snake River sockeye 
salmon) according to the latest CRI extinction analyses. Further, flow 
from the Snake River itself, though, is not the only important factor 
for salmon survival; water velocity and temperature are also important. 
These factors have changed drastically as a result of development of 
the hydropower system, including on the Snake River above the 
confluence with the Clearwater (Ebel and Koski 1968). Although flows in 
the Snake River have not changed, travel time of migrants has increased 
significantly due to the development and operation of the hydropower 
system.
    Our Reply: While we understand that the White Paper focuses on 
biological response to environmental conditions, a more thorough 
understanding of the environmental variables would assist in 
interpretation of the data. For example, the fact that flows from the 
Upper Snake River have not decreased over time and summer flows have 
increased should be a consideration when evaluating which of the 
variables may be the most important to the listed species, especially 
when all of major variables are highly correlated with each other.
    We also understand that the Snake River stocks may not be of the 
``most concern'' to NMFS. However, we still believe that a more 
comprehensive review and discussion of the Snake River hydrology is 
warranted given that much of the biological research on flow-survival 
has been conducted on the Snake River. Moreover, given the relatively 
small amount of storage in the Snake River basin in comparison to the 
entire Columbia basin. flow augmentation from the Snake River primarily 
has the potential to affect the lower Snake, not the lower Columbia. 
Thus. Upper Snake flow augmentation has little or no impact on the 
``worse off'' Upper Columbia stocks.
    We also agree that temperature is important. However as discussed 
in the main body of comments on the Draft BiOp, summer flow 
augmentation from the Upper Snake typically leads to warmer water 
downstream, not cooler. In the case of flow augmentation from the Upper 
Snake River, the dampening of temperature increases from increased 
volume that is described in the White Paper (p. 5) is overwhelmed by 
ambient air temperature.
    While we believe that the relationships of survival to velocity and 
flow to travel time are unproven, flow augmentation can do little to 
alter velocity and travel time because of the enormous increase in 
cross-sectional area created by the mainstem dams.
    Another NMFS response to this area of comment requires a reply:
    Our Original Comment: ``. . . flow augmentation is futile to 
mitigate the velocity reduction due to dams on the lower Snake River . 
. . More than 160 MAF would be required to restore pre-dam 
velocities.''

    NMFS Response: Nowhere in the white paper is the unrealistic goal 
of affecting pre-dam water velocities through reservoirs considered. 
Also, flow augmentation can be used for purposes other than increasing 
water velocity, such as temperature regulation, decreased delay at 
dams, and increased spill. Additionally, each incremental improvement 
in flow helps to return the river to a more normative condition. The 
incremental effects of water withdrawal throughout the system have also 
changed the hydrology of the river from conditions under which the fish 
evolved.
    Our Reply: Assuming that the response means that the White Paper 
does not suggest that the goal is to achieve pre-dam velocities, we 
acknowledge that no velocity goals are set forth. The purpose of citing 
the amount of water that it would take to achieve pre-dam velocities is 
to put the magnitude of the futility to significantly alter velocities 
in perspective. The White Paper does suggest that a link between 
velocity, travel time, and survival exists. Our point is that flow 
augmentation from the Upper Snake makes a minuscule difference in 
velocity.
    Similarly, Upper Snake flow augmentation makes a minuscule 
difference, if any, to temperature regulation, decreased delay at dams, 
increased spill, or estuary and plume conditions. In fact, as discussed 
in the main body of comments on the Draft BiOp, summer flow 
augmentation from the Upper Snake is detrimental to Snake River fall 
chinook.
    The argument that flow augmentation is needed to increase spill is 
particularly perplexing because the fraction of the liver spilled 
during low and moderate flow conditions (when flow augmentation might 
be used to increase flows) depends on an operational decision. not the 
total flow in the river. In other words, the percentage of spill is 
independent of flow augmentation from the Upper Snake River.
    There is no evidence that water withdrawals from the Upper Snake 
have had a significant incremental effect on the listed species or 
their habitat, or on ``normative'' conditions in the river.
               effects of river factors--spring migrants
    Our primary views on the effect of flow on spring migrant survival 
are set forth in the main comments on the Draft BiOp. However, our 
replies to NMFS responses on this issue are set forth below:
    Our Original Comments: ``In recent years, the Raymond and Sims and 
Ossiander research has been discounted . . . However, the studies 
criticizing the dated research are not even discussed or cited in the 
White Paper.''

          ``. . . older research that does not consider changes in the 
        hydrosystem over time . . . is still relied upon.''

    NMFS Responses: We don't use data from any of these studies to 
support our conclusions, therefore we do not make any effort to 
criticize these data.
    Wherever possible, we updated past analyses of SAR or recruit-per-
spawner data. Furthermore, the white paper relies mostly on the recent 
PIT tag data, collected under current conditions.
    Our Reply: We are encouraged to hear that NMFS is no longer relying 
extensively on dated research.

    Our Original Comment: ``. . . photoperiod provides a better basis 
to predict travel time [of Snake River spring chinook salmon] than flow 
. . .''
    NMFS Response: ``This conclusion is based on an ad hoc analysis 
(comparing mean R<INF>2</INF> values) that would not measure up to 
scientific scrutiny. We do acknowledge that smoltification level (for 
which photoperiod is likely a surrogate) is important in determining 
migration rate, and we elaborate on this point in the new version of 
the white paper. This does not diminish the fact no study has failed to 
find a travel time/flow relationship for Snake River spring chinook 
salmon.''
    Our Reply: The literature presents diverse interpretations of 
observational data on variables which are observed to be statistically 
associated with the migratory behavior of juvenile salmonids. 
Statistical correlation between and among random variables is useful 
for making predictions and evaluating hypotheses. Like NMFS, we 
recognize that correlation is not causation. Controlled experiments are 
typically required to identify cause and effect relationships. In the 
case of the multiple variables that are related to flow, because the 
wide natural variation in those variables and the lengthy life-cycle of 
the listed species. controlled experiments are not likely to provide 
useful information in a reasonable amount of time. Thus, all interested 
parties must engage in ad hoc analysis, NMFS included. In such a case, 
it is even more important to focus on the ecological mechanisms that 
might explain correlations.
    The onset and synchronization of smotification and migration to sea 
are regulated by environmental variables--primarily increasing day 
length and temperature. These exogenous factors operate after juvenile 
salmonids attain a threshold size. Smotification and migration to sea 
typically occur during a limited span of time, which is highly 
predictable and closely related to cyclical changes in day length 
(photoperiod) and water temperature. Temperature mediates the 
physiological response to photoperiod--inhibiting smotification at 
cooler temperatures and stimulating smotification at warmer 
temperatures. Other environmental factors such as lunar periodicity, 
barometric pressure, water turbidity and velocity, wind, and spring 
overturn in lacustrine waters may modulate migration activity within a 
given seasonal cycle.
    In other words, statistical associations between smolt migration 
speed or ``survival'' and flow may be coincidental where variables 
exhibit collinearity or multiple collinearity. As discussed in our 
primary comments on the draft BiOp, flow, temperature, photoperiod, 
turbidity, and velocity are all collinear. It is incumbent on NMFS to 
look beyond simple correlations of flow and survival in order to 
examine the ecological implications of environmental vanables.
    In our original comments, we list studies that have failed to find 
a travel-time/flow relationship. For example, Skalski (1998) concludes 
that even though environmental variables fluctuate greatly, survival of 
cohorts of PIT-tagged juveniles released daily at Lower Granite Dam 
exhibit little change throughout the migration period.\23\ He found 
survival between Lower Granite and Little Goose Dam tailraces to be ``. 
. . remarkably stable over the course of the season'' and observed no 
association between survival and daily flow or daily spill. Such 
studies are simply omitted from the White Paper and from the NMFS 
response to our comments.
---------------------------------------------------------------------------
    \23\ Skalski, J.R. 1998; Estimating season-wide survival rates of 
outmigrating salmon smolt in the Snake River, Washington. Can. J. Fish 
Aquat. Sci. 55:761-769.
---------------------------------------------------------------------------
               effects of river factors--summer migrants
    Extensive comments on the flow augmentation-survival issue for fall 
chinooks are set forth in the main body of comments on the Draft BiOp. 
Our replies to the NMFS responses to our comments on the draft White 
Paper and those of other commenters on are provided below:

    Our Original Comment: ``Particularly troubling is the suggestion 
that temperature control he used to more closely approximate historical 
conditions. Most scientists caution against taking actions based simply 
on how closely they approximate pre-dam environment . . . In the pre-
dam system, the vast majority of the fall chinook in the upper Snake 
River spawned above Brownlee Dam . . .'' and ``Another issue is that 
the existing outlet works from the dams in Hells Canyon are mid-
elevation facilities. Although an extremely expensive retrofit of 
multi-level outlet works might be technically possible, it is not clear 
that the pool behind Brownlee Dam has significant temperature 
stratifications year-round.''
    NMFS Response: We concur simply flying to mimic historical 
conditions is naive. The goal is to restore threatened and endangered 
salmonid populations. As noted elsewhere, hydroelectric development in 
the upper Snake River has severely affected populations of fall chinook 
salmon to the point that their major freshwater habitat has changed. 
Returning to historical conditions is not relevant for these fish. 
However, previous research has shown that changes in water temperatures 
have changed the timing of fall chinook salmon spawning in the Snake 
River. Subsequent emergence of fry and growth is also delayed, in turn 
delaying the start of downstream migration. The later the fish migrate, 
the worse the passage conditions. Changes in temperature regimes from 
present conditions might lead toward more favorable conditions and 
higher survival of fall chinook salmon. Ebel and Koski (1968) showed 
that Brownlee Reservoir is highly temperature-stratified beginning in 
May.
    Our Reply: Beneficial changes in the temperature regime are 
unlikely to result from Upper Snake flow augmentation. Regardless of 
the stratification of Brownlee. ambient air temperature plays a 
significant role in river temperatures downstream of Hells Canyon. As 
noted in our primary comments on the Draft BiOp, Ebel and Koskis study 
also shows that Upper Snake flow augmentation is detrimental to fish 
under some conditions.

    Original Comments: ``There are a series of factors that potentially 
interact to determine the effect of flow on survival . . .'' Bouwes et 
al. p. 14 ``. . . survival estimates were [not] used as a dependent 
variable in multiple regression; i.e., the combined or interacting 
effects of flow, spill, turbidity, and temperature were not examined as 
predictors of survival rate.'' Bouwes et al. p. 19 ``. . . 
environmental variables act in concert and affect survival rates in 
biologically meaningful ways.'' USFWS p. 3.
    NMFS Response: We concur that there is potential for environmental 
factors to interact in their effects on survival. Multiple regression, 
particularly with interaction among independent variables, might 
improve model fits. However, in cases where univariate regressions over 
a number of years yield no significant relationships (e.g. regressions 
with Snake River spring migrants comparing survival estimates to flow 
exposure), we consider it doubtful that a multiple regression approach 
would uncover any new information. In the case of Snake River fall 
chinook salmon, with regressions of survival from release to Lower 
Granite on flow, temperature and turbidity exposure indices, the 
environmental variables are so highly correlated that a multiple 
regression analysis is highly unlikely to determine which factors are 
most important in determining survival. Nonetheless, we intend to 
explore multiple regression approaches in future analyses of these 
data. The only way to demonstrate some of these effects with a high 
degree of confidence is to conduct controlled experiments. 
Unfortunately, it is extremely difficult to define control and 
treatment groups that only differ in a treatment (such as flow 
augmentation). Within-season treatments would be difficult to conduct 
because of the protracted migrations of release groups. Year-to-year 
treatments would require many replications due to confounding effects. 
With these limitations in mind, we are required to use the best 
available information, which, at this point in time, is the results of 
survival studies. In the future, it may be possible to manipulate the 
system to limit the confounding effects of correlated variables.
    Our Reply: We agree that multiple regression will not help the 
analysis of spring migrant relationships to environmental variables. 
With respect to fall chinook, we encourage you to replicate the 
analysis performed by Anderson et al. (2000) which rejected flow as a 
predictor variable. As noted above in these replies. controlled 
experiments are unlikely to provide relevant information in a timely 
manner.

    Our Original Comment: ``. . . benefits of flow are justified with 
phrases like `data indicate,' `would likely' and `may provide.' Clearly 
these qualitative and subjective phrases are used because a 
relationship between flow and survival has not been quantified, nor is 
it likely to be quantified.''
    NMFS Response: In ecological studies, it is rare that one can be 
certain beyond a doubt about any conclusion. Scientific judgment 
involves accumulating information through time and determining which 
conclusions are supported by the preponderance of evidence. It would be 
unfair to characterize something as certain when it is not. At the same 
time, lack of 100 percent certainty does not indicate that 
relationships do not exist. It is clear that salmon migrating 
downstream through the hydropower system do so under flow conditions 
that are different than those under which they evolved. This is 
particularly true once the fish get below Bonneville Dam Suggesting 
more natural flows are better for fish is not inconsistent. It is not 
the role of science to make the management decision of when the costs 
of flows are too high to outweigh presumed benefits for the fish.
    Our Reply: The ``preponderance of the evidence'' does not support 
Upper Snake flow augmentation. We agree that salmon are migrating 
downstream under altered flow conditions. However, we maintain that 
Upper Snake development had little or nothing to do with those changed 
conditions and Upper Snake flow augmentation will not significantly 
improve conditions downstream, particularly below Bonneville Dam. It is 
also not the roll of science to rely on platitudes such as ``if some 
water is good. more is better.'' The ESA requires a scientific analysis 
from scientists, not a subjective analysis that ``natural'' is better.

    Our Original Comments: ``. . . there does not appear to be a 
relationship between travel time and survival [for Snake River fall 
chinook salmon]. This strongly indicates that other river conditions . 
. . may be more important to survival than simply the quantity of 
flow'' ``. . . there is credible and important scientific evidence that 
temperature is the operative variable affecting survival, not flow.''
    NMFS Response: The highly speculative nature of these comments is 
ironic given your criticism to NMFS for speculative conclusions. 
Alternative explanations should be held to the high standards you 
demand of NMFS. We discuss the effect of temperature and flow and 
provide text on potential effects of both on survival in the final 
White Paper.
    Our Reply: We stand by our original comments. NMFS is in a poor 
position to criticize commenters for speculative suggestions when the 
comments are merely pointing NMFS to studies that do not support their 
conclusions. Under the ESA, an agency must consider all scientific 
evidence, not brush aside criticisms that disagree with NMFS 
conclusions as ``equally speculative.'' NMFS has no license to 
speculate in developing its biological opinion. As set forth in our 
main comments on the Draft BiOp, we believe that our interpretations 
are supported by sound science and reasonable ecological mechanisms.

    Our Original Comment: ``Although flow and survival exhibit a 
positive and linear relationship at low flows . . ., the relationship 
is flat above 120 kcfs. . . . This is a strong indication that whether 
the relationship is correlative or causative, it breaks down.''
    NMFS Response: Our analyses contained in the white paper conclude 
that above 120 kefs, the relationship between survival and flow 
flattens out. Nonlinear relationships and threshold phenomena in 
biology are very common. To say that the relationship ``breaks down'' 
because it is not strictly linear through its entire range is 
speculative. Further, most flow augmentation will occur at background 
flows below 120 kefs. We also provide text discussing how high flows 
(in 1997) were probably detrimental to survival by flushing rearing 
parr out of the system before they were ready and increasing the debris 
load at the dams.
    Our Reply: We believe that the issue of whether the relationship 
``breaks down'' is moot. As discussed in the primary comments on the 
Draft BiOp, further research using multiple regression indicates that 
there is not a statistically-sound relationship between flow and 
survival.

    Our Original Comment: ``. . . the White paper reports an 
investigator's [Connor et al. 1998] conclusions without noting 
fundamental problems with the research.''
    NMFS Response: We reported results from a peer-review[ed] journal 
article and attributed the conclusions about the potential of flow 
augmentation to improve survival to the authors. Disagreements with 
scientific articles are properly addressed by writing a rebuttal 
article, submitting it to the journal for peer review, and having it 
published.
    Our Reply: The purpose of the White Paper is to recommend policies 
for NMFS to use for management of the Columbia River ecosystem. The 
White Paper was obviously heavily relied upon in drafting the BiOp. To 
cite Connor et al. without comment or qualification suggests that the 
authors and NMFS endorse the conclusions. Simply because something 
survives peer review is no guarantee that it is relevant, accurate or 
sound. NMFS has a duty to critically examine all data submitted to it, 
to examine it for methodological flaws that might bias its outcome 
rather than to accept every published article. Surely NMFS does not 
suggest that it will automatically reject every disagreement with a 
scientific article that is not peer reviewed or published in a journal? 
Or, on the other hand, automatically accept any scientific article that 
is peer reviewed and published in a journal?
                                 ______
                                 
Attachment 2: Excerpt From BOR-Twin Falls Canal Company Contract United 
  States Department of Interior, Bureau of Reclamation, Minidoka and 
   Palisades Projects, Idaho--Contract With Twin Falls Canal Company 
                       (Contract No. 14-06-W-60)
 re: concerning storage capacity in american falls, jackson lake, and 
               palisades reservoirs, and related matters
    THIS CONTRACT, Made this 13th day of May 1954, pursuant to the 
Federal Reclamation Laws, between THE UNITED STATES OF AMERICA 
(hereinafter called the United States), acting through the Assistant 
Secretary of the Interior, and TWIN FALLS CANAL COMPANY (herein after 
called the Company), a corporation organized and existing under the 
laws of the State of Idaho and having its principal place of business 
at Twin Falls, Idaho,
    Witnesseth, That:
    2. WHEREAS, the United States, under the Federal Reclamation Laws, 
has heretofore constructed and is now operating Jackson Lake, Island 
Park, American Falls, and Lake Walcott reservoirs, among others, and is 
now constructing Palisades Dam and Reservoir Project (herein called the 
Palisades project);
    3. WHEREAS, the Company desires to cooperate with the United States 
and the various other water users organizations that enter into like 
contracts in the water conservation program that will be made possible 
with the construction of Palisades Reservoir and its operation in 
conjunction with the construction of Palisades Reservoir and its 
operation in conjunction with other Federal reservoirs on the Snake 
River, as herein proposed; and
    4. WHEREAS, the United States, the Company, and the Kuhn Irrigation 
and Canal Company have heretofore entered into a contract dated 
February 25, 1913 (Symbol and No. I1r-494) with respect to storage 
rights in Jackson Lake Reservoir (hereinafter called the contract of 
February 25, 1913, Symbol and No. I1r-494);
    NOW, THEREFORE, in consideration of the mutual and dependent 
covenants hereinafter stated, it is hereby agreed between the parties 
hereto as follows:
                              definitions
    5. The following terms, wherever used in this contract, shall have 
the following respective meanings:
      ``Secretary'' shall mean the Secretary of the Interior or his 
duly authorized representative.
    ``Federal Reclamation Laws'' shall mean the Act of June 17, 1902 
(32 Stat. 388) and acts amendatory thereof or supplemental thereto, 
including the Act of September 30, 1950 (64 Stat. 1083).
    ``Advisory Committee'' shall mean the committee defined by article 
29 of this contract or its duly authorized representative.
    ``Irrigation season'' shall mean a period of each year beginning 
April 1 and ending October 31 of that year.
    ``Storage season'' shall mean, with respect to the reservoir 
involved, the period beginning October 1 of one year and ending during 
the next year when, as to the particular reservoir, no more water is 
available for storage.
    ``Reservoir system'' shall mean the existing and authorized Federal 
reclamation reservoirs on the Snake River and its tributaries down to 
and including Lake Walcott.
    ``Upper valley'' shall mean the irrigated areas of the Snake River 
Basin that are served by canals diverting from the Snake River and its 
tributaries above American Falls Dam.
    ``Lower valley'' shall mean the irrigated areas of the Snake River 
Basin that are served by canals diverting from the Snake River and its 
tributaries between American Falls Dam and Milner Dam.
    ``Watermaster'' shall mean the officer of the State of Idaho 
charged by law with the distribution of Snake River water in the lower 
and upper valleys, or such other officer properly authorized by law and 
designated by mutual agreement of the Secretary and the Advisory 
Committee.

  Provisions Relating to Storage Capacity in American Falls Reservoir 
                         (Articles 6 through 8)

    status of company's rights under prior american falls reservoir 
                           district contract
    6. Lands lying under the canals of the Company are entitled to 
receive water under rights created by the contract between the United 
States and the American Falls Reservoir District, dated June 15, 1923, 
as amended (Symbol and No. I1r-168), but neither that contract nor any 
rights or obligations thereunder is intended to be altered in any 
respect by this contract.
         adjustment for company's share of net leasing revenues
    7. (a) Of the net leasing revenues creditable to the 315,000 acre-
feet of reserved American Falls space, as of December 31, 1951, 
determined by the Secretary in accordance with the provisions of 
section 3 of the Act of September 30, 1950, seventy-three thousand 
seven hundred seventy-three dollars and fourteen cents ($73,773.14) 
would have been available to the Company for application on the 
construction charge obligation for American Falls reserved space which 
the Company might have acquired. In consideration of the fact that no 
such reserved space is being made available to the Company by this 
contract, the Company's share of the credit being applied against the 
construction charge obligation of the reserved space made available to 
others purchasing such space, each entity so purchasing shall be 
required, as a condition to such purchase, to contract to pay to the 
United States an amount equal to its share of the Company's credit 
which accrues to it.
    (b) The amounts received by the United States shall be paid to the 
Company, to the extent authority therefore is available, not less often 
than once each year, or shall be credited once each year on obligations 
then due or thereafter next to become due from the Company to the 
United States in connection with the reservoir system, but no liability 
shall . . . which provision for payment for the Company's share is made 
elsewhere in this contract. The amount apportioned to American Falls 
Reservoir shall be distributed equally over all space available for 
irrigation storage, excluding the lower valley exchanged space but 
including in lieu thereof the upper valley exchanged space in Jackson 
Lake Reservoir.
    (f) If the owners of any storage rights to benefit from the 
operation of this article fail to obligate themselves for their share 
of the annual payments for power replacement hereunder, the saved water 
creditable to such rights and the power replacement costs chargeable 
thereto shall be redistributed according to a formula to be agreed on 
in writing between the Advisory Committee and the Secretary. Such 
formula shall, however, be as nearly consistent as practicable with the 
formula that would control but for such redistribution.

Provisions of General Application to All Rights Established or Defined 
                by This Contract (Article 14 through 37)

 temporary storage and exchange of water; release of jackson lake and 
                  palisades water for power production
    14. (a) It is the purpose of the United States and the water users 
having storage rights in the reservoir system (including the Company) 
to have the reservoir system so operated as to effect the greatest 
practicable conservation of water. In keeping with this purpose, the 
endeavor will be to hold stored water in reservoir system space that is 
farthest upstream. Water in storage in any of the reservoirs of the 
system may, however, when the watermaster and the Advisory Committee 
determine this to be in the interest of water conservation, be held 
temporarily in unoccupied space in any other reservoir of the system. 
And the Company hereby consents to the making, with the approval of the 
watermaster, of annual exchanges of stored water among the various 
reservoirs of the system. No such temporary holding of water or such 
annual exchanges shall, however, deprive any entity of water accruing 
to space held for its benefit.
    (b) During any storage season, the United States, after 
consultation with the Advisory Committee, may release stored water from 
Jackson Lake reservoir for the maintenance of power production at 
Palisades dam powerplant and may store such water, as Jackson Lake 
water, in American Falls Reservoir. The release of such water will be 
confined, however, in storage seasons when it appears that American 
Falls, Palisades, and Jackson Lake reservoirs will fail to fill, to 
water required for the maintenance of a minimum firm power production 
(estimated to be about 11,000,000 kilowatt-hours per month at an 
average production of 15,000 kilowatts) and which can be stored in 
American Falls Reservoir; and no such release shall be made that will 
preclude the later delivery of water, by exchange or otherwise, to the 
upper valley entities entitled thereto.
                     rental of water; sale of space
    15. (a) The Company may rent stored water which has accrued to its 
credit in any reservoir of the system, but such rentals shall be for 
only one year at a time and at rates to be approved in advance by the 
Secretary and the Advisory Committee. Rates shall not exceed the annual 
costs under the Company's obligations to the United States which are 
properly . . . .
                                 ______
                                 
                 Attachment 3: Resumes of Contributors
                           James J. Anderson
    Columbia Basin Research; 1325-4th Ave., Suite 1820, Seattle, WA 
98101; Phone: 206-543-4772; Fax: 206-616-7452; Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1112163b181909550c1a081312151c0f1415551e1f0e">[email&#160;protected]</a>; Web: http//www.cbr.washington.edu/
<difference>jim

Appointment

    Associate Professor (WOT), School of Fisheries, College of Ocean 
and Fisheries Sciences, University of Washington, Seattle, Washington 
98195; Director, Columbia Basin Research, Columbia Basin Research, 
1325-4th Ave., Suite 1820, Seattle, WA 98101

Previous Appointments

    Research Associate Professor, College of Ocean and Fishery 
Sciences. UW (1987-91)
    Research Assistant Professor, College of Ocean and Fishery 
Sciences, UW (1983-87)
    Research Associate, College of Ocean and Fishery Sciences, UW 
(1981-1982)
    Visiting Scientist, Dept. of Biophysics, University of Kyoto, Japan 
(1981)
    Visiting Scientist, National Institute of Oceanology, Ambon, 
Indonesia (1980-1983)
    Visiting Scientist, Institute of Oceanographic Sciences, Wormley, 
England (1980)
    Adjunct Assistant Professor, Marine Sciences Research Center, State 
Univ. of New York (1977-1980)
    Principal Oceanographer, Fisheries Research Institute, UW (1979-80)
    Oceanographer Dept. of Oceanography, University of Washington 
(1969-1979)

Research Interest

    Biomathematics ecology, fisheries, oceanography, toxicology, fish 
protection at power plants, fish passage and life cycle modeling, 
animal and human behavior, decision processes, ecosystem modeling, 
fisheries decision support models for fish/hydropower interaction.

Recent Research

    Hydro Project: Developing computer for management of Columbia River 
hydroelectric and fisheries agencies. The work involves building models 
and analyzing data on the migration and survival of salmon through the 
Columbia River system (CRiSPI) and the harvest of fish in the ocean and 
rivers (CRiSP2). The projects maintains computer models and data base 
information accessible through the World Wide Web. The model are being 
used to assess management strategies for hydrosystem operations and 
fisheries management.
    Model development has involved original work on fish migration and 
survival. A number of student thesis and dissertations have been 
developed through the project including a dissertation on fish 
migration (Zabel 1994). a dissertation on fitness in salmon life 
history strategies (Hinrichsen 1994), a thesis of optimum strategies 
for salmon (Beer 1996), effect of ocean conditions on early ocean 
survival of chinook salmon (Hyun 1996).
    The model incorporates upstream adult migration, nearshore and 
estuary affects on juvenile salmon survival, and improved modeling of 
the impact of supersaturation on fish survival.
    PATH Project: Participation in Plan for Analyzing and Testing 
Hypotheses (PATH) to evaluate the Snake River endangered species 
recovery plans.
    DART Project: Providing public data integration to the public for 
more effective access, consideration, and application as well as 
participating in a regional information review and making 
recommendations to BPA.
    U.S. Army Corps of Engineers Project: Developing analysis and 
computer models for the impact of gas bubble disease on migrating 
salmon. Analyzing the impact of reservoir drawdown on passage and 
survival of adult and juvenile salmon.
    National Marine Fisheries Service Project: Under this project a 
general fisheries lifecycle harvest model is being developed. It is 
anticipated that this model will be the foundation of salmon and 
possibly ground fish management models in the next decade. The model 
will be used in the salmon co-management activities and in evaluating 
impacts of human activities on endangered species.

Professional Memberships

    <bullet> Sigma Xi
    <bullet> American Fisheries Society
    <bullet> Resource Modeling Association

Workshop and Conference Organization Activities

    Organization committee for the Bonneville Power Administration 
Predator/Prey Workshop, Friday Harbor Laboratories, May 1989.
    Coordinator of the Bonneville Power Administration Survival 
Workshop, Friday Harbor Laboratories, Feb. 1989.
    Session chairperson at the Conference on Fish Protection at Stream 
and Hydro-Power Plants Sponsored by Electric Power Research Institute, 
Oct. 1987.
    Coordinator for Ecological Risk Assessment Workshop University of 
Washington, July 1987.
    Session chairperson at the Saanich Inlet workshop, Sydney British 
Columbia, Feb. 1983.

Public Service

    Toured Tri-Cities, Walla Walla and Yakima with President Richard 
McCormick, 1998.
    Provided analysis and advice to the Snake River Endangered Species 
Recovery Team, 1995.
    Associate Editor North American Journal of Fisheries Management, 
1989-1990.
    University of Washington, Saturday Alumni Lectures, Autumn 1989.
    Puget Sound water quality planning committee, ad hoc committee on 
nutrient studies, Mar. 1987.
    University Task Force on Salmon and the Columbia River System--
represent the UW in a group of faculty from the University of Idaho, 
Oregon State University, Washington State University and University of 
Washington with interests and expertise relating to the Columbia River 
system.
    <bullet> Ravenna Creek Feasibility Study--joined with 
representatives of neighborhoods adjacent to Ravenna Creek and members 
of the Department of Landscape Architecture to consider the possibility 
of daylighting the creek from its source to Portage Bay and possible 
restoration of its salmon run.
    <bullet> Provide testimony on salmon restoration at 19 hearing 
including U.S. Senate and House subcommittees and State (Oregon, Idaho, 
Washington) committees between 1995 and 2000.

Reviewer

    <bullet> EPA Environmental Biology Review Panel
    <bullet> NSF Biological Oceanography, Physiological Processes
    <bullet> U.S. Geological Survey
    <bullet> Natural Environmental Research Council, Great Britain
    <bullet> EPA Cooperative research programs
    <bullet> NSF Psychobiology
    <bullet> Research and Evaluation Associates, Inc.
    <bullet> Bonneville Power Administration to technical work group
    <bullet> NSF Physiological Process section
    <bullet> Oregon Coastal Salmon Restoration Initiative
    <bullet> NMFS Endangered Species Act review process for permit 
applications
    <bullet> Various Scientific Journals

Expert Witness

    Federal Energy Regulatory Commission Court--certified as a 
fisheries expert on issues of fish migration and dam passage

Honors and Awards

    College of Ocean and Fishery Sciences Distinguished Research Award 
1996
    Research is included in the UW publication Pathbreakers: A century 
of Excellence in Science and Technology at the University of Washington 
(1997)
    Nomination for Computerworld Smithsonian Awards in programming for 
the CRiSP computer model, 1993
    Special Recognition for participation in the U.S. Fish and Wildlife 
Service Fish Passageways and Division Structures course in 1990
    Research Faculty Fellowship, College of Ocean and Fishery Sciences 
1989
    Research Faculty Fellowship, College of Ocean and Fishery Sciences 
1985

Selected Publications

    Norris, J.S. Hyun, J.J. Anderson (in press) Ocean Distribution of 
Columbia River Upriver Bright Fall Chinook Salmon Stocks.
    Steel, E.A., P. Guttorp, J.J. Anderson and D.C. Caccia. (In press). 
Modeling juvenile migration using a simple Markov chain. Journal of 
Agricultural, Biological and Environmental statistics.
    Anderson, J.J. 2000. A vitality-based model relating stressors and 
environmental properties to organism survival. Ecological Monographs 
70(3) 117-142.
    Anderson, J.J. 2000. Decadal climate cycles and declining Columbia 
River salmon. In Proceedings of the Sustainable Fisheries Conference, 
Victoria, B.C., ed. E. Knudsen. American Fisheries Society Special 
publication no. 2x. Bethesda, MD. 467-484.
    Helu, S.L., J.J. Anderson, D.B. Sampson. 1999. An individual-based 
fishery model and assessing fishery stability. Natural Resource 
Modeling. 12(2) 213-247.
    Zabel, R.W., J.J. Anderson, and P.A. Shaw. 1998. A multiple reach 
model describing the migratory behavior of Snake River yearling chinook 
salmon (Oncorhynchus tshawytscha). Canadian Journal of Fisheries and 
Aquatic Sciences: 55:658-667.
    Beer, W.N. and Anderson, J.J. 1997. Modelling the growth of 
salmonid embryos. J. Theor. Biol. 189, 297-306.
    Zabel, R. and J.J. Anderson. 1997. A model of the travel time of 
migrating juvenile salmon, with an application to Snake River spring 
chinook salmon. North American Journal of Fisheries Management, 17:93-
100.
    Anderson, J.J. 1996. Review of the influence of climate on salmon. 
In Plan for Analyzing and Testing Hypotheses (PATH): Final report on 
retrospective analyses for fiscal year 1996. Compiled and edited by 
ESSA Technologies Ltd., Vancouver, B.C.
    Nemeth, R. and J.J. Anderson, 1993. Response of juvenile salmon to 
light. North American Journal of Fisheries Management. 12:684-692.
    Anderson, J.J. 1992. A vitality-based stochastic model for organism 
survival. In Individual-Based Models and Approaches in Ecology: 
Populations, Communities and Ecosystems. Editors DeAngelis and Gross. 
Chapman Hall, New York. p. 256-277.
    Anderson, J.J. 1991. Fish Bypass System Mathematical Models. 
WATERPOWER 91, Proceedings of the International Conference on 
Hydropower. July 24-26, 1991 in Denver, Colorado.
    Ostrander, G.K., J.J. Anderson, J.P. Fisher, M.L. Landolt and R.M. 
Kocan. 1990. Decreased performance of rainbow trout emergence behaviors 
following exposure to benzo(a)pyrene. Fishery Bull. 88:51-55.
    Anderson, J.J. 1988. Diverting migrating fish past turbines. The 
Northwest Environmental Journal 4:109-128.
    Anderson, J.J. 1988. A neural model for visual activation of 
startle behavior in fish. Journal of Theoretical Biology. 131:289-305.
    Anderson, J.J. and A.H. Devol. 1987. The extent and intensity of 
the anoxic zone of basins and fords. Deep-Sea Research 34:927-944.
                                 ______
                                 
                            Craig L. Sommers
Water Resource Specialist

    Craig is president of ERO Resources Corporation with over 20 years 
of consulting experience in land and water resources planning and 
evaluation. He serves as manager and lead scientist or economist on a 
wide variety of projects.
    Some of Craig's experience includes: technical coordination in 
complex litigation, water rights and water resource evaluations, 
resource economics, soil surveys, arable land classification, land use 
planning, and agronomy.

Education

    M.S., 1977, Agricultural Economics (Emphasis in Water Resources), 
University of California, Davis
    B.S., 1976, Soil & Water Science, University of California, Davis

Representative Projects

Water Resources and Rights
    Gila River and Little Colorado River Adjudications, Salt River 
Project, Arizona--Technical advisor, overall coordination of staff and 
consultant efforts, water rights and economic analysis, member of 
negotiation team.
    Snake River Basin, Idaho Water Users--Evaluation of USBR water 
right transfer applications; technical input to negotiations; soil, 
arable land, hydrologic and economic evaluation of Indian and Federal 
claims.
    Big Horn River Adjudication, State of Wyoming--Expert witness in 
soils, arable lands and agronomy, land use and land ownership 
evaluations, technical assistance in post-trial pleadings, State water 
right analysis.
    San Juan River Adjudication, State of New Mexico--Overall 
coordination and evaluation of State, Federal and Indian water rights.
    Yakima River Adjudication, Yakima River Coalition, Washington--
Technical coordination, water right analysis, and economic evaluations.
    Appraisals of water rights for clients in Arizona, Colorado, New 
Mexico, and Idaho.
Threatened and Endangered Species
    Snake/Columbia River Basins, Idaho Water Users--Economic and 
hydrologic analyses of critical habitat designations, agency decision 
documents, and recovery plans for threatened and endangered salmon and 
steelhead stocks.
    Rio Grande River, New Mexico State Engineer's Office--Economic 
analysis of critical habitat designation for the Rio Grande silvery 
minnow.
Environmental Impact & Assessment Permitting
    Soil, vegetation, wildlife, erosion control, economics water 
quality or hydrology input to environmental impact statements and 
environmental assessments for Denver Water Department, city of Thornton 
city of Aurora, city of Boulder, U.S. Forest Service, Winter Park Ski 
Area, Western Fuels Association and the Salt River Project in Colorado, 
Utah, Wyoming and Arizona.
Natural Resources
    Soil surveys for the mining industry and Federal agencies (BIA, BLM 
and Forest Service) in California, Colorado, Wyoming, New Mexico and 
Montana.
    Reclamation and Mine Plans in Wyoming, Utah and Colorado for UNC 
Mining and Milling Services, Inc., NERCO, Amoco Minerals (Cyprus 
Mines), Western Fuels Association, Tennessee Valley Authority and 
Geokinetics.
                                 ______
                                 
                             David B. Shaw

Project Manager

    Dave is an engineer who manages the Boise office for ERO Resources. 
His experience in water resources and management dates from 1974. He 
specializes in the identification, analysis, and resolution of water 
issues including coordination with other professionals in multi-
disciplinary projects. Dave specializes in the following: surface and 
ground water supply and use studies, water rights evaluations, project 
management, alternative dispute resolution, expert witness testimony, 
and technical input on legislative and administrative matters.

Education

    B.S. 1966, Agricultural Engineering, University of Idaho
    M.S. 1972, Agricultural Engineering, University of Idaho

Project Experience

Water Resources
    Snake River Basin Adjudication (SRBA), ID--Program manager for 
identification and evaluation of 170,000 claims to water rights.
    Shoshone-Bannock Reserved Water Right Negotiation, ID--Co-chair of 
the State, Indian, Federal and private technical advisory committee.
    First Water Distribution Rules Developed and Adopted in Idaho, Big 
Lost River Basin, ID--Team leader.
    Water Right Adjudications, ID--Designated by the SRBA court as an 
expert in water right adjudications.
    Department of Water Resources, Southwest Idaho-Western Region 
Manager.
    Department of Water Resources, Boise, ID--Technical Support Section 
Manager.
    Ground Water Recharge Water Right Approval, Big Lost River Basin, 
ID--Water Resource Negotiation/Expert.
    Water Quality Analysis for Water Users, Southwest ID--Project 
design, implementation and management.
    Evaluate Interaction of Canals on Ground Water, and Surface Water, 
Methow Valley, WA--Analysis of ground water/surface water supply.
    Evaluate Impact of Proposed Water Right Transfer on Irrigation 
District Water Supply, Boise River, ID--Identify and quantify changes 
to ground and surface water supply if transfer were approved.
                                 ______
                                 
                         Richard A. Hinrichsen
Education

    A.A.S., Music, 1982, Edmonds Community College
    B.S., Mathematics, 1985, Central Washington University
    M.S., Mathematical Sciences, 1987, Clemson University
    Ph.D., Quantitative Ecology & Resource Management, 1994, University 
of Washington

Societies and Associations

    American Fisheries Society
    American Association for the Advancement of Science
    The Shad Foundation, President

Presentations and Posters

    Hinrichsen, R.A. 2000. The fight against variability: Are salmon 
and experimental management losing? 2000 Annual General Meeting. North 
Pacific International Chapter of the American Fisheries Society, Mt. 
Vernon, Washington, April 10-12.
    Hinrichsen, R.A. and C.C. Ebbesmeyer. 1997. Epic shad invasions of 
the Columbia River from the 1870's onward. Resource Modeling 
Conference, University of Washington, Seattle, Washington, June 18.
    Hinrichsen, R.A. and J.J. Anderson. 1994. Understanding the 
migratory behavior of juvenile chinook salmon (Oncorhynchus 
tshawytscha). contributed poster. Pacific Salmon & Their Ecosystems: 
Status & Future Options. Seattle, Washington, USA.
    Hinrichsen, R.A. 1993. Optimal upstream migration timing of chinook 
salmon (Oncorhynchus tshawytscha). Contributed paper. 1993 ESA annual 
meeting. Madison, Wisconsin. USA.
    Hinrichsen, R.A. 1992. Optimal feeding and migration 
characteristics of ocean-type chinook salmon (Oncorhynchus 
tshawytscha). Contributed paper. 1992 ESA annual meeting. Honolulu. 
Hawaii, USA.

Technical Reports and Papers

    Hinrichsen, R.A. 2000. Are there scientific criteria for putting 
short-term conservation ahead of learning No. Response to Kai N. Lee 
1999: ``Appraising Adaptive Management''. Conservation Ecology 4(1): 
r7. [online] URL:http://www.consecol.org/vol4/iss1/resp7.
    PATH, 2000. Preliminary Evaluation of the Learning Opportunities 
and Biological Consequences of Monitoring and Experimental Management 
Actions. Prepared by ESSA Technologies Ltd., Vancouver, BC, 150 pp.
    PATH, 1999. Scoping of candidate research, monitoring and 
experimental management actions: concurrently reducing key 
uncertainties and recovering stocks. Working draft prepared by ESSA 
Technologies Ltd., Vancouver, BC. 232 pp.
    Ingraham, W.J., C.C. Ebbesmeyer, and R.A. Hinrichsen. 1998. 
Imminent climate and circulation shift in Northeast Pacific Ocean could 
have major impact on marine resources. EOS Volume 79(6). page 197.
                                 ______
                                 
                           William J. McNeil
Professor of Fisheries (Retired) and Fisheries Consultant

    Oregon State University, Hatfield Marine Science Center, Newport, 
OR 97365; (503) 867-0100, 1066 Westfarthing NW, Salem, OR 97304; (503) 
362-9134; FAX (503) 362-0365

Education

    B.S. in fisheries, Oregon State University (1952); M.S. in 
fisheries, Oregon State University (1956); Ph.D. in fisheries, 
University of Washington (1962)

Employment

    Self-employed consultant resent;
    Professor, Coastal Oregon Marine Experiment Station (1990-1995);
    Professor of Fisheries and Director, Cooperative Institute for 
Marine Resources Studies, Oregon State University (1985-1990);
    General Manager, Oregon AquaFoods, Inc., Weyerhaeuser Co. (1976-
1985);
    Program Manager, Alaska Salmon Investigations, National Marine 
Fisheries Service (1972-1976);
    Associate Professor Fisheries, Oregon State University (1966-1972);
    Supervisory Fishery Research Biologist, U.S. Bureau of Commercial 
Fisheries (1962-1966);
    Research Associate, Fisheries Research Institute, University of 
Washington (1956-1962)

Professional Recognition

Lectures

    Norwegian Society for Aquaculture Research and Directorate for 
Nature Management (Norway) (1990);
    Washington State University (1988); Institution Profesional de 
Osomo (Chile) (1987);
    Lewis and Clark College (1985, 1987, and 1989);
    University of Oregon (1980-1984);
    Portland State University (1983);
    Willamette University (1983);
    TINRO (USSR) (1976. 1978, and 1990);
    University of Alaska (1974-1976 and 1989).
Symposia
    Keynote Speaker, Fisheries Bioengineering Symposium (1988);
    Convenor, World Salmonid Conference (1986):
    Keynote Speaker, Salmonid Reproduction Symposium (1983);
    Convener, Panel on Ranching, World Mariculture Society (1982);
    Convener, Symposium on Salmonid Ecosystems of the North Pacific 
(1978);
    Steering Committee, North Pacific Aquaculture Symposium (1980); 
Steering Committee, World Technical Conference on Aquaculture (1976);
    Convener, Conference on Marine Aquaculture (1968).

Advisory and Executive Committees and Societies

    Scientific Advisory Committee for Prince William Sound (Alaska) 
Ecological Research Center (1989-present);
    Secretary, Oregon Governor's Salmon Advisory Committee (1981-1986);
    Advisor, Alaska Department of Commerce (1984 and 1985);
    Member, Bonneville Power Admin. Research Review Panels (1985 and 
1989);
    Member, N.W. Power Planning Council Committee on Genetics Policies 
(1989);
    President, Oregon Chapter American Fisheries Society (1982 and 
1983);
    Executive Committee, National Sea Grant Assoc. (1980-1983);
    Chairman, Governor's Alaska Fisheries Council (1975-1978).
    Chairman, Fisheries Technical Advisory Committee, Sheldon Jackson 
College (1974-1977);
    Advisor, National Academy of Sciences Committee on Aquaculture 
(1977);
    Fellow, American Institute of Fisheries Research Biologists (since 
1972).


                               Consulting
------------------------------------------------------------------------
             Client                      Years               Topic
------------------------------------------------------------------------
Washington Water Power..........  1992-1994.........  Dams and salmon in
                                                       Clearwater River,
                                                       ID
Direct Service Industries.......  Since 1989........  Endangered Species
                                                       Act and salmon in
                                                       the Coumbia Basin
Yakima River Basin Coalition....  Since 1989........  Irrigation and
                                                       salmon in Yakima
                                                       River, WA
Grant County PUD................  1989-1992.........  Passage of
                                                       juvenile salmon
                                                       at two mid-
                                                       Columbia River
                                                       dams
Oregon Forest Industries Council  1991-1992.........  Forestry and
                                                       salmon in the
                                                       Pacific Northwest
Oregon Coastal Zone Management    Since 1990........  Restoration plan
 Assoc.                                                for Tillamook
                                                       Bay, OR
Prince William Sound Aquaculture  1989-1990.........  Impact of Exxon
 Corp.                                                 Valdez oil spill
                                                       on hatchery
                                                       salmon
Pope Resources..................  1988-1989.........  Evaluation of Hood
                                                       Canal/Fort Ludlow
                                                       properties for
                                                       aquaculture
------------------------------------------------------------------------


Publications

    Approximately 80 published reports on subjects related to 
salmonids. The most recent publications are listed below:
    McNeil, William J. 1984. Salmon ranching: a growing industry in the 
North Pacific. Oceanus 27 (1): 27-31.
    McNeil, William J. 1985. Pink and chum salmon supply and outlook. 
Proceedings of the 1984 Pink and Chum Salmon Workshop, p. 186-190. 
Oceans and Fisheries, Canada.
    McNeil, William J. and R.F. Severson. 1985. Impacts of ocean 
fisheries on natural and ranched stocks of Icelandic salmon. Fish 
Farming Symposium, Reykjavik, Iceland.
    McNeil, William J. 1985. Comments on north Pacific fisheries Delphi 
project. In J. Yuska and N. Ridlington (editors). Seafood Quality and 
Product Form. Oregon Sea Grant ORESU-IN-85-004, p. 3-8.
    McNeil, William J. 1987. Offshore transport and release of salmon 
smolts. Bonneville Power Administration Smolt Workshop, Kahneetah, 
Oregon.
    McNeil, William J. (editor). 1988. Salmon Production, Management, 
and Allocation. Oregon State University Press, Corvallis, 194 pp.
    McNeil, William J. 1988. Mariculture: an aid or hindrance to 
management. Trans. 53rd N.A. Wildl. & Nat. Res. Conf., p. 569-576.
    McNeil, William J. 1989. Book review of Salmon and Trout Farming. 
Fisheries. 14:57-58.
    Kreeger, K, and W.J. McNeil. 1989. Estuarine dependence of juvenile 
chinook as it relates to salmon ranching. Northwest Environ. Jour. 5: 
165-167.
    McNeil, William J. 1989. Aquaculture and salmon ranching. In C.L. 
Smith (editor). Ocean Agenda 21. Oregon Sea Grant ORESU-B-89-001, p. 
52-55.
    McNeil, William J. In press. Future of salmon aquaculture. American 
Fisheries Society Symposium 10: 12-18.
    McNeil, W.J., R. Gowan. and R. Severson. 1991. Offshore release of 
salmon smolts. American Fisheries Society. 10; 548-553.
    McNeil, William J. 1991. Expansion of cultured Pacific salmon into 
marine ecosystems. Aquaculture. 98: 172-183.
    McNeil, William J. 1991. Sea ranching of coho salmon (Oncorhynchus 
kisutch) in Oregon. pp. 1-10. In N. Pedersen and E. Kjorsvik (eds). Sea 
Ranching--Scientific Experiences and Challenges. Proceedings from the 
Symposium and Workshop on Sea Ranching. Norwegian Society for 
Aquaculture Research 21-23 October 1990, Bergen, Norway.
    McNeil, W.J. 1995. Water velocity and migration of juvenile Salmon: 
Is faster necessarily better? Hydro Review 14(2): April 1995.
    Ebbesmeyer, C.C. and R.A. Hinrichsen. 1997. The Oceanography of the 
Pacific Shad Invasion. The Shad Journal. Volume 2(1): pages 4-8.
    Ebbesmeyer, C.C., R.A. Hinrichsen, and W.J. Ingraham. 1996. Spring 
and Fall wind transitions along the West coast of North America, 1900-
1994. Presented at the PICES meeting, Nanaimo, British Columbia, 18 
October 1996.
    Hinrichsen, R.A. 1994. Optimization models for understanding 
migration behavior of juvenile chinook salmon. Ph.D. dissertation. 
University of Washington. Seattle, WA. USA.
    Hinrichsen, R.A., T. Frever, J.J. Anderson, G. Swartzman and B. 
Sherer. 1991. Columbia River Salmon Passage (CRiSP) Model. 
Documentation for CRiSP.0. Center For Quantitative Science, University 
of Washington, Seattle, WA.
    Hinrichsen, R.A. 1987. The Leslie model with harvesting. Master's 
thesis. Clemson University. Clemson, S.C. USA. 29p.

 
COLUMBIA RIVER POWER SYSTEM: BIOLOGICAL OPINION AND THE DRAFT BASINWIDE 
                        SALMON RECOVERY STRATEGY

                              ----------                              


                       MONDAY, NOVEMBER 20, 2000

                                       U.S. Senate,
               Committee on Environment and Public Works,  
            Subcommittee on Fisheries, Wildlife, and Water,
                                                         Boise, ID.
    The subcommittee met, pursuant to recess, at 10 a.m., in 
the Boise City Council Chambers, 150 N. Capitol Boulevard, 
Boise, Idaho, Hon. Michael Crapo (chairman of the subcommittee) 
presiding.
    Present: Senator Crapo.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Good morning. We're ready to begin. The 
hearing will come to order. This is the third hearing in a 
series of hearings that the Committee on Environment and Public 
Works has been holding--the Subcommittee on Fisheries, 
Wildlife, and Water, has been holding with regard to the draft 
biological opinion on the Federal Columbia River Power System 
and the Federal Caucus Draft Basinwide Salmon Recovery 
Strategy.
    I would like to thank everyone for being in attendance here 
at this hearing. The first two hearings were held on September 
13 and 14 of this year, when we held 2 days of hearings in 
Washington, DC, to examine various aspects of the draft 
biological opinion.
    Today's hearing will complete our current review of these 
Federal documents and afford those interests who will be 
affected by these plans and those who were unable to attend the 
hearing in Washington, DC, the opportunity to have their 
comments on the official Senate record.
    Most of you who are here today were not able to be in 
Washington, DC, in September, and I want to take a little bit 
of an extended opportunity right now to review where I think we 
are and what we heard.
    Despite several decades of work and cost to the taxpayers 
and rate payers of an estimated $3 billion, the Pacific 
Northwest salmon and steelhead continue to decline to the point 
where they soon may become extinct. We must not allow that 
extinction to happen and must proceed quickly with a consensus 
present for action for recovery.
    I must repeat my own position, that I see no evidence that 
flow augmentation will recover anadromous fish, and I will not 
support any flow augmentation other than that agreed to by the 
State of Idaho, if any. The extensive political opposition to 
breaching the four Lower Snake dams means that such 
recommendation would put the region into an economic and 
political gridlock in such a way that it would prohibit further 
efforts to make reasonable efforts to save the salmon.
    The Federal Caucus, a group of Federal agencies led by the 
National Marine Fisheries Service and the Northwest Power 
Planning Council, has produced their draft plans, and most 
significantly, the Governors of the four States in the Pacific 
Northwest Idaho, Montana, Washington, and Oregon--have released 
a series of recommendations that outline the process the 
Governors feel must be followed to achieve anadromous fish 
recovery.
    Let me note here the contrast and the openness, the 
transparency, and the real collaboration that characterize the 
process used by the four Governors and their staff in preparing 
their recommendations. The four Governors have done a good job 
in identifying both the proper focus on where the real problems 
lie and the real balance among various solutions that are 
available.
    The Federal Caucus would have done well to have followed 
the same type of process. Instead, I had to file a Freedom of 
Information request to find out what the Federal Caucus was 
doing. I even then faced opposition in full disclosure, and 
many others in the region still feel that they do not have and 
have not had the opportunity to have real collaborative input 
into the Federal decisionmaking process.
    The primary purpose of this subcommittee's hearing here is 
to examine the science used to develop the draft biological 
opinion and the draft recovery strategy.
    Let me describe the role of science as I see it. Science, 
economy, and culture will all be partners in recovering these 
wild anadromous fish. But recovery must be based in science, 
and we must get the science right. We must not fear good, 
accurate science.
    Some worry about where good, accurate science may lead us 
and as a result may try to manipulate scientific processes or 
mischar-
acterize scientific hypotheses and conclusions. Such activity, 
in my opinion, is a disservice and it can only bring further 
gridlock and more severe penalties to the Pacific Northwest. I 
urge people from all perspectives to insist on good science and 
be willing to recognize it when we find it.
    The approach I prefer is to understand the good science and 
then let the people and the policymakers use that science to 
craft a recovery plan that gives the economic and cultural 
partners the trust they need to be advocates and participants 
in the recovery.
    The imposition of bad process and bad science will result 
in distrust and retreat into self-interest. Such a tragic path 
backward will have severe penalties for the Pacific Northwest 
and ultimately result in the loss of these incredible fish.
    There is too much at stake to allow our limited resources 
to be applied to false schemes or solutions. We've got to get 
the science right.
    Specifically, there are those who advocate that the science 
tells us the dams must be removed or that the problem is with 
the hydrosystem. If that is what the science tells us, then we 
have to listen to that science and act in that context, not 
avoid it. That doesn't necessarily mean that the ultimate 
solution would be a decision to breach the dams as we make the 
policy decision to address the cultural and economic 
considerations that are at issue, but it means we must 
recognize that science if it is the true science.
    On the other hand, there are those who say that ocean 
conditions or other circumstances like that are the true 
problem, which we must address in the decline of these salmon 
and steelhead. If that is where the science leads us, then we 
must recognize that science and act accordingly.
    An example would be if someone went to a doctor who had a 
bad heart and they had a perfectly healthy leg. If the doctor 
operated on the leg rather than treating the heart, you would 
not see an improvement in the circumstances.
    I don't support breaching dams, but if the science says 
that it is the dams where the major problem is, then that's 
where we've got to focus our resources and our efforts. That's 
the kind of decision that this region needs to face.
    Everything I just said about dams, as I've said, applies 
exactly to all the other factors, whether it be harvest, 
hatcheries, ocean conditions, or otherwise. We've got to get 
the science right so that the policy decisions can be made 
based on good science.
    If I understand the direction that we appear to be taking 
now as the result of the Federal Caucus action, we have a 
window of time, about 8 to 10 years, to evaluate other options 
and to take other options toward solutions that will recover 
fish before the evaluation of dam breaching is then brought 
back to the table for further consideration. That means we have 
a short window of time in which we must do things right. 
Otherwise, if we continue to spin our wheels or make wrong 
decisions about how to approach recovery, we will in 5, 6, or 8 
years once again be facing the difficult question of whether 
this region must face the breach of the four Lower Snake dams 
to save the fish.
    Currently, there is widespread disagreement around the 
region as to whether the draft BiOp is reflective of the best 
available science. I view this disagreement as having at least 
two parts--the process of developing this science and the 
product resulting from this process. Let me first talk about 
process.
    Our first witness at September's hearing was Idaho's 
Governor Dirk Kempthorne. Governor Kempthorne said, ``Our 
commitment to this goal-restoration of all stocks of Idaho 
salmon is unquestionable. The question before this panel is to 
what extent the Federal agencies will help the States in this 
effort.
    I have long believed that only through a regional 
collaborative effort will there ever be a real chance for 
recovery of anadromous fish in the Pacific Northwest. Only 
through regional cooperation, not dictates by the Federal 
Government, is there a chance to achieve real success. So if I 
had to boil down our advice to the Federal Government of the 
United States of America, I would do it in four words: listen 
to the States. These are the States united in the recovery of 
salmon. We share the same commitment to recovering these 
remarkable species. We've taken the time and made the hard 
choices to reach consensus in the region, and we've created 
this comprehensive road map to recovery.''
    A few minutes later, I asked Governor Kempthorne, ``Do you 
believe that the State of Idaho is at this table, the table of 
deciding and working to develop a plan for the recovery of the 
salmon?''
    Governor Kempthorne's response,

    No, I do not. I believe that the State of Idaho is at the 
table with the other three States, and the State of Idaho has 
joined in a document that we have now submitted to the Federal 
Government. This is a collaborative process, and, again, I have 
sought through different forums, meetings with different 
members of agencies, of different members of the cabinet 
expressing my views, my concerns, but I do not feel that we 
were invited to the Federal table in a collaborative process as 
they developed this BiOp.

    Later on the same day, then NMFS regional administrator, 
Will Stelle, said,

    The opportunity is there for the Northwest to come to terms 
on an agreement, a program that we can put into place and 
implement over the next 5 to 10 years. It is there for us if we 
choose to take it, and I believe in good faith that the Federal 
agencies, States and tribes, if we work hard, we can capture 
that agreement by the end of the year and get on with the 
business with salmon recovery.
    Let me note for the record that my office has repeatedly 
persuaded, cajoled, and even offered to host meetings as part 
of my effort to, as Mr. Stelle said, capture that agreement by 
the end of the year.
    The National Marine Fisheries Service has not accepted my 
offer. In fact, let me quote from the publication Columbia 
Basin Bulletin, November 3, 2000, issue.

    `Our intent is to have it completed and signed by mid-
December,' Brian Brown of NMFS told the Implementation Team 
this week. `With the December 15 deadline, what is not clear to 
me is what degree of additional discussion we'll be able to 
have with the State and tribal managers.' He said NMFS would 
like to meet with the States and tribes, but he promised that 
few changes would be made to the revised BiOp as a result of 
these meetings.

    To me these words have great significance because they not 
only acknowledge the critical lack of collaboration on behalf 
of the Federal Caucus with other key scientists in the Pacific 
Northwest including State, tribal, industry, and environmental 
personnel, but these words also suggest serious flaws in the 
science that drives this draft biological opinion.
    Testimony we received at the September hearing was very 
critical of the science basis for this Federal plan, and even 
former administrator Stelle acknowledged these difficulties. 
Let me quote Mr. Stelle:

    How do we maintain the integrity of the process and at the 
same time open the doors to it so that others have the 
opportunity to critique it and participate in it and to help us 
improve it? It is not a consensus-based exercise. If something 
is not right from a scientific perspective its because 
everybody agrees. Something is right, do it. Something is right 
from a scientific perspective because it measures up through 
the scientific process. The challenge for us, Senator, is to 
pull those two things together. Have we done that well enough? 
No. Are there opportunities to continue to improve that? Yes. I 
would also encourage for your focus not only on this issue. 
This issue is not only an issue between now and December.

    As an aside, let me note that this is exactly with what I'm 
doing and what we are doing here today.
    Let me continue quoting Mr. Stelle, who was referring to 
the cumulative risk initiative, CRI.

    So it is not a static, done product. It is not a static 
thing. It is not a completed product so far as finished, and it 
will continue to evolve and improve as scientists inside and 
outside have the opportunity to critique it, suggest ways to 
improve it. So again, if the State of Idaho's scientific people 
have observations or suggestions about where its flaws may be 
and how to correct those flaws, I believe that the NMFS 
scientists are open to it. It doesn't necessarily mean the NMFS 
scientists will agree, but, absolutely, there should be that 
critical review.

    Then I responded, ``Are you committed to reconvening the 
scientists in the sense to be sure that they have the chance 
now to be collaborative on these matters?''
    Mr. Stelle responded, ``Yes.''
    At this point, let me repeat that my office and others have 
consistently asked for such discussion to take place and have 
offered to host or facilitate any discussion. Yet, it never 
happened. The demonstrated behavior of the Federal Caucus is 
clearly that it is unwilling to engage the other important 
scientists in the region in a serious discussion whose 
objective is to resolve as many differences as possible and 
improve the quality of the science.
    Let me again quote Brian Brown of NMFS in the Columbia 
Basin Bulletin of November 3rd.

    For key issues--those with a large number of comments--NMFS 
will attempt to provide a stand-alone document describing the 
issues and the response. Some of those issues are NMFS' 
population analysis, its jeopardy standard, things like the use 
of CRI or a greater reliance on PATH and the level of risk NMFS 
is willing to accept. Brown expects that the hydro measures and 
their effects will continue to evolve in the BiOp based on the 
comments.

    Basically, then, we have scientists and policymakers in the 
Federal Caucus saying never mind and don't worry about the fact 
that we haven't worked with the States and tribes in the 
Pacific Northwest as we develop the BiOp and trust in the 
Pacific Northwest when we say that we promise to work with you 
later after the policy has been established. My question is why 
should we believe that promise now?
    In the September hearing, there was much discussion about 
whether PATH or CRI is better and what the strengths and 
weaknesses of the two models are, what elements are common in 
both approaches and what are the key differences. Our 
discussion at this hearing will not, of course, be able to 
uncover those answers, but I do believe those answers are out 
there and we'll find them if we look hard enough.
    One of the questions I'll ask our Federal witnesses today 
is what are their plans and commitments to work with the State 
and tribal scientists and other interest groups, industry and 
environmental, in an attempt to get the science right and are 
they willing to do it before this draft biological opinion 
becomes final? Why should we expect this process will be any 
different after the biological opinion becomes final?
    Let me summarize what's at stake in Idaho and the Pacific 
Northwest. Our salmon and steelhead are priceless treasures 
that are probably the best example of how nature works her 
magic and selects the best and the brightest for future 
generations. We must not allow these fish to go extinct. In 
fact, we must recover them to sustainable and fishable 
populations, if we can.
    The economy of the Pacific Northwest is mainly vibrant and 
strong with some important exceptions, particularly in some 
more rural areas that depend on agriculture and natural 
resource industries. We must keep our economy strong and spread 
its strength throughout the region. This economy provides jobs 
for families and tax revenues to support important work, 
particularly the education of our children.
    As I see it, this draft biological opinion could be an 
incremental creeping policy initiative that will not solve the 
problem for fish but instead will steadily erode State and 
tribal sovereignty and diminish the opportunity for industry 
and environmental groups to have an input into the process. 
This document must be improved before it becomes final.
    I urge the Federal Caucus to use the next few months wisely 
to work more collaboratively with the region and to get it 
right. We must accomplish both objectives and cannot allow 
ourselves to be misled by the premise that it has to be one or 
the other. We must not allow the process that developed this 
biological opinion nor the science produced by this process to 
force the region into mistakes, mistakes that could gut the 
region's economy and yet not recover the fish.
    It's my hope and expectation that today's hearing will help 
us improve what has already been a decade-long, torturous, and 
expensive process and make it into a success that will turn the 
Pacific Northwest into a role model for how to recover 
endangered species.
    As I said, this is the third in a set of hearings to 
address the questions of the biological opinion. There are 
those who felt that their position was not adequately 
represented in the first two hearings, and I think that was a 
valid perspective. That's one of the reasons that we are 
holding this hearing here. There are those now here today who 
felt that their perspective was not adequately represented in 
this hearing. I would remind them that their perspectives were 
represented very effectively, I think, in the previous 
hearings. There are those who will continue to believe that 
their perspective has not been represented adequately in any of 
the hearings, and we do face that problem, but we are pursuing 
an effort to try to get as broad a perspective on these issues 
as possible.
    We are going to have three panels today. The first panel 
will be Federal witnesses from Federal agencies. I'd like to 
explain just briefly the process that we would like to follow 
with regard to the panels. We have up here a set of lights. 
Each of the panel members has already been advised that we 
would like to ask them to keep their initial statement to 5 
minutes. That will give us much more time for questions and 
answers and give and take that will help us delve into the 
issues. The written testimony of all of the witnesses has been 
received, has been read and will be reviewed by the other 
members of the panel as well and is made a part of the record.
    Therefore, as the witnesses are testifying, please try to 
keep an eye on the lights. The green light says that you still 
have time. The yellow light will come on when there is 1 minute 
remaining, and when the red light comes on, that means that the 
time has finished, and we ask you at that time to wrap up your 
comments.
    I can tell you that, from past experience, if you're like I 
am, your time will run out long before you finish saying 
everything you have to say. I assure you that there will be 
opportunities in question and answers for you to elaborate 
further on what you would like to say and that you can 
supplement the record. But I do encourage you to pay attention 
to the time so that everyone can have a fair opportunity at the 
hearing. If anybody does forget the lights, I will lightly rap 
the gavel to remind you to pay attention to the lights and to 
wrap up your statement.
    With that, let me invite the first panel to come forward. 
The first panel is Mr. Michael Schiewe, the director of Salmon 
Research at the Northwest Fisheries Science Center for the 
National Marine Fisheries Service; Mr. Doug Arndt of the Fish 
Management Division of the Army Corps of Engineers out of 
Portland; Mr. Howard Schaller, Project Leader of the Columbia 
River Fisheries Program for the U.S. Fish and Wildlife Service 
out of Vancouver. I understand Mr. Rigby is here on behalf of 
the Bureau of Reclamation. Mr. Ken Pedde was scheduled to 
testify but has had an emergency come up and was not able to be 
here.
    Gentlemen, we appreciate your presence here, and I would 
like to ask you to go ahead and testify. We'll have you go in 
the order in which I just announced your names, and then 
following that, we will get involved in the questions and 
answers.
    So, Mr. Schiewe, would you please proceed?

  STATEMENT OF MICHAEL SCHIEWE, DIRECTOR, NORTHWEST FISHERIES 
    SCIENCE CENTER, FISH ECOLOGY DIVISION, NATIONAL MARINE 
                 FISHERIES SERVICE, SEATTLE, WA

    Mr. Schiewe. Thank you, Mr. Chairman and members of the 
subcommittee. I'm Michael Schiewe, director of Salmon Research 
at the National Marine Fisheries Service's Northwest Fisheries 
Science Center in Seattle, WA.
    Within the National Marine Fisheries Service, the science 
centers are responsible for providing the technical and 
scientific support to the regional offices in carrying out 
their regulatory and management responsibilities. I appreciate 
the opportunity to be here today. I will limit my formal 
comments to those involving the biological opinion and the 
collaboration in the scientific process.
    First, to summarize from the testimony of Mr. Stelle to 
this subcommittee on September 13, 2000, the National Marine 
Fisheries Service is currently engaged in the preparation of 
two major documents. One is a biological opinion for the 
Federal Columbia River Power System. The other is a conceptual 
recovery plan called the All-H Paper. This latter exercise is 
led by NMFS, but is more broadly the product of the Federal 
Caucus composed of NMFS, the Army Corps of Engineers, the 
Bonneville Power Administration, the Bureau of Reclamation, the 
Fish and Wildlife Service, the Environmental Protection Agency, 
the Bureau of Indian Affairs, the Forest Service, and the 
Bureau of Land Management.
    In preparing these documents, NMFS considered the results 
of 
a variety of analytical exercises and scientific syntheses 
including results from the Plan for Analyzing and Testing 
Hypotheses, or PATH; NMFS' Cumulative Risk Initiative, or CRI; 
and the empirical information summarized in NMFS White Papers. 
Following review and comment by the State agencies and tribes, 
both the biological opinion and the All-H Paper are currently 
scheduled for release in final form on December 15.
    On the issue of science collaboration, a major opportunity 
will occur via participation in technical recovery teams. We 
have already formed technical recovery teams, or TRTs, to start 
the process for recovery planning in Puget Sound and on the 
Lower Columbia River and Willamette Valley, and we are 
considering establishing TRTs to develop recovery plans for the 
listed salmon and steelhead in the interior Columbia River 
Basin.
    The process NMFS has initiated to develop these plans is a 
two-phase one, with the involvement of both regional technical 
and policy expertise in each of the relevant phases. To briefly 
summarize, the first phase is a scientific exercise culminating 
in the establishment of delisting criteria or recovery goals.
    The second phase is more of a policy forum in which the 
options for recovery will be carefully weighed and a suite of 
actions selected. Both the technical phase and policy phase 
will involve qualified individuals from regional entities and 
interest groups. A recovery science review panel composed of 
internationally renowned ecologists and evolutionary biologists 
will review the products of the TRTs. Our goal is to bring 
together a broadly representative group of the best minds to 
tackle these issues.
    To summarize, it is NMFS's intent that the recovery 
planning process will take place out in the open, that it will 
meaningfully involve regional scientific expertise, that the 
recovery plans will be subject to peer review, and that the 
final technical products, when appropriate, will be published 
in scientific journals.
    Thank you for this opportunity to address the subcommittee. 
I would be pleased to answer any of your questions.
    Senator Crapo. Thank you very much, Mr. Schiewe.
    I should have said at the beginning of this panel each of 
these panelists are scientists. We had their policymaker 
counterparts from their agencies at the hearing in Washington, 
DC and each of these gentlemen were there as backup, but we 
didn't, because of timing problems, have a chance to get to you 
on the scientific questions. So I realize that a statement has 
already been entered into the record of the hearings here by 
your agencies, and you may or may not want to make an 
additional statement. You're very welcome to make additional 
statements, but you may have been surprised when I set it up 
for you to make statements. So if any of you choose to simply 
answer questions, I understand that.
    Mr. Arndt.

STATEMENT OF DOUG ARNDT, CHIEF, FISH MANAGEMENT DIVISION, ARMY 
   CORPS OF ENGINEERS, NORTHWESTERN DIVISION, NORTH PACIFIC 
                      REGION, PORTLAND, OR

    Mr. Arndt. Mr. Chairman, I am Doug Arndt, Chief of the Fish 
Management Office in the Northwestern Division, U.S. Army Corps 
of Engineers. I appreciate the opportunity to be here today to 
discuss the status of the National Marine Fisheries Service and 
Fish and Wildlife Service's biological opinions on operation of 
the Federal Columbia River Power System.
    As you noted, on September 13, you heard the testimony of 
Colonel Eric Mogren on behalf of the Corps. Today I'm going to 
very briefly summarize that testimony, plus I'll add several 
topical points. Currently, 12 populations of Columbia River 
Basin salmon and steelhead, white sturgeon, and bull trout are 
listed under the Endangered Species Act. That means that we 
must broaden our consideration of recovery solutions from the 
lower Snake River to the entire life cycle of the salmon 
throughout the basin if we are to be successful.
    On the flip side, this year we saw strong returns of adult 
salmon to the Columbia. We believe these results are at least 
partially due to the investment that the Nation has made in the 
hydropower system.
    Consultations on the 2000 biological opinions are ongoing. 
We anticipate receiving a final BiOp or BiOps on or about the 
15th of December. While there are still some measures that need 
further work, we are optimistic at this point that we would 
reach agreement on the major issues and on the overall 
direction. We are satisfied that the draft biological opinion 
is reflecting an increasing intent to pursue aggressive actions 
across all the Hs with specified performance standards and 
periodic check-ins.
    Earlier in your opening statement you emphasized the need 
for good science. We are also pleased at the current regional 
effort to base recovery actions on the best available science. 
The Corps' part in this effort is to fund some 50 to 70 field 
research studies under our anadromous fish evaluation program. 
That, by the way, is a collaborative process involving the 
State, Federal, and tribal entities. We see this investment of 
some $10 to $20 million in field research in seeking out better 
scientific knowledge as being vitally necessary for making the 
reasoned management decisions that you alluded to.
    On the issue of funding, full implementation of the 
measures called for in the biological opinions will be 
ambitious. It will require substantial increases in our 
appropriations. For example, the President's fiscal year 2001 
budget submitted to Congress this year called for $91 million 
in the Corps' fish mitigation project. Our fiscal year 
appropriation, as passed by Congress, was $81 million. We 
estimate that some additional $5 million to $10 million may be 
needed to fully implement the measures in the biological 
opinions. Further, we anticipate the cost will increase in the 
out years. This is an important issue as our biological opinion 
report card will heavily depend on our ability to implement, 
read that as ``fund,'' recovery measures.
    One of the areas of the biological opinion is to call upon 
the Corps of Engineers to carry out actions in the offsite or 
habitat measures for fish restoration as a means of 
supplementing hydro actions. For example, we are being asked to 
step up our efforts in the restoration in the Columbia River 
estuary. We believe this is important and should be a part of 
our approach to the fish recovery.
    We look to the Congress for continued support of these 
efforts. We will continue to work with you and to keep the 
lines of communication open.
    Mr. Chairman, this concludes my summary, and I will be 
happy to answer any of your questions.
    Senator Crapo. Thank you very much.
    Mr. Schaller.

 STATEMENT OF HOWARD SCHALLER, PROJECT LEADER, COLUMBIA RIVER 
 FISHERIES PROGRAM, U.S. FISH AND WILDLIFE SERVICE, VANCOUVER, 
                               WA

    Mr. Schaller. Good morning, Mr. Chairman. I'm Howard 
Schaller from the Columbia River Program Fisheries Office of 
the U.S. Fish and Wildlife Service and I appreciate this 
opportunity to present testimony on behalf of the service 
regarding status of the biological opinions for the Federal 
Hydropower System of the Columbia.
    Our office is primarily responsible for a recovery 
evaluation of Columbia River aquatic resources, which include 
sturgeon, bull trout, and salmon. The service is conducting a 
consultation on the operation of federally-owned hydropower 
facilities on the Columbia, Snake, Clearwater, Kootenai rivers 
in the Columbia River Basin. We're consulting with the action 
agencies of the Army Corps of Engineers, Bonneville Power 
Administration and Bureau of Reclamation. At issue are the 
effects of operating the Federal Hydropower System on the 
Endangered Kootenai River sturgeon, threatened bull trout, and 
to some limited degree, bald eagles.
    The service received two biological assessments from the 
agencies, a draft document in the summer of 1999, and a final 
in December 1999. We shared a preliminary draft of the opinion 
with these agencies in May 2000, and the comments on the 
preliminary draft opinion were received June 2000. The draft 
opinion was released to the States and tribes for comment on 
July 27, 2000.
    Throughout this process the emphasis has been placed on the 
discussion of key issues including minimization of adverse 
effects to sturgeon and bull trout from the PS operations in 
the Upper Columbia River. Our draft opinion requests 
adjustments to the operations and ramping rates at Hungry 
Horse, Libby, and Albany Falls dams. We're also asking the Army 
Corps of Engineers to continue studies of alternative pool 
elevations Albany Falls to benefit kokanee salmon, a key food 
source for bull trout in Lake Pend Oreille.
    The draft opinion also addresses actions at Libby Dam to 
allow increase flows to chief flow objectives for sturgeon. For 
the Lower Columbia River, Snake River, and Clearwater River, 
the service will require monitoring to better determine the 
presence of bull trout and ensure their upstream and downstream 
passage is not impeded. The services work closely with National 
Marine Fisheries Service throughout this process to ensure that 
the Federal Hydro System operations benefit sturgeon, bull 
trout, and do not conflict with salmon and steelhead.
    We are presently revising the biological opinion based on 
comments we received from the States, tribes, and other 
affected entities. We are now completing the opinion and 
accompanying documents and anticipate to have a final draft out 
by mid-December.
    Mr. Chairman, this concludes my testimony, and I'll be 
happy to answer any of your questions that you and the members 
have. Thanks. This is a summary of Mr. Cottingham's comments 
from September.
    Senator Crapo. Thank you very much.
    Mr. Rigby.

 STATEMENT OF RICHARD RIGBY, PROGRAM MANAGER, WATER RIGHTS IN 
  ACQUISITION, PACIFIC NORTHWEST REGION, BUREAU OF RECLAMATION

    Mr. Rigby. Thank you, Mr. Chairman. My name is Richard 
Rigby. I am program manager for Water Rights and Acquisition in 
the Pacific Northwest Region of the Bureau of Reclamation. My 
primary activity with respect to this biological opinion and 
previous opinions has been the provision of flow-augmentation 
water from the Bureau of Reclamation projects in Idaho and 
Oregon. As a stand-in for Mr. Pedde, I have no prepared 
remarks, and I'll stand for questions.
    Senator Crapo. We appreciate your being available on such 
short notice.
    Mr. Schiewe, I want to start out with an issue with you 
first and then broaden to the rest of the panel. There is a 
specific issue that has come up in just the last couple of days 
relating to an article in The Oregonian, the headline being 
``Unreleased Federal Plan Calls for Dam Breaching'' and another 
headline in The Statesman with a version of the same article 
that says, ``Unreleased Plan Shows Federal Uncertainty Over Dam 
Breaching.'' Have you read the article that I'm referring to?
    Mr. Schiewe. I did, Senator, see the article in The 
Oregonian but not The Idaho Statesman.
    Senator Crapo. I believe the Statesman version was just a 
shortened version of The Oregonian story. The question that is 
raised by the article is that apparently a document obtained by 
The Oregonian shows that just a couple of months before George 
Frampton from CEQ's announcement that the National Marine 
Fisheries Service--well, let me back up a second.
    A couple of months before the BiOp came out, the National 
Marine Fisheries Service had fashioned an opposite plan that 
called for dam breaching and that something happened in that 
several month period of time to change the BiOp that was 
submitted. There is speculation that that was because of the 
Presidential election and the critical nature of particularly 
Oregon and Washington in that calculation. There is speculation 
that there was other disagreement over the science.
    The question I have for you is, first of all, is there a 
document that The Oregonian claims it has that was a decision 
by the National Marine Fisheries Service to call for dam 
breaching?
    Mr. Schiewe. Senator, I have to preface my comments by 
clarifying that I represent the science side of the house, not 
the policy or management side of the house.
    Senator Crapo. I understand that and respect the position 
you're in.
    Mr. Schiewe. Accordingly, I know that we have provided 
scientific and technical information for a whole range of 
different options, sort of a menu of potential actions and what 
we would predict would be their outcomes. My sense is that on 
the policy side of the house, they probably evaluated a full 
range of different ones at different times, and if a policy or 
political decision was made at one particular instance to 
narrow the field, I'm not aware of that.
    Senator Crapo. So you're not aware of this document that is 
referred to in the article?
    Mr. Schiewe. No, I'm not.
    Senator Crapo. That may be an answer to my followup 
questions, but let me ask them anyway. The obvious question 
that comes out there is what caused--I'm assuming the document 
exists since The Oregonian claims it has a copy of it. The 
question is, what caused the change in position by NMFS over 
that 2-month period of time from the initial document that is 
referred to here to the ultimate decision that was announced? 
Are you aware of any directives that came from George Frampton, 
the Council on Environmental Quality, or the White House, or 
otherwise that directed NMFS to change its position on the 
BiOp.
    Mr. Schiewe. I am unaware of any of those documents. I 
think you would need to address that question to those parties 
that you mentioned.
    Senator Crapo. Are you in a position where you could take a 
request from me back to those appropriate parties?
    Mr. Schiewe. I can do that.
    Senator Crapo. I would like to make this request, and we'll 
get this to you in more specifics, but I would like to request, 
first of all, a copy of the document that The Oregonian claims 
to have in its possession and a copy of any other memos or e-
mails or communications from the Council on Environmental 
Quality or the White House with regard to this document.
    Mr. Schiewe. Yes, sir.
    Senator Crapo. Thank you. Obviously, it becomes relevant as 
we try to determine what is in the BiOp and why what is in the 
BiOp is in the BiOp and whether we're looking at science or 
whether we are looking at politics. I think that's a critical 
aspect of the whole issue.
    Now, let me get into a little bit broader context here. I'm 
aware of--in fact, I have with me here a copy of the scientific 
article that was published recently by the three NMFS 
scientists, and I'm forgetting their names right now.
    Mr. Schiewe. I'm aware of the article.
    Senator Crapo. I also have a copy of the response to the 
article by several people and then the response to the response 
by the scientists who put out the article. Let me summarize 
what I understand the issue to be there, which I think is a 
critical issue. The scientific article put out by the National 
Marine Fisheries Service scientists, Kareiva, McClure, and 
Marvier--have I got the names right?
    Mr. Schiewe. Yes, sir.
    Senator Crapo. The article itself, as I understand it, says 
that even if the dams are breached, that the salmon--that there 
will not be enough of a recovery for the salmon to end the 
decline, that the decline of the salmon will continue even with 
breaching of the dams. I believe that the article also 
concludes that if we focus on habitat and full augmentation--
estuary and flow augmentation type solutions, that extinction 
or decline of the salmon can be avoided. Is that a fair summary 
of the article?
    Mr. Schiewe. With a few caveats, yes.
    Senator Crapo. Please give me the caveats.
    Mr. Schiewe. First, the paper concludes that if there are 
no deferred or referred effects of hydropower passage, that is, 
for some reason the fish are weakened and incur large mortality 
later in the life cycle, then the benefits achieved by 
improving survival to a near perfect one going up and 
downstream in a hydropower corridor would not be enough 
numerically to put the populations on a positive trajectory 
where they're actually replacing themselves and increasing.
    The two areas identified that were ripe for improvement 
because the greatest mortality occurs during those phases would 
be the first year of life before they reached the hydropower 
corridor in the habitats, and, second, in the estuary and near-
shore ocean transition. The habitat area is one in which 
anywhere from 95-plus percent of the juvenile fish die, hence, 
somewhat modest changes could bring greatly improved survival 
in that phase. These are numerical experiments.
    The feasibility analysis is something that needs to be yet 
done. The estuary flows could be one part of improving survival 
in that particular phase because the estuary and the plume 
created by flows are a complex ecological system that has a 
major influence on salmon survival; however, there are several 
other aspects of estuary restoration and rehabilitation other 
than just flows, removal of dikes, changes in the distribution 
of exotic predators, and other such activities.
    Senator Crapo. Now, the response to these scientists' 
reports states that the problem with the conclusion of the 
report is that the first year survival rates, i.e., before 
migration downriver, have not declined since the construction 
of Snake River Dam. Therefore, nothing is changed. In fact, in 
some areas, it's actually improved in terms of that first year 
part of the life cycle. Do you have a response to that?
    Mr. Schiewe. Yes, Senator. I think this would be an 
instance where we wouldn't be in total agreement that there 
aren't opportunities to improve habitat, even in some of the, 
``pristine habitats'' of Idaho. We have gone back and looked at 
the record and found that some of those areas cited as being 
near perfect, have large numbers of mining claims. There's some 
hazardous mining sites. They're highly allocated for grazing. 
There are lots of unscreened diversions in other areas, and so 
I think there are, in fact, some opportunities to improve 
survival in that phase.
    Senator Crapo. What about the Middle Fork of the Salmon? My 
understanding of the Middle Fork is that it's got pristine 
habitat right now and that there is little, if any, historic 
grazing, mining, logging, or any other water diversions in that 
area, and if the adult fish returning to this region have not 
been subjected to harvest in Idaho since 1978, so you have a 
pristine area that doesn't have any of these qualities. Yet the 
decline is evident there as well. Is that not an indication 
that the problem is not necessarily with the habitat?
    Mr. Schiewe. Senator, on reviewing some of the land-use 
activities in those areas, we've done some research and, in 
fact, Marsh Creek has two water diversion, has 41 percent of 
its catchment allocated for sheep grazing, has a mine claim 
density of approximately seven claims per square kilometer and 
has five mining related hazardous potential sites. These data 
are summarized through the ICBEMP documents. So it might be as 
good or as close to pristine as we have, but these statistics 
would suggest otherwise.
    Senator Crapo. So in other words, you don't agree that the 
habitat in the Middle Fork of the Salmon is pristine?
    Mr. Schiewe. I would say that if you define pristine as 
absolutely unimpacted, I would say, ``Yes, I disagree''. Is it 
perhaps some of the best we have? Yes, it is. But is it a 
situation in which we do not have opportunity to improve it? I 
would say we do have that opportunity.
    Senator Crapo. Here's what I'm getting at and I'm going to 
ask if any of the other members of the panel would like to 
comment on this line of questioning, so feel free to be ready, 
if you would like to do so.
    I read the All-H paper that was put out by the Federal 
Caucus as it was preparing the biological opinion, and, 
frankly, as I read it, it appeared to be a very command and 
control type approach, particularly a recommended--what it did 
was it laid out all the different options, but it seemed to me 
that the options that it tended to focus on were--particularly 
now that we see the biological opinion as moving in that 
direction--were options that focused on a command and control 
type approach to asserting more and more Federal control over 
water and water management in the Pacific Northwest, more and 
more Federal control over habitat and control of habitat in the 
Pacific Northwest. Frankly, it was somewhat alarming to see 
that kind of proposal for increased Federal control of the land 
and the water that has traditionally been managed by the 
States.
    If the BiOp takes us in a direction of saying we want to go 
out there and for the next 5, 6, or 7 years assert more Federal 
control over water and more Federal control over habitat to see 
if that's going to save the salmon, and if we already have 
areas that at least some are saying are pristine and that 
that's not where the problem is, and we spend 5, 6, or 8 years 
having increased Federal control asserted over these areas of 
prior State control and jurisdiction without a positive effect 
on the salmon, that we have, in effect, not spent that 5 to 6 
years doing what could have been done best to help restore the 
salmon and spent that 5 or 6 years locking in more Federal 
control over the management of the land in the West.
    So that's why this is a very critical issue. Yet, if I 
understand your testimony, you're standing by the fact that the 
best gains for the salmon, if we're going to use the next 5 to 
6 years for the best we can do for the salmon, that those best 
results can be obtained in the first year of the life, which is 
in the habitat and the premigration portion of salmon's life 
cycle. Is that what you're saying?
    Mr. Schiewe. From a numerical standpoint, it is fact that 
the greatest mortality occurs in the first year and in the 
estuary and ocean transition. Senator, that means that these 
life stages represent the opportunity to improve survival most 
and put them onto a track toward recovery. I don't think the 
intent of the All-H paper or the BiOp with its offsite 
mitigation, however, is to narrow the options to just those 
particular issues. I think that the National Marine Fisheries 
Service and Federal Caucus in general are looking to balance 
and take advantage of opportunities to improve survival in any 
of the life-history stages--no matter what the cause, whether 
they're habitat, whether they're hydro, whether they're 
harvest, or whether they're hatchery operations.
    Senator Crapo. It's kind of an interesting change--what 
appears to be a change in position on NMFS's part because if 
The Oregonian story is correct, there was a document that said 
that the engineering and plans for breaching the dams were to 
be prepared by the year 2003, and now you're testifying that, 
really, the other parts of the salmon's life cycle are the 
areas where we must focus our attention. Is it fair to say that 
there has been that kind of a dramatic reversal by NMFS in its 
position over the last 6 to 8 months?
    Mr. Schiewe. Again, I don't speak, for the policy side of 
the house. Biologically, I think most biologists in the region 
who have worked on this for a number of years, as I have, 
recognize the importance of improving the plight of salmon 
through changes and reductions of risks in each and every life-
history stage, wherever possible, and recognizing that this has 
to be done in an economic and cultural context as you have 
alluded to.
    Senator Crapo. Thank you.
    Would any other members of the panel like to comment on 
this issue?
    Mr. Schaller.
    Mr. Schaller. I think the way Dr. Schiewe characterized his 
interpretation of the paper is correct in that the biggest 
mortalities occur in the first year of life and in the estuary. 
The real question in what the approach in this biological 
opinion is going to be is whether it's feasible to actually 
make those improvements in the first year of life. That is, do 
they naturally occur? Is that level of mortality natural or is 
there room for improvement? So through monitoring and 
evaluation, the purpose is to determine whether that type of 
improvement is feasible.
    Second, I think to reemphasize this paper, in terms of the 
dam-breaching issue, also came to a very similar conclusion 
that the previous scientific analysis did, and that is that the 
direct mortality from the dams by removing all that won't be 
sufficient to recover these stocks. The real issue--and, again, 
through the monitoring and evaluation program is to determine 
whether the delayed mortality or the stress of the hydrosystem 
is large enough that the dam-breaching option in conjunction 
with all these other areas would be sufficient.
    Senator Crapo. Mr. Arndt.
    Mr. Arndt. Thank you, sir. I guess I would like to kind of 
say ``me, too'' in terms of what Dr. Schiewe has said. That is 
that we have felt that in the past there had been--if anything, 
the actions had been somewhat hydrocentric and that the scope, 
the life cycle scope that's being looked at now is appropriate 
and timely. I don't think that is coming at the lack of hydro 
actions. As I indicated earlier in my testimony, we are still 
moving ahead with a very aggressive, intensive program to 
improve--further improve where we can, the survival of the fish 
of the hydrosystem.
    But I think rather the idea is to bring Federal funds and 
Federal energy to the regional table in these other efforts, 
particularly in habitat. I don't see that as being a command 
and control activity, but rather one of trying to help leverage 
the regional, the State, local actions that can take place and 
give us the opportunity for improved survival.
    Senator Crapo. Thank you.
    Did you have anything to add, Mr. Rigby, on this?
    Mr. Rigby. I do not.
    Senator Crapo. It seems to me that the issue we're talking 
about here is critical because I have in front of me a 
statement by some scientists which says that there is little 
scope for increasing survival during this stage, which is the 
stage that you've just said is where the best opportunity for 
improvement is, and that we should be focusing on the river and 
the hydrosystem, where the best opportunity for an impact on 
the life cycle of the salmon is.
    I have the scientific study in front of me from National 
Marine Fisheries Service, which you are all, I believe, 
supporting it to some extent, which says that the best stage is 
to focus on the--as you say, Mr. Schiewe, the first year, which 
is in the original habitat, and then in the estuaries after 
they've made it to the ocean eventually--two very, very 
different conclusions about what the best thing to do in the 
next 5 years is, two very, very different conclusions about 
what the science tells us is the best we can do to help these 
fish. To me it seems critical.
    One says--and I've talked to scientists for the last 8 
years. Since I've served in Congress, I think I've talked to--
I've read every scientific report that has been published by 
any of your agencies and others and every bit of information 
that's been submitted to me by the interest groups from one 
perspective or the other. I've spent time personally with the 
head of the ISAB, the science team, and with others, and it 
seems to me that what we have been hearing, which I think Mr. 
Schaller indicated, was for quite some time an indication that 
of all the Hs that we're talking about--and we have to expand 
that, I think, with ocean conditions that we are now getting a 
better understanding of--that the biggest impact was the 
hydrosystem. That's what I've been hearing for 8 years.
    Today I'm hearing that it's not; is that right, that the 
hydrosystem--let's just take the four Hs, habitat, hydro, and 
so forth. Is it not true that the hydrosystem is the biggest 
impact of those H's?
    Mr. Schiewe. Mr. Chairman, in order to answer that, I think 
the first issue that would have to be resolved would be to 
attempt to partition natural mortality versus anthropogenic or 
that caused by human causes. The greatest mortality occurs very 
early in the salmon life cycle and most of that is probably 
natural--although, habitat can contribute too. Among the 
anthropogenic causes, the hydropower system was a major source 
of mortaility and, it wreaked havoc with the salmon populations 
when it was first used. But the more recent estimates of 
downstream mortality that have been obtainable with the use of 
PIT tags and with the use of the transportation program, 
indicate that the impacts of the hydropower system are far less 
than they used to be. In fact, if we ignore transportation 
altogether and look only at measured in-river survival, we find 
that survival now is similar to what we had back in the 1960's 
with four dams in place--even though there are eight dams in 
place. I would attribute this to the many changes we've been 
able to make in the operation and structural forms of those 
dams--putting in bypass systems to keep more fish out of 
turbines, spilling more water; short of what causes gas bubble 
disease but that which improves in-river survival; and 
minimizing power peaking and other operational practices that 
are currently the norm.
    All of these have had a profound effect on improving 
survival within the hydropower corridor. As articulated in the 
biological opinion, we still think we can squeeze some more out 
of it, but we probably are starting to come to the point where 
there's not much more to be gained with it in place.
    Senator Crapo. Mr. Schaller, do you want to add anything to 
that?
    Mr. Schaller. The only thing that I'd add is really the big 
question before us, the region, is what is the delayed 
component of that mortality, the hydrosystem. That needs to be 
addressed and taken into consideration when we go through this 
process over the next 8 to 10 years because the amount of 
stress and delayed mortality and considering a large component 
of these upper-basin fish are put in barges. The real issue is 
going to be what is the level of delayed hydrosystem mortality, 
and is there any differential delayed mortality for the 
transport fish.
    Senator Crapo. I think that's one issue on which there is 
virtually unanimous agreement. We've got to answer that 
question. I want to shift for just a moment because I think 
it's relevant to you, Mr. Arndt. In its comments on the Draft 
Basinwide Recovery Strategy, the State of Idaho offered several 
suggestions with regard to the hydrosystem modifications not 
including breaching the four Lower Snake dams. In other words, 
what can we do with the hydrosystem short of breaching. 
Examples include minimum gap runner or turbines, bypass 
systems, turbine screens, fish-collector and fish-ladder 
improvements, and PIT tag detectors at all dams.
    The question I have is, is there any barrier to doing these 
modifications with regard to engineering or construction?
    Mr. Arndt. Technically, no. There is obviously, in some 
instances, a procedural environmental documentation we have to 
go through. But I think that the simple answer is, no. In fact, 
the kinds of research that we're looking at carrying out now or 
in the near term includes further improvement studies, 
dissolved gas-abatement work, adult PIT tag development, which 
is critical to understanding the survivability of the adult 
fish as they move through the system, surface-bypass 
development, fish-transportation evaluation to get at the kind 
of questions that Dr. Schaller raised, avian predation-control 
studies. Obviously, we know that has a big impact down in the 
estuary.
    So I think the answer is no. We're moving ahead very 
aggressively to look at everything and anything we can to 
improve survivability through the hydrosystem.
    Senator Crapo. Do you have a sense of how long it would 
take to get these--at least these construction-related and 
engineering-related improvements put into place at the dams?
    Mr. Arndt. It varies somewhat depending on the type of 
improvement we're talking about, but, for example, on the 
turbine-improvement studies, as you probably know, we've 
already had a year of results from the Bonneville Dam minimum 
gap-runner work, which was extremely encouraging. We're very 
pleased with that, so much so that we are now moving to The 
Dalles Dam, where we have a turbine replacement program 
underway, and we're going to look at actually installing the 
minimum gap runners at the Dalles. So in that case, we're 
moving ahead right now.
    Most of these other things--the surface bypass we're 
working on right now. A better way to spill using spillway 
weirs is underway. So most of these things we're actually 
moving into right now.
    Senator Crapo. Mr. Schiewe, is there any problem from 
NMFS's point of view with moving ahead as aggressively as 
possible on each of these dam improvements?
    Mr. Schiewe. Absolutely no problem at all, sir.
    Senator Crapo. This next question is probably for Mr. 
Schaller and Mr. Schiewe. Though, again, any of you can feel 
free to jump in on this at any time, if you choose to do so. 
There's a concern that has been expressed to me that the NMFS 
threshold selection ignored the real possibility of an 
extinction vortex. You probably are aware of that debate. NMFS 
was asked to at least model a range of thresholds more 
conservative than one fish in any given year so that 
decisionmakers could see the impact of this low extinction 
threshold and what it did to both the extinction risk and the 
amount of survival improvements needed to avoid the threshold.
    Is it true that the draft BiOp not only failed to analyze 
the more conservative threshold, but, in fact, lowered the bar 
even further by using the threshold of zero fish or a full 
generational cycle of about 5 years?
    Mr. Schiewe. Let me begin to answer that, Senator, but then 
I think I'll defer to Dr. Schaller.
    It is true that the draft BiOp considered only one 
threshold. It is being reconsidered now, however. It's an item 
that is basically in play and being reworked and I know Dr. 
Schaller has done an analysis; is that correct, of the effects 
of considering different levels of risk and different periods 
of time? He can probably address that better than I. Our intent 
is to include that analysis in the final version.
    Mr. Schaller. NMFS, as you correctly outlined in the 
initial draft, they looked at a threshold level of one fish 
over an entire generation, and through the comment period and 
working collaboratively with NMFS, we've been exploring looking 
at threshold levels of higher values, and they do, indeed, 
affect the extinction probabilities, and NMFS has recognized 
that problem and, I believe, working and looking at how they're 
going to evaluate extinction probabilities, and, really, how 
that translates is into some of the performance measures that 
are going to be adopted to look at what occurs over the next 8 
to 10 years.
    So it is a critical piece, and I think that there has been 
a lot of effort through the region to evaluate these threshold 
levels and their effects and to look at a reasonable threshold 
level and how it affects extinction probabilities in a more 
conservative perspective.
    Senator Crapo. Is it a problem that this hasn't been done 
and yet there's a December 15 deadline in terms of adopting the 
BiOp?
    Mr. Schiewe. I don't think it will be a problem, sir. 
Again, the full range is being explored, and, again, it's in 
play now how it will be incorporated. One of the changes that I 
know that is being contemplated--again, this is more a policy 
issue of selecting from a menu than it is a scientific decision 
per se, but the draft BiOp used a standard of reducing the risk 
of extinction to 5 percent or less in 100 years. What's being 
contemplated now is moving that to a more conservative 1 
percent of extinction in 100 years.
    Do please keep in mind, sir, that these calculated risks 
have uncertainty associated with them. Probably the best way to 
look at them is in a relative sense and prioritizing stocks and 
populations for recovery actions. Those at greater risk 
obviously need our attention before those that are at lesser 
risk.
    Senator Crapo. Back to the question of delayed mortality, I 
want to divert for just a moment. It's been brought to my 
attention in a number of discussions that although delayed 
mortality is becoming one of the critical issues that we've got 
to address in terms of answering some of the things we've been 
talking about this morning, but it's incredibly difficult to 
study. Is it possible to put together an experiment to study 
whether delayed mortality exists and to what extent it exists 
without breaching dams?
    Mr. Schiewe. That's the $64,000 question. I think it 
certainly is possible. It would be much easier if we had two 
Columbia River systems and we were able to on paper remove one 
and not remove the other and run that grand experiment. That 
obviously isn't an option. We're looking now in concert with 
the Corps of Engineers, Columbia River Fish Management Program 
to develop a series of studies that would look at potential 
causes for delayed mortality in fish that have transited the 
hydropower system by moving fish to experimental facilities and 
holding them and subjecting them to various analyses measuring 
the potential for stress, for increased diseases, and the 
various kinds of things that would probably come into play if, 
in fact, there was a delayed mortality.
    Senator Crapo. Thank you.
    Mr. Schaller, do you have anything to expand on that with?
    Mr. Schaller. The only thing that I'd say is we'll have the 
results of stock comparisons throughout the basin. We'll have 
additional years of stock comparisons that will help along with 
these more directed studies to look at what are the inferences 
about the relative levels of delayed mortality and how that 
plays throughout these larger numeric experiments.
    Senator Crapo. It seems to me that determining the amount 
of survival improvements necessary to avoid jeopardy and to 
provide recovery is a key element in developing recovery 
action. Why was the CRI approach in that model used to develop 
the probability of recovery when it assumes that populations 
continue to grow exponentially? Doesn't the rate of population 
growth slow as spawning numbers approach recovery levels?
    Mr. Schiewe. Another way of asking that same question, 
Senator, is the fact that CRI chose not to use a density-
dependent model, and there has been quite a bit of regional 
debate about that. Again, our scientists have found no evidence 
of density dependence; we're really at the low end of the 
population growth curve. Density dependence would come into 
play when we're close to recovery rather than at this point 
where many of these populations are struggling to persist.
    What you bring up was an issue which we raised with the 
PATH models that were used. Those population models projected 
that the populations would increase no matter what actions we 
undertook, and that was one of the reasons why we chose to look 
to some different kinds of models as well. In the end, we used 
both to inform our process, though.
    Senator Crapo. Wouldn't a more conservative approach that 
incorporated density-dependence as populations grow be more 
risk averse? Isn't that the objective we should focus on?
    Mr. Schiewe. Again, Senator, the only evidence we saw of 
any kind of density-related dependence was what they call 
``depensation,'' which means that when you get to very low 
densities, rather than very high densities, the populations 
shrink a little bit faster and this gets a little bit to your 
issue of the extinction vortex. I'm hopeful that we'll get to a 
point where we have enough fish where we have to worry more 
seriously about density dependence sooner rather than later.
    Senator Crapo. So in other words, if we can get to the 
point where this becomes more critical, there's still room to 
adjust the models?
    Mr. Schiewe. There certainly is. This is an evolving 
process.
    Senator Crapo. Mr. Rigby, I do have a couple of questions 
for you. I have in front of me a copy of a letter signed by BOR 
regional director, Bill McDonald, saying, in part, we find 
Idaho's comments on Chapter 6 of the draft biological opinion 
effects of the action to be generally consistent with comments 
Reclamation provided to NMFS on October 5, 2000.
    First of all, I should ask you, are you familiar with this 
letter from Bill McDonald to Donna Darm relating to the Idaho 
comments?
    Mr. Rigby. Yes, Mr. Chairman, I am.
    Senator Crapo. I'm going to read the rest of this one 
paragraph. He says Idaho's hydrologic analysis summarized in 
Figures 2 through 5 in part 1 of their comments are both 
factual and based on a more sophisticated analysis than that 
previously undertaken. Idaho's comments represent a major 
improvement in identifying the true effects of Bureau of 
Reclamation storage operations.
    First of all, do you agree with the statement in the 
letter?
    Mr. Rigby. I do, sir.
    Senator Crapo. Mr. Rigby, briefly, what do you believe to 
be the true effects of BOR storage operations?
    Mr. Rigby. I might back up just a little bit, Mr. Chairman, 
and say that I consider the process of identifying the impacts 
of Reclamation projects to be work-in-progress, something we 
need to work at and have worked at for some time. To summarize 
what I think Reclamation's views and Idaho's comments were, 
when Reclamation came on the scene in 1902, in much of the 
basin the development of water resources had maxed out the 
available supply and stream flows were often dry many times in 
the late season in many places that are not dry today.
    The main impact from Reclamation has been to provide 
storage reservoirs that have stored water in the wintertime 
during the spring freshet and release that water for subsequent 
diversion in the summertime. So it's Reclamation's view that 
the impacts from Reclamation projects are to reduce flows in 
the winter and in the spring and to increase flows in the late 
summer, the July and August period.
    Senator Crapo. Have you seen--I'm sure you have seen the 
charts that Mr. Dreher from Idaho has presented about the 
impact of water augmentation from these projects----
    Mr. Rigby. I have, sir.
    Senator Crapo [continuing]. On flows in the Columbia and 
Snake Rivers. Do you agree that those charts are accurate?
    Mr. Rigby. I believe it's a matter of arithmetic.
    Senator Crapo. Why?
    Mr. Rigby. I think he's counting CFS and acre feet. They 
seem to be accurate.
    Senator Crapo. The conclusion that I reach from looking at 
those charts is that there is virtually no meaningful impact 
coming from the BOR projects we're talking about with regard to 
the flow. Do you agree with that conclusion?
    Mr. Rigby. Well, our effort has been trying to resolve ESA 
problems. I would rather not characterize the magnitude of 
those changes and let people draw their own conclusions.
    Senator Crapo. I think we'll probably see some charts 
either here today or on other occasions. Without objection, 
this letter will be made a part of the record.
    I just have one final question for the panel or line of 
questions. The draft BiOp essentially says that if the measures 
called for in the BiOp do not show enough progress, then the 
Federal Caucus will then return to the breach question. Today 
and during our September hearings, as we have heard--I think we 
will hear that there's a lot of dispute as to whether these 
measures are going to work. There's this scientific debate that 
we've already talked about which part of the life cycle you 
focus on and what do you do in those life cycles.
    The question comes down to this: If, in fact, the National 
Marine Fisheries Service was prepared to recommend breaching 
the dams and to begin doing the engineering work and have it 
finalized by 2003, and then over a short period of months, 
changed that decision--we still don't know why, and I 
understand, Mr. Schiewe, that you're not in a position to 
answer that question--aren't we faced, basically, with a 
circumstance in which if we don't do the very best that we can 
do during the next 5 or 6 years, then we will see NMFS come 
down with a recommendation to breach the dams?
    Mr. Schiewe. I would certainly endorse the concept of doing 
the very best we can do. Although, it is still in play exactly 
how the wording will be used in the biological opinion, NMFS 
intent is to have 5- and 8-year check-ins on a 10-year 
biological opinion with the option that if the populations are 
still on a steep trajectory toward extinction that we would 
defer to the action agencies to seek congressional 
authorization to remove dams.
    Senator Crapo. Any others want to comment on that question? 
Mr. Arndt?
    Mr. Arndt. Certainly, I think the intent now is to move 
ahead aggressively short of carrying out those kind of 
Draconian actions with the idea that at some point if those 
actions are not showing success, that we're going to have to go 
back and consult and certainly consider actions that could be 
more aggressive and depending on where we're falling short--and 
one point I would want to make there is if we're falling short, 
say, on mid- or upper-Columbia stocks, we may not look at 
breaching Lower Snake River dams. I don't think that's the only 
option on the table. But certainly, if the Snake River stocks 
are not doing well, I would think that we are going to have to 
look hard at what kind of actions can be taken there to further 
improve survival.
    Senator Crapo. Mr. Schaller, do you want to add anything?
    Mr. Schaller. The only thing that I'd add is that--and from 
the Service's perspective we just want to ensure that the 
scientific quality of performance measures and how they're 
evaluated are of the highest quality and done in a 
collaborative fashion in the region.
    Senator Crapo. Well, the reason I ask this question is 
because, as I indicated earlier, if we have a decisionmaking 
path that is really focused on breaching the dams but is going 
to try some other things first, then those other things become 
pretty critical, particularly if, as I have said, they involve 
the assertion of extensive new Federal control over water and 
extensive new Federal control over habitat measures that are 
imposed on the people of the Pacific Northwest when in the 
minds of at least some, that's not the area where the focus 
ought to be.
    We could end up with a circumstance in which we spend the 
next 5 to 8 years seeing the expansion of Federal management 
over water and habitat land in the Pacific Northwest and then 
see the dams breached. It would seem to me that a much better 
resolution would be--if the scientists who say that you need to 
focus on the hydrosystem as the correct focus, we need to do 
our maximum focus there as much as we can without breaching the 
dams to see if we can, as I think you have said earlier, get 
the very best reduction of mortality in the hydrosystem 
possible so that we know we have done our very best in that 
area.
    I assume from what I'm hearing here that there is no 
objection to doing that in the hydrosystem. Is there any 
objection from any of the Federal panelists here at the 
scientific level? I see no's from all four of the panel 
members.
    This question is one that I realize that you can answer, 
but I would like to ask it and encourage you to take it back to 
your policy counterparts in your agencies. But the question I 
ask is faced with all of this uncertainty and these kinds of 
questions and the critical importance of getting it right, why 
does the Federal Caucus not continue--or I shouldn't say 
continue--why doesn't it begin a meaningful collaborative 
process with the States, the tribes, the environmental 
community, the industry representatives, and others who have 
very strong opinions and I think some pretty strong science 
with them as well as to what the plan out to be?
    Probably the best way to encapsulate that is to say the 
four Governors did this. They sat down. They collaborated. They 
have a much more consensus-based approach, and I think if 
nothing else there will be confidence in the region if we 
follow a collaborative-based consensus model that we did our 
very best as we approach these decisions.
    I'm not expecting you to answer this, although you're 
welcome to give me an answer right now if you have one. My 
encouragement to the Federal agencies, in particular NMFS, is 
that they engage in that collaborative process soon. I'm 
encouraging NMFS to not force a December 15 deadline and get 
engaged in a consensus-building process as quickly as possible 
so that we cannot be engaged in conflict after the December 15 
decision is made.
    Do any of you want to make a comment on that?
    Mr. Schiewe. No, sir. I will take it back, though.
    Senator Crapo. I appreciate that.
    One last thing, I expect that we will hear some testimony 
today about the impact of the ocean on all this. We haven't 
talked about that much. But I would appreciate any comments 
that any of you have with regard to the relative importance of 
ocean impacts as opposed to hydro impacts as opposed to habitat 
or water augmentation and the like.
    I'm right now trying to evaluate the information that's 
coming to me from various perspectives about what the science 
is telling us where the problems are.
    Mr. Schiewe, do you have any comments on that general 
issue?
    Mr. Schiewe. I would say that I think that the ocean has 
huge effects on the dynamics of salmon populations. Further, 
that the strong salmon return we've seen in the Columbia this 
year and in other rivers throughout the Northwest--as well as 
what's predicted for next year based upon the returns of 
precocious males or jacks--emphasizes the potential importance 
of the ocean. At the National Marine Fisheries Service, we are 
actively engaged in research to better understand the factors 
that affect survival in the near shore ocean.
    I think--as has been brought up by a number of other 
people--that the most important aspect of understanding ocean 
conditions and ocean factors is going to be to develop a 
context for evaluating change that we may make in fresh water. 
Try as we might, we aren't going to be able to effect changes 
in the ocean through our manipulations.
    Senator Crapo. Any other comments, Mr. Schaller?
    Mr. Schaller. The only thing that I'd add is the last part 
of Dr. Schiewe's comments is that it's very difficult to make 
any changes in the ocean environment. I think what we need to 
recognize is through management in all four Hs, we have to take 
into consideration that there is going to be a cyclical nature 
to the ocean conditions, and generally they're just an 
indication of broad climatic factors across the whole Northwest 
and that our management approaches will need to take into 
consideration those climatic and ocean conditions when crafting 
approaches--risk averse approaches in putting together all four 
H-management strategies.
    Senator Crapo. Mr. Arndt, or Mr. Rigby, did you care to 
comment on this?
    [No response.]
    Senator Crapo. It seems to me--just as a final wrap-up here 
with regard to the answers that both of you just gave, it seems 
to me that once we get, if we can get, to a point where the 
science is pretty much agreed to, or even if we just end up 
moving ahead on something that the decisionmaker gets to say 
the science is, but the question of the relative impacts of 
these various factors becomes critical to the policymaker 
because once the science is understood or once the science is 
agreed to that we'll be dealing with, then you have to work in 
the questions of the economic impacts, the cultural impacts, 
and the political complications that come to bear. The 
policymakers then have to make very difficult decisions.
    So the question that I see that we need to answer and 
relatively quickly between, say, the ocean, the harvest, the 
habitat, the hydrosystem, the predation issues, and the list 
goes on, the estuaries and the first-year life cycle versus the 
travel through the hydrosystem issues and all of those is what 
is the relative relationship between them?
    For example, if the ocean is 99 percent of the issue and 
we're tinkering around with 1 percent of issue on all of these 
other issues that we're talking about, that's pretty relevant 
to a policy decisionmaker. On the other hand, if the ocean is 
20 percent of the issue or 30 percent of the issue, and the 
dams are some percent of the issue and the habitat is some 
percent of the issue and so forth, that changes the entire 
policy decisionmaking perspective. Do we have any answers in 
that regard in terms of even broad estimates of the relative 
impact of these various issues, or do we still need further 
study on that?
    Mr. Schiewe. I think you can always refine them, Senator, 
but we do have these estimates--these are the basis for most of 
the life cycle models. They are built around estimation of the 
mortality that occurs in each of the life-history stanzas of 
the salmon, and, again, the vast majority occurs very early in 
the first year of life and at the near shore ocean transition. 
It's less in other life-history stanzas, but we do have a 
pretty good idea of what it is, and we're looking to make 
changes in any and all of those, if we can.
    Senator Crapo. OK. Anything further from the panel?
    All right. I thank you both for sitting through the 
Washington hearings when we asked you to be there and for also 
being here for these hearings and for providing your 
information. I would like to ask you, if you can, to hang 
around and listen to the other testimony. I know you may have 
other engagements, but there may be some questions that come up 
as a result of that that we'd like to ask you to answer outside 
the record.
    This panel is excused, and we will call up our second 
panel.
    Our second panel is Mr. James Anderson of the Columbia 
Basin Research in Seattle, WA; Mr. Charles Paulsen, president 
of Paulsen Environment Research in Lake Oswego, OR; Mr. Karl 
Dreher, director of the Idaho Department of Water Resources; 
and Mr. Russell Thurow, fisheries research scientist for the 
Rocky Mountain Research Station in Boise, ID.
    You all heard the instructions. I'd ask you to please try 
to stick with the 5-minutes so we can get into a more thorough 
discussion and questions and answers. But why don't we proceed.
    Mr. Anderson, you may go first.

STATEMENT OF JAMES ANDERSON, COLUMBIA BASIN RESEARCH, SEATTLE, 
                               WA

    Mr. Anderson. Thank you, Mr. Chairman. My name is Jim 
Anderson. I'm an associate professor at the University of 
Washington. I've been involved with the Columbia River research 
for about two decades.
    What I want to do today is present a concept of how I think 
what's been responsible for salmon decline in the general sense 
and then ask how the BiOp is addressing these issues. As you've 
alluded to earlier, decline of salmon is really due to the 
interaction of the decadal or the climate/ocean fluctuations 
along with cumulative impacts of society. We are now in a 
situation where the ocean is cooler with fish coming back in 
numbers not seen in several decades.
    This is a temporal phenomena which will change eventually 
and there's really two possibilities I think the BiOp needs to 
be viewed within. One is that there are decadal scales, and at 
the end of this decade, we're going to have a lot of fish 
coming into the Columbia River because we've returned to those 
good conditions.
    The other possibility is global warming is really going to 
be driving things. We're going to have a drier land and a 
warmer ocean in the future, and in that case, we're going to 
have conditions where maybe fish are very bad off sometime in 
the future. Either case, we expect to have drier conditions, 
and we expect more stress on the fish sometime in the future. 
So what I want to do is address--Is the BiOp preparing us right 
now for these conditions whether they happen in 5 years or in 
30 years?
    Can the BiOp monitoring, within this 10-year period, really 
tell us much about the success of the BiOp actions are? I 
believe that period is just too short. Our analysis in PATH, 
showed it takes 10 to 20 years to evaluate the impacts of some 
of the actions that are being proposed. Within the 5-year 
period, basically we're going to see the impacts on fish that 
are spawning right now, and in the 8-year period we'll just 
have a couple more brood years. So the ocean is going to be the 
major driving factor affecting decisions at the end of this 
decade.
    Now, there are other ways, other things that the BiOp 
considers, the physical factors. Here we have standards, for 
instance, flow, temperature, and sediment levels, which are not 
being connected to the survival of the fish. I think that this 
is a problem. The BiOp needs to really put upper and lower 
estimates on impacts of, for instance, flow, temperature, and 
things like this.
    Can the BiOp really assess the effectiveness of dam 
breaching? It's been pointed out and I think a lot of people 
understand now that it's going to be a very difficult thing to 
address. I don't see right now that the BiOp is really dealing 
with these issues well because we have to find out something 
happening in one life stage that causes mortality in another 
life stage. This is just a difficult scientific question to 
deal with.
    Now, flow is a particularly difficult one. The BiOp has a 
very aggressive flow policy right now. NMFS's research has 
shown insignificant impacts of flow. Most of the analysis has 
related the seasonal natural variations in flow to survival, 
but then the action we're taking is augmentation within a year, 
which is on top of the natural seasonal variations. Flow 
augmentation is very different from the seasonal variation, and 
NMFS has not come--no one has come to grips with this 
difference.
    There needs to be research to address augmentation 
specifically and it goes beyond taking--doing correlations 
between seasonal or year-to-year variations in flow and 
survival.
    Now, I've mentioned in several of my testimonies before 
that hatcheries are important, and I continue to question 
whether or not we're dealing with hatcheries properly. Many of 
the wild stocks have hatchery influences, and the way that 
hatcheries are being dealt with is different. For Fall Chinook 
in the Snake River, a hatchery is considered part of the ESU, 
but then we have these very successful Carson Creek hatchery 
fish, being clubbed before they can spawn in the system.
    I just wonder if maybe hatcheries should be considered part 
of the ESU and they should be considered as refugium during 
these coming years, several decades from now when we are going 
to have greater demands for the resources and we're going to 
have dryer conditions.
    The final comment in my testimony relates to whether or not 
stakeholders are represented properly. There has been a lot of 
discussion on this. I don't believe they have, and I think it's 
a very difficult problem to find a way to herd these scientists 
so we can actually get something coherent and comprehensible to 
you. With that, I'll conclude my testimony. Thank you.
    Senator Crapo. Thank you very much, Dr. Anderson.
    Mr. Paulsen.

 STATEMENT OF CHARLES PAULSEN, PRESIDENT, PAULSON ENVIRONMENT 
                   RESEARCH, LAKE OSWEGO, OR

    Mr. Paulsen. I am Charlie Paulsen. I'm an independent 
consultant, do mostly work for Federal agencies, but I will 
emphasize right from the get-go here that the opinions and so 
forth are mine and not those of folks who have underwritten my 
research.
    I was asked to comment on science and the BiOp, and I guess 
I'll briefly touch on the CRI and PATH, a couple of BiOp 
actions, and then uncertainties that I think are important. 
Something to keep in mind with the CRI, especially with regard 
to collaboration, is, basically, NMFS says it has analyzed 
about 12 ESUs in the course of 12 months. I was a participant 
in PATH. It took us 5 years to get basically through two ESUs. 
For those who want to do a more collaborative effort, which I 
think is a good thing, you're going to need to build some time 
into the schedule to do that. You won't be able to get one ESU 
a month if that's what you're shooting for.
    In addition, the models that CRI is using are new--or at 
least their application of salmon is new. They've been evolving 
very fast, and for those of us who have been kind of involved 
at the edge of this but not within NMFS, it's hard to keep up 
with what version of the model you're talking about they're 
using for this month as opposed to last month as opposed to a 
year ago's results.
    Whether you're using CRI style models or any others, you 
have to keep in mind the survival rates. The number of fish 
that return each year and so forth are very highly variable. 
The number of fish coming back to spawn can vary by a factor of 
10 over the course of a few years. With any model, predicting 
the future is a very imprecise exercise. We don't know how to 
predict how many fish are going to come back next year or 2 
years from now let alone 20 years or 100 years from now, and 
that's something to keep in mind when looking at all of these 
models. None of them are going to be able to make precise 
predictions.
    One thing that CRI has done that I think is really good is 
addressing what they call hatchery effectiveness, how good are 
hatchery fish that spawn in the wild when it comes to producing 
progeny 4 or 5 years later. It's really important for many 
stocks, especially in the mid-Columbia, to a lesser degree in 
the Snake and elsewhere. Most other groups have not really 
tried to take this on. I think it's going to be a really 
important issue in the future.
    With regard to PATH, personally, I don't think that the 
PATH results from a few years ago stand up particularly well to 
recent numbers. Recent high returns of fish, NMFS direct 
measurements of very high survival through the Snake River for 
spring migrants, measures of ``D'' values, as they call them, 
how well-transported fish do relative to in-river migrants. 
Those are all much more optimistic in terms of short-term 
survival than what PATH for the most part used, something that 
would need to be addressed if one were to try to revisit and 
reincorporate PATH stuff into the BiOp and so forth maybe.
    Finally, if the ocean regime shift has happened--and 2 
years of data don't a 20- or 30-year trend make, but if it has, 
it also casts some doubt on whether or not the delayed 
mortality or extra mortality and so forth is really due to the 
dams, or was it just due to ocean conditions. At this point, we 
don't know, but I think it's something that we'll be able to 
find out some more about over the next 5 or 10 years.
    BiOp actions, flow augmentation, at least for spring 
migrants, has very little support in my opinion based on NMFS's 
research. It just doesn't seem to make much difference how much 
flow there is in the springtime when it comes to survival for 
steelhead and spring chinook. For fall chinook, it certainly 
makes a difference, but it's hard to tell what exactly makes a 
difference. Is it the time of year? Is it the age of the fish 
when they release them? Is it the temperature of the water or 
how much flow there is? You can't really separate it out based 
on results to date.
    The BiOp places a lot of emphasis on offsite mitigation, 
and that's going to take an enormous amount of monitoring and 
evaluation to figure out whether or not those things work. One 
thing that the BiOp doesn't talk about much, but I personally 
think has a lot of promise, is what they call carcass or 
nutrient supplementation where they put either literally fish 
carcasses or inorganic fertilizer out there to see if the 
juveniles do better.
    You noted earlier that the survival of fish from spawning 
down to the first dam seems not to have changed much, and that 
may well be true. However, if those fish are smaller, less fit, 
less ready to go, less ready to make it in the ocean because 
they're not getting enough to eat when they're small, that 
could really make a difference and certainly in other species, 
especially along the Oregon and Washington Coast and B.C., it's 
made a lot of--those sorts of programs make a lot of 
difference--or it made a lot of difference in the past for 
fish.
    Finally, I think that given the variability, the 
uncertainty, or just plain ignorance of how fish work, why 
ocean conditions--why cooler ocean conditions are better and so 
forth and so on, we need to be really humble about our ability 
to predict what's going to happen in the future at all, let 
alone what the effect of a particular management action or a 
set of them are going to be. That's all.
    Senator Crapo. Thank you very much.
    Mr. Dreher.

 STATEMENT OF KARL DREHER, DIRECTOR, IDAHO DEPARTMENT OF WATER 
                      RESOURCES, BOISE, ID

    Mr. Dreher. Good morning, Mr. Chairman. My name is Karl 
Dreher. I serve as the director of the Idaho Department of 
Water Resources, a position that I've held since 1995. I 
appreciate your invitation to testify at this hearing and would 
like to share with you some of my concerns with the draft 
biological opinion on operation of the Federal Columbia River 
System released by the National Marine Fisheries Service this 
past July.
    My comments will focus primarily on two aspects of the 
Draft Biological Opinion. No. 1, the inadequacy of the science 
relied on by NMFS in continuing to call for flow augmentation 
in the mainstem of the Snake River. No. 2, the flawed analysis 
conducted by NMFS in assessing the effects of the Bureau of 
Reclamation projects in the Upper Snake River Basin, a subject 
that you alluded to with the last panel.
    First, in terms of the flows, if you look at the history of 
recorded flows at the site of Lower Granite Dam, the striking 
conclusion that can clearly be drawn is that despite the 
increasing development of irrigated agriculture in the Snake 
River Basin, despite development of municipal and industrial 
water supplies, despite the upstream development of 
hydroelectric power plants, despite the construction of 
Dworshak Reservoir for flood control, and despite the 
construction of Bureau of Reclamation storage reservoirs in the 
Upper Snake River Basin, flows simply have not changed 
significantly.
    During the spring target flow period established by the 
National Marine Fisheries Service, average daily flows range 
from about 50,000 CFS to about 170,000 CFS. They do today. They 
did prior to 1920. Similarly, during the summer target-flow 
period, average daily flows range from about 20,000 CFS to 
about 70,000 CFS. Again, they do today and they did prior to 
1920.
    The lack of dramatic change in flows is significant because 
regardless of the flaws or lack of flaws with the process for 
analyzing and testing the hypothesis model, that process 
concluded that the productivity of Snake River spring/summer 
chinook populations remained healthy through the 1950's and 
into the 1960's. Consequently, changes in Snake River flows 
can't have contributed to the loss of salmon productivity 
because the flows didn't change, and it should not be expected 
that increasing flows will significantly improve salmon 
productivity because there's no significant flow depletion to 
contribute to loss of productivity.
    What has changed since the construction of the last four 
dams on the Lower Snake River is the average velocity of river 
flow, and that has slowed dramatically on an order of 
magnitude. The slowing of river flows following construction of 
the lower four Snake River dams coupled with observations that 
improved adult returns are generally associated with good water 
years during juvenile migration have led to the hypothesis, and 
it's only on hypothesis that augmenting flows in the mainstem 
Snake River will increase flow velocities, decrease the travel 
time of outmigrating smolts by pushing them downstream and thus 
improve their survival.
    However, there has been little recognition by NMFS in the 
draft BiOp and the supporting documents that flow augmentation 
can only at best provide small and insignificant increases in 
flow velocities. In part, to test this hypothesis, NMFS, the 
U.S. Fish and Wildlife Service, and the Nez Perce Tribe 
investigated migration characteristics of hatchery-raised 
spring, summer, and fall chinook in the Snake River using 
hatchery-raised juveniles as surrogates for wild juveniles.
    The studies were conducted during the period from 1995 
through 1998 and showed that estimated survival from points of 
release to the tailrace of Lower Granite Dam could be 
correlated with all three environmental variables examined, and 
those were--consisted of flow rate, water temperature, and 
turbidity. At least for fall subyearlings they could 
demonstrate these correlations.
    Estimated fall subyearling survival decreased throughout 
the season as flow volume and turbidity decreased and water 
temperature increased. These correlations have been used by 
NMFS as the primary basis in the Draft BiOp for the 
continuation of flow augmentation from reservoirs in the Snake 
River and Clearwater River basins to aid outmigrating juvenile 
subyearling fall chinook salmon.
    However, an elementary principle of statistics is that 
correlation between variables does not equate to cause and 
effect. Based on an analysis of the 1995 through 1998 data 
relied on by NMFS, these data do not support a conclusion that 
higher flows achieved by use of flow augmentation cause an 
increase in survival.
    Attached to my written statement is a copy of the executive 
summary from a recent collaborative study completed by the 
Idaho Department of Water Resources; the Idaho Water Resources 
Research Institute, which is an arm of the University of Idaho; 
and the Idaho Department of Fish and Game. Using the 1995 
through 1998 data relied on by NMFS, we found that most of the 
hatchery-raised fall chinook surviving to Lower Granite Dam 
traveled faster, not slower, during lower flows. This is shown 
in my written testimony, and it's completely opposite of what 
would be expected if incrementally higher flow velocities 
caused an increase in survival.
    The inadequacy of the studies used by NMFS to investigate 
survival under varying flow conditions does not suggest that 
flow, specifically the attributes of flow--water velocity, 
temperature, and turbidity--are unimportant to migration and 
survival of juvenile salmon. However, flow rates, velocity, 
temperature, and turbidity are closely correlated within one 
another within the 1995 to 1998 data set used by NMFS to 
justify continued flow augmentation in the draft BiOp. The 
current data are insufficient to allow delineation of the 
effects of individual attributes of flow.
    Understanding the effects of individual attributes of flow, 
particularly the usefulness of flow to compensate for the 
effects of reservoir impoundment, is fundamental to determining 
the effectiveness of flow-augmentation efforts for increasing 
survival of juvenile salmon. For example, if cooler water 
temperatures are important to improve the survival of juvenile 
subyearling fall chinook salmon, then using relatively warm 
water from the Upper Snake River to augment flows may be 
counterproductive and may actually harm subyearling fall 
chinook if river flows augmented with water from the Upper 
Snake River Basin are warmer than what would have occurred 
without flow augmentation from the Upper Snake.
    Mr. Chairman, for that reason perhaps, or another, I note 
that in today's issue of Clearing Updated, as I said, today, 
November 20, 2000, it's reported--and I haven't seen this 
report yet myself, but it is reported that NMFS scientists last 
week presented research in Portland that found an inverse 
relationship between spring flows and fish survival. I haven't 
seen this work myself. It was apparently written in an October 
26 memo, and it's yet to be reflected in what the policymakers 
of NMFS have done.
    I see that my time is up. Let me shorthand my comments on 
the bureau effects, and if you wish to followup with questions, 
I'll respond. The main problem with the analysis that NMFS did 
dealing with the effects of the upper Snake projects that the 
Bureau of Reclamation has constructed is they assume that the 
depletions associated with the bureau projects occurred during 
the migration season of the salmon when, in fact, the 
depletions, as indicated earlier this morning by Mr. Rigby, the 
depletions to storage occurred in the wintertime and the spring 
months, not when the salmon were actively migrating.
    Instead of recognizing that fact and also recognizing the 
contribution of return flows, what NMFS did is they assumed 
that the consumptive use associated with the irrigation caused 
the deletion when, in fact, the depletion had already occurred 
and was outside the window of importance to the salmon. Also, 
in their base study, there's a serious misconception in that 
without the bureau-depletion scenario, NMFS eliminated all 
irrigation storage, diversions, and return flows.
    This predevelopment scenario stretches the available data 
and analytical tools well beyond their reliable use and places 
the entire analysis well into the realm of speculation. 
Unfortunately, NMFS then took the analysis one stunning step 
further. It assumed that the bureau reservoirs would remain in 
place and would be actively employed solely to augment flows 
for salmon. In other words, NMFS calculated the effects of 
operating the bureau projects on stream flow as the sum of: No. 
1, the depletions that NMFS attributed to bureau-based 
irrigation and then, No. 2, the volume of water that would have 
been available if the bureau reservoirs were actively operated 
solely to augment flows. That concludes my remarks, Mr. 
Chairman.
    Senator Crapo. Thank you.
    Mr. Thurow.

  STATEMENT OF RUSSELL THUROW, FISHERIES RESEARCH SCIENTIST, 
           ROCKY MOUNTAIN RESEARCH STATION, BOISE, ID

    Mr. Thurow. Thank you, Senator Crapo and members of the 
subcommittee. I appreciate the opportunity to testify today. 
I'm Russ Thurow, a Fisheries Research Scientist with the Rocky 
Mountain Research Station, and my comments today do not 
represent the Forest Service or the Administration's position.
    I find the approach outlined in the Biological Opinion 
flawed, and today I'd like to focus specifically on the 
scientifically-indefensible conclusion that Snake River 
anadromous fish stocks can be recovered through restoration of 
freshwater spawning and rearing habitat. As detailed in my 
written testimony the preponderance of evidence illustrates 
this approach will fail to meet recovery goals for Snake River 
stocks. I will use wild Middle Fork Salmon River stocks to 
illustrate why that approach is infeasible since I'm intimately 
familiar with those populations.
    Focusing on restoration of freshwater spawning rear habitat 
will not recover Snake River stocks because, first of all, 
losses in the egg-to-smolt stage have not been the cause of the 
declines. The number of young salmon recruits produced per 
spawning adult has remained fairly consistent or slightly 
increased since the 1960's, as was discussed earlier.
    Comparisons of stock trends in wilderness and degraded 
habitats also corroborate that changes in spawning and rearing 
habitat quality have not been responsible for stock declines. 
Chinook salmon redd counts in both wilderness and degraded 
habitats have similarly declined since the mid-1970's.
    Second, habitat conditions in the Middle Fork have remained 
the same or improved since the 1960's. The 1980 wilderness 
designation banned all dredge and placer mining. Livestock-
grazing management has improved in tributaries outside the 
wilderness boundary, and the Middle Fork supports immense and 
high-quality spawning areas that I invite the members of this 
committee to go visit.
    Third, in high-quality habitats like those that exist in 
most of the Middle Fork drainage, there is virtually no 
opportunity to substantially improve egg-to-smolt survival of 
fish spawning in the wild. This science article that was 
mentioned earlier by Kareiva and others emphasizes improving 
egg-to-smolt survival to restore stocks without considering the 
feasibility of actually achieving those improvements, and I 
would challenge the individuals who are advocating freshwater 
habitat restoration as a means to restore Snake River chinook 
salmon to visit the Middle Fork habitats and explain how they 
would achieve a 2.7-fold improvement in survival, which is what 
PATH says is needed to restore these populations.
    Fourth, the life stage where the largest increases in 
mortality have occurred as a result of human activities is in 
the smolt-to-adult stage. Return rates have declined from an 
estimated 4 percent or more in 1968 to less than 0.2 percent in 
1992. Comparisons of downriver stocks with Snake River stocks 
corroborate the strong influence of migration corridor 
mortality. Snake River stocks above eight dams are faring about 
one-third as well as stocks--downriver stocks above three dams.
    As further corroborative evidence, during years of higher 
flows and improved passage conditions, differences in mortality 
rates between downriver and upriver stocks tend to narrow. So 
if freshwater habitat quality or even ocean condition 
fluctuations were the proximate causes of mortality, the 
shrinking of the differences between upriver and downriver 
stocks with higher flows would not be expected.
    The four points I just mentioned clearly illustrate the 
changes in the egg-to-smolt stage in freshwater spawning and 
rearing habitat are not responsible for declines in Snake River 
stocks. Rather, the declines since the mid-1970's have been 
caused by increased mortality in the smolt-to-adult life stage. 
The problem lies not in the quality of spawning areas but in 
the lack of sufficient numbers of adults successfully returning 
to spawn. Consequently, freshwater habitat restoration will not 
recover Snake River stocks.
    A National Marine Fisheries Service document, the so-called 
All-H paper provides the final supporting information to 
illustrate why Snake River stocks will be not be recovered by 
freshwater habitat restoration. The All-H paper prioritizes 
subbasins for habitat restoration based on need and 
opportunities for success. Not a single subbasin supporting 
Snake River anadromous stocks was prioritized for habitat 
restoration. Why? Precisely for the reasons stated earlier, 
because most of the subbasins already support habitat of good, 
high quality. In fact, the document said approximately 70 
percent of the habitat for listed species currently lies in 
wilderness or roadless areas, so only modest benefits would be 
realized from freshwater habitat restoration efforts.
    In summary, the biological opinion makes a critical error 
focusing on the egg-to-smolt life stage as the area of 
emphasis. This approach is not feasible and will fail to 
recover Snake River anadromous fish. If Snake River anadromous 
stocks are to be recovered, then the biological opinion must 
change its approach and emphasize measures to restore survival 
in the smolt-to-adult life stage to a level necessary to meet 
recovery goals. Thank you.
    Senator Crapo. Thank you very much, Mr. Thurow.
    I'm going to ask some general questions for the whole 
panel. I would just like you to feel free to jump in and 
discuss these issues with me. But I want to start out with a 
question that I discussed with the previous panel, and I'm just 
going to hold up--there's the two scientific reports that I 
talked about earlier. There's the Kareiva, Marvier, and McClure 
report from NMFS, which says that it's the potentially egg-to-
smolt cycle where most bang for the buck can be achieved. 
There's the response to that that says that cycle hasn't been 
downgraded for decades and that's not where we're going to get 
the success.
    I know from your testimony where some of you come out on 
that issue, but I would just like to ask you generally, in this 
whole debate over whether our best success can be achieved in 
terms of focusing on the egg-to-smolt cycle or the smolt-to-
adult cycle, do you have an opinion on that? I guess I would 
just like to go through all four of you and see if you have an 
opinion, and, if so, what it is.
    Mr. Anderson.
    Mr. Anderson. I think that the information on the smolt-to-
adult returns over the years has shown the greatest variation. 
In the 1960's 2 to 6 percent of the Smolts returned as adults. 
In the mid-1990's, they were on the order of a half percent or 
less. That seems to me where the greatest variation is, and 
that suggests where the mortality is great.
    Now, that doesn't mean that that's where stress is 
occurring, though. That's why you probably find, as I do, 
science quite frustrating, because we can't find mortality in 
the hydrosystem or in the freshwater environment. We think 
considerable mortality occurs after the hydrosystem and is out 
of our control, but we can always make arguments that it's due 
to stress in the fresh water so it is in our control. Until we 
can resolve that, whether it's due to the size of the fish in 
the freshwater environment, stress in passing with barges or 
through the hydrosystem, or if it's due to disease because of 
interactions with hatcheries, until we can find or discard 
those things, we're not going to be able to resolve where to 
put our efforts.
    Senator Crapo. Mr. Paulsen.
    Mr. Paulsen. Certainly, there's been an enormous amount of 
variability in survival from smolt at Lower Granite back to 
adult at Lower Granite over the past 25 or 30 years, no 
question about that. How much of that is anthropogenic, how 
much of it is just ocean effects, I don't think anybody knows 
for sure at this point. I agree with Russ Thurow's point that 
the freshwater habitat for many of these stocks is in good 
shape. That does not, however, mean there's nothing you can do.
    I really think the possibilities for carcass nutrient 
whatever additions are quite high if that would, for example, 
help explain why you get this--what they call depensitory 
mortality, where at very low numbers the survival gets even 
lower than it was at moderate numbers of fish, and those 
techniques where you basically add hatchery carcasses or just 
plain fertilizer to the watersheds have proven themselves in 
other areas. It hasn't been tried to any great degree in the 
Snake at all. So, sure.
    Ocean conditions, there's nothing we can do about those 
other than monitor them, I think. There may be a little bit you 
can do in terms of when the fish get to the estuary in a 
transportation program or something of that sort, but those are 
beyond our control. Let's see what we can do because, of 
course, the basic point from the Kareiva et al article was that 
even if you make hydrosystem survival 100 percent, no mortality 
at all, that's not going to be enough by itself to bring the 
stocks back.
    They were just looking at this and saying, ``Well, where 
could we possibly do something?'' It looked to them like the 
only other place to look was very early in the life cycle 
either when the fish are still rearing in freshwater or when 
they're down in estuary, just out in the ocean.
    Senator Crapo. Mr. Dreher.
    Mr. Dreher. Mr. Chairman, as you know, I'm not a fisheries 
biologist, and so I, with your permission, would defer 
answering the question because I believe it's outside the realm 
of my expertise.
    Senator Crapo. I understand.
    Mr. Thurow.
    Mr. Thurow. A couple of points. To me, the issue of 
discretionary mortality is a really critical one, and what I 
mean by that is where in the life stage have there been changes 
in mortality attributed to human activities, so where do we 
have the discretion to do something about those?
    My point is that in these high-quality habitats--and I 
would disagree with Mr. Schiewe about the condition of the 
Middle Fork. I'm very familiar with that drainage. I've worked 
in it for 20 years. I've walked virtually every mile of 
spawning habitat accessible to anadromous fish, and the only 
drainage in the Middle Fork where we have opportunities for 
improving habitat condition is in Bear Valley Creek. The rest 
of that drainage is in very high-quality condition. Some of the 
areas he mentioned are actually outside the wilderness 
boundary, but Marsh Creek, for example, still has very, very 
high-quality habitat.
    So having said that, we do not have the opportunity for 
changing mortality in those areas. There has not been the 
change attributed to human activity so there isn't 
discretionary mortality. The Kareiva, et. al paper, basically, 
my understanding what they did and what CRI did is to look at 
the whole life cycle of salmon and say where is the mortality 
apportioned and where do we have some chance of doing 
something. So they looked at the first year of life, and, not 
surprisingly, that's where most of the mortality occurs.
    These fish produce between 4,000 to 6,000 eggs per female. 
In basic biology, we learn that the bulk of those are not going 
to survive. Survival is variable, but even in the best 
environments, the bulk of those fish are not going to survive 
their first year. There's a variety of reasons for that. To me, 
the biggest weakness of the Kareiva and the CRI work is that 
they don't look at the feasibility of it. Yes, most of the 
mortality occurs there, but what can we do about it? We really 
can't do much in high-quality habitats.
    I would also like to comment on Charlie's point about 
fertilization. I struggle with that a little bit for two 
reasons. Because, No. 1, my familiarity with the Middle Fork 
stock suggests that, although we do have low nutrients, much 
lower nutrients than we had historically because the great 
declines in stocks, the chinook parr and the steelhead parr 
that are in that system are in phenomenal condition. They're 
athletes. Those fish are taking advantage of the food that's 
there. The seeding rates are so incredibly low that in areas 
where we used to have clouds of chinook parr, now you see three 
or four fish.
    So the fish that are there, from my perspective, are in 
good condition. They're not suffering from bad conditions. If 
we hypothesize that there is an effect from lack of nutrients 
that we might have a positive benefit on, though, what that 
causes us to have to do is to hypothesize that there's actually 
delayed mortality that's skipping a life stage. What we see is 
the spawner to recruit numbers are staying fairly flat or 
increasing. That would suggest that the fish in the freshwater 
environment are not suffering from low nutrients.
    The hypothesis, then, would have to be that somehow they're 
in worse condition so when they become smolts and migrate, 
that's reducing survival, and, personally, I have a hard time 
believing that. It's also interesting to me that some of the 
scientists that aren't very comfortable accepting the notion of 
delayed mortality through the hydrosystem would accept delayed 
mortality skipping a life stage.
    Senator Crapo. Your answers to this question have raised a 
lot of issues for me. I want to kind of step you through what 
I'm thinking right now as I'm listening to you and make sure 
that I haven't reached any conclusions that you didn't intend 
for me to reach or that you don't think are justified.
    First, in terms of looking at the life cycle, what was it, 
95 percent of the eggs don't make it through the first year; is 
that the statistic that's generally accurate? The question, 
then, is whether that's not normal or whether what we are 
calling discretionary mortality or human-caused mortality is 
occurring in that 95 percent loss of egg to smolt. Do any of 
you on this panel believe that that's not normal? In other 
words, is there a lot of room to improve that survival rate 
over what it is in nature? Is my question making sense?
    Mr. Paulsen. I suppose it depends on how you define ``a 
lot.'' Are modest improvements possible? Could we drop the 95 
percent to 94, 93 or something like that? If we knew what we 
were doing, maybe. By the way, if it sounds like I'm proposing 
this carcass or nutrient stuff as a panacea, I'm not. I'm just 
saying I think it's something worth trying to see what happens. 
I don't think you can reduce it to 1 percent or 5 percent from 
95 percent or anything like that.
    Senator Crapo. So would any of you say that I've made a 
wrong conclusion here if I concluded that this 90-percent plus, 
90 to 95 percent of the eggs are going to be lost because 
that's how it works in nature and it's not being caused by 
human activity? I'm assuming that I'm OK with that conclusion.
    I also thought I heard in your answers, collectively, that 
most of the actual mortality as opposed to whether it's from a 
previous cause, but most of the actual mortality is actually 
occurring once the fish gets out of the river system and into 
the ocean. Is that true?
    Mr. Anderson. To maybe qualify that, the greatest 
variations in the life-stage mortality is in that section. Part 
of it is because we can measure that. We know how many smolts 
go out. We know how many adults come back and that's where we 
see biggest--a huge variation.
    Senator Crapo. OK. Well, any other responses to what I just 
said?
    Mr. Thurow. I guess I would clarify what I think you're 
saying is most of human-caused mortality seems to have occurred 
in that smolt-to-adult stage; is that what you're saying?
    Senator Crapo. What I was getting at is if we could measure 
how many fish die at each point of the--I'm not sure I want to 
say the life cycle because the life cycle from smolt to adult 
is 5 years or is a long period of time, and it includes the 
river system plus the ocean. But if we could divide it into the 
river system from when they leave their habitat--their spawning 
habitat and get to the ocean, and then what happens in the 
ocean, when does most of the actual mortality occur? Does it 
occur in the river or does it--a human-caused mortality in the 
river--or does it occur in the ocean regardless of what caused 
it?
    Mr. Paulsen. Are you saying human-caused mortality? I'm 
getting confused. Human-caused mortality regardless of what 
caused it?
    Senator Crapo. Right. Regardless of what caused it. I want 
to know when the death occurs.
    Mr. Anderson. Well, the measurements we have through the 
hydrosystem are 50 percent mortality, and that's about what it 
was before the dams went in. After that, there's maybe a 1 
percent survival after that point.
    Senator Crapo. In the ocean?
    Mr. Anderson. In the ocean including the estuary.
    Senator Crapo. Let me interrupt. Before the dams went in, 
there was a 50 percent survival through the river system?
    Mr. Anderson. It was maybe higher. Before the Snake River 
dams went in, when there were four dams in the system, it was 
not much different than what it is right now.
    Senator Crapo. With eight dams?
    Mr. Anderson. With eight dams.
    Senator Crapo. So what I interpret from that--what I hear 
from that is that it hasn't changed significantly with the 
additional four dams being put in. That doesn't mean that they 
aren't causing mortality. It just means that the mortality, if 
they are causing it, is occurring after they get to the ocean. 
Am I right about that?
    Mr. Anderson. You are right about that.
    Senator Crapo. Any disagreement with that?
    Mr. Paulsen. One caveat that Mike Schiewe mentioned this 
morning is that in the 1970's as the dams were going in, things 
were just terrible for in-river migrants. One thing he didn't 
say is, for example, they used to shut the Snake River off at 
night when power demand went down. It doesn't work that way 
anymore.
    Senator Crapo. So we don't really have a good gauge as to 
what it would be.
    Here's a question: Do we know without dams in the river 
what the mortality rate would be in terms of fish transferring 
itself from the habitat to the ocean?
    Mr. Paulsen. Certainly, not from direct measurements, no. 
There are certainly people who are willing to make a guess at 
that. Almost everybody, I think, would say it would be higher 
than it is now. It would be higher than the 50-odd percent that 
it is now.
    Senator Crapo. Higher survival.
    Mr. Paulsen. Yes.
    Senator Crapo. But we don't know how much. That helps.
    I guess I still have a question. What I'm leading to here 
is how we are going to figure out this question of delayed 
mortality or human-caused mortality and how we can study it to 
get an answer to it because we have--I think that we have some 
pretty good evidence--at least from what I've seen so far, 
there seems to be pretty strong evidence that the habitat issue 
is one where just because of nature, that's where the biggest 
losses occur, and we have pristine habitat where we still have 
problems, and so there's obviously something else going on.
    But then that something else is the question, and there are 
strong advocates who say that something else is the river 
system and the hydrosystem in particular, and there are strong 
advocates who say that something else is the ocean climate 
circumstance that we see cycled back and forth. I suspect 
there's probably some truth in both. The question is how much 
of a factor are those two, and then some say to me when I posit 
that question, ``Well, we can't do anything about the ocean and 
so we might as well focus on the hydrosystem because that is 
something that we can focus on and can do something about.''
    But the question I then have about that is if they're equal 
components, that makes sense, but if the ocean is 90 percent of 
the problem and the hydrosystem is 2 percent of problem, you're 
not really solving a lot if you just focus on it that way. On 
the other hand, if there are different ratios in there, then 
maybe the decision as to what to do and where to focus your 
efforts makes more sense.
    So, I'm trying to get, as a policymaker, a perspective on 
what the relative impact of different parts of the equation 
are, whether it be the hydrosystem, the predation, the ocean 
climate conditions, or whatever, how those fit together. Do we 
have any ability as scientists to answer those questions yet? 
Do any of you dare to even get it as simple as saying whether 
the ocean is a bigger factor than the dams?
    Mr. Thurow. I'll address that a little bit. I'm stepping 
out of a box into an area that I haven't done specific work in 
because my strength is in the freshwater-habitat arena. That's 
where I have the knowledge and experience. Obviously, there's 
strong evidence for cycles, productivity cycles in the ocean. 
But these have probably been occurring for hundreds of 
thousands of years, and salmon and steelhead have persisted 
through those cycles. Those cycles are working in concert with 
these other factors, these other human-caused factors.
    But for the ocean conditions to be the proximate cause of 
declines in Snake River stocks would require a couple different 
things. First of all, it would require that there's an ocean 
phenomenon that's specific to Snake River stocks, and it's a 
phenomenon that was coincidental with but unrelated to the 
hydrosystem. My understanding is that the first year of ocean 
residence is believed to be the big driver in survival of 
smolt-to-adult return so--in determining your class strength, 
and that's one of the reasons why we use what we call jack 
counts to estimate the next year's returns because there is 
that strong relationship with first-year residence.
    The evidence that I'm familiar with suggests that Snake 
River stocks and some of those downriver stocks that showed 
very different levels are using similar areas during that first 
year of life. So that would be an argument against this 
specific ocean--this ocean phenomenon specific to Snake River 
stocks.
    The other argument is that the shrinking of the differences 
between up- and downriver stocks during years of better passage 
conditions would also suggest that it's the migration corridor 
and not the ocean conditions that are responsible for the 
differences in those up- and downriver stocks.
    So I guess my view of the ocean is certainly important. 
Certainly, the ocean productivity is going to determine the 
rate at which stocks decline or improve, but looking at all the 
data, I find it really difficult to say that the declines of 
Snake River stocks have been caused by ocean productivity 
changes when we have measured changes in smolt-to-adult return 
rates of that magnitude. We know that 1968 we were in the 4 
percent smolt-to-adult range, and we know that it's declined, 
as he said, less than a half percent in many years.
    Senator Crapo. Mr. Anderson, Mr. Paulsen, do you have a 
perspective on that?
    Mr. Anderson. I have a perspective. We dealt with this in 
the PATH process. We had a couple of alternative hypotheses, 
one that was related to hydrosystem, one that related to ocean, 
another that was disconnected from all of those. Looking at the 
information, we found there were some critical data points, two 
or three which would drive you one direction or another in your 
conclusions. We did not have enough information to be able to 
separate out if those critical data points were important.
    We now have a little bit more information that our 
assumptions on the mainstem hydrosystem survival were too low. 
The new information indicates we have higher survival, so that 
will change our analysis, which we have not done. We have not 
looked at that. We still have some uncertainties about the 
comparison data sets we were using. We were using lower river 
stocks from the John Day, principally, which drove a lot of the 
conclusions. We didn't look at stocks from the Upper Columbia, 
which were declining independent of any changes in their 
hydrosystem passage.
    I think that we cannot resolve this issue with simple 
logical scenarios. We have to take a wider look at the 
different stocks using the available data we have, and, 
hopefully, we will also look at some of the conditions of the 
stocks. As Dr. Schiewe was pointing out, they're going to look 
at survivability depending on passage route of fish after 
they've left the hydrosystem. Putting all those factors 
together, over the next decade, we might be able to resolve 
this, but I just don't believe any logical scenario arguments 
are going to be sufficient because we can come up with so many 
of them right now.
    Senator Crapo. Mr. Paulsen, before you answer, I want to 
followup here. What I'm hearing from you--and I've kind of been 
picking this up from a number of things said here today--is 
that we don't have the ability to know the answer to some of 
these critical questions yet. Given the fact that we're looking 
at a BiOp that gives us 5 or 6 years to know before we're going 
to face another very critical decisionmaking point, do we have 
time to get some of the answers you just said we had to study 
and find out in that period of time?
    Mr. Anderson. Not in 5 years.
    Senator Crapo. So in 5 years when we make this decision, 
we're going to be sitting here with the same questions being 
asked and the same answers being, well, we don't know; is that 
right?
    Mr. Anderson. We could, yes.
    Senator Crapo. Mr. Paulsen, do you want to elaborate?
    Mr. Paulsen. I'd say it depends on what we do in the 
meantime. Certainly, things that depend on kind of gradual 
responses for large numbers of stocks, like all of the Snake 
River stocks all at the same time, we haven't a prayer of 
finding out very much more in the next 5 years. One thing that 
might happen is, again, if an ocean regime shift has occurred, 
the smolt-to-adult return rates may well go up substantially 
for Snake River stocks and probably others as well.
    If that happens, it casts some doubt, at least, over the 
dams as the cause of this extra mortality. In addition, if you 
can do experiments that affect different stocks differently, so 
you put carcasses out over here and don't put any out over 
there, or you improve this habitat but don't do anything to 
that, then you may be able to find some things out in 5 years 
or so. But other than that, I agree. I think it's going to be a 
while.
    Getting back to the--was it the dams; was it the ocean, I 
spent--I and other PATH members spent a lot of time trying to 
tease this out of the existing data, and in different ways and 
in different degrees, we all kind of gave up after a while. 
They didn't put the Snake River dams in as an experiment. They 
happened to go in when lots of other things may well have been 
going wrong with the Snake River fish. The same for dams and 
hatcheries and so forth and so on everywhere else in the 
Columbia. It's really tough to disentangle that in a way that 
you can say for sure, yes, it was the ocean and not the dams; 
it was the habitat and not the hydrosystem or whatever it may 
have been. It's a tough nut to crack.
    Senator Crapo. Mr. Paulsen, on a related point, you state 
in your testimony--or you stated concerning your testimony that 
monitoring efforts will be too broad, too general, and too 
diffuse to be effective, and I think you recommend some more 
closely monitored specific management approaches to this. Could 
you recommend or tell me what have you in mind there?
    Mr. Paulsen. Well, in a general sort of way, sure. The All-
H paper in particular calls for monitoring just about every 
phase of the life cycle for a great many stocks, and my main 
concern is that between dollar constraints and just practical 
ones, that there aren't but so many people who know how to do 
this and such, that we may wind up just monitoring everything 
that swims or creeps or crawls because almost anything could be 
related to how well the fish are doing, whether or not a 
management action is working and so forth.
    All I'm trying to say in my written testimony is to try to 
focus the monitoring on the effects of management actions taken 
under the BiOp to see if those actions work. Does spring flow 
augmentation, summer flow augmentation, do those have the 
effects that the BiOp says they will? Does increased spill at 
projects really result in increased survival at those projects? 
Do habitat-enhancement actions, whatever they may be, have the 
effect that people--have at least a positive effect, let alone 
a specific effect, that people think that they will? Because, 
otherwise, like I say, we may just run out of people, run out 
of money, run out of time doing this.
    Senator Crapo. Would you support the spread-the-risk 
approach that has been advocated where we have more of a 
balance between transportation and spill or other types of 
passage at the dams and then studying those perspectives?
    Mr. Paulsen. I think if and only if you really monitor 
those closely. Tag lots and lots of fish. Release them via lots 
and lots of different routes and so forth and so on because if 
what you really want to do is find out quickly whether or not 
transportation is better or in-river survival is better for 
fish, the really easy thing to do would be to transport 
everything you catch in, let's say, odd-numbered years and let 
them all go in even-numbered years and see how they do a few 
years later when they come back. That would give you far more 
contrast than the sorts of----
    Senator Crapo. Fifty-fifty.
    Mr. Paulsen. Than the 50/50 that's being pursued now.
    Senator Crapo. Mr. Dreher, I know that you're not a fish 
biologist so you haven't participated in a lot of this, but I 
do want to talk to you for a moment about the research that 
you've done with regard to water augmentation. I've seen your 
charts. I've got your testimony here with the charts that are 
in them. But as you indicate, the amount of water that is 
provided through flow augmentation in comparison to the flows 
in the river, both rivers, when you put that chart up, it just 
dramatically shows how insignificant that contribution is, and 
you've indicated that the amount of flow historically, whether 
you look at it from decades ago through now, has not changed.
    Is it fair to say that even if the flow augmentation that 
is being proposed were done, that it wouldn't change those 
charts very much, that you would still have the same levels of 
flow, in essence, very minor variations?
    Mr. Dreher. That's correct, Mr. Chairman. The water that's 
placed in the system through flow augmentation, once it's in 
the system it's so insignificant we can't even measure it. We 
can't even find it. We know what we're putting in, but if you 
were to go downstream and measure the flows without--with flow 
augmentation and without flow augmentation, you wouldn't be 
able to measure it.
    Senator Crapo. That's even in comparison to years when 
there was no storage and you just measured the flows when it 
was all going down the river normally; correct?
    Mr. Dreher. That's correct, Mr. Chairman.
    Senator Crapo. Tell me what your charts explain once again 
about the impact of flow augmentation on particle velocity.
    Mr. Dreher. We can detect some change in average velocities 
associated with flow. At least we can calculate some change. I 
should put it that way. But the velocity improvements are 
inconsequential. If velocities have slowed by an order of 
magnitude--which they have. It's a factor of 10 or better--and 
flow augmentation makes a 5 percent improvement, that's pretty 
insignificant. That's about the range of scale that we're 
talking about. It's a very few percent improvement in average 
velocity trying to compensate for an order of magnitude change, 
and it's too little. It's not enough to make up for the slowing 
if that slowing has been significant.
    But as I pointed out in my testimony, at least, based upon 
the current data set available--and other data sets may shed 
some more light on this--but flow--when the fish are ready to 
migrate, flow does not seem to be that important. The reason we 
can conclude that is because, as I indicated, most of the 
surviving fish in this PIT tag study, they migrated faster 
under lower flows than they did under high flows, and that's 
just totally opposite to what you would expect if flow velocity 
was a significant factor in migration.
    Senator Crapo. Thank you. I think we've gotten through this 
before, but I wanted to be sure. This is to fish experts on the 
panel. The question of whether the first year survival rates 
have changed much over time--well, changed much since the dams 
were put in is a critical question, I think, and I want to be 
sure. I'm operating under the assumption that there's really 
not much disagreement that the first-year survival rates have 
not gone down since the dams went in; is that correct?
    Mr. Paulsen. With, I think, one caveat. As a scientist, 
what I would like to have seen is experiments--measurements 
conducted exactly the way every year for 20, 30, 40 years. Of 
course, that isn't the case. The dam configurations have 
changed, the hardware, the bypass systems, and so forth, and so 
I suspect that it probably is true, in fact, that those haven't 
changed very much, but to say that they haven't changed at all 
or that they're exactly the same now as they were 40 years ago 
is probably stretching the data a little too thin.
    Senator Crapo. Would any of you disagree with the 
conclusion that even though the highest level of mortality is 
in the first year of life of salmon, that the most bang for the 
buck, in terms of what we can do to impact human-caused 
mortality, would be in the smolt-to-adult cycle regardless of 
whether we're talking about ocean conditions or hydropower 
issues or whatever?
    Mr. Thurow. I would say qualify that with where you have 
good habitat, yes. If you have degraded habitat, certainly 
there are some opportunities. In places like the Lemhi and the 
Yankee Fork, there are some opportunities to improve first-year 
survival, but where you have good-quality habitat, I think that 
statement is accurate.
    Mr. Paulsen. I'll put in a plug for carcass nutrient.
    Senator Crapo. Mr. Anderson agrees?
    Mr. Anderson. Yes.
    Senator Crapo. I have no further questions for this panel. 
I would like to thank you for your participation today and the 
information. Your testimony has been very helpful.
    We have one final panel. However, I've been asked to have a 
brief break here for probably 15 or 20 minutes, and so we will 
take a recess, and I'll try to keep the recess to about 15 or 
20 minutes so we can keep on pace.
    [Recess.]
    Senator Crapo. Mr. Dreher, would you come back up to the 
table? I know there's something that I was aware you were going 
to say, and I wanted to hear it, but we didn't get it done 
during the questioning, and I apologize for that. It has to do 
with the issue of collaboration and litigation, and I know that 
you and I have gone over this before, but I wanted it part of 
the record. So I would like to give you another minute or so to 
express your position on that.
    Mr. Dreher. Thank you, Mr. Chairman. In terms of the 
collaboration during this process, from my view, the 
collaboration has been wholly inadequate, and I don't place 
that criticism on the scientists necessarily. It's probably 
more fairly placed on the policymakers at National Marine 
Fisheries Service.
    Had there been adequate collaboration, then these 
scientific inadequacies, at least, that I described could have 
been addressed before the draft BiOp was finalized. But an 
aspect of inadequate collaboration that often is overlooked is 
what inadequate collaboration leads to, and that is increased 
litigation both in length and in scope.
    In this particular case, what I'm afraid that will lead to 
is a delay or diminishment in recovery actions that really 
could help the fish. That's an aspect of lack of collaboration 
that I think is often overlooked, but I think it's on point in 
this particular instance.
    Senator Crapo. I appreciate you being willing to come back 
up and say that. As you know, I very strongly believe that 
collaborative decisionmaking is not only better in terms of 
developing the buy-in of the people who are involved and the 
confidence of the people in the decisions that are made, but it 
gives you better decisions, and that means you will have less 
litigation and so forth.
    In this case, I think, if we don't have it, it's going to 
be worse for the fish. It's going to be worse for the people, 
for the economy and ultimately it will face us with much more 
expensive decisions that we will need to face in the future. 
Thank you very much.
    Mr. Dreher. Thank you, Mr. Chairman.
    Senator Crapo. Let me call up the third panel now. The 
third panel consists of Mr. Dan James on behalf of the Pacific 
Northwest Waterways Association; Mr. Thayne Barrie, the owner 
of Sunset Sports Center; Mr. Craig Smith, the Northwest Food 
Processors Association; Mr. Mark Benson of Potlatch 
Corporation; and Mr. Scott Corwin of the Pacific Northwest 
Generating Cooperative.
    Again, thank you, gentlemen, for appearing here today. I 
apologize for the break we had there. It was unavoidable, and I 
appreciate your patience.
    Mr. James, why don't you begin.

   STATEMENT OF DANIEL JAMES, ON BEHALF OF PACIFIC NORTHWEST 
                     WATERWAYS ASSOCIATION

    Mr. James. Thank you, Mr. Chairman. I am Dan James. I'm a 
government relations consultant with law firm of Ball Janik. 
Today, I'm representing the Pacific Northwest Waterways 
Association, where I worked from January 1992 until last month.
    PNWA's Idaho members include the Port of Lewiston, Boise 
Cascade Corporation, Potlatch Corporation, Idaho Power Company, 
Lewiston Grain Growers, and the Lewis-Clark Terminal 
Association. We recognize the importance of addressing the 
salmon science question; however--and we talked a lot about it 
this morning. However, even though there was 100 percent 
agreement on salmon science, we would still be faced with the 
problem of conflicts in law, goals, philosophy. These 
conflicts, if unresolved, will keep us from success.
    Consider the moon landing and the frozen French fry, the 
polio vaccine, and the cellular phone. In each instance, there 
were vast uncertainties in the science, wide gaps in knowledge, 
conflicting data, and a diversity of opinion. Yet, ultimately, 
those who pursued their goals were successful.
    The application of science was successful because goals 
were clear and priorities were definite. Absent clear goals and 
definitive priorities, the problems surrounding the recovery of 
salmon continue in the Columbia Basin. We are attempting to 
apply science without clear goals and without definitive 
priorities. Again, conflicts in law, goals, and philosophy are 
serious impediments to salmon recovery in the basin. I'll give 
you a few examples.
    It is the responsibility of the National Marine Fisheries 
Service to protect endangered fish without regard to the 
economic cost of doing so. However, it is the responsibility of 
the Northwest Power Planning Council to protect all fish and 
wildlife in balance with meeting regional energy needs.
    The Migratory Bird Act and the Marine Mammal Protection Act 
and other laws were created to promote a healthy, balanced 
ecosystem. At the same time, some species we are protecting 
have increased their consumption of ESA-listed salmon. The 
Caspian turns in the Lower Columbia River are the best example 
of this dichotomy.
    The ESA gives a highest possible and legal priority to the 
protection of listed species of salmon. Yet, the United States 
has trust 
responsibilities and treaties regarding Native Americans' 
tribal fishing rights. There are conflicts between protected, 
weakened--between protecting weakened salmon runs and 
encouraging the harvest of stronger runs of wild salmon and 
hatchery fish. There are conflicts between enhancing 
populations of wild fish and enhancing populations of hatchery 
fish.
    Some who advocate breaching dams are not willing to 
consider alternatives to mixed stock harvest to protect 
endangered salmon. This is a philosophical point as is some who 
advocate massive reductions in water withdrawals that would 
devastate irrigated agriculture appear unwilling to consider 
changing hatchery management goals to protect wild salmon runs.
    We need to establish priorities, and I offer a few problems 
to illustrate that point. What do we do when ESA and treaty 
obligations conflict? What do we do when salmon protection and 
marine mammal or avian protection conflicts? What do we do when 
hatchery practices and harvest practices hurt ESA-listed fish?
    To date, we have seen the Federal, State, and tribal 
agencies attempt to meet diverse and conflicting objectives. 
The Columbia and Snake Rivers support a tremendous diversity of 
life and bring a remarkable array of benefits to the region and 
the Nation. The question we have posed to ourselves is this: As 
users of these rivers, how can we support recovery of listed 
salmon stocks and preserve the other benefits that these rivers 
bring to the entire region and the Nation?
    As an aside, Mr. Chairman, after listening this morning, I 
want to recognize the important role that you and the committee 
can play in ecosystem restoration in the Lower Columbia River 
estuary, where many believe--which many believe is the key to 
salmon recovery. This committee can do an awful lot in that 
regard.
    Senator we hope that you and your colleagues will direct 
the Federal, State, and tribal fish managers to establish a 
clear and consistent goal that recognizes the complexities of 
salmon and the river system. If the outcome of that guidance 
manifests itself in multiple goals, then we must establish 
clear priorities that lead us to salmon recovery while 
maintaining the remarkable and important benefits of this river 
system.
    I do appreciate the opportunity to share my views on these 
issues, and I look forward to answering any questions that you 
may have. Thank you.
    Senator Crapo. Thank you very much.
    Mr. Barrie.

STATEMENT OF THAYNE BARRIE, OWNER, SUNSET SPORTS CENTER, BOISE, 
                               ID

    Mr. Barrie. Thank you, Chairman Crapo and members of the 
committee. My name is Thayne Barrie. I'm an independent 
businessman as well as president of Idaho Steelhead and Salmon 
Unlimited. I own Sunset Sport Center with a store here in Boise 
on the western side of the State as well as a store in 
Pocatello on the eastern side of the State.
    Idaho Steelhead and Salmon Unlimited was formed in 1984 by 
a diverse group of businessmen, guides, conservationists, sport 
fishermen, and concerned citizens from throughout the region to 
protect, restore, and preserve the Snake River's anadromous 
resource. The Snake River was once the world's largest producer 
of spring chinook, summer chinook, and steelhead as well as a 
large number of sockeye, coho, and fall chinook salmon. Snake 
River salmon contribute to economies as far north as Alaska and 
as far south as California and 900 miles inland to Stanley, ID.
    Members of ISSU claim that they can remember back in the 
late 1960's and early 1970's when small communities along the 
Salmon River, such as Clayton, ID, would sell as much as 2,000 
gallons of gasoline a day and about that many gallons of beer. 
In 1978, only 3 years after the completion of the four lower 
Snake River dams, salmon was closed on world famous Salmon 
River and has never reopened. Fishing businesses from Alaska to 
Stanley were devastated by the completion of these four dams. 
Sport, tribal, and commercial fishermen were the first victims 
of the result of the damming of the lower Snake.
    Because those dams were so lethal to wild salmon and 
steelhead, Congress acted immediately to protect remaining wild 
populations by creating the Frank Church River of No Return as 
well as the Selway-Bitterroot Wilderness Areas to protect and 
enhance the spawning and rearing for a few remaining wide runs. 
These two wilderness areas comprise the largest contiguous 
wilderness area in the lower 48 States. However, this added 
more victims such as logging, mining, and ranching, which were 
all but eliminated in these areas all because the dams kill so 
many fish that no other mortality can occur.
    The same trend continues today. The four lower Snake River 
dams continue to kill so many fish that no other human-caused 
mortality is acceptable. Sport, tribal, and commercial harvest 
are a mere fraction of what they were before the dams were 
built. Habitat such as at Bear Valley Creek, Marsh Creek, and 
Beaver Creek along the Salmon River, to name a few, are in 
better shape today than they ever have been, yet the Federal 
BiOp wants to continue to punish the victims. It is laden with 
habitat, harvest, and hatchery measures, more of the same stuff 
that has been done in the basin for 20 years.
    Currently, steelhead fishing in Idaho is a $90 million a 
year industry. It employs approximately 3,000 Idahoans. In 
rural Idaho, such as Riggins, Challis, and Orofino, it's an 
important natural resource, one that has far more economic 
importance than simply restoring them because of the Endangered 
Species Act. Don Reading of Ben Johnson and Associates 
estimates that a restored salmon fishery in Idaho would double 
that number. I know in my own business, salmon and steelhead 
fishing mean $310,000 a year or 9\1/2\ percent of my total 
business.
    When you look at a business such as mine, and we try to hit 
a net return of 3 percent, that's net, the loss of this revenue 
would equate to three full-time jobs and two part-time jobs. I 
cannot even speculate on the amount of nonfishing items that 
this customer can relate to. Possibly, it would mean the loss 
of my whole business. You factor that statewide and the effect 
would be enormous.
    Sportfishing in Idaho, Oregon, and Washington, according to 
the American Sport Fishing Association, showed that 
$2,993,298,116 was spent in 1996 by sport fishermen, nearly $3 
billion in 1 year, or about the same amount that has been 
squandered in the region by Northwest Power Planning Council on 
salmon recovery. Bear in mind this figure does not represent 
tribal or commercial fisheries and was compiled at a time when 
salmon and steelhead runs were at their all-time low.
    ISSU has no agenda for dam breaching. ISSU's agenda is to 
save salmon. If that includes the breaching of the lower four 
Snake dams, then that must be. We are willing to support any 
plan that can pass State, tribal, and legal muster. We have yet 
to see one that does and nor do we believe we will.
    I have included some economic attachments in my packet that 
the Save Our Wild Salmon has put together. These figures were 
in the documents derived from the DREW documents.
    At this point, if there's any questions, Senator, I thank 
you for the time and am willing to answer any.
    Senator Crapo. Thank you very much, Mr. Barrie.
    Mr. Smith.

      STATEMENT OF CRAIG SMITH, NORTHWEST FOOD PROCESSORS 
                     ASSOCIATION, SALEM, OR

    Mr. Smith. Thank you, Senator Crapo, and thank you for the 
opportunity to be here today on such an important topic.
    Northwest Food Processors Association is a regional trade 
association representing the fruit and vegetable and specialty-
processing manufacturers in Idaho, Washington, and Oregon. Food 
processing is the largest manufacturing employment sector in 
the State of Idaho and the second largest manufacturing 
employment sector in the States of Washington and Oregon. Food 
processors in the region operate 257 plants, employ 50,000 
individuals and realize a $7 billion in annual sales.
    We have a critical interest in the future of the Columbia/
Snake system for irrigation water, transportation, and 
hydropower. Today it seems apparent to us that salmon recovery 
in the Columbia/Snake is really at a crossroads.
    The Draft Biological Opinion really signals the beginning 
of a shift in direction for salmon-recovery debate. It's a 
shift away from dam breaching and toward a performance-based 
plan. We believe this shift is long overdue even though the 
BiOp has a lot of problems and still contains many of the same 
elements of past failed efforts. For too long we believe the 
region has argued over the big-ticket items, dam removal and 
flow augmentation. These two issues have been the focus of 
tremendous controversy and have dominated the public 
discussion.
    Now, the science is becoming more focused and the debate is 
beginning to shift. I think we're now beginning to understand 
that the science doesn't support dam breaching or flow 
augmentation, especially as it relates to Snake River stocks. 
That's a huge problem for some people who have staked their 
reputation on breaching and flow augmentation. So now we have 
the beginning of some different science battles that we believe 
are going to be very detrimental to the decision in the 
Northwest.
    As we continue to debate whether it should be CRI or PATH--
and we realize that all those things have to happen, but the 
data begins to become clear that there are things that can 
happen outside this discussion of constantly moving science 
that needs to happen and needs to happen now. It seems that 
these debates go on forever with no real resolution in sight, 
and while we argue and spin, viable and proven effective 
measures that will really help salmon continue to wait for the 
region to put its energies into productive recovery efforts.
    This is not to say that good things are not happening now, 
but how much more could we accomplish if we really move beyond 
these esoteric, self-serving debates?
    Mr. Chairman, our industry and the residents of the 
Northwest that depend on the Columbia River system for their 
livelihoods have had enough of this endless debate. The 
uncertainty hangs like a cloud, and combined with difficult 
times in the agriculture sector, it is having a very negative 
effect on our industry. For the good of the region, we believe 
it is time to develop and move ahead with a full recovery plan.
    It's time for reason and common sense to merge with science 
and produce a plan that can be implemented immediately for the 
benefit of fish and the benefit of the Northwest. That's why we 
agree with the approach that was taken by the region's 
Governors last summer to put together a reasoned, well-balanced 
All-H plan. We believe that that solution can come from the 
region and that the Governors are the ones who are in the best 
position to put together and move forward with that type of an 
approach. Using the science to inform their decisions, the 
region's Governors can develop a balanced plan that will 
benefit endangered species.
    NMFS and Federal agencies have had 10 years since the first 
listing on the Columbia/Snake system, and they haven't produced 
a recovery plan, and, in fact, the performance standards in the 
Draft BiOp are an attempt to set some goals, which we think are 
a positive thing, but they mean little outside the context of 
an overall recovery plan.
    In fact, it's our belief that the performance standards and 
the subsequent requirement for offsite mitigation in the 
current Draft BiOp have the potential to significantly damage 
ongoing habitat-improvement projects by forcing dam operators 
to go into tributary habitat areas, find projects that they can 
take credit for, and screw up local planning processes. We've 
seen this happen in the past, and we believe that it's a very 
real consequence of this particular BiOp.
    We are advocates of performance standards. However, they 
must be developed for the whole system, not just the hydro 
operation, and this is not possible because it's outside the 
scope of the current BiOp. This accentuates the need for a 
recovery plan.
    We believe strongly that we have to eliminate the piecemeal 
management practices we're now following. Consequently, it's 
time to end the rancorous debate over flow augmentation from 
the Upper Snake and the removal of four Lower Snake dams. While 
these issues continue to polarize the region, the science does 
not support either alternative. In my testimony I have at 
length quoted from the Federal documents that we believe--and 
this is NMFS science, not ours.
    In conclusion, Mr. Chairman, we think that now is the time 
for action, not for continued argument over the nuances of 
science. The science will never be complete. However, the 
controversial issues of breaching and flow augmentation, and in 
between those, there's general agreement on many practical, 
achievable, and productive salmon-recovery measures, things 
like limiting pinniped and avian and pikeminnow predation, and 
continuing to improve mainstem passage through bypass 
improvements and surface collectors, improving our 
transportation system, studying effects of ocean conditions, 
and many things that you've heard from the previous panels, we 
believe all those things are very productive and should go 
forward.
    Our perspective on this at this point is that now is the 
time for action. We cannot wait for 5 years to see whether or 
not we're going to be effective and then default to a strategy 
that isn't supported by the science. Thanks a lot.
    Senator Crapo. Thank you very much, Mr. Smith. I have read 
your full testimony. I appreciate that.
    Mr. Benson.

  STATEMENT OF MARK J. BENSON, PUBLIC AFFAIRS DIRECTOR, IDAHO 
               POTLATCH CORPORATION, LEWISTON, ID

    Mr. Benson. I am Mark Benson, director of Public Affairs 
for Potlatch Corporation's Western Region. Potlatch Corporation 
is a diversified forest products company with holdings in 
Idaho, Arkansas, Minnesota, Nevada, and Oregon. It is our pulp, 
paper, tissue, and lumber operation in Lewiston, ID, and our 
670,000-acre forest land holding in north central Idaho that 
makes the FCRPS Draft Biological Opinion and Draft Basinwide 
Salmon Recovery Strategy important to us.
    Over the past 20 years, we have developed a significant 
market for our paper board in Japan and other parts of the 
Pacific Rim. Our ability to use barge transportation between 
Lewiston and Portland has been critical to our success in 
competing in these overseas markets.
    Senator Crapo, let me begin my comments by thanking you for 
your support for allowing all involved to focus on actions that 
will help the fish while leaving dams in place, while 
protecting Idaho's water, and while meeting the needs of 
Idaho's communities. It is gratifying as an Idaho business with 
significant dependence on the existing river infrastructure to 
know we have unanimous support from our entire Federal 
delegation as well as our Governor.
    I also wish to thank you for providing this hearing 
opportunity for Idahoans to voice their opinions and thoughts 
about the BiOp and basinwide strategy. As you well know, there 
are strongly different views of role of the dams with respect 
to the current condition of Columbia and Snake River anadromous 
fish, both in terms of the contribution the dams make to the 
problem and in terms of their potential contribution to the 
solution. We believe there needs to be recognition of the 
strengths of BiOp as well as its shortcomings.
    Early on, attention was too often focused exclusively on 
the dams. We think that was wrong, and we're encouraged that 
both the scientific and the policy focus has expanded to 
include the entire life cycle of the fish and all of the H's 
that impact their life cycle. The fundamental premise 
underlying the Draft BiOp and the recovery strategy paper is 
that we set aside dam breaching and aggressively pursue a range 
of other measures to protect and recover listed fish species. 
We see no better course available for us to take.
    We understand that the details of draft proposals leave 
many areas of uncertainty and debate and that the process going 
forward will necessarily be adaptive and subject to ongoing 
improvement. As is often the case, the devil is in the details.
    We have concerns about the specifics and the timeframes of 
the performance measures. As the documents relate to offsite 
habitat management, we share a strong concern with others in 
our industry about the growing Federal intrusion into resource 
management roles that historically have been and should be the 
province of State sovereignty. We share similar concerns for 
farming communities of our State who see their dependence on 
irrigation increasingly at risk of Federal intervention.
    We believe, therefore, that the action by Governor 
Kempthorne, together with Governors of Washington, Oregon, and 
Montana, in stepping forward to assert a strong State role in 
the recovery measures that must be undertaken is critical to an 
acceptable and successful outcome.
    My company and the forest products industry are dedicated 
to fish recovery without interruption of the river system and 
its amenities, and we believe, based on our interpretation of 
work done by both government and private sector scientists, 
that this is realistic. We are committed to working together 
with Idahoans and others in the Pacific Northwest who are 
committed to finding solutions to accomplishing this task.
    It is important to move forward, and we must move forward. 
In our opinion, moving forward requires three things. Clear 
direction for maintaining the existing infrastructure, 
meaningful and effective measures for recovering fish, and, 
third, legal certainty.
    Mr. Chairman, in conclusion, I would like to thank you for 
the strong interest you have taken in addressing this hugely 
difficult and critical issue. We deeply need the help and 
guidance we have come to expect from you in our collective goal 
of achieving a successful outcome for all of the economic, 
environmental, and community interests that has so much at 
stake in this effort. Thank you.
    Senator Crapo. Thank you very much, Mr. Benson.
    Mr. Corwin.

             STATEMENT OF SCOTT CORWIN, PNGC POWER

    Mr. Corwin. Thank you, Mr. Chairman. I appreciate this 
opportunity to appear today. I would like to thank you for 
showing the leadership to hold these hearings to scrutinize 
these issues that are so critical to our region's environment 
and economy. My name is Scott Corwin with PNGC Power. We are an 
energy-services company that's owned by 16 rural electric 
cooperatives throughout the Northwest, six of them here in 
Idaho that you would know, Clearwater, Fall River, Lost River, 
Northern Lights, Raft River, and Salmon River co-ops.
    Before commenting on the BiOp and recovery strategy, I 
would like to take a moment to highlight two important Federal 
management positions that will need to be filled in the next 
few months that a lot of us in the energy industry consider 
critical to fish and wildlife management in the region. One, of 
course, is the regional director of National Marine Fisheries. 
The other one is the administrator of the Bonneville Power 
Administration. I would like to encourage you and your other 
colleagues in the Northwest delegation to become involved very 
early as potential replacements are considered.
    There are several other important management issues that 
are closely tied to scientific issues here today. Some of them 
have been touched on here already. We look at the BiOp and 
recovery strategy as taking significant steps forward in some 
respects in trying to look at species recovery in a 
comprehensive fashion. However, the goals in the BiOp and the 
recovery strategy fail to address a weakness that has 
continually hampered fish management in the Northwest, lack of 
prioritization and lack of reconciliation among conflicting 
goals, especially in areas such as fish harvest and hatchery 
production, a point that you made eloquently at the September 
13 hearing when you referenced spilling water for fish that 
later get clubbed.
    The recovery strategy needs to make more aggressive strides 
to ensure that priorities, goals, and implementation of 
strategies which are coordinated both internally and externally 
with the Northwest Power Planning Council's program--certainly 
with the four Governors' outline, which we thought was a very 
good effort--and the tribal and State programs. While we 
believe inclusion in the BiOp of the concept of performance 
standards for measuring results is worthy, many of these 
standards are incomplete and unevenly applied at this point. In 
some areas, there remain questions as to whether they are 
achievable at all. This area needs some work.
    On the science, there are many recognized critical 
uncertainties. Some of those have been covered today already. 
Delayed mortality, certainly. Importance of diversity, 
reproductive success of hatchery fish, impact of hatchery 
releases, estuary ecology, ocean ecology, and even things as 
basic as counting fish have caused problems with NMFS and other 
folks doing the research here.
    With limited scientific or legal clarity behind drastic 
actions, such as breaching dams, we fail to see how references 
to breaching dams or certainly to preliminary design work on 
that deserve treatment alongside reasonable and prudent 
alternatives in this Biological Opinion. This does not mean 
that hydro is off the hook in this opinion, as Mr. Schiewe and 
Arndt referenced earlier.
    The hydrosystem continues to be the major focus of recovery 
efforts, and it will continue to fund the bulk of the 
mitigation in the region with current levels of 435 million 
annually by rate payers, expected to rise by at least another 
hundred million or more within the context of this BiOp. This 
includes large investments in infrastructure, continued flow 
augmentation, and potential enhancements to the spill regimes. 
But because the best-available science shows that progress has 
raised hydro fish passage close to the point of diminishing 
returns, real success for recovery will require looking into 
other areas of the life cycle. Efforts in the first year of 
life and in the estuary appear promising as described earlier 
here.
    On budgeting for the BiOp, we're concerned we have yet to 
see a comprehensive budget for the BiOp and draft recovery 
strategy that contains real commitments from the many relevant 
Federal agencies and other regional entities involved here. To 
be viable, the plan cannot merely be a large blank check to be 
filled in by the region's electricity customers. We need better 
accountability than that and we need better monitoring and 
evaluation of the science to know what we are getting for those 
investments.
    Finally, on power system reliability on the BiOp, I would 
like to say that while curtailing fish operations during power 
emergencies should not take the place of good power planning, 
language should be included in the BiOp that recognizes this 
need at times to ensure human safety. We would support the 
request of the Northwest Power Planning Council because of the 
serious potential in the near future for power supply shortages 
in the region, it includes language in the BiOp that 
specifically provides for curtailment of operations for fish in 
the case of emergencies.
    Again, I'd like to thank you for this opportunity and for 
your continued push for the best scientifically-based solutions 
to this problem. I would be happy to answer any questions.
    Senator Crapo. Thank you very much, Mr. Corwin.
    There's a lot of questions that I have that come from 
different perspectives to members of this panel, but I think I 
want to start out with just some broad generalities and get 
your positions on them.
    First of all, let me ask--I assume that none of you are 
fish biologists. I'm still going to ask you some scientific 
questions, but I want to be sure that we understand where we 
are all coming from. You represent from different perspectives, 
nevertheless, different interest groups who are impacted by the 
decisions that are made with regard to what direction we will 
take and what priorities we will establish in the salmon 
recovery. As a result, you have positions on the science. 
You've studied the science like I have, and you've evaluated it 
and have reached conclusions. So I do want to talk about that.
    But first, I want to talk about essentially the role of 
science versus the role of policymaking or establishing goals, 
trying to clarify conflicts in the law, which is an aspect of 
policymaking that we need to deal with. I want to make a 
statement of my own and then ask you to just comment on it, if 
you could. It seems to me, as I said at the outset, as we 
develop the salmon recovery plan, it has to be based on good 
science. I doubt that anybody will disagree with that.
    However, the question then becomes, Will the science 
essentially be a trump card that drives any solution and forces 
out consideration of other factors, or will the science then be 
merged by policymakers into a policy decision that takes into 
consideration economic impacts, job loss, mitigation concerns, 
cultural impacts, sociological aspects of the issue, and so 
forth? How do we merge those two? It's a very difficult topic, 
frankly, to discuss because it's hard to say that if science 
says you have to do something, that it's not necessarily what 
society will do.
    But even though the Endangered Species Act does not have 
many provisions in it which contemplate recognition of anything 
other than what the science drives the decision to mean, what 
we've learned under the Endangered Species Act--and I think the 
God squad and the Endangered Species Act was sort of an effort 
to recognize this--is that when people and jobs and the 
economy, human element is not considered, then we have strife, 
political division, and often the political process imposes a 
gridlock on the decisionmaking process.
    So the question I would like to ask in general is, how each 
of you--if you don't have a position on it or prefer not to 
state one, you don't have to, but if any of you have a 
recommendation to me and to this committee and to the 
decisionmakers in the region who will be evaluating this, what 
role science has, and how we mix in the economic, human, and 
political aspects of this difficult decision.
    We will start with you again, Mr. James.
    Mr. James. I'll take a stab at that. I think that one of 
the things that science can do is provide us with a menu of 
things for which we agree and a menu of things in which we do 
not. I think that one of the things that policymakers--that we 
would encourage policymakers to do is to find those areas in 
which there is agreement. Call it developing a suite of options 
or something else, but develop that list in which there is 
agreement mostly and move forward on those things. You'll find 
a tremendous amount of agreement, I believe, within the region 
among a wide range of stakeholders on the role that ecosystem 
restoration in the estuary plays, as an example. Let's move 
forward on that.
    Conversely, you find a tremendous amount of disagreement on 
the issue of breaching dams. It's quite strident, and I believe 
that that issue can keep us from moving forward on that which 
we can agree on. As an example, in the coming years, we might 
be debating funding for preliminary engineering and design for 
breaching dam and economic mitigation studies at the same time 
we're debating how to get funding for things like ecosystem 
restoration. So debating one can keep us from moving forward on 
the other. That's a great concern.
    Senator Crapo. Thank you.
    Mr. Barrie.
    Mr. Barrie. This is one I really don't wish I were in your 
shoes over. You have two sides of science. Which one do you 
believe? Science can be melded to whichever opinion you choose 
to follow.
    Senator Crapo. We've certainly found that.
    Mr. Barrie. Yes. Now, there's a thing called mitigation. 
That's where I think someone has to look at it from outside the 
realm of the affected and say we can't have any more victims, I 
believe, in the issue of transportation by waterway, by water 
rights. What I think has to happen is there's a tough decision 
that's got to be made, but with everything that's got to be 
done, I think there can be a balancing factor in their 
mitigation with money that is already there and being spent. 
It's time, like we've talked about in the past, that there 
doesn't need to be more victims. There needs to be more answers 
to those problems in making everybody whole again. I think 
that's the one area that it's eventually going to come to.
    Senator Crapo. Mr. Smith.
    Mr. Smith. Senator, I think fundamentally this is a policy 
decision, ultimately. It will be informed by the science, but 
ultimately this discussion will be made by the policymakers 
like yourself. The reason I say that is such a complex issue 
that we will argue the science until I am dead on this issue. 
It will continue to change. It will continue to go through the 
scientific process. That's the way science is.
    I'm the son of an engineer. It's only taken me 40 years to 
get over that. My father was trained in science. He never gave 
a straight answer to anything. I love my dad. But the fact of 
the matter is that it's not because he's trying to avoid that 
or the science is trying to avoid the answer. The bottom line 
is the scientific process is one that isn't designed to give 
definitive answers. It's designed to refute rebuttable 
presumptions. I don't think we'll ever get a clear, absolute 
answer from the science on this issue.
    I think that we do, however, have from the science some 
very, very clear trends, and like Dan said, there are areas 
where people generally agree that there are things we can do 
now to move forward. That's really our position. We believe 
that the science on dam breaching is very weak. It isn't 
strong. There is no compelling reason to breach dams. If you 
look at the science right now, there's no real benefit to fall 
chinook as far as the Snake is concerned. The benefit to spring 
chinook is very questionable depending on D values.
    Well, they don't know whether there is really delayed 
mortality or not. Right now it doesn't look like it, but the 
science could change. So do we breach dams and hope that they 
recover--it recovers fish based on a very hypothetical process? 
I don't think so. But that's a policy decision. I believe that 
down the line, ultimately the decisions that will be made, they 
are being very highly--they're made much more complex by the 
Endangered Species Act, which will not give us as much 
flexibility.
    But in the previous panel, Dr. Anderson made the suggestion 
that we look at the way we define ESUs differently. There is 
some flexibility, I think. Those are going to be policy 
decisions because NMFS has made a decision on ESUs they're 
probably not going to back off of, but if, for instance, we 
were to use some hatchery fish as a refusion, as Jim suggested, 
that's probably going to be a policy decision. There's lots of 
areas, I think, where the policy aspects of this are going to 
come into play.
    I ultimately believe that whether the policymakers in the 
region take an active role in this or default their active 
role, it still would be a policy decision. It won't ever be a 
science decision, ultimately will make a policy decision either 
by default or by actively setting out a recovery plan and going 
after it and saying this is the best we know how to do, and 
then through adaptive management principles, making it better 
as time goes by.
    Senator Crapo. Mr. Benson.
    Mr. Benson. As has been stated or alluded to, your 
challenge is certainly made more difficult by the fact--or by 
the--my observation that the science is never going to be 
overwhelming on one side or the other. You're always going to 
have to choose between some science, and not being a scientist, 
like we aren't, it really does become a matter of good policy.
    I do believe that the sooner we begin spending money to do 
things for the fish, the better the fish are going to be and 
the sooner they are going to begin to show improvement.
    Senator Crapo. Mr. Corwin.
    Mr. Corwin. I have the disadvantage of being a lawyer and 
former Senate staffer, so I'm not biologically inclined. 
However, when I analyze these issues from a policy perspective, 
the ESA doesn't exist in a vacuum. There's other statutes that 
will demand that it become a policy decision in the end, one of 
which I reference in the Northwest Power Act, where we are 
worried about reliability.
    But beyond that, I think that the other problem is you 
won't see reconciliation of the huge uncertainties in science 
anytime soon. I was actually at a PSU--Portland State 
University, had a whole symposium on this, how to make 
decisions on salmon in times of uncertainty, and I can provide 
some of the papers to you on that. They were excellent.
    Senator Crapo. That would be helpful.
    Mr. Corwin. That reminded me of--I saw a Presidential 
historian, Richard Norton Smith, speak a couple days ago. He 
said the trick to being a really good historian is to wake up 
every morning energized about dispassionately studying his 
subject. I think it's the same challenge here. We need to pin 
down the answers that we can and then move forward carefully 
and carefully monitor and evaluate everything--all of the steps 
that we take so that we're not here in the same spot 10 years 
from now.
    Senator Crapo. Thank you.
    Well, certainly, I agree with the comments that have been 
made about the fact that ultimately this is a policy decision 
that will be made at some level and probably at multiple levels 
as our legal system operates.
    I tend to believe that the more we study and the more 
science we are able to evaluate, the more we can build 
consensus on aspects of the science as we learn more and more 
about it, but I think the testimony we've heard today and in 
the other hearings shows that we are anywhere but near 
consensus on the science right now. In fact, I thought that we 
were getting to some consensus, and I'm concerned now that 
maybe we're getting further away from some of the consensus 
that I thought we were starting to build.
    One of the questions that I have and I realize now I'm 
starting to venture into the science arena. One question I'd 
like to have you discuss with me from your perspectives is this 
issue that I have used with both the other panels of the sort 
of competing science reports.
    I have here the science report from the National Marine 
Fisheries Service that essentially says that taking out the 
dams is not going to save the salmon and that will not--I'll 
use their words,

    Even if mainstem survival were elevated to 100 percent, 
Snake River spring, summer chinook salmon would probably 
continue to decline toward extinction and modest reductions in 
the first year of mortality or estuarine mortality would 
reverse current population decline.

    So here's a study saying that dam removal isn't going to do 
the job and focusing on, basically, the first year of life. The 
egg-to-smolt stage is where we can get the most bang for the 
buck. Here is a group of scientists responding saying that is 
not correct. That the fact that the highest levels of mortality 
occur in the first year of life is a natural fact of nature and 
that we haven't seen reductions in the survival rate in the 
first year since before the Snake River dams were put in. So 
you're not likely to do anything except spend a lot of time and 
money if you put your focus there. These are both current 
scientific reports, I think, within the last month.
    We have different positions here represented on this panel 
with regard to what aspect of the salmon recovery should we 
focus on as we try to move forward. The question I have is on 
the science, as you understand it from your perspectives, is 
there any consensus about whether it is the egg-to-smolt stage 
or the smolt-to-adult stage that is where we should focus our 
priorities in terms of salmon recovery efforts? Maybe instead 
of asking you whether there's consensus, I'd ask you whether 
you believe it's one stage or the other that's the better stage 
to focus on, if you have an opinion.
    Mr. James.
    Mr. James. Do I really have to go first?
    Senator Crapo. You can pass if you want.
    Mr. James. I would like to think about that for a minute.
    Senator Crapo. Mr. Barrie.
    Mr. Barrie. One thing that we can look at, I've heard a lot 
today about flow augmentation and velocities and such and that 
they didn't relate to, basically, adult return, and one thing 
that we can look at is this year's past salmon season on the 
Little Salmon River. I believe that those fish are in direct 
relation to the amount of water that we did have spilling in 
the high-water years from 1997, 1998--excuse me. That would be 
1998, 1999. Those fish are a progeny of that return.
    You know, to say that the velocity and such doesn't 
attribute to a better return, I wholeheartedly disagree with 
that. In evidence with the jack counts that have been mentioned 
earlier, next year's return looks to be great as well. Sure, we 
have had tidal changes in the ocean. Do I hope that continues? 
You bet. I would like to see the returns keep going up, up, up. 
I think this next year's jack count, based on the low-water 
year that we had for the--that that return would show that it 
is going to be a key factor in knowing whether the ocean is 
making that cyclical return.
    But to say is it the juvenile, from the smolt to adult or 
is it the egg-to-smolt, that's a tough one, and I think there's 
been a lot said about that just recently more so than in the 
past. I think that's becoming more and more a question. I 
think, like you're saying, there's going to need to be a lot 
more study, but I can't believe that throughout history from 
the dawn of time that these fish did not have that same 
percentage of egg-to-smolt survival rate. In common sense, it 
doesn't play.
    Senator Crapo. Thank you.
    Mr. Smith.
    Mr. Smith. I don't really know or have an opinion on 
whether it's one or the other because I don't really know the 
science that well. But I do know this, that it makes more sense 
that--well, I read a recent letter from NMFS to one of the 
groups that had sent a letter to them. NMFS believes that, for 
instance, for every smolt that is saved in the estuary from 
predation, they get a tenfold increase in return. So they do 
have some data that shows that.
    To me, there's some commonsense things that we can do 
without having to argue whether or not it's one or the other, 
but it does make sense to decrease predation in the estuary, I 
think we've already seen the results that this year where some 
significant decreases were made and there's a lot of room for 
improvement. Nobody really argues that, except we have lawsuits 
that stop us from moving birds that don't belong in a certain 
place. None of that makes sense to me. I think those are the 
areas that we all could get behind or at least a lot us could 
get behind.
    I think that there's some really commonsense things. From a 
perspective of habitat, maybe it doesn't make a lot of sense in 
Idaho's tributaries to spend a lot of time on habitat unless 
this fertilization process can be productive because they're in 
good shape, but there are other places in the region, where 
they're not in good shape, and I think that's the problem with 
this BiOp. It's a one-size-fits-all kind of an approach. Flow 
is always good. Habitat improvement is always good. There's 
these general statements in there that don't apply to every 
single area in the region. There's very different conditions in 
each of these tributary systems.
    So, habitat improvements may be tremendous in targeted 
areas. That's been our complaint for many years, is that we 
don't focus on things that are going to get us the biggest bang 
for our buck in a hurry, and that's why we think that stopping 
some of this predation, moving into habitat areas that are 
clearly degraded and need to be helped, going and doing some 
mainstem flow--not flow but passage improvements, and 
continuing to tweak that system makes a lot of sense. We think 
that that's the way to go rather than to--I can't tell you in 
all honesty whether or not one or the other is better, but to 
us there's a pragmatic way.
    I think you said it best earlier when you said if the ocean 
is 90 percent and we're only playing on 10 percent and we've 
already gotten 90 percent of what we're going to get out of the 
hydrosystem, then we're talking about 10 percent of 10 percent 
as far as improvements on that, and we're going to spend 
hundreds of millions of dollars. Is there a place we could do 
it better? To me, those are the kinds of things that go back to 
your policy question earlier.
    We're probably going to need to make some policy decisions 
that say our best return on investment is in these five things. 
Let's go do them well and continue to study. I think we don't 
know much about the ocean, and we don't know about these 
questions you're asking. They should be studied, and if it's an 
issue, then we know how to address it.
    Senator Crapo. Thank you.
    Mr. Benson.
    Mr. Benson. I'm certainly not qualified to reflect on egg-
to-smolt versus adult-to-smolt, nor do we have staff scientists 
in our company that have done work in that regard. We have 
hoped, honestly, that science would be found that would support 
the position to leave the dams in place because of the 
importance they have in your operations. That has occurred. 
There is science now and, frankly, has been throughout the 
debate, and so I find myself a little perplexed by the ongoing 
debate. I would like for the debate to be over sooner than 
later.
    But it seems to me that if there are credible scientists 
delivering credible science that says it's worth taking a shot 
at recovering these fish by leaving the infrastructure in 
place, that that would be a constructive way--or a constructive 
place to begin our work to achieve recovery of the fish.
    Senator Crapo. Thank you.
    Mr. Corwin.
    Mr. Corwin. I would preface by saying the electrical co-ops 
are kind of in an interesting position because they go beyond 
carrying this--about the price of power in the dams. Their 
owners, customers are the landowners also. From that 
perspective, in this BiOp, we're trying to address eight other 
species, too, beyond the Snake system that we haven't discussed 
much where there very well may be habitat issues that haven't 
been discussed here today.
    In the Oregon plan, for example, where they were dealing 
with species that weren't passing dams, there were very 
concerned about water temperatures and tributaries. I 
fundamentally don't accept the science, I guess, as a 
dichotomy. I don't think we've seen enough yet to make this 
call. I've looked at the statistical analysis in some of these 
papers. I haven't seen one where--you can think of 10 or 20 
variables off the top of your head where they're all 
controlled, where they're all mixed between life stages and 
different combinations all up and down the river. I'm not sure 
we're there yet.
    I think the more important point to come out of the one 
paper was if there's a serious finding that you can't get 
recovery even with 100 percent survival through the system, 
then regardless of how much you can get out of other areas, you 
better start looking.
    Senator Crapo. Mr. James, did you want to----
    Mr. James. I've now had a couple of minutes to collect my 
thoughts. It's a pretty complicated issue, clearly. Although, 
I'm not a scientist, I have a couple of observations. One is 
that it seems that we ought to be doing everything we can. I've 
heard it said anecdotally that it's all about getting adult 
spawners back, how do you know that you've achieved success, 
and that that's it. So we ought to be looking at--based upon 
what we know, what gives you more adult spawners back.
    I've heard references to something that Craig said about if 
you improve survival at key points, there at least is a theory 
that you get exponentially more fish back or by some factor 
anyway, and I think that that ought to tell us something in 
terms of where we ought to be focusing our efforts in the near 
term.
    Another one, and I know that this is subject of 
disagreement, and that is the role of transportation. I think 
that there is some evidence that this smolt transportation--
that barging fish has worked and that if we were to increase 
the amount of fish in barges, at least based upon the theory 
that we are getting more fish back that have a transfer system 
that way as opposed to going down through the dams, that we may 
be--you may see more adult spawners back. Again, it's a theory. 
People disagree, but as we've looked at the science over the 
course of the last 10 years or so, that's something that many 
of our members believe.
    Senator Crapo. Mr. Barrie.
    Mr. Barrie. If I can for just a second, that's one thing 
that I do want to address and that's the transportation issue 
of actual--the barging of the smolt. It has been done for a 
long time, and it has not worked. This year--I get the numbers 
every week as far as bypassed and smolt transportation. I've 
looked on them for numerous, numerous years. That plan is not 
working. I mean, we are still not getting the return that was 
projected by that idea. I don't want anybody to get the 
misconception that maybe we can start barging. We barged 96 
percent of them the last 2 years. That's one issue that we 
definitely need to be aware of.
    Senator Crapo. Some of us have been advocating a spreaded 
risk for some time now.
    Mr. Barrie. There was an idea suggested today about every 
other year.
    Senator Crapo. What do you think of that as opposed to 50/
50 each year?
    Mr. Barrie. It's a tough decision, and I think it might be 
one that we have to come down to. Some believe that that would 
be a good proposal.
    Senator Crapo. I see there's people getting interested in 
this discussion. Is there anything more that anybody wants to 
say? I think a debate started here.
    Mr. Smith. I don't mean to debate, but I think there's a 
couple things that I would like to add to the discussion, and 
that is, No. 1, I do think that it would be interesting to do 
every other year because it may give us some really valid 
statistics. The problem that I see with that is it's extremely 
risky.
    I'm reading here from NMFS's documentation that,

    Overall direct survival of transported migrants is high, 
estimated at greater than 98 percent. Behavior and survival of 
transported fish below Bonneville Dam is similar to that of in-
river migrants.

    I won't read the rest of the paragraph.
    The conclusion is while some differences in smolt-to-adult 
returns exist between transported and undetected in-river 
migrants, no significant differences have been observed. That, 
in a nutshell, lines out why it is that NMFS is not advocating 
breaching those four dams, because without differences in in-
river, undetected migrants and transported fish, the D value, 
there is no justification for breaching, and that's why they're 
backing away because their data right now does not indicate 
significant D value.
    That could change. I'm not a scientist. I don't understand 
it, but that's from their own documentation that they put out. 
I do believe that the transportation program has been 
successful. Whether it's--it's not the long-term answer. I 
don't think anybody believes that, but at this point in time, 
it clearly is a good alternative.
    Senator Crapo. What about the question of delayed 
mortality? What if the other members of the panel said that's 
the $64,000 question.
    Mr. Smith. That is exactly what this addresses, the delayed 
mortality, basically, when you look at transported fish returns 
versus undetected in-river migrants. In other words, are the 
in-river migrants coming back at a higher rate percentagewise 
than the transported fish? That's the D value. That's the 
ratio.
    Right now, there is no--that's what this document says. 
There is no significant difference in the computation. There is 
not enough difference to be significant enough to cause 
breaching to be successful. That's why the CRI analysis 
addresses that and does not believe that given the PIT tag 
data, and that's why we're in this discussion between PATH and 
CRI because CRIs use some of the 
latest PIT tag data, and I don't want to go into all that 
because I don't understand it all. But we can argue this 
forever, but I guess at some point in time, using the science 
as best as we know it, and it does change, then we have to make 
some management decisions.
    Senator Crapo. Mr. Barrie.
    Mr. Barrie. One thing there, though, that you need to 
understand is that when 96 percent of fish are barged, you've 
got 4 percent competing against 96 percent to have the same 
amount back.
    Mr. Smith. No. That's not the way it works. It's a ratio, 
and so what they do is they count the number of fish down and 
then the number of fish back out of that same number, and it's 
a ratio of smolt-to-adult returners, so it's not a direct 
number.
    Senator Crapo. Although, if you do have 96 percent in one 
category and 4 in the other, it's----
    Mr. Barrie. The ratio is swayed.
    Senator Crapo. The question is whether that 4 percent is 
enough to give you a valid test.
    Mr. Smith. I understand that.
    Senator Crapo. I see the points that you're making. A 
question that I have--I thought I saw another hand or somebody 
else wanting to jump in.
    One of questions that I have--and, Mr. Corwin, in your 
testimony, you stated that the hydrosystem will continue to be 
a major focus of recovery in the BiOp and very significant 
effort will continue to be made there. I assume that--and, Mr. 
Benson, you said that you agree. I'm putting words in your 
mouth, but I think I'm correct here. You can correct me if I'm 
wrong. Would you agree with the premise of the BiOp, namely 
that we put back the breach decision and see if we can find 
nonbreach alternatives that will work in the meantime?
    The question that I have is this: If we accept that 
premise--and I think whether we accept it or not, that's 
probably what we're going to live with what NMFS is doing--then 
we do have a period of time in which the decision to breach has 
been set back, and we have, hopefully, a choice or an ability 
to influence the choice about what we do during that period of 
time.
    Over the years, as I've read scientific studies and 
evaluated all of the science that has come my direction, it has 
seemed to me that a tremendous amount of the focus has been on 
the hydrosystem as a cause of human-caused mortality to the 
fish and that if we take our attention away from the 
hydrosystem as we focus on what to do during the next 5 years 
and focus in other areas that don't give us as much return--in 
other words, if we don't get this right, then we could be in a 
situation where we, as one of the witnesses, I think, Mr. 
Thurow, said earlier, ``You're not going to recover the fish 
with the current BiOp. It is not going to happen''. That's what 
he said, if they focus in the way that it appears they're going 
to focus.
    Wouldn't it be better to do everything we can on the 
hydrosystem short of breaching so that when these 5 years have 
passed, we at least know in that area of it that we have done 
our best? At the same time, we could, as I think Mr. Smith has 
suggested, in areas where the habitat needs improvement, we 
could do everything we can there, and in areas where we find 
improvement opportunities in the estuaries, we can do what we 
can there. But is there any justification for abandoning a 
focus on doing the very best we can do with improving the 
hydrosystem?
    Mr. Corwin. I would say, no. But I guess I'm--I haven't 
been able to detect where this BiOp and recovery strategy does 
that. What it does is build on the existing efforts in the 
hydrosystem. Certainly, monetarily it does that, but I think it 
does that by keeping what's in place, by doing further 
experimentation on some of the major aspects of what we're 
doing in the hydrosystem, such as testing the spill programs. 
They're certainly trying to continue to restructure the dams 
themselves with surface bypass systems, all big efforts still 
underway and continuing and building and even the efforts, as I 
said, outside of the hydrosystem, you know, many of which will 
be paid for by the hydrosystems. The focus is still very much 
there.
    The question--the quandary will be in is if we don't 
accurately measure and account for these another areas that 
we're starting to look at. When we look at the performance 
measurements, that's where we do have a concern. I don't think 
that they're at a point where they have been able to figure out 
how are you going to determine exactly what returns you're 
getting from habitat and from hatchery actions. That's going to 
be critical if you are going to continue this road.
    Senator Crapo. Did anybody on the panel--I understand, Mr. 
Barrie, that you believe that--if I understand your position 
correctly, that we should consider breach now, not put if off, 
so you're not necessarily willing to agree with the premise of 
NMFS BiOp?
    Mr. Barrie. I believe right now the way it reads is it's a 
status quo. It's the same thing we've been doing for 20 years. 
There's no change. I do agree with Scott in saying that we're 
not getting anywhere.
    Senator Crapo. But with that exception, with the 
understanding of your position, is there any other disagreement 
on this panel with the notion that given the NMFS's approach, 
that we ought to do everything that we can do on the 
hydrosystem as well as in the other areas? I want the record to 
reflect that nobody is disagreeing with that.
    Mr. James. The additional thing that I would say and one of 
the things that I think is key here is performance measures. We 
need to be able to figure out if we're spending money the right 
way, whether it's the hydrosystem or something else.
    Senator Crapo. That's a criticism that I think I've heard 
pretty regularly about the current BiOp is that its performance 
measures are too general and diffuse and not focused on helping 
us identify these questions that we need answers to.
    Having established that we don't have any disagreement with 
regard to trying to do our best in each of the areas including 
the hydrosystem, and, Mr. Corwin, you indicated that you 
couldn't see in the BiOp a difference from that, that you think 
that that's where the BiOp is headed now. I'll tell you that 
Mr. Will Stelle, the former director or whatever his title is 
of NMFS here in the region, said the same thing in September in 
Washington, DC, when I asked him similar questions. He said,

    We are not moving our focus away from the hydrosystem. 
We're still going to do everything we can there. But we're not 
moving toward breach. We're not going to do breach now.

    The concern, though, is that when you have a--I've had a 
number of other scientists in communication with my office 
indicate that they do believe what they read in the BiOp is a 
distinct change in focus of priority, away from the 
hydrosystem. When you read the science study that the three 
NMFS scientists put out, which basically says you can improve 
the hydrosystem to 100 percent survival and it isn't going to 
work, and add that to arguments that have been made that they 
pretty much got all the benefit they're going to get out of the 
hydro improvements, then you at least see a concern being 
raised that perhaps NMFS truly is changing its priorities and 
is not going to try to get the maximum benefit that it can in 
hydrosystem improvements.
    I just wanted to be sure that--we can argue about what is 
the maximum we can get and how we achieve it and all that, but 
whether we should get the maximum that we can short of 
breaching is something that I think we ought to be sure we 
agree on.
    Another question that I think is important to address is 
how we will address--how we will deal with what I perceive to 
be a significant lack of collaborative effort on behalf of the 
Federal agencies. I don't know how many of you have been 
involved in trying to collaborate with the Federal Caucus, but 
as you have tried and if you've been more successful than I 
have, then--which means you've had any success I would like to 
know how you've done it. What is your perspective on your 
ability to communicate with and have your positions and 
viewpoints understood and evaluated by the Federal Caucus? 
Again, if you choose to answer, you can. If you don't, not 
everybody has to.
    Mr. Corwin.
    Mr. Corwin. I've tried very little to collaborate with 
them. However, I would say there are a couple of consultants 
for the hydro industry that have attended workshops that the 
NMFS Science Center has held to update folks in the region on 
what they have been up to and on their new research over the 
last year or so, and they have had--they have given us 
favorable reviews about ability to work with the folks at NMFS 
in Seattle but on general collaboration.
    Senator Crapo. That's refreshing to hear even to that 
level.
    Anybody else?
    [No response.]
    Senator Crapo. One last comment, and then, again, any of 
you who would like to comment on this--respond to this, you're 
welcome to, and you're not expected to.
    One of the concerns that I've had, something we started out 
this hearing with, and that is that there's recently a document 
that The Oregonian was able to obtain, apparently, from NMFS, 
which indicates that NMFS was headed down a path toward 
recommending breach and actually having the engineering and 
everything else in place to bring it to Congress by the end of 
the year 2002 or 2003. That in a very short period of time, 
that changed, and NMFS is now going down the direction we've 
discussed today.
    A concern that has been raised to me and which I share is 
that if NMFS truly has decided that it believes that breaching 
the dams is the direction it must take, and if this BiOp is 
simply a strategy to get there, then that raises a lot of 
concern about what NMFS is going to do in the meantime. I 
realize that's a rather cynical evaluation of what may be going 
on here. But given the virtually closed system of 
decisionmaking we've seen in the last 2 years from the Federal 
Caucus, given the information about where we saw the Federal 
Caucus headed and their almost immediate about-face in the 
middle of a Presidential election in which Washington and 
Oregon were critical electoral votes, I don't think it's an 
unfair question to speculate about in terms of what is the 
motivation of the National Marine Fisheries Service in the 
actions it has taken.
    I think it will be very interesting to see what kind of 
response they give to my earlier request in this hearing for 
them to document what they have received from the Council on 
Environmental Quality and the White House over the last year in 
terms of directives. If their response is like it has been in 
the past, well, we'll see.
    In any event, the question that I pose to each of you is, 
if we pursue a path during the next 4 to 5 years that doesn't 
give us the very best ability to save the fish short of 
breaching the dams, do you not feel that we will be in a 
position as a region where breaching the dams at that point 
becomes the only remaining option to evaluate?
    In other words, do you feel that if we're here 5 years from 
now and we have witnesses in a panel like this who say, you 
know, you started something 5 years ago that you knew wasn't 
going to work or that we could tell you it wasn't going to work 
and it didn't work, or you're now facing a situation where you 
have a Federal agency that is pursuing a breach alternative, 
are we, as a region, going to be in a position where we knew we 
gave it our best if we don't right now evaluate what our best 
options are?
    Again, nobody has to comment on any or all of that, if they 
don't want to, but you're certainly welcome to speculate, if 
you would like.
    Mr. Smith.
    Mr. Smith. I'd like to say this: I think that ultimately 
NMFS can't make this decision, and I think that's why we're 
struggling so badly right now. They have been put in a 
position--I've never been a big Will Stelle fan, but Will was 
in an absolute no-win situation as regional director.
    Senator Crapo. That much I agree with.
    Mr. Smith. The agency itself is in a no-win situation, and 
they argue amongst themselves, and when you talk about the 
Federal Caucus, we've had good luck with parts of the Federal 
Caucus, but it depends on which part you're talking to on which 
day.
    I think the real solution here is for the region to come 
together and make some decisions. That's why we're so 
supportive of the process the four regional Governors have 
tried to put in place, and we'd like to see it get legs because 
we believe that once we can get a regional recovery plan in 
place that it not only takes the focus off of the decisions 
that NMFS makes, which they shouldn't be making, it also gives 
us a forum in which to discuss these policy issues that a 
Federal agency cannot do. They cannot make policy decisions. 
They have to try to rely on the science because that's their 
mandate.
    Since you can't decide this issue based on science alone, I 
don't see how we will ever be successful until we find a 
different way to approach the issue. That's why we think it's 
fundamental that the region pull together and take our own 
future in our own hands, and that's not going to be an easy 
thing to do, but I believe that it's the only possible 
solution.
    Senator Crapo. Anybody else want to take a stab?
    Mr. Corwin. I'm glad Craig mentioned the Governors' 
approach because I think that's critical. They said a regional 
approach must include a clear goal so that, in short, the 
region can understand what constitutes success. If we continue 
with the policy conflicts and regional disagreement over things 
like trying to manage the two types of fish simultaneously, if 
we don't take actions in other areas, we can put our best foot 
forward, and I think we should in the hydro area, and still be 
down the line several years from now with folks screaming back 
at hydro because actions haven't been taken in other arenas 
that are critical to this issue.
    Senator Crapo. Mr. Barrie.
    Mr. Barrie. I've read about that plan that supposedly just 
showed up, and I'm going to be honest with you. I think it is a 
good plan. If you have something in place that by 2006 your 
goals are not reached, it gives you the measure to go in that 
direction. Guys, we're talking about a plan we're supposed to 
have in place by that time, measured points at which we are 
achieving our goals. If we're not achieving our goals, in fact, 
we're going the other direction away, then the hard decision 
has to be made, and it is put in place for that.
    Senator Crapo. We'll have much more region consensus at 
that point, I believe, if the region believes that they've been 
trying the right things.
    Mr. Barrie. We keep talking about measurements. Well, I 
believe that from this day forward, we've got to take from 
status quo where we're at, and if we're making these 
improvements whether it be the habitat, you name it, and we're 
not attaining those goals, then I believe that's what's got to 
be done. Like I said, we have no agenda for dam removal. What 
we have is an agenda to get the fish back, whatever it takes.
    Senator Crapo. Anybody else?
    Mr. James.
    Mr. James. I return to a point that I made earlier, and 
that's fights that we'll have about getting ready for dam 
breaching will diminish our ability to get other things done, I 
believe. It's sort of splitting hairs or we're going to do--
we'll partially fund studies for dam removal, and we'll 
partially fund those things that we can do that are good for 
fish in the near term. I think that hardwiring a decision, to 
use some of the phrases that we've seen there, almost provide a 
disincentive to get those things done for fish that can be done 
in the near term because I think that there are other factors 
that play here.
    I think we all recognize the role of the Snake River in 
this national debate about rivers and that this is a--well, 
many of us are focused on salmon. There is a larger debate 
nationwide on rivers, and that we are at the center of that 
debate. So in a way, it almost provides a disincentive to solve 
the problem. We've seen many people on both sides of the debate 
over how to best recover Snake River salmon acknowledge that 
point.
    Senator Crapo. Mr. Benson.
    Mr. Benson. I would just submit that if we're doing the 
things that we should be doing in the next 1, 2, 3, 4 years, 
that at 5 years to take a different tact is quite shortsighted, 
and I would hope that we would not look at this as a 5-year--
and I'm not even sure an 8-year horizon gives time to see the 
results of the things that we would attempt to put in place 
between now and that time.
    Senator Crapo. All right. Thank you. I have no further 
questions for this panel. Do any of you have any last words you 
want to get in? I'll give you a chance to make a last 
statement, if you'd like to. If not, this panel is excused, and 
I will make a closing statement here and then wrap up the 
hearing.
    In my closing statement, I'm going to be--I'm going to 
continue to be quite critical of the National Marine Fisheries 
Service in the way it's handled the decisionmaking on this 
BiOp. Before I do make that statement, however, I want to say 
that, as has been said by some of the witnesses here today, as 
has been said by NMFS at the hearing in September, they don't 
agree with what I think they're up to. They don't agree with 
the concerns that I have raised about whether they are shifting 
their emphasis away from the proper focus on what we can do 
best to restore and strengthen the salmon and steelhead runs. 
If that's right, then so be it. We have no problem.
    If that's wrong, then they need to change the direction 
that they're headed. I'm concerned that there does need to be a 
change in the direction that NMFS is headed both in terms of 
the process that they are following to make this decision and 
in terms of the content of the decision that it appears they 
are about to make.
    I would, first of all, like to thank everybody here who has 
testified for attending, those who have reported and otherwise 
endured today's hearing. I'm struck by the fact that after 3 
days of hearing by this committee on this matter, that, while 
we don't know everything about how to recover anadromous fish, 
we do, nevertheless, have an enormous amount of good 
information. What remains a mystery to me is why we cannot 
assemble this information in a way that assures the best 
possible outcome.
    I am extremely concerned that the Federal agencies are not 
doing everything possible to organize people and their 
knowledge in a systematic effort to get this right. I again 
quote the November 3rd issue of the Columbia Basin Bulletin. 
Ben Daley of the BPA said,

    Whether the States and tribes participate doesn't change 
the Federal obligation to make measured progress toward meeting 
these goals. We have the responsibility to figure out how to 
involve others, but we're not there yet. We'll be stumbling 
around on this first one and probably be somewhat out of sync 
with the region planning.

    It looks to me like Mr. Daley has it right. I want to 
emphasize that my reference to Mr. Daley's quote is in no way a 
criticism of him because he simply seems to be telling the 
truth.
    It's anticipated that once this draft BiOp becomes final, 
it will immediately be subjected to one or more lawsuits, which 
raises the distinct possibility the courts may be forced to 
take over anadromous fish recovery in the region. I'm sure that 
the courts would prefer not to have to do that, and I certainly 
don't want the courts in that position.
    By far the best choice is for the region itself to grasp 
the issue and in a collaboration with the Federal Government 
make our best effort. As I've said before, I believe the four 
Governors' document, which has been mentioned by a number of 
the witnesses today, outlines a far better process than anybody 
we've yet seen by the Federal Caucus. The Governors' approach 
supported by a short-term focused effort of rigorous scientific 
collaboration would provide far more benefit to the fish and 
the regional economy than this Draft Biological Opinion.
    As I say, unless I'm wrong about the direction that it 
appears to me that NMFS is headed, the ultimate outcome could 
very possibly be worse for the fish, worse for the jobs and the 
economy of the people in this region, and ultimately much more 
expensive as it causes this region to face difficult decisions 
that it otherwise would not have had to face.
    It's painfully obvious to me that the Federal Caucus itself 
is divided about what is the best science and the best policy. 
It's well established that there is widespread disagreement 
around the region with this Draft Biological Opinion. Those who 
are generally supportive of this draft offer important 
criticisms. Even though we have not mastered the process 
required to recover these fish, it is very obvious that we do 
have an enormous amount of good information. In fact, we have 
enough information right now that we should be able to develop 
a much better policy than is currently being proposed, a policy 
that takes immediate action, that is known to benefit the fish 
while providing an agreed upon mechanism for monitoring any 
subsequent adjustments.
    With everything that is at stake, let me publicly suggest 
that the Federal Caucus delay its printing and publication of 
the final BiOp for a short period of time, perhaps 2 to 6 
months, in an effort to assure us all that we are making our 
maximum possible effort. I'm asking every Federal witness to 
carry that request back to their management, and I will 
followup this verbal request with a letter immediately. It 
seems to me, once again, that we have an opportunity to get it 
right and that we need to make sure that we take that 
opportunity.
    I would like to thank everybody for attending this hearing 
today, and the hearing is adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
  Statement of Michael Schiewe, Director, Northwest Fisheries Science 
   Center, Fish Ecology Division, National Marine Fisheries Service, 
                              Seattle, WA
    Thank you, Mr. Chairman and members of subcommittee. I'm Michael 
Schiewe, Director of Salmon Research at the National Marine Fisheries 
Service's Northwest Fisheries Science Center in Seattle, Washington. 
Within the National Marine Fisheries Service, the science centers are 
responsible for providing the technical and scientific support to the 
regional offices in carrying out their regulatory and management 
responsibilities. I appreciate the opportunity to be here today. I will 
limit my formal comments to those involving the biological opinion and 
the collaboration in the scientific process.
    First, to summarize from the testimony of Mr. Stelle to this 
subcommittee on September 13, 2000, the National Marine Fisheries 
Service is currently engaged in the preparation of two major documents. 
One is a biological opinion for the Federal Columbia River Power 
System. The other is a conceptual recovery plan being called the All-H 
Paper. This latter exercise is being led by NMFS but is more broadly 
the product of the Federal Caucus composed of NMFS, the U.S. Army Corps 
of Engineers, the Bonneville Power Administration, the Bureau of 
Reclamation, the U.S. Fish and Wildlife Service, the Environmental 
Protection Agency, the Bureau of Indian Affairs, the U.S. Forest 
Service, and the Bureau of Land Management.
    In preparing these documents, NMFS considered the results of a 
variety of analytical exercises and scientific syntheses including 
results from the Plan for Analyzing and Testing Hypotheses, or PATH; 
NMFS' Cumulative Risk Initiative, or CRI; and the empirical information 
summarized in NMFS White Papers. Following review and comment by the 
State agencies and tribes, both the biological opinion and the All-H 
Paper are currently scheduled for release in final form on December 15.
    On the issue of science collaboration, a major opportunity will 
occur via participation in technical recovery teams. We have already 
formed technical recovery teams, or TRTs, to start the process for 
recovery planning in Puget Sound and on the Lower Columbia River and 
Willamette Valley, and we are considering establishing TRTs to develop 
recovery plans for the listed salmon and steelhead in the interior 
Columbia River Basin.
    The process NMFS has initiated to develop these plans is a two-
phase one with the involvement of both regional technical and policy 
expertise in each of the relevant phases. To briefly summarize, the 
first phase is a scientific exercise culminating in the establishment 
of delisting criteria or recovery goals.
    The second phase is more of a policy forum in which the options for 
recovery will be carefully weighed and a suite of actions selected. 
Both the technical phase and policy phase will involve qualified 
individuals from regional entities and interest groups. A recovery 
science review panel composed of internationally renowned ecologists 
and evolutionary biologists will review the products of the TRTs. Our 
goal is to bring together a broadly representative group of the best 
minds to tackle these issues.
    To summarize, it is NMFS's intent that the recovery planning 
process will take place out in the open, that it will meaningfully 
involve regional scientific expertise, that the recovery plans will be 
subject to peer review, and that the final technical products, when 
appropriate, will be published in scientific journals.
    Thank you for this opportunity to address the subcommittee. I would 
be pleased to answer any of your questions.
                               __________
  Statement of Doug Arndt, Chief, Fish Management Division, U.S. Army 
   Corps of Engineers, Northwestern Division, North Pacific Region, 
                              Portland, OR
    Mr. Chairman, I am Doug Arndt, Chief of the Fish Management Office 
in the Northwestern Division, U.S. Army Corps of Engineers. I 
appreciate the opportunity to be here today to discuss the status of 
the National Marine Fisheries Service and Fish and Wildlife Service's 
biological opinions on operation of the Federal Columbia River Power 
System.
    As you noted, on September 13, you heard the testimony of Colonel 
Eric Morgren on behalf of the Corps. Today I'm going to very briefly 
summarize that testimony, plus I'll add several topical points. 
Currently, 12 populations of Columbia River Basin salmon and steelhead, 
white sturgeon, and bull trout are listed under the Endangered Species 
Act. That means that we must broaden our consideration of recovery 
solutions from the lower Snake River to the entire life cycle of the 
salmon throughout the basins if we are to be successful.
    On the flip side, this year we saw strong returns of adult salmon 
to the Columbia. We believe these results are at least partially due to 
the investment that the Nation has made in the hydropower system.
    Consultations on the 2000 biological opinions are ongoing. While we 
anticipate--we do anticipate receiving a final BiOp or BiOps on or 
about the 15th of December. While there are still some measures that 
need further work, we are optimistic at this point that we would reach 
agreement on the major issues and on the overall directions. We are 
satisfied that the draft biological opinion is reflecting an increasing 
intent to pursue aggressive actions across all the Hs with specified 
performance standards and periodic check-ins.
    Earlier in your opening statement you emphasized the need for good 
science. We are also pleased at the current regional effort to base 
recovery actions on the best available science. The course part in this 
effort is to fund some 50 to 70 field research studies under our 
anadromous fish evaluation program. That, by the way, is a 
collaborative process involving the State, Federal, and tribal 
entities. We see this investment of some 10 to $20 million in field 
research in seeking out better scientific knowledge as being vitally 
necessary for making the reasoned management decisions that you alluded 
to.
    On the issue of funding, full implementation of the measures called 
for in the biological opinions will be ambitious. It will require 
substantial increases in our appropriations. For example, the 
President's fiscal year 2001 budget submitted to Congress this year 
called for $91 million in the fish--the Corps' fish mitigation project. 
Our fiscal year appropriation, as passed by Congress, was $81 million. 
We estimate that some additional $5 million to $10 million may be 
needed to fully implement the measures in the biological opinions. 
Further, we anticipate the cost will increase in the out years. This is 
an important issue as our biological opinion report card will heavily 
depend on our ability to implement, read that as fund, recovering 
measures.
    One of the areas of the biological opinion is to call upon the 
Corps of Engineers to carry out actions in the offsite or habitat 
measures for fish restoration as a means of supplementing hydro 
actions. For example, we are being asked to step up our efforts in the 
restoration in the Columbia River estuary. We believe this is important 
and should be a part of our approach to the fish recovery.
    We look to the Congress for continued support of these efforts. We 
will continue to work with you and to keep the lines of communication 
open.
    Mr. Chairman, this concludes my summary, and I will be happy to 
answer any of your questions.
                               __________
Statement of Howard Schaller, Project Leader, Columbia River Fisheries 
         Program, U.S. Fish and Wildlife Service, Vancouver, WA
    Good morning, Mr. Chairman. I'm Howard Schaller from the Columbia 
River Program Fisheries Office of the U.S. Fish and Wildlife Service 
and I appreciate this opportunity to present testimony on behalf of the 
service regarding status of the biological opinions for the Federal 
Hydropower System of the Columbia.
    Our office is primarily responsible for a recovery evaluation of 
Columbia River aquatic resources, which include sturgeon, bull trout, 
and salmon. The service is conducting a consultation on the operation 
of federally-owned hydropower facilities on the Columbia, Snake, 
Clearwater, Kootenai rivers in the Columbia River Basin. We're 
consulting with the action agencies of the Army Corps of Engineers, 
Bonneville Power Administration and Bureau of Reclamation. At issue are 
the effects of operating the Federal Hydropower System on the 
Endangered Kootenai River sturgeon, threatened bull trout, and to some 
limited degree, bald eagles.
    The service received two biological assessments from the agencies, 
a draft document in the summer of 1999, and a final in December 1999. 
We shared a preliminary draft of the opinion with these agencies in May 
2000, and the comments on the preliminary draft opinion were received 
June 2000. The draft opinion was released to the States and tribes for 
comment on July 27, 2000.
    Throughout this process the emphasis has been placed on the 
discussion of key issues including minimization of adverse effects to 
sturgeon and bull trout from the PS operations in the Upper Columbia 
River. Our draft opinion requests adjustments to the operations and 
ramping rates at Hungry Horse, Libby, and Albany Falls dams. We're also 
asking the Army Corps of Engineers to continue studies of alternative 
pool elevations Albany Falls to benefit kokanee salmon, a key food 
source for bull trout in Lake Pend Oreille.
    The draft opinion also addresses actions at Libby Dam to allow 
increase flows to chief flow objectives for sturgeon. For the Lower 
Columbia River, Snake River, and Clearwater River, the service will 
require monitoring to better determine the presence of bull trout and 
ensure their upstream and downstream passage is not impeded. The 
services work closely with National Marine Fisheries Service throughout 
this process to ensure that the Federal Hydro System operations benefit 
sturgeon, bull trout, and do not conflict with salmon and steelhead.
    We are presently revising the biological opinion based on comments 
we received from the States, tribes, and other affected entities. We 
are now completing the opinion and accompanying documents and 
anticipate to have a final draft out by mid-December.
    Mr. Chairman, this concludes my testimony, and I'll be happy to 
answer any of your questions that you and the members have. Thanks. 
This is a summary of Mr. Cottingham's comments from September.
                               __________
Statement of James J. Anderson, Associate Professor, School of Aquatic 
      and Fishery Sciences, University of Washington, Seattle, WA
    This testimony concerns the 2000 Draft Biological Opinions by the 
National Marine Fisheries Service and U.S. Fish and Wildlife Service on 
the operation of the Federal Columbia River Power System and the 
Federal Caucus Draft Basinwide Salmon Recovery Strategy. This testimony 
considers actions to be taken in the next 5 to 8 years to help fish 
recovery.
    My name is James J. Anderson; I am an Associate Professor in the 
School of Aquatic and Fishery Sciences at the University of Washington, 
and I have been fully engaged in Columbia River salmon research for two 
decades. Mr. Chairmen, I thank you and the committee for this 
opportunity to testify in this hearing on the Draft Biological Opinion. 
In my testimony, I first put the salmon decline in a historical context 
and consider the future in which the region will use Bi-Op results. I 
then discuss the adequacy of several Bi-Op approaches.
    The decline of salmon: We know that the decline of Columbia River 
salmon involved the interplay of climate/ocean fluctuations and the 
cumulative impact of human activities on salmon and their habitat 
(Anderson 2000a). Significant natural variations have occurred on 
decadal scales and these are loosely viewed as switches between two 
distinct climate regimes that may persist for two to three decades. The 
20th century began in a cool wet regime favorable to salmon. It 
switched to a warm dry regime unfavorable to salmon about 1920. The 
climate returned to the cool wet regime during the development of the 
hydrosystem and then switched back to a warm regime over the past 20 
years. It is important to note that the impacts of the hydrosystem 
development were partially masked by the good conditions of the wet 
regime and the recovery efforts of the past two decades were partially 
masked by the poor conditions of the dry regime. Recently the ocean has 
cooled and fish runs have improved. (Anderson 2000b). It is unknown if 
this represents a switch to a cool regime or a short-term anomaly in 
the pattern of global warming.
    If we have entered a favorable climate regime, then at the end of 
this decade fish runs could be abundant, independent of any restorative 
actions taken through the Bi-Op. More importantly, under this scenario 
the climate will eventually switch to the unfavorable regime perhaps in 
the second or third decade of the century. In the second scenario, 
global warming dominates the decadal cycles and the ocean continually 
warms. In both scenarios, conditions for salmon will degrade sometime 
in the future due to warm dry conditions. It is also inevitable that 
the competing demands for water and fish habitat will in the future be 
greater than they are today. Will the Bi-Op plan provide the 
information needed in a drier future with greater demands for the 
Columbia River's resources?
    Can the Bi-Op evaluate recovery actions? The 2000 Biological 
Opinion sets the course for research and actions to be taken over this 
decade to recover endangered salmon. Two important milestones are 
identified. In 5 years (2005), if the trend in the stocks has not 
significantly improved the program will be reopened for adjustments 
including dam-breaching. At year 8 (2008), if the stock trend is 
downward the agencies will seek authority to breach the dams if the 
current science supports that recommendation.
    This is not sufficient time to evaluate actions. The time between 
when the adults spawn and when the fisheries agencies have complete 
information on the returns of the progeny is 6 years. This means that 
for decisions at year 5, complete information will be available only 
for fish that spawned this year and for year 8 only information from 
spawners over the next few years will be available. Furthermore, 10 to 
20 years of returns are required to separate the effects of actions 
from the effects of climate variability (Peters and Marmorek 2000). 
Therefore, under the Bi-Op schedule, the decisions on the effectiveness 
of actions will depend on the State of the ocean over the next few 
years and will be essentially independent of the Bi-Op actions.
    Can the Bi-Op measure the effectiveness of physical standards? Many 
Bi-Op actions are based on physical standards that produce desired 
changes in ecological attributes important for salmon, e.g., water 
flow, sediment load and temperature. Although the standards are 
referred to as interim surrogates of performance, the Bi-Op does not 
specify how they will be connected to fish survival. It neither 
characterizes the potential range of the measures in terms of survival 
nor addresses if the desired changes are ineffective or even 
detrimental to fish.
    Can the Bi-Op assess the effectiveness of dam breaching? The 
majority opinion within PATH claimed dam breaching was the most 
effective recovery action available (Marmorek et al. 1998). The NMFS 
Cumulative Risk Initiative (Kareiva et al. 2000), armed with new 
information, sided with the minority opinion in PATH and concluded that 
dam beaching on its own would not recover the stocks. CRI is vague as 
to what will recover the stocks but points to the estuary and the 
freshwater habitats as critical. If dam removal is a solution though, 
it requires a complex link between the smelts' hydrosystem experience 
and their survival in the estuary. Evaluating this linkage may be 
difficult or impossible in the timeframe for decisions.
    Does the Bi-Op assess the value of flow? The Bi-Op has an 
aggressive policy to increase flows in the rivers, claiming they will 
benefit fish through many life stages. The NMFS research has shown flow 
is insignificant to fish survival, or at best its benefits uncertain. 
Furthermore, flow augmentation is different from the seasonal and year-
to-year variations in flow, and it has even less impact on survival. 
Under some situations, flow augmentation can be detrimental to fish 
(Anderson et al. 2000). The Bi-Op has no program to evaluate the actual 
impact of flow, where it is effective and where not. In some cases, 
there is sufficient information to establish a possible range of flow 
augmentation impacts but decades of observations may be required to 
identify mechanisms and narrow the uncertainty in the estimates. The 
Bi-Op virtually ignores the need for these studies. The reliance on 
physical standards is inadequate to effectively manage flow in the 
future when water resources will be in more demand than they are today.
    Does the Bi-Op treat hatchery fish adequately? A significant number 
of wild spawning stocks have hatchery influence but the Bi-Op does not 
treat these influences in a consistent manner. For example, a high 
proportion of Snake River fall chinook spawners are thought to be 
hatchery strays, but it is still considered part of the ESU. In 
contrast, to keep Carson Creek hatchery fish from mixing with wild 
fish, they are clubbed as they attempt to spawn in streams. This is a 
considerable public relations problem because the Carson Creek strain 
is very successful and returns in large numbers. Hatchery fish are also 
significant because the assessment of wild stock productivity for 
decisions in years 5 and 8 depends on the fraction and success of 
hatchery fish spawning with the wild stocks. The decision to breach 
dams could rely on what we assume for the success of the hatchery fish. 
It is somewhat ironic, if the hatchery fish are successful river 
spawners, the Bi-Op could call for dam breaching.
    The Bi-Op calls for hatchery reform to eliminate or minimize the 
harm to wild fish and on an interim basis to supplement the wild fish 
with genetically similar hatchery fish to avoid extinction. Even though 
hatchery fish are inextricably linked with wild fish, the recovery 
measures focus only on naturally spawning salmon. If hatcheries 
represent successful ESUs then they should be considered when assessing 
the status of the ESUs. Perhaps instead of treating hatcheries as 
interim measures, they should be considered as genetic reservoirs, 
especially during periods of poor ocean conditions. At the beginning of 
the last century, hatchery fish were considered a solution to the 
problem. At the end of the last century, they were considered part of 
the problem. How will hatcheries be viewed in this new century? The Bi-
Op needs to address these issues.
    Are Stakeholders represented? There are many opinions on the causes 
for the decline of the salmon and how they can be recovered. The Bi-Op 
represents the Federal Caucus proposal for achieving a comprehensive, 
long-term strategic direction for actions in the basin. It solicits 
stakeholder contributions through consultation and corroboration 
refinements of the proposal, but there is no formal process for 
comments or for presenting alternative approaches. It is a difficult 
task. PATH had this goal, incorporating State, Federal and tribal 
scientists in a formal decision framework. Unfortunately, many 
conclusions of PATH were discounted because of public perceptions of 
bias, undue complexity, and because new studies disproved critical 
assumptions used in PATH. The relatively open but cumbersome PATH has 
been replaced by the closed and streamlined Federal Caucus process. In 
PATH, a steering committee set the direction of the research; the 
participants carried out the work and the results were synthesized by 
ESSA, the company hired to coordinate the workshops. In preparation of 
the Bi-Op, the overall framework and substantive issues were developed 
within the Federal Caucus. Community input came in the way of 
occasional workshops and written comments. The inputs that were 
incorporated related mostly to issues of model parameters and 
correcting obvious mistakes in the Bi-Op modeling framework. From my 
observations there is no mechanism to input substantive issues to the 
Bi-Op process.
                               references
    Anderson, J.J. 2000a. Decadal climate cycles and declining Columbia 
River salmon. In Proceedings of the Sustainable Fisheries Conference, 
Victoria, B.C, ed. E. Knudsen. American Fisheries Society Special 
Publication No 2x. Bethesda, MD. 467-484.
    Anderson, J.J. 2000b. Testimony before the Subcommittee on Water 
and Power of the Senate Energy and Natural Resources Committee held in 
Cascade Locks, Oregon April 18, 2000. (www.cbr.washington.edu/papers/
jim/testimonies/senate--water--2000.html).
    Anderson, J.J., R.A. Hinrichsen and C. Van Holmes. 2000. Effects of 
Flow Augmentation on Snake River Fall Chinook. In comments by Idaho 
Water users on the ``Draft All-H paper by the Federal Caucus: 
Conservation of Columbia Basin Fish Building a Conceptual Recovery 
Plan.'' Submitted on behalf of the Committee of Nine and The Idaho 
Water Users Association March 16, 2000.
    DRAFT Biological Opinion 2000: Operation of the Federal Columbia 
River Power System Including the Juvenile Fish Transportation Program 
and the Bureau of Reclamation's 31 Projects, Including the Entire 
Columbia Basin Project. (http://www.nwr.noaa.gov/1hydrop/hydroweb/docs/
2000/2000Biop.htm)
    Kareiva, P.M. Marvier and M. McClure. 2000. Recovery and management 
options for spring/summer chinook salmon in the Columbia River Basin. 
Science 290(3): 977-979.
    Marmorek, D.R., C.N. Peters and I. Parnell (eds.) 1998. PATH final 
report for fiscal year 1998. Prepared by ESSA Technologies Ltd., 
Vancouver, BC, 263 pp.
    Peters, C.N. and D.R. Marmorek (compls./eds.) 2000. PATH: 
Preliminary Evaluation of the Imparting Opportunities and Biological 
Consequences of Monitoring and Experimental Management Actions. 
Prepared by ESSA Technologies Ltd., Vancouver, BC, 150 pp.
                               __________
    Statement of Charles M. Paulsen, President, Paulson Environment 
                       Research, Lake Oswego, OR
    Thank you for this opportunity to testify before the subcommittee. 
In preparing my written testimony, I have tried to make my remarks 
accessible to a non-technical audience, and to keep the tone fairly 
informal. I include an annotated list of technical references at the 
end of the paper.
    I have approximately 14-15 years of experience doing research on 
Columbia River salmon. The first half of that period was devoted 
primarily to socio-economic aspects of salmon enhancement and recovery 
actions. The last 6-7 years of work has focused on quantitative 
analysis of the biological effects of measures to aid Endangered 
Species Act (ESA) listed stocks. These efforts have been funded largely 
by the Bonneville Power Administration (BPA), and to a lesser degree by 
the Corps of Engineers. However, the views expressed here are strictly 
my own, and should not be interpreted as representing those of BPA or 
any other organization.
    My remarks focus on three broad areas:
    1. The Cumulative Risk Initiative (CRI) life-cycle analysis that 
forms the basis for the population status analysis in the NMFS 
September 2000 Draft Biological Opinion (Bi-Op);
    2. The Plan for Analyzing and Testing Hypotheses (PATH) results, 
how they compare to recent data, and how they are used in Bi-Op;
    3. Uncertainty in the biological effects of the Bi-Op ``Reasonable 
and Prudent Alternatives'' (RPA's) and in the possible effects of 
drawdown.
    Obviously, this covers a lot of territory, and my comments will 
only touch on the highlights of each topic.
                        cri life-cycle approach
    At the risk of over-simplifying a complex modeling exercise, one 
can characterize the CRI approach as assuming that the future will be a 
straight-line projection of the past, with a great deal of random noise 
around that projection. It uses estimates of salmon population 
abundance over time--generally derived from dam counts or redd (nest) 
counts of fish returning to spawn--and extrapolates trends in past 
estimates into the future. Unlike PATH efforts, each population is 
assumed to be independent of the others, except in sensitivity analyses 
(the latter are not used in the Bi-Op itself). Because salmon abundance 
varies greatly from year to year, the CRI approach, in common with 
other attempts to predict future fish numbers, is not very precise. 
While the ``average'' trend for a population may be upward or downward, 
one cannot place very much confidence in any particular value of the 
trend estimate. However, it is clear that populations of most ESA-
listed stocks have shown marked declines over time, regardless of the 
model used to project those trends into the future. The downward trend, 
after all, is the rationale behind listing the stocks under the ESA.
    As others have noted in previous hearings, the CRI model 
development and application was not nearly so strongly collaborative as 
PATH. The approach by NMFS was to develop models, have public workshops 
to review them, and modify the models in response to the comments 
received. In contrast, PATH held far more meetings and workshops, with 
participation in both being restricted largely to the scientists who 
were actively working on the analyses.
    However, given NMFS' decision to analyze 12 Evolutionarily 
Significant Units (ESUs) in just over 12 months, the level of 
collaboration in PATH would have been impossible within that timeframe. 
PATH required almost 5 years to do a thorough job on two ESU's--Snake 
River spring/summer chinook and Snake River fall chinook--and a more 
perfunctory analysis of Snake River steelhead. In addition (see section 
on PATH, below), in light of recent information, the PATH conclusion 
regarding drawdown of the lower Snake projects might in the end have 
been similar to the Bi-Op: do what's feasible to improve anadromous 
fish passage at the existing hydrosystem, make improvements in other 
phases of the life cycle, and defer a decision on drawdown.
    That having been said in defense of NMFS, the CRI method for 
population projections clearly has some problems. For anyone trying to 
follow their analysis from the outside, the many changes over the past 
year make it very difficult to be certain what version of the model is 
being used in any given version of the Bi-Op. For example, substantial 
changes in extinction estimates occurred between the July release of 
the Bi-Op and the current (September) version. In addition, the so-
called ``lambda criteria'' in the draft Bi-Op (section 9.2.2.1)--that 
the population growth rate must be at least 10 percent per year, or 
consultation will be re-initiated--may lead one to believe that growth 
rates can be estimated very accurately. In fact, as noted above, the 
growth rates are very imprecise and noisy, because population abundance 
varies widely from year to year. This makes decision criteria based on 
growth rates extremely problematic. In fact, for some stocks it appears 
that even if populations reach recovery levels--several hundred to 
several thousand spawners--within a decade, the 10 percent growth rate 
may still not be met.
    Finally, for wild stocks that have relatively large numbers of 
hatchery-origin spawners, the CRI population projections are very 
sensitive to ``hatchery effectiveness.'' Again, to risk over-
simplification, hatchery effectiveness concerns whether or not 
hatchery-born fish spawning in the wild are as effective as their wild-
born cousins at producing viable offspring--fish that will eventually 
return in the future and spawn. The Bi-Op rightly points to the need to 
obtain empirical estimates of this for different stocks--at present, 
the numbers used as a sensitivity are based on professional judgment--
but is silent on whether or not deliberate supplementation with 
hatchery fish will continue or not. This question needs to be resolved 
soon, since many stocks are supplemented heavily at present, and may in 
fact be sustained largely by hatchery fish.
    As with many other uncertainties, one may well wonder why, if it is 
so important, it has not been the subject of more research. The answer, 
I think, lies in the ESA focus on wild stocks. NMFS has interpreted 
this to mean that only wild-born fish ``count'' when it comes to 
achieving recovery goals--that supplementation with hatchery fish to 
sustain a run cannot be part of a long-term management strategy. 
Therefore, hatchery supplementation can only be used as a safety net to 
sustain runs over the short term, though the exact definition of 
``short term'' is an open question.
    This in turn means that the question of how effective hatchery fish 
are is very important for future management actions. If effectiveness 
is very low, then hatchery fish are producing very few progeny, and 
supplementation is likely a waste of resources. If it is high, and the 
hatchery-origin fish are helping sustain the runs. The question then 
becomes whether or not this situation is desirable from a scientific 
and/or policy perspective.
                     path and its use in the bi-op
    I was closely involved in PATH. While I disagree with many of its 
conclusions, I feel that I am qualified to make some statements as to 
how those conclusions stand up to recently available information.
    PATH participants analyzed a host of uncertainties, ranging from 
minor ones having little effect on the models' output to some that 
turned out to be very important. Among the latter, three stand out as 
being very influential:
    1. Survival rates for juveniles migrating in-river;
    2. ``D'', i.e., survival of transported juvenile fish after release 
below Bonneville Dam relative to survival of in-river migrants;
    3. ``Extra'' mortality, i.e., mortality not explained by simple 
life-cycle models or by the effect of downriver passage of juveniles 
through the hydrosystem.
    While the PATH process is, of course, now defunct, these are still 
relevant, because they are used in the Bi-Op to estimate the effects of 
drawdown on Snake and Upper Columbia River stocks. In this section, my 
remarks apply primarily to fish that migrate as juveniles in the 
spring--spring chinook, summer chinook and steelhead--not to fall 
chinook. In particular, I am concerned with how PATH conclusions stack 
up when compared to recently available information.
    First, NMFS' recent estimates of in-river survival rates for Snake 
River spring/summer chinook are substantially higher than those 
predicted by the passage models (CRISP and FLUSH) used in PATH. In 
particular, they are 2-10 times higher than those predicted by FLUSH, 
and somewhat higher than CRISP predictions. Therefore, both passage 
models to some degree overstated the direct effects of the hydrosystem 
on Snake stocks, FLUSH by a very substantial margin.
    Second, NMFS estimates of ``D'', while very noisy and imprecise, 
are higher than those used by either passage model in PATH--somewhat 
higher than CRISP, and much higher than those used by FLUSH. The 
implication is that transported fish survive at a higher rate overall--
from Lower Granite dam as juveniles back to Lower Granite as adults--
than do fish that migrate inriver.
    Clearly, in these two areas, PATH predictions are at odds with 
recent observations. When combined with very high returns of spring 
chinook this year, they may also be at odds with various PATH 
hypotheses about extra mortality. In particular, high numbers of 
returning adults and jacks (immature fish that spend only 1 year in the 
ocean), combined with other indicators, suggests that an ocean regime 
shift may have occurred. I say ``may'' because such shifts have, in the 
past, lasted for 20 years or more, and a few years of high returns do 
not a 20-year shift make. If such a shift has occurred, however, it 
casts serious doubt over the other PATH extra mortality hypotheses--
that it is caused by the existence of the Lower Snake dams, or that it 
is ``here to stay'' due to diseases transmitted by hatchery fish or 
some other unknown cause.
    All of this casts considerable doubt on PATH's conclusion that dam 
breaching is clearly the best alternative to recover Snake River 
stocks. In addition, it has some important implications for the way 
PATH results are used in the current Bi-Op. Basically, the Bi-Op uses 
two values for extra mortality when analyzing the effects of drawdown. 
One version assumes that extra mortality is zero, the other uses an 
average of the values derived in PATH, and applies this to both Snake 
and mid/upper Columbia stocks. If the argument outlined above is 
correct, then the Bi-Op use of PATH results is clearly wrong. This 
matters because the projected effects of drawdown manifest themselves 
primarily via a reduction in extra mortality. Therefore, the value used 
for this is crucial to predicting the effects of dam removal on fish 
survival.
              uncertainty in the effects of bi-op actions
    The alert reader will have noticed the prevalence of terms such as 
``imprecise,'' ``noisy,'' and ``uncertain'' in much of the text above. 
In some cases this is simply the nature of the beast. Reasonably 
reliable salmon abundance data for the Columbia dates back to the 
closing of Bonneville Dam in 1938. It shows very high variability from 
year to year, with runs often increasing or decreasing by a factor of 
10 over the course of a few years. Reliable life-stage survival rates 
(at least for Snake River fish) extend back almost a decade, when PIT 
tag technology was first used, and these too show a high degree of 
variability. No statistical model or experimental design will make this 
variability vanish. The best one can hope for is that carefully 
designed studies will account for it properly. Under some 
circumstances, clever designs can make some of the variation ``cancel 
out'' by controlling for it, while assessing whether management actions 
work as planned.
    The high variability matters when one is trying to assess the 
effects of management actions. In the next few paragraphs, I discuss 
two RPA's mandated in the draft Bi-Op, and an uncertainty that is 
critical to the projected success of the Bi-Op in avoiding jeopardy. I 
look first at the actions, flow augmentation and offsite mitigation, 
and then at the potential effects of drawdown.
Flow Augmentation
    Recent research by NMFS has found almost no relationship between 
spring flow and reservoir survival for spring/summer chinook and 
steelhead juveniles in the Snake. Although high flows are associated 
with faster downstream migration through the Snake and Columbia 
reservoirs, this apparently does not lead to increased survival. Given 
the lack of evidence that higher spring flow leads to higher survivals 
within the hydropower system, one can fall back on the hypothesis that 
increased flow may lead to higher survival in the Columbia estuary or 
in the Columbia River ``plume'' just off-shore, where fresh water from 
the river mixes with salt water. Unfortunately, all one can do at 
present is make guesses about this, because no direct estimates of 
estuary/early ocean survival are available. It may be possible to 
obtain estimates of this using so-called sonic tags, where ``pingers'' 
are placed in migrating juveniles, and the signals are picked up by an 
array of floating microphones placed at intervals in the estuary and 
just off-shore. Personally, I suspect that it will turn out that 
estuary survival does not vary much with flow for these stocks, but the 
only way to find out is to do the studies.
    Fall chinook which migrate downstream as juveniles in the summer, 
present a very different picture. NMFS research shows a fairly strong, 
positive relationship between flow and survival. However, this is 
confounded with temperature and turbidity. In addition, it is 
confounded with the date that study fish were released into the river: 
fish leaving early do better than fish leaving later in the season, and 
flow decreases over the migration season. Therefore, separating the 
effects of flow, time of release, etc. using data for years past is 
impossible. Deliberate manipulation of flows, accompanied by intensive 
field studies of tagged fish, is the only way I know of to resolve this 
uncertainty.
Off-site Mitigation
    For many stocks, offsite mitigation is a very important part of the 
Bi-Op's reasonable and prudent alternatives (RPA's). This is because 
relatively modest changes in survival rates are expected from 
additional hydrosystem actions. In combination with large increases 
needed to avoid jeopardy for some stocks, the result is that much of 
the increase must come from freshwater spawning/rearing improvements. 
The Bi-Op calls for many actions--screening diversions, reducing 
subbasin irrigation withdrawals, and the like. Actually measuring the 
effects of these offsite actions on survival rates will be a complex 
undertaking.
    Previous work I have conducted shows that there are large 
variations in survival rates from parr (immature fish tagged in their 
natal streams) to smolts arriving at Lower Granite Dam. More 
specifically, survival rates vary both across years and across rearing 
areas with different types of land use. The variation across time and 
space seems sensible: parr survive at higher rates in cool, moist years 
than in dry ones, and fish in wilderness areas have higher survival 
than fish rearing in agricultural areas. However, the variability over 
time and space is high. Even if the effects of habitat modification are 
substantial, detecting survival increases will require carefully 
designed studies that need to start very soon to produce results within 
the Bi-Op's 5- to 8-year timeframes.
Potential Effects of Drawdown
    For Snake River stocks, breaching of the four Lower Snake dams, and 
perhaps McNary and John Day, is used as the ``gold standard'' in the 
Bi-Op: if breaching is undertaken, the action agencies would then have 
done all they could to reduce the effects of the hydropower system on 
Snake River stocks. However, a couple of important uncertainties 
underlie this conclusion. First, recent work by NMFS researchers 
concludes that for Snake spring chinook and steelhead, survival rates 
for juveniles migrating through the Snake and Columbia (from McNary to 
Bonneville Dam) is about the same now as it was before the Lower Snake 
projects were built. Therefore, it follows that any benefit the fish 
derive from breaching would come about not because of acute, short-term 
effects but because of the elusive ``extra mortality'' noted above. As 
previously noted, it is my opinion that whatever extra mortality there 
may have been since the 1970's, it may well vanish if an ocean regime 
shift results in higher ocean survival. This leads me to be skeptical 
of the projected biological benefits that may results from breaching. 
Most scientists, including me, believe that the fish would be better 
off without dams, but recent information suggests that the benefits are 
probably quite modest.
                         where to go from here
    While the model wars--a central feature of PATH--have abated to 
some degree, they still continue on other fronts. For example, the Bi-
Op has recently been criticized for not using decision analysis 
techniques, as was done in PATH. Given the uncertainties outlined 
above, and many more that I've not gone into here, there are two things 
of which I am absolutely certain:
    1. Computer models and projections, however derived, are no 
substitute for empirical data.
    2. Surprises, both pleasant and otherwise, will be a prominent 
feature of salmon management and biology for a long time to come.
    Given these features of the problem, what should be done in future? 
First, management agencies in the Columbia have a long history of 
taking actions largely on faith and best professional judgment. Because 
they were convinced that the actions would work, they did not monitor 
the effects to assess their success or failure. This will have to 
change in the future if we are to retain any credibility with the 
public and with elected officials. I have identified two actions in the 
Bi-Op--flow augmentation and offsite mitigation--that I think are 
especially problematic in this regard. Previous estimates of costs for 
flow augmentation and water spilled for fish averaged $180 million per 
year. These assumed electricity prices well below the current market. 
The Bi-Op's requirements for offsite mitigation are still too general 
to enable meaningful cost estimates, but actions to reduce withdrawals, 
screen diversions, and improve riparian habitat will not be cheap. We 
owe it to ratepayers and taxpayers to monitor the biological 
consequences of actions closely, to see that these expenditures are 
having the intended effects.
    Second, we need to be humble in the face of our ignorance. Our 
ability to accurately forecast the future--with or without the effects 
of new management actions--is very limited. The plethora of models that 
do such forecasting should not distract one from this. Therefore, one 
should not place too much confidence in anyone who says ``I know what 
will happen to the fish if we do . . .'' The best we can hope for is to 
continue learning as we go along, and not take predictions--optimistic 
or pessimistic--too seriously.
    Finally, the monitoring called for in the Bi-Op is an enormous 
undertaking in its own right. Given the scale of the effort involved, I 
am concerned that there will be a movement to try to monitor everything 
that swims, creeps, or crawls, since almost anything might be related 
to problems for ESA-listed stocks. In the absence of some guiding 
principles--e.g., that monitoring be directed at assessing the effects 
of Bi-Op actions--I worry that efforts will be too broad, general, and 
diffuse. If that happens, in 5 to 10 years scientists and policymakers 
will be rehashing the same arguments about flow augmentation, 
transportation, hatchery effectiveness, and the like that vex us today. 
Instead, I would recommend a set of closely monitored management 
experiments to see what works and what doesn't. Unless this is the 
foundation for future research efforts, money spent on monitoring will 
be money down the drain.
                               references
    NMFS, March 2000. Salmonid travel time and survival related to flow 
in the Columbia River. Concludes that there is almost no relationship 
between flow and survival for spring migrants, and a highly confounded 
relationship for fall chinook.
    NMFS, April 2000. Passage of juvenile and adult salmonids past 
Columbia and Snake River dams. Concludes that current juvenile passage 
survival is similar to that in the 1960's, before the Snake River dams 
were constructed.
    NMFS, April 2000. Summary of research related to transportation of 
juvenile anadromous salmonids around Snake and Columbia River dams. 
Contains ``D'' estimates for Snake River fish.
    Paulsen, C. and T. Fisher. Statistical relationship between Snake 
River spring/summer chinook salmon parr-to-smolt survival and indices 
of land use. In press, Transactions of the American Fisheries Society. 
Demonstrates that juvenile survival from Parr to smolt varies widely 
across years and tagging locations.
    Oosterhout, G. Analysis of a decision: A critique of the National 
Marine Fisheries Service's draft Biological Opinion on the Operation of 
the Federal Columbia River Hydropower System, from the perspective of 
the sciences of decision analysis and risk assessment. Criticizes the 
draft Bi-Op for the failure to use decision analysis techniques.
    Paulsen, C. and R. Hinrichsen. Experimental Management for Snake 
River Spring/Summer Chinook: Trade-offs Between Conservation and 
Learning for a Threatened Species. In review, Canadian Journal of 
Fisheries and Aquatic Sciences examines how many years would be 
required to detect the effects of a variety of management actions.
                               __________
      Statement of Karl J. Dreher, Director, Idaho Department of 
                            Water Resources
    Mr. Chairman, my name is Karl Dreher. I serve the State of Idaho as 
the Director of the Idaho Department of Water Resources, a position 
that I have held since 1995.
    I appreciate your invitation to testify at this hearing and would 
like to share with you some of my concerns with the Draft Biological 
Opinion on Operation of the Federal Columbia River Power System 
(``Draft Bi-Op'') released by the National Marine Fisheries Service 
(``NMFS'') on July 27, 2000. My comments focus on two aspects of the 
Draft Biological Opinion: (1) the inadequacy of the science relied on 
by NMFS in continuing to call for flow augmentation in the mainstem of 
the Snake River; and (2) the flawed analysis conducted by NMFS in 
assessing the effects of the Bureau of Reclamation projects in the 
Upper Snake River Basin.
   1. inadequacy of science used to justify flow augmentation in the 
                          mainstem snake river
    Figure 1 shows the historical record of average daily flows in the 
Snake River near the site of Lower Granite Dam, since records have been 
kept, during the spring time period (April 10 through June 20) for 
which NMFS has established a target flow objective for the Snake River 
at Lower Granite Dam to aid outmigrating spring/summer chinook salmon. 
Similarly, Figure 2 shows the historical record of average daily flows 
in the Snake River during the summer time period (June 21 through 
August 31) during which NMFS has established a target flow objective in 
the Snake River to aid outmigrating fall chinook salmon.
    To assist in evaluating these historical flows, a linear trend line 
was calculated during each of the spring and summer target flow 
periods. The striking conclusion that can clearly be drawn from these 
data is that despite the increasing development of irrigated 
agriculture in the Snake River Basin, despite the development of 
municipal and industrial water supplies, despite the upstream 
development of hydroelectric power plants, despite the construction of 
Dworshak Reservoir for flood control, and despite the construction of 
Bureau of Reclamation storage reservoirs in the Upper Snake River 
Basin, flows have not changed significantly. During the spring target 
flow period, average daily flows range from about 50,000 cfs to about 
170,000 cfs; from prior to 1920 to the current time. During the summer 
target flow period, average daily flows range from about 20,000 cfs to 
about 70,000 cfs; again from prior to 1920 to the current time.
[GRAPHIC] [TIFF OMITTED] T1532.024

[GRAPHIC] [TIFF OMITTED] T1532.025

    The lack of dramatic change in flows is significant because 
analyses conducted by the Process for Analyzing and Testing Hypotheses 
(``PATH'') concluded that the productivity of Snake River spring/summer 
chinook populations remained healthy through the 1950's and into the 
1960's. Consequently, changes in Snake River flows can't have 
contributed to the loss of salmon productivity (because the flows 
haven't changed), and it should not be expected that increasing flows 
will significantly improve salmon productivity because there have been 
no significant flow depletions to contribute to the loss of 
productivity.
    If flows have not changed during the time period when salmon 
productivity declined to the point that Snake River salmon and 
steelhead stocks were listed under the Endangered Species Act, what has 
changed? Figures 3 and 4 show the historic record of average daily 
flows during the spring and summer flow time periods together with a 
parameter termed ``water particle travel time''\1\, which is a 
surrogate parameter for average velocity.
---------------------------------------------------------------------------
    \1\ Water particle travel time is the theoretical length of time 
that it would take a particle, suspended in a volume of water flowing 
at a given rate, to travel some specified distance. An average velocity 
can be calculated by dividing the specified distance by the water 
particle travel time. The specified distance in this instance is the 
length of the river segment from between the confluence of the 
Clearwater and Snake Rivers to the confluence of the Snake and Columbia 
Rivers, about 140 miles.
---------------------------------------------------------------------------
    These figures show that prior to the construction of the four 
Federal Columbia River Power System (``FCRPS'') dams on the Snake River 
above its confluence with the Columbia River, water particle travel 
time, and hence the average velocity of river flow, were largely 
independent of flow. Since the construction of the four FCRPS dams, 
which have transformed a formerly free-flowing river into a series of 
reservoirs, thereby increasing the cross-section of the river, the 
average velocity of river flow has been slowed by an order of magnitude 
and is now significantly dependent on flow.
[GRAPHIC] [TIFF OMITTED] T1532.026

[GRAPHIC] [TIFF OMITTED] T1532.027

    This slowing of river flows following construction of the four 
FCPRS dams, coupled with observations that improved adult returns are 
generally associated with good water years (i.e., high natural flow and 
spill) during juvenile outmigration, have led to the hypothesis that 
augmenting flows in the mainstem Snake River will increase flow 
velocities, decrease the travel time of outmigrating smalls by pushing 
them downstream, and thus improve their survival. However, there has 
been little recognition by NMFS in the Draft Bi-Op and supporting 
documents that flow augmentation can only provide small and probably 
insignificant increases in flow velocities.
    In part to test the hypothesis that flow augmentation improves 
survival of outmigrating juvenile salmon by speeding downstream 
migration, NMFS, the U.S. Fish and Wildlife Service, and the Nez Perce 
Tribe investigated migration characteristics of hatchery-raised, 
spring/summer and fall chinook salmon in the Snake River using 
hatchery-raised juveniles as surrogates for wild juveniles. The studies 
were conducted during the period from 1995 through 1998 and showed that 
estimated survival from points of release to the tailrace of Lower 
Granite Dam could be correlated with all three environmental variables 
examined (flow rate, water temperature, and turbidity), at least for 
fall subyearlings, as shown in Figure 5. Estimated fall subyearling 
survival decreased throughout the season, as flow volume and turbidity 
decreased and water temperature increased. These correlations have been 
used by NMFS as the primary basis in the Draft Bi-Op for the 
continuation of flow augmentation from reservoirs in the Snake River 
and Clearwater River Basins to aid outmigrating juvenile subyearling 
fall chinook salmon.
[GRAPHIC] [TIFF OMITTED] T1532.028

    However, an elementary principal of statistics is that correlation 
between variables does not equate to cause and effect. Based on an 
analysis of the 1995-1998 data relied on by NMFS, these data do not 
support a conclusion that higher flows achieved by use of flow 
augmentation cause an increase in survival. Attached to this written 
statement is a copy of the executive summary from a recent 
collaborative study completed by the Idaho Department of Water 
Resources, the Idaho Water Resources Research Institute (University of 
Idaho), and the Idaho Department of Fish and Game. Using the 1995-1998 
data relied on by NMFS, it was found that most of the hatchery-raised 
fall chinook surviving to Lower Granite Dam traveled faster, not 
slower, during lower flows. This is shown in Figure 6 below and is 
completely opposite of what would be expected if incrementally higher 
flow velocities caused increased survival.
[GRAPHIC] [TIFF OMITTED] T1532.029

    Current data do not provide a sufficient basis for concluding that 
the relatively high mortality occurring after the release of hatchery-
raised fish, especially from later releases, is related to flow rate. 
An inability to transition from a cultured environment to a natural 
environment may result in high mortality shortly after release. This 
post-release mortality is incorporated into survival estimates. If it 
is 
relatively high, this initial mortality could strongly influence 
observed survival patterns, even when the cause of mortality cannot be 
shown to be related to flow condi-
tions. For example, water temperature differentials between the 
hatchery and the river release sites were not constant among release 
groups. The temperature differential was relatively minor for early 
releases, but more dramatic for later release groups. Although fish 
were acclimated prior to release, and acute mortality monitored in net 
pens, the additional thermal stress on later release groups may have 
contributed to lower observed survival at Lower Granite Dam than for 
earlier release groups. Another variable--that is termed herein as 
``readiness to migrate''--may also have influenced hatchery-raised, 
fall chinook migration rates and survival. Fish from the early release 
groups may have been released prior to the time of optimal 
physiological conditions for migration and, therefore, migrations were 
delayed. Evidence for this possibility is the delay between dates of 
release and dates of detections at Lower Granite Dam for early releases 
as compared to later releases. Subyearlings from the later release 
groups may have been released at the end of, or after, their optimal 
physiological time for migration, although a few of the fish from late 
releases appeared to ``catch up,'' as shown by faster travel times, 
despite lower flow conditions, as compared with earlier releases.
    The inadequacy of the studies used by NMFS to investigate survival 
under varying flow conditions does not suggest that flow, specifically 
the attributes of flow (water velocity, temperature, and turbidity), 
are unimportant to migration and survival of juvenile salmon. However, 
flow rates, velocity, temperature, and turbidity are closely correlated 
with one another within the 1995-1998 data set used by NMFS to justify 
continued flow augmentation in the Draft Bi-Op, and the current data 
are insufficient to allow delineation of the effects of individual 
attributes of flow. Understanding the effects of individual attributes 
of flow, particularly the usefulness of flow augmentation to compensate 
for the effects of reservoir impoundment on these attributes, is 
fundamental to determining the effectiveness of flow augmentation 
efforts for increasing survival of juvenile salmon. For example, if 
cooler water temperatures are important to improving the survival of 
juvenile subyearling fall chinook salmon, using relatively warm water 
from the Upper Snake River to augment flows may be counterproductive 
and may harm subyearling fall chinook if river flows augmented with 
water from the Upper Snake River Basin are warmer than what would have 
occurred without flow augmentation from the Upper Snake.
 2. flawed analysis assessing effects of bureau of reclamation projects
    The Draft Bi-Op discusses the flow depletion effects of irrigation 
stemming from Bureau of Reclamation (``BOR'') projects in the Upper 
Snake River Basin and concludes that: ``Flow depletions caused by BOR-
based irrigation are a major impediment to meeting NMFS's flow 
objectives.'' Bi-Op at 6-28. This assertion is based on two analyses: 
(1) the estimated monthly average water consumption of crops at BOR 
irrigation projects upstream of McNary Dam; and (2) the percentage of 
years that simulated mean monthly flows at certain other dams are not 
met as a result of BOR-based irrigation. These analyses contain factual 
errors, apply fundamentally flawed logic in defining the effects of the 
action, and present a grossly misleading picture of the flow impacts of 
Bureau operations.
    The conceptual flaw in the approach used by NMFS to assess BOR 
impacts is that the approach focuses on the time that reservoir storage 
is released during the irrigation season and the consumptive use by the 
crops irrigated by this water. Because irrigation occurs primarily 
during the salmon migration season, NMFS assumes that BOR projects have 
a substantial effect on flows during the migration season. This 
approach overlooks a simple but absolutely crucial fact: most of the 
water released from BOR reservoir storage space for irrigation purposes 
was stored after the irrigation season during the winter and high run-
off periods in the spring. Without storage in a BOR reservoir, the 
water would have flowed downstream and would not have been in the river 
at the time that it is delivered for irrigation. Thus, water stored 
during the winter and spring that is released for irrigation in the 
summer does not reduce natural flows during salmon migration periods, 
but may actually increase flows during salmon migration since a 
substantial portion--roughly half--of the stored water that is released 
for irrigation finds its way back to the river as return flow. To 
correctly determine the effect of BOR reservoirs, NMFS must look to the 
volume and timing of both reservoir storage and return flows during the 
salmon migration periods.
    In wrongly determining the percentage of years that operation of 
the BOR projects would cause a failure to meet flow objectives at Lower 
Granite and other dams based on a 50-year period of record (1929-1978), 
the Draft Bi-Op uses a comparison of flows under current BOR operations 
with flows under a simulated ``without BOR depletion'' scenario. Bi-Op 
at 6-31. Two flaws in the NMFS analysis are readily apparent. First, 
the amount of depletion caused by BOR-based irrigation is overstated by 
approximately 50 percent. NMFS failed to distinguish between full 
service lands, which use Bureau storage as a primary water supply, and 
supplemental lands, which rely on Bureau storage as a secondary source. 
The difference in water use patterns between the two types of lands can 
be substantial. For instance, full service lands in the Boise River 
Basin used 2.18 acre-feet of storage per acre, while supplemental lands 
used 0.66 acre-feet of storage water per acre. NMFS simply assumed that 
all lands used Bureau storage as their sole source of water. Second, 
the analysis of the percentage of years that operation of the BOR 
projects would prevent meeting flow targets continues the error of 
basing the analysis on agricultural depletions rather than actual 
reservoir storage and return flows. The analysis calculates the total 
depletion due to all agriculture, assigns a fraction of that total 
depletion to BOR-based irrigation, and assumes that the BOR-based 
depletion occurs primarily during the salmon migration season. As 
explained previously, this overlooks the distinction between the timing 
of diversions to reservoir storage, which deplete flows at the time 
storage occurs, and diversions pursuant to natural flow water rights, 
which deplete flows at the time the diversion occurs.
    This Draft Bi-Op analysis also reveals another basic misconception 
in the NMFS analysis of BOR impacts. In developing the ``without BOR 
depletions'' scenario, NMFS eliminated all irrigation storage, 
diversions, and return flows. This ``pre-
development'' scenario stretches the available data and analytical 
tools well beyond their reliable use, and places the entire analysis 
well into the realm of speculation. Unfortunately, NMFS then took the 
analysis one stunning step further; it assumed that the BOR reservoirs 
would remain in place and would be actively employed solely to augment 
flows for salmon. In other words, NMFS calculated the effects of 
operating the BOR projects on streamflow as the sum of: (1) the 
depletions that NMFS attributed to BOR-based irrigation; and (2) the 
volume of water that would have been available if the BOR reservoirs 
were actively operated solely to augment flows. Thus, NMFS treated the 
failure to dedicate Bureau reservoirs to flow augmentation as an 
``effect of the action'' for the operation of Bureau projects. The 
Endangered Species Act does not allow NMFS to measure the effects of 
the operations at BOR projects against some artificial scenario that 
sweeps agriculture from the landscape of southern Idaho and then 
assumes that Congress would have authorized and funded major water 
projects for fish flow augmentation purposes.
    3. insufficient collaboration with regional and local interests
    Mr. Chairman, I recognize the breadth of disagreements on these 
issues and others among scientists employed by Federal, State, and 
local governmental entities, as well as scientists associated with 
other interest groups. However, given the significance of salmon 
recovery to the Pacific-Northwest and the Nation, coupled with the 
inevitable costs of recovery actions, the limited collaboration that 
has occurred with regional and local interests has been wholly 
inadequate. Had adequate collaboration occurred, the insufficiencies in 
the science I have described could have been addressed before the Draft 
Bi-Op was finalized. While NMFS may address these flaws to some extent 
in the ensuing final Biologic Opinion, the lack of adequate 
collaboration has undoubtedly increased the likelihood and scope of 
subsequent litigation--litigation which will only serve to slow 
implementation and diminish the effectiveness of meaningful and 
feasible recovery actions.
    Thank you for inviting me to testify today. I would be pleased to 
answer your questions or provide any supplemental information your 
subcommittee may find useful.
                                 ______
                                 
Review of Survival, Flow, Temperature, and Migration Data for Hatchery-
 Raised, Subyearling Fall Chinook Salmon Above Lower Granite Dam, 1995-
1998\1\  (Prepared by Karl J. Dreher, P.E., Director, Idaho Department 
  of Water Resources; Christian R. Petrich, P.E., Research Scientist, 
Idaho Water Resources Research Institute, University of Idaho; Kenneth 
     W. Neely, Technical Hydrogeologist, Idaho Department of Water 
Resources; Edward C. Bowles Anadromous Fish Manager Idaho Department of 
 Fish and Game; Alan Byrne, Senior Fisheries Research Biologist, Idaho 
                      Department of Fish and Game)
---------------------------------------------------------------------------
    \1\ Entire report is available from: http://www.idwr.state.id.us 
(see listing on home page), or http://www.idwr.state.id.us/info/pio/
issues/IDWR-IDFG %20Flow%20&%20'survival%20Review.pdf.
---------------------------------------------------------------------------
                           executive summary
    The National Marine Fisheries Service (NMFS), the U.S. Fish and 
Wildlife Service, and the Nez Perce Tribe have investigated migration 
characteristics of hatchery-raised, subyearling fall chinook salmon 
(Oncorhynchus tshawytscha) in the Snake River Basin from data collected 
from 1995 through 1998 (Muir et al., 1999). The studies showed that 
estimated survival from points of release to Lower Granite Dam could be 
correlated with three environmental variables: flow, water temperature, 
and turbidity. These correlations are being used in support of flow 
augmentation in the lower Snake River.
    This report provides a review of the data used for comparing 
subyearling survival to flow rates, water temperature, time of release, 
and travel time. The principal conclusion of the review is that 
survival data and flow rates used by Muir et al. (1999), despite 
showing an apparent correlation between flow rates and survival, do not 
imply a cause and effect relationship between flow and survival of 
subyearlings and should not be used as a basis to justify flow 
augmentation. This is primarily because the experimental design did not 
address other factors that appear to have strongly influenced migration 
characteristics and survival.
    There is a fourfold basis for this conclusion. First, although flow 
can be correlated with survival, there is a stronger correlation 
between estimated survival and release date. The NMFS experimental 
design assumed that sequential releases of hatchery-raised fall chinook 
would not influence survival independent of flow, temperature, and 
turbidity. The high correlation between time of release and survival 
makes this assumption questionable.
    Second, travel times for hatchery-raised, subyearling fall chinook 
did not correspond with flow rates. For instance, travel times for the 
early percentile surviving fish (5th, 10th, and 25th percentiles) were 
less at lower flows than at higher flows for most releases. Median 
travel time for the fifth percentile surviving fish decreased from 33 
days to 16 days between the first and sixth weekly releases, despite a 
decrease in the fifth percentile flow indices during the same time from 
122,000 cubic feet per second (kcfs) to 63 kcfs. These travel times and 
arrival patterns were contrary to what would be expected if the higher 
flows resulted in significant improvements in survival.
    The fact that travel times are inconsistent with flow rates may 
result from (1) the migration rate being weakly dependent on flow in 
the flow ranges considered or (2) other important non-flow factors 
influencing migration rate. An example of a non-flow factor is 
``readiness to migrate.'' The NMFS study used hatchery-raised, 
subyearling fall chinook as surrogates for wild fish. Implicit in the 
use of these hatchery-raised subyearlings in sequential weekly releases 
is that the fish are equally ``ready to migrate'' when released. Longer 
travel times for portions of early released subyearlings, and faster 
travel times for portions of later-released subyearlings, despite 
substantially decreasing flows, suggests that the fish in the weekly 
sequential releases may not have been equally ``ready to migrate.'' 
Differences in States of ``readiness to migrate'' would confound the 
analysis of flow and survival relationships. Correlations of flow and 
temperature with travel time and survival are only meaningful if the 
groups of fish studied are actively migrating or relatively similar in 
their State of ``readiness to migrate.''
    Third, flow rates, velocity, temperature, and turbidity are closely 
correlated with one another (NMFS, 2000). The current data are 
insufficient to allow delineation of the effects of individual 
attributes of flow. Understanding the effects of individual attributes 
of flow, particularly the usefulness of flow augmentation to compensate 
for the effects of reservoir impoundment on these attributes, is 
fundamental to determining the effectiveness of flow augmentation 
efforts for increasing survival of subyearling fall chinook salmon.
    Fourth, additional problems with existing studies must be addressed 
prior to making conclusions about the efficacy of flow augmentation. 
These include use of flow and temperature indices that do not represent 
overall migration conditions; release timing of hatchery-raised fish 
that is not representative of natural migration; relatively high post-
release mortality; and the inability of reach survival estimates to 
reflect the full spectrum of potential effects from altered water 
velocities, temperatures, and turbidity during migration (e.g., altered 
migration timing, bioenergetics, and transition into the estuary and 
ocean).
    In summary, this review does not suggest that flow, or the 
attributes of flow (water velocity, temperature, and turbidity), are 
unimportant to migration and survival of subyearling fall chinook 
salmon. However, existing correlations between survival of hatchery-
raised, subyearling fall chinook salmon with flow rates and water 
temperatures do not support the postulation that augmenting mainstem 
Snake River flows improves subyearling survival.
                                                  November 1, 2000.

PN-1070 ADM-1.10

Ms. Donna Darm, Acting Regional Director,
National Marine Fisheries Service
7600 Sand Point Way NE
Bin C15700
Seattle, WA

Subject: State of Idaho's Comments on the Draft Biological Opinion

    Dear Ms. Darm: We have reviewed Idaho's comments, provided on 
September 29, 2000, on NMFS draft Biological Opinions (BO) on operation 
of the Federal Columbia River Power System. Idaho's continents cover 
the range of issues addressed in the Draft BO, including definition of 
the action, scope, biologic issues, and effects of Reclamation 
projects.
    We find Idaho's comments on Chapter 6 of the draft BO (effects of 
the Action) to be generally consistent with comments Reclamation 
provided to NMFS on October 5, 2000. Idaho's hydrologic analysis 
summarized in figures 2 through 5 in 
Part 1 of their comments are both factual and based on a more 
sophisticated analysis than that previously undertaken. Idaho's 
comments represent a major improvement in identifying the true effects 
of Bureau of Reclamation storage operations.
    We encourage NMFS to seriously consider this more complete analysis 
in revising the BO.
            Sincerely,
                    J. William McDonald, Regional Director.
                               __________
 Statement of Russell F. Thurow, Certified Fisheries Scientist, Boise 
                    City Council Chambers, Boise, ID
    Thank you Mr. Chairman and members of the subcommittee. I 
appreciate the opportunity to submit testimony on the draft Biological 
Opinion and Recovery Strategy. My name is Russ Thurow, I am a Fisheries 
Research Scientist with the Rocky Mountain Research Station. Although I 
am currently an employee of the U.S. Forest Service, I am submitting 
these comments as an individual and they represent my professional 
assessment. My testimony does not represent the Forest Service or the 
Administration's position. My professional career spans nearly 28 years 
of researching salmonid populations and their habitats. My comments 
today are based on 20 years of experience working with chinook salmon 
and steelhead in the Snake River basin, specifically in central Idaho's 
Salmon River drainage.
    I find the approach outlined in the Biological Opinion and Recovery 
Strategy flawed and scientifically indefensible. In this testimony, I 
want to focus specifically on the scientifically indefensible 
conclusion that Snake River anadromous fish stocks can be recovered 
through restoration of freshwater spawning and rearing habitat. I will 
demonstrate that the preponderance of scientific evidence illustrates 
this approach is infeasible and will fail to meet recovery goals under 
ESA for Snake River stocks.
    I want to begin by revisiting the status of Snake River Basin 
anadromous fish:
    1. As recently as the early 1970's, the Snake River basin supported 
sport fisheries for wild chinook salmon and summer steelhead (IDFG 
1992).
    2. Since the mid 1970's, ALL stocks of anadromous fish in the Snake 
River basin, including Pacific lamprey, have declined precipitously.
    3. Abundant evidence suggests human activities and specifically 
hydropower development, is the proximate cause of the post-1970 
declines. Declines in stock productivity have coincided with the 
development and operation of the Columbia River hydropower system 
(Schaller et al. 1999). As a result, a concentrated effort has been 
applied to improve survival through passage technology, smolt 
transportation, and flow augmentation (IDFG et al. 1990). It is also 
apparent that a decline in ocean productivity occurred in the late 
1970's (Pearcy 1992). The cumulative effects of a naturally cyclical 
fluctuation in productivity and increased mortality as a result of the 
hydropower system interacted to severely reduce stock productivity.
    4. Despite nearly 30 years of efforts to improve passage through 
the hydra system, the stocks have continued to decline. Snake River 
sockeye salmon were federally listed under the Endangered Species Act 
in 1991, spring, summer, and fall chinook salmon in 1992, and summer 
steelhead in 1997. The 1995 chinook salmon read counts were the lowest 
on record in the basin (Elms-Cockrom 1998) and all stocks remain 
imperiled.
    5. Although opinions on the most effective means of recovery vary, 
it is clear that substantial improvements in survival must occur if 
Snake River stocks are to be restored. The 1995-1998 National Marine 
Fisheries Service Biological Opinion on operation of the Columbia River 
hydrosystem created the PATH (plan for analyzing and testing 
hypotheses) process to assist managers in making long-term hydra system 
decisions necessary to ensure survival and recovery of Snake River 
stocks (NMFS 1995). PATH, which represents the most collaborative and 
peer reviewed analysis, concluded a 2.7 fold improvement in survival is 
necessary for recovery of Snake River spring/summer chinook salmon 
(Peters and Marmorek 2000).
    The approach outlined in the Biological Opinion and Recovery 
Strategy suggests the best opportunities to improve survival and 
restore Snake River anadromous fish stocks lie in the freshwater 
spawning and rearing areas, specifically in improving egg-to-smolt 
survival. Using wild Middle Fork Salmon River stocks as an example, I 
will illustrate why that approach is flawed, infeasible, and will not 
recover Snake River stocks. I am sure Senator Crapo is familiar with 
the Middle Fork Salmon River, since 1930 the area was managed as the 
Idaho Primitive Area. In 1980 the Central Idaho Wilderness Act 
established a 2.2-million acre wilderness that remains the largest 
contiguous wilderness in the lower 48 States. I am intimately familiar 
with this drainage and its fish populations. Twenty years ago I began 
an intensive fisheries investigation of anadromous and resident 
salmonids there (Thurow 1985). Since then I have personally surveyed 
all of the nearly 600 miles of spawning and rearing habitat accessible 
to anadromous fish in the drainage (Thurow 2000a). The trends in Middle 
Fork Salmon River salmon and steelhead populations are consistent with 
the facts I listed earlier: since the mid-1970's salmon and steelhead 
populations declined precipitously, the sport fishery has remained 
closed, and the stocks remain at risk.
    Focusing on restoration of freshwater spawning and rearing habitat 
will not recover Snake River stocks because:
    A. Losses in the egg to smelt stage have not been the cause of 
declines in Snake River stocks. Analysis of numbers of wild Snake River 
basin chinook salmon spawning adults and smelts produced indicates 
mortality in this life stage has not changed substantially from the 
1960's to present (Petrosky and Schaller 1996; Stufa 2000). The number 
of young salmon or recruits produced per spawning salmon has remained 
fairly consistent or slightly increased. Comparisons of stock trends in 
wilderness and degraded habitats also corroborate the fact that changes 
in spawning and rearing habitat quality have not been responsible for 
stock declines. If freshwater habitat were the primary cause for 
declines, then stocks in high quality habitats should be faring 
substantially better than stocks in degraded habitats. The 
preponderance of evidence demonstrates this is not the case. Snake 
River chinook salmon read counts in both wilderness and degraded 
habitats have similarly declined since the mid 1970's (Hassemer 1993).
    B. Habitat conditions in the Middle Fork Salmon River have remained 
the same or improved since the 1960's. The primary past human 
activities that degraded habitat in the Frank Church Wilderness were 
associated with mining and livestock grazing. The 1980 wilderness 
designation banned all dredge and placer mining. Livestock grazing 
management has improved and restoration of riparian areas is in 
progress in the Marsh, Camas, and Bear Valley creek drainages. In the 
1930's biologist William Chapman surveyed salmon habitat across the 
Columbia River basin. He wrote: ``the Middle Fork of the Salmon 
possesses immense spawning areas for spring chinook which to my 
knowledge are not surpassed or even reached in quantity or quality any 
place else in the Columbia River drainage.'' (Chapman 1940). Those 
immense and high quality areas remain today and I invite the members of 
this committee to visit them.
    C. In high quality habitats like those that exist in most of the 
Middle Fork Salmon River, there is virtually no opportunity to 
substantially improve egg-to-smolt survival of fish spawning in the 
wild. Biologists know that much of the freshwater mortality occurs 
during the winter. Salmon evolved to produce between 4,000 and 6,000 
eggs per female, and although survival rates vary, even in the best 
habitats most of these eggs and fry do not survive. A recent article in 
Science by Kareiva and others (Kareiva et al. 2000) has received a lot 
of attention. Although the authors performed an interesting modeling 
exercise, there are two major errors in the paper: (1) the authors 
emphasize improving egg-to-smolt survival to restore Snake River stocks 
without considering the feasibility of actually making those 
improvements; and (2) the authors fail to acknowledge that declines in 
Snake River stocks have not been caused by reductions in the egg-to-
smolt life stage. I challenge the individuals who are advocating 
freshwater habitat restoration as a means to restore Snake River 
chinook salmon to visit the Middle Fork Salmon River habitats and 
explain how they would achieve a 2.7-fold improvement in survival.
    D. The life stage where the largest increases in mortality have 
occurred as a result of human activities is in the smolt-to-adult 
stage. Smolt-to-adult return rates for Snake River stocks declined from 
more than 4 percent in 1968 (Raymond 1979) to less than 0.7 percent in 
the 1990's (Marmorek et al. 1998; STUFA 2000). In 1992, for example, 
smolt-to-adult return rates were estimated to be less than 0.2 percent 
(STUFA 2000). The smolt-to-adult life stage offers the best opportunity 
to reduce mortality and restore survival to a level necessary to meet 
recovery goals. Comparisons of downriver stocks with Snake River stocks 
corroborate the strong influence of migration corridor mortality. Snake 
River stocks above eight dams are faring about \1/3\ as well as 
downriver stocks above 3 dams (Schaller et al. 1999; Deriso et al. 
1996). As further corroborative evidence, during years of high stream 
flows and improved passage conditions, differences in mortality rates 
between downriver and upriver stocks narrow (Derive et al. 1996; IDFG 
2000). If freshwater habitat quality or ocean condition fluctuations 
were the proximate causes of mortality, this shrinking of the 
differences in mortality between up and downriverstocks with higher 
flows would not be expected.
    These points clearly illustrate that changes in the egg-to-smolt 
life stage in freshwater spawning and rearing habitat are not 
responsible for the declines in Snake River stocks. Rather, the 
declines since the mid-1970's have been caused by increased mortality 
in the smolt-to-adult life stage. The problem lies not in the quality 
of spawning areas but in the lack of sufficient numbers of adults 
successfully returning to spawn. Consequently, freshwater habitat 
restoration will not recover Snake River stocks.
    Does this mean spawning and rearing habitats are not important? 
Certainly not. The Interior Columbia River Basin Ecosystem Management 
Project (ICBEMP) Aquatic Science Team concluded that high quality 
freshwater habitats are extremely critical to the persistence of native 
resident and anadromous salmonids. Native salmonids have generally 
fared best in the areas least disturbed by humans and many high quality 
habitats, especially those in designated wilderness or roadless areas, 
represent the only remaining strongholds for native species (Lee et al. 
1997). For Snake River anadromous stocks in the short term, because of 
the habitat and population losses associated with the hydra system, 
only the most productive populations may retain the resilience to 
persist in the face of natural and human caused disturbance (Lee et al. 
1997; Thurow et al. 2000b). Restoration of degraded habitats will also 
benefit some Snake River fish populations. Any changes in the 
environment that increase survival and productivity of Snake River 
stocks will improve chances for persistence (Emlen 1995; NRC 1996). In 
the Yankee Fork and Lemhi rivers, for example, restoration of more 
natural stream flows and spawning gravels will benefit both resident 
and anadromous stocks. However, while high quality spawning and rearing 
habitat is key to stock persistence, freshwater habitat restoration 
will not restore widely ranging Snake River anadromous stocks, 
especially those in areas already supporting good quality habitat. The 
ICBEMP Aquatic Science Team reported, for example, that despite 
supporting some of the highest quality freshwater habitat in the entire 
Columbia River basin, the central Idaho wilderness contains no strong 
populations of anadromous fish (Huntington et al. 1996; Lee et al. 
1997).
    Another NMFS document, the so-called All-H paper (NMFS 2000), 
provides the final piece of supporting information to illustrate why 
Snake River stocks will not be restored by freshwater habitat 
restoration. The All-H paper logically prioritizes subbasins for 
habitat restoration based on need and opportunities for success. I 
refer to the Table on page 15 of Volume 2 (NMFS 2000) that lists 
``Highest priority subbasins and costs for fiscal year 2001 habitat 
restoration''. Not a single subbasin supporting Snake River stocks of 
chinook salmon, sockeye salmon, or summer steelhead was prioritized for 
habitat restoration? Why? Precisely for the reasons stated earlier, 
because most of the basins already support habitat of good to high 
quality, only modest benefits would be realized from freshwater habitat 
restoration efforts. I quote from page 17 of Volume 2 (NMFS 2000),

          Subbasins above the four Snake River dams were given a lower 
        priority for investments in habitat restoration projects 
        because adult anadromous fish escapement during the last decade 
        has not been sufficient to seed existing Federal habitat. 
        Generally, anadromous and resident fish habitat quality of 
        Federal land in the Snake River Basin is considered to be in 
        good condition. Approximately 70 percent of the priority 
        watersheds with listed anadromous fish are in wilderness or 
        roadless areas.

    In summary, the Biological Opinion and Recovery Strategy make a 
critical error in focusing on the egg-to-smolt life stage as the area 
of emphasis. This approach is not feasible and will fail to recover 
Snake River anadromous fish. If Snake River anadromous fish stocks are 
to be recovered, then the Biological Opinion and Recovery Strategy must 
change its approach and emphasize measures to restore survival in the 
smolt-to-adult life stages to a level necessary to meet recovery goals.
    Society has spent billions of dollars in efforts to restore 
Columbia River basin anadromous fish because of their cultural and 
economic importance. These efforts, though well intentioned, have not 
been effective and the stocks continue to decline. I believe the draft 
Biological Opinion and Recovery Strategy is scientifically indefensible 
and misleads the public by asking them to believe freshwater habitat 
restoration will recover Snake River salmon and steelhead. It is not 
too late to correct this error, to refocus the effort on restoring 
survival in the smolt-to-adult life stage, and to get on with the 
business of recovering these stocks.
    Thank you for the opportunity to participate in this critical 
process that will ultimately determine the fate of Snake River native 
fishes.
                            literature cited
    Chapman, W.M. 1940. Report of a field trip to the Snake River 
drainage in Idaho and Eastern Oregon, 1940. Washington Department of 
Fisheries. Olympia.
    Deriso, R., D.R. Marmorek, and I. Parnell. 1996. Retrospective 
analysis of passage mortality of spring chinook of the Columbia River. 
In Marmorek, D.R. and 21 co-authors. 1996. Plan for Analyzing and 
Testing Hypotheses (PATH): final report of retrospective analysis for 
fiscal year 1996. ESSA Technologies Ltd., Vancouver, B.C.
    Elms-Cockrom, T.J. 1998. Salmon spawning ground surveys, 1997. 
Pacific Salmon Treaty Program. Award No. NA77FP0445. Idaho Department 
of Fish and Game. Boise.
    Emlen, J.M. 1995. Population viability of the Snake River chinook 
salmon (Oncorhvnchus tshawytscha). Canadian Journal of Aquatic Sciences 
52: 1442-1448.
    Hassemer, P.F. 1993. Salmon spawning ground surveys, 1989-1992. 
Project F-73-R-15. Idaho Department of Fish and Game. Boise.
    Huntington, C.W.; Nehlsen, W.; Bowers, J. 1996. A survey of healthy 
native stocks of anadromous salmonids in the Pacific Northwest and 
California. Fisheries. 213: 6-15.
    IDFG (Idaho Department of Fish and Game), Nez Perce Tribe of Idaho, 
Shoshone-Bannock Tribes of Fort Hall. 1990. Salmon River subbasin 
salmon and steelhead production plan. Boise, ID.
    IDFG (Idaho Department of Fish and Game). 1992. Anadromous fish 
management plan 1992-1996. Idaho Department of Fish and Game. Boise, 
ID.
    IDFG (Idaho Department of Fish and Game). 2000. Comments Regarding 
Jeopardy Analysis and Biological Requirements of Listed Species. 
September 29, 2000. Part II of State of Idaho Comments on Draft 
Biological Opinion on Operation of the Federal Columbia River Power 
System Including the Bureau of Reclamation's 31 Projects, including the 
Entire Columbia Basin Project (dated July 27, 2000).
    Kareiva, P., M. Marvier, and M. McClure. 2000. Recovery and 
management options for spring/summer chinook salmon in the Columbia 
River Basin. Science. Vol. 290 977-979.
    Lee, D., Sedell, J., Rieman, B., Thurow, R., Williams, J. 1997. 
Broadscale assessment of aquatic species and habitats. An assessment of 
ecosystem components in the interior Columbia Basin and portions of the 
Klamath and Great Basins. Volume 3, chapter 4. U.S. Forest Service, 
General Technical Report PNW-GTR-405.
    Marmorek, D.R., C.N. Peters and I. Parnell. 1998. Plan for 
Analyzing and Testing Hypotheses (PATH): Final Report for Fiscal Year 
1998. ESSA Technologies, Ltd. 1765 West 8th Avenue, Suite 300. 
Vancouver BC, V6J 5C6. 263 pp.
    NRC (National Research Council). 1996. Upstream: Salmon and society 
in the Pacific Northwest. Washington, DC: 39-66. Chapter 3.
    NMFS (National Marine Fisheries Service). 1995. Biological opinion: 
reinitiation of consultation on 1994-1998 operations of the Columbia 
River power system and juvenile transportation program in 1994-1998. 
Endangered Species Act, section 7 consultation. NMFS, Portland, OR.
    NMFS (National Marine Fisheries Service). 2000. Conservation of 
Columbia Basin Fish: Draft Basin-wide Salmon Recovery Strategy (Update 
of the All-H Paper). Volume 2. July 27, 2000. Prepared by National 
Marine Fisheries Service in consultation with the Federal Caucus.
    Pearcy, W.G. 1992. Ocean ecology of North Pacific salmonids. 
Washington Sea Grant. University of Washington.
    Peters, C.N. and D.R. Marmorek (eds.) 2000. PATH Preliminary 
Evaluation of the Learning Opportunities and Biological Consequences of 
Monitoring and Experimental Management Actions. April 11, 2000. ESSA 
Technologies, Ltd. 1765 West 8th Avenue, Suite 300. Vancouver BC, V6J 
5C6. 154 pp.
    Petrosky, C.E. and H.A. Schaller. 1996. Evaluation of Productivity 
and survival rate trends in the freshwater spawning and rearing life 
stage for Snake-River spring and summer chinook. In Marmorek D.R. and 
21 co-authors. 1996. Plan for Analyzing and Testing Hypotheses (PATH): 
final report of retrospective analysis for fiscal year 1996. ESSA 
Technologies Ltd., Vancouver, B.C..
    Raymond, H.L. 1979. Effects of dams and impoundments on migrations 
of juvenile chinook salmon and steelhead from the Snake River, 1966 to 
1975. Transactions of the American Fisheries Society. 108: 505-29.
    Schaller, H.A., C.E. Petrosky and O.P. Langness. 1999. Contrasting 
patterns of productivity and survival rates for stream-type chinook 
salmon (Oncorynchus tshawytscha) populations of the Snake and Columbia 
rivers. Can. J. Fish. Aquat. Sci. 56:1031-1045.
    STUFA (State and Tribal and U.S. Fisheries Agencies). 2000. A 
technical review of the National Marine Fisheries Service Leslie matrix 
model of Snake River spring and summer chinook populations. April 28, 
2000. Submitted to NMFS for ESA Record.
    Thurow, R. 1985. Middle Fork Salmon River fisheries investigations. 
Job Completion Report. Federal Aid in Fish Restoration Project F-73-R-
6. Idaho Department of Fish and Game, Boise.
    Thurow, R.F. 2000a. Dynamics of chinook salmon populations within 
Idaho's Frank Church wilderness: implications for persistence. Pages 
143-151 In: McCool, S.F., Cole, D.N., Borrie, W.T., O'Loughlin, J. 
Wilderness science in a time of change conference-Volume 3: Wilderness 
as a place for scientific inquiry, May 23-27, 1999, Missoula, MT. U.S. 
Forest Service, Proceedings, RMRS-P-15-Vol-3.
    Thurow, R.F., Lee, D.C., Rieman, B.E. 2000b. Status and 
distribution of chinook salmon and steelhead in the interior Columbia 
River basin and portions of the Klamath River basin. In: Knudsen, E., 
Steward, C., Mac Donald, D., Williams, J., and Resier, D., eds. 
Sustainable fisheries management: Pacific salmon. Boca Raton: CRC 
Press: 133-160.
                               __________
  Statement of Dan James, Ball Janik LLP, Pacific Northwest Waterways 
                       Association, Vancouver, WA
                              introduction
    Mr. Chairman, my name is Dan James. I am a government relations 
consultant with the law firm Ball Janik LLP. I am representing the 
Pacific Northwest Waterways Association, where I worked from January 
1992 until last month. The PNWA membership includes nearly 120 
organizations and individuals in Idaho, Washington and Oregon. PNWA 
represents public port authorities on the Columbia/Snake River System, 
the Pacific Coast and Puget Sound; public utility districts, investor-
owned utilities, electric cooperatives and direct service industries; 
irrigation districts, grain growers and upriver and export elevator 
companies; major manufacturers in the Pacific Northwest; forest 
products industry manufacturers and shippers; and tug and barge 
operators, steamship operators, consulting engineers, and others 
involved in economic development throughout the Pacific Northwest. Our 
Idaho members include the Port of Lewiston, Boise Cascade Corporation, 
Potlatch Corporation, Idaho Power Company, Lewiston Grain Growers and 
the Lewis-Clark Terminal Association.
    We appreciate the opportunity to discuss issues related to salmon 
recovery science in the Columbia Basin.
                     successful ``applied science''
    Consider the moon landing and the frozen French fry. The polio 
vaccine and the cellular phone. In each instance, there were vast 
uncertainties in the science, wide gaps in knowledge, conflicting data, 
and a diversity of opinion, yet, ultimately those who pursued their 
goals were successful. The application of science was successful 
because goals were clear and priorities were definite. Senator, absent 
clear goals and definitive priorities, the problems surrounding the 
recovery of salmon continue in the Pacific Northwest. We are attempting 
to apply science without clear goals and without definitive priorities.
     conflicts in law, conflicts in goals, conflicts in philosophy
    Conflicts in law, conflicts in goals, and conflicts in philosophy 
are serious impediments to salmon recovery in the Columbia Basin.
Law
    <bullet> It is the responsibility of the National Marine Fisheries 
Service (NMFS) to protect endangered fish, without regard to the 
economic cost of doing so. However, it is the responsibility of the 
Northwest Power Planning Council (NPPC) to protect all fish and 
wildlife, in balance with meeting regional energy needs.
    <bullet> The Migratory Bird Treaty Act and the Marine Mammal 
Protection Act and other laws were created to promote a healthy, 
balanced ecosystem. At the same time, the species we are protecting 
have increased their consumption of ESA-listed salmon.
    <bullet> The ESA gives the highest possible policy and legal 
priority to the protection of listed subspecies of salmon, yet the 
United States has trust responsibilities and treaties regarding Native 
Americans' tribal fishing rights.
Goals
    <bullet> There are conflicts between providing sustainable runs or 
harvestable runs of salmon.
    <bullet> There are conflicts between protecting weakened wild 
salmon runs and encouraging the harvest of stronger runs of wild salmon 
and hatchery fish.
    <bullet> There are conflicts between enhancing populations of wild 
fish and enhancing population of hatchery fish.
    <bullet> Because we have so many goals, we essentially have no 
goal.
Philosophy
    <bullet> Some who advocate breaching dams are not willing to 
consider alternatives to mixed stock harvest to save endangered salmon.
    <bullet> Some who advocate massive reductions in water withdrawals 
that would devastate irrigated agriculture appear unwilling to consider 
changing hatchery management goals to protect wild salmon runs.
                    we need to establish priorities
    Recognizing that we have many conflicting goals, the way to 
successfully move forward is to establish definitive priorities--a task 
we have yet to accomplish. I offer these problems to illustrate my 
point:
    <bullet> What do we do when ESA and treaty obligations conflict?
    <bullet> What do we do when salmon protection and marine mammal or 
avian protections conflict?
    <bullet> What do we do when our hatchery practices for harvest 
practices hurt ESA-listed fish?
    To answer these questions, we need to establish priorities. So far, 
we have none. So far--we have seen the Federal, State and tribal 
agencies attempt to meet diverse and conflicting objectives--in many 
cases--at the expense of other national and regional goals--that appear 
to be regulated to second tier. The Columbia and Snake rivers support a 
tremendous diversity of life and bring a remarkable array of benefits 
to the region and the Nation. The rivers support complex ecological 
systems and are the lifeblood of the regional economy. The question we 
have posed to ourselves is this: As users of these rivers, how can we 
support recovery of listed salmon stocks and preserve the other 
benefits that these rivers bring to the entire region and the nation?
    Senator, we hope that you and your colleagues will direct the 
Federal, State and tribal fish managers to establish clear and 
consistent goals that recognize the complexities of salmon and the 
river system and sets priorities to maximize the chances of recovery. 
If the outcome of that guidance manifests itself in multiple goals, 
then we must establish clear priorities that lead us to salmon 
recovery.
    We appreciate your listening to our thoughts on these issues. Thank 
you.
                                 ______
                                 
                 Saving Salmon in the Pacific Northwest
                      salmon recovery: an overview
    In the next few months, the people of the Pacific Northwest and our 
policymakers will be making critical decisions that will affect salmon 
and other natural resources. The region's salmon efforts have been 
extensive, with more than $3.0 billion invested since the passage of 
the Northwest Power Act in 1980. Yet, the region's rivers remain the 
focus of a perplexing policy and scientific debate.
    Almost all of this debate is centered around proposed solutions to 
the salmon issue. This attempt to find ``the answers'' has not produced 
a recovery plan--mainly because the region hasn't agreed on the 
question.
    Before the region can find specific solutions addressing salmon 
recovery, we believe the Northwest must address the following, broader 
questions:
    What vision does the region have for its rivers? What goals do we 
have for our salmon and steelhead populations?
    Despite intense debate, these questions remain largely unaddressed. 
Indeed, the primary lesson of the past 20 years is that the region's 
multi-layered process for salmon management is not effective at 
defining consistent goals.
    Instead, conflicting goals have led to actions that in some cases 
reduced salmon survival. What we have learned is that proposing 
solutions without clearly articulated goals will not result in 
recovery.
    Further, proposed solutions that ignore the complexity of the 
salmon lifecycle and the complexity of the river system will not work.
    In short, the region needs a recovery plan that:
    (1) establishes and follows clear and achievable goals;
    (2) recognizes the complexities of salmon and the river system, and
    (3) sets priorities to maximize the chances of recovery.
    By insisting on a plan with these three elements, the region can 
restore salmon runs and--at the same time--maintain the many 
environmental and economic benefits of the Columbia/Snake River System. 
It does not have to be an either/or choice.
    The following sections of this paper address each of the three 
elements needed for an effective recovery plan.
     a plan that establishes and follows clear and achievable goals
    Before any salmon recovery effort can succeed--and before any 
specific recovery proposal can be evaluated--the region must adopt 
clear and attainable goals.
    In the recently completed ``All-H'' paper, the Federal agencies 
describe Conservation Goals. They include: conserve species and 
ecosystems, ensure tribal fishing rights, balance needs of other 
species and minimize adverse effects on humans.
    These goals mean different things to different people.
    <bullet> For some, the most important goal is to recover listed 
salmon populations to the point where they can be removed from the 
Endangered Species List. That goal leads to a certain set of actions 
and policies.
    <bullet> For some, the priority is to build strong fish runs (of 
both wild and hatchery salmon) to support current or even increased 
harvest levels. That leads to a different set of actions.
    <bullet> For some, the goal is to return to a so-called ``natural'' 
river. That would lead to an even more drastic and uncertain set of 
actions.
    Without broad support for a unified plan, groups with conflicting 
objectives are likely to work at cross-purposes--all under the broad 
banner of ``saving the salmon.'' This situation is as much a legal, 
policy and fisheries management crisis as a biological crisis.
    a plan that recognizes the complexities of salmon and the river
    Salmon travel thousands of miles over their lifespan, beginning in 
the Columbia River and its tributaries followed by years in the ocean 
before returning to the river system to spawn. Along the way they are 
affected by dams, harvesting, predators, ocean conditions and many 
other variables.
    Salmon mortality is a result of many factors all along the 
lifecycle of the salmon. This points out the overriding Catch-22 of all 
single-minded salmon recovery efforts: Increasing survival at a single 
point might be offset by mortality at another point in the salmon 
lifecycle.
    A comprehensive approach to improving salmon survival is the only 
way to systematically reduce the levels of mortality that have led to 
the low population sizes.
    Recovery efforts must address:
    <bullet> spawning and rearing habitat;
    <bullet> downstream migration;
    <bullet> predators;
    <bullet> estuary conditions;
    <bullet> ocean conditions;
    <bullet> upstream migration;
    <bullet> hatcheries; and
    <bullet> harvest.
    Focusing on any one recovery measure will be unsuccessful because 
there is not a single source of mortality. Rather, we must work toward 
a coordinated, comprehensive and scientifically-based recovery plan.
    a plan that sets priorities to maximize the chances of recovery
    There is no shortage of proposals to ``save the salmon.'' In 
addition to adopting clear goals and focusing on the entire salmon 
lifecycle, an effective recovery plan must also prioritize these 
proposals. This will allow the region to invest in the plans with the 
best chance of success.
    Science is critical to setting these priorities. Great strides have 
been made in our understanding of the salmon lifecycle. However, there 
continue to be large uncertainties that can only be answered through 
continued research.
    Recent science has provided evidence that survival of both juvenile 
and adult salmon through the mainstem dams has been significantly 
improved as a result of the region's major investments in dam passage 
and operational changes.
    Current NMFS research shows increased survival for spring/summer 
salmon in the Snake and Columbia rivers.
    Survival rates at each dam, as measured by NMFS, are nearly 95 
percent for most years since 1995. This compares with estimates of per 
project survivals for Snake River fish of less than 70 percent during 
most of the 1970's. (http://www.nwfsc.noaa.gov/pubs/white/travel.pdf on 
page 24)
    Indeed, the survival level through this stretch of the river is 
approaching the practical upper limit. (It is not possible to reach 
levels of 100 percent survival even through free flowing stretches of 
the Snake and Columbia rivers.)
    In addition, NMFS research is indicating that other factors play a 
more important role in salmon mortality than previously thought. These 
factors include estuary mortality, predation, poor ocean survival and 
inadequate survival during the first year of life before the salmon 
reach the first dam.
           where do we go from here?--a cooperative approach
    The Columbia and Snake rivers support a tremendous diversity of 
life and bring a remarkable array of benefits to the region and the 
Nation. The rivers support complex ecological systems and are the 
lifeblood of the regional economy.
    The question we have posed to ourselves is this: As users of these 
rivers, how can we support recovery of listed salmon stocks and 
preserve the other benefits that these rivers bring to the entire 
region and the nation?
    In answer to that question, we have formulated the following four 
principles, which we endorse for ourselves and for others who seek to 
make a constructive contribution.
    1. Move beyond us-versus-them solutions. Seek win-win opportunities 
instead.
    2. Avoid drastic calls to action based on panic. Instead, seek a 
reasonable or proven course based on sound science.
    3. Recognize that there is no ``silver bullet.'' There is no single 
action that will save the salmon. ``Silver bullet'' solutions are not 
scientific solutions because they fail to recognize the complex 
interconnected lifecycle of the salmon.
    4. Most importantly, insist on and contribute to formation of a 
salmon recovery plan based on the three elements we have outlined. Any 
effective salmon plan must:
    <bullet> establish and follow clear and achievable goals,
    <bullet> recognize the complexities of salmon and the river system, 
and
    <bullet> set priorities to maximize the chances of recovery.
    In the Columbia and Snake rivers, the Northwest has been entrusted 
with a remarkable resource--one that brings benefits to all aspects of 
life in the Northwest. By following these four principles, the region 
can restore listed salmon runs while maintaining a healthy environment 
and a strong economy. Ultimately, that will benefit everyone.
    Statement of Thayne Barrie, Idaho Steelhead and Salmon Unlimited
    Chairman Crapo, and members of the committee, My name is Thayne 
Barrie, I am an independent businessman, and president of Idaho 
Steelhead and Salmon Unlimited. I own Sunset Sports Center with stores 
in Boise and Pocatello, Idaho.
    Idaho Steelhead and Salmon Unlimited (ISSU) was formed in 1984 by a 
diverse group of businessmen, guides, conservationists, sport 
fishermen, and concerned citizens from throughout the region to 
protect, restore, and preserve The Snake River's anadromous resource.
    The Snake River was once one of the worlds largest producers of 
spring chinook, summer chinook, and steelhead, as well as large numbers 
of sockeye, coho, and fall chinook salmon. Snake River salmon 
contributed to economies as far north as Alaska, and to the south as 
far as California, as well as 900 miles inland to Stanley, Idaho.
    Members of ISSU claim they can remember in the late 1960's and 
early 1970's when small communities along the Salmon River--such as 
Clayton, Idaho near Challis--would sell about 2000 gallons of gasoline 
a day to salmon fishermen . . . and about that many gallons of beer.
    In 1978--only 3 years after the completion of the four lower Snake 
River dams--salmon fishing closed on the world famous Salmon River of 
Idaho, and has never re-opened. Fishing businesses from Alaska to 
Stanley were devastated by the completion of those four dams. Sport, 
tribal, and commercial fishermen were the first victims as a result of 
damming the lower Snake. Because those dams were so lethal to wild 
salmon and steelhead Congress acted immediately to protect remaining 
wild populations by creating the Frank Church River of No Return and 
the Selway-
Bitterroot Wilderness areas to protect and enhance spawning and rearing 
for the few remaining wild runs. These two wilderness areas comprise 
the largest contiguous wilderness area in the lower 48 States. However 
this added to more victims as logging, mining, and ranching was 
eliminated in these areas. All because the dams kill so many fish that 
no other mortality can occur. The same trend continues to this day. The 
four lower Snake River dams continue to kill so many fish that no other 
human caused mortality is acceptable. Sport, tribal and commercial 
harvest are a mere fraction of what they were before the dams were 
built. Habitat such as Bear Valley Creek, Marsh Creek, and Beaver Creek 
along the Salmon River--to name a few--are in better shape today than 
they have ever been.
    Yet the Federal Bi-Op wants to continue to punish the victims. It 
is laden with habitat, harvest and hatchery, measures. More of the same 
stuff that has been done in this basin for the last 20 years.
    Currently steelhead fishing in Idaho is a $90 million a year 
industry. It employs approximately 3000 Idahoans. In rural Idaho--such 
as Riggins, Challis, and Orofino--it is an important natural resource. 
One that has far more economic importance than simply restoring them 
because of the Endangered Species Act. Don Reading--of Ben Johnson and 
Associates--estimates that a restored salmon fishery in Idaho would 
double that number. I know in my own business steelhead and salmon 
fishing means $310,000 or 9.5 percent of my total business. When you 
look at a business such as mine, and we try to hit a goal of 3 percent 
as a total net return, the loss of this revenue would equate to three 
full time and two part time jobs. I cannot even speculate to the amount 
of non-fishing items these customers relate to--possibly it could mean 
the loss of my business in whole. You factor that in State wide and the 
effect would be enormous.
    Sport fishing in Idaho, Oregon, and Washington according to a study 
by the American Sport Fishing Association showed that $2,993,298,116 
was spent in 1996 by sport fishermen. Nearly $3 billion in 1 year, or 
about the same amount that has been squandered in the region by the 
Northwest Power Planning Council on salmon recovery. Bear in mind this 
figure does not represent tribal or commercial fisheries and was 
compiled at a time when salmon and steelhead runs were at all time 
lows. Saving salmon is not a cost it is a benefit.
    ISSU has no agenda to breach dams. ISSU has an agenda to save 
salmon even if it means breaching the four Lower Snake River dams. We 
are willing to support any plan that can pass State, tribal, and legal 
muster to restore our salmon and steelhead resources. We have yet to 
see one that does not involve breaching the four Lower Snake dams, nor 
do we believe we ever will.
    I have included some economic attachments prepared by the Save our 
Wild Salmon Coalition. The figures in these documents were derived 
directly from the Army Corps of Engineers Drawdown Economic Work Group 
(DREW) documents.
    You will see there are many more economic benefits from dam bypass. 
One is a $123 million recreation benefit in the 140-mile section of 
restored natural river in the lower Snake. A natural river in the Lower 
Snake River would reveal 34,000 acres of inundated riparian land and 
approximately 13,000 acres of river surface area, increasing big-mass 
in the Lower Snake by 70 percent. Another is the savings of what the 
Bureau of Reclamation estimates to be $180 million a year in flow 
augmentation, adding water to the dammed river from upstream 
reservoirs, disrupting hundreds of thousands of acres of irrigated 
land. Compliance with the Clean water Act could cost $460 million or 
more if the dams stay in place. I urge you to look these documents over 
closely. I think you will find that salmon recovery, and dam removal is 
a winning proposition for all of us.
    Thank you Chairman Crapo for allowing Idaho's sportsman and related 
businesses an opportunity to be here today. I will try and answer any 
questions you or the committee may have.
   Statement of Craig Smith, Resource Adviser to the Northwest Food 
                         Processors Association
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to testify today on the draft biological opinion and the 
operation of the Federal Columbia River Power System.
    Senator Crapo, on behalf of the food processing industry in the 
Northwest, I would like to take this opportunity to thank you for your 
continued leadership on this issue which is of such great importance to 
all residents of the Northwest.
    The Northwest Food Processors Association is a regional trade 
association representing the fruit, vegetable and specialty food 
processing industry in Idaho, Washington and Oregon. Food processing is 
the largest manufacturing employment sector in the State of Idaho and 
the second largest manufacturing employment sector in both Washington 
and Oregon. Food processors in the region operate 257 processing 
plants, employ 50,000 individuals and realize $7 billion in annual 
sales. Food processing is the backbone of the rural Northwest economy.
    Food processors have a critical interest in the future of the 
Columbia/Snake system. It is this great system that has allowed our 
region to become one of the foremost food production areas in the 
world. Access to adequate irrigation water, the availability of 
dependable, low cost power and the river transportation system, which 
helps us reach Asian export markets, are all critical to the continued 
viability of our industry.
    Today, it is apparent that salmon recovery in the Columbia/Snake 
system is at a crossroads. The draft biological opinion signals the 
beginning of a shift in direction for the salmon recovery debate. It is 
a shift away from dam breaching, toward a performance-based plan. We 
believe this shift is long overdue, even though the Bi-Op has many 
problems and still contains many of the elements of past, failed 
efforts.
    For too long the region has argued over the ``big ticket items'', 
dam removal and flow augmentation. These two issues have been the focus 
of tremendous controversy and have dominated the public discussion. 
Now, the science is becoming more focused and the debate is shifting. 
We are now beginning to understand that the science doesn't support 
either of these strategies, especially as it relates to Snake River 
stocks.
    That is a huge problem for some folks who have staked their 
reputations on breaching and flow augmentation. Consequently, we now 
have a rebirth of the debate over who has the ``right'' science. The 
current argument is not over Crisp vs. Flush, even though that one was 
never really resolved. But we still seem to be battling over who has 
the better black box and which model more accurately reflects reality. 
Should we rely on PATH or CRI? Does the data include the most recent 
PIT tag studies or are they ignored? Did NMFS allow for enough 
collaboration on CRI, or did they manipulate their results?
    On it goes, seemingly forever, with no resolution in sight. While 
we argue, spin and debate; viable, proven and effective measures that 
will really help salmon continue to wait for the region to put its 
energy into productive recovery efforts. This is not to say that good 
things are not now being done, they are. But how much more could we 
accomplish if we really moved beyond these esoteric, self serving 
debates.
    Mr. Chairman, our industry and the residents of the Northwest that 
depend on the Columbia River system for their livelihoods, have had 
enough of this endless debate. The uncertainty hangs like a cloud and 
combined with difficult times in the agricultural sector, it is having 
a very negative effect on our industry.
    For the good of the region, it is time to develop and move ahead 
with a recovery plan. It is time for reason and common sense to merge 
with science and produce a plan that can be implemented immediately. 
For the benefit of the fish, for the benefit of the Northwest.
    That is why we agree with the approach taken by the region's 
Governor's last summer. We believe that the solutions must come from 
the region. Using the science to inform their decisions, the region's 
Governors are best situated to develop a comprehensive, balanced plan 
that will benefit endangered fish.
    NMFS and the other Federal agencies have had 10 years since the 
first listing on the Columbia/Snake system and they still have not 
produced a recovery plan. In fact, they not only don't have a plan, 
they don't even have a goal against which to measure progress. The 
performance standards in the draft Bi-Op are an attempt to set some 
goals for the operation of the system. However, they mean little 
outside the context of an overall recovery plan.
    In fact, it is our belief that the performance standards, and the 
subsequent requirement for offsite mitigation, have the potential to 
significantly damage on-going habitat improvement projects by forcing 
dam operators to go into tributary habitat areas and find projects 
which they can credit against their individual survival requirements. 
This process has the potential to disrupt local planning processes and 
to limit the willingness of local entities to cooperate in habitat 
improvement projects.
    We are advocates of performance standards. However, they must be 
developed for the whole system, not just the hydra operations, and this 
is not possible under the current Bi-Op, since it is outside its legal 
scope. This further accentuates the need for a recovery plan. We have 
to eliminate the piece meal management practices we now follow.
    Consequently, it is time to end the rancorous debate over flow 
augmentation from the Upper Snake River and the removal of the four 
Lower Snake dams. While these two issues continue to polarize the 
region, the science does not support either alternative. It is this 
fact that has some people advocating the return to older science that 
supports their position.
    First, let me touch on flow augmentation.
    Flow augmentation has failed, yet it is the primary strategy 
utilized by NMFS to mitigate for the effects of impoundment. The flow 
program is based upon a set of totally flawed assumptions. The 
Hydropower Appendix of the All-H paper States the following:
    Flow augmentation, or use of water from storage reservoirs to 
augment natural streamflows, is one of the primary strategies to 
mitigate the effects of impoundments and the regulated hydrograph on 
juvenile passage.
    Flow augmentation from storage reservoirs is intended to reduce the 
fishes' travel time to more closely approximate that of pre-dam 
conditions. The hypothesis is that increased water velocities resulting 
from higher flow rates will decrease juvenile fish travel time, 
resulting in reduced freshwater residence and earlier arrival at the 
estuary.
    Flow augmentation has virtually no effect on travel time and 
thereby offers absolutely no benefit to spring migrants. Recent work by 
Karl Dreher, ID. Dept. of Water Resources, shows that adding 1 MAF 
annually to existing flows results in less than a 0.1 mile per hour 
increase in velocity through the Lower Snake reservoirs.
    PIT tag data shows absolutely no correlation between flow and 
survival for spring/summer migrants. NMFS has finally recognized this 
in the draft Bi-Op. However, their response has been to shift the 
augmentation period to later in the summer in an attempt to benefit 
fall chinook migrants. Benefits to fall chinook from increases in 
travel time are not clear and may not exist.
    In the Hydropower Appendix of the All-H paper, the following 
summary statement is made:

          The relationship between flow and fish travel time is 
        somewhat weaker for summer migrants (e.g., fall chinook) than 
        observed for spring migrants. Fall chinook have a more complex 
        migratory behavior than spring migrants, with fish size, 
        feeding, and rearing all affecting their migration.

    NMFS science does shows a positive correlation between flow and 
survival for fall chinook smolt in the free flowing sections of the 
Lower Snake. However many experts believe this correlation is caused by 
other environmental factors. A new study by Anderson, Hinrichsen and 
Van Holmes (2000), concludes that Hells Canyon flow augmentation is 
detrimental to fall chinook due to the increase in temperature from the 
warmer upstream flows.
    It is difficult to understand, in light of the information 
presented in NMFS own science discussion, why the Federal agencies 
continue to rely on this failed recovery measure. The agencies seem to 
have an irrational attachment to flow. This is again demonstrated in 
the totally erroneous conclusions drawn at the end of the flow 
augmentation discussion of the Hydropower Appendix to the All-H Paper. 
The conclusions stated are:

          In summary, research suggests that the spring flow objectives 
        outlined above are reasonable. Flow augmentation does not 
        restore historic flow conditions, but survival rates for 
        juvenile spring/summer chinook passing eight dams approach the 
        levels observed for fish passing four dams. This suggests that 
        flow management coupled with other passage measures has had a 
        positive effect on juvenile survival.

    NMFS own science suggests exactly the opposite conclusion. While 
juvenile survival in the Lower Snake is at an all time high, flow 
augmentation has made no contribution to that survival. Now data shows 
that it might even be detrimental. Yet, NMFS is advocating for even 
greater flows from Idaho.
    It is time for NMFS and the fish managers of the Northwest to stop 
advocating flow augmentation as a one-size-fits-all solution. More 
water does not necessarily mean more fish, and in some cases, such as 
flows during the summer from the Upper Snake, it may be extremely 
harmful.
    The case for dam breaching is no better. This is not a battle over 
PATH or CRI, this issue is being driven by the hard data being 
collected in the PIT tag studies.
    However, it seems the discussion of breaching dams causes hearts to 
race and science to stagger. Advocates of dam breaching have been 
seriously hindered by the science in the past several years. That is 
why we believe the controversy over the validity of the CRI analysis is 
becoming so pointed. CRI is not new science. It is a risk assessment 
model that uses most of the same data contained in PATH, along with 
much of the later data from the PIT tag studies.
    CRI does not point to dam breaching as a ``silver bullet'' that 
will solve ail of our recovery problems. Common sense tells us that 
there is no silver bullet in an issue this complex. However, even last 
winter, prior to most of the CRI analysis being completed, NMFS science 
documents did not support breaching.
    Dam breaching does not come close to returning enough benefit to 
justify the staggering cost. NMFS research shows that the benefits of 
dam breaching are minimal, will take many years to realize and even 
then the benefits are speculative. The Anadromous Fish Appendix of the 
Corps EIS states:

          CRI analyses suggest that no single management action is 
        likely to result in sufficiently improved demography for 
        spring/summer chinook salmon. For dam breaching alone to 
        recover spring/summer chinook salmon, it would have to produce 
        improvements in estuarine and early ocean survival as high as 
        80 to 100 percent, as well as an approximate 30 percent 
        improvement in survival during upstream migration.

    In fact, the CRI analysis indicates that the most effective way to 
help Snake River stocks is to aggressively pursue actions that improve 
survival in the first year of life and during their time in the estuary 
and entry into the ocean. The Anadromous Fish Appendix states:

          On a more optimistic note, the CRI analyses suggest that a 
        combination of improvements spread throughout the life cycle, 
        and attained by a mixture of different management actions, 
        could promote adequate annual population growth for spring/
        summer chinook salmon. Numerical experiments that correspond to 
        manipulations of ``current demography'' indicate that small 
        improvements in estuarine and early ocean survival or in the 
        survival of newly-born fish, will yield the greatest rewards in 
        terms of enhanced population growth.

    The theoretical benefits of dam breaching are different for fall 
chinook and spring/summer chinook. For fall chinook, harvest reductions 
or moratoriums appear to have the same benefit as dam breaching, at a 
fraction of the overall cost. Fall chinook would also benefit, in a 
breach scenario, with increased spawning habitat. However, breaching 
the lower four Snake dams would restore only 7 percent of the 
historical fall chinook habitat; 90 percent of that habitat would 
remain unavailable.
    Benefits of dam breaching for spring/summer chinook are even more 
speculative. The only way to show any benefit to this stock from 
breaching is to manipulate the ``D'' value of the latent mortality 
calculation. This is clearly outlined in the Anadromous Fish Appendix 
of the Corps EIS:

          For spring/summer chinook salmon, there is no silver bullet 
        that is likely to adequately reduce extinction risks. For dam 
        breaching alone to recover spring/summer chinook salmon, very 
        optimistic scenarios would need to be assumed about how much 
        survival below Bonneville Dam could be improved due to the 
        elimination of latent mortality not measured during in-river 
        downstream and upstream migration.
    Delayed mortality is a theoretical concept that tries to explain 
potential survival differences between transported and in-river fish. 
To justify a breach decision biologically would require the presence of 
significant latent mortality. The All-H paper Hydropower Appendix 
states:

          Before these fish return to spawn, they may suffer additional 
        mortality that exceeds what would have occurred if they were 
        not barged. This mortality is termed differential delayed 
        transportation mortality (measured by the ``D-value''). This is 
        one of the most important parameters with regard to deciding 
        upon the role of juvenile fish transportation in salmon 
        recovery and assessing the potential benefit of dam breaching.

    NMFS own data argues against latent mortality. The All-H Hydropower 
Appendix contains the following statements:

          Breaching the Lower Snake River may be considered if 
        experimental management results find the level of delayed 
        mortality associated with transported fish is significant, 
        particularly if transported survival is less than estimated 
        natural river survival levels.

    Overall, direct survival of transported migrants is high, estimated 
at greater than 98 percent. Behavior and survival of transported fish 
following release below Bonneville Dam is similar to that of in-ever 
migrants. Some people believe that indirect mortality of transported 
fish is high (i.e., many of the fish that survived during 
transportation die later; delayed transportation mortality, but this is 
a subject of ongoing research. Some have also suggested that fish that 
migrate in-river and are undetected at dams return at higher rates than 
those that were transported. While some differences in SARs exist 
between transported and undetected in-river migrants, no significant 
differences have been observed. (emphasis added)

    Since survival of in-river and transported migrants is ``similar'', 
and since NMFS sees ``no significant difference'' in the SAR's of 
transported and undetected in-river migrants, then there is absolutely 
no evidence of latent mortality. Without latent mortality, there is no 
biological justification for breaching the Lower Snake River dams, even 
without considering the enormous costs.
    Additional factors argue strongly against breaching the lower four 
Snake River dams.
    The Corps of Engineers estimates that 50-75 million cubic yards of 
sediment will be released into the river when the dams are breached. 
This majority of this sediment will be deposited in Lake Wallula. The 
impact of this action on resident and anadromous stocks will be long 
term and severe.
    In December 1999, the Northwest Power Planning Council issued a 
report that estimates the need for 3000 MW of new electric power 
production by the year 2003. The four lower Snake dams produce 1,195 MW 
of power for the Bonneville system. Breaching these dams would increase 
the projected regional power deficit by 40 percent.
    Breaching four dams on the Lower Snake River is not a viable option 
and should not be pursued.
                                summary
    Now is the time for action, not for continued argument over the 
nuances of science. The science will never be complete. However, 
between the controversial issues of breaching and flow augmentation, 
there is general agreement on many practical, achievable and productive 
salmon recovery measures. Actions such as:
    <bullet> Act immediately to limit pinniped, avian and pikeminnow 
predation.
    <bullet> Continuing to improve mainstem passage through by-pass 
improvements and surface collectors.
    <bullet> Continue to improve transportation methods.
    <bullet> Target funding to improving critical habitat areas where 
opportunities exist to significantly increase smolt production.
    <bullet> Limit in-river harvest to tribes and work on developing 
terminal fisheries.
    <bullet> Adopt hatchery practices that encourage conservation.
    <bullet> Research the effects of ocean conditions on specific 
stocks.
    <bullet> Enforce the Pacific Salmon Treaty
    Now is the time for the region to step up to the challenge and 
implement these practical measures. We believe the best place for that 
to happen is in a regional forum led by the four Governors. We need a 
recovery plan and the Federal Government needs to work with the region 
to develop one.
    Now is the time for action on things we can agree on, not for 
continued argument over esoteric issues that are intended to support a 
biased political position.
                               __________
     Statement of Mark Benson, Director, Public Affairs, Potlatch 
                              Corporation
    I am Mark Benson, director of public affairs for Potlatch 
Corporation's western region. Potlatch Corporation is a diversified 
forest products company with holdings in Idaho, Arkansas, Minnesota, 
Nevada and Oregon. It is our pulp, paper, tissue and lumber operation 
in Lewiston, Idaho and our 670,000-acre forestland holding in north 
central Idaho that makes the FCRPS draft Bi-Op and draft Basin-wide 
Salmon Recovery Strategy important to us. Over the past 20 years we 
have developed a significant market for our paperboard in Japan and 
other parts of the Pacific Rim. Our ability to use barge transportation 
between Lewiston and Portland has been critical to our success in 
competing in these overseas markets.
    Senator Crapo, let me begin my comments by thanking you for your 
support for allowing all involved to focus on actions that will help 
the fish while leaving dams in place, protecting Idaho's water and 
meeting the needs of Idaho's communities. It is gratifying as an Idaho 
business with significant dependence on the existing river 
infrastructure to know we have unanimous support from our entire 
Federal delegation as well as our Governor. I also wish to thank you 
for providing this hearing opportunity for Idahoans to voice their 
opinions and thoughts about the Bi-Op and Basin-wide Strategy.
    As you well know, there are strongly different views of the role of 
the dams with respect to the current condition of Columbia and Snake 
River anadromous fish--both in terms of the contribution the dams make 
to the problem and in terms of their potential contribution to the 
solution.
    We believe there needs to be recognition of the strengths of the 
Bi-Op as well as its short-comings.
    Early on attention was too often focused exclusively on the dams. 
We think that was wrong, and we are encouraged that both the scientific 
and the policy focus has expanded to include the entire life cycle of 
the fish and all of the H's that impact their life cycle. The 
fundamental premise underlying the draft Bi-Op and Recovery Strategy 
paper is that we set aside dam breaching and aggressively pursue a 
range of other measures to protect and recover listed fish species.
    We see no better course available for us to take. We understand 
that the details of the draft proposals leave many areas of uncertainty 
and debate, and that the process going forward will necessarily be 
adaptive and subject to ongoing improvement. As is often the case, the 
devil is in the details. We have concerns about the specifics and 
timeframes of the performance measures.
    As the documents relate to offsite habitat management we share a 
strong concern with others in our industry about the growing Federal 
intrusion into resource management roles that historically have been, 
and should be, the province of State sovereignty. We share similar 
concerns for farming communities of our State who see their dependence 
on irrigation increasingly at risk of Federal intervention. We believe, 
therefore, that the action by our Governor in Idaho, together with the 
Governors of Washington, Oregon and Montana, in stepping forward to 
assert a strong State role in the recovery measures that must be 
undertaken is critical to an acceptable and successful outcome.
    Potlatch Corporation and the forest products industry are dedicated 
to fish recovery without interruption of the river system and its 
amenities. We believe based on our interpretation of work done both by 
government and private sector scientists that this is realistic. We are 
committed to working together with Idahoans and others in the Pacific 
Northwest who are committed to finding solutions to accomplish this 
task.
    It's important to move forward and we must move forward. In our 
opinion moving forward requires three things. Clear direction for 
maintaining the existing infrastructure, meaningful and effective 
measures for recovering fish and legal certainty.
    Mr. Chairman, in conclusion I would like to thank you for the 
strong interest you have taken in addressing this hugely difficult and 
critical issue. We deeply need the help and guidance we have come to 
expect from you in our collective goal of achieving a successful 
outcome for all of the economic, environmental and community interests 
that have so much at stake in this effort.
                               __________
 Statement of R. Scott Corwin, Director of Regional Affairs, PNGC Power
                           executive summary
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to appear before you today on behalf of PNGC Power, an 
energy services cooperative owned by 16 Northwest rural electric 
cooperatives, including six from Idaho. Our comments on the draft 
Biological Opinion and Basinwide Salmon Recovery Strategy are 
summarized below.
    Goals.--The Bi-Op and Recovery Strategy take significant steps 
forward in trying to look at species recovery in a comprehensive 
fashion. However, the goals in the Bi-Op and the Recovery Strategy fail 
to address a weakness that has continually hampered fish management in 
the Northwest: lack of prioritization and lack of reconciliation among 
conflicting goals in areas such as fish harvest and production.
    Integration.--The two documents should make more aggressive strides 
to ensure that priorities, goals, and implementation of strategies are 
coordinated with the Northwest Power Planning Council's program, the 
four Governors outline, and Tribal programs.
    Standards.--While the inclusion of the concept of performance 
standards for measuring results is worthy, many of the standards are 
incomplete and unevenly applied. In some areas there remain questions 
as to whether the measures are achievable at all.
    Dam Breaching.--The best new science continues to deny the value of 
breaching as a salmon recovery tool. We object to the inclusion in the 
draft Bi-Op of a vague set of triggers toward breaching dams, including 
requests for preliminary design work. With limited scientific or legal 
basis behind this drastic action, we fail to see how references to it 
deserve treatment alongside reasonable and prudent alternatives in this 
Biological Opinion.
    Getting the Best Value for the Investment.--The hydro system will 
continue to be a major focus of recovery efforts in this Bi-Op, and 
will continue to fund the bulk of the mitigation in the region. But, 
because science, as indicated by recent NMFS Science Center studies, 
shows that progress has raised hydro fish passage close to the point of 
diminishing returns, real success for recovery will require looking 
into other areas of the lifecycle. Efforts in the first year of life 
and in the estuary appear to be very promising in this respect.
    Balancing Effort and Costs.--We are concerned that we have yet to 
see a comprehensive budget for the Bi-Op and draft Recovery Strategy 
that contains commitments from the many relevant Federal agencies and 
regional entities. A viable plan cannot be a large blank check funded 
by the region's electricity customers.
    Power System Reliability.--While curtailing fish and wildlife 
operations during power emergencies should not take the place of good 
resource planning, language should be included in the Bi-Op that 
recognizes the need to ensure human safety.
                              introduction
    Mr. Chairman and members of the subcommittee I appreciate this 
opportunity to appear before you today to discuss the National Marine 
Fisheries Service (NMFS) Draft 2000 Biological Opinion (Draft Bi-Op) on 
the Federal Columbia River Power System (FCRPS), and the Draft 
Basinwide Salmon Recovery Strategy. Thank you for showing the 
leadership to hold this hearing to scrutinize these issues. Clearly, 
they will have enormous impact on both the environment and the economy 
of our region.
    I appear today on behalf of PNGC Power, an energy services 
cooperative owned by 16 rural electric cooperatives throughout the 
Northwest. Our Idaho members include Clearwater Power Company, based in 
Lewiston, Fall River Rural Electric Co-op, based in Ashton, Lost River 
Electric Co-op, based in Mackay, Northern Lights Inc., based in 
Sandpoint, Raft River Electric Co-op, based in Malta, and Salmon River 
Electric Co-op, based in Challis. We are a Northwest-based company that 
manages wholesale power supply and provides other technical services to 
our members and clients.
    Our interest in the Bi-Op and other processes impacting salmon and 
the river system stem from two primary concerns. The first relates to 
maintaining the delicate balance between the environment and the 
agricultural economy. As electric cooperatives, our member utilities 
answer directly to their owner/customers. These customers have a 
genuine concern for the environment and enjoy our Northwest way of 
life. Whether they are hikers, campers, fishing enthusiasts, or 
hunters, they have a personal interest in responsible conservation of 
our natural resources. In addition, many of these customers make their 
living off of the land. They understand the need to protect the 
delicate balance that allows utilization of natural resources in a 
renewable manner. In fact, this understanding, and the desire of 
cooperative customers to create new environmentally-friendly power 
sources, led our members to develop a landfill methane gas plant 
outside of Corvallis, Oregon that provides an innovative source of 
renewable energy.
    The second primary concern these customers have is that degradation 
of our low-cost hydra resources will increase power rates and decrease 
the reliability of the West Coast power system.
    Before commenting on the Bi-Op and the Recovery Strategy, I would 
like to highlight two important salmon management positions that will 
need to be filled in the next few months. From the perspective of the 
energy industry, the positions of Regional Director of the National 
Marine Fisheries Service (NMFS) and Administrator of the Bonneville 
Power Administration (BPA) play critical roles in the creation of 
balanced approaches on fish and wildlife issues. We would encourage you 
and your Senate and House colleagues from the Northwest to become 
involved very early as potential replacements are considered for these 
positions. Their importance to the region cannot be overstated.
Goals, Integration, and Standards
    Goals.--Viewed together, the Bi-Op and Basinwide Salmon Recovery 
Strategy (``Recovery Strategy'') make significant steps forward in 
trying to look at species recovery in a more comprehensive fashion than 
previously attempted. The Recovery Strategy even sets out general goals 
for the region, an important step toward coordinating recovery efforts 
among the many regional entities.
    However, the goals apparent in the Bi-Op and the Recovery Strategy 
fail to address a weakness that has continually hampered fish 
management in the Northwest: lack of prioritization and lack of 
reconciliation among conflicting goals. For example, it is not clear 
whether the region should be managing to optimize protected fish or 
whether it is attempting to optimize catchable, ``hatchery origin'' 
fish. Indeed, some have suggested that trying to manage for two types 
of fish may not be possible in the final analysis. This dilemma may 
loom large next spring with huge fish returns expected.
    Senator Crapo's statement from the hearing this subcommittee held 
on September 13th of this year posed the question: ``what sense does it 
make to have a policy where we spill fish over dams then club them to 
death when they come back?'' This hits the nail right on the head. One 
might add to this quandary the fact that we have spent large amounts of 
money at each of these steps, including creation of the hatchery fish 
in the first place. This begs for a clarification of the true goals, or 
a rethinking of the puzzling manner in which the government has chosen 
to define the particular stocks they wish to protect.
    Need for Integration and Coordination.--The policy conflicts 
surrounding harvest and hatchery management create a good example of 
the need for increased integration and coordination of the region's 
fish and wildlife policies. Currently, there are nine Federal agencies 
and numerous State and local agencies actively involved in issues 
relating to salmon recovery in the Northwest. Even within NMFS itself 
there are dual roles associated with managing fish for harvest and 
protecting them for purposes of the ESA. To give you an idea of the 
growth of the salmon recovery industry, the directory of the fish and 
wildlife community created by the Columbia Basin Fish and Wildlife 
Authority contains around 1800 names from dozens of Federal agencies, 
State agencies, tribal agencies, regional entities, educational 
institutions, industry groups, and advocacy groups.
    Integrating the myriad efforts underway in the region will be 
absolutely critical not only to ensure progress in species recovery, 
but also to attempt more efficient use of resources. Coordination on 
the funding, administration, and implementation of a recovery plan is 
absolutely crucial.
    Those managing the Bi-Op should more aggressively seek to 
coordinate on goals, priorities, and timing not only with the Northwest 
Power Planning Council as it recreates it's own fish and wildlife 
program, but also with the four Governors who have outlined their 
priorities in a document released last summer, and with the Columbia 
River Basin Tribes.
    Standards and Measures.--Once goals are established and integrated, 
one of the ways to create accountability is with specific and 
measurable performance standards. The Bi-Op and Recovery Strategy have 
some work to do in this respect. While we appreciate that they seem to 
embrace the concept of performance standards, the standards appear at 
times vague and unevenly applied.
    If the intention is to develop the performance measures as time 
moves on, it will be important that they balance the need for 
flexibility (as further scientific and programmatic information is 
received) with the need to set targets that action agencies can rely on 
as they create their 1- and 5-year plans. This will not be easy.
    Indeed, there are at least two concerns with these performance 
measures clearly evident from the start. One is that there does not 
seem to be any clear way to measure real performance in the hatchery 
and habitat areas, a problem compounded by conflicts in goals as 
discussed above. This is worrisome to ratepayers who will be asked to 
fund some of the efforts in these areas.
    The second concern is that, as the performance measures develop, it 
is difficult to know whether standards set for the hydro system will be 
achievable at all by the 5- and 8-year check-in times. It will be 
difficult to create regional agreement on this plan if these measures 
are impossible to meet. For example, the draft Bi-Op at 1.3.1.2.3 
floats the concept of ``Full Mitigation'', a standard intended to 
reflect the level of fish survival that would have occurred had the 
dams never been built. Obviously, this raises serious questions about 
how such a theoretical set of measurements could be created with 
accuracy, and whether legal authority exists for demanding a standard 
that goes well beyond prospective ``agency actions'' and into reviewing 
the very existence of a facility.
    Breaching Dams.--The triggers toward breaching the dams on the 
lower Snake River found in the draft Bi-Op at 9.1.8 and the call for 
funding to begin the process to breach dams found at 9.6.1.9 are 
problematic. For instance:
    <bullet> It is acknowledged today that breaching dams alone will 
not recover the lower Snake runs. We have no reason to expect it would 
work 5 years from now. Further, breaching will not assist the other 8 
listed salmonid runs in the Columbia River System.
    <bullet> If the lack of clear unified management goals among 
Federal, State, and tribal fish managers makes improvements in other Hs 
difficult by the 5 or 8 years check-in point, the hydro system would be 
penalized for their failures.
    <bullet> The false hope of a silver bullet of breaching dams will 
be furthered even if passage through the hydro system continues to 
improve because targets might not be met through failures in harvest/
hatchery policies, bad ocean conditions, or a host of other factors. 
Evidence of oceanic impacts is clear in studies by David Welch, Bruce 
Finney and others, and should be Pursued further.
    <bullet> In light of the newest and best available science, the 
logical and legal basis for a default to breaching dams is severely 
lacking. As discussed below, passage through the hydro system has 
improved almost to the point of diminishing returns.
    <bullet> Regardless of one's view of the science, a promise to move 
toward breaching dams in the future will not assist fish recovery in 
the present or during the time period of the Biological Opinion.
    <bullet> Certainly, because of the points raised above, preliminary 
engineering and design studies to breach dams are not warranted at this 
time.
                             accountability
    This hearing is focusing primarily on scientific issues with the 
Bi-Op. But, these are closely tied to management and accountability 
issues. For example, there is much debate about whether causal 
relationships exist with respect to salmon survival and flow 
augmentation. We are skeptical about the existence of this 
relationship, and would highlight the valid questions relating to 
turbidity, velocity, temperature, flow rates, and release of hatchery 
fish raised in a study released September 2000 by Karl Dreher of the 
Idaho Department of Water Resources. Likewise, there is fervent debate 
over nascent theories about relationships between hydro projects and 
mortality occurring later in the life of salmonids. By contrast, there 
is not much debate about the lack of a causal relationship between 
money expended on this issue and recovery of protected species. Each of 
these issues begs for more accountability.
    Getting the Best Value on Investments.--Highlighting the amount 
spent on fish and wildlife does not imply that all of these funds have 
been wasted. Progress has occurred in specific areas. But, the 
lifecycle of salmonids being complex and geographically diverse, 
progress in one arena does not necessarily lead to progress overall.
    This seems to be a theme echoed in the newest science to come from 
the NMFS Science Center in Seattle. This makes logical sense. Science 
shows that progress has been made in the hydro system that has raised 
survival close to the point of diminishing returns. Yet, some stocks 
continue to suffer. Real success in recovery will require looking into 
other areas.
    According to NMFS White Papers relying on PIT (Passive Integrated 
Transponder) tag data, survival of Snake River spring/summer chinook 
through the hydro system have increased from the 30 percent range to 
around 60 percent. This is about the level of survival before the four 
Lower Snake dams were in place.
    ``Attachment A'' contains an Oregonian newspaper editorial from 
last Saturday about the NMFS paper published in the November 3, 2000 
issue of Science Magazine. In this paper, well-respected scientists 
Kareiva, Marvier, and McClure note that ``dam passage improvements have 
dramatically mitigated direct mortality associated with dams.'' They go 
on to say that even if main stem survival were 100 percent, Snake River 
spring/summer Chinook salmon would continue to decline. They note that 
declines could be reversed with improvements in first-year survival or 
estuarine survival.
    Large losses are natural within the first year of salmonid life. 
However, when one compares survival through the hydro system of 40-60 
percent with survival in the egg-to-smolt period of 3-4 percent, it is 
easy to see how the first couple of years of life may provide broad 
possibilities for efforts in the habitat and hatchery arenas.
    These findings by Kareiva et. al. should not surprise anyone. Other 
papers in recent years have indicated that this analysis was 
forthcoming, and the NMFS Science Center has held workshops in order to 
brief the public on their progress in this area. It is evident that 
there is a lot of bang for the buck to be found by looking at measures 
focusing outside of the hydra system. This effort should also include 
reevaluating some of the assumptions surrounding presumed benefits of 
the very expensive spill and flow regimes currently used.
    Hydro Still on the Hook.--The improvements in fish passage 
referenced above came about because the FCRPS has undergone significant 
changes to improve fish survival during the last decade. Now, within 
flood control and safety requirements, the system is operated to 
maximize fish passage. Hundreds of millions of dollars have been 
invested in intake screens, surface by-pass systems, fish friendly 
turbines, transportation, gas abatement measures, and spill programs.
    Northwest ratepayers are currently paying over $400 million per 
year for fish and wildlife efforts. As explained above, this amount may 
increase in this draft Bi-Op by another $100 million or more depending 
on market prices. Fish and wildlife expenditures currently comprise a 
whopping 20 percent of the BPA costs, a percentage that will increase 
in the rate period starting next year. For rural systems where 
distribution costs typically account for half of the retail rate, this 
means a full 10 percent of customer fills go toward fish and wildlife 
mitigation.
    We've heard the view expressed that the hydro system is somehow let 
off of the hook in this Bi-Op because the Bi-Op does not immediately 
call for drastic actions such as breaching dams. This is not how we 
read this Bi-Op and Recovery Strategy.
    The draft Bi-Op calls for increased effort in the river system 
including: continued and possibly enhanced flow augmentation; possible 
enhancement of spilling water for fish; and, enormous infrastructure 
investments in items such as spill deflectors and bypass systems. BPA 
estimates that the draft Bi-Op will demand at least another 70aMW of 
lost power generation added to the amount lost through previous Bi-Ops. 
This creates a total loss to the Federal system of 991aMW, or about the 
amount of energy it takes to provide electricity to a city the size of 
Seattle for a year. The cost of that lost energy depends on the market 
rates for power during the year. In addition, we have seen proposals 
for close to $50 million of additional ratepayer costs for BPA's direct 
Fish and Wildlife program, and another $40-50 million for increases in 
capital costs and reimbursements to other agencies.
    During a short period in August, with prices for power 
skyrocketing, BPA lost approximately $40 million to fish operations. 
This begs two questions: First, do these spill operations always help 
fish? In the last spill agreement reached among river managers, spill 
was reduced at The Dalles Dam because studies there showed that the 
higher rate of spill was harming fish. The Bi-Op and Recovery Strategy 
should not automatically assume benefits from spill, and should promote 
continued study and reconsideration of this practice.
    Second, should there be a cost/benefit decisionmaking process 
associated with these operations. If spilling water is going to cost 
$40 million of ratepayer funds in the span of a few days, the potential 
benefit of that operation should be weighed against other assistance 
for fish that might be purchased with that large sum of money. What 
benefits to fish or to the regional economy are lost in these 
scenarios? A regional salmon recovery strategy should consider these 
cost/benefit questions.
    Balancing the Cost.--The draft Bi-Op also calls for a balancing of 
the effort into other areas in order to respond to what the science is 
telling us about the progress in hydra system passage to date, and 
about the potential for gains in other areas of the salmon lifecycle. 
We suspect that BPA ratepayers will be asked to fund a significant 
portion of those non-hydro efforts. However, ratepayer funding cannot 
be the exclusive source of Endangered Species Act (ESA) funding for the 
region. In fact, the Northwest Power Act does not permit BPA funds to 
be used ``in lieu'' of fund responsibilities of other entities.
    We are concerned because we have yet to see a comprehensive budget 
for the Bi-Op and draft Recovery Strategy. While we suspect that 
ratepayers will be asked to pick up a large portion of the tab, we have 
yet to see budget commitments from other Federal agencies or regional 
entities. The Endangered Species Act is a national law with national 
implications. Salmon and steelhead listed under this act are species 
that are impacted by myriad factors well beyond the reach of the hydro 
system. This effort should call for specific budgets and extensive 
funding commitments from the various Federal agencies, especially the 
U.S. Fish and Wildlife Service, the Army Corps of Engineers, the Bureau 
of Reclamation, the Forest Service, and the National Marine Fisheries 
Service. To be viable, this plan cannot become a very large blank check 
funded on the backs of the homeowners, farmers, and ranchers who are 
contractually obligated to buy power from the FCRPS over the next 10 
years.
              power system reliability and the draft bi-op
    The Northwest Power Act States that the Northwest Power Planning 
Council should create a program to mitigate for impacts to fish and 
wildlife while assuring the Pacific Northwest an adequate, efficient, 
economical and reliable power supply.
    Operation of the hydra system for fish is inextricably tied to 
reliability of the West Coast power system. This is especially true 
when power supply is short. As alluded to above, power costs 
skyrocketed to as high as $700 MWh this summer when supply was short. 
And, there is good reason to be concerned about potential power 
supplies this winter and next summer.
    Ironically, in the same issue of Science Magazine in which Dr. 
Kareiva's article appeared on November 3, 2000 there was an article 
entitled ``Decreasing Reliability of Energy'' by editor Philip Abelson. 
This article notes the greatly increasing demand for electrical power 
in the United States, potentially rising from 40 percent of all power 
usage now to 70 percent by 2050. Demand is expected to grow by 20 
percent in the next decade alone, while planned growth of the 
transmission system is only expected to be around 3.5 percent.
    At the same time that demand for power is increasing, there is 
continued movement to discourage use of fossil fuels. Last week, 
President Clinton called for Federal regulations limiting power plant 
emissions of carbon dioxide. This forces some very difficult questions 
about how we will prioritize our sources of power in the future.
    In our region, the Northwest Power Planning Council has estimated 
that we will have a one in four chance of not getting through the 
winter without a supply interruption over the next few years. This is 
five times worse than the normally accepted standard. In order to bring 
our region up to standard, it would require almost 3,000 megawatts of 
new generating resources by 2003.
    To address the potential for trouble with power supply in relation 
to the salmon recovery effort, the Northwest Power Planning Council has 
requested that language be included in the Bi-Op to address several 
concerns. We concur with their request to include the following:
    <bullet> In emergency situations, fish and wildlife operations can 
be curtailed. (This is simply a no-nonsense issue relating to human 
safety concerns).
    <bullet> The option of curtailing fish and wildlife operations 
during emergencies should not be used in lieu of establishing an 
adequate and reliable power system. (Certainly, power supply concerns 
in the Northwest go far beyond operations for fish and should be 
planned for as such).
    <bullet> The option of curtailing fish and wildlife operations 
should be viewed as a last-resort action. An emergency protocol should 
be developed that incorporates not only curtailment of fish and 
wildlife operations but also whatever other actions could be helpful to 
alleviate the situation.
    <bullet> Proposed new resources (whether generating or demand-side) 
that integrate more effectively with fish and wildlife operations 
should be given priority.
                               conclusion
    This subcommittee knows well that the Endangered Species Act cannot 
be implemented in a vacuum. Because it coexists with many other laws 
and priorities, reasonable and balanced solutions are needed to meet 
it's mandates. The draft Bi-Op and Salmon Recovery Strategy take some 
important first steps toward creating a balanced scientifically based 
recovery plan. But, there is a lot of room for clarification and 
improvement.
    Success in this challenge will be extremely difficult unless 
increased efficiency of effort can be achieved, including 
accountability not only for results across all Hs but also for each 
dollar spent. Without clearer goals and better accountability we will 
succeed only in continuing to create the sense of crisis that ensures 
increased expenditures without real results to show for our effort.
    It is our hope that your interest in this issue, including your 
continued demand for the best scientific knowledge possible, will help 
lead the region to a coordinated approach to real recovery of these 
precious species. Again, thank you for your efforts, and thank you for 
this opportunity to testify today.
                                 ______
                                 
              [The Oregonian, Saturday, November 18, 2000]

                    Science Shifting on Dam Removals

    peer-reviewed article in journal science makes strong case that 
             breaching dams is not best way to save salmon
    No matter who winds up winning the White House, it's quite clear 
that neither the next president nor Congress will recommend breaching 
four dams on the lower Snake River anytime soon.
    Those who have campaigned so vigorously to remove the Snake dams no 
doubt will be disappointed, and may charge that a decision to leave the 
dams intact is politically motivated.
    But the truth is dam-breachers are losing the fight on scientific 
grounds.
    Recently, the Federal Government's top salmon researchers, in an 
article published in the respected journal Science, an arm of the 
American Association for the Advancement of Science, concluded that 
breaching dams probably isn't an effective way to save salmon from 
extinction.
    The article by Peter Kareiva, Michelle McClure and Michelle Marvier 
of the National Marine Fisheries Service lays out a solid case for 
leaving the dams. It argues that increasing salmon survival in the 
early life stages before the smolt reach the four dams--and later in 
the Columbia estuary, below all eight dams in the Snake River salmon's 
path--would have the greatest impact.
    Under some of article's assumptions, the improvements in survival 
from removing dams would be too little to save Snake River spring/
summer chinook. The article drives this point home by saying. 
``Remarkably, even if every juvenile fish that migrated downstream 
survived to the mouth of the Columbia,'' the salmon would continue to 
decline.
    Put another way, breaching the four Snake River dams isn't likely 
to benefit the Snake River-bound fish as much as earlier scientific 
opinions suggest.
    The fisheries service's monitoring studies, in which salmon are 
collected and tagged before they make the trip to the sea, not only 
give us information about where fish go, they also tell us a lot more 
about where and how they die.
    As a result, some of the salmon deaths that have been blamed on the 
dams--speculative estimates that have tilted computer models in favor 
of dam breaching--are probably caused by other factors, such as 
predation and declining habitat for rearing salmon.
    The Science article adds credibility to the fisheries service's 
findings. The agency is expected to complete its policy paper next 
month, likely recommending that the region forego dam breaching for now 
and take other actions to help salmon.
    Those actions include restoring the rivers and streams where salmon 
spawn, restoring the Columbia River estuary where young salmon feed and 
grow before heading out to sea, reducing harvest, improving fish 
passage around the dams and overhauling antiquated hatchery practices.
    As we learn more about what happens to the salmon in their various 
fresh water stages, the science is tilting away from dam breaching. 
Perhaps we don't know enough yet to take dam removal off the table, but 
the current is running against it.
                               __________
             Statement of Save Our Wild Salmon, Seattle, WA
 cost comparison for the removal or retention of the four lower snake 
                                  dams
    The Army Corps of Engineers Draft Environmental Impact Study (DEIS) 
claims that with all costs tallied, partial removal of four Lower Snake 
River dams would cost $246 million more each year than other 
alternatives. In fact, the DEIS underestimates both the benefits of dam 
bypass and the costs of keeping the dams in place. A comprehensive look 
at all costs and benefits, considering habitat and hatchery costs as 
well as others the DEIS omits, such as flow augmentation and Clean 
Water Act compliance, suggests that dam bypass saves at least $50 
million annually and would contribute nearly $500 million a year in 
additional real benefit value.
    The costs and benefits listed below are conservative. In several 
cases, the cost of retaining dams is likely larger. The Clean Water Act 
estimate below does not account for compliance with temperature 
standards. An alternate flow augmentation cost estimated by the Bureau 
of Reclamation is hundreds of millions more per year. And the costs 
still do not account for the Snake River's share of Federal fish 
mitigation spending, estimated by Taxpayers for Common Sense at 
approximately $100 million per year. Also, the benefits of removing 
dams are likely far larger than estimated by the DEIS. Based on the 
middle estimate of recreation benefits, the recreation value of dam 
bypass would be at least $199-342 million per year. The passive or 
existence values of the salmon were calculated by the Army Corps but 
were not added into the Corps' summary documents. Using just the 
figures calculated by the Corps, but correcting adding the costs of dam 
retention and the benefits of dam removal, the savings from dam removal 
would run close to $500 million per year.
    Throughout the DEIS the Corps minimizes the benefits of dam 
removal. The fact that the Corps accounts for $20 million a year under 
Mitigation for maintaining Habitat Management Units (HMU) is absurd. 
HMU's are riparian lands that were established to compensate for the 
portions along the river that were flooded when the dams were built. 
Over 34,000 acres of riparian land will be uncovered after dam removal. 
The Corps does not include the value of this ``new'' land to be a 
benefit.
    Furthermore the costs of dam removal could be reduced significantly 
with prudent investments in infrastructure in areas like power 
generation and transportation. The Corps has not studied these types of 
investments even though the Federal Government thinks it necessary to 
do so. Still, the Corps numbers (summarized below) give us a basic 
understanding of the economic reasonableness of dam removal.

 
------------------------------------------------------------------------
                                   Benefits if Dams    Benefits if Dams
              Stay                    are Removed            Stay
------------------------------------------------------------------------
Recreation......................  $123 million......  $32 million
                                  Low estimate of
                                   rec. benefits if
                                   dams were
                                   removed. (DEIS I3-
                                   54).
                                  Estimation of
                                   reservoir angling
                                   and reservoir
                                   general
                                   recreation. (DEIS
                                   I3-54).
Passive or Existence Values*       .................  $420 million per
                                                       year
 ...............................  -0-...............
------------------------------------------------------------------------
* Calculated and published in DEIS documents but not included in final
  report calculations (I-ES 17).


 
------------------------------------------------------------------------
                                   Costs if Dams are
                                        Removed        Cost if Dams Stay
------------------------------------------------------------------------
Dam Construction/Deconstruction.  $64 million.......  $21.3 million
                                  Partial removal of
                                   four Lower Snake
                                   Dams (DEIS I3-
                                   157) ``Major
                                   System
                                   Improvements''
                                   (DEIS I3-157).
Dam Operation, Maintenance &      $0................  $29 million
 Rehabilitation.
                                  Avoided Costs.
                                   (DEIS I3-159)..
                                  Alt. power
                                   generation
                                   replacement, e.g.
                                   gas turbines.
Transportation..................  $24 million.......  $10 million
                                  Increased
                                   transportation
                                   costs for rail or
                                   truck/barge.
                                   (DEIS, I12-2).
                                  Reduced
                                   significantly w/
                                   infrastructure
                                   investments. See
                                   AR study by
                                   Dickey..
                                  Conservative
                                   estimate of
                                   barging taxpayer
                                   subsidy (Grain
                                   Transportation
                                   After Partial
                                   Removal of the
                                   Lower Snake River
                                   Dams, Dr. Edward
                                   Dickey. Sept.,
                                   1999).
Irrigation......................  $15.4 million.....  $0
                                  Primarily Ice
                                   Harbor irrigation
                                   infrastructure
                                   (DEIS I12-2).
Flow Augmentation...............  $0................  $182 million
                                                      An additional 1.0
                                                       million acre-feet
                                                       studied by Bureau
                                                       of Reclamation.
                                                       Cost includes
                                                       acquisition of
                                                       flow, effect on
                                                       upriver
                                                       recreation,
                                                       annual loss in
                                                       farming gross
                                                       revenues, and
                                                       decrease in value
                                                       of production.
                                                       (Bureau of Rec.
                                                       Flow Aug. Impact
                                                       Analysis.
                                                       February 1999.)
Mitigation......................  $26 million.......  $0
                                  Fish and wildlife,
                                   cultural. (DEIS,
                                   I13-2).
Clean Water Act.................  $0................  $30 million
                                                      Total cost $460
                                                       million, divided
                                                       along the same 15-
                                                       year timeline
                                                       used in the All-H
                                                       habitat
                                                       estimates.
                                                       (Resolving Rate
                                                       Case Issues.
                                                       Federal Memo, May
                                                       11, 1999.)
Habitat.........................  $159 million......  $241 million
                                  The cost of a
                                   reduced habitat
                                   program
                                   implemented if
                                   the dams are
                                   removed. (NMFS
                                   All-H Habitat
                                   Appendix, January
                                   2000).
                                  An aggressive
                                   habitat program..
                                  Does not include
                                   flow
                                   augmentation.
                                   (NMFS All-H
                                   Habitat Appendix,
                                   January 2000).
Hatchery Improvements...........  $7.4 million......  $12.4 million
                                  (Resolving Rate
                                   Case Issues.
                                   Federal Memo, May
                                   11, 1999).
                                 ---------------------------------------
  Total cost....................  $444 million/year.  $494 million/year
Reduction in Irrigated Lands*...  (1,579)...........  0
Reductions in Corps' Dam          (1,326)...........  0
 Operations.
Reduced Cruise Ship Operations..  (83) 0............
                                 ---------------------------------------
  Total Long-term Employment      (2,988)...........  (2,382)
   Loss.
Net Long-term Employment Change   (711).............  (1,257)
Net Change as a percent of 1995   (0.22)............  (0.02)
 Employment
------------------------------------------------------------------------
* The vast majority of these jobs are seasonal, part-time. (Source: DEIS
  table 5.13-2)

    The Corps of Engineers estimates of economic impact are unrealistic 
in two other important ways. First, they downplay or ignore economic 
benefits outside their 25-county study area, ignoring economic benefits 
to tribes, to coastal communities, and the economic growth that follows 
restoration of a more healthy ecosystem. Second, large costs and 
economic disruptions of keeping dams in place are not counted in the 
Corps study.
    A comprehensive look at all costs and benefits, considering habitat 
and hatchery costs as well as others the DEIS omits, such as flow 
augmentation and Clean Water Act compliance, suggests that dam bypass 
saves at least $50 million annually. The Bureau of Reclamation has 
estimated that flow augmentation, adding water to the dammed river from 
upstream reservoirs, could cost at least $182 million a year, 
disrupting hundreds of thousands of acres of irrigated land, where dam 
removal would affect no more than 37,000 acres. Compliance with the 
Clean Water Act could cost $460 million or more if dams stay in place. 
And the cost of Tribal Treaty claims if fish go extinct, estimated in 
billions of dollars, would dwarf all other costs. The Corps ignores 
these costs.
    Although some habitat restoration would be necessary if dams are 
removed, the Corps did not give any value to restoring 140 miles of the 
mainstem Snake, which would reveal 34,000 acres of inundated riparian 
land and approximately 13,000 acres of river surface area, increasing 
bio-mass in the lower Snake by 70 percent. The NW Power Planning 
council analyzed alternatives that include aggressive, widespread 
habitat actions that would be necessary if dams remain in place. The 
NPPC Framework Human Effects Group found the habitat-reliant 
alternative would cost $40 million more than dam removal, and would 
broadly impact farming, grazing, logging and other land uses.
    Removal of four lower Snake River dams would create significant 
economic opportunities for construction trades, while implementing the 
only salmon recovery solution that scientifically promises salmon 
recovery. Alternatives that keep dams in place present few benefits for 
carpenters, are more expensive for the public and more economically 
disruptive to the region, and have little or no evidence that they will 
lead to salmon recovery.
    The Corps of Engineers Draft Environmental Impact Statement (DEIS) 
calculates the job gains and losses that would occur if the four lower 
Snake dams are removed. By focusing on a 25-county ``study area'' 
surrounding the lower Snake River, the DEIS generally under-estimates 
economic benefits and over-estimates job losses and economic costs 
associated with dam removal. It fails to capture the general economic 
benefit of a healthy river and salmon recovery. The DEIS estimates more 
than 20,000 jobs would be created in the 10 years during which partial 
dam removal would proceed, including:
    <bullet> 12,000 construction jobs building up to six replacement 
power plants and electric transmission lines
    <bullet> 3,000 jobs building improved rail and road infrastructure
    <bullet> 1175 jobs modifying wells

           Job Impacts During 10 Years of Partial Dam Removal
------------------------------------------------------------------------
                                  Lower Snake
                               River Study Area          Regional
------------------------------------------------------------------------
Power Plant Construction.....  5,572...........                    2,786
Transmission Line              2,080...........                        0
 Construction.
Rail Construction............  872.............                        0
Road Construction............  1,972...........                        0
Facilities Construction......  6,982...........                        0
Railcar Storage Construction.  0...............                       63
Well Modification............  1,175...........                        0
Pump Modification............  844.............                        0
Partial Removal                1,293...........                        0
 Implementation.
                              ------------------------------------------
  Total Change...............  20,790..........                    2,849
Change as percent of 1995      6.52............                     0.05
 Employment.
------------------------------------------------------------------------
(Source: DEIS table 5.13-2)

    Beyond the 10-year construction period, the DEIS estimates a small 
net loss in regional jobs, but includes gains in areas that could 
affect construction trades. The estimates exaggerate the impacts of 
reduced irrigated agriculture, ignoring approaches that could keep land 
in production and counting seasonal part-time jobs at the same level as 
full-time jobs. The DEIS also under-estimates the value of increased 
recreation that would follow restoration of 140 miles of free-flowing 
river. And a study by the Natural Resources Defense Council predicts 
that costs associated with increased electric bills could be reduced 
substantially by conservation.

                          Long-Term Job Impacts
------------------------------------------------------------------------
                                   Lower Snake River
                                      Study Area           Regional
------------------------------------------------------------------------
O&M Spending on Replacement       884...............  876
 Power.
Plants & New Transmission Lines.
Increased Recreation (inc.        1,393.............  0
 Angling).
Commercial Fishing..............  ..................  249
                                 ---------------------------------------
  Total Long-term Employment      2,277.............  1,125
   Gain.
Reduced Spending due to           (2,382)...........
 Increased Electric Bills.
Power                             $271 million......  $0
                                  Alt. power
                                   generation
                                   replacement,
                                   e.g., gas
                                   turbines.
Transportation..................  $24 million.......  $10 million
                                  Increased
                                   transportation
                                   costs for rail or
                                   truck/barge.
                                   (DEIS, I12-2).
                                  Reduced
                                   significantly w/
                                   infrastructure
                                   investments. See
                                   AR study by
                                   Dickey.
                                   Conservative
                                   estimate of
                                   barging taxpayer
                                   subsidy (Grain
                                   Transportation
                                   After Partial
                                   Removal of the
                                   Lower Snake River
                                   Dams, Dr. Edward
                                   Dickey. Sept.
                                   1999.).
Irrigation......................   .................
                                  $15.4 million.....  $0
                                  Primarily Ice
                                   Harbor irrigation
                                   infrastructure
                                   (DEIS I12-2).
Flow Augmentation...............  $0................  $182 million
                                                      An additional 1.0
                                                       million acre-feet
                                                       studied by Bureau
                                                       of Reclamation.
                                                       Cost includes
                                                       acquisition of
                                                       flow, effect on
                                                       upriver
                                                       recreation,
                                                       annual loss in
                                                       farming gross
                                                       revenues, and
                                                       decrease in value
                                                       of production.
                                                       (Bureau of Rec.
                                                       Flow Aug Impact
                                                       Analysis.
                                                       February 1999.)
Mitigation......................  $26 million.......  $0
                                  Fish and wildlife,
                                   cultural. (DEIS,
                                   I13-2).
Clean Water Act.................  $0................  $30 million
                                                      Total cost $460
                                                       million divided
                                                       along the same 15-
                                                       year timeline
                                                       used in the All-H
                                                       habitat
                                                       estimates.
                                                       (Resolving Rate
                                                       Case Issues.
                                                       Federal Memo, May
                                                       11, 1999.)
Habitat.........................  $159 million......  $241 million
                                  The cost of a
                                   reduced habitat
                                   program
                                   implemented if
                                   the dams are
                                   removed. (NMFS
                                   All-H Habitat
                                   Appendix, January
                                   2000).
                                  An aggressive
                                   habitat program.
                                   Does not include
                                   flow
                                   augmentation.
                                   (NMFS All-H
                                   Habitat Appendix,
                                   January 2000).
Hatchery Improvements...........  $7.4 million......  $12.4 million
                                  (Resolving Rate
                                   Case Issues.
                                   Federal Memo, May
                                   11, 1999).
                                 ---------------------------------------
  Total cost....................  $444 million/year.  $494 million/year
------------------------------------------------------------------------

                          jobs and employment
    Removal of four lower Snake River dams would create significant 
economic opportunities for construction trades, while implementing the 
only salmon recovery solution that scientifically promises salmon 
recovery. Alternatives that keep dams in place present few benefits for 
carpenters, are more expensive for the public and more economically 
disruptive to the region, and have little or no evidence that they will 
lead to salmon recovery.
    The DEIS calculates the job gains and losses that would occur if 
the four lower Snake dams are removed. By focusing on a 25-county 
``study area'' surrounding the lower Snake River, the DEIS generally 
under-estimates economic benefits and over-estimates job losses and 
economic costs associated with dam removal. It fails to capture the 
general economic benefit of a healthy river and salmon recovery. The 
DEIS estimates more than 20,000 jobs would be created in the 10 years 
during which partial dam removal would proceed, including:
    <bullet> 12,000 construction jobs building up to six replacement 
power plants and electric transmission lines.
    <bullet> 3,000 jobs building improved rail and road infrastructure.
    <bullet> 1,175 jobs modifying wells.

           Job Impacts During 10 Years of Partial Dam Removal
------------------------------------------------------------------------
                                                Lower Snake
                                                River Study    Regional
                                                    Area
------------------------------------------------------------------------
Power Plant Construction......................        5,572        2,786
Transmission Line Construction................        2,080            0
Rail Construction.............................          872            0
Road Construction.............................        1,972            0
Facilities Construction.......................        6,982            0
Railcar Storage Construction..................            0           63
Well Modification.............................        1,175            0
Pump Modification.............................          844            0
Partial Removal Implementation................        1,293            0
                                               -------------------------
  Total Change................................       20,790        2,849
Change as percent of 1995 Employment..........         6.52         0.05
------------------------------------------------------------------------
(Source: DEIS table 5.13-2)

    Beyond the 10-year construction period, the DEIS estimates a small 
net loss in regional jobs, but includes gains in areas that could 
affect construction trades. The estimates exaggerate the impacts of 
reduced irrigated agriculture, ignoring approaches that could keep land 
in production and counting seasonal part-time jobs at the same level as 
full-time jobs. The DEIS also under-estimates the value of increased 
recreation that would follow restoration of 140 miles of free-flowing 
river. And a study by the Natural Resources Defense Council predicts 
that costs associated with increased electric bills could be reduced 
substantially by conservation.

                          Long-Term Job Impacts
------------------------------------------------------------------------
                                                Lower Snake
                                                River Study    Regional
                                                    Area
------------------------------------------------------------------------
O&M Spending on Replacement Power.............          884          876
Plants & New Transmission Lines...............
Increased Recreation (inc. Angling)...........        1,393            0
Commercial Fishing............................                       249
                                               -------------------------
  Total Long-term Employment Gain.............        2,277        1,125
Reduced Spending Due to Increased.............      (2,382)
Electric Bills................................
Reduction in Irrigated Lands*.................      (1,579)            0
Reductions in Corps' Dam Operations...........      (1,326)            0
Reduced Cruise Ship Operations................         (83)            0
                                               -------------------------
  Total Long-term Employment Loss.............      (2,988)      (2,382)
Net Long-term Employment Change...............        (711)      (1,257)
Net Change as a percent of 1995 Employment....       (0.22)       (0.02)
------------------------------------------------------------------------
* The vast majority of these jobs are seasonal, part-time.
(Source: DEIS table 5.13-2)

    The Corps of Engineers estimates of economic impact are unrealistic 
in two other important ways. First, they downplay or ignore economic 
benefits outside their 25-county study area, ignoring economic benefits 
to tribes, to coastal communities, and the economic growth that follows 
restoration of a healthier ecosystem. Second, large costs and economic 
disruptions of maintaining the dams are not counted in the Corps study.
    Compliance with the Clean Water Act could cost $460 million or more 
if dams stay in place. And the cost of Tribal Treaty claims if fish go 
extinct, estimated in billions of dollars, would dwarf all other costs. 
The Corps ignores these costs.
    Although some habitat restoration would be necessary if dams are 
removed, the Corps did not give any value to restoring 140 miles of the 
mainstem Snake, which would reveal 34,000 acres of inundated riparian 
land and approximately 13,000 acres of river surface area, increasing 
bio-mass in the lower Snake by 70 percent. The NW Power Planning 
council analyzed alternatives that include aggressive, widespread 
habitat actions that would be necessary if dams remain in place. The 
NPPC Framework Human Effects Group found the habitat-reliant 
alternative would cost $40 million more than dam removal, and would 
broadly impact farming, grazing, logging and other land uses.
                               __________
  Statement of Matt Eames, Senior Legislative Affairs Representative, 
                          Idaho Power Company
    The Idaho Power Company (IPC) appreciates this opportunity to 
provide written comment in response to Senator Mike Crapo's November 
20, 2000 public hearing in Boise, Idaho on the draft biological opinion 
on the Federal Columbia River Power System (FCRPS BO) and the draft 
basin-wide salmon recovery strategy issued by the Federal Caucus 
(commonly known as the final draft ``All-H paper''). These comments 
must be put in context with the background of the Company's facilities, 
their physical location within the Snake River Basin, and the Company's 
current involvement with the dynamic set of processes unfolding in the 
region with respect to the fishery resources.
    IPC is an investor-owned utility formed in 1915. On October 1, 
1998, IPC adopted a holding company structure with the formation of 
IDACORP, Inc. which serves as the parent company of IPC. IPC owns and 
operates 16 hydroelectric plants on the Snake River and its tributaries 
that are licensed by the Federal Energy Regulatory Commission (FERC). 
It also holds an interest in three coal-fired generating stations. IPC 
provides electric service to approximately 380,000 customers within a 
20,000 square-mile service area covering portions of southern Idaho, 
eastern Oregon and northern Nevada.
    The largest hydroelectric facility on the IPC system is the Hells 
Canyon Complex (HCC) consisting of the Brownlee, Oxbow and Hells Canyon 
dams. By opinion and order issued by the Federal Power Commission (now 
FERC) on August 4, 1955, IPC was granted a license to construct and 
operate three hydropower projects in the Hells Canyon reach of the 
Snake River. While separate applications were filed for each of the 
projects, the three were consolidated in the order issuing the license 
and have since been collectively referred to as the HCC, FERC Project 
No. 1971. The three facilities are located at RM 247-Hells Canyon Dam, 
RM 273-Oxbow Dam and RM 285-Brownlee Dam. The Brownlee facility, 
uppermost of the three, is the primary storage reservoir for IPC. The 
HCC is located on the Snake River upstream from Lewiston, Idaho and 
four lower Snake River Federal dams (Ice Harbor, Lower Monumental, 
Little Goose, & Lower Granite).
    The current FERC license for the HCC expires in 2005. IPC is 
presently engaged in a relicensing process initiated in accordance with 
applicable FERC regulations. As part of this process IPC has initiated 
a collaborative process involving State and Federal resource agencies, 
Native American Indian Tribes and numerous smaller public and private 
interests. In preparation for the filing of a license application, IPC 
has also initiated various aquatic studies relating to the HCC. These 
studies were developed in accordance with FERC regulations with input 
from collaborative team members, including some of the agencies 
represented on the Federal Caucus. IPC anticipates that the majority of 
the studies will be completed by 2001 in order to allow for the 
preparation of a draft license application by late that year or early 
2002.
    In general, IPC believes that the draft FCRPS BO and All-H Paper 
commit three principal errors. First, the premise that flow 
augmentation from the upper Snake River is efficacious is wrong. 
Second, a party's responsibility for any loss of the fishery should 
correlate with its contribution to recovery efforts. Third, as to the 
HCC and Upper Snake, theory has been allowed to outstrip science.
                           flow augmentation
    The National Marine Fisheries Service and other members of the 
Northwest Federal caucus have consistently advocated flow augmentation 
from the Upper Snake River as a key component of salmon recovery. They 
have done so even in the face of studies by their own agency and by 
some State government officials that indicate the contrary. The 
assertion that flows from the Upper Snake River are efficacious is 
wrong--it is wrong both generally, in terms of the alleged correlation 
between flows from all of Idaho and fish survival, and specifically in 
its assertion that the HCC operations could substantially assist salmon 
survival in the lower Snake and Columbia rivers. IPC has reviewed 
previous comments submitted by the Idaho Water Users Association and 
Committee of Nine to the draft FCRPS BO and 
All-H Paper and supports their prosition that the use of Upper Snake 
River water for flow augmentation will neither reverse the decline nor 
aid in the recovery of listed species. IPC also concurs with the State 
of Idaho's comments to on the All-H paper denouncing flow augmentation 
as a valuable tool for salmon recovery.
    This is not to say that flows in Snake River may not affect 
anadromous and native fish in the Snake River. In 1991, IPC implemented 
the Fall Chinook Recovery Plan to address flow and operational issues 
that might affect fall chinook habitat below the HCC. IPC is also 
presently conducting a study in connection with relicensing (Hells 
Canyon Instream Flow Assessment) to explore issues relating to flows 
and operations at the HCC and the effects upon not only fall chinook 
but also white sturgeon and native salmonids (bull and redband trout) 
present in the Hells Canyon reach. This study, together with other 
studies and analysis, will be completed through the HCC relicensing 
process and will provide a scientific and reasoned basis upon which to 
assess the effects of the flows and the HCC on fishery resources.
                         responsibility counts
    IPC believes the FCRPS BO and All-H paper are mis-focused and as a 
result and will fail in their intended goal to restore listed 
endangered fish as prescribed by the Endangered Species Act. The 
documents rely too heavily on habitat improvements in Idaho and on the 
unproven experiment of flow augmentation measures from Idaho's Upper 
Snake River and de-emphasize the impact on downstream impacts. Existing 
spawning habitat in Idaho is in good condition and is adequate to 
support recoverable levels of listed species. While habitat 
improvements may be of obvious benefit, improvements in this area will 
not result in the intended recovery levels desired by the documents or 
the ESA. IPC believes the documents should direct more intense efforts 
on downstream activities such as estuary improvements, fish passage 
improvements at the four lower snake dams, predation, and commercial 
and tribal harvest.
    In this context, those interests who have not adversely impacted 
the fisheries resources should not be made to bear a disproportionate 
amount of the pain for assisting in their recovery. The draft FCRPS BO 
and All-H Paper, however, propose in large part to assign equal 
responsibilities for remediation to all members of the Snake River's 
community. This is inequitable for all Idaho interests. IPC has 
addressed past effects of the HCC on fishery resources through the 1980 
Settlement Agreement and continues to address current or potential 
effects of the HCC through the Fall Chinook Plan and ongoing studies 
initiated in the connection with relicensing. It has also cooperated 
with the implementation of measures under the 1995 Biological Opinion 
which were intended to avoid jeopardy of the FCRPS. (IPC has been 
reimbursed for some, but not all, of the costs associated with these 
latter 
efforts because the measures implemented were to mitigate for impacts 
not attributable to the development and operation of the HCC. 16 U.S.C. 
section 839(h)(11)(A).)
    Another example of using a broad brush in assessing contribution 
without addressing responsibility relates to the general Federal goals 
for a regional fish recovery plan. In large part, the goals are in 
conflict, at least in the context of ESA 
recovery concepts. One goal is to conserve the species--avoid 
extinction and foster long-term survival and recovery. Another is to 
assure Tribal fishing rights--restore salmon and steelhead over time to 
a level that provides a sustainable harvest. Neither the draft FCRPS BO 
nor the All-H Paper specifies the level of recovery necessary to 
achieve either of these goals, but it seems likely that the level 
necessary to sustain a tribal harvest is far greater than that 
necessary for conservation of the species. This raises serious 
questions as to whether non-Federal interests can be compelled to 
contribute to recovery goals that may go beyond necessary conservation 
measures and address Federal trust or treaty responsibilities to Native 
American Indian Tribes.
                   theory should not outstrip science
    While conceptual planning is important, the draft FCRPS BO and All-
H Paper have a tendency to allow theory to outstrip study efforts that 
were designed to formulate in a careful, cooperative manner a plan to 
address fisheries issues on the basis of the best scientific and 
commercial data. This ignores the dynamic, interactive character of the 
processes unfolding in the basin. Prejudgment is neither good science 
nor prudent politics, both of which are essential in crafting an 
appropriate and acceptable approach to the difficult questions our 
region's fisheries present. IPC would urge the Federal interests to not 
allow the process of building a conceptual recovery plan to outstrip 
other Federal, State or regional processes that are proceeding parallel 
to that effort and that may, if considered, aid in identifying viable 
recovery and conservation alternatives. This is even more critical in 
light of the electrical energy situation in the northwest and west in 
general. Clearly, recent events of this past year in California and 
northwest markets have indicated that the region is short of electrical 
supply. This has obvious effects on energy prices and negative 
reverberations in the economy. According to the Northwest Power 
Planning Council, the region needs an additional 3,000 megawatts of 
generating resources by 2003 to lesson the risk of critical power 
shortages during peak periods. Hydropower plays a critical role in the 
northwest energy markets as a whole and plays an equally critical role 
in maintaining reliability because of its unique nature to follow load 
and ancillary ability to maintain voltage support. With this situation 
not likely to correct itself any time soon, putting Federal and non-
Federal hydropower at risk by recommending unsound scientific remedies 
is irresponsible.
                                summary
    The draft FCRPS BO and All-H paper attempt to recover listed fish 
by expanding beyond the Federal hydropower system and implement a 
strategy based on improvements to hatcheries, habitat, and harvest. 
Unfortunately, the strategy places too much emphasis on improved 
habitat in the upstream spawning areas where excellent habitat already 
exists. The plan also falters by attempting to implement what is 
largely a political strategy by continuing to call for additional upper 
Snake river flow augmentation water even though the science concludes 
other wise. The documents need to be amended to focus on areas where 
immediate improvements will have the greatest and more immediate chance 
to meet recovery goals, such as Lower Snake and Columbia fish passage 
improvements, such as those suggested by the four Northwest Governors. 
The documents should also focus on mixed stock harvest issues, estuary 
habitat improvements and predation.
    Thank you for this opportunity to provide comments on this 
paramount issue for the northwest's future.
  

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
